<html>
<title> - NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 108TH CONGRESS</title>
<body><pre>[Senate Hearing 108-002]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 108-002

        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     FIRST SESSION, 108TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

  PAUL McHALE; CHRISTOPHER RYAN HENRY; STEPHEN A. CAMBONE; JOHN PAUL 
 WOODLEY, JR.; LINTON F. BROOKS; LT. GEN. JOHN P. ABIZAID, USA; THOMAS 
  W. O'CONNELL; PAUL M. LONGSWORTH; GEN. RICHARD B. MYERS, USAF; GEN. 
 PETER PACE, USMC; GEN. PETER J. SCHOOMAKER (RET.), USA; LTG. BRYAN D. 
          BROWN, USA; GORDON R. ENGLAND; AND MICHAEL W. WYNNE

                               ----------                              

   JANUARY 30; FEBRUARY 27; JUNE 25; JULY 10, 24, 29; SEPTEMBER 23; 
                           NOVEMBER 18, 2003

                               ----------                              

         Printed for the use of the Committee on Armed Services


NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE, FIRST SESSION, 
                             108TH CONGRESS

                                                        S. Hrg. 108-002
 
        NOMINATIONS BEFORE THE SENATE ARMED SERVICES COMMITTEE,
                     FIRST SESSION, 108TH CONGRESS

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                             NOMINATIONS OF

  PAUL McHALE; CHRISTOPHER RYAN HENRY; STEPHEN A. CAMBONE; JOHN PAUL 
 WOODLEY, JR.; LINTON F. BROOKS; LT. GEN. JOHN P. ABIZAID, USA; THOMAS 
  W. O'CONNELL; PAUL M. LONGSWORTH; GEN. RICHARD B. MYERS, USAF; GEN. 
 PETER PACE, USMC; GEN. PETER J. SCHOOMAKER (RET.), USA; LTG. BRYAN D. 
          BROWN, USA; GORDON R. ENGLAND; AND MICHAEL W. WYNNE

                               __________

   JANUARY 30; FEBRUARY 27; JUNE 25; JULY 10, 24, 29; SEPTEMBER 23; 
                           NOVEMBER 18, 2003

                               __________

         Printed for the use of the Committee on Armed Services


                     U.S. GOVERNMENT PRINTING OFFICE
23-390 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES

                                                                   Page

                            January 30, 2003

Nominations of Hon. Paul McHale to be Assistant Secretary of 
  Defense for Homeland Defense; and Christopher Ryan Henry to be 
  Deputy Under Secretary of Defense for Policy...................     1

Statements of:

Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     6
Specter, Hon. Arlen, U.S. Senator from the State of Pennsylvania.     7
Henry, Christopher Ryan, to be Deputy Under Secretary of Defense 
  for Policy.....................................................     8
McHale, Hon. Paul, to be Assistant Secretary of Defense for 
  Homeland Defense...............................................     9
Buyer, Hon. Steve, U.S. Representative from the State of Indiana.    10

                           February 27, 2003

Nominations of Hon. Stephen A. Cambone to be Under Secretary of 
  Defense for Intelligence; John Paul Woodley, Jr., to be 
  Assistant Secretary of the Army for Civil Works; and Ambassador 
  Linton F. Brooks to be Under Secretary for Nuclear Security and 
  Administrator for Nuclear Security, National Nuclear Security 
  Administration, Department of Energy...........................    77

Statements of:

Allen, Hon. George, U.S. Senator from the State of Virginia......    80
Brooks, Ambassador Linton F., to be Administrator for Nuclear 
  Security, National Nuclear Security Administration, and Under 
  Secretary for Nuclear Security, Department of Energy...........    82
Cambone, Hon. Stephen A., to be Under Secretary of Defense for 
  Intelligence...................................................    84
Woodley, John Paul, Jr., to be Assistant Secretary of the Army 
  for Civil Works................................................    85

                             June 25, 2003

Nomination of LTG John P. Abizaid, USA, for Appointment to the 
  Grade of General and to be Commander, United States Central 
  Command........................................................   163

Statement of:

Abizaid, LTG John P., USA, for Appointment to the Grade of 
  General and to be Commander, United States Central Command.....   164

                             July 10, 2003

Nominations of Thomas W. O'Connell to be Assistant Secretary of 
  Defense for Special Operations and Low Intensity Conflict; and 
  Paul M. Longsworth to be Deputy Administrator for Defense 
  Nuclear Nonproliferation, National Nuclear Security 
  Administration.................................................   217

Statements of:

O'Connell, Thomas W., to be Assistant Secretary of Defense for 
  Special Operations and Low Intensity Conflict (ASD(SO/LIC))....   224

                                 (iii)

Longsworth, Paul M., to be Deputy Administrator for Defense 
  Nuclear Nonproliferation, National Nuclear Security 
  Administration.................................................   231

                             July 24, 2003

Nomination of Gen. Richard B. Myers, USAF, for Reappointment as 
  Chairman of the Joint Chiefs of Staff and Reappointment to the 
  Grade of General; and Gen. Peter Pace, USMC, for Reappointment 
  as Vice Chairman of the Joint Chiefs of Staff and Reappointment 
  to the Grade of General........................................   275

Statements of:

Myers, Gen. Richard B., USAF, to be Chairman, Joint Chiefs of 
  Staff..........................................................   280
Pace, Gen. Peter, USMC, to be Vice Chairman, Joint Chiefs of 
  Staff..........................................................   282

                             July 29, 2003

Nominations of Gen. Peter J. Schoomaker (Ret.), USA, for 
  Appointment as Chief of Staff, USA, and Appointment to the 
  Grade of General; and LTG. Bryan D. Brown, USA, for Appointment 
  as Commander, United States Special Operations Command and 
  Appointment to the Grade of General............................   357

Statements of:

Schoomaker, Gen. Peter J., USA (Ret.), for Appointment as Chief 
  of Staff, USA, and Appointment to the Grade of General.........   365
Brown, LTG. Bryan D., USA, for Appointment as Commander, United 
  States Special Operations Command and Appointment to the Grade 
  of General.....................................................   366

                           September 23, 2003

Nomination of Hon. Gordon R. England to be Secretary of the Navy.   431

Statement of:

England, Gordon R., to be Secretary of the Navy..................   438

                           November 18, 2003

Nomination of Michael W. Wynne to be Under Secretary of Defense 
  for Acquisition, Technology, and Logistics.....................   473

Statements of:

Wynne, Michael W., to be Under Secretary of Defense for 
  Acquisition, Technology, and Logistics.........................   476

APPENDIX.........................................................   547
                                     



 NOMINATIONS OF HON. PAUL McHALE TO BE ASSISTANT SECRETARY OF DEFENSE 
  FOR HOMELAND DEFENSE; AND CHRISTOPHER RYAN HENRY TO BE DEPUTY UNDER 
                    SECRETARY OF DEFENSE FOR POLICY

                              ----------                              


                       THURSDAY, JANUARY 30, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:45 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Roberts, Allard, Talent, Dole, Levin, Reed, Akaka, E. Benjamin 
Nelson, Clinton, and Pryor.
    Also present: Senators Reid and Specter, and Representative 
Steve Buyer.
    Committee staff members present: Judith A. Ansley, staff 
director; Cindy Pearson, assistant chief clerk and security 
manager; and Gabriella Eisen, nominations clerk.
    Professional staff members present: Charles W. Alsup, Brian 
R. Green, William C. Greenwalt, Carolyn M. Hanna, Mary Alice A. 
Hayward, Patricia L. Lewis, Thomas L. MacKenzie, and Lynn F. 
Rusten, professional staff members; Scott W. Stucky, general 
counsel, and Richard F. Walsh, L. David Cherington, and Ann M. 
Mittermeyer, counsels.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, Richard W. 
Fieldhouse, Creighton Greene, and Maren R. Leed, professional 
staff members; Gerald J. Leeling and Peter K. Levine, minority 
counsels.
    Staff assistants present: Michael N. Berger, Leah C. 
Brewer, Sara R. Mareno, and Nicholas W. West.
    Committee members' assistants present: Cord Sterling, 
assistant to Senator Warner; John A. Bonsell, assistant to 
Senator Inhofe; James Beauchamp, assistant to Senator Roberts; 
Jayson Roehl, assistant to Senator Allard; Arch Galloway II, 
assistant to Senator Sessions; James P. Dohoney, Jr. and Jon T. 
Kakasenko, assistants to Senator Collins; Lindsey R. Neas, 
assistant to Senator Talent; James W. Irwin, assistant to 
Senator Chambliss; Henry J. Steenstra, assistant to Senator 
Dole; Tiffany Turner, assistant to Senator Cornyn; Mieke Y. 
Eoyang, assistant to Senator Kennedy; Elizabeth King, assistant 
to Senator Reed; Davelyn Noelani Kalipi and Richard Kessler, 
assistants to Senator Akaka; William K. Sutey, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; William Todd Houchins, assistant to Senator Dayton; 
Andrew Shapiro, assistant to Senator Clinton; Terri Glaze, 
assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The hearing will come to order.
    Senator Levin and I had a very long breakfast this morning 
with the Secretary of Defense. His parting words were, ``I need 
them in a hurry.'' I said, ``Well, then, let us end the meeting 
and I can get back here.''
    I would like to welcome our new members on the committee 
this morning. I will make a brief statement, and then--oh, 
Senator Levin is here.
    Senator Levin. I welcome the new members, as you do.
    Chairman Warner. The committee meets this morning to 
consider these two very important nominations, two of the most 
outstanding, qualified individuals for public service that I 
have been privileged to see in some time. Thank you, and I 
thank your families for offering this service.
    Mr. Ryan Henry has been nominated by the President to serve 
as Deputy Under Secretary of Defense for Policy. Congressman 
Paul McHale has been nominated to fill the newly created 
position of Assistant Secretary of Defense for Homeland 
Defense. We welcome the nominees and their families.
    Mr. Henry, congratulations on your nomination. I understand 
that your wife Delonnie, your mother Mildred, and your children 
are here today--why don't you introduce all of your family?
    Mr. Henry. Yes, sir. I have my youngest daughter, Megan 
Rich, and her husband, Michael Rich; my daughter, Maile Reid, 
and her husband, Key Reid; and my son, Terrell Henry, at the 
end there, sir.
    Chairman Warner. I understand there is a little linkage 
with our distinguished colleague here.
    Mr. Henry. We have the pride of the family--Riley Reid, who 
both Senator Reid and I share as the best granddaughter in the 
world.
    Chairman Warner. Isn't that wonderful? That is nice.
    Senator Levin. We better not tell Ella that. [Laughter.]
    Chairman Warner. Mr. McHale, I understand you have your 
family here. Would you introduce them for us, please?
    Mr. McHale. Mr. Chairman, I would like to. I am joined 
today by my wife Kathy, my son Matt, my daughter Mary, and my 
son Luke.
    Chairman Warner. Thank you. Senator Specter is also due to 
come by a little later.
    Mr. McHale. Yes, sir, that is correct.
    Chairman Warner. Then we will stop the proceedings.
    Mr. McHale. He indicated to me, Mr. Chairman, that he would 
be here about 10:15.
    Chairman Warner. Is Congressman Steve Buyer here?
    Mr. Buyer. Yes.
    Chairman Warner. Good. Nice to see you. We welcome you and 
thank you, Steve, the former Chairman of the Personnel 
Subcommittee of the House Armed Services Committee.
    I am going to stop where I am now and put my statement into 
the record. Senator Levin, why don't you say a few words?
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    The committee meets this morning to consider two very important 
nominations. Ryan Henry has been nominated by the President to serve as 
the Deputy Under Secretary of Defense for Policy; Congressman Paul 
McHale has been nominated to fill the newly-created position of 
Assistant Secretary of Defense for Homeland Defense. We welcome the 
nominees and their families.
    Mr. Henry, congratulations on your nomination. I understand that 
your wife, Delonnie, your mother, Mildred, and your children and 
grandchild are here today. Would you introduce them please?
    I am pleased that Senator Harry Reid is here today to introduce you 
to the committee.
    Mr. McHale, I understand that your wife, Kathy, a Lieutenant 
Commander in the Naval Reserve, is here today, as well as your 
children. Would you please introduce them to the committee?
    I also recognize Congressman Steve Buyer, former Chairman of the 
Personnel Subcommittee of the HASC. The committee has received a letter 
from Mr. Buyer, which, without objection, I will enter into the record.
    Family support is critical to the success of individuals in senior 
positions in our government, and we appreciate the support and 
sacrifices of the families of these distinguished nominees.
    I had the opportunity to meet with both of our nominees on Monday. 
We are fortunate as a nation that you have both decided to return to 
government and, assuming you are confirmed by the Senate, continue your 
service to our country.
    Mr. Henry, after graduating with distinction from the U.S. Naval 
Academy in 1972, you compiled an impressive career of military service 
as a naval aviator, serving as a test pilot, as the commanding officer 
of a carrier-based Sea Strike Squadron, and as Special Programs Manager 
at the Defense Advanced Research Projects Agency. While on active duty, 
you participated in combat operations in Vietnam and over Iraq during 
Operation Desert Storm.
    Since retirement you have spent time as a Senior Fellow at the 
Center for Strategic and International Studies, concentrating on 
information assurance and cyberthreats. Currently, you are a Corporate 
Vice President for Strategic Assessment and Development with Science 
Applications International Corporation (SAIC).
    This is an impressive resume by any measure. Our Nation is 
fortunate to have someone of your caliber willing to serve in this 
challenging position.
    Former Congressman Paul McHale has also had a distinguished career, 
including service as a decorated Marine Corps officer. In 1990, 
following Iraq's invasion of Kuwait, Colonel McHale was ordered to 
extended active duty and served as Assistant Operations Officer for the 
Seventh Marine Regiment (Task Force Ripper). He deployed with the 
Seventh Marines to Saudi Arabia in August 1990, shortly after the Iraqi 
invasion, and served in Saudi Arabia and Kuwait until his release from 
active duty in May 1991. Colonel McHale continues his service to this 
day in the Marine Corps Reserve.
    Mr. McHale began his political career when he was elected to the 
Pennsylvania House of Representatives in 1982 and served five 
consecutive terms. After returning from the Persian Gulf region in 
1991, Mr. McHale was elected to the United States House of 
Representatives to represent the 15th Congressional District of 
Pennsylvania. He served three terms in the U.S. House of 
Representatives, and, as a member of the House Armed Services Committee 
and House Science Committee, distinguished himself with his commitment 
to a strong national defense and to the welfare of the men and women of 
the Armed Forces. Upon his departure at the end of the 106th Congress, 
Mr. McHale was awarded the Distinguished Public Service Medal by then-
Secretary of Defense Cohen.
    Since his departure from Congress, Mr. McHale resumed the practice 
of law in Allentown, Pennsylvania. Fortunately, he has agreed to answer 
this call to duty and to assume what may be his greatest and most 
important challenge: enhancing the capabilities of our Nation's 
homeland defense.
    I am proud to have played a role in including the legislation to 
create the position of Assistant Secretary of Defense for Homeland 
Defense in last year's Defense Authorization Act. It is central that 
the Pentagon have a single focus for the vital homeland defense 
mission, working with Secretary Ridge's new Department. I cannot think 
of a better person to fill this important position than Congressman 
McHale.
    Mr. Henry, you will play a central role, from your position in the 
``Policy Shop'' in ensuring that Mr. McHale succeeds in his important 
mission. You will have many challenges in the months ahead and a broad 
range of policy issues. I am confident that you are ``up to the task.''

    Senator Levin. I just want to welcome both our witnesses. 
They are well-qualified for these important positions; one, a 
totally new position and one a relatively new position. We 
thank their families. The families serve along with our 
nominees, sacrifice along with our nominees, frequently without 
being thanked by our Nation as they should be for their service 
supporting in this case their husbands and fathers, brothers, 
and, I guess, grandfathers. Is that the situation here?
    Except for the reference to the most wonderful 
granddaughter in the world, I think, other than that, I would 
thoroughly support your nomination. [Laughter.]
    I say that as I walk around with pictures of my two 
granddaughters in my pocket. I would have to not quite buy that 
part of your testimony. [Laughter.]
    But other than that, we are delighted with your nominations 
and look forward to having a chance to ask you questions.
    Like our chairman, I welcome again publicly the new members 
of our committee. We only have two of our new members with us 
today. Senator Pryor and Senator Dole, thank you for your 
joining this committee. We look forward to both of your 
services.
    Chairman Warner. Thank you, Senator Levin.
    I certainly join in recognizing the important role of the 
families who have unusually long hours of waiting, given the 
extraordinary times in the Department of Defense. But those 
extraordinary times require extraordinary individuals to serve.
    Having studied hundreds of biographies of candidates over 
the 30 years that I have been affiliated with the Department of 
Defense, we have two of the finest here this morning. I 
congratulate you and your families, and say only to the wives 
and the children: Get your fathers home! Every decision in the 
Pentagon made after 7 o'clock is reversed the next morning. 
[Laughter.]
    Senator Allard. Mr. Chairman?
    Chairman Warner. Yes.
    Senator Allard. I want to apologize in advance. I have 
another committee meeting at 10 o'clock, and I have some brief 
comments I would just like to make part of the record.
    Chairman Warner. Of course.
    Senator Allard. I want to congratulate each of you, and 
wish you well in your new responsibilities.
    Thank you, sir.
    Chairman Warner. I thank you, Senator.
    [The prepared statement of Senator Allard follows:]

               Prepared Statement by Senator Wayne Allard

    Thank you, Mr. Chairman. I am pleased that we have two excellent 
candidates before us today. The positions they will be occupying are 
important to the security of this nation and the functioning of the 
Department of Defense. I am particularly pleased that we will be 
considering the President's nominee for a newly created position--the 
Assistant Secretary of Defense for Homeland Defense.
    Since September 11, we have been confronted by a new world. No 
longer can we afford to be content with the old ways of doing business. 
Secretary Rumsfeld has launched a major effort to transform the U.S. 
military, though much remains to be done. We need a military that is 
mobile, well-equipped, and capable of fighting on multiple fronts 
overseas. We also need a military capable of assisting with serious 
crises here at home.
    I have reviewed Mr. Henry's resume and am impressed by his prior 
military experience. His advanced research, development, and policy 
analysis expertise will serve him well as he prepares to confront the 
many policy challenges facing our country and the Department of 
Defense. In particular, I hope to work closely with the nominee as he 
assists senior DOD officials develop, coordinate, and resolve national 
security space policy issues.
    I am also pleased that former Congressman Paul McHale has decided 
to return to public service after a 3 year absence. I understand that 
he twice served in the active military--first, in 1972 for 2 years as a 
Marine Corps second lieutenant; and later, in 1991, as a Marine Corps 
infantry officer during the Persian Gulf War. I appreciate his service 
to our country, and look forward to working with him on better 
protecting our homeland.
    Congressman McHale will be in a difficult position from the start. 
Since the position for which he seeks confirmation was recently 
created, the duties and functions have not been firmly established. 
Moreover, many of the agencies with homeland security missions are now 
entering a period of transition. I noticed in the nominee's answers to 
the committee's advance questions that he will be providing guidance to 
U.S. Northern Command through the Secretary of Defense. I would 
appreciate it if the nominee would expand on this responsibility 
further in either his opening statement or his answers to our 
committee's questions.
    I thank the Chair for the opportunity to make a few opening 
remarks. I welcome our nominees, and I look forward to hearing from 
them.

    Chairman Warner. The committee has asked our witnesses to 
answer a series of advance policy questions. They have 
responded to those questions in our standard questionnaire. 
Without objection, these responses will be made part of today's 
record.
    Before we hear from our witnesses, I have several standard 
questions I ask of each nominee who comes before this 
committee. I ask you to respond.
    Have you adhered to the applicable laws and regulations 
governing conflicts of interest?
    Mr. Henry. Yes, sir.
    Mr. McHale. Yes, sir.
    Chairman Warner. Thank you. Have you assumed any duties or 
undertaken any actions which would appear to presume the 
outcome of this confirmation process?
    Mr. Henry. No, sir.
    Mr. McHale. No, sir.
    Chairman Warner. Will you ensure that your staff complies 
with deadlines established for requested communications 
including prepared testimony and questions for the record in 
hearings?
    Mr. Henry. Yes, sir.
    Mr. McHale. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefs in response to congressional inquiries?
    Mr. Henry. Yes, sir.
    Mr. McHale. Yes, sir.
    Chairman Warner. Will those witnesses be protected from any 
reprisal for their testimony and briefings?
    Mr. Henry. Yes, sir.
    Mr. McHale. Yes, sir.
    Chairman Warner. We will now ask our colleagues to make 
their introductions.
    Senator Reid, we certainly are privileged to have our 
distinguished leader here. I do not know of a harder working 
Senator in the entire institution of 100.

 STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE STATE OF 
                             NEVADA

    Senator Reid. Chairman Warner, Senator Levin, members of 
the committee, it is a pleasure for me to introduce Christopher 
Ryan Henry as President Bush's nominee to be the Deputy Under 
Secretary of Defense For Policy. Ryan Henry is an outstanding 
American and an ideal choice for this critical position.
    As has already been established--and certainly I want the 
record to reflect, that my son Key had the good fortune to 
marry Ryan's daughter, Maile, several years ago. When I say it 
was my son's good fortune, I really mean that. Ryan and his 
wife, Delonnie, are fine parents, and their children are 
especially kind, warm, and talented.
    I was very pleased and proud when the Reid and Henry 
families became connected through the marriage of our children 
and the birth of our grandchildren, Riley, Oclell, and Ella 
Joy. As has been indicated, Riley is here.
    I would also like to welcome Ryan's mother, Mildred Henry, 
who came all the way from San Diego to be here with her son. We 
are all sorry that Ryan's father, Robert, cannot be here. He 
has not been feeling very well in recent weeks.
    As a family, we are all very proud of Captain Henry. I know 
he will contribute enormously to the mission of the Defense 
Department during these difficult and dangerous times.
    As the President explained the night before last in the 
President's State of the Union Address, our country faces a 
wide array of national security threats both here and abroad. 
Our policy makers within the defense community are facing some 
unprecedented challenges and problems for which there are no 
easy answers. But good people, with talent, vision, and 
practical experience can help solve these problems. I believe 
Ryan Henry is one such person.
    He is an honor graduate of the United States Naval Academy 
in Annapolis. He served more than 26 years as a Navy officer 
and aviator, earning numerous awards and deploying tours in 
Vietnam and the Persian Gulf conflict. He has logged over 5,500 
hours in air in 54 different aircraft, and has made 750 carrier 
landings. His military service record is a clear demonstration 
of his bravery and patriotism. Mr. Chairman, I will not go 
through the list of commendations, awards, and medals that he 
has received, but they are numerous.
    His achievements after retiring from the Navy have been 
equally impressive. I will not list all of his accomplishments, 
but I would like to highlight his service as a senior fellow at 
the highly regarded Center for Strategic and International 
Studies, and his outstanding record of performance as Corporate 
Vice President at Science Applications International 
Corporation, one of the world's largest, most prominent defense 
and technology companies.
    Because of his patriotism and his call to duty by our 
Commander in Chief, he is returning to serve in the United 
States military in the capacity that his qualifications 
certainly enable him to do. Even though he has had to give up a 
lucrative career in the private sector, as is very typical for 
people who have served in the military, when you have a call to 
duty, you answer that call. Captain Henry is no different.
    These tough and dangerous times confronting our Nation 
require that we call upon the country's best, most capable 
citizens to serve. The President and this committee have found 
the best in Christopher Ryan Henry.
    I would just like to mention in passing as I already have, 
how proud I am of his daughter, Maile, who is the mother of two 
of my grandchildren.
    But also I think it is worth noting that one of Captain 
Henry's daughters is now a member of the United States Navy, 
having graduated from the Massachusetts Institute of Technology 
and ROTC program. Within a matter of a couple of weeks, she is 
heading for the Gulf to take up her position as a fire control 
officer on a destroyer. This is what the family is all about.
    Mr. Chairman, I know you will give this nomination every 
consideration. I am grateful and proud for having this 
opportunity to introduce part of my family.
    Chairman Warner. Senator Reid, your introduction has moved 
all of us very deeply. Indeed, the Henry family is what America 
is all about. You have come back to serve again. As Secretary 
Rumsfeld told me to get this hearing over quickly, he needs 
you. So we will pass on with that.
    Mr. McHale, we have Senator Specter here to introduce you. 
Welcome, Senator.

STATEMENT OF HON. ARLEN SPECTER, U.S. SENATOR FROM THE STATE OF 
                          PENNSYLVANIA

    Senator Specter. In the grand manner of the Senate of 
yesteryears, we are privileged to have Squire Senator Warner in 
our midst. I appreciate your courtesies, Mr. Chairman.
    I am chairing another hearing, but I wanted to interrupt to 
come by and introduce former Congressman McHale to you, 
although you already know him. He is a very distinguished 
Pennsylvanian. He served in the Pennsylvania general assembly. 
He is a three-term Congressman. He has an outstanding academic 
background from Lehigh University. He obtained a bachelor's 
degree and a law degree from Georgetown. He is a man of noted 
independence. He has spoken out with vigor and clarity. He has 
been a marine, consistent with their policy of selecting just 
the best.
    I know that he will be an outstanding Assistant Secretary 
of Defense for Homeland Defense and that is a very major 
undertaking. I would talk about him longer, but I want to see 
this committee finish its work so we can get him confirmed.
    Thank you very much, and good luck, Paul.
    Mr. McHale. Thank you, sir.
    Chairman Warner. We thank you genuinely for coming because 
this is an outstanding individual right here. I was greatly 
impressed when I had the opportunity to study his dossier.
    Senator Specter. Thank you.
    Chairman Warner. Thank you, Senator.
    Mr. McHale. Thank you.
    Chairman Warner. At this point, I would also like to insert 
into the record the statement of Senator Rick Santorum, who is 
unable to be here today.
    [The prepared statement of Senator Santorum follows:]

              Prepared Statement by Senator Rick Santorum

    Chairman Warner and Senator Levin, I want to thank you for 
extending me the opportunity to make a statement on behalf of Paul 
McHale, President Bush's nominee to be the Assistant Secretary of 
Defense for Homeland Defense, as he appears before the Committee on 
Armed Services. Given Paul's experience as a Member of Congress and a 
member of the United States Marine Corps, I believe that President Bush 
has chosen a highly qualified individual to carry out the 
responsibilities associated with this office.
    Prior to the terrorist attacks of September 11, it was unthinkable 
to imagine attacks such as those carried out by al Qaeda being 
inflicted on us on our own soil. Regretfully, we now realize there are 
individuals and organizations that place such little value on human 
life that they are willing to execute suicide missions against our 
citizens and our homeland. Reorganizing the Federal Government to 
better prepare and respond to these new threats drove Congress and the 
executive branch to craft the new 170,000-employee Department of 
Homeland Security.
    This new position for which Paul has been nominated--a position 
created by Congress--is one way that the Department of Defense has 
reorganized itself to respond to these new 21st century threats. The 
new organization will come under the aegis of the Under Secretary of 
Defense for Policy, and is expected to have a close working 
relationship with U.S. Northern Command, the new unified command with 
responsibility for defense of the homeland. If confirmed, Paul McHale 
will provide important policy guidance for the command through the 
Office of the Secretary of Defense.
    The honor bestowed on Mr. McHale through his nomination by the 
President is great. Equally great is the challenge that awaits him in 
this position. The task of preparing America against non-traditional 
threats to our homeland is a daunting one, filled with many difficult 
problems and pitfalls. Nevertheless, it is a task that Paul McHale is 
well suited to tackle.

    Chairman Warner. Now, Mr. Henry, do you have an opening 
statement you would like to make?
    Mr. Henry. Just briefly.
    Chairman Warner. Yes.

    STATEMENT OF CHRISTOPHER RYAN HENRY TO BE DEPUTY UNDER 
                SECRETARY OF DEFENSE FOR POLICY

    Mr. Henry. Mr. Chairman, Senator Levin, and members of the 
committee, as has been mentioned, I come before you as the 
President's nominee for the Principal Deputy Under Secretary of 
Defense for Policy. As such, I consider it a great honor, and 
appreciate the trust and confidence that the President and the 
Secretary have placed in me. I also appreciate the kind words 
of Senator Reid.
    Most especially, I appreciate the support I have had 
throughout my career through periods of long separation from my 
wife and family, and their support in this nomination.
    Very briefly, I would just like to say to the Senators and 
the committee before I start answering questions, that I 
understand that being involved in decisions that affect the 
young men and women in uniform who are on the front lines of 
freedom is the most serious job one can have in government, and 
one that I will take with the utmost concern.
    During the past week when I have been visiting the 
Pentagon, I have been impressed by a sign that is outside the 
National Military Command Center which states that, ``The more 
you sweat in peace, the less you bleed in war.'' I want you to 
know that if confirmed by this committee, I will sweat 
unceasingly to make sure that no unnecessary drop of blood is 
shed either by our adversaries, our friends and allies, or most 
especially, those young men and women who have put their 
country, and the defense of their country and its interests 
before themselves.
    Finally, I would like to thank the committee for the rapid 
manner in which you brought before you our nominations and the 
opportunity to serve and to participate in this Constitutional 
process.
    Thank you.
    Chairman Warner. Thank you. Mr. McHale, I guess this is the 
last time we should address you as ``Congressman.'' Soon it 
will be ``Mr. Secretary,'' but I will say, Congressman, do you 
have any opening comments that you would like to make?

  STATEMENT OF HON. PAUL McHALE TO BE ASSISTANT SECRETARY OF 
                  DEFENSE FOR HOMELAND DEFENSE

    Mr. McHale. Mr. Chairman, I do have a very brief, informal 
statement.
    As noted earlier, I am joined today by my wife, Kathy, and 
my three children, Matt, Mary, and Luke. Before I make any 
substantive comments, I want to recognize publicly that my 
ability to serve in public office has always been the result of 
their willingness to sacrifice for our country. I want them to 
know how very much that support means to me.
    Joining my family, Mr. Chairman, again, as you noted, and 
in a real sense he is a part of my family, is Congressman Steve 
Buyer. Steve is a friend and colleague from the House. He is 
known for his tact and diplomacy, and he has promised to be on 
his best behavior today. I hope that is good enough. 
[Laughter.]
    We were also joined earlier by Congressman Lane Evans from 
Illinois. Lane was perhaps my oldest friend, was my oldest 
friend, in Congress. He and I were law school classmates, 
fellow marines, and have been friends for more than 30 years. 
Lane had to leave, but I did want to note for the record his 
attendance.
    Mr. Chairman, our Nation is at war. Unlike past conflicts, 
technology has now empowered even small groups of terrorists 
with the capacity to attack within our own borders American 
lives, property, and institutions of government. But they 
cannot attack our shared ideals or common resolve. With courage 
and tenacity, we will defeat those who wish to harm our Nation 
and our people.
    If confirmed, I will bring passion and a sense of urgency 
to the preparation of our country and domestic military 
defense. On that, you have my word, sir.
    I am deeply grateful to the President for my nomination, 
and if confirmed, will do all that I can to justify the faith 
and confidence placed in me by the Secretary of Defense.
    I would be honored to answer your questions.
    Chairman Warner. Thank you, Congressman.
    Congressman Buyer, we would be happy to have you say a few 
words before the committee if you so desire. We are very 
pleased to have one of our own colleagues from the House side 
join us today.

  STATEMENT OF HON. STEVE BUYER, U.S. REPRESENTATIVE FROM THE 
                        STATE OF INDIANA

    Mr. Buyer. Mr. Chairman, Senator Levin.
    Senators, I came here today because I wanted to stand with 
a friend. This is a good man. He is balanced, centered, 
possesses the virtues and values of character. He is a marine. 
He will always be a marine. [Laughter.]
    Mr. McHale. Thank you, sir.
    Mr. Buyer. He also has the intellect of a scholar. He has 
the courage of a warrior. He has the demeanor of a country 
gentleman. He is eminently qualified, and we should do it 
quickly. Thank you.
    Chairman Warner. Most eloquent. We thank you, Congressman. 
I will place in today's record immediately following your 
remarks, the letter that you forwarded to the committee with 
regard to the Congressman.
    [The information referred to follows:]

                     Congress of the United States,
                                  House of Representatives,
                                                  January 30, 2003.
Hon. John Warner, Chairman,
Senate Armed Services Committee,
228 Russell Senate Office Building,
Washington, DC.
    Dear John: I am taking this opportunity to share with you and the 
Senate Armed Services Committee members my highest recommendation for 
Paul McHale to be confirmed as the first Assistant Secretary of Defense 
for Homeland Defense.
    For 6 years, I had the pleasure of working with Paul as a colleague 
in the U.S. House of Representatives. Paul is eminently qualified to 
assume the position as the first Assistant Secretary for Homeland 
Defense. His faithful service to our great country began as a United 
States Marine in 1972 and has continued to this day in both public 
office and as citizen-warrior serving in the United States Marine 
Reserve.
    Paul and I created the National Guard and Reserve Components Caucus 
in the 105th Congress. As co-chairman, Paul never wavered in fighting 
for our men and women in uniform and was instrumental in fostering a 
well-trained, well-equipped, and relevant Reserve Force for the fully 
integrated total force. Recognizing the National Guard's unique role in 
securing the homeland, Paul's tireless efforts ensured critical plus-
ups in modernization and readiness accounts above the President's 
request. A marine reservist to this day, Paul symbolizes a patriot's 
selfless devotion to our Constitution, the principles it enshrines, and 
our American way of life.
    Paul McHale possesses the necessary qualities to excel in this 
important position at this critical time in our Nation's history. His 
outstanding leadership and superior integrity, ensure that the 
President, and thereby the country, will be well served.
            Best Regards,
                                               Steve Buyer,
                                                Member of Congress.
Copy to: Senator Carl Levin,
          Ranking Member.

    Chairman Warner. I am going to remain through the hearing, 
so I thought I would allow my colleague, our new member, to 
take part of my time.
    You have another commitment with another committee.
    Senator Dole. Yes, I do, Mr. Chairman. I have a 10 o'clock 
commitment with another committee. I am very sorry to have to 
leave.
    Chairman Warner. All right.
    Senator Dole. I just want to express my strong support for 
two outstanding candidates. I certainly look forward to working 
with you. I do have a few questions that I would like to have 
you answer for the record. I look forward to having an 
opportunity to visit with both of you very soon and to work 
closely with you.
    Thank you very much, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman. I think we all 
have committee hearings at 10 o'clock.
    First of all, it is great to be here with my old friend, 
Paul. I tell you, Mr. Chairman, that Steve Buyer used to sit 
next to me, or I sat next to him, on the fourth tier down of 
the House Armed Services Committee. I looked up at all these 
lofty people up there. Across the aisle was Paul McHale. We 
were only there for 2 years at the same time. He came during my 
last years before I came over here.
    I have to say this, that there is a lot of partisanship in 
both the House and the Senate, and Paul is one who has always 
risen above that. I am just very proud that you are here and 
doing this.
    Mr. McHale. Thank you, sir.
    Senator Inhofe. Of course, Mr. Henry, I feel the same way 
about you. I have looked at your record. I have not had a 
chance to get to know you personally. But there certainly are 
going to be lot of problems to--let me just start off with some 
things you have said in the past.
    I have had a great concern over North Korea. We found out 
back in 1998 that even though we suspected it was true, our 
intelligence community did not say it was true, that they were 
going to have the ability to have a multiple stage rocket. This 
happened to be in the latter part of August of 1998. Seven days 
after we received a letter saying it would be between 3 and 5 
years before they would have such a thing, they fired one.
    We know that they have been working on missile technology 
as well as weapons of mass destruction, nuclear weapons. We 
also know that they are trading with Iraq, Iran, Syria, Libya, 
and other countries. You made a statement that I was very proud 
of you to make. You said, ``The threat posed by North Korea 
will only grow over time if left unchecked.''
    Why do you not share with us some of your ideas about North 
Korea and what our policy should be?
    Mr. Henry. Thank you, Senator. That is a very critical 
question, especially at this time in the situation that we are 
in with North Korea.
    Obviously, North Korea currently does present a real 
challenge to our national security policy. Not only have they 
demonstrated that they have the capacity to build weapons of 
mass destruction and are working on the means to be able to 
deliver those, the other problem is that they are probably the 
world's prime proliferator. So that is of the highest concern. 
It is going to require the entire focus of government.
    Should I be confirmed, I would be interested in taking part 
in that consultive process, in the interagency process and also 
working with this committee.
    The President has indicated that he thinks it is of most 
value that this matter be taken to the Security Council. It is 
not an issue necessarily between just the United States and 
North Korea, but one that concerns the entire world.
    Senator Inhofe. Thank you.
    Mr. McHale, you know how stressed we are right now. We have 
talked about that before in terms of end-strength. Prior to 
September 11, we had this problem, too. That just exacerbated 
that problem. You are going to be having to face some of these 
concerns.
    Let us look at the Guard and Reserve. They are already at a 
point where they are almost at 100 percent capacity. This was 
actually before September 11. Now we have been having to use 
them in homeland security. It is going to be your 
responsibility to make a lot of decisions as to how we are 
going to confront this. I would hope that we will look at the 
overall problem of end-strength as it affects all of our 
services, along with homeland security.
    So I would just like to ask you: With the crisis that we 
are facing right now in the Guard and Reserve, in that 
component, what are your plans regarding both the immediate use 
of them, as well as your recommendations for the future so we 
can confront future problems?
    Mr. McHale. Yes, sir. I do not think there is any question, 
Senator, but that the Guard and to a similar extent, perhaps 
not as great an extent, the Reserve, will become even more 
deeply engaged in homeland defense.
    We have a significant strategic reserve in which the Guard 
is located. We have eight Guard divisions that are dedicated to 
various types of missions. My anticipation would be that among 
those missions, in a balanced force, including an overseas 
warfighting capability to be retained by the National Guard, 
that we would have an even greater emphasis on homeland defense 
missions.
    Right now, Secretary Tom Hall, Assistant Secretary of 
Defense for Reserve Affairs, who was the service chief for the 
Navy Reserve when Congressman Buyer and I were over in the 
House and we were the co-chairs of the Guard and Reserve 
Caucus, is conducting a comprehensive study with regard to the 
future roles and missions of the National Guard.
    But to give you a very succinct summary, the Guard now 
plays an important role in terms of our strategic reserve. It 
has an overseas warfighting capability that I think has to be 
retained. But an even greater emphasis and of even greater 
importance to our Nation, I think, lies ahead in terms of the 
Guard's engagement in homeland defense issues, specifically the 
Civil Support Teams. The Air National Guard, I think, will 
continue to play a vital role with regard to the combat air 
patrol (CAP). So, if anything, the Guard will, in some ways, be 
coming back to its roots to defend the Nation domestically.
    Senator Inhofe. Mr. Chairman, I have no further questions. 
I just agree with Congressman Buyer, we need to get these 
people confirmed and on their way.
    Thank you, sir.
    Chairman Warner. Thank you very much.
    Senator Levin.
    Senator Levin. If we could yield to Senator Akaka who also 
has another commitment, and then we perhaps could go back to 
the regular order. My other colleagues said they are able to 
stay.
    Chairman Warner. Senator Akaka.
    Senator Akaka. Thank you very much.
    I want to welcome Mr. McHale and Mr. Henry, and also your 
families. There is no question you have great support for your 
nominations. It is great to know of two people who are so 
highly qualified. You have credentials in the military, as well 
as in public service. I always feel that it is so important 
that you have lovely and good families, and you do. For me, it 
makes a huge difference. I welcome you and your families to 
this hearing.
    I have a few questions here. Mr. McHale, as Assistant 
Secretary of Defense for Homeland Defense, you will be building 
and improving the Department's efforts to support homeland 
security requirements and formulating policies that pertain to 
all 50 States and all territories.
    Mr. McHale. Yes, sir.
    Senator Akaka. The homeland security needs of Hawaii, 
because of its geographic location, are often ignored or 
overlooked in the development of broad, comprehensive national 
policies. While we are fortunate to have the United States 
Pacific Command headquartered in Hawaii, I am concerned about 
the comprehensive homeland security policies being developed 
without consideration of the challenges faced by Hawaii because 
of its geographic location. For example, we have no bordering 
State to engage in a mutual aid agreement. If air travel shuts 
down, there are no other expedient means to get medicine, 
vaccines, and food into the State.
    Given the fact that Hawaii does not fall within the 
jurisdiction of United States Northern Command (NORTHCOM), 
which is charged primarily with supporting homeland security 
functions, what will you do, if confirmed, to ensure that DOD, 
in developing homeland security policy, considers the special 
factors related to Hawaii? How do you intend to ensure that 
there is appropriate coordination between U.S. NORTHCOM and 
U.S. Pacific Command (PACOM), to ensure that national homeland 
security policies include the needs of Hawaii and the Pacific 
Island territories?
    Mr. McHale. Senator, as you point out in your question, 
although most of the homeland defense activities as they relate 
to the Continental United States will be under Northern 
Command, the homeland defense activities of the Department of 
Defense as they relate to Hawaii and other areas of the Pacific 
will fall under the jurisdictional authority of the Pacific 
Command.
    The question you just raised, sir, is nearly identical to 
the series of questions that Congressman Bobby Underwood 
presented to me yesterday when I bumped into him. He is the 
Congressman, the delegate from Guam. He is an old and close 
friend of mine.
    While I was in the House of Representatives, I visited 
Hawaii on numerous occasions and Guam, in an official capacity 
related to my duties on the Armed Services Committee. What I 
said to Congressman Underwood yesterday was that I am very 
sensitive to the homeland defense needs of Hawaii and other 
American territories in the Pacific.
    I indicated to the Congressman that if I am confirmed, if I 
have that privilege, then I will promptly visit both Guam and 
Hawaii to confer with PACOM. I will, in fact, discuss this 
matter promptly, if confirmed, with General Eberhart who is the 
Commander of U.S. Northern Command, in order to guarantee that 
there is careful dialogue and integration of homeland defense 
policies between Hawaii, Guam, other American territories, and 
the Northern Command.
    I am acutely aware, sir, that we have 50 States and 
additional territories and that, while NORTHCOM covers most, it 
does not cover all. I assured the Congressman, and I assure you 
today: The needs of Hawaii will receive careful attention.
    Senator Akaka. Thank you very much for that response, sir.
    Mr. Henry, if confirmed, you will be involved in both 
reviewing war plans and in advancing joint training. In 
response to the question about DOD's potential post conflict 
role in Iraq, you stated that you would advocate war plans 
that, and I am quoting, ``emphasize expeditious transfer of 
responsibilities from U.S. military forces,'' to other 
international agencies, and non-governmental organizations.
    Given their potential importance to war planning, not only 
in Iraq but in almost any future military scenario, how 
important is strengthening relationships between DOD and those 
agencies and organizations?
    Mr. Henry. Thank you, Senator. That is a critical question, 
especially at this particular time.
    The key in what we do after the conflict is over, I 
believe, is coupled into winning the peace. The military is 
normally assigned to provide the means and the capability to 
win the war. But utmost in all of our minds has to be: How do 
we win the peace? This needs to be part, again, of an 
interagency consultive process.
    DOD will normally be the one that is there to be able to 
provide the authority and the civil structure in the immediate 
aftermath of a conflict. DOD, as is my understanding currently 
and, if confirmed, I would work to continue, should be able to 
stay in the area to provide those services to continue the 
functioning of a civil society as best as possible after a 
conflict for as long as necessary.
    But it should not stay any longer than it is required to, 
and should look to be able to have--to pick up those services, 
those organizations that are best able to do it. Sometimes they 
will be agencies of our government, sometimes part of 
multinational organizations, specifically the U.N., and then 
many times part of non-profits and non-governmental 
organizations which play such a critical role in the world 
today.
    Senator Akaka. Thank you very much for your response.
    Mr. Chairman, my time has expired.
    Chairman Warner. Thank you.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman.
    I am pleased to have before us two distinguished nominees 
for positions that are very critical, not only to the overall 
stewardship of the Department of Defense, but the successful 
management of the military component of America's war against 
terror. I cannot think of a more important role or mission 
during these current times. I have a tremendous interest in 
both positions.
    Mr. Chairman, I am chairman of the Select Committee on 
Intelligence, and I hope, sir, to return as Chairman of the 
Armed Services Subcommittee on Emerging Threats and 
Capabilities. It is that subcommittee that I would tell the 
nominees and everyone present that has the Department's 
response to terrorism at home in its current jurisdiction. This 
subcommittee was formed under the leadership of Chairman 
Warner.
    Chairman Warner established this subcommittee in 1999, 2\1/
2\ years before the attacks of September 11. Clearly, he was 
prescient in terms of the need of that subcommittee, and we 
have a very forward-thinking chairman in my friend from 
Virginia.
    Paul McHale, Steve Buyer, I do not know who rode shotgun 
and who drove the stage. Either one, but if you are in Dodge 
City and the chips are down and you want either Matt or 
somebody there to protect you, I cannot think of two better 
people to do that. I have served with both in the House of 
Representatives. They have my admiration, respect, and 
friendship.
    Paul's keenness of mind, his integrity of purpose I think 
is second to none. We had a good visit yesterday. He is, in 
fact, a class act. He also happens to be, Mr. Chairman, a 
former marine. I do not know anybody more dedicated to our 
national security.
    Mr. Henry, I think you are eminently qualified. I support 
you in every respect.
    Let me ask just a couple of questions, if I might. Paul, in 
your answers to advance questions, you state that in regards to 
intelligence, your objective would be to ensure that homeland 
defense commanders at all levels acquire the best intelligence 
available on threats that impact our homeland security.
    Now, we have a unifying command--we talked a little bit 
about this yesterday--with the responsibility to secure North 
America. One would expect the Northern Command to have a 
considerable intelligence requirement with respect to potential 
threats. I am talking about the ability to prepare to respond 
before something happens, i.e. preemption.
    I would expect that General Franks, for example, did that 
once he knew about any and all threats in the CENTCOM area. I 
am sure that is true.
    How do we ensure that General Eberhart's situational 
awareness as to the threat he faces in his Area of Operational 
Responsibility (AOR) is up to speed? How big a player will 
Northern Command be in the President's new Terrorist Threat 
Integration Center?
    That is a new acronym, by the way, Mr. Chairman, which is 
called TTIC. I am not sure if that is accurate, but it was a 
very forward-thinking move on the part of the President.
    My concern is that because of the nature of the other 
Federal jurisdictions involved that the Northern Command may 
find itself last in line in regards to receiving intelligence 
on its threat, and probably the most important AOR, i.e. our 
homeland.
    Will you respond?
    Mr. McHale. Yes, sir. Sir, my belief is that Northern 
Command has to be toward the front of the line, not the back 
end of it. The AOR for NORTHCOM includes generally Canada, the 
United States, Mexico, and portions of the Caribbean. But the 
area of interest for General Eberhart, particularly in the 
field of intelligence, is worldwide.
    The first line of defense that we have, and it goes well 
beyond the boundaries of the AOR assigned to NORTHCOM, is a 
worldwide awareness where threats may be emerging. Intelligence 
is of little value if it is not fused from all sources, 
analyzed, and then, most importantly, disseminated to the 
operators.
    I believe very strongly and will do all in my power, if 
confirmed, to make sure that General Eberhart and his J2 out 
there at Peterson Air Force Base become intimately engaged in 
the operations of the Terrorist Threat Integration Center, 
engaged so that their situational awareness brings to them an 
awareness of threats long before they reach our shores. I have 
said that if one had to choose between a truly superb 
intelligence officer on the staff of NORTHCOM and a truly 
superb operations officer--and I would hope that we could have 
both--that the higher priority would be to have an intel 
officer who sees the threat coming, and a competent operations 
officer who can respond to it. But if you do not see the threat 
before it arrives, it is too late.
    Senator Roberts. I did not write that speech, Mr. Chairman, 
but it sure sounded like I would have liked to. [Laughter.]
    For both of you, there has been some consternation 
regarding the Defense Advanced Research Projects Agency's 
(DARPA) Total Information Awareness Program--that is probably 
the understatement of the morning--even an amendment to the 
recent omnibus bill placing some restrictions on that effort.
    Now I understand that both of your offices--although, Mr. 
Henry, you may have more of an impact on this in terms of your 
jurisdiction in regards to the direct oversight.
    But can you give me your sense of what this effort is 
trying to achieve? I have a view that we are simply trying to 
better integrate the myriad information sources within the 
Federal Government, trying to achieve what Paul referred to as 
earlier warnings of potential terrorist attacks.
    Maybe ``total information awareness'' is the wrong way to 
describe it. I would describe it as improved information 
management. That does not seem to have all the bells and 
whistles blowing in regards to problems with civil liberties.
    The new terrorist threat center, or TTIC as I referred to 
it--I say it is an information center--may be the entity to 
help in this regard. What is your view about this? I will ask 
Mr. Henry first, and then we can go to Paul.
    Mr. McHale. Yes, sir.
    Senator Roberts. Then my time is expired.
    Mr. Henry. Thank you, Senator. My passing understanding of 
the Total Information Awareness Program stems from previous 
tours as a program manager at the Defense Advanced Research 
Projects Agency where these sorts of ideas had been discussed.
    The idea being, first of all, it being part of the 
Department of Defense; it would only look outward; the programs 
that I was familiar with. The purpose of it is to take all of 
the little bits and pieces of information that come from 
numerous different sources but tend to be in different layers, 
and normally in heterogeneous databases, and to be able to fuse 
them into one database, and then to be able to do a sort or a 
filtering process where you are able to pull out intelligence 
and information, actual information, from the billions and 
billions of pieces of noise that are out there. That is the 
purpose of it as I understand it.
    Obviously, it is part of a fusion process, a fairly narrow 
band in looking out for terrorist organizations in foreign 
countries, but that is where my understanding comes. If 
something like that is available, then obviously that would be 
something that we would want to fuse into the total information 
picture that the combatant commander has, to be able to put 
together his battle plans and respond to threats.
    Senator Roberts. Paul, do you have a view on this?
    Mr. McHale. Yes, sir. My expectation would be that whatever 
its future might be, the TIA program would not be under the 
jurisdictional responsibility of the Assistant Secretary of 
Defense for Homeland Defense. The current developmental program 
is in DARPA, as you noted earlier.
    If, in fact--it is my understanding that if that technology 
were to be developed, that the implementation, the operational 
use of that technology in a domestic context would be external 
to the Department of Defense, that it would migrate from DARPA 
out into the civilian law enforcement community.
    I can envision, sir, a circumstance where that technology, 
particularly if we had a credible threat of a weapon of mass 
destruction and we were attempting to locate, for instance, a 
WMD device, that the technology, subject to careful constraint 
imposed by Congress, could provide an opportunity to locate and 
defeat such a weapon of mass destruction.
    But that, in a domestic setting, would be subject to the 
policy guidance of Congress. It would be a civilian law 
enforcement function, and I would not anticipate that the 
technology, to whatever stage it might be developed, would ever 
come under the jurisdictional control of the Assistant 
Secretary for Homeland Defense.
    Senator Roberts. I thank both nominees.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Just 2 days ago in his State of the Union Address, the 
President again stated his belief that Saddam Hussein has 
failed to present a true accounting of the chemical and 
biological weapons he has stockpiled, and that he has missed 
his final chance. A second Persian Gulf War now looms.
    On the Korean Peninsula, as has been indicated, North Korea 
has withdrawn from the Nuclear Non-Proliferation Treaty and has 
recommitted to a nuclear program, and has stated that they are 
going to begin testing missiles once again.
    Of course, we cannot forget Afghanistan. We cannot forget 
the war on terrorism.
    Clearly, we need the best minds in our government to 
address these simultaneous threats. I am pleased that we have 
two of those best minds with us today. I am very proud to have 
them and their families who are understandably proud, and are 
participating as well as families in this new personal 
sacrifice, once again serving your country. So I am glad to 
have you here.
    I have just a couple of questions because we had quite an 
opportunity yesterday to visit, and I appreciate that personal 
time that we shared together.
    To ``win the peace,'' as you say Mr. Henry, when we win the 
war, do you have any anticipation of the number of forces that 
might be required? Obviously, a lot of the decision will be 
based on and will come from our allies that appear to be lining 
up to join with us should that become necessary. But do you 
have some idea of what kind of commitment we might have to make 
in terms of force structure and/or time frame to win the peace?
    Mr. Henry. Well, Senator, the honest answer is: No, I do 
not. I have not been briefed into any of those programs. So all 
of my insight would be based on that just as a private citizen.
    I would expect that it would probably span a spectrum of 
what might be needed depending on exactly what the war plans 
are, but also how the outcome is and the degree of damage that 
takes place in Iraq.
    Senator Ben Nelson. In any event, whatever it takes, we 
have to make the commitment to accomplish the winning of the 
peace because, otherwise, the winning of the war will be 
ultimately lost. Is that your impression?
    Mr. Henry. I could not agree with you more.
    Senator Ben Nelson. Mr. McHale, as recently as just a week 
or so ago, 15 other Senators and I, both Democrats and 
Republicans, representing 19 States that currently only have 
part-time Weapons of Mass Destruction Civil Support Teams--we 
are into acronyms, WMD-CSTs.
    Mr. McHale. Yes, sir.
    Senator Ben Nelson. We wrote to Secretary Rumsfeld to 
encourage him to establish an additional 23 of these units so 
that at least one team will be located in each State and 
territory.
    Nebraska, like the other 18 States, really does not have in 
reality a part-time unit because the teams must be certified 
and, obviously, it is not certified. But if you think about it, 
in terms of the location of Nebraska, Interstate 80 is 
certainly one of the busiest traffic-ways in the United States. 
Our heavily traveled rail system is the busiest in the Nation, 
and perhaps in the world, with the crossroads of so many 
railroads going through. We have the busiest location in the 
center part of our State.
    Obviously, hometown security and homeland security both 
depend on our protection in this area. So I was wondering if 
you could share your thoughts on these teams, and what your 
position would do to help support Secretary Ridge and others 
who are faced with these challenges.
    Mr. McHale. Yes, sir. Senator, if I were fortunate enough 
to be confirmed, I would anticipate being a vigorous advocate 
on behalf of the training and resourcing of those teams. When I 
served in the House of Representatives, I was the co-chair of 
the Guard and Reserve Caucus. It was during that period of time 
that the Civil Support Teams were created. Originally, they 
were called Raid Teams, and ultimately became the Civil Support 
Teams.
    At the present time, it is my understanding that we have 27 
teams that have been certified. A total of 32 had been 
authorized. But in the National Defense Authorization Act of 
2003, 55 teams to include at least one in every State were 
reflected in the statutory requirement provided by Congress.
    I think these teams will play a vital role in terms of our 
preparedness to respond to any domestic attack that might 
occur. My concern is that they be properly resourced, and that 
the training levels be raised and be maintained at a consistent 
level among all of the teams. Frankly, I am not sure that that 
consistency of training has yet been achieved.
    If we were to have a WMD attack in the United States, it is 
likely that among the first responders, at least at the Federal 
level, would be the Civil Support Teams who would add to the 
first responders' capability at the local level, a WMD 
capability which we do not normally find in our local 
communities. We need to make sure that that follow-on force, in 
the form of the CSTs, is prepared to take on the mission.
    Senator Ben Nelson. Well, I am encouraged by your 
recognition of the importance of homeland security actually 
being about hometown security.
    Mr. McHale. Yes, sir.
    Senator Ben Nelson. Otherwise, it is just a broad 
generality with an awful lot of boxes moved and organizational 
charts.
    Mr. McHale. Yes, sir.
    Senator Ben Nelson. When I left as governor, I lost my 
public housing, my transportation, the airplane, but I also 
lost the military, the Guard. Of all those categories, the 
Guard was clearly the most important to the State of Nebraska 
and, I think, remains important for hometown security to work 
very closely and coordinate closely with the civil authorities 
in the first responder categories.
    So I look forward to working with you. I know that you will 
do what you can to coordinate these activities to make sure 
that they are as seamless as possible and they are as 
competently trained and as ready as is absolutely humanly 
possible.
    Mr. McHale. Yes, sir.
    Senator Ben Nelson. I appreciate your background on this, 
and I look forward to your future work as well. Congratulations 
in advance, and my best wishes to both you and your families.
    Thank you very much.
    Mr. McHale. Thank you, sir.
    Mr. Henry. Thank you, sir.
    Chairman Warner. Thank you very much, Senator. I appreciate 
you making reference to those teams because this committee, on 
both sides of the aisle here, has been a strong proponent of 
those units. We are going to look to you to keep that momentum 
going.
    Mr. Henry. Yes, sir.
    Mr. McHale. Thank you, sir.
    Chairman Warner. Senator Talent, we welcome you.
    Senator Talent. Thank you, Mr. Chairman. I just would like 
to say thank you for your kind comments and the kindness you 
have already shown me. I am really looking forward to serving 
on this committee under you and Senator Levin, and it may be 
the most enjoyable part of my service in the Senate. It is a 
pleasure for me to be here.
    It is also a pleasure for the first hearing I am attending 
to be on the confirmation of these two nominees.
    Mr. Henry, I do not know you, but you certainly have a very 
impressive vitae, and I am fully supportive of your nomination 
and look forward to working with you.
    Congressman McHale, I do know you, and I just want to echo 
the comments that Senator Roberts made.
    I do not know of a more dedicated or conscientious public 
servant. One of the things, Mr. Chairman and Senator Levin, 
that we are going to find when we call Mr. McHale before this 
committee, and what we are already seeing, is absolutely direct 
and to-the-point responses to our comments in which we can 
place full confidence.
    I am just thrilled at your nomination, Paul.
    I was going to ask about the Chemical Biological Incident 
Response Force (CBIRF) teams. You have already addressed those.
    Let me just ask you about a more general subject that has 
troubled first responders in Missouri when I have talked with 
them about the possibility of some kind of a terrorist attack 
and as they prepare. I am not certain, in your new role, how 
much responsibility you may have for this. I think to some 
extent, you are, of course, going to be defining your role. I 
have full confidence in your ability to do that.
    When I talk to county officials, local public health 
authorities, fire protection officials, they are eager to know 
how much they or someone in their area may be in the loop on 
intelligence sharing. In other words, they say, ``We would 
really like to know, and not for release to the public, but if 
the government is aware of evidence that would suggest there is 
a heightened threat at a sports event going on in our county, 
or a county fair, or a shipment of some goods going through the 
area''--and this whole question of how we share intelligence 
both within the government and then to State and local 
officials is one that has troubled me.
    I am not really satisfied with the system that we now have, 
where the government sort of announces that people should be 
worried over a particular weekend. I just do not know how 
useful that is.
    But if we had some protocol for identifying and sharing 
with responsible local officials, or maybe with the State 
officials, I think that would be useful. I know that there may 
be some risk in developing that.
    Now, as you exercise your responsibility over the Reserve 
components, obviously you are going to be sharing with local 
commanders intelligence that they may need to know. Do you have 
any opinion on how you could safely, but effectively, share 
that with local responders? Because you are obviously going to 
be coordinating with them in carrying out your functions.
    Mr. McHale. Yes, sir. Senator, I thank you for your kind 
words. I think it is appropriate in this context to point out a 
core principle in terms of the Department of Defense's role in 
domestic activity. We will be a supporting entity, usually 
assisting a civilian agency, a lead agency, in the Continental 
United States. I would anticipate that that would be true in 
the intel arena as well as elsewhere.
    I think the Terrorist Threat Integration Center that was 
announced by the President in the State of the Union Address is 
a monumental step in the direction that you have described; and 
that is to fuse all intelligence sources at a national level 
for appropriate dissemination. I would anticipate that the 
dissemination to State and local authorities would be conducted 
primarily through the Department of Homeland Security.
    Within the Department of Defense and the National Defense 
Authorization Act of 2003, a new position was created for the 
Under Secretary of Defense for Intelligence (USD(I)). I would 
anticipate that he and I, if I were to be confirmed, would 
coordinate in terms of the domestic implications of that 
intelligence sharing so that he would be the primary interface, 
I would think, at the Departmental level with regard to DOD's 
role in the fusion of that intel at the new integration level.
    But because the statute also charges the new Assistant 
Secretary of Defense for Homeland Defense with overall 
supervision of all homeland defense activities for the United 
States, for the Department, that I would be intimately involved 
in coordination with the USD(I) in our contacts with Homeland 
Security. To the extent that we would share information with 
Homeland Security and receive it from Homeland Security, they 
in turn, subject to appropriate clearances and so on, would 
pass that information expeditiously to State and local 
responders.
    That is kind of an overview of the process, but my 
impression is that that is how it would work.
    Senator Talent. I do not expect greater specificity from 
you. I just want to make certain that you are fully conscious 
of the need to establish a protocol that both governors--and 
Senator Nelson, I am certain, would agree with this--and their 
offices, and then local EMT teams can have access to, so that 
they know who in the county is being informed, what kind of 
threats they are going to be informed of, and that we have a 
greater certainty than we now have out there.
    I think you are right; I doubt that you will be the primary 
initiator, but you are going to be involved.
    Mr. McHale. Yes, sir.
    Senator Talent. As you have these discussions with Homeland 
Defense, I hope you will make certain that they will 
expeditiously work out these protocols.
    Mr. McHale. Senator, we would anticipate that in the office 
that I hope to lead, there would be a senior official--and 
actually the gentleman that I am going to recommend for that 
position if I am given that opportunity--would have, as his 
full-time responsibility, the integration of DOD capabilities 
in an effective and responsible way into the overall homeland 
security strategy, so that he would be primarily responsible 
for coordinating between the new Department of Homeland 
Security and the Department of Defense. It is such an important 
matter that I think somebody has to work on that virtually 
full-time.
    Senator Talent. I see my time has expired. I do not want to 
overstay my welcome on my first visit, Mr. Chairman. Thank you 
again very much.
    Chairman Warner. We thank you, Senator.
    We will now continue with Mr. Pryor. We are going by the 
early bird rule unless you want to change. Senator Pryor?
    Senator Clinton. I believe in the early bird rule.
    Chairman Warner. Good. [Laughter.]
    Senator Pryor. Mr. Chairman, I do not have any questions.
    Senator Clinton. I especially believe in this guy's early 
bird rule. [Laughter.]
    Chairman Warner. To follow in the footsteps of a most 
distinguished, most beloved father, with whom I had a strong 
wonderful friendship, and he often did the same.
    Senator Pryor. Thank you.
    Senator Levin. If I could just add one word about Senator 
Pryor's folks as well. My wife Barbara and I were and are so 
close to David and Barbara Pryor and enjoyed serving with them. 
I sort of use the word ``them'' advisedly. When David was a 
Senator, he made a major contribution to the Senate. He was 
just a wonderful, warm human being. He made a major 
contribution to the security of this country. He was somebody 
who asked some very tough, pointed questions. It is very 
useful, very essential that questions be asked of the type that 
your dad asked, and we are just delighted that you, Mark Pryor, 
are on this committee.
    Senator Pryor. Thank you.
    Chairman Warner. I associate myself with those remarks. 
Now, Senator Clinton, we welcome you to the committee.
    Senator Clinton. Thank you, Mr. Chairman. I apologize for 
not being here earlier. I, too, was at another event, but I 
appreciate the opportunity to be here at the first public 
hearing of this committee that I am honored to serve on now.
    I welcome the two nominees and look forward to working with 
you in the years to come on these important matters that, 
assuming that you are and I believe you will be confirmed, will 
be within your area of jurisdiction and oversight.
    Mr. McHale, on January 21, National Public Radio aired a 
story about how the military buildup for Iraq is moving 
firefighters, police officers, and emergency response personnel 
from the front lines here at home in the war on terrorism to 
the front lines in the Middle East. Last night, CNN ran a 
similar piece.
    A number of local officials, from Utah to West Virginia to 
San Antonio, say that as many as 10 percent of their first 
responders may also be in the Reserves. I know that in New York 
City 300 of our firefighters are also in the Reserves. This 
creates a tremendous dilemma, as I know you are well aware and 
as Senator Talent was raising with you earlier because, on the 
one hand, I do not believe we are yet giving our local 
communities enough resources to take on the additional 
responsibilities imposed by their new challenges with respect 
to homeland security. At the same time, they are going to be 
losing maybe up to 10 percent--and certainly in New York, some 
communities have lost an even higher percentage than that--of 
the resources they need, and yet they under law will continue 
to pay those people, as they should, to keep that job open, as 
they must.
    So something is going to have to give here because we are 
going to be putting many of our local communities at greater 
risk, not only for the potential of threats from terrorists, 
but just in the ordinary everyday work that they are supposed 
to be doing. Do you have any idea at this point how many 
police, firefighters, EMTs, public health officials are being 
called up?
    Mr. McHale. Senator, I do not. As a private person looking 
at the prospect of returning to public service, I would 
anticipate that that kind of information probably is available. 
I do not know if they have it immediately available, but I 
think certainly it could be identified through the Assistant 
Secretary of Defense for Reserve Affairs, where occupational 
backgrounds would routinely be maintained as a matter of 
record.
    I can tell you that up until about 2 or 3 months ago, I was 
the--after I left Congress, I went back to the Drilling Reserve 
in the Marine Corps, and I was the Assistant Division Commander 
of the 4th Marine Division. That is the Reserve Ground Combat 
Division in the Marine Corps Reserve. Just anecdotally, we had 
many firefighters, many police officers. I, in fact, read your 
speech at John Jay College, and I am aware of your concerns.
    I think the Department of Homeland Security, as opposed to 
the Department of Defense, will probably have to engage more 
immediately on that issue. It is a national problem. As an 
American citizen, I obviously have a concern for the issue that 
you raise.
    As a potential official in the Department of Defense, our 
role would be to support, if I were to be confirmed, the 
Department of Homeland Security. We would provide unique and 
extraordinary capabilities to those first responders. We would 
have the statutory obligation to transfer to those first 
responders improvements in technology that might be coming out 
of the Department of Defense, so that if the Department 
developed a technology that was primarily aimed at competency 
on the battlefield, but had a corollary benefit to first 
responders at home, that they would become aware of that 
technology as quickly as possible.
    So I--forgive me if I have taken a tangent to your 
question. But while it is a vital national issue, the role of 
the Department of Defense in a supporting capacity would not 
directly interact with the issue that you have raised.
    Senator Clinton. Well, what about, though, the utilization 
of Guard and Reserve in order to back up and fill in for some 
of these positions?
    Mr. McHale. Oh, yes, Senator.
    Senator Clinton. Because that certainly has been a role and 
responsibility as we all know.
    Mr. McHale. That is correct.
    Senator Clinton. We have all walked through airports and 
seen National Guardsmen, or at the Amtrak station and at Penn 
Station in New York. So I think that the coordination is 
something that we have to watch very carefully. I would hope 
that in conjunction with the Department of Homeland Security we 
would monitor this very closely because there will be some 
places in the country that will be particularly hard-hit.
    I do not know how we would fill the gap if 300 firefighters 
were called up in New York City, for example. So that will be a 
continuing concern of mine, and I hope that it will be an area 
in which you will, working with the Department of Homeland 
Security and the rest of DOD, perhaps come up with some 
suggestions for us.
    Mr. McHale. Senator, what I can pledge to you is that, if I 
am fortunate enough to be confirmed, I will talk to Tom Hall 
who is the Assistant Secretary of Defense for Reserve Affairs. 
I will attempt to determine if we have identified who are the 
first responders serving simultaneously as citizen soldiers. We 
have to be acutely sensitive to that.
    There are two ways in which the Department of Defense is 
likely to become engaged in support of civil authorities: One, 
if we have a unique capability, particularly in the area of 
WMD; and second, the Secretary has said, if, in fact, civilian 
authorities in a given circumstance were to be overwhelmed as 
they were in terms of airport security immediately after 
September 11th. The recognition of the fact that those civilian 
authorities had been overwhelmed would be a further 
justification for DOD engagement.
    So if that situation were to arise, although the President 
and the Secretary would make the judgment call, the Department, 
particularly the Guard, would be prepared under those unusual 
circumstances to back up the first responders.
    Senator Clinton. Thank you very much, Mr. McHale.
    I also understand that now that the Coast Guard has been 
moved into the Department of Homeland Security that there may 
be an increased role for coordination and oversight. I was very 
interested--and you may not have this information at your 
fingertips, but you or perhaps someone else in DOD or Homeland 
Security could provide it--because we have just learned that 
the Pentagon is sending four Coast Guard cutters and two port 
security units to the Persian Gulf.
    Based on our research, this is the first deployment of 
Coast Guard patrol boats to DOD since Vietnam. So apparently, 
even though they are now in Homeland Security, they have been 
assigned or detailed to DOD. This, again, raises resource 
issues.
    In New York, we count on Coast Guard facilities and 
personnel to guard our ports against terrorist threats. We 
clearly are not doing enough yet with the influx of container 
ships to improve the level of port security. So I would perhaps 
look to you to provide some additional information or the 
appropriate person within DOD.
    If I could, Mr. Chairman, I would like to submit some 
additional questions on this Coast Guard issue.
    Chairman Warner. Okay.
    Senator Clinton. It is a very serious one obviously to many 
States, but particularly given the volume of traffic that we 
have in the New York port, it is a particularly pressing one.
    Chairman Warner. I thank the Senator. That will be done. 
That opportunity is open to all Senators to submit questions 
for the record as part of the confirmation process.
    I will take a question or two and then yield to my 
distinguished colleague.
    Mr. Henry, NATO has been a subject that has fascinated me 
since 25 years ago when my good friend and I came to the Senate 
together, and even before that when I served in the Pentagon. I 
was concerned, of course, when NATO made a decision the other 
day--and they had a vote, and I think there were four that 
opposed the more active participation in this Gulf War 
situation as it involves Iraq, but that is history.
    I have also been a strong advocate since the last NATO 
conference, the one preceding the one at which these new 
nations were given invitations the other day. This was when 
President Clinton was in office. They put into their charter 
now the ability to go out of the traditional area of NATO. I 
have expressed my--I do not suggest you reply to this. I am 
just going to make a comment for the record. It is too 
controversial, so you just sit and listen. [Laughter.]
    I have suggested that NATO should be invited--and I repeat 
the word ``invited''--by the government of Israel and such 
government as the Palestinians still have, to look at that 
situation and be encouraged possibly to provide some 
peacekeeping so that the peace process could get underway 
without as great--and I use the term carefully--as great a 
threat from outbreaks along the borders there that we have 
witnessed, the tragic loss of life on both sides.
    So I will continue to pursue that. As a matter of fact, I 
will see that my staff provides you with a letter that I wrote 
some time ago to the President. I have talked to Lord Robertson 
about it on a number of occasions, because I believe the 
instability in the Middle East situation is an integral part of 
the overall complex situation as it relates to the Persian Gulf 
Region.
    I am also interested in China. You came up through the 
community of Naval aviation, and you must have watched with 
great interest when we lost that P-3 aircraft in that tragic 
confrontation with China. Fortunately, it was resolved--but I 
hope that as a consequence of that resolution, the 
relationships can be strengthened in such a way that we obviate 
that occurring again.
    Many years ago the Department of Defense--and I had a 
modest hand in it--adopted a protocol with the then Soviet 
Union called the Incidents at Sea Agreement. I have been urging 
the Department for some time to take a look at that protocol to 
see whether or not we could do something comparable with China 
to avoid again any close proximity incidents of confrontation 
which could result in a situation like the loss of the P-3. So 
that is another area.
    I read through your answers to the committee's policy 
questions. You discussed the potential benefits of a 
comprehensive military-to-military exchange in dialogue 
programs with Russia. Do you hold a similar view with respect 
to China?
    Mr. Henry. Well, Senator, the military-to-military dialogue 
program between the Strategic Command and elements of the 
Russian military was successful and led to a greater 
understanding.
    I have not studied in depth our relationships with China. I 
do believe it is a very critical situation, as you evidenced by 
the incident with the P-3; tensions along the Taiwanese Strait. 
China will be a very significant world power, one we are going 
to need to understand how to get along with, to understand 
their point of view, but be able to effectively project our 
point of view.
    If confirmed, I can promise you that I will delve into that 
and look forward to working with the committee in coming up 
with solutions that will benefit our country and our servicemen 
there on the front lines.
    Chairman Warner. How about the military-to-military 
cooperation? That ebbs and flows, but through my years in the 
security systems, I have seen tremendous benefits that have 
been derived from military-to-military sharing, beginning with 
the educational process which we offer in this country to so 
many foreign officers. How do you feel about those programs?
    Mr. Henry. Well, obviously the International Military 
Education and Training (IMET) program is probably the crown 
jewel we have of understanding other military cultures. Not 
only does it allow them to come and understand how we operate, 
the benefit of civilian legislative oversight in the military 
process, but also lets us build individual bonds that, many 
times, have been critical in diffusing crises in their 
incipient phases. So I could not be a stronger proponent of 
programs such as IMET and the opportunity to understand how we 
are alike rather than how we are different.
    Chairman Warner. Good.
    One more question, Senator Levin--that I would like to ask 
Congressman McHale.
    In the State of the Union speech, the President announced 
the establishment of a new Terrorist Threat Integration Center 
to facilitate the fusion of information. You explicitly 
mentioned it in your opening statement. What is the role of the 
Department of Defense in this?
    Mr. McHale. Senator, my belief is it has not yet been 
defined.
    Chairman Warner. That is a good answer. I would stick with 
that.
    Mr. McHale. Yes, sir. [Laughter.]
    Chairman Warner. I am concerned that we have what I regard 
as a very fine intelligence setup in the Department of Defense. 
We are real-time users. I am going to be very careful as you 
take your office and work with your colleagues. I want to be 
supportive of the President, but I do not want to see any 
degradation of the capabilities of our gathering and such 
analysis as we do in the Department of Defense and its related 
agencies.
    Mr. McHale. Yes, sir.
    Chairman Warner. We are agreed on that?
    Mr. McHale. Yes, sir.
    Chairman Warner. Good. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    First, let me ask you, Congressman McHale, about that same 
Terrorist Threat Integration Center which has been referred to 
by a number of my colleagues, including the chairman most 
recently. His is a legitimate concern.
    I have another concern. The new law creating the Homeland 
Security Department suggests that the responsibility for 
analysis will rest with the Homeland Security Department. The 
analysis of intelligence currently resides at the Counter-
Terrorist Center at the CIA. In terms of all-source foreign 
intelligence, it rests there.
    I want to be sure that there is one place that has the 
responsibility to analyze all intelligence, all foreign 
intelligence. We had that language in our Senate version of the 
Homeland Security Bill. It located the principal responsibility 
for analyzing foreign intelligence at the Counter-Terrorist 
Center.
    We saw before September 11 a failure to analyze and share 
intelligence. It was very costly. If we had analyzed it 
properly and shared what we had in different parts of our 
government properly, we might have been able to prevent 
September 11 from happening. So in the Senate bill we 
established principal responsibility.
    I do not want to diffuse that responsibility in any way. I 
want to fuse the information, not diffuse the responsibility. 
That means we need one place. We will be lucky if we do it well 
once. We have millions of pieces of information coming in 
yearly, and to get all that information, relative to foreign 
intelligence, in one place to analyze and to do it well would 
be a real success.
    We still have the Counter-Terrorist Center. When I asked 
Governor Ridge the other day at his confirmation hearing, is 
there any intent to duplicate that Counter-Terrorist Center 
with this new agency, he said, ``No. Principal responsibility 
will still be at the CIA, at the Counter-Terrorist Center.''
    Mr. McHale. Yes, sir.
    Senator Levin. The President the other night, as it has 
been noted, established a Terrorist Threat Integration Center. 
My question to you is: Is it your understanding that it would 
duplicate the analytical responsibility which is principally 
located at the CIA?
    Mr. McHale. Senator, my understanding of that issue is 
quite limited at this stage. As a private citizen, I did not 
know anything about the President's proposal until I heard it 
in the State of the Union message. So I am really not trying to 
dodge your question, but I am just not sufficiently well 
informed.
    What I can tell you is that as somebody who comes out of an 
operational background, the fusion of intelligence is what 
takes chaos and brings meaning to it, to an operator. So I am 
not smart enough to make a judgment call on the specific 
question that you have raised. But however it is fused, and 
wherever it is fused, it is essential that we get that 
information in an expeditious way down to the operators.
    Senator Levin. If it is not clear where it is to be fused, 
if there are two or maybe now three places which have 
responsibility, there is not going to be accountability. The 
lack of accountability was severe prior to September 11.
    Mr. McHale. Yes, sir.
    Senator Levin. So if we want to focus responsibility for 
that, there has to be a place which is principally responsible 
for that analysis. So even though you are not in a position now 
to give us your opinion on that, you soon will be in a position 
where you will have some responsibility in that regard, not 
just as a customer but, given your background, knowledge, 
experience, and intellect and, it seems to me, responsibility, 
you need to have an opinion and to share that opinion with 
others. So I would urge you to do that.
    As you point out, probably the single most important thing 
we can do is the intelligence responsibility.
    Mr. McHale. Yes, sir. It is the forward edge of the 
battlefield.
    Senator Levin. If we do not do it well, and if we blur it 
and do not make it clear, we are going to pay another price for 
the failure. So, please do look into that issue and I hope you 
will work hard to avoid any duplication or confusion in that 
area.
    Mr. McHale. Yes, sir, I will.
    Senator Levin. One of the areas that I have had some 
concern with, particularly since the attack on the U.S.S. Cole, 
is our inability to detect explosives from a distance. If we 
can get the technology to do that, we will not only be helping 
our defense effort, protecting our forces, but we can also then 
share that with local governments, first responders, and the 
people who have the responsibility to protect us. Would you 
agree that the development of a stand-off explosive detection 
technology should be a top priority of the Department of 
Defense and the Department of Homeland Security?
    Mr. McHale. Without question, sir. I would expand that to 
include other weapons of mass destruction beyond explosives.
    Senator Levin. I would fully agree with that.
    Reference has been made to the Civil Support Teams (CST) 
that we have established in some States, and are planned to be 
established in every State and territory. What is your 
understanding of the Department's current plans for 
implementing that provision?
    Mr. McHale. Senator, there are 27 teams that have been 
certified. There were 32 prior to the National Defense 
Authorization Act that had been authorized. The Authorization 
Act expanded that number up to 55, which will bring at least 
one team to every State and territory of the United States. If 
I am confirmed, we will of course comply with the law. That 
will require further consultation with this committee to talk 
about resourcing and training, but when the law is passed, we 
comply.
    Senator Levin. Well, it is not just a matter of compliance. 
It is full and quick compliance----
    Mr. McHale. With urgency.
    Senator Levin. Is it your intent to comply with that law 
with speed?
    Mr. McHale. Yes, sir. Consistent with the resources that 
are made available. I believe----
    Senator Levin. But to urge that those resources be made 
available?
    Mr. McHale. Fortunately, I have had many years of contact 
and experience and respect for the National Guard. I am aware 
of the role that the CSTs potentially play in terms of the 
domestic attack, and we have to be ready.
    Senator Levin. I just have one other question on this 
subject, Mr. Chairman. Perhaps I could just finish on this 
subject.
    Chairman Warner. Go ahead.
    Senator Levin. Relative to the missions of those teams, 
should the mission be expanded to include clean-up or 
containment capabilities in addition to their current detection 
capability and responsibility?
    Mr. McHale. Senator, those teams are now assigned the 
mission of detection. I frankly have some concerns that we need 
to provide better training and resources to make sure that that 
element of the mission is operational.
    With regard to expanded capabilities, as a nation, we 
clearly have to have greater ability than we have now to enter 
a hot zone, provide medical care, decontaminate, and remediate 
the site. I am not prepared today to say that that mission 
should be within the CST teams. We have other components even 
within the Department of Defense that have similar 
capabilities, CBIRF, the Army's Chemical Biological Radio 
Response Team (CBRRT), the technical escort units.
    Clearly, we have to move beyond detection to a real and 
operational decontamination, medical--an intrusive capability 
to enter a hot zone and do much more than we can do now. But I 
am not prepared, sir, today to say that that expansion should 
necessarily be within the CSTs.
    Senator Levin. Thank you.
    Chairman Warner. I would like to call you ``Captain 
Henry.'' It might be the last time for a while. Maybe you will 
revert back to Captain when you finish your distinguished 
career in the Department, Mr. Secretary-to-be.
    But in the meantime, let us turn to missile defense. I 
again went through your responses there. Currently, the United 
States is pursuing cooperative defense efforts with Germany, 
Italy, Japan, and Israel. Other allies and friends have 
indicated an interest in striking up similar relationships. I 
personally find that to be a good, strong move because it 
dispels the concern in the world that we are trying to gather 
in something around us, that we are going to take care of 
ourselves, but ignore the rest of the world.
    Also, I think that it emphasizes the sharing of the concern 
our Nation has for the missile threat, be it short range or 
long range. Are these subjects to which you have given some 
thought in time and will likewise devote in your new position 
if confirmed?
    Mr. Henry. Yes, Senator, if confirmed, this will be an area 
that will receive my attention. As you are aware, the President 
has announced that he wants to go forward with a very limited 
deployment of 20 land-based systems, but also 20 sea-based. 
That 20 sea-based allows us not only to protect the homeland, 
but also to be able to protect our friends and allies.
    We are continuing a very robust research and development 
effort, close to the tune of $8 billion a year. As those 
capabilities mature, we will also be able to share those with 
our friends and allies. But missile defense is something that 
is--whether it be theater or national, and we now just call it 
basically missile defense, it is something that is of interest, 
should be of interest to the entire world, not just the United 
States. We should be able to share the resources that we 
develop.
    Chairman Warner. I share that view.
    Mr. McHale, the National Guard and the Reserve--I was part 
of the Marine Corps Reserve for many years. I was very pleased 
when you and I had our excellent visit together. You stressed 
how today the integration between the regular and the Reserve 
components, has just come together like gears to begin to turn 
instantly and you want to foster that.
    Mr. McHale. Yes, sir.
    Chairman Warner. That has not always been the case. 
Certainly in my earlier days, it definitely was not the case. 
But I think to make the Reserve and Guard effective, they have 
to be viewed as sharing the tough parts of military careers, 
combat arms responsibilities and things like that.
    Now, the Guard will have a heavier emphasis on homeland 
defense. But at the same time, we cannot, I think, take away 
the options that they can have overseas deployments into other 
areas of conflict, as they are now serving brilliantly in the 
Balkans and have been for some period of time. They are in the 
Afghanistan AOR. What are your views on that?
    Mr. McHale. Sir, there are some who have argued that the 
National Guard should be oriented exclusively toward homeland 
defense. I would respectfully dissent from that opinion.
    Chairman Warner. I share in that dissent, yes.
    Mr. McHale. I have not spoken with the Secretary of Defense 
on the issue, but I have read his comments on this question. 
The quotes that I have read indicate that he, too, believes 
that the National Guard should be a balanced force, part of our 
strategic Reserve in terms of overseas deployment, but that 
there is sufficient capability and manpower and resources to be 
found within the Guard that we can reorient in a balanced 
approach a greater emphasis on the homeland defense mission. 
So, I think what is ahead, almost inevitably, is that the Guard 
will play a very significant role in homeland defense, but not 
to the exclusion of the potential of overseas deployment.
    Chairman Warner. I find that a reassuring view that you 
have, and I hope that you can implement it.
    I am going to read this through. This is one of these 
tongue twisters, but you will be able to follow it.
    Under existing law, the Assistant Secretary of Defense for 
Special Operations and Low Intensity Conflict (ASD/SOLIC), who 
heads an organization that this committee through many years 
has had a long and very strong supportive role, is responsible 
for the overall supervision of Special Operations activities, 
low intensity conflict activities of the Department of Defense, 
and should serve as the principal advisor to the Secretary of 
Defense on these matters.
    You have indicated that ASD/SOLIC will maintain oversight 
with regard to DOD's international counterterrorism activities 
and that the Assistant Secretary of Defense for Homeland 
Defense (ASD/HD)--that is your new title, will coordinate 
closely with ASD/SOLIC on matters related to domestic 
counterterrorism.
    Mr. McHale. Yes, sir.
    Chairman Warner. That all reads very well, but having spent 
5 years in the Pentagon where, hopefully, you will move to, 
sometimes it does not always work out the way you like to have 
it.
    Given the global nature of today's terrorist threat, how do 
you envision these two assistant secretaries will share the 
responsibilities in policy oversight for combating terrorism?
    We have struggled here in Congress in the creation of 
homeland defense.
    Mr. McHale. Yes, sir.
    Chairman Warner. My good friend and I have seen all the 
charts, the cross wires, the stove pipes, and we believe in 
accountability.
    On which desk does the accountability and the buck stop? If 
something goes wrong, who is going to stand up and say, ``That 
is my responsibility''?
    Mr. McHale. Senator, what we have to do is reconcile not 
only the statutory language, but the day-to-day operational 
responsibilities with regard to the jurisdiction of ASD 
Homeland Defense and ASD/SOLIC. Prior to the National Defense 
Authorization Act of 2003, all counterterrorism activity, 
insofar as the DOD role was concerned, was assigned to SOLIC. 
With the passage of the National Defense Authorization Act, the 
provision was included that the new ASD for Homeland Defense 
would have overall supervision of all homeland defense 
activities of the Department. There is a seam created at that 
point in the statutory language between the prior 
responsibility and the new obligation imposed on the ASD for 
Homeland Defense.
    The answer to the policy question that I presented, sir, 
reflected my personal thoughts on the matter. I do not believe 
that ASD Homeland Defense should have any responsibility, any 
direct oversight responsibility, with regard to 
counterterrorism activity external to the NORTHCOM or other 
combatant command AORs as they relate to homeland defense. Or, 
in other words, foreign counter intelligence activity, 
counterterrorism activity, should remain the responsibility of 
SOLIC.
    When you come back within the AOR of normally NORTHCOM--but 
as Senator Akaka has pointed out, we also have other combatant 
commands, PACOM and so on with homeland defense activities--for 
ordinary, important but ordinary counterterrorism activity 
within the United States, the lead agency is the FBI.
    The Department of Defense would support that role. I would 
believe, and I would recommend, that under most circumstances 
for domestic counterterrorism support of the FBI, the primary 
responsibility should be the ASD for Homeland Defense, the 
exception to that being at the high end of counterterrorism 
activity where we are dealing with the threat of a weapon of 
mass destruction--I believe that at the high end, which 
continues to require the kinds of operational skills that are 
unique to special operating forces, that in a domestic setting, 
again probably in a supporting role, but potentially in a lead 
role, that should remain within SOLIC.
    So for routine counterterrorism activity in support of the 
FBI in the United States, I think that will transition to ASD 
Homeland Defense. For foreign counterterrorism activity and 
high end, weapons of mass destruction, counterterrorism 
activity in the United States, that is SOLIC.
    I am pleased, Senator, that if I am fortunate to be 
confirmed and the office is set up as we envision, we will be 
virtually co-located with SOLIC in the Pentagon.
    Chairman Warner. I appreciate the breadth of your answer. 
But the bottom line is that this committee had a hand in 
drafting the legislation to create your position.
    None of us are perfect. Even Mr. Buyer would admit that. If 
we did not draw that statute up to make it clear, then we 
better readdress it here in the forthcoming bill. I would 
really task you to come back to this committee if you see that 
somehow we did not foresee a potential problem between these 
jurisdictions, because what the President did the other day in 
creating this organization to fuse all the intelligence is 
derivative of problems we have had throughout our government of 
one department not sharing with another certain information. 
Well, you know that. We have all been through this.
    We cannot have that happen. We will just end this with that 
you are going to come back here if you feel there is a 
statutory correction that is necessary.
    Mr. McHale. Sir, I would welcome the opportunity to come 
back. My impression is that we do not have a problem.
    Chairman Warner. All right. Fine. Optimism prevails at this 
point in your career. There is no limitation on the optimism 
until the reality sets in, so good luck.
    Mr. McHale. Yes, sir.
    Chairman Warner. Senator Levin.
    Senator Levin. Mr. Henry, I would like to talk to you about 
Iraq. You made reference to the role of international 
organizations in keeping the peace after we prevail in a 
conflict. I agree with those comments.
    But international organizations, particularly the United 
Nations, are currently deeply involved in attempting to disarm 
Saddam. I want to talk to you about the role of inspections in 
that effort. First of all, I would assume that you would agree 
that international organizations, including the U.N., do have a 
role in preventing war from taking place.
    Mr. Henry. I would agree that they have a role along with 
other institutions, yes, Senator.
    Senator Levin. We obviously have a major role, a bigger 
role than that in terms of deterring war through strength. But 
so long as the U.N. has a role and presumably we are trying to 
help it carry out that role in the disarming of Saddam through 
an inspection process, the question is: What are we doing 
policy-wise to support the U.N. inspection process?
    There was some ambiguity about our position as to whether 
we thought inspections were useful. Some of the 
administration's comments early on suggested that they were a 
waste of time. I thought that was counterproductive and 
undermined the importance of that inspection process, but that 
is just my own opinion. That is background for the question 
that I am going to ask you.
    If we are serious that we want the U.N. inspection process 
to succeed, then there are some things that we can do to help 
it succeed. One of them is to share information with them. I 
have said publicly and I will say it again: It is just a small 
percentage of information relative to suspect sites that it has 
been shared with the U.N. inspectors. They have asked for 
information twice, seriously, and yet only a small percentage 
of the sites and the information relating to those suspect 
sites that we believe we have has been shared with the U.N. so 
far. I have urged the President, in a letter which I have made 
public, to share that information.
    Obviously, we are not going to in any way jeopardize 
sources and methods, but that is not the issue. We have raised 
that question again today with the Secretary of Defense.
    What I want to talk to you about is a comment that you made 
in a written answer to the committee's policy questions. You 
said that ``The United States will not allow tyrants and 
dictators to use sovereignty as a shield behind which to hide 
and plot against the sovereignty and security of others.'' I 
generally agree with that statement.
    But we are now in a situation where U-2 flights could 
provide significant information to help with inspections, to 
make those inspections more robust, to help them work, to help 
them succeed. Yet we have not pressed the U.N. to take a 
position with Iraq that the U.N. is going to authorize those U-
2 flights in support of inspections whether Iraq likes it or 
not.
    The position that the U.N. has taken is, ``Well, Iraq is 
not going to authorize it. Therefore, they would shoot at the 
U-2s. Therefore, the U.N. will not take that responsibility of 
authorizing flights and put a U.N. flag on our U-2 flights.''
    I do not think we should allow Saddam to veto U-2 flights 
which would aid the inspection process. That goes right to the 
heart of the question of whether or not the United States is 
going to allow dictators to use sovereignty as a shield. If we 
are serious about supporting U.N. inspections, it seems to me 
we should be asking the U.N. to adopt a resolution which says, 
``U-2 flights operated by United States are authorized, will 
become U.N.-supported operations. If Hussein shoots at them, 
that will be considered a material breach and an act of war 
against the United Nations.''
    We are not there yet. Secretary Powell is going to the U.N. 
to share information with the U.N. that we have, and that is 
fine. I hope they will share that same information that they 
present to the U.N. with us if they have not done so yet. But 
that is just part of the process. I hope we will consult with 
the U.N. if we really want it to be relevant, not just inform 
them of what we are going to do whether or not--whatever they 
do, regardless of what they do. It is not consultation. That is 
notice. That is just informing. It is not consultation which we 
are obligated to do under the resolution. So I hope we will 
truly consult with the U.N., too, to help it be relevant and to 
help it succeed, to listen as well as to share.
    But my specific question to you is: Should we not be 
pressing the U.N., asking the U.N. to adopt a resolution 
relative to U-2 flights being authorized, and informing Saddam 
that should he attack those flights he will be acting against 
the interests of the United Nations, and in effect, declaring 
war on the United Nations? It is a question which I know there 
has been some discussion about, including in this morning's 
paper, including Secretary Wolfowitz who apparently has spoken 
on the subject as well.
    But given your position and your answer to our question, do 
you agree that we should make that request to the U.N. and 
support that the U.N. authorize U-2 missions in support of U.N. 
inspections in order to make them relevant and to strengthen 
that inspection regime?
    Mr. Henry. I would agree with you that intelligence and 
helping inspectors is critical. Again, I am only privy to what 
I read in the newspapers to date, but I notice that there are 
indications from national technical means that up to 2 days in 
advance of inspections going out, the Iraqis are making changes 
to sites, as reported in the paper.
    So having the ability to have U-2 flights would be a good 
way to be able to document that those sort of things are going 
on and that there might be something with the information flow 
into the inspectors.
    The exact mechanisms by which we go to the U.N. and present 
that, I would think that would be something that would be under 
the purview of the State Department. If confirmed, obviously I 
would be interested in consulting with them as part of the 
interagency process in being able to point out the benefit of 
an approach similar to yours.
    Senator Levin. I am glad that you will do that. Time is 
really of the essence here. I would hope that if you have some 
feelings about that particularly in light of your statement 
about not letting sovereignty being used by dictators as a 
shield, that you would express that opinion, as I have and will 
continue to do. We need to if we are really serious about U.N. 
inspections succeeding and being relevant, and that that 
organization be relevant in order to try to help us prevent 
war.
    I have some additional questions, Mr. Chairman, on North 
Korea, but my time is up.
    Chairman Warner. I have other obligations so I am going to 
let you go ahead. If you have another question, go ahead.
    Senator Levin. This will just be a few more minutes on 
North Korea.
    Chairman Warner. Okay.
    Senator Levin. The administration, in September of 2002, 
set forth the National Security Strategy which contained a 
policy of preemption which essentially calls for the United 
States to take anticipatory action to defend ourselves even in 
the absence of an imminent threat. This is a departure somewhat 
from the past, when anticipatory defensive actions were tied to 
an imminent threat standard. That connection has been loosened, 
I would say, by the new doctrine. How would you apply that new 
doctrine to North Korea?
    Mr. Henry. Well, as I understand in reading the National 
Security Strategy, that preemption is one of many tools and the 
tool of last resort to be able to use. I think the steps the 
administration is taking right now through active diplomacy and 
moving toward multinational organizations to be engaged in that 
diplomacy is the correct way to go.
    Senator Levin. You would say that that is the correct way 
to go, the diplomatic approach, even though we are in a 
situation where North Korea has announced, in effect, that it 
has gone to a surreptitious uranium enrichment program which is 
in violation of an agreement and a nonproliferation treaty 
which they signed, and an agreement that they signed with the 
South? Even though they have now given notice that they are 
withdrawing from the nonproliferation treaty, even though they 
have removed the inspectors from North Korea, you still believe 
that the diplomatic approach is the right approach before any 
preemptive attack is used?
    Mr. Henry. I think the diplomatic approach is the correct 
approach at this time. The President has announced as part of 
his deterrence strategy, in order to deter against weapons of 
mass destruction that all options are on the table, and he is 
not ready to take any off, and that that is what we are trying 
to actively use, is deterrence. But to my way of thinking, at 
the current stage, active diplomacy is the way to proceed.
    Senator Levin. Thank you.
    One quick comment and then I am done, Mr. Chairman.
    It is on the Total Information Awareness Program which a 
number of us are very much concerned with, and the concerns of 
probably most Senators are reflected in the language which was 
recently adopted in the Omnibus Appropriations bill. Mr. Henry, 
you made reference to the fact that this is a test to see 
whether it is possible, basically, to fuse information which 
comes from various sources.
    I would say it is a little bit different from that because 
it is not just ``come from'' sources, but it is seeking out 
every bit of information from any conceivable source and fusing 
it. It is a much more proactive program than just receiving 
intelligence information about potential terrorists. It is a 
proactive effort to seek as much information, I guess, on 
potentially any American from any conceivable source and to 
fuse it. So it is that proactivity which is, I think, the issue 
which is of some concern for Americans in terms of our 
traditional rights and liberties, and sense of freedom and 
privacy is most important here.
    That is just a comment. I am not asking you, unless you 
would like to, to comment. Mr. McHale's reference to the 
constraints that are essential in such a program are 
reassuring.
    I would hope, Mr. Henry, that you would share that sense, 
that there needs to be some constraints in any kind of an 
effort by government to gather information on its citizens from 
any conceivable source, and then to fuse it in one place, 
because of the potential for real privacy invasion. There is 
always potential for good, but there is also potential privacy 
invasion against innocent civilians.
    That is something you will be struggling with, but 
``constraints'' is the word I picked out of Mr. McHale's 
comments which I welcomed. The care and caution which is 
reflected in the language in our bill, I hope, would be 
recognized by you as you proceed.
    Mr. Henry. I would just add, Senator, that from its 
inception and my familiarity with the program, it has 
specifically been directed at non-U.S. citizen and foreign 
sources, and that there are a number of safeguards and 
protections that they have put in that, if at any time 
something does come up on a U.S. citizen, that it is filtered 
out.
    Senator Levin. I want to thank you both for your service. 
You are both extremely well-qualified. We look forward to a 
speedy confirmation under the leadership of our Chairman, who I 
know will move these nominations with his usual dispatch.
    Chairman Warner. With your help, I thank you, my dear 
friend. The hearing, an excellent hearing is concluded.
    Mr. Henry. Thank you, sir.
    Mr. McHale. Thank you.
    Chairman Warner. Thank you.
    [Whereupon, at 11:25 a.m., the committee adjourned.]

    [Prepared questions submitted to Paul McHale by Chairman 
Warner prior to the hearing with answers supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I fully support the implementation of these reforms. 
The focus on ``jointness'' outlined in the Defense Reorganization Act 
of 1986 has significantly enhanced the readiness and warfighting 
capabilities of the U.S. Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have fundamentally changed the way the 
Department of Defense works by strengthening civilian control of DOD 
activities, improving military advice given to the President and 
Secretary of Defense, enhancing the role of the Chairman of the Joint 
Chiefs of Staff, and modernizing the warfighting chain of command.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. From my point of view, the most important aspects include 
the clear responsibility, authority, and accountability given the 
combatant commanders for mission accomplishment; the increased 
attention to formulation of strategy and contingency planning; and the 
creation of a strong, direct, and unambiguous chain of command.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation and, if confirmed, will 
support their continuing implementation.

                             RELATIONSHIPS

    Question. Please describe how you envision your working 
relationship, if confirmed, with the following:
    Answer. The organization that I will lead, if confirmed, will be a 
policy-based organization focused on building and improving DOD's 
efforts in supporting the Nation's homeland security requirements. The 
organization will unify DOD's homeland defense, military support to 
civil authorities, and emergency preparedness activities by providing 
focused management, oversight, and supervision of policies, programs, 
and resources. Additionally, it will be an advocate in the DOD resource 
allocation process for resource requirements to support these 
activities.
    If confirmed as the ASD (HD), I will maintain close working 
relationships with the Principal Staff Assistants throughout DOD who 
hold responsibilities for capabilities relevant to homeland defense, 
civil support, and emergency preparedness. I envision my relationships 
with key officials as follows:
    Question. The Under Secretary of Defense for Policy.
    Answer.

        <bullet> The ASD (HD) will function under the authority, 
        direction and control of the USD(P).

    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict.
    Answer.

        <bullet> ASD (SO/LIC) will maintain oversight with regard to 
        DOD's international counterterrorism activities.
        <bullet> The ASD (HD) will coordinate closely with the ASD (SO/
        LIC) on matters related to domestic counterterrorism executed 
        in support of lead Federal law enforcement agencies.
        <bullet> The ASD (HD) will maintain careful situational 
        awareness regarding SO/LIC's counterdrug efforts worldwide.

    Question. The Under Secretary of Defense for Intelligence.
    Answer. The USD (I) is responsible for assuring that senior DOD 
leadership and combatant commanders receive the warning, actionable 
intelligence, and counter-intelligence support needed. The ASD (HD) 
will maintain a close relationship with the USD (I) to assure support 
for homeland defense intelligence needs. The USD (I) will be a conduit 
to the intelligence community, providing an opportunity for ASD (HD) 
feedback regarding intelligence tasking, processing, exploitation, and 
dissemination as it affects homeland defense users at various levels. 
Competent intelligence, properly disseminated, is the first line of 
homeland defense.
    Question. The Assistant Secretary of Defense for Command, Control, 
Communications, and Intelligence.
    Answer. The ASD (HD) will interact with the ASD (C\3\I) regarding 
the work of components of C\3\I that perform DOD and interagency policy 
formulation, and planning on critical infrastructure protection and 
cyber security, in the context of the national strategies addressing 
these areas. Routine, effective coordination between ASD (HD) and ASD 
(C\3\I) will be essential to a unified defense strategy.
    Question. The Assistant Secretary of Defense for International 
Security Policy.
    Answer.

        <bullet> The ASD (HD) will coordinate closely with the ASD 
        (ISP) especially when technology transfer efforts involving 
        other Federal, State, and local agencies have implications for 
        international security and counterproliferation.
        <bullet> The ASD (HD) will also coordinate closely with the ASD 
        (ISP) on chemical and biological defense policy matters, 
        including threat assessments, countermeasures and policy 
        oversight of counterproliferation R&D.

    Question. The Assistant Secretary of Defense for Reserve Affairs 
and the civilian officials of the military departments in charge of 
Reserve Affairs.
    Answer.

        <bullet> The ASD (HD) will coordinate with the ASD (RA) and 
        military service Reserve officials on all issues related to 
        USNORTHCOM's employment of the Total Force.
        <bullet> The ASD (HD) will be an active participant in the 
        comprehensive review of Reserve component contributions to 
        national defense.
        <bullet> The ASD (HD) will support the ASD (RA), as 
        appropriate, in the oversight of Weapons of Mass Destruction 
        Civil Support Teams.

    Question. The Chief of the National Guard Bureau and the Directors 
of the Army and Air National Guard.
    Answer. The ASD (HD) will work closely with the Chief of the 
National Guard Bureau and, through him, the Directors of the Army and 
Air National Guard through the Secretary of the Army and the Secretary 
of the Air Force, particularly regarding the roles, capabilities, and 
readiness of National Guard forces in support of homeland defense and 
civil support.
    Question. State Governors.
    Answer. The ASD (HD) will support DHS in this area as directed by 
the Secretary of Defense. I anticipate close tactical coordination 
between DOD, State emergency preparedness officials and first 
responders.
    Question. The Director, Defense Intelligence Agency.
    Answer.

        <bullet> The ASD (HD) will work with the Director, DIA 
        concerning the planning, programming, budgeting, and use of 
        intelligence resources for the collection and production of 
        intelligence in support of homeland defense requirements.
        <bullet> The ASD (HD) will review intelligence assessments and 
        estimates concerning transfers of technology, goods, services, 
        and munitions with possible implications for homeland defense.

    Question. The Assistant Secretary of Defense for Health Affairs.
    Answer.

        <bullet> The ASD (HD) will routinely and regularly coordinate 
        with the ASD (HA) on all medical aspects of chemical and 
        biological terrorism, including threat assessment, detection, 
        countermeasures, and research and development.
        <bullet> The ASD (HD) will maintain situational awareness of 
        new techniques and technologies developed or adopted under the 
        purview of the ASD (HA) to assure that they are made available 
        to other Federal, State, and local agencies, as appropriate.

    Question. The Chairman of the Joint Chiefs of Staff and the Joint 
Staff.
    Answer. The ASD (HD) will coordinate both formally and informally, 
on a daily basis, with the Chairman, the Joint Chiefs and the Joint 
Staff regarding the roles, capabilities, and readiness of the military 
services and combatant commands in support of the homeland defense 
mission.
    Question. The Director of the Defense Threat Reduction Agency.
    Answer. In coordination with the Under Secretary for Acquisition, 
Technology & Logistics, the ASD (HD) will work closely with DTRA, 
particularly regarding efforts in the following areas:

        <bullet> Domestic chemical, biological, radiological, and 
        nuclear threat reduction and defense
        <bullet> Counterproliferation
        <bullet> Technology security policy
        <bullet> Emergency response support and training

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of Defense for Homeland Defense?
    Answer. Public Law 107-314, the Fiscal Year 2003 National Defense 
Authorization Act, amended Title 10 to establish the position of the 
Assistant Secretary of Defense for Homeland Defense, who will have ``as 
his principal duty the overall supervision of the homeland defense 
activities of the Department of Defense.'' If confirmed, I will perform 
those duties prescribed by Secretary Rumsfeld for the position.
    I expect that Secretary Rumsfeld will establish duties and 
functions of the Assistant Secretary of Defense for Homeland Defense 
that will include leading, supervising, and focusing the Department's 
activities in this area, ensuring internal coordination of DOD policy 
direction, providing guidance to U.S. Northern Command, U.S. Pacific 
Command, and U.S. Southern Command for their homeland defense mission 
and their military activities in support of homeland security, to 
include support to civil authorities, and all necessary DOD 
coordination with the Department of Homeland Security, the Office of 
Homeland Security, and other government agencies.
    More specifically, if confirmed, I expect that Secretary Rumsfeld 
will make me responsible for developing and supervising the 
implementation of the Departmental strategic planning guidance for 
DOD's role in homeland security; developing force employment policy, 
guidance, and oversight; supervising DOD preparedness activities to 
support civil authorities in order to achieve an integrated national 
emergency response system; providing DOD support, as appropriate, to 
assist in developing capacities and capabilities of civilian agencies 
requisite to conducting homeland security missions; and direct DOD 
domestic crisis management activities.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. For 30 years I have been directly and personally involved 
in a wide range of national security activities. These responsibilities 
have involved active and Reserve military service in the U.S. Marine 
Corps, beginning as a rifle platoon leader in 1972 and culminating as 
an assistant division commander in 2002. That duty included active 
military service during Operations Desert Shield and Desert Storm, as 
well as a 1-year overseas deployment in the Western Pacific.
    As a Member of Congress, I served for 6 years on the House Armed 
Services Committee and was a conferee on the National Defense 
Authorization Act for 5 years. In addition, I am a former member of the 
Board of Visitors at the U.S. Naval Academy, a current adjunct 
professor at the U.S. Army War College, and a current member of the 
Board of Advisors at the U.S. Naval War College.
    Following retirement from Congress, I returned to drilling status 
as a U.S. Marine Corps reservist where my assigned duties focused on 
rear area security at the joint and component levels. As a civilian, 
during this period, I participated in several classified wargames 
involving the domestic threat of weapons of mass destruction.

                       ROLES AND RESPONSIBILITIES

    Question. The Department of Defense's combating terrorism 
activities are currently divided into four categories: Antiterrorism/
Force Protection, Counterterrorism, Terrorism Consequence Management 
and Intelligence. Section 902 of the National Defense Authorization Act 
for Fiscal Year 2003, which established the position of Assistant 
Secretary of Defense for Homeland Defense, also transferred the 
responsibility for the overall direction and supervision for policy, 
program planning and execution, and allocation of resources for the 
Department's combating terrorism activities to the Under Secretary of 
Defense for Policy.
    Please specify what activities within each of the four combating 
terrorism categories will be under the jurisdiction of the Assistant 
Secretary of Defense for Homeland Defense.
    Answer. If confirmed, I would recommend the following:
Antiterrorism/Force Protection:
        <bullet> Should remain the primary responsibility of the 
        service components and installation commands, subject to ASD 
        (HD) oversight.
Counterterrorism:
        <bullet> It is my expectation that the ASD (Special Operations/
        Low-Intensity Conflict) will continue to be responsible for DOD 
        international counterterrorism efforts.
        <bullet> In extraordinary cases where U.S. military 
        counterterrorism forces are called upon by the President to 
        undertake a military operation within the United States, I 
        anticipate that the ASD (HD) will serve as the principal 
        advisor to the Secretary of Defense.
Terrorism Consequence Management:
        <bullet> Military support to civil authorities, whether to 
        mitigate the consequences of acts of terrorism, manmade or 
        natural disasters will be one of my principal oversight 
        responsibilities, if confirmed. Oversight and supervision of 
        contingency planning for these missions will be a major ASD 
        (HD) responsibility.
Intelligence:
    My objective would be to ensure that homeland defense commanders at 
all levels lawfully acquire the best intelligence available on threats 
that impact upon homeland security and related DOD missions.
    Question. What DOD official or officials will be responsible for 
DOD combating terrorism activities not under your jurisdiction?
    Answer. The Under Secretary of Defense for Policy, as stipulated in 
the 2003 National Defense Authorization Act, will exercise principal 
responsibility for the overall direction and supervision for policy, 
program planning and execution, and allocation of resources for the 
Department's combating terrorism activities. If confirmed, I anticipate 
that I will be USD (P)'s principal assistant regarding domestic 
counterterrorism. I expect a close collaborative relationship with SO/
LIC, who will continue to serve as the principal policy advisor 
regarding international counterterrorism.
    Additionally, I am advised that the newly authorized Under 
Secretary for Intelligence will be the principal intelligence oversight 
official within the Department. If confirmed, I will work closely with 
him on relevant counterterrorism intelligence matters.
    Question. What steps will you take to ensure that the Department's 
efforts are focused and well coordinated in this critical area of 
homeland defense?
    Answer. The Department has already taken the steps to create the 
U.S. Northern Command in order to improve command and control of DOD 
forces in those homeland defense missions as directed by the President 
and the Secretary of Defense. If confirmed, I plan to work closely with 
the combatant commanders, in concert with the Chairman of the Joint 
Chiefs of Staff, to ensure the full mission readiness of each command. 
I expect this to cover policy, program planning, mission readiness and 
execution oversight, and allocation of resources.
    Coordination will of course be the key to achieving both our 
homeland defense and our homeland security objectives. Within the 
intergovernmental community at the Federal, State, and locals levels, I 
intend to develop close and collaborative relationships to ensure that 
DOD's efforts, when appropriate, support and reinforce civilian 
contingency plans and resources.
    Within the Department of Defense, I intend to initiate a similar 
degree of coordination. On matters such as research and development, 
health affairs, Reserve affairs, and intelligence, I expect to 
integrate our Departmental efforts to ensure we maximize the full range 
of homeland defense capabilities.
    Question. Section 1511 of the Fiscal Year 2002 National Defense 
Authorization Act (NDAA) required the Department to submit a report on 
DOD's role with respect to combating terrorism and homeland security no 
later than 180 days after the date of enactment. Section 1404 of the 
Fiscal Year 2003 NDAA required the Department to submit a more detailed 
report on the Department's role with respect to homeland security, no 
later than March 3, 2003.
    What is the status of those two reports?
    Answer. I am advised that the report required by the Fiscal Year 
2002 NDAA has been completed within DOD and is undergoing final review 
within the administration. The report was delayed beyond its original 
due date because of changes affecting its content, such as the release 
of the National Security Strategy and National Strategy for Homeland 
Security, and the President's proposal to create the Department of 
Homeland Security.
    I have been further advised that the report required by the Fiscal 
Year 2003 NDAA has been tasked to appropriate organizations throughout 
DOD in order to prepare a final draft.

                        CENTRAL TRANSFER ACCOUNT

    Question. The Department has a central transfer account for its 
counterdrug activities. The Senate included a provision in its version 
of the Fiscal Year 2000 DOD Authorization bill that would have 
established a central transfer account for all DOD Combating Terrorism 
funds. However, that language was not included in the final version of 
the legislation signed by the President.
    What advantage, if any, do you see in having a central transfer 
account for all DOD Combating Terrorism funds?
    Answer. The Department of Defense advises me that it does not see 
any significant advantage to the creation of a Central Transfer Account 
for DOD Combating Terrorism funds, and believes that it would limit 
DOD's freedom to flexibly manage a comprehensive response to the 
terrorist threat. Combating terrorism is not a single budget or 
specified group of funds. It includes multiple programs for both CONUS 
and overseas operations for all DOD components. Various combating 
terrorism programs include antiterrorism activities such as force 
protection initiatives, intelligence activities, homeland security 
programs, consequence management, combat air patrols, continuity of 
government programs, and a variety of RDT&E efforts in chem-bio 
programs, the Armed Forces Radiobiology Research Institute, and many 
others. To require central budgeting and transfers would greatly 
complicate management, create delays, and require complex accounting 
efforts. However, if confirmed, I would be happy to examine this issue 
in consultation with the committee.

                         INSTALLATION SECURITY

    Question. The security of U.S. military installations--both at home 
and abroad--has been a longstanding priority for the Senate Armed 
Services Committee. Section 1402 of the National Defense Authorization 
Act for Fiscal Year 2003 directed the Secretary of Defense to develop a 
comprehensive plan to improve the preparedness of military 
installations for terrorist incidents.
    What is the status of that plan and what steps do you plan to take 
to ensure that domestic military installations are secure from a 
terrorist attack?
    Answer. I am advised that the Department of Defense is currently 
preparing a comprehensive plan for improving the preparedness of 
military installations, in order to prevent and respond to terrorist 
attacks as required by Section 1402 of the NDAA for Fiscal Year 2003. 
If confirmed, I will work with the appropriate offices within OSD and 
the military departments to exercise supervision and civilian oversight 
in order to ensure that U.S. military installations are properly 
prepared to defend against attack.

            WEAPONS OF MASS DESTRUCTION CIVIL SUPPORT TEAMS

    Question. Section 1403 of the National Defense Authorization Act 
for Fiscal Year 2003 directed the Secretary of Defense to establish 23 
additional Weapons of Mass Destruction Civil Support Teams (WMD-CSTs). 
This will provide for at least one WMD-CST in each State and territory. 
Section 1403 also contained a reporting requirement that required a 
review of whether the mission of the teams should be expanded.
    Do you consider the WMD-CSTs an important asset in the event of a 
domestic terrorist attack involving a weapon of mass destruction?
    Answer. Yes, I consider the National Guard WMD-CSTs to be key 
military assets, strategically positioned at the operational level, to 
support civil authorities at a domestic Chemical-Biological-
Radiological-Nuclear-Explosive (CBRNE) incident site by identifying 
CBRNE agents/substances, assessing current and projected consequences, 
advising on response measures, and assisting with appropriate requests 
for State support. They are Federally-funded, and under control of 
respective State governors. Prior coordination and combined training 
with State emergency management officials and first responders in each 
team's area of responsibility significantly raises the effectiveness of 
the entire Nation's emergency response system.
    Question. If confirmed, what role would you play with regard to the 
oversight, training, and stationing of the WMD-CSTs?
    Answer. I am advised that the policy and fiscal oversight of the 
WMD-CST Program rests with the Assistant Secretary of Defense for 
Reserve Affairs. I expect to be working closely with the Assistant 
Secretary on matters of mutual concern with respect to the WMD-CSTs, 
with particular emphasis upon training activity, contingency planning, 
and operational readiness.
    Question. Do you believe that the mission of the teams should be 
expanded beyond detection to include some cleanup or containment 
capability?
    Answer. I am advised that the National Guard is currently reviewing 
recommendations from a Weapons of Mass Destruction Civil Support Team 
Force Management Analysis. The results of the National Guard's review 
will form the basis for the Department's analysis of the team's 
existing mission and the potential to expand that mission. That 
response will be provided to Congress by June 2, 2003, as required, to 
meet congressional direction in the 2003 NDAA.
    Question. Are there other appropriate and feasible ways to expand 
the current team mission?
    Answer. As previously mentioned, the results of the National 
Guard's review will form the basis for the Department's analysis of the 
team's existing mission and the potential to expand that mission. That 
response will be provided to Congress by 2 June 2003 to meet 
congressional direction in the fiscal year 2003 NDAA. If confirmed, I 
would fully cooperate with the committee in reviewing this issue.

              CHEMICAL BIOLOGICAL INCIDENT RESPONSE FORCE

    Question. The Department currently has a single Chemical Biological 
Incident Response Force (CBIRF), a Marine Corps unit that is capable of 
mass decontamination in the event of terrorist attack with a weapon of 
mass destruction.
    Is a single CBIRF adequate?
    Answer. I do not consider a single CBIRF to be adequate. The 
development of similar capabilities within the Reserve Components, 
State or local authorities, or other possible alternatives, in order to 
effectively respond to domestic CBRNE events should be considered. In 
addition, the Department of Homeland Security should be encouraged to 
review the possible development of these technical capabilities within 
the civilian emergency response system.
    Question. In the event of a conflict in the Persian Gulf, is it 
likely that CBIRF would deploy to that theater and therefore be 
unavailable to respond to a domestic WMD incident?
    Answer. I am advised that CBIRF is tasked to provide sensitive site 
exploitation teams for use in support of potential conflicts in the 
Persian Gulf. CBIRF will also maintain its CONUS commitment to provide 
an initial response force to a CBRNE incident. Deconfliction of the two 
missions is an ongoing responsibility of U.S. Joint Forces Command and 
the Joint Staff, subject to OSD policy guidance.

                NATIONAL GUARD ROLE IN HOMELAND DEFENSE

    Question. There is currently considerable debate about the role the 
National Guard should play in defending the homeland. The U.S. 
Commission on National Security/21st Century (the Hart-Rudman 
Commission) recommended that the National Guard be given homeland 
security as a primary mission.
    Do you believe that defending the homeland should become the 
National Guard's primary mission?
    Answer. My personal opinion is that the National Guard should 
remain a balanced force, trained for both overseas and domestic 
missions. The appropriate roles and missions of the Total Force--
Active, Guard, and Reserve--in all areas including homeland security 
and the global war on terrorism are currently under review. Defending 
the citizens, territory and domestic resources of the United States is 
the highest priority of the Total Force, including the National Guard.
    The National Guard is clearly capable of conducting selected 
homeland defense missions, such as the Air National Guard's preeminent 
role in continental air defense. However, the National Guard is also 
combat ready to conduct overseas military operations and is relied upon 
by combatant commanders as part of a strategic reserve. As the 
Department reviews how best to deal with the challenge of the new 
security environment, it is mindful of the need to properly balance the 
application of the total force to: defend the homeland, contribute to 
the global war on terrorism, meet military commitments abroad, and, if 
necessary, participate in a major theater war.
    Question. What type of role do you envision the National Guard and 
Reserve ultimately playing in homeland defense?
    Answer. The Department of Defense is currently conducting a study 
mandated by Congress in the fiscal year 2003 National Defense 
Authorization Act to determine the proper balance of force structures, 
proper roles and missions, and command relationships with the National 
Guard.

                RELATIONSHIP WITH U.S. NORTHERN COMMAND

    Question. U.S. Northern Command was established in October 2002 
with the mission of conducting operations to deter, prevent, and defeat 
threats and aggression aimed at the United States, its territories, and 
interests within the command's assigned area of responsibility; and, as 
directed by the President or Secretary of Defense, to provide military 
assistance to civil authorities, including consequence management 
operations.
    If confirmed as Assistant Secretary of Defense for Homeland 
Defense, how do you anticipate you would coordinate roles and 
responsibilities with the Commander, U.S. Northern Command?
    Answer. Combatant Commanders report directly to the Secretary of 
Defense. ASD(HD) will assist and advise the Secretary of Defense in 
refining policy guidance and then manage his prioritization of 
resources to accomplish assigned roles and responsibilities. ASD(HD) 
should provide DOD-wide supervision, oversight and coordination for all 
homeland defense matters on behalf of the Secretary of Defense. 
Furthermore, ASD(HD) will integrate the staff efforts of the Joint 
Staff, the Combatant Commands, and interagency staffs, particularly the 
OHS and DHS.
    Question. How do you anticipate that the Assistant Secretary of 
Defense for Homeland Defense and U.S. Northern Command will coordinate 
with civilian law enforcement authorities including the Federal Bureau 
of Investigation?
    Answer. If confirmed, I anticipate that a senior ASD (HD) official 
will coordinate with civilian law enforcement authorities, to include 
the FBI, within prescribed legal constraints and subject to the 
Secretary of Defense's approval. When appropriate and when authorized 
by the Secretary of Defense, U.S. Northern Command will coordinate with 
civilian agencies on operational and planning issues.

                RELATIONSHIP WITH U.S. STRATEGIC COMMAND

    Question. The role of U.S. Strategic Command will expand to include 
responsibilities such as coordinating intelligence-sharing and 
information operations that support the overall Defense Department 
mission of defending the homeland.
    How will you coordinate your activities with the Strategic Command 
and the OSD C\3\I organization?
    Answer. I am informed that the coordination of intelligence-sharing 
and information operations within the Department of Defense is 
currently the purview of the Assistant Secretary of Defense for 
Command, Control, Communications, and Intelligence. If I am confirmed, 
I will develop and maintain a close professional relationship with the 
leadership of that organization, especially on matters relating to 
homeland defense.

         RELATIONSHIP WITH THE DEPARTMENT OF HOMELAND SECURITY

    Question. The establishment of the Department of Homeland Security 
is one of the U.S. Government's largest cabinet-level reorganizations. 
Despite this reorganization, the Department of Defense will continue to 
play a critical role in homeland defense.
    What role do you expect to play, if confirmed, in the coordination 
of DOD activities with the Department of Homeland Security?
    Answer. The Secretary of Defense has made a public commitment to 
work closely with the new Department of Homeland Security in order to 
coordinate the respective responsibilities. I fully support that 
effort. In general, the Department of Defense is responsible for 
homeland defense missions--to defend the land, maritime, and aerospace 
approaches from external threats--while the Department of Homeland 
Security will be responsible for major elements of domestic security 
and civil preparedness. DOD will also provide military assistance to 
U.S. civil authorities in accordance with U.S. law, as directed by the 
President and the Secretary of Defense. For example, such assistance 
could include support for consequence management operations led by the 
Department of Homeland Security when authorized by the President or the 
Secretary of Defense. There will be an ongoing requirement for U.S. 
Northern Command to coordinate plans, exercises, and training with the 
operating components of DHS.

            HOMELAND SECURITY SCIENCE AND TECHNOLOGY ISSUES

    Question. In recent years, the Department of Defense has devoted 
significant science and technology resources to efforts--such as 
chemical and biological defense technologies--that have potential 
utility for both military and homeland defense purposes.
    In what manner, if any, do you believe that the Department should 
coordinate these science and technology efforts with the new Department 
of Homeland Security?
    Answer. I believe that effective coordination between the 
Department of Defense and the Department of Homeland Security regarding 
scientific and technological development is essential. Moreover, the 
rapid transfer of new capabilities to civilian officials is imperative.
    Question. What role do you expect to play, if confirmed, in such 
coordination efforts?
    Answer. ASD (HD) will be responsible for situational awareness and 
coordination of homeland defense and homeland security-related research 
and development efforts with the Department of Homeland Security, the 
Department of Defense, and other elements of the Department of Defense.
    Question. Section 1401 of the National Defense Authorization Act 
for Fiscal Year 2003 requires the Secretary of Defense to designate a 
senior official to identify, evaluate, deploy, and transfer to Federal, 
State, and local first responder's technology items and equipment in 
support of homeland security.
    In what manner will the designated official coordinate this effort 
with appropriate officials at the new Department of Homeland Security?
    Answer. I am advised that the Department of Defense is currently in 
the process of designating a senior official to carry out the functions 
as identified in Section 1401 of the National Defense Authorization Act 
for Fiscal Year 2003. One responsibility of the senior official would 
be to facilitate the timely transfer of appropriate technology items 
and equipment to Federal, State, and local first responders, in 
coordination with appropriate Federal Government officials outside the 
Department of Defense, including the Department of Homeland Security.
    Question. What role do you expect to play, if confirmed, in such 
coordination efforts?
    Answer. If confirmed, I would be responsible for maintaining 
situational awareness and coordination of homeland defense and homeland 
security-related research and development efforts, and would be the 
focal point for ensuring that effective coordination is accomplished 
among DOD, the Department of Homeland Security, and other Federal 
departments and agencies for projects of mutual interest.
    Question. The Defense Advanced Research Projects Agency (DARPA) has 
developed a ``Total Information Awareness'' program, to develop and 
integrate information technologies that would enable the government to 
sift through multiple databases and sources to detect, classify and 
identify potential terrorist activities.
    What legal constraints, if any, would impact the deployment of such 
a system within the United States?
    Answer. I have been advised that the Total Information Awareness 
(TIA) program at DARPA is not an operational system and no decision has 
been made to deploy such a system in the future. Neither the 
development nor operational deployment of TIA would be under the office 
of the ASD (HD). Without more detailed knowledge about the TIA program, 
I am unable to provide specific comments concerning the legalities of 
any potential deployment of the TIA program.
    Question. Do you believe that it is appropriate for the Department 
of Defense to play the leading role in developing such a system?
    Answer. I believe it is appropriate for the Department of Defense 
to research, develop, and demonstrate innovative information 
technologies to detect patterns of terrorist planning and potentially 
hostile activity directed against American citizens. However, I also 
firmly believe the deployment of any such systems must be in strict 
accordance with relevant U.S. laws, and should be carried out, if at 
all, by civil law enforcement agencies subject to judicial oversight.

  USE OF ACTIVE DUTY AND RESERVE PERSONNEL FOR HOMELAND DEFENSE/POSSE 
                               COMITATUS

    Question. Following the terrorist attacks of September 11, 2001, 
National Guard personnel were ordered to active duty to provide airport 
security. Subsequently, Guardsmen were activated to augment Federal 
agencies to perform border security functions.
    What is your understanding of the legal issues and authority 
associated with using National Guard and Reserve personnel in security 
roles within the United States?
    Answer. There are a number of legal issues and authorities that may 
be associated with using the National Guard and Reserve in security 
roles in the United States. Each particular situation--such as State 
status, Title 32, and Title 10--may trigger different legal issues and 
authorities. For example, in order to order the National Guard and 
Reserve to active duty, or to call the National Guard into Federal 
service, the President must exercise one of several possible legal 
authorities. Potential legal authorities include his Constitutional 
authority and statutory authority under, for example, sections 12301, 
12302, 12304, or 12406 of Title 10, United States Code. Once on active 
duty or in Federal service, legal issues and authority include ensuring 
a clear chain of command, providing appropriate use of force rules, and 
complying with the Posse Comitatus Act if the military mission includes 
providing support to civilian law enforcement in executing the laws of 
the United States. A more detailed discussion of legal issues and 
authority depends upon the particular fact pattern of a specific 
situation.
    Question. In your opinion, does the Posse Comitatus Act (18 U.S.C. 
 1385) or chapter 18 of Title 10, U.S.C. (which regulates the use of 
the Armed Forces in civilian law enforcement and related activities) 
require amendment to deal with the present homeland security situation?
    Answer. As you are aware, last year Governor Ridge and Secretary 
Rumsfeld indicated that they believed that the act appropriately 
addressed the use of the military to support civilian law enforcement; 
that changes to the act were unnecessary at that time; and that they 
remained open to further study of the issues involved as necessary. 
Although I am in agreement with the position taken by Secretary 
Rumsfeld and Secretary Ridge, should I be confirmed and appointed as 
Assistant Secretary, I will fully cooperate with any exercise of 
legislative oversight in this manner.
    Question. Last fall, in response to requests from the Federal 
Bureau of Investigation, the Department of Defense provided aerial 
platforms and camera equipment to a law enforcement task force seeking 
to apprehend the sniper suspects in the Washington, D.C. metropolitan 
area.
    Under what circumstances do you believe that it is appropriate for 
the Department of Defense to provide assistance to law enforcement 
authorities in response to a terrorist event? What about a non-
terrorist event?
    Answer. I believe that Congress has effectively delineated several 
areas where military support to civilian law enforcement may be 
appropriate, as specified in Chapters 15 and 18 of Title 10, United 
States Code. Those authorities apply to military support of the law 
enforcement response to both terrorist and non-terrorist events. In 
summary, DOD may lawfully provide support to civil law enforcement 
authorities to enforce the law under routine circumstances, on a 
reimbursable basis, in such areas as training, expert advice, and for 
operations and maintenance of equipment. Under emergency 
circumstances--for instance, involving a weapon of mass destruction--
posing a serious threat to the United States in which civilian 
expertise and capabilities are overwhelmed, and as jointly determined 
by the Secretary of Defense and the Attorney General, DOD may provide 
special capabilities and expertise necessary to not only counter the 
threat posed by the weapons involved, but also to prevent the serious 
impairment of civilian law enforcement authorities' ability to enforce 
the law and protect citizens. In this regard, the President and the 
Secretary of Defense would specifically direct the employment of these 
special DOD's capabilities.
    Question. What role do you expect to play, if confirmed, in making 
such determinations and making such assistance available?
    Answer. If confirmed and appointed, I expect to play a significant 
role in advising the Secretary of Defense regarding the legality and 
operational effectiveness of military support to civilian law 
enforcement, oversight in monitoring such support when provided, and in 
establishing clear procedures to expedite DOD support when directed by 
the Secretary.

                        CONTRACT LIABILITY RISK

    Question. Liability risk has at times been a deterrent to the 
private sector freely contracting with the Federal Government to meet 
national security needs. To address this risk, Congress has acted in 
the past to authorize the indemnification of contracts for products 
that are unusually hazardous or nuclear in nature.
    Do you see a need to indemnify contracts for homeland security or 
anti-terrorist products and services (to include biotechnology and 
information technology) that would not meet the ``hazardous or 
nuclear'' criteria, as a way to encourage private sector solutions to 
homeland defense requirements?
    Answer. I have not studied this matter carefully enough to make an 
informed recommendation at this time. However, if confirmed, I am 
prepared to review the matter with DOD Office of General Counsel and 
provide appropriate comment to the committee.

COORDINATION OF EXPERTISE BETWEEN THE DEPARTMENTS OF HOMELAND SECURITY 
                               AND ENERGY

    Question. The personnel at the Department of Energy's (DOE) 
National Laboratories have expertise that may be useful to the 
Department of Homeland Security and to the Department of Defense in the 
execution of their homeland defense mission.
    What mechanism do you anticipate will be put in place to expedite 
communication with the appropriate experts of the National labs to help 
respond quickly in the event of a national incident or emergency?
    Answer. It is my understanding that the Homeland Security Act of 
2002 created an Office for National Laboratories within the Directorate 
of Science and Technology of the Department of Homeland Security that 
will be responsible for the coordination and utilization of the 
Department of Energy's national laboratories and sites in support of 
homeland security activities. If confirmed, I will work to ensure that 
the Department of Defense coordinates fully with the Department of 
Homeland Security and the Department of Energy in order to maintain 
continuing awareness of the technical expertise at the national 
laboratories, which may be available to support DOD's homeland defense 
mission.

               HOMELAND SECURITY AND INTERNATIONAL ISSUES

    Question. If confirmed, do you anticipate that you will have 
responsibility for activities outside of the United States, such as 
nonproliferation activities, that would have a direct or indirect 
relationship to homeland security?
    If so, what do you envision these responsibilities would be?
    Answer. No. The responsible official within the Department of 
Defense for nonproliferation activities is the Under Secretary of 
Defense for Policy. Under Section 902(b)(4) of the fiscal year 2003 
NDAA, the Under Secretary of Defense for Policy now has overall 
direction and supervision for policy, program planning and execution, 
and allocation and use of resources for the activities of the 
Department for combating terrorism. While maintaining worldwide 
situational awareness, the ASD (HD)'s foreign responsibilities will be 
limited to the U.S. Northern Command's area of responsibility.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Homeland Defense?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Susan Collins

           RELATIONSHIP WITH DEPARTMENT OF HOMELAND SECURITY

    1. Senator Collins. Mr. McHale, one of the most important 
responsibilities for the Assistant Secretary of Defense for Homeland 
Defense is to manage the relationship between the Department of Defense 
and the new Department of Homeland Security. If confirmed, how would 
you ensure that the two departments communicate effectively? 
    Mr. McHale. The Secretary of Defense has made a public commitment 
to work closely with the new Department of Homeland Security in order 
to coordinate the respective responsibilities. I fully support that 
effort. In general, the Department of Defense is responsible for 
homeland defense missions--to defend the land, maritime, and aerospace 
approaches from external threats--while the Department of Homeland 
Security will be responsible for major elements of domestic security 
and civil preparedness. DOD will also provide military assistance to 
U.S. civil authorities in accordance with U.S. law, as directed by the 
President and the Secretary of Defense. For example, such assistance 
could include support for consequence management operations led by the 
Department of Homeland Security when authorized by the President or the 
Secretary of Defense. There will be an ongoing requirement for U.S. 
Northern Command to coordinate plans, exercises and training with the 
operating components of DHS.
    The Principal Deputy Assistant Secretary of Defense for Homeland 
Defense has been assigned the responsibility to coordinate the 
Department of Defense's relationship with the Department of Homeland 
Security. In addition, DOD maintains representatives 24 hours a day in 
the Department of Homeland Security's Homeland Security Operations 
Center in order to facilitate information exchange and interagency 
coordination.

              ROLE OF NATIONAL GUARD IN HOMELAND SECURITY

    2. Senator Collins. Mr. McHale, the National Guard has played an 
important role in homeland security since September 11. Guard units 
were temporarily utilized for airport security, and the National Guard 
Weapons of Mass Destruction Civil Support Teams are trained to respond 
to domestic contingencies.
    Do you believe that the role of the National Guard in homeland 
security should be expanded further?
    Mr. McHale. Yes. However, the National Guard should remain a 
balanced force, trained for both overseas and domestic missions. The 
appropriate roles and missions of the Total Force--Active, Guard, and 
Reserve--in all areas including homeland security and the global war on 
terrorism are currently under review. Defending the citizens, 
territory, and domestic resources of the United States is the highest 
priority of the Total Force, including the National Guard.
    The National Guard is well-prepared to conduct selected homeland 
defense missions, such as the Air National Guard's preeminent role in 
continental air defense. In addition, the National Guard is combat 
ready to conduct overseas military operations and is relied upon by 
combatant commanders as part of a strategic reserve. As the Department 
reviews how best to deal with the challenge of the new security 
environment, it is mindful of the need to properly balance the 
application of the Total Force to: defend the homeland, contribute to 
the global war on terrorism, meet military commitments abroad, and, if 
necessary, participate in a major theater war. The National Guard will 
retain important missions in each of these areas.

            SCIENCE AND TECHNOLOGY RESEARCH AND DEVELOPMENT

    3. Senator Collins. Mr. McHale, the Department of Defense has 
devoted significant resources to research and development. Many of the 
technologies being developed by the Department might have homeland 
security applications. For instance, sensors being developed to detect 
biological or chemical weapons for force protection might also be 
useful to protect American cities. The new Department of Homeland 
Security is establishing its own science and technology capability.
    What is the best way to ensure that there is no duplication of 
effort between the two departments in technology development? 
    Mr. McHale. Since many significant elements of the Federal homeland 
security/homeland defense efforts will be spread among different 
agencies, including the Departments of Defense and Homeland Security, 
the need for increased collaboration will be essential. While there is 
no ``best way'' to eliminate duplication of effort between various 
research and development entities, there are a number of avenues the 
Department of Defense can utilize to ensure maximum coordination and 
minimize duplicative research and development efforts.
    For example, the Technical Support Working Group (TSWG) has a well-
established and successful process for articulating priorities, 
soliciting and evaluating proposals, and rapidly prototyping 
technologies with the operational community. We anticipate that the 
Department of Homeland Security will join this effort between the 
Departments of Defense and State in support of the homeland security/
homeland defense mission.
    Through the TSWG and other collaborative efforts, we can ensure 
that research and development efforts among agencies engaged in 
homeland defense/homeland security efforts can be properly coordinated 
and duplication of effort can be greatly reduced.
    Section 1401 of Public Law 107-314, the Bob Stump National Defense 
Authorization Act for Fiscal Year 2003, requires that the Secretary of 
Defense ``designate a senior official of the Department of Defense to 
coordinate all Department of Defense efforts to identify, evaluate, 
deploy, and transfer to Federal, State, and local first responders 
technology items and equipment in support of homeland security.'' I 
anticipate that I will be designated as this ``senior official'' by the 
Secretary of Defense and, if so, will do my best to carry out the 
assigned statutory responsibilities of this role.
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole

             COMBATING TERRORISM AND COUNTERDRUG STRATEGIES

    4. Senator Dole. Mr. McHale, as a part of your responsibilities and 
role in combating terrorism activities, will you have a role in 
counterdrug activities?
    Mr. McHale. Yes. The Assistant Secretary of Defense for Homeland 
Defense is responsible for providing oversight, policy, and guidance to 
U.S. Northern Command. U.S. Northern Command, through Joint Task Force-
Six (JTF-6), provides Department of Defense operational, training, and 
intelligence support to domestic law enforcement agency counterdrug 
efforts in the continental U.S. to reduce the availability of illegal 
drugs in the U.S. In addition, U.S. Northern Command is preparing an 
operational concept to coordinate the existing Title 32 and Title 10 
counterdrug effort. In the future, the preponderance of Defense 
Department counterdrug efforts will be executed by States through their 
National Guards in both State status and Title 32 status.

    homeland defense's relationship with special operations command 
    5. Senator Dole. Mr. McHale, I am interested in the relationship 
that your new office will have with the U.S. Northern Command. 
Specifically, how do you envision that the Special Operations Command 
and its component special forces units might be used in a homeland 
defense role?
    Mr. McHale. The Assistant Secretary of Defense for Homeland Defense 
is charged by law to ``. . . provide overall supervision of all 
homeland defense activities of the Department of Defense.'' As such, I 
will exercise supervision and oversight with regards to U.S. Northern 
Command's homeland defense activities.
    The capabilities of Special Operations Command, as well as the 
capabilities of any of the combatant commands, may be brought to bear 
on homeland defense as the situation dictates.

    6. Senator Dole. Mr. McHale, does the new role of the Special 
Operations Command as a supported command fit in with any possible role 
it may have in homeland defense activities?
    Mr. McHale. The Commander of NORTHCOM will in all probability be 
the supported commander for military operations in defense of the U.S., 
as authorized by the President or the Secretary of Defense. The 
Commander of U.S. Special Operations Command role as a supported 
commander is aimed principally at our overseas efforts to prosecute the 
global war on terrorism.

                    SCIENCE AND TECHNOLOGY RESEARCH 

    7. Senator Dole. Mr. McHale, what role will your office play in 
coordinating with the Department of Homeland Security on new science 
and technology efforts which DOD has sponsored?
    Mr. McHale. Since many significant elements of the Federal homeland 
security/homeland defense efforts will be spread among different 
agencies, including the Departments of Defense and Homeland Security, 
the need for increased collaboration will be essential. While there is 
no ``best way'' to eliminate duplication of effort between various 
research and development entities, there are a number of avenues the 
Department of Defense can utilize to ensure maximum coordination and 
minimize duplicative research and development efforts.
    For example, the Technical Support Working Group (TSWG) has a well-
established and successful process for articulating priorities, 
soliciting and evaluating proposals, and rapidly prototyping 
technologies with the operational community. We anticipate that the 
Department of Homeland Security will join this effort between the 
Departments of Defense and State in support of the homeland security/
homeland defense mission.
    Through the TSWG and other collaborative efforts, we can ensure 
that research and development efforts among agencies engaged in 
homeland defense/homeland security efforts can be properly coordinated 
and duplication of effort can be greatly reduced.
    Section 1401 of Public Law 107-314, the Bob Stump National Defense 
Authorization Act for Fiscal Year 2003, requires that the Secretary of 
Defense ``designate a senior official of the Department of Defense to 
coordinate all Department of Defense efforts to identify, evaluate, 
deploy, and transfer to Federal, State, and local first responders 
technology items and equipment in support of homeland security.'' I 
anticipate that I will be designated as this ``senior official'' by the 
Secretary of Defense and, if so, will do my best to carry out the 
assigned statutory responsibilities of this role.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                    DEPLOYMENT OF COAST GUARD UNITS 

    8. Senator Clinton. Mr. McHale, recently the Pentagon announced 
that it was sending eight Coast Guard cutters and several port security 
units to the Persian Gulf, and that the deployment would happen soon. 
In New York, we count on the Coast Guard to guard our ports against 
terrorist threats.
    What missions did these cutters perform and what provisions will be 
made to replace their functions?
    Mr. McHale. These forces contribute unique Coast Guard capabilities 
in coastal and waterfront security, environmental response, force 
protection, and protection of high value assets as part of an 
integrated maritime force package for the operational commander. Port 
Security Units are Reserve Forces specifically organized and trained 
for overseas operations. Since September 11, the Coast Guard has met 
all requirements for domestic port security, supported combatant 
commanders, and continued their traditional roles in maritime safety 
and law enforcement. Through continued careful asset management, the 
Coast Guard will be able to support both overseas and domestic 
missions.

    9. Senator Clinton. Mr. McHale, what will the deployment of the 
USCGC Bainbridge Island--homeported in Sandy Hook, NJ--mean for 
homeland security along the eastern seaboard?
    Mr. McHale. The Coast Guard will maintain the same presence on the 
eastern seaboard by increasing the operating tempo of forces that are 
not deploying. Operating tempo for non-deployed forces will be 
increased by approximately 20-25 percent. As part of its normal 
contingency planning, the Coast Guard is able to increase operating 
tempo by up to 33 percent, and to support that increase for as long as 
necessary.
                                 ______
                                 
    [The nomination reference of Paul McHale follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 9, 2003.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Paul McHale, of Pennsylvania, to be an Assistant Secretary of 
Defense. (New Position)
                                 ______
                                 
    [The biographical sketch of Paul McHale, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                   Biographical Sketch of Paul McHale

    Former Congressman Paul McHale was born and raised in Bethlehem, 
Pennsylvania.
    He graduated from Liberty High School in 1968 and then attended 
Lehigh University where he majored in Government, was elected to the 
national honor society Phi Beta Kappa, earned a Bachelor of Arts degree 
and graduated with highest honors in 1972.
    Following his graduation from Lehigh University, McHale volunteered 
for duty with the U.S. Marine Corps. Commissioned a second lieutenant 
in 1972, he spent 2 years on active duty, including an overseas 
deployment as a rifle platoon leader in Okinawa and in the Philippines.
    After release from active duty, Mr. McHale entered Georgetown Law 
Center in 1974 and received his Juris Doctor degree in 1977. For the 
next 5 years, he practiced law in Bethlehem, Pennsylvania.
    Congressman McHale began his involvement in public service when he 
was first elected to the Pennsylvania House of Representatives in 1982. 
During his tenure in the Pennsylvania General Assembly, McHale wrote 
and sponsored numerous pieces of important legislation, including the 
Child Passenger Protection Act, the Dangerous Juvenile Offender Act, 
and the Pennsylvania 911 Emergency Communication Statute. McHale was 
also one of the leaders in the successful fight to pass the 1989 Public 
Ethics Act and was awarded the Champion of Good Government Medal by 
Pennsylvania Common Cause for his efforts.
    McHale was elected to five consecutive terms in the State House. He 
resigned in 1991 following Iraq's invasion of Kuwait, when he 
volunteered for active duty as an infantry officer with the Marine 
Corps during Operations Desert Shield and Desert Storm.
    In January of 1993, Paul McHale began service in the United States 
House of Representatives representing the 15th Congressional District 
of Pennsylvania. He was elected to a third term in November 1996. 
McHale was an active member of the House Armed Services Committee which 
has oversight responsibility for all U.S. military operations and 
training. In addition, he served on the House Science Committee which 
has jurisdictional responsibility for the many Federally-funded 
advanced technology programs.
    During his three terms in the U.S. House, Congressman McHale 
championed the rights of crime victims, the cause of environmental 
protection, the funding of Medicare and veterans benefits, the 
reclamation and reuse of older industrial sites, as well as the passage 
of numerous governmental reforms, including the Congressional 
Accountability Act, term limits for committee chairmen, a ban on all 
gifts to Members of Congress, a balanced Federal budget, and the line 
item veto. President Clinton signed into law the Lobby Disclosure Act, 
a major reform measure originally introduced in the House by 
Congressman McHale.
    In 1996, Congressman McHale co-founded the House of Representatives 
National Guard and Reserve Components Caucus representing within 
Congress the interests of U.S. reservists and citizen soldiers 
worldwide. His efforts through the caucus earned him several important 
honors, including the Marine Corps Reserve Officers Association 1997 
Frank M. Tejeda Leadership Award, the 1998 Reserve Officers Association 
Minuteman of the Year Award, and the Department of Defense 
Distinguished Public Service Medal.
    McHale has frequently lectured on government, law, and military 
policy on the campuses of many colleges and universities, including the 
U.S. Army War College, where he is an adjunct professor, and the U.S. 
Naval Academy, where he served as a member of the Board of Visitors. 
Mr. McHale is currently a member of the Board of Advisors at the Naval 
War College, Newport, Rhode Island. In 1995, he was awarded an honorary 
Doctor of Laws degree by Muhlenberg College. In 1997, he received the 
Jewish Theological Seminary's Herbert H. Lehman Public Service Medal in 
recognition of his efforts on behalf of the Jewish community both in 
the Lehigh Valley and abroad.
    On January 3, 1999, Congressman McHale retired from the U.S. House 
of Representatives and became a shareholder in the Allentown law firm 
of Tallman, Hudders & Sorrentino, P.C. He withdrew from active law 
practice on September 30, 2002 and is currently employed as a 
consultant to the Secretary of Defense.
    Mr. McHale is married to Katherine Pecka McHale, Vice President of 
Millennium Cell Inc., a Lieutenant Commander in the U.S. Navy Reserve, 
and a former member of the Pennsylvania General Assembly. They are the 
parents of three children with whom they reside in Bethlehem, 
Pennsylvania.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Paul McHale in 
connection with his nomination follows:]
                                                  January 16, 2003.
Hon. John Warner, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Assistant Secretary of Defense. It 
supplements Standard Form 278, ``Executive Personnel  Financial 
Disclosure Report,'' which has already been provided to the committee 
and which summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any organization identified as a DOD contractor 
or any other entity that would create a conflict of interest with my 
governmental duties. My wife is currently employed as a Vice President 
of Millennium Cell, Inc., a NASDAQ-traded public company, which has had 
very limited commercial contact with the Department of Defense. As 
noted in my accompanying SASC disclosure form (Part C, Question 2), my 
wife currently holds stock options in Millennium Cell. In addition, we 
jointly own approximately 1,800 shares of stock in Millennium Cell. I 
do not anticipate that my wife's employer will have any business 
activity related to the DOD position for which I am being considered.
    I do not have any present employment arrangements with any entity 
other than the Department of Defense and have no formal or informal 
understandings concerning any further employment with any entity. If 
confirmed, I am committed to serve in is position at the pleasure of 
the President throughout his term of office.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have been party to only one 
civil litigation, arising out of a minor traffic accident and settled 
amicably, without adjudication of fault. To the best of my knowledge, 
there have never been any lawsuits filed against any agency of the 
Federal Government or corporate entity with which I have been 
associated reflecting adversely on the work I have done at such agency 
or corporation. I am aware of no incidents reflecting adversely upon my 
suitability to serve in the position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation, aside from the background check 
ordered as a part of this nomination, and aside from routine 
investigation associated with the renewal of the security clearance I 
hold as an officer in the U.S. Marine Corps Reserve.
    I am a member of certain organizations and professional societies, 
which have previously been provided to the committee. None of these 
should pose any conflict of interest with regard to my governmental 
responsibilities. I trust that the foregoing information will be 
satisfactory to the committee.
            Sincerely, 
                                                       Paul McHale.
                                 ______
                                 
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Paul McHale.

    2. Position to which nominated:
    Assistant Secretary of Defense for Homeland Defense.

    3. Date of nomination:
    January 9, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 26, 1950; Fountain Hill, Pennsylvania.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Katherine Marie Pecka McHale.

    7. Names and ages of children:
    Matthew Cornwell McHale, age 18.
    Mary Wynne McHale, age 15.
    Luke Brendan McHale, age 12.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Liberty High School, Bethlehem, Pennsylvania; Attended Sept. 1965 
to June 1968; Graduation diploma awarded, June 1968.
    Lehigh University, Bethlehem, Pennsylvania; Attended Aug. 1968 to 
May 1972; B.A., with highest honors awarded May 1972. 
    Georgetown University Law Center, Washington, DC; Attended Aug. 
1974 to May 1977; J.D. awarded May 1977.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Consultant to the Office of the Secretary of Defense; Room 4E808; 
The Pentagon; Washington, DC; September 2002-present.
    Vice President/Shareholder/Attorney; Tallman Hudders and 
Sorrentino; Allentown, Pennsylvania; January 1999-September 2002.
    Member of Congress; U.S. House of Representatives; Washington, DC; 
January 1993-January 1999.
    Attorney at Law; Law Offices of Paul McHale; Bethlehem, 
Pennsylvania; April 1991-January 1993.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Member, Pennsylvania House of Representatives; Harrisburg, 
Pennsylvania, 1982-1991.
    Member, Board of Directors, Pennsylvania Parks and Forest 
Foundation, January 2001-present.
    Member, Fountain Hill Planning Commission, 1978.
    Board of Visitors, U.S. Naval Academy, 1997-1999.
    Board of Advisors, U.S. Naval War College, 2000-present.  
    Adjunct Professor, U.S. Army War College, 2000-present.
    Member, DOD Acquisition Reform Panel (Dawkins), 2000.
    Member, Pennsylvania Sentencing Commission, 1983-1987.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Partner, Paragon Partners, Allentown, Pennsylvania, Real Estate 
Investment Partnership.
    Member, Board of Directors, Marine Corps Association, Quantico, 
Virginia.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    American Bar Association Pennsylvania Bar Association Rotary Club 
of Bethlehem American Legion.
    Veterans of Foreign Wars, Marine Corps Association--Board Member, 
Reserve Officers Association, Marine Corps Reserve Officers 
Association, Ben Franklin Partnership (non profit) Board Member, Lehigh 
Valley Industrial Park (non profit)--Board Member, MPAP (St. Luke's 
Hospital, non-profit)--Board Member.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    1980--Candidate for Congress in Democratic primary, 15th District 
of Pennsylvania.
    1982, 1984, 1986, 1988, 1990--Candidate for Pennsylvania House of 
Representatives, 133rd District.
    1989--Candidate for Pennsylvania Commonwealth Court in Democratic 
primary.
    1992, 1994, 1996--Candidate for Congress, 15th District of 
Pennsylvania.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    March 2000--$500 to John Morganelli for Attorney General campaign 
committee--candidate for Pennsylvania Attorney General.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Phi Beta Kappa, Lehigh University, 1972.
    Honorary Doctorate awarded by Muhlenberg College, Allentown, 
Pennsylvania, 1995.
    Military Medals: See attached military biography.
    Distinguished Public Service Medal, Department of Defense, 1998.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    I have written a limited number of letters to the editor and op-ed 
pieces. In most cases the text can be found through an appropriate 
Internet search. The best source for this information is the Internet 
archive of the Allentown, PA Morning Call, the principal newspaper 
covering the legislative districts I represented. Upon retirement from 
Congress, I donated without fee or tax deduction all of my 
congressional papers to Muhlenberg College, Allentown, PA. These 
documents are available for inspection.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I served for 15 years in the Pennsylvania House of Representatives 
and the U.S. Congress. As might be expected, I delivered numerous floor 
speeches in those legislative bodies, the text of which can be found in 
their respective journals. Nearly all public speeches which I delivered 
during this time frame were extemporaneous, delivered from a few 
handwritten notes or brief outlines. In many cases the text or quotes 
can be found through an Internet search of the archives of the Morning 
Call of Allentown, PA. During the 4 years since my retirement from 
Congress all of my formal speeches on military matters have been 
limited to commemorative events, such as Veterans Day and Memorial Day 
ceremonies.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                       Paul McHale.
    This 16th day of January, 2003.
                                 ______
                                 
    [The nomination of Paul McHale was reported to the Senate 
by Chairman Warner on January 30, 2003, with the recommendation 
that the nomination be confirmed. The nomination was confirmed 
by the Senate on February 4, 2003.]
                              ----------                              

    [Prepared questions submitted to Christopher Ryan Henry by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support the implementation of these reforms. The 
focus upon ``jointness'' and civilian oversight driven by the Defense 
Reorganization Act of 1986 has significantly enhanced the 
responsiveness, readiness, and warfighting capabilities of our U.S. 
Armed Forces.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. The Goldwater-Nichols reforms represent a first step in the 
transformation process. They have had a pathfinder impact within DOD. 
They have strengthened civilian control, improved military advice to 
the President and Secretary of Defense, strengthened unity of command 
within our combatant commands, and improved readiness to operate as a 
joint warfighting team.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The unambiguous responsibility and authority assigned to 
combatant commanders for mission accomplishment and the increased 
attention to strategy formulation and contingency planning are the most 
important aspects in my view.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes.
    Question. Recently, there have been articles which indicate an 
interest within the Department of Defense in modifying Goldwater-
Nichols.
    Do you anticipate that legislative proposals to amend Goldwater-
Nichols may be appropriate? If so, what areas do you believe it might 
be appropriate to address in these proposals?
    Answer. I cannot recommend any amendments to Goldwater-Nichols at 
this time. The Secretary of Defense has an abiding interest in the 
transformation of the Department to improve our national defense. 
Questions of responsibility, authority, and organization are matters of 
specific interest and continuous review. If any of these reviews 
recommend refinements to Goldwater-Nichols, I would expect the 
Department will consult closely with Congress, and especially this 
committee. If confirmed, I would be personally interested in working 
with the committee on any efforts to review this legislation.

                                 DUTIES

    Question. Section 134a of Title 10, United States Code, provides 
that the Deputy Under Secretary of Defense for Policy shall assist the 
Under Secretary of Defense for Policy in the performance of his duties. 
Department of Defense Directive 5111.3 emphasizes that the Deputy Under 
Secretary of Defense for Policy advises and assists the Under Secretary 
of Defense for Policy, particularly on strategy formulation, 
contingency planning, and the integration of Department of Defense 
plans and policy with overall national security objectives.
    What is your understanding of the duties and functions of the 
Deputy Under Secretary of Defense for Policy?
    Answer. My understanding of the duties and functions derives from 
DOD Directive 5111.3, which states: The Principal Deputy Under 
Secretary of Defense for Policy (PDUSD(P)), as the principal assistant 
to the Under Secretary of Defense for Policy (USD(P)), advises and 
assists the USD(P) in providing staff advice to the Secretary of 
Defense and Deputy Secretary of Defense, particularly on strategy 
formulation, contingency planning, and the integration of DOD plans and 
policy with national security objectives, and by law is empowered to 
act in his or her stead.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I believe I have been privileged to serve in positions and 
gain first-hand experience that qualify me to perform the duties of 
Deputy Under Secretary of Defense for Policy.
    During the first 20 years of my professional career I served as a 
naval surface warfare officer and aviator, seeing extensive combat in 
two wars--Vietnam and Operation Desert Storm. During this period, I was 
a naval strike planner, sea-strike mission commander, strike leader, 
and commanding officer, while making six extended deployments to the 
Western Pacific and Indian Ocean. These experiences allowed me to work 
at the implementation end of policy development, contingency planning, 
and the execution of national security strategy.
    For the next 6 years, I broadened my experience base in the areas 
of national security policy, transformational technology development, 
legislative oversight, policy analysis and development, and corporate 
operations and leadership. Upon returning from the Gulf War, I was a 
top graduate from the National Defense University in 1992 and won the 
Commandant's Award for my defense strategy paper, ``Access and 
Agility--Strategy and Structure for the 21st Century.'' At the Defense 
Advanced Research Projects Agency (DARPA), I served as the Information 
Systems Architect, integrating ``generation-after-next'' systems into 
the first network-centric command, control, communications, computers, 
intelligence, surveillance, and reconnaissance (C\4\ISR) architecture 
and laying the groundwork for early warfighter integration. During the 
first session of the 104th Congress, I served as a Senior Military 
Fellow with the Defense Subcommittee of the Senate Appropriations 
Committee, working on the Defense Appropriations Bill (PL 104-61) and 
gaining an appreciation and understanding of the value of Congressional 
oversight and consultations. Following retirement, I was a Senior 
Fellow at the Center for Strategic and International Studies (CSIS), 
where my work focused on the impact of a Revolution in Military Affairs 
(RMA) on the future of U.S. warfighting and the new security challenges 
confronting the U.S. and its allies after the end of the Cold War.
    For the past 5 years I have worked at Science Applications 
International Corporation (SAIC). Initially, I built a successful 
business segment that worked with the science and technology community 
in steering efforts to develop national security architectures for the 
Information Age and the discovery of future tactical, operational, and 
organizational paradigms.
    For the past year, working directly with the Chairman of the Board 
and CEO, I have overseen the corporate-wide development of strategic 
business and technology initiatives in the Nation's largest employee-
owned research and engineering company (over $6 billion in annual 
revenue and 40,000 employees). I have been developing the strategy and 
courses of action to provide information technology, systems 
integration, and eSolutions to government and commercial customers in 
order to solve complex technical problems in national security, 
homeland defense, energy, the environment, telecommunications, health 
care, and transportation.
    I believe these experiences provide a solid base to advise and 
assist the Under Secretary in providing staff advice and assistance to 
the Secretary of Defense and the Deputy Secretary, particularly on 
strategy formulation, contingency planning, and the integration of DOD 
plans and policy with overall national security objectives.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Under 
Secretary of Defense?
    Answer. Having just returned this past week from 5 years of full-
time employment in the private for-profit sector, I will need to 
acquaint myself fully, across the breadth of the Policy Under 
Secretariat, with its personnel and their individual work. I am also 
looking forward to receiving in-depth briefings on defense strategy, 
deliberate and crisis action plans, the integration of DOD plans and 
policy with national security objectives, and on the budgetary 
implementation of defense plans.
    Question. Assuming you are confirmed, are there any other duties 
and functions that you expect that Secretary Rumsfeld and Secretary 
Feith will prescribe for you?
    Answer. None of which I am currently aware.

                             RELATIONSHIPS

    Question. If confirmed, what would be your relationship with:
    The Secretary of Defense
    The Deputy Secretary of Defense
    The Under Secretary of Defense for Policy
    The other Under Secretaries of Defense, including the Under 
Secretary of Defense for Intelligence
    The Assistant Secretaries of Defense
    The General Counsel of the Department of Defense
    The Chairman of the Joint Chiefs of Staff and the Joint Chiefs of 
Staff
    The Commanders of the Regional Combatant Commands
    The Administrator and Deputy Administrators of the National Nuclear 
Security Administration
    Answer. If confirmed, I will report to the Secretary of Defense and 
Deputy Secretary of Defense through the Under Secretary of Defense for 
Policy. I will work closely with and help coordinate the work of the 
Assistant Secretaries in the Office of the Under Secretary of Defense 
for Policy. I expect to maintain a close working relationship with 
under secretaries and assistant secretaries across the Department, the 
General Counsel of the Department of Defense, the Secretaries of the 
Military Departments, the Chairman and Vice Chairman of the Joint 
Chiefs of Staff, and with combatant commanders. As appropriate, I also 
will, if confirmed, work closely with the Administrator and the Deputy 
Administrators of the National Nuclear Security Administration.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges and problems 
that will confront the Deputy Under Secretary of Defense for Policy?
    Answer. In my view, the primary challenges are: a) successful 
prosecution of the global war on terrorism; b) strengthening joint 
warfighting capabilities; c) transforming the force to protect and 
advance U.S. national interests; and d) building more adaptive war 
plans that are responsive to the changing and uncertain security 
environment. The PDUSD(P) plays an important role with respect to these 
three challenges.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges and problems?
    Answer. If confirmed, one of my first priorities would be to assist 
the Under Secretary for Policy in advancing DOD's role in the war on 
terrorism. In this capacity, I would help the newly created office of 
the Assistant Secretary of Defense for Homeland Defense to define and 
organize the Department's homeland security functions. I would also 
provide advice on the effective prosecution of the war on terrorism.
    If confirmed, I also would support the Secretary's efforts to 
enhance joint warfighting: 1) through integrating air, land, and sea 
assets in deliberate and crisis action planning; 2) extending jointness 
to all levels in the Department through transformation guidance; 3) 
strengthening joint exercises and training; and 4) building a more 
agile and responsive system for war planning through new processes and 
collaborative planning tools.
    Finally, with respect to transformation, if confirmed, I would 
continue to focus the Department's transformation efforts on achieving 
the critical operational goals laid out in the 2001 Quadrennial Defense 
Review (see question 17).

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Deputy Under 
Secretary of Defense for Policy?
    Answer. I believe the priorities mirror the challenges addressed in 
question four above. If confirmed, my priorities would be to: 1) 
Successfully prosecute the global war on terrorism; 2) Strengthen 
jointness; and 3) Transform the force.
    I would also contribute to the following priorities of the 
Secretary:

        <bullet> Define and organize the Department's role in homeland 
        security;
        <bullet> Develop new concepts of global engagement;
        <bullet> Counter the proliferation of WMD;
        <bullet> Build war plans to fit the new defense strategy;
        <bullet> Streamline DOD processes;
        <bullet> Improve interagency process, focus, and integration; 
        and
        <bullet> Enhance consultation with Congress.

             STRATEGY FORMULATION AND CONTINGENCY PLANNING

    Question. One of the purposes of Goldwater-Nichols was to increase 
attention on the formulation of strategy and contingency planning. 
Department of Defense Directive 5111.3 specifically assigns a major 
role to the Deputy Under Secretary of Defense for Policy for those 
important matters.
    What is your view of the civilian role, as compared to the military 
role, in the formulation of strategy and contingency planning?
    Answer. As I understand this activity, the Secretary of Defense 
sets the strategic direction for the Department, and the priorities for 
deliberate and crisis action planning, in consideration of Presidential 
guidance and the National Security Strategy. The Principal Deputy Under 
Secretary of Defense for Policy (PDUSD(P)), on behalf of the Secretary, 
then works in an interactive and iterative manner with combatant 
commanders, the Joint Staff, and the military departments to develop 
written guidance to the Department for plans, programs, and budgeting 
and to the combatant commanders for war plans to achieve the 
Secretary's goals. PDUSD(P) conducts formal reviews of the final 
products to ensure they meet the Secretary's intent.

                   SPACE MANAGEMENT AND ORGANIZATION

    Question. What role, if any, do you believe the Deputy Under 
Secretary of Defense for Policy should play in the establishment of 
national security space policy?
    Answer. As I understand it, the Under Secretary of Defense for 
Policy has the lead for development of defense strategy, and as such 
should play a prominent role in developing national security space 
policy and coordinating it through the Space Policy Coordinating 
Committee (PCC) within the National Security Council interagency 
process. The Principal Deputy Under Secretary of Defense for Policy 
should identify, coordinate, and resolve national security space policy 
issues within the Department and support the Secretary of Defense and 
Deputy Secretary of Defense for any Principals or Deputies Committee 
meetings on national security space policy issues.

                NATIONAL GUARD ROLE IN HOMELAND DEFENSE

    Question. There is currently considerable debate about the role the 
National Guard should play in defending the homeland. The U.S. 
Commission on National Security/21st Century (the Hart-Rudman 
Commission) recommended that the National Guard be given homeland 
security as a primary mission.
    Do you believe that defending the homeland should become the 
National Guard's primary mission?
    Answer. I view the National Guard as clearly capable of conducting 
selected homeland defense missions. However, the National Guard should 
also be available to play a critical role in support of combatant 
commanders executing military operations abroad.
    I understand that the Department of Defense has undertaken a study 
mandated by Congress in the fiscal year 2003 National Defense 
Authorization Act to determine the ``proper balance'' of force 
structures, proper roles and missions, and command relationships with 
the National Guard. Therefore, I believe it is premature for me to 
offer an opinion on the assignment of particular forces and missions 
pending the outcome of that review.
    Question. What type of role do you envision the National Guard and 
Reserve ultimately playing in homeland defense?
    Answer. Independent of the results of the study described above, I 
believe the States will continue to use their National Guard in a state 
status for a variety of homeland security missions. I understand that 
several States, in fact, have already exercised this authority.

                            HOMELAND DEFENSE

    Question. Despite the establishment of a new Department of Homeland 
Security, the Department of Defense retains homeland defense 
capabilities that will continue to be a key element of any homeland 
security strategy.
    In your view, what are the principal roles and missions of the 
Department of Defense with regard to overall homeland security?
    Answer. The Department defines its role in homeland security as 
follows: (1) homeland defense, the protection of United States 
territory, domestic population, and critical defense infrastructure 
against external threats and aggression; and (2) civil support, 
providing military support to civil authorities at the Federal, State, 
and local levels across a range of conditions.
    Question. What do you feel are the principal challenges to the 
effective integration of defense, intelligence, law enforcement and 
border/port security capabilities to improve our homeland security?
    Answer. I believe that one of the main challenges is information 
flow between the agencies with responsibility for homeland security and 
defense. Heterogeneous and incompatible information and communications 
systems inhibit integration and responsiveness. If confirmed, I would 
advocate an interagency roadmap to address this long-term problem and 
procedural work-arounds in the interim. Similarly, new partnership 
protocols and interagency concepts of operation can enhance the 
combined effectiveness of Federal, State, and local organizations. 
Finally, I believe the Department should reevaluate the processes by 
which it shares national foreign intelligence with the homeland 
security community.

                            POSSE COMITATUS

    Question. Some have suggested that the Posse Comitatus Act, which 
governs the use of U.S. Armed Forces in domestic law enforcement, is in 
need of review in the ``post-September 11'' environment. Do you feel 
Posse Comitatus unduly inhibits the use of American military 
capabilities in support of homeland security efforts?
    Answer. As I understand it, the Posse Comitatus Act does not unduly 
inhibit the use of American military capabilities in support of 
homeland security efforts. The Posse Comitatus Act comes into play only 
when military personnel are directly involved in the enforcement of 
civilian criminal laws. In that event, it places restrictions on U.S. 
military personnel's ability to engage in search, seizure, or arrest 
activities.
    As you are aware, last year Secretary Rumsfeld and Governor Ridge 
indicated that they believed that the act appropriately addressed the 
use of the military to support civilian law enforcement. I understand 
that this issue is continually under review. If confirmed, I would look 
forward to consulting with this committee on this issue.

                          COMBATING TERRORISM

    Question. Clearly, combating terrorism is one of the most important 
missions of the Department of Defense.
    What is the Department's comprehensive strategy for combating 
terrorism, both at home and abroad?
    Answer. As I understand it, in accordance with the National 
Security Strategy, the Department's strategy for combating terrorism is 
directed toward the accomplishment of three comprehensive goals.
    First, the Department's strategy seeks to eliminate terrorism as a 
threat to America's way of life by disrupting and destroying terrorist 
organizations with global reach. The Department is using and will 
continue to use intelligence to identify groups that pose a threat to 
the United States, and will employ law enforcement and military efforts 
to defeat them.
    Second, the Department is working with other Federal agencies and 
departments to create an international environment inhospitable to 
terrorists and those who support them. It will do this by waging a war 
of ideas against extremism and anti-Americanism. The Department is 
working vigorously to deny state sponsorship, support, and sanctuary to 
terrorists. The United States will not allow tyrants and dictators to 
use sovereignty as a shield behind which to hide and plot against the 
sovereignty and security of others.
    Finally, the Department appears to be closely involved in 
strengthening America's security at home to deter and protect against 
terrorist attacks. As described in the Quadrennial Defense Review, the 
military's highest priority is the protection of the United States and 
its citizens and interests. The U.S. Northern Command and the newly 
established office of the Assistant Secretary of Defense for Homeland 
Defense will work to improve the Department's ability to deter 
terrorist attacks and better manage the consequences of such attacks 
should they occur.
    Question. How can the Department best structure itself to ensure 
that all forms of terrorism are effectively confronted?
    Answer. In my view, the Department currently appears well-
structured for combating terrorism. Its capabilities should become more 
robust with the development of U.S. Northern Command and the offices of 
the Under Secretary of Defense for Intelligence and the Assistant 
Secretary of Defense for Homeland Defense.
    Question. Are changes to the defense intelligence community 
advisable to ensure optimal support to combating terrorism and other 
homeland security efforts? If so, please elaborate.
    Answer. There appears to be a significant effort underway to 
coordinate among all elements of the defense intelligence establishment 
regarding intelligence support. I understand that these efforts are 
continuously being evaluated within the interagency working groups. The 
new office of the Under Secretary of Defense for Intelligence will 
coordinate with the Director of Central Intelligence to maximize the 
effectiveness of defense intelligence.
    Question. Are there steps the Department should take to better 
coordinate its efforts to combat terrorism with those of other Federal 
agencies?
    Answer. I believe the Department of Defense will work with the new 
Department of Homeland Security and the intelligence community to 
continue to improve coordination of interagency plans and operations to 
combat terrorism at home and abroad. The Assistant Secretary of Defense 
for Homeland Defense, once confirmed, should play a significant role in 
enhancing DOD's integration into the Nation's homeland security 
efforts.

                              SAUDI ARABIA

    Question. What is your assessment of the current state of U.S.-
Saudi Arabian defense cooperation?
    Answer. I view our decades-long, military-to-military relationship 
with Saudi Arabia as healthy and resilient. We have had a U.S. military 
training mission in the kingdom since the 1950s. Saudi Arabia has 
traditionally been one of the largest purchasers of U.S. weapons and 
training. The Persian Gulf War, and shared security concerns since that 
time, have significantly increased the breadth and depth of our defense 
dialogue. Over the past 10 years, in particular, this dialogue has 
provided a solid foundation for the strategic partnership that exists 
between our two countries today. This is not to say that all aspects of 
the relationship have been without difficulty at all times.
    Question. What changes, if any, would you suggest to this 
relationship?
    Answer. If confirmed, one area I am inclined to examine is the 
current level of Saudi participation in the Department's military 
exchange programs. Now more than ever, I think it is important that DOD 
invite Saudi military professionals into its war colleges, 
universities, and other venues, where the Department might promote an 
in-depth exchange to address any issues or concerns that might exist 
among the next generation of military leaders in both countries.

                              AFGHANISTAN

    Question. In your view what are the major challenges the United 
States and the international community face in Afghanistan today, and 
how should we approach them?
    Answer. In my opinion, major challenges facing the United States 
and international community include reforming and rebuilding key 
security institutions such as the Afghan National Army, the national 
police force, the border police force, and the judicial system. We must 
also effect the demobilization, disarmament, and reintegration of 
ungoverned parties. Success will require the continued support of this 
Congress, along with effective work by U.S. counterparts in the other 
countries who have committed themselves to these missions, and by the 
United States.
    Concurrently, I believe we must ensure implementation of the Bonn 
Agreement of December 2001, which has led to the first legitimate 
government in 30 years. As I understand it, this agreement provides a 
framework for settling constitutional questions in 2003 and conducting 
national elections in 2004. Success will no doubt depend upon continued 
coordination with the Karzai government, the international community, 
and the United Nations to shape and resource a central government that 
is viable.
    Question. Do you believe that the United States should increase its 
troop-strength in Afghanistan?
    Answer. I believe that the Department's goal is to keep its 
footprint small. The U.S. seeks to be a stabilization force, not an 
occupation force. Afghanistan belongs to the Afghans. At the same time, 
we must ensure that sectors of the country do not revert to safe havens 
for terrorists. I understand that DOD's current commitment (about 8,000 
military personnel) is considered sufficient for the mission. In my 
view, judicious investments in the Afghan National Army and the central 
government will help reduce the commitment of military forces provided 
by U.S. and allies over the coming years.

                          IRAQ--POST-CONFLICT

    Question. If we go to war against Iraq, what is your view of the 
appropriate role for the Department of Defense in the post-conflict 
environment?
    Answer. In my view, if Iraq is liberated, the United States and its 
coalition partners will become responsible both for the temporary 
administration of the country and the welfare of its population. DOD 
should commit itself to stay only as long as necessary to ensure 
security, protect the territorial integrity of Iraq, rid the country of 
WMD, eliminate terrorist infrastructure, assist the Iraqi people in the 
process of rebuilding their country, and facilitate the creation of a 
broad-based, representative, Iraqi government.
    At the same time, I believe DOD also must commit to leave as soon 
as the Iraqi people are able to undertake these responsibilities on 
their own behalf. Thus, if confirmed, I would advocate post-war plans 
that emphasize expeditious transfer of responsibilities from U.S. 
military forces to appropriate U.N. agencies, non-governmental 
organizations, and ultimately to the Iraqi people themselves.

                       SPECIAL OPERATIONS COMMAND

    Question. The Nunn-Cohen amendment to Goldwater-Nichols established 
the Special Operations Command (SOCOM) and the office of the Assistant 
Secretary of Defense for Special Operations and Low Intensity Conflict 
(ASD/SOLIC).
    What is your view on the relationship between SOCOM and ASD/SOLIC?
    Answer. As I understand it, pursuant to law, ASD/SOLIC is 
responsible for oversight, policy, and resourcing of special operations 
within the Department of Defense, and SOCOM has the responsibility for 
operational control over the actual special operations forces. The 
relationship appears sound and has proven beneficial to the 
effectiveness of the Nation's Special Operations Forces. Their superb 
performance in Afghanistan serves as a case in point.
    Question. What is your view of granting SOCOM greater ability to 
function as a supported, as opposed to supporting, command?
    Answer. I believe new realities require an expanded role for 
special operations. Just as U.S. Northern Command was established to 
meet new challenges, so SOCOM must adapt to better apply its scarce 
resources in a new security environment more effectively. I believe 
SOCOM should not only retain current responsibilities for acquisition, 
but also develop its capacity to function globally with its own 
operational planning staff. It is my understanding that the Secretary 
has designated SOCOM as a supported command in the global war on 
terrorism.

                              WAR ON DRUGS

    Question. What is your assessment of the ongoing efforts of the 
United States to significantly reduce the amount of drugs illegally 
entering our Nation?
    Answer. I observe the United States continuing to work with its 
friends and allies in Latin America, Mexico, and Southeast Asia to 
detect, monitor, and interdict the movement of illegal drugs to the 
United States. The President's National Drug Control Strategy 
represents a vision that can continue to decrease the supply of drugs, 
while significantly increasing the education of Americans about the 
dangers of using illegal drugs and the resources needed to treat 
Americans who are addicted to illegal drugs.
    Question. In your view, what is the appropriate role of the 
Department of Defense in U.S. counterdrug efforts?
    Answer. I view the appropriate role of the Department of Defense in 
counterdrug efforts as one of support to law enforcement. By statute, 
the Department serves as the single lead agency for the detection and 
monitoring of aerial and maritime foreign shipments of illegal drugs 
toward the United States. The Department also supports other Federal 
agencies whose core missions include counterdrug activities.
    The Department's role is restricted to ensure military personnel do 
not participate in actual field operations, including: search, seizure, 
arrest, or other similar activities. In my view, the Department should 
continue to execute its counterdrug support responsibilities, as long 
as they employ military-unique capabilities not available to civil 
authorities and do not detract from their core warfighting 
responsibilities.

                        MILITARY TRANSFORMATION

    Question. The transformation of U.S. defense capabilities to 
successfully confront 21st century threats has been the subject of much 
discussion over the past few years.
    In your view, what should be the objectives of military 
transformation?
    Answer. I view transformation as a continuous process, not an end 
state. We must remain open to innovative concepts and ideas developed 
through service and joint experimentation programs. Broad objectives, 
however, are necessary to inform the transformation process and allow 
us to make critical near-term investments that are prerequisites for 
more transformational capabilities. In this regard, I believe that the 
six critical operational goals articulated in the 2001 Quadrennial 
Defense Review are the right ones: 1) Protect critical bases of 
operations and defeat CBRNE weapons and their means of delivery; 2) 
Assure information systems in the face of attack and conduct effective 
information operations; 3) Project and sustain U.S. forces in distant 
anti-access or area-denial environments and defeat anti-access and area 
denial threats; 4) Deny enemies sanctuary by providing persistent 
surveillance, tracking, and rapid engagement with high-volume precision 
strike; 5) Enhance the capability and survivability of space systems 
and supporting infrastructure; and 6) Leverage information technology 
and innovative concepts to develop an interoperable, joint C\4\ISR 
architecture and capability.
    Question. What is the role of experimentation, including joint 
experimentation, in this process?
    Answer. Ongoing experimentation is an essential part of the 
development of future warfighting concepts, which are the engines of 
change for driving the development of transformational capabilities. 
Experimentation programs assist in the development, testing, and 
further refinement of future concepts. However, in the immediate future 
it is particularly important to have a robust joint experimentation 
program. Enhanced joint capabilities will produce non-linear increases 
in combat capabilities, particularly as we attempt to exploit new 
technologies that provide improved situational awareness and 
intelligence across the entire battlespace.
    I have been told that the Department's fiscal year 2004 budget 
request, for instance, increases funding for the Joint National 
Training Center by about $65 million, a 55 percent increase over its 
fiscal year 2003 budget. Likewise, the fiscal year 2004 budget request 
for the U.S. Joint Forces Command increases funding by $16 million from 
fiscal year 2003.

                              NATO ISSUES

    Question. At the Prague Summit in November 2002, NATO invited seven 
countries to begin accession talks to join the Alliance. The gap in 
military capabilities between the United States and many of its NATO 
partners, however, has been a growing concern over the past few years. 
The entry of new members into NATO may exacerbate this problem.
    In your view, what are the main reasons, from a military 
perspective, for enlarging NATO?
    Answer. I think the accession of Bulgaria, Estonia, Latvia, 
Lithuania, Romania, Slovakia, and Slovenia into NATO will have a 
positive effect on the military effectiveness of the Alliance. Each of 
these invitees has robustly supported U.S. and allied actions in 
multiple theaters such as the Balkans, Afghanistan, and the global war 
on terrorism. The United States has been intimately involved in the 
creation of defense reform plans for each invitee. I understand that 
these plans emphasize development of niche capabilities that will allow 
for important contributions to the Alliance despite a relatively 
limited resource base within each particular state.
    Question. Do you believe the Prague Capabilities Commitment and the 
NATO Response Force will succeed in encouraging NATO allies to improve 
their military capabilities?
    Answer. I am hopeful for both initiatives. The Prague Capabilities 
Commitment (PCC) represents a firm political commitment to address 
specific shortfalls in NATO capabilities. Participants identified a 
number of concrete programmatic efforts they should undertake--such as 
the acquisition of unmanned aerial vehicles and new precision guided 
munitions. The commitment to develop the NATO Response Force (NRF) is 
an equally important achievement. The NRF should operate as a 
technologically advanced force that is capable of high-end operations. 
Allies should commit specific units to take part in the NRF under a 
rotational plan. During their period of participation, assigned units 
should receive hardware improvements and intensive training. These 
initiatives are mutually reinforcing and can serve as levers for the 
transformation of NATO.
    Question. Why should we expect these efforts to be more successful 
than the Defense Capabilities Initiative proved to be?
    Answer. As I understand it, the Prague Capabilities Commitment 
(PCC) focused on a smaller and more achievable set of capability 
shortfalls than the Defense Capabilities Initiative (DCI). It also 
received unprecedented support from the Secretary General. The NRF 
complements the PCC as a mechanism to assess and exploit PCC progress. 
The Prague Summit committed to specific timelines for NRC 
implementation. It also has strong political support. Thus, I am 
optimistic with respect to both initiatives.
    Question. The relationship between NATO and Russia is an important 
element of the new strategic framework with Russia.
    How well, in your judgment, is the NATO-Russia Council working in 
practice?
    Answer. I believe the NATO-Russia Council (NRC) has established an 
early record of accomplishments with: 1) the completion of the civil 
emergency preparedness exercise in 2002; 2) the completion of the 
generic concept paper on peacekeeping operations; and 3) discussions on 
topics ranging from terrorism to missile defense. These successes 
suggest continued utility as a mechanism for encouraging cooperation 
between the Alliance and Russia.

                                 RUSSIA

    Question. Are there steps you believe we should take to improve 
Russian and U.S. military relationships?
    Answer. In my view, our military relationship with Russia has 
measurably improved over the last 2 years in a variety of spheres--such 
as the global war on terrorism, emergency/consequence management, and 
search and rescue. I see a number of areas where we might make further 
strides, such as shared missile warning, missile defense, expansion of 
exchange programs, and in combined exercises.
    Question. Would you support resumption of a comprehensive military-
to-military exchange and dialogue program, along the lines of the 
previous exchange program between Strategic Command and its Russian 
counterparts?
    Answer. In my view, exchange programs with Russia can serve many 
important goals, including the promotion of: 1) transparency and 
strategic stability; 2) opportunities for cooperation in the global war 
on terrorism; and 3) opportunities to promote Russian defense reform. 
If confirmed, I am open to consideration of any proposals that serve 
these objectives.

                                BALKANS

    Question. U.S. forces have been engaged, together with our NATO 
allies, in peacekeeping operations in the Balkans since 1995.
    What is your estimate as to when SFOR in Bosnia and KFOR in Kosovo, 
and United States participation in those forces, will no longer be 
needed to maintain stability?
    Answer. In my view, the U.S. contribution to NATO's military 
efforts in the Balkans has been essential for its success to date. 
However, while NATO's commitment to the peace of the region is 
enduring, the commitment of U.S. forces should not be indefinite. I 
believe that as the situation on the ground further improves, NATO and 
the United States should continue the transition from force deployments 
to more normal security cooperation activities and initiatives. These 
actions can establish the foundation for Balkan integration into Euro-
Atlantic security structures.

                              NORTH KOREA

    Question. How do you assess the near-term and longer-term threat 
North Korea poses to U.S. and allied interests in East Asia?
    Answer. In my view, North Korea poses a considerable threat to the 
U.S. and allied interests in Asia. Although North Korea's economy 
continues to deteriorate, North Korea maintains a robust indigenous 
missile program, has over 10,000 artillery pieces along the 
demilitarized zone, and is pursuing a nuclear weapons program. These 
programs not only pose a threat to North Korea's neighbors in East 
Asia, but North Korea's proliferation activities threaten global 
stability. The threat posed by North Korea will only grow over time if 
left unchecked.
    Question. What are the military implications for the United States 
of the ongoing tension on the Korean Peninsula?
    Answer. In my opinion, the growing tensions on the Korean Peninsula 
have significant implications for the United States. North Korea could 
embark any day on further provocations in an effort to compel the 
United States into bilateral talks. The U.S. and its allies and friends 
must be prepared to respond to provocations by North Korea, such as a 
ballistic missile launch over Japan or the U.S., the reprocessing of 
spent fuel, or a nuclear test. The Combined Forces Command of United 
States and the Republic of Korea (ROK) must maintain a robust 
deterrence posture and high state of readiness. The U.S. should 
continue to closely coordinate with the ROK, Japan and the 
international community on the current situation. This is not just a 
Korean Peninsula problem. The proliferation of fissile material or 
nuclear weapons could impact the foundation of U.S. defense strategy.

                            NUCLEAR WEAPONS

    Question. The Nuclear Posture Review established a goal of reducing 
operationally deployed nuclear weapons to a level between 1,700 to 
2,200 by the end of 2012. The same facilities, personnel, and resources 
that will be used to sustain and modernize this smaller, operationally 
deployed force would also be used to dismantle retired nuclear weapons.
    What criteria should guide U.S. policy in prioritizing these 
activities?
    Answer. In my view, the Department's primary goal is to sustain the 
warheads it plans to deploy through a series of Life-Extension-Programs 
(LEPs), while reducing the number of operationally deployed weapons 
over the next decade. Refurbishment programs should stay ahead of 
component aging to modernize components where needed. Over the next 
decade or more, the planned LEPs for the B61 gravity bomb, the W80 
cruise missile warhead, and the W76 sea-launched ballistic missile 
warhead will likely consume most of the capacity available for assembly 
and disassembly of warheads. Within the remaining margin of available 
resources, I understand there is flexibility to adjust these activities 
to accommodate for unplanned repairs or dismantlement of warheads that 
DOD will retire.
    Question. The Nuclear Posture Review did not recommend additional 
reductions to the total number of nuclear weapons in the stockpile.
    What nuclear weapons, if any, do you believe should be dismantled 
in the future?
    Answer. The Nuclear Posture Review (NPR) identified the W62 as a 
warhead that the United States plans to retire when it is removed from 
the Minuteman III Inter-Continental Ballistic Missile (ICBM) force 
later in the decade. Retirement is the first step in the dismantlement 
process. When it is dismantled will depend on the availability of 
capacity within the nuclear weapons complex.
    Question. Should the entire stockpile of nuclear weapons be 
modernized and sustained at the same level?
    Answer. I do not believe the Department currently needs to 
modernize all warheads in its stockpile, nor should they anticipate 
sustaining the total stockpile at its current size. I confirmed, I 
would advocate that the Department reduce the number of operationally 
deployed weapons, the Department should assess its warhead requirements 
in periodic reviews to meet their goals for the New Triad.
    Question. What is the current U.S. policy on underground nuclear 
testing?
    Answer. To the best of my knowledge, there is no technical 
requirement to resume underground nuclear explosive testing, and the 
President has decided to maintain the testing moratorium.

                              ARMS CONTROL

    Question. What is your view of the role that formal arms control 
agreements should play in U.S. national security in the post Cold-War 
era?
    Answer. I support U.S. participation in the formal arms control 
treaties that serve U.S. national security interests. Future agreements 
must be judged on a case-by-case basis, based on the criteria of 
advancing U.S. national security interests. In general, I believe Cold 
War-style arms control agreements have well-served their purpose and 
that agreements such as the Moscow Treaty are more appropriate to 
future U.S. security needs.
    The Treaty on Strategic Offensive Reductions (also known as the 
Moscow Treaty) is very different from previous strategic arms reduction 
treaties in that it does not include extensive counting rules, 
verification provisions, or interim reduction goals.
    Question. Do you support the Moscow Treaty?
    Answer. Yes. I believe that the Moscow Treaty represents a 
significant improvement over Cold War-style treaties that reflected and 
exacerbated a confrontational and antagonistic strategic relationship 
between the United States and Russia. The successful negotiation of a 
concise treaty represents a turning point in building a new strategic 
relationship with the Russian Federation, based more on the pursuit of 
our mutual interests than the threat of mutual annihilation.
    Question. Do you believe that any conditions, understandings, or 
reservations to the resolution of ratification to the Moscow Treaty are 
needed to protect U.S. interests?
    Answer. I do not believe that the Moscow Treaty needs any 
conditions, understandings, or reservations to protect U.S. interests. 
The Moscow Treaty preserves the necessary flexibility to carry out our 
national security responsibilities and our ability to respond promptly 
to advanced threat developments.
    Question. In the context of the terms of the Moscow Treaty, do you 
believe that the United States and Russia will have adequate insight 
into each other's strategic nuclear plans and programs?
    Answer. The Consultative Group on Strategic Stability established 
by our respective presidents will serve to strengthen mutual 
confidence, expand transparency, and share information and plans. This 
group has already established a working group of experts to explore 
ways to enhance offensive nuclear transparency. Thus, I believe that we 
have a good basis for insight into each other's plans and programs.
    Question. Would you support the early implementation of the warhead 
reductions required by the Moscow Treaty?
    Answer. As noted in the Nuclear Posture Review (NPR), DOD will 
conduct periodic reviews to evaluate the existing security environment, 
assess the continuing role of nuclear forces in achieving the defense 
policy goals, and review the progress made in the development of the 
New Triad. DOD will support the early implementation of the warhead 
reductions required by the Moscow Treaty if such reductions are 
justified by these periodic reviews. The current NPR plan is to reduce 
the number of operationally deployed strategic nuclear warheads to 
3,800 warheads by the end of 2007. The first review will begin this 
year.
    Question. What is your view of the role of the Nuclear 
Nonproliferation Treaty in U.S. national security in the post Cold-War 
era?
    Answer. The United States is strongly committed to its obligations 
under the Treaty. The President wants to reduce U.S. reliance on 
nuclear weapons by bringing U.S. nuclear forces down from current 
levels while developing newer non-nuclear and defensive capabilities 
and revitalizing our defense infrastructure. This important policy is 
part of the administration's desire to build a new cooperative 
relationship with Russia. Moreover, compliance remains critical to the 
success of the NPT. In order to avoid weakening the treaty, we must 
continue to press for full compliance by certain states and take steps 
to strengthen IAEA safeguards.
    Question. Do you support other arms control treaties in force to 
which the U.S. is a party?
    Answer. Yes. I believe that the United States should adhere, as it 
has always done, to its treaty commitments. In addition, we should 
publicly name those countries that violate their treaty obligations in 
order to bring international pressure to bear on them to come into 
compliance. Treaties will be an effective international mechanism only 
if parties live up to their obligations.
    Question. What is your view of the Comprehensive Test Ban Treaty 
and its verification measures?
    Answer. The President has made it clear that he does not support 
the Comprehensive Test Ban Treaty and that he does not plan to resubmit 
it to the United States Senate for its advice and consent to 
ratification.

                        NUCLEAR FORCE STRUCTURE

    Question. The U.S. removed the bulk of its theater and tactical 
nuclear forces from the field in the 1990s, and its remaining nuclear 
force structure of ICBMs, SLBMs, and bombers was intended to deter our 
Cold War adversaries.
    In your view, have requirements for U.S. nuclear weapons systems, 
platforms, and delivery vehicles kept pace with the rapidly changing 
security environment?
    Answer. My understanding of the Department's Nuclear Posture Review 
(NPR) is that it examined the requirements for U.S. nuclear weapons 
systems and found that a new strategic triad, composed of diverse 
capabilities, is currently needed to underwrite U.S. national security 
in the 21st century. The NPR recognized that the new security 
environment demanded that we reexamine the requirements for strategic 
nuclear weapons systems, platforms, and delivery vehicles.
    In my view, the range of capabilities the New Triad should possess 
(including non-nuclear and nuclear strike systems, active and passive 
defenses, and a responsive infrastructure, supported by robust 
planning, command and control, and intelligence capabilities) should 
better keep pace with the rapidly changing security environment.
    Question. Are existing systems, platforms, and delivery vehicles 
relevant and responsive to the current security environment?
    Answer. I believe a broad range of capabilities are needed to be 
fully responsive to the uncertainties of the new security environment. 
The application of the Nuclear Posture Review's capabilities-based 
approach to U.S. nuclear forces generated a decision to transform the 
existing triad of U.S. strategic nuclear forces--intercontinental 
ballistic missiles (ICBMs) heavy bombers, and submarine-launched 
ballistic missiles (SLBMs)--into a New Triad composed of a diverse 
portfolio of systems. The New Triad is designed to give the President 
and Secretary of Defense a broad array of non-nuclear and nuclear, and 
offensive and defensive options to address a wide range of possible 
contingencies. ICBMs, SLBMs, and bombers will continue to play a vital 
role in U.S. and allied security as part of the New Triad. I believe 
that this New Triad will be responsive to the current security 
environment.
    Question. What is your view of the role nuclear weapons should play 
in U.S. national security in the future?
    Answer. Based on the reductions agreed to in the Moscow Treaty, I 
believe that nuclear weapons should continue to play a role in U.S. and 
allied security. They should: 1) continue to help deter attacks against 
the United States, its allies and friends; 2) dissuade competition from 
potential adversaries; and 3) continue to provide assurance to the 
public and to U.S. allies that have security agreements with the United 
States. That said, I believe the Department should continue seek to 
reduce U.S. dependence on nuclear weapons.
    Question. In your view, is the Stockpile Stewardship Program 
meeting the goals of allowing the Secretaries of Defense and Energy 
annually to certify each of the nuclear weapon types within our nuclear 
weapon stockpile as safe, secure, and reliable?
    Answer. My understanding of the Stockpile Stewardship Program is 
that it has not failed us to date. But I believe the challenge to the 
Department of Energy, and, in particular, to the Administrator of the 
National Nuclear Security Administration, will grow as time passes and 
the stockpile ages.
    Question. Do you support the Stockpile Stewardship Program?
    Answer. I support the Stockpile Stewardship Program (SSP). 
Stockpile Stewardship is an important tool for sustaining our nuclear 
weapons in a safe and reliable configuration. I believe we must 
continue to furnish it with the resources that it needs, including the 
infrastructure within the nuclear weapons complex, in order to meet 
future challenges.
    Question. Do you believe that there is a current requirement to 
resume underground nuclear weapons testing to maintain the safety and 
reliability of the nuclear weapons stockpile?
    Answer. I do not believe there is any current need, or desire, to 
resume underground testing. While there are a number of questions that 
scientists and engineers might answer through an underground test, I 
understand that their current technical judgment is that there is no 
need certify the safety, security, or reliability of any weapon type in 
the stockpile at this time through underground testing.
    The Secretaries of Defense and Energy address the question of the 
need to test annually in the Certification Report to the President. 
Their recommendation takes into account the judgments of the Nuclear 
Weapons Council, the Directors of the Department of Energy's 
Laboratories, the military departments, and the Commander of the U.S. 
Strategic Command.
    Question. In your opinion, will the U.S. have such a requirement in 
the future?
    Answer. I believe it is conceivable that circumstances could 
generate requirements that would compel the United States to conduct a 
nuclear test at some point in the future. For instance, the non-nuclear 
test and evaluation program could find a serious safety, security, or 
reliability problem in a special class of weapon and determine that the 
only option available to restore confidence in that class of weapon is 
a nuclear test.
    Question. What is your view about whether the National Nuclear 
Security Administration is equipped and ready to return to underground 
nuclear testing should the Nuclear Weapons Council find they cannot 
certify all or a portion of the nuclear weapons stockpile and the 
President decides an underground test is necessary?
    Answer. I understand that the Department of Energy has maintained 
its nuclear weapons test site in a 3-year readiness posture. Many view 
this as insufficiently responsive should circumstances--such as the 
discovery of a problem with a type of nuclear warhead--compel a U.S. 
President to resume testing. To that end, I also understand that the 
Department of Energy is initiating a program to increase the readiness 
of this site such that it can technically support a test within 18 
months of deciding to do so. If confirmed, I would support this 
initiative.

              THREAT OF GROWING BIOTECHNOLOGY CAPABILITIES

    Question. Within the next 5 years, expected advances in 
biotechnology may lead to other nations having improved capabilities to 
manipulate biological agents. While the Department is currently focused 
on enhancing means of protection against known biological agents, it 
must also address emerging threats posed by these near-term advances in 
biotechnology.
    What is your view of this threat and the adequacy of the 
Department's response thus far?
    Answer. I view the ongoing revolution in biotechnology as holding 
great promise for helping mankind conquer a host of deadly human 
diseases. Unfortunately, these same scientific breakthroughs, such as 
genetic manipulation, not only open new frontiers in medical treatment, 
but also provide opportunities for potential adversaries to create a 
new more horrific class of weapons.
    That said, I believe that the Department has taken prudent steps in 
recent months to enhance the protection of our troops against 
biological threats of greatest concern. As a former combatant in 
Operation Desert Storm, I strongly support the ongoing program to 
immunize U.S. forces against smallpox and anthrax who are at greatest 
risk of exposure and the most critical to military operations.
    In addition, if confirmed, I would advocate that the Department 
also develop a research and development program to anticipate the 
emergence of new biological threats.

            DOD'S COOPERATIVE THREAT REDUCTION (CTR) PROGRAM

    Question. The CTR program has four key objectives: (1) dismantling 
former Soviet Union (FSU) weapons of mass destruction (WMD); (2) 
consolidating and securing FSU WMD and related technology and 
materials; (3) increasing transparency and encouraging higher standards 
of conduct; and (4) supporting defense and military cooperation with 
the objective of preventing proliferation.
    Do you believe the CTR program should maintain its current scope?
    Answer. I understand that the Department is trying to refocus the 
CTR program, which is in its second decade. The CTR program now 
supports the global war on terrorism and interdiction of WMD. The WMD 
Proliferation Prevention Initiative should help non-Russian Former 
Soviet Union (FSU) states secure their own borders against WMD 
smuggling by terrorists and others. The Department also has refocused 
CTR's Biological Weapons Prevention Program. The CTR program is 
establishing a disease outbreak surveillance system in the states in 
Central Asia in recognition of the expanded U.S. presence there. In 
addition, the Department hopes to request authority this year to use 
CTR outside the FSU to address emergency nonproliferation situations, 
or to take advantage of significant nonproliferation opportunities. If 
confirmed, I would support these efforts to enhance the effectiveness 
of the CTR program.
    Question. Are there other potential opportunities to address threat 
reduction using the CTR model, or do you believe the CTR model is 
applicable only to the FSU?
    Answer. With the war on terrorism and the expanded, global focus on 
proliferation of WMD, I believe that other opportunities may arise 
outside the FSU. This is why, if confirmed, I would support the 
Department's request for authority to take advantage of opportunities 
to prevent proliferation of WMD outside the FSU.
    Question. Given increases in Russia's gross domestic product during 
the past year and subsequent increases in its military spending and 
arms exports, what is your view regarding Russia's ability to assume 
more of the cost share associated with CTR projects in Russia?
    Answer. As I understand it, CTR assistance is provided in support 
of U.S. national security objectives. As such, the Department continues 
to work with the FSU to live up to their commitments under CTR. The 
Department also is looking for new ways for other Western countries to 
increase their support for the program, as well as for increased 
commitments by the recipient countries. Preventing the proliferation of 
WMD, and its means of production and delivery is the key U.S. 
objective. Congress and the administration have supported up-front 
investment through CTR to achieve this goal. If confirmed, I also would 
support this continued investment formula.

                   EXPORTS OF SENSITIVE TECHNOLOGIES

    Question. In the National Strategy to Combat Weapons of Mass 
Destruction, the administration states that ``we must ensure that the 
implementation of U.S. export controls furthers our nonproliferation 
and other national security goals, while recognizing the realities that 
American businesses face in the increasingly globalized marketplace. We 
will work to update and strengthen export controls using existing 
authorities. We also seek new legislation to improve the ability of our 
export control system to give full weight to both nonproliferation 
objectives and commercial interests. Our overall goal is to focus our 
resources on truly sensitive exports to hostile states or those that 
engage in onward proliferation, while removing unnecessary barriers in 
the global marketplace.''
    What policies and procedures do you believe are needed to achieve 
this objective?
    Answer. It is my understanding that the administration has begun a 
comprehensive assessment of the effectiveness of U.S. defense trade 
policies to identify necessary changes and ensure that those policies 
continue to support U.S. national security, economic, and foreign 
policy goals. DOD plays a key role in the ongoing interagency review. 
The aims of the review are to maintain America's technological and 
warfighting advantages over its potential adversaries, while 
facilitating friends' and allies' efforts to increase capability and 
interoperability and enhancing controls where necessary to address key 
national security priorities. If confirmed, I would support the 
Department's effort to improve U.S. defense trade policies.
    Question. What role should the Department of Defense play in this 
process? Have recent export control reforms designed to streamline the 
process, such as the use of the global program license authority for 
JSF, adequately addressed this challenge, or do you believe that 
additional steps are needed? What is your view regarding the status of 
negotiations with our allies to grant them special status in the form 
of waivers from certain U.S. export control laws?
    Answer. I understand that the Department of State is currently 
leading administration efforts to negotiate legally binding agreements 
with the UK and Australia that will exempt them (like Canada) from 
certain requirements in the International Traffic in Arms Regulations 
(ITAR). The ITAR country exemptions are extended to waive certain 
license requirements for export from the United States of certain 
unclassified defense items, technical data and limited services to 
countries with export control systems comparable to those of the United 
States. The objectives of ITAR country exemptions, as I understand 
them, are: a) raising foreign export control standards toward the U.S. 
level; b) enhancing defense trade and cooperation among allies; c) 
helping to streamline the licensing process by reducing the number of 
applications; d) enhancing U.S. technology security by allowing our 
licensing system to focus on higher risk export license applications; 
and e) supporting interoperability by facilitating defense industrial 
cooperation between the United States and select allies. If confirmed, 
I would support the above objectives and waivers for our UK and 
Australian allies.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Under Secretary of 
Defense for Policy?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Elizabeth Dole

                       REPEATED FORCE DEPLOYMENTS

    1. Senator Dole. Mr. Henry, we have been through a year of 
deployments of units from all of the services, including extensive use 
of marines and special forces. Now we are in the midst of deploying 
forces again in preparation of a possible war in Iraq.
    In carrying out your responsibilities for contingency planning, how 
would you factor in the use of forces that have been through repeated 
deployments?
    Mr. Henry. One of the strengths of our contingency planning system 
is that it addresses the possibility of repeated deployments. It does 
so through a two-step process. First, we take great pains to apportion 
forces among the Department's war plans to minimize the changes of 
overtaxing units. Second, when a plan must be executed, we carefully 
examine which units required by the plan have returned recently from 
deployments and which have been repeatedly stressed over time. When 
advisable, and possible, we use forces other than those originally 
envisioned for the plan.

    2. Senator Dole. Mr. Henry, what emphasis will you place on 
concerns about the readiness of forces that have been through repeated 
deployments and the morale of those forces and their families?
    Mr. Henry. I take this issue very seriously. Maintaining a high 
state of readiness and morale is central to the operational performance 
of our forces. The Department monitors the readiness and morale of our 
forces carefully because of its concern about the long-term impact of 
repeated deployments--particularly as they affect high demand units. In 
this regard I support the Secretary of Defense in his pursuit of ways 
to shape the force more appropriately for today's missions. I also 
wholeheartedly support his attempts to identify and field better 
management tools for assessing and balancing force requirements and 
risk.
    Important to achieving good morale and readiness is the sense of 
security those who serve our county gain by knowing that their families 
are well cared for during deployments. I wholeheartedly support the 
Secretary's myriad efforts in this regard, starting with his commitment 
to quality of life initiatives like improved housing, health care, and 
pay equity. I also strongly endorse service programs that enable 
servicemen and women to deploy with greater piece of mind such as well-
run and active family support programs and initiatives that enable 
regular communications between deployed service members and their loved 
ones during deployments.

    3. Senator Dole. Mr. Henry, as you look at other possible conflicts 
(for example, military action on the Korean Peninsula) how does your 
planning process recognize and acknowledge these morale and readiness 
issues as limitations on your contingency planning?
    Mr. Henry. Our planning system is designed to mitigate the overuse 
of our forces--and the resultant degradation in readiness and morale--
in several ways. First, our forces are structured to fight two 
overlapping wars. No unit is apportioned to both wars. Second, our 
planning system apportions the best available unit to any particular 
mission. At the same time it ensures that like-type forces are 
distributed optimally among all the plans. Third, the Department 
intensely monitors and manages high-demand units, such as command and 
control or intelligence assets, that could be subject to overuse and 
high stress. Finally, the services constantly review force requirements 
generated by the contingency planning process and adjust unit 
deployment schedules as necessary after assessing available units' 
capabilities and readiness. The strength of our planning system is its 
ability to factor readiness, morale, and other potential stresses into 
the assignment of particular units to a mission.
    To help the department better manage the risks of overtaxing the 
force, we are currently developing new tools for making force 
apportionment and deployment decisions. One new tool uses an integrated 
database to track the status and location of all units worldwide. It 
allows us to see very quickly the systemic impact of potential 
deployment decisions. Analysis that used to take us many hours, if not 
days, can now be done very quickly, sometimes in minutes. We believe 
this tool, along with others, will allow the Department to make better 
and more timely deployment decisions--giving us better visibility on 
the status of the force as a whole and minimizing the risks of 
undermining the readiness and morale of our forces.

                       SPECIAL OPERATIONS COMMAND

    4. Senator Dole. Mr. Henry, how does the newly announced role of 
the Special Operations Command as a supported command affect your 
strategy formulation and contingency planning activities? 
    Mr. Henry. In the past, we faced state adversaries who generally 
were organized in a hierarchical fashion, and who could be confronted 
directly. Today, we face a very different type of enemy--a loose 
network of terrorist groups and their supporters. In order to defeat 
the international terrorist network, we will need to bring to bear a 
range of tools--diplomatic, economic, military, and intelligence--in 
new and unusual ways. The terrorist network has proven to be adaptive 
and resilient. Consequently, we are attacking it relentlessly and 
across all fronts. The U.S. Special Operations Command (USSOCOM) is 
playing a key role in this effort.
    As the lead for the Department's global war against terrorism, 
USSOCOM will plan and selectively execute combat missions against 
terrorists like Al Qaida and their associated organizations around the 
world. USSOCOM will conduct operations as a supported command when 
appropriate, e.g., if the terrorist network activities cross regional 
boundaries or the synchronization of forces for a particular operation 
dictates USSOCOM lead. In other cases, USSOCOM will participate in 
operations as a supporting command. The decision to select which 
command will be supported or supporting will be made by either the 
President or by the Secretary of Defense, depending on the 
circumstances of threat and operational practicalities.
    To win the war on terrorism, seamless cooperation and collaboration 
is required by the Department of Defense, the intelligence community, 
the Department of Justice, the Federal Bureau of Investigation, the 
Department of Treasury, and other Federal agencies and departments (to 
include the Department of State and our ambassadors overseas). USSOCOM 
fully recognizes this imperative and has established a focused planning 
capability to draft, coordinate, and synchronize global plans and 
operations. Contingency planning will have to be done more quickly than 
ever in order to react to emerging intelligence and exploit targets of 
opportunity. In some cases, our military forces may not be the option 
ultimately chosen to undertake the mission; rather, cooperative host 
nation security forces, other allies, or other arms of the U.S. 
Government may well be better able to undertake missions successfully. 
    By organizing an operational planning capability at USSOCOM 
headquarters, as well as at smaller Theater Special Operations Commands 
in the regional theaters, the U.S. Special Operations Command will have 
the tools it needs to better plan and execute missions in support of 
the global war on terrorism. These same tools will, in turn, enable 
USSOCOM to better meet future challenges and threats to our national 
security beyond the war on terrorism. 

                         U.S. NORTHERN COMMAND

    5. Senator Dole. Mr. Henry, how does the U.S. Northern Command fit 
into your contingency planning?
    Mr. Henry. Like all combatant commands, U.S. Northern Command is 
assigned specific planning responsibilities for its geographic area of 
responsibility and in support of other combatant commanders' plans. As 
I stated in my testimony, U.S. Northern Command will work closely with 
U.S. Pacific Command to ensure that homeland defense plans cover all of 
the United States, its territories, and its possessions.

    6. Senator Dole. Mr. Henry, do you envision the use of special 
forces as part of your contingency planning in the area of homeland 
defense? 
    Mr. Henry. Special forces' principal role in homeland defense is in 
keeping threats away from U.S. shores. By helping to drain the swamps 
where terrorists find sanctuary, special forces take the fight from the 
shores of our homeland to our enemies abroad. This includes undertaking 
military operations beyond U.S. borders and training foreign militaries 
in places like Afghanistan. It also includes special forces' assistance 
in countering the proliferation of weapons of mass destruction that 
could threaten our  Nation. Finally, special forces play a discrete 
role in U.S. Northern Command's contingency planning for homeland 
defense.

            COMBATING TERRORISM AND COUNTERDRUG STRATEGIES 

    7. Senator Dole. Mr. Henry, in your role in developing strategies 
for combating terrorism, how will counterdrug strategies fit into your 
planning? 
    Mr. Henry. We have found that trafficking in weapons, money, 
people, and other illegal items is not restricted to narco-traffickers. 
Many networks that support the illicit movement of these items for drug 
activities also support terrorist groups like Al Qaida, Hizballah, the 
Revolutionary Armed Forces of Colombia (FARC), Islamic Movement of 
Uzbekistan (IMU), and the Al-Ittihad al Islami (AIAI), to mention a 
few. To the extent that narcotics trafficking is related to terrorism 
and trafficking in other illegal materials, our counternarcotics 
programs and activities will also combat terrorism and counter the 
trafficking of WMD and arms. We will seek to continually address the 
congruence of these threats in order to maximize the efficient use of 
our resources and policies to counter them both.

    8. Senator Dole. Mr. Henry, what role do you think DOD can and 
should play in counterdrug activities? 
    Mr. Henry. The Department of Defense's counternarcotics efforts are 
in direct support of  the President's National Drug Control Strategy. 
DOD appropriately focuses its counternarcotics programs on fulfilling 
statutory responsibilities, providing military-unique resources, and 
enhancing readiness. As an example, DOD executes drug demand reduction 
programs to maintain the Armed Forces as an effective fighting force.
    DOD also carries out drug detection and monitoring at U.S. borders 
and beyond. This capability can be leveraged to detect and monitor the 
movement of other threats to the United States. Thus, to the extent 
that narcotics trafficking is related to terrorism and trafficking in 
other illegal materials, our counternarcotics programs and activities 
also combat terrorism and counter the trafficking of weapons of mass 
destruction and arms. 

    9. Senator Dole. Mr. Henry, what specific actions should DOD be 
taking in dealing with the drug production problem in Afghanistan?
    Mr. Henry. At the January 2002 Tokyo conference, the United Kingdom 
(UK) agreed to  lead counternarcotics efforts in Afghanistan. As lead 
nation, the UK coordinates activities and programs of other donor 
nations and international organizations in eradication, interdiction, 
alternative livelihoods, education, and treatment. 
    The Department of State is the lead United States Government 
organization for counternarcotics in Afghanistan. DOD supports the UK 
and Department of State as requested and consistent with ongoing 
military operations.
    The United States Government is currently seeking a lead nation to 
train the Afghan Border Police, which will have a primary role in 
interdicting drug trafficking. The Department of Defense has offered to 
assist in that training. 
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

            JOINT WARFIGHTING AND TRAINING RESPONSIBILITIES

    10. Senator Akaka. Mr. Henry, in your responses to our pre-hearing 
questions, you stated that you would contribute to enhancing joint 
warfighting efforts by strengthening joint exercises and training.
    What specific actions did you have in mind to accomplish that goal?
    Mr. Henry. During the past year, the Department of Defense embarked 
upon an aggressive new training strategy reflected in the ``Strategic 
Plan for Transforming DOD Training'' signed by the Deputy Secretary in 
June 2002. The goals of training transformation are bold and 
comprehensive and will take years to accomplish. Training 
transformation is built around a dynamic, capabilities-based training 
system that expands traditional perspectives of jointness. By creating 
an integrated training environment that employs live, virtual, and 
constructive events, the Department will provide accurate, timely, 
relevant, and affordable training and mission rehearsal in support of 
specific operational needs. For example, the Department will identify 
interfaces between training systems and acquisition, logistics, 
personnel, military education, and command and control processes to 
ensure training is integrated into all of these processes. Another 
important element of training transformation is its expansion of joint 
leadership development and Joint Professional Military Education. The 
creation of a Joint National Training Capability and continued emphasis 
on range management are equally critical to enhancing joint warfighting 
efforts.

    11. Senator Akaka. Mr. Henry, what should the relationship be 
between the Office of the Secretary of Defense and the services with 
respect to balancing joint training and the services' Title 10 training 
responsibilities?
    Mr. Henry. The Office of the Secretary of Defense provides the 
broad objectives, framework, and resources that enable the services to 
provide trained and ready forces for the combatant commanders. The 
services direct and oversee individual and unit training at all 
echelons of command. They have the responsibility for honing service-
related operational skills to contribute maximally to joint warfare. 
Joint training builds upon this service foundation and integrates 
training between the services at the command level where joint forces 
are brought together. This joint training does not compete with service 
training, but rather complements and enhances it.
    The Department has just begun developing joint doctrine underpinned 
by new joint operating concepts. These new concepts will undoubtedly 
cause us to rethink how we execute the full range of military 
operations in a fully joint way. As they mature, I anticipate we will 
need to integrate the joint fight at successively lower echelons of 
command. Our training will reflect this dynamic.
    Anticipating this change, the Department has a number of 
initiatives underway at U.S. Joint Forces Command to codify the most 
promising initiatives for joint training. It is also exploring and 
expanding opportunities for joint training. Particularly exciting is 
U.S. Joint Forces Command's initiative to create a ``Joint National 
Training Capability'' which will be designed to achieve synergy between 
joint and service training at the appropriate level of command.

    12. Senator Akaka. Mr. Henry, how would you integrate training for 
such cooperation into your broader training goals, balancing priorities 
between inter-service, inter-departmental, and inter-organizational 
training opportunities?
    Mr. Henry. At the same time the Department is expanding its joint 
training goals and emphasizing inter-service training opportunities, 
its understanding of what constitutes ``jointness'' also continues to 
expand. The full participation of other agencies and nations are 
increasingly important to the success of U.S. military operations under 
the new strategy. With this trend in mind, the Department has set in 
motion several important initiatives. One such undertaking, the 
``Strategic Plan for Transforming DOD Training,'' tasks the Office of 
the Under Secretary of Defense for Policy to lead a study that 
identifies, analyzes, and develops a common set of interagency, 
intergovernmental, and multinational ``Joint'' mission-essential tasks. 
I look forward to leading this effort. Because this expanded concept of 
jointness will undoubtedly strain our existing training construct, we 
will need to be innovative in how we approach this new challenge. It 
has the potential to drive a significant transformation of our training 
system.

    13. Senator Akaka. Mr. Henry, in your pre-hearing answers, you 
stated that joint experimentation is an essential part of developing 
future warfighting concepts, and noted that DOD's budget request will 
include large increases for a Joint National Training Center.
    What relationship do you see between experimentation and training, 
which by and large tend to operate in separate stovepipes?
    Mr. Henry. A robust joint experimentation program is critical to 
military transformation. Across the Department, components are 
exploring new warfighting concepts, including joint operating concepts, 
effects-based operations, rapid decisive operations, and information 
operations.  U.S. Joint Forces Command assists the Secretary of Defense 
in identifying the experimentation necessary to explore these concepts 
fully and to test the application of new capabilities.
    Military training transformation is tightly linked to this joint 
experimentation program. New and exciting joint operational concepts 
will require experimentation to develop them more fully. These concepts 
will also generate new systems and organizations that must themselves 
be tested through experimentation. These various experiments will be 
fully integrated with training opportunities. Notably, the Joint 
National Training Capability will provide the opportunity to integrate 
new concepts, systems, and organizations into a dynamic, capabilities-
based joint training environment.

    14. Senator Akaka. Mr. Henry, are there synergies between 
experimentation and training that would enhance their benefit, and that 
you would attempt to encourage?
    Mr. Henry. I am very interested in encouraging the Department to 
take advantage of synergies between experimentation and training. 
Through service and joint experimentation, the Department can develop 
innovative concepts and ideas. Training transformation, in turn, 
rigorously tests and validates these concepts through a dynamic, 
expanded concept of jointness. The synergy between the two informs 
long-term transformation and near-term investments.
    Interoperable, net-centric capabilities--such as embedded 
simulations, job performance aids, and integrated simulators and 
training devices--will further highlight experimentation--training 
synergies. The resulting integrated live, virtual, and constructive 
training environment will improve operational effectiveness by ensuring 
affordable training and mission rehearsal opportunities. Further, by 
linking this broadened joint focus to assessments of force readiness, 
the Department will be better able to measure, assess, and report on 
the concepts explored through experimentation and achieve synergistic 
training.

                             DOD PROCESSES

    15. Senator Akaka. Mr. Henry, I reviewed your comments about the 
need to streamline DOD processes. Are there specific processes that you 
believe should be streamlined, and do you have any ideas about how you 
would bring that about? 
    Mr. Henry. I intend to focus on reforming three major Department 
processes: the Planning, Programming, and Budgeting System (PPBS), the 
joint requirements process, and the analysis process that supports 
requirements and resource allocation decisionmaking.
    The PPBS process is now over 40 years old. Having been originally 
conceived, in a much different era, and despite some evolutionary 
changes along the way, its capability to support the decision making 
needs of the Department's top leadership continues to diminish. The 
Department recently completed an internal study on how to streamline 
this system, and we are carefully considering, its conclusions and 
recommendations. Due to the vast size and complexity of PPBS, and its 
resulting inertia, major efforts will be required not just to modernize 
it, but to transform it. My foremost concern will be to ensure that any 
reforms the Department undertakes promote the goal of a strategy- and 
planning-driven resource allocation process.
    Another process that must be streamlined is the joint requirements 
process. Presently, military requirements take too long to be evaluated 
and validated. Further, they must be reoriented away from a platform-
centric approach and toward a capabilities-oriented approach. I will be 
working with the Joint Staff to help make this happen.
    A third process in need of streamlining is the Department's 
underlying analytic process. Strategic analyses of key issues of 
concern to the Secretary take far too long to accomplish, sometimes on 
the order of years. In addition, the overall quality of their results 
must be improved, and the processes for developing them, especially 
within the Joint Staff and the services, must be better integrated. It 
is essential that the analytic process be fully transparent to all DOD 
stakeholders, and that the databases needed for conducting analyses be 
in ready condition. Improvements in these areas can produce an analytic 
system that is much more nimble and responsive than today's to short-
notice requirements from the Department's leadership. The Office of the 
Secretary of Defense and the Joint Staff have agreed on an analytic 
agenda to ensure that these goals are achieved, and I shall be working 
assiduously to ensure that we follow through with that agenda.

                       CONSULTATION WITH CONGRESS

    16. Senator Akaka. Mr. Henry, I was interested to see that, if 
confirmed, you intend to assist the Secretary in enhancing consultation 
with Congress. I welcome your commitment to this goal. Can you describe 
how you might improve upon current levels and means of consultation, 
and what areas you believe are in greatest need of enhancement?
    Mr. Henry. I am committed to working with Congress to further the 
Secretary's agenda. In assuming the role of the Principal Deputy Under 
Secretary of Defense for Policy, I am primarily concerned with 
sharpening the Policy Directorate's focus on legislative issues. I hope 
to ensure that senior policy officials maintain regular contact with 
congressional members and staffs and, equally, that the Under Secretary 
of Defense for Policy and his staff are fully informed of legislative 
issues that affect their accounts. Some means of improving this two-way 
communication are by using legislation as a means of furthering 
important reforms, increasing briefings to congressional staff, 
discussing the value of congressionally required reports and improving 
the timeliness of our response on those reports we are assigned. 
Accordingly, I am creating a position for a Special Assistant for 
Legislative Affairs. This individual would report directly to me and 
would work with the Office of the Assistant Secretary of Defense for 
Legislative Affairs, the Department of Defense Comptroller's Office, 
and other DOD organizations to facilitate the Policy Directorate's 
interactions with Congress.

    17. Senator Akaka. Mr. Henry, can you give us some examples of what 
increased consultation might involve?
    Mr. Henry. By improving the policy organization's awareness of 
legislative issues affecting it, I hope to encourage my staff to 
exploit such consultative mechanisms as briefings to congressional 
staff and responding to congressionally reporting requirements. I will 
create a Special Assistant for Legislative Issues to focus policy's 
legislative efforts.
                                 ______
                                 
    [The nomination reference of Christopher Ryan Henry 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                   January 9, 2003.
    Ordered, that the following nomination be referred to the Committee 
on Armed Services:
    Christopher Ryan Henry, of Virginia, to be Deputy Under Secretary 
of Defense for Policy, vice Stephen A. Cambone, resigned.
                                 ______
                                 
    [The biographical sketch of Christopher Ryan Henry, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]

           Biographical Sketch of Christopher ``Ryan'' Henry

    Ryan Henry currently serves as Science Applications International 
Corporation's (SAIC) Corporate Vice President for Strategic Assessment 
and Development. His professional career spans two wars, 26 years of 
military service, advanced research and development, and policy 
analysis. He served as a business leader, policy analyst, Congressional 
fellow, technology and warfare architect, combat commanding officer and 
experimental test pilot.
    While at SAIC, Ryan worked with the science and technology 
community in developing national security architectures for the 
Information Age and spearheaded many leading-edge technology 
initiatives. He worked with former principals of the U.S. Joint Chiefs 
of Staff to design overarching sensor, communication and  information 
blueprints that offered dominant battlespace awareness  for the High 
Commands of the Nordic nations.
    While a Senior Fellow at the Center for Strategic and International 
Studies (CSIS), Ryan led the information-based warfare initiative and 
served as Director of the ``Conflict in the Digital Age'' project. His 
book and articles address the impact of technology on public policy, 
national security, future conflict, and military operations.
    At DARPA, Ryan coordinated a system of information systems designed 
to support the American warfighter in the 21st century. He also served 
as a Senior Military Fellow with the Senate Appropriations Committee 
(Defense Subcommittee, 104th Congress, 1st session) and Program Manager 
of Special/Classified Programs at DARPA. While on deployment during 
Desert Storm, Ryan commanded the first Sea-Strike squadron to engage in 
combat, personally led their first weapons delivery sortie and 
accumulated 88 other combat missions. His squadron pioneered numerous 
operational capabilities and set an unprecedented number of performance 
records. He has over 5,500 flight hours in 54 different aircraft types 
and 750 carrier landings.
    He graduated with merit from the U.S. Naval Academy and was a top 
graduate at the National Defense University. He has advanced degrees in 
Aeronautical Systems, Systems Management and Public Administration. 
Ryan's military awards include the O'Neill Trophy, Bronze Star with 
Combat ``V'', Meritorious Service Medal (2), Individual Air Medal (3), 
Strike Flight Air Medal (2), and numerous others. He is the proud 
father of Maile (27), Terrence (25), Megan (23) and Terrell (20) and 
husband of Delonnie of McLean, Virginia.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Christopher 
Ryan Henry in connection with his nomination follows:]
                                                  January 21, 2003.
Hon. John Warner, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Principal Deputy Under Secretary of 
Defense for Policy. It supplements Standard Form 278, ``Executive 
Personnel Financial Disclosure Report,'' which has already been 
provided to the committee and which summarizes my financial interests.
    If confirmed by the United States Senate and appointed to the 
position of Principal Deputy Under Secretary of Defense for Policy, I 
will take the following actions to avoid potential conflicts of 
interest or appearances of conflicts of interest:
SAIC
    After confirmation, but not later than my appointment date, I will 
resign my position as Vice President, SAIC and will request full and 
complete payment, if any, to be accomplished within 90 days of 
appointment, for all services I rendered to SAIC prior to my 
appointment. In the interim, I will not participate personally and 
substantially as a Government official in any particular matter having 
a direct and predictable effect on the financial interests of SAIC.
    Within 90 days of my appointment, I agree to take the following 
action with regard to the following employee plans provided by SAIC:

          (1) SAIC Employee Stock Purchase Plan--I agree to divest all 
        stock held in this plan
          (2) SAIC Employee Stock Retirement Plan--I will maintain this 
        interest by rolling over this plan into Vanguard Fund that is 
        managed by Vanguard,
          (3) SAIC CODA Plan--

                  (a) Vanguard U.S. Growth Fund--I will maintain this 
                interest;
                  (b) SAIC Stock Exchangeable--I will rollover all 
                exchangeable stock into Vanguard Fund,
                  (c) SAIC Stock Non-exchangeable--I will forfeit all 
                non-exchangeable stock held in the SAIC CODA Plan.

          (4) SAIC Keystaff Deferral Plan--This is a cash account that 
        I will be required to liquidate. I will take a lump sum 
        payment.
          (5) SAIC Profit Sharing Retirement Plan--This plan is 
        invested in Vanguard Life Strategy Cons. Growth Fund. I will 
        maintain this interest.
          (6) SAIC Direct Stock Ownership Fully Vested Shares and 
        Unvested Shares--I will divest all vested SAIC stock and 
        forfeit all unvested shares in this plan.
          (7) SAIC Options Outstanding Fully Vested Options and SAIC 
        Option Outstanding Unvested Options--I will exercise and then 
        divest of all vested options and I will forfeit all unvested 
        options in this plan.

    As defined by Sec. 2635.502(b)(1) of title 5 of the Code of Federal 
Regulations, I will have a ``covered relationship'' with SAIC. 
Therefore, where circumstances would cause a reasonable person with 
knowledge of the relevant facts to question my impartiality in a 
particular matter involving this specific party or persons represented 
by this party, I will--not, for a period of 1 year from the date of my 
resignation, participate in such particular matters, unless in 
accordance with section 2635.502(d), it is determined that my 
participation in a particular matter outweighs the concern over an 
appearance of a loss of impartiality.
    During my term of office, neither I nor any member of my immediate 
family will invest in any organization identified as a DOD contractor 
or any other entity that would create a conflict of interest with my 
Government duties.
    I do not have any present employment arrangements with any entity 
other than the Department of Defense and have no formal or informal 
understandings concerning any further employment with any entity. If 
confirmed, I am committed to serve in this position at the pleasure of 
the President throughout his term of office.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation. 
    I am a member of certain organizations and professional societies, 
which are either listed below or have been previously provided to the 
committee. None of these should pose any conflict of interest with 
regard to my governmental responsibilities. I trust that the foregoing 
information will be satisfactory to the committee. 
            Sincerely,  
                                            Christopher Ryan Henry.
                                 ______
                                 
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Christopher Ryan Henry.

    2. Position to which nominated:
    Principal Deputy Under Secretary of Defense (Policy).

    3. Date of nomination:
    9 January 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    11 May 1950; Pasadena, CA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Delonnie (NMN) Avery Henry.

    7. Names and ages of children:
    Maile (NMN) Henry Reid; 27; daughter.
    Terrence Ryan Henry; 25; son.
    Megan (NMN) Henry Rich; 23; daughter.
    Terrell Ryan Henry; 20; son.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.

------------------------------------------------------------------------
                 School                      Dates           Degree
------------------------------------------------------------------------
Punahou School (Honolulu, HI)...........    1966-1968          HS (1968)
U.S. Naval Academy (Annapolis, MD)......    1968-1972          BS (1972)
University of West Florida (Pensacola,      1973-1973          MS (1974)
 FL)....................................
U.S. Navy Test Pilot School (Patuxent       1979-1980
 River, MD).............................
University of Southern California (off-     1975-1982          MS (1982)
 campus)................................
National Defense University (Washington,    1991-1992
 DC)....................................
University of Southern California (DC       1992-1997     MPA (2003) \1\
 campus)................................
------------------------------------------------------------------------
\1\ Degree currently in processing process due to clerical error.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.

----------------------------------------------------------------------------------------------------------------
             Job Description                       Employer                    Location                Dates
----------------------------------------------------------------------------------------------------------------
Corporate Technology Development SAIC...  SAIC......................  La Jolla, CA..............       2002-2003
Group Technology Development............  SAIC......................  Arlington, VA.............       1997-2002
Senior Fellow...........................  CSIS......................  Washington, DC............       1996-1997
Navy Captain/Special Programs Mgr.......  DARPA.....................  Arlington, VA.............       1992-1996
----------------------------------------------------------------------------------------------------------------


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Naval Officer/Pilot 1968-1996

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    SAIC-Corporate Vice President.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Church of Jesus Christ of Latter-Day-Saints (Mormon).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    SAIC Political Action Committee--$600 per year.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Military Medals--(personal, not unit) Bronze Star, Air Medal (3), 
Combat Action, Meritorious Service, Navy Commendation (3), Navy 
Achievement (2).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Co-editor of book: The Information Revolution and International 
Security (CSIS Press, 1998).
    Co-authored articles:

          ``Military Theory and Information Warfare,'' Parameters, 
        Autumn 1998, pp. 121-35.
          ``Assessing `Byte City': An Insightful or Misleading 
        Vision?'' The Washington Quarterly, Volume 20, Number 2, Spring 
        1997, pp. 73-78.
          Co-authored op-ed column: ``Our Exposure to Digital-age 
        Terrorism,'' The San Diego Union Tribune, August 23, 1998.

    Co-authored several other op-ed columns between 1996 and 1997 in 
Washington Times, San Diego Union Tribune, and Seattle Post-
Intelligencer, but I no longer have access to the titles or exact dates 
of those columns.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    None.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                            Christopher Ryan Henry.
    This 21st day of January, 2003.

                                 ______
                                 
    [The nomination of Christopher Ryan Henry was reported to 
the Senate by Chairman Warner on January 30, 2003, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on February 4, 2003.]


NOMINATIONS OF HON. STEPHEN A. CAMBONE TO BE UNDER SECRETARY OF DEFENSE 
FOR INTELLIGENCE; JOHN PAUL WOODLEY, JR., TO BE ASSISTANT SECRETARY OF 
 THE ARMY FOR CIVIL WORKS; AND AMBASSADOR LINTON F. BROOKS TO BE UNDER 
SECRETARY FOR NUCLEAR SECURITY AND ADMINISTRATOR FOR NUCLEAR SECURITY, 
     NATIONAL NUCLEAR SECURITY ADMINISTRATION, DEPARTMENT OF ENERGY

                              ----------                              


                      THURSDAY, FEBRUARY 27, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, Allard, 
Collins, Levin, E. Benjamin Nelson, and Clinton.
    Other Senators present: Senator George Allen.
    Committee staff members present: Judith A. Ansley, staff 
director; Gabriella Eisen, nominations clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Brian 
R. Green, professional staff member; Carolyn M. Hanna, 
professional staff member; Mary Alice A. Hayward, professional 
staff member; Patricia L. Lewis, professional staff member; Ann 
M. Mittermeyer, counsel; Scott W. Stucky, general counsel; and 
Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Madelyn R. Creedon, minority counsel; Kenneth M. 
Crosswait, professional staff member; and Creighton Greene, 
professional staff member.
    Staff assistants present: Michael N. Berger, Leah C. 
Brewer, Jennifer Key, and Sara R. Mareno.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; Douglas Flanders, Lance Landry, 
and Jayson Roehl, assistants to Senator Allard; James P. 
Dohoney, Jr., assistant to Senator Collins; Aleix Jarvis, 
assistant to Senator Graham; Henry J. Steenstra, assistant to 
Senator Dole; Aaron Scholer, assistant to Senator Lieberman; 
William K. Sutey, assistant to Senator Bill Nelson; Eric 
Pierce, assistant to Senator Ben Nelson; Andrew Shapiro, 
assistant to Senator Clinton; and Terri Glaze and Walter Pryor, 
assistants to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee meets this morning to 
consider three very important nominations. Dr. Stephen A. 
Cambone has been nominated by the President of the United 
States to serve in the newly created position of Under 
Secretary of Defense for Intelligence. Mr. John Paul Woodley, 
Jr., has been nominated by the President of the United States 
to fill the position of Assistant Secretary of the Army for 
Civil Works. Ambassador Linton F. Brooks has been nominated by 
the President of the United States to serve in the position of 
Administrator of the National Nuclear Security Administration 
and Under Secretary for Nuclear Security at the Department of 
Energy.
    We welcome all of the nominees, and particularly families 
and the younger members of the family who decided either on 
their own or by persuasion to attend today. Thank you for 
coming.
    I remember so well coming before this committee so many 
years ago that most of you were not on planet Earth----
[Laughter.]
    --for my nomination proceeding to be in the Department of 
Defense. I still have a yellowed piece of paper that was 
printed up by the Senate recording the events of that day, and 
hopefully we will have one to record these proceedings and to 
reflect on the importance of your service to the country, and 
the support that you get from your families to perform that 
service.
    I am going to omit going into a lot of material here, Mr. 
Levin, which we will put in the record, but it recites the 
distinct careers that each of these gentlemen have had. I will 
defer to you now, Senator Levin, and then we will recognize our 
colleague, Senator Allen.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    The committee meets this morning to consider three very important 
nominations. Dr. Stephen A. Cambone has been nominated by the President 
to serve in the newly-created position of Under Secretary of Defense 
for Intelligence; John Paul Woodley, Jr., has been nominated to fill 
the position of Assistant Secretary of the Army for Civil Works; and 
Ambassador Linton F. Brooks has been nominated to serve in the position 
of Administrator of the National Nuclear Security Administration and 
Under Secretary for Nuclear Security of the Department of Energy. We 
welcome the nominees and their families.
    Family support is critical to the success of individuals in senior 
positions in our government, and we appreciate the support and 
sacrifices of the families of these distinguished nominees.
    I had the opportunity to meet with all of our nominees earlier this 
week. I congratulate each of you on your impressive accomplishments and 
your nomination by the President to these important positions.
    Dr. Cambone, since your previous appearance before this committee 
on June 27, 2001, and your subsequent Senate confirmation for the 
position of Deputy Under Secretary of Defense for Policy, the world has 
changed dramatically. You have been a key advisor to the Secretary of 
Defense, and instrumental in his determined effort to transform the 
Department of Defense and the U.S. military to meet current and future 
threats.
    Your appointment in July 2002 as Director, Program Analysis and 
Evaluation, clearly reflects the trust that Secretary Rumsfeld places 
in you and the breadth of your knowledge and ability.
    Your resume of achievements and positions held prior to returning 
to the Department is impressive by any measure. Our Nation is fortunate 
to have someone of your caliber willing to serve in this challenging 
new position of Under Secretary of Defense for Intelligence, a position 
that clearly reflects the growing importance of intelligence to our 
military operations, and the vital need for total cooperation between 
the military and our Nation's Intelligence Community.
    Mr. Woodley has had a distinguished career in law and public 
service, and presently is serving as Assistant Deputy Under Secretary 
of Defense for the Environment. Prior to his appointment to this 
position in October 2001, Mr. Woodley served the Commonwealth of 
Virginia as Secretary of Natural Resources from January 1998 until 
October 2001, and prior to that as Deputy Attorney General of Virginia 
for Government Operations. Mr. Woodley is a Lieutenant Colonel in the 
Army Reserve and served on active duty with the Army JAG Corps from 
1979 until 1985 in Germany and the Pentagon. Mr. Woodley, you are well 
known in the Commonwealth of Virginia. I am pleased to have you before 
the committee.
    Ambassador Brooks previously appeared before the committee on 
October 11, 2001, for his nomination hearing for the position of Deputy 
Administrator for Defense Nuclear Nonproliferation of the National 
Nuclear Security Administration. On July 9, 2002, the President 
appointed him as Acting Administrator for this vitally important 
agency.
    Ambassador Brooks has had an extensive and distinguished career in 
government service. He served as the Assistant Director for Strategic 
and Nuclear Affairs at the United States Arms Control and Disarmament 
Agency, and in the State Department as Head of the United States 
Delegation on Nuclear and Space Talks and Chief Strategic Arms 
Reductions (START) Negotiator. Prior to that he served as Deputy Head 
for the Delegation, holding the rank of Ambassador. Ambassador Brooks' 
many accomplishments were built upon a foundation of a distinguished 
30-year Navy career. He commanded the nuclear-powered attack submarine 
U.S.S. Whale (SSN 638), and served at sea in destroyers, ballistic 
missile submarines, and attack submarines, retiring with the rank of 
captain. 
    The committee has asked our witnesses to answer a series of advance 
policy questions. They have responded to those questions and our 
standard questionnaire. Without objection, those responses will be made 
a part of the record.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me very briefly 
join you in welcoming our nominees and their families. They are 
well-qualified for the positions to which they have been 
nominated. I join you, Mr. Chairman, in thanking their families 
for their commitment and service in standing behind these 
nominees. There will be many times when they will not get home 
in the evenings because of their work, and it is the families 
that understand that kind of commitment to country, which your 
loved ones are committed to, and we thank you for that. If they 
do not get home too many evenings, it probably means that we 
have been giving them too big a load, or that the Senate is in 
the middle of a filibuster, one or the other.
    But I join you, Mr. Chairman, in welcoming our nominees. 
Senator Allen, I understand, will be introducing one of our 
nominees. It is always great to see you here, Senator Allen.
    Chairman Warner. In the course of that, either you, Senator 
Allen, or Mr. Woodley, introduce the members of your family--
each of you kindly introduce the members of your family.
    But reflecting on the sage observation of my very able and 
good friend here, we have been together 25 years, side by side 
here on this committee. While I have always admonished the 
members of the Department of Defense--and I think the 
Department of Energy is pretty much the same, all those 
decisions made after about 7 o'clock at night are changed the 
next morning, so go on home. [Laughter.]
    Families, get them home. It is the way it worked when I was 
there.
    Senator Levin. Now, if we apply that to the Senate, we 
would have been out of here last night at 7 o'clock instead of 
2 o'clock in the morning. [Laughter.]
    Chairman Warner. Senator Allen, your youthfulness and your 
bright face is shining as if nothing occurred last night.
    Senator Allen. Well, that is probably a pretty good 
description of what happened last night. [Laughter.]
    But thank you, Mr. Chairman, Senator Warner, Senator Levin, 
for at least bringing a smile to a lot of tired faces around 
here this morning. Thank you for holding this hearing.
    Chairman Warner. Though I think in fairness to our 
leadership, we would have to say that it was a matter of 
principle felt strongly by both sides and manifested our 
Constitutional responsibilities.
    Senator Allen. That is right. We will keep fighting.
    Senator Levin. Amen.
    Chairman Warner. Amen.
    Senator Allen. Amen. [Laughter.]
    You do not know what you came into here, John Paul. 
[Laughter.]

STATEMENT OF HON. GEORGE ALLEN, U.S. SENATOR FROM THE STATE OF 
                            VIRGINIA

    Senator Allen. I am here, Mr. Chairman, Senator Levin, and 
members of the committee, to present an individual who I know 
very well. John Paul Woodley is a close friend. He is an 
outstanding Virginian, and I think in listening to the opening 
remarks, you will recognize he is an outstanding choice of the 
President in his nomination to be Assistant Secretary of the 
Army for Civil Works.
    I have known and worked with John Paul Woodley for decades. 
I have known him, and I will get into that, and I recommend him 
to this committee with my highest recommendation and without 
any reservation whatsoever.
    His background as you go through it superbly qualifies him 
for this position. You know the responsibilities of it. He 
presently is serving as Assistant Deputy Under Secretary of 
Defense, making him a principal advisor for all environmental, 
safety, and occupational health policies and programs in the 
Department of Defense.
    Prior to his current position, Mr. Woodley served as 
Cabinet Secretary for Governor Gilmore in Virginia, as 
Secretary of Natural Resources.
    I am proud to say that when I was governor, he was serving 
in the Attorney General's office, particularly focusing on 
government operations. Believe me, while he served in the 
Attorney General's office, he served all the people of the 
Commonwealth of Virginia in the government operations aspect. 
There was much controversy from time to time. You needed 
steady, trusted, expert, legal advice on how to do things 
properly.
    He is also an Army officer with 22 years of active and 
Reserve service. He served in active duty in the U.S. Army 
Judge Advocate General's Corps from 1979 to 1985. Mr. Woodley 
holds the rank of lieutenant colonel in the Army Reserve, and 
has been awarded the Army Achievement Medal, the Army 
Commendation Medal, and the Meritorious Service Award.
    He also practiced law prior to serving in the Attorney 
General's office in Richmond. I will say that people regardless 
of background, party, partisan affiliation all look at him as 
very steady, considerate, and knowledgeable in all of his 
examinations of the law and in the different approaches one 
would take. I know he will just do an outstanding job for the 
people of this country.
    He is joined by his family here, his wife Priscilla, his 
daughters, Elizabeth and Cornelia----
    Chairman Warner. I wonder if they might stand as Senator 
Allen introduces them.
    Senator Allen. Priscilla and Elizabeth and Cornelia and 
John Paul, and his father-in-law, Colonel Ingersoll, is here as 
well. It is great to have you all here.
    Chairman Warner. The colonel is from the class of 1944 at 
West Point, and then he went into the Army Air Corps and 
achieved goals which I would have liked to have achieved, but 
never did, and probably never could. Thank you, sir.
    Senator Allen. Thank you all. Thank you.
    So he is backed by a wonderful family, and I can think of 
very few public servants that do have such an outstanding 
record of service and commitment to the people he is serving. 
He is a trusted team player. He will leverage his experience 
with environmental issues to make the U.S. Army Civil Works 
program highly regarded in the preservation and the restoration 
of America's natural resources.
    So, Mr. Chairman and members of the committee, it is my 
pleasure to introduce to you all this exceptional nominee this 
morning. I recommend him to you and, as swiftly as possible, 
recommend his confirmation.
    Chairman Warner. Thank you, Senator Allen.
    Senator Allen. Thank you, Mr. Chairman.
    Chairman Warner. I would like to associate myself with your 
remarks and say how proud we are from the Commonwealth of 
Virginia for the many years of public service of this 
distinguished gentleman and his family. We shall proceed, 
hopefully, with that swiftness.
    Senator Allen. Thank you, Mr. Chairman. If I may take 
leave, I have to get to the Commerce Committee.
    Chairman Warner. The senior Senator grants the junior 
Senator leave of absence.
    Senator Allen. All right, sir. [Laughter.]
    Thank you.
    Chairman Warner. Thank you very much.
    I am going to ask of our nominees now the standard 
questions propounded by the chair of this committee over many 
years to each of the nominees that come before us.
    The committee has asked our witnesses to answer a series of 
advance policy questions. They have responded to those 
questions in our standard questionnaire. Without objection, 
these responses will be made a part of today's record.
    But before we hear from our witnesses, I have several 
questions to ask of each. First, have you adhered to applicable 
laws and regulations governing conflicts of interest?
    Ambassador Brooks. Yes, sir.
    Dr. Cambone. Yes, sir.
    Mr. Woodley. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Ambassador Brooks. I have not, sir, but I have been acting 
in the position at the President's direction, and have taken 
the decisions necessary in that status.
    Mr. Woodley. No, sir.
    Dr. Cambone. No, sir.
    Chairman Warner. Will you ensure that in the event of 
confirmation your staff complies with deadlines established for 
requested communications, including prepared testimony and 
questions for the record in the hearings before this committee?
    Ambassador Brooks. Yes, sir.
    Mr. Woodley. Yes, sir.
    Dr. Cambone. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Ambassador Brooks. Yes, sir.
    Dr. Cambone. Yes, sir.
    Mr. Woodley. Yes, sir.
    Chairman Warner. Will those witnesses be protected--and I 
repeat--be protected from reprisal for their testimony or 
briefings?
    Ambassador Brooks. Yes, sir.
    Dr. Cambone. Yes, sir.
    Mr. Woodley. Yes, sir.
    Chairman Warner. All right. Thank you. Now, why don't we 
just start left to right? Ambassador Brooks, please make such 
opening remarks as you desire. I understand that members of 
your family were not able to join you today.
    Ambassador Brooks. No, sir. But in everything I do, the 
members of my family are with me.

 STATEMENT OF AMBASSADOR LINTON F. BROOKS TO BE ADMINISTRATOR 
FOR NUCLEAR SECURITY, NATIONAL NUCLEAR SECURITY ADMINISTRATION, 
 AND UNDER SECRETARY FOR NUCLEAR SECURITY, DEPARTMENT OF ENERGY

    Ambassador Brooks. Mr. Chairman, Senator Levin, members of 
the committee, I want to thank you for the opportunity to 
appear today, but more for the strong support this committee 
has always given our nuclear weapons program.
    I am honored by the confidence President Bush has placed in 
me in nominating me to lead the National Nuclear Security 
Administration. Over the last 16 months, I have had the 
opportunity to work closely with this committee as Deputy 
Administrator for Nonproliferation, and if confirmed, I look 
forward to continuing that association as administrator.
    I want to take a few moments to review my background and 
how that background will shape my approach to my 
responsibilities, if confirmed.
    I have over four decades of experience in national 
security, much of it associated with nuclear weapons. I have 
carried weapons on several ships. I have studied their 
technology, and I have examined their effects. From this, I 
have learned that their immense power demands immense care. 
Thus the first conclusion I have reached as I consider my 
potential new responsibilities is the utter importance of 
safety, security, and reliability. If I am confirmed, 
maintaining a safe, secure, and reliable nuclear stockpile will 
be my highest priority.
    I have also had the opportunity to serve in nuclear policy 
positions in the White House, the State Department, the Navy, 
and the Office of the Secretary of Defense. I have been 
thinking and writing about nuclear matters for decades and that 
has convinced me, as the President has made clear, that nuclear 
weapons will remain a crucial component of American power 
throughout our lifetime.
    Thus, a second conclusion I have reached is that we must 
plan for the long-term. This means paying attention to 
infrastructure, to attracting and retaining excellent people, 
to understanding the fundamental science that underlies nuclear 
weapons, and to extending the lifetime of the stockpile. If I 
am confirmed, these will also be priorities.
    Like everybody with experience in national security, I have 
always understood that physical security matters, but the 
events of September 2001 drove that home in a horrifying way. 
Along with many people in this room, I lost friends and 
colleagues at the Pentagon.
    But it could have been worse; it could have been nuclear. 
Therefore, if confirmed, I will place priority on implementing 
the agenda of the President and of Secretary of Energy Abraham 
to improve the protection of highly-enriched uranium and 
plutonium worldwide. I will place a priority on maintaining 
effective security throughout the National Nuclear Security 
Administration facilities in the face of what is almost 
certainly a permanent transformation of a threat.
    If the Senate confirms me, this will be my fourth 
opportunity to serve in a confirmed position. My experience 
with such positions is it is very easy to be consumed by the 
urgency of the in-basket, and it is very difficult to think 
about the future.
    Thus another conclusion is the importance of consulting 
widely, including with Members of Congress, to ensure that I am 
doing my utmost to ensure long-term security and the long-term 
health of the nuclear weapons complex. Finally, from every job 
I have ever had, I have learned that people are what matter. My 
final conclusion, therefore, is that if I am confirmed, I 
should spend a great deal of time taking care of people.
    In the near-term, this means making sure that the 
reorganization we announced in December 2002 is implemented in 
a way that gains the benefits of increased effectiveness while 
ensuring fair and equitable treatment for individuals.
    In the longer-term, it means sustaining a challenging and 
rewarding working environment in order to retain and recruit 
the kind of people that the nuclear weapons complex deserves.
    In taking on the duties of Administrator of the National 
Nuclear Security Administration, I am conscious that I am 
assuming a great responsibility. I believe I am also being 
given a great privilege. Not everybody gets a chance to make a 
difference. Not everybody gets the chance to work to make the 
world safer and the country more secure. Not everybody gets the 
chance to use exciting technology for important national ends. 
But the men and women of the National Nuclear Security 
Administration do that every day.
    If the Senate confirms me, I will do my utmost to ensure 
that both they and I meet our responsibilities. Thank you for 
your attention, and I look forward to your questions.
    Chairman Warner. Thank you.
    Dr. Cambone.

 STATEMENT OF HON. STEPHEN A. CAMBONE TO BE UNDER SECRETARY OF 
                    DEFENSE FOR INTELLIGENCE

    Dr. Cambone. Thank you, Mr. Chairman, members of the 
committee. I would like to introduce the family that is here 
with me. If I may, I would like to start with my sister 
Catherine Brown, her husband Steve, and their daughters, Katie 
and Megan Brown. I would also like to introduce my wife 
Margaret, who is behind me here and my daughter Maria, who sits 
immediately behind me.
    Mr. Chairman, members of the committee, it is an honor to 
appear before you as the President's nominee for the position 
of Under Secretary of Defense for Intelligence. I am grateful 
to the President for his consideration in placing my name 
before you as the nominee for this new office within the 
Department of Defense.
    I would also like to thank you, Mr. Chairman, Senator 
Levin, and the members of this committee for your support in 
the creation of this new office.
    Mr. Chairman, we are a nation at war. It is a war different 
in kind than any other in which our great Nation has engaged. 
It is likely to persist for some time, but it is one that we 
will win.
    Now, experience thus far in that war has taught us 
important lessons. One lesson which it seems we must learn anew 
with each passing generation is that we will be surprised. As 
the Secretary of Defense has remarked, ``The only thing that 
should surprise us any longer is that anyone is surprised that 
we are surprised.''
    This truism is reflected in the President's request for the 
creation of the Office of the Under Secretary for Intelligence. 
If we know surprises await us, it is important that we do all 
in our power to avert them, knowing we will not be completely 
successful and preparing to mitigate their consequences when 
those surprises do occur.
    For the Department of Defense, this is a particularly 
pressing task. The men and women, civilian and military, of the 
Department have volunteered to defend the freedom of the 
American people at the risk of their own lives.
    The Secretary of Defense believes that the Department owes 
it to them to have a senior official report to the Pentagon 
each morning with only one task in mind, to ensure that they, 
the men and women of the Department, have the intelligence and 
intelligence-related support they need to avert those 
surprises, to be prepared if they do occur, and to move swiftly 
to respond when called upon to do so by the President.
    That is the task, Mr. Chairman, of the Under Secretary of 
Defense for Intelligence. To that end, if I am confirmed, I 
will ensure that the components within the Department are, to 
quote Title 10 of the U.S. Code, manned, trained, equipped, and 
I might add organized, for this era of surprise.
    The Under Secretary of Defense for Intelligence will also 
ensure that the men and women of the Department have timely 
access to the intelligence resident within the Intelligence 
Community that can help them to: develop and acquire the weapon 
systems that will sustain our military advantages over 
potential adversaries; develop and implement defense strategies 
and policies that will permit the Nation to adjust in a timely 
fashion the posture and structure of our forces, the doctrine 
of those forces, their deployment and employment; conduct 
military operations by pitting our strengths against an 
adversary's weaknesses and protecting ourselves against his 
strengths--an especially difficult challenge against 
adversaries that are not state actors, and then finally to 
assist them in protecting on a day-to-day basis our people, 
facilities, networks, and information from assault by foreign 
and hostile espionage services.
    Mr. Chairman, it is worth taking a moment to note that 
which is not the task of this Under Secretary. It is not his 
task to manage the collection, analysis, and dissemination of 
intelligence. The Intelligence Community and its head, the 
Director of Central Intelligence, are responsible for that 
task.
    Mr. Chairman, if confirmed, I am committed to working 
closely with the senior leadership of the Department of 
Defense, the directors of the intelligence components within 
the Department, the Director of Central Intelligence, this 
committee, and other interested committees of Congress in 
executing the tasks that await the Under Secretary.
    Mr. Chairman and members of the committee, let me thank you 
again for your consideration. I am ready to answer any 
questions you may have of me.
    Chairman Warner. Thank you very much, Dr. Cambone.
    Mr. Woodley.

STATEMENT OF JOHN PAUL WOODLEY, JR., TO BE ASSISTANT SECRETARY 
                  OF THE ARMY FOR CIVIL WORKS

    Mr. Woodley. Mr. Chairman, members of the committee, I want 
first to express and acknowledge my deep gratitude to Senator 
Allen for his words which are more kind than any public servant 
could possibly in truth deserve, but I hope you will take them 
at face value.
    I also appreciate your kindness in acknowledging my family 
members who have come to be with us on this important occasion.
    I, too, am mindful of the confidence expressed in me by 
President Bush and Secretary Rumsfeld in submitting my name in 
nomination for this important post with the Department of the 
Army.
    The Army Corps of Engineers and its civil works function 
encompassing navigation, flood control, water resource 
development, and environmental improvement, has for 200 years 
contributed greatly to the prosperity and well-being of our 
Nation.
    Mr. Chairman, in the committee's written questions and in 
the course of my visits with many of you during the past few 
weeks, the issue of the organization of the Corps of Engineers 
and whether some of its missions and functions should be 
privatized or shifted to other agencies of government has been 
very prominent, so I think it would be appropriate for me to 
make clear at the outset of this hearing what my views are on 
the matter.
    In Section 109 of the Omnibus Appropriations Act for 2003, 
Congress has spoken with extraordinary clearness and directness 
on this question. That section directs that the transfer of the 
Corps of Engineers' missions and functions should not be 
implemented or even studied without further direction by 
Congress.
    I do not have any plans or intentions that are inconsistent 
with Section 109. If, in the future, I have ideas to improve 
the operation of the Corps of Engineers' civil works function, 
the Secretary of Defense has been clear on the need and 
importance of consulting with Congress as an important first 
step with respect to any such idea. I promise you full and open 
communication and consultation.
    I deeply appreciate the courtesy of the committee. If 
confirmed, I look forward to working with the Chairman and all 
members to address the vital navigation, flood control, water 
resource, and environmental challenges of the Nation. Thank 
you. I would also like to respond to questions.
    Chairman Warner. Thank you very much.
    I am going to defer my question period, Senator Levin, to 
our distinguished colleague from Maine who, as the Chair of the 
Committee on Governmental Affairs, has to undergo other duties 
shortly.
    Senator Collins. Thank you very much, Mr. Chairman. I do 
very much appreciate your courtesy this morning. I do have to 
chair a nomination hearing in the Committee on Governmental 
Affairs, but I did have a couple of issues that I wanted to 
raise. So thank you so much.
    Mr. Woodley, first of all, congratulations on your 
nomination. I think we are very fortunate to have someone with 
your background willing to serve in this important capacity. 
With an annual budget of approximately $5 billion, the civil 
works projects of the Army Corps of Engineers not only have 
important implications for the environment, but they are also 
vital to the well-being and the safety of many of the 
communities across our Nation.
    I would like to direct your attention today to one such 
community located in my home State of Maine, and I know my 
staff has had some discussions with you about this.
    Perhaps more than any other community in the Nation, the 
safety and well-being of the people of Camp Ellis in Saco, 
Maine, depend on successful action by the Army Corps of 
Engineers. Unfortunately, it is also precisely because of the 
Army Corps that the safety and well-being of the residents in 
this area are in jeopardy.
    Let me give you a little bit of background about this. Over 
a century ago, the Army Corps built a jetty which extends out 
into the Saco River adjacent to Camp Ellis Beach. It has long 
been known by the residents of this area and was recently 
confirmed by the Army Corps' own study, that this jetty has 
altered the patterns of currents and sand deposition, and it is 
the primary cause of what is truly devastating erosion in this 
area that has been shown to have been caused by this jetty 
constructed by the Army Corps over 100 years ago.
    I want to give you some idea of the extent of the erosion. 
We have made a poster which we have given you a smaller copy of 
to demonstrate it, but more than 30 houses have been washed 
into the sea during the last 100 years. The 1998 shoreline is 
400 feet from where the shoreline stood in 1908.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The houses that are now in danger were once six rows back 
from the shore. I have toured this area and I have walked out 
to the end of the jetty and it is an incredible sensation to 
look out at these blue waters and realize that once that was 
the site of roads, of houses, of city blocks, even of a 
railroad track.
    Now, recently the problem has taken on an even more dire 
aspect. The beach and the dunes have retreated further and the 
sea is advancing to such an extent that there is a distinct 
possibility if there were a large storm that it would breach 
the peninsula and Camp Ellis would turn into an island. That is 
how devastating this situation is.
    I apologize to my colleagues for taking so much time on 
what is a parochial issue, but----
    Chairman Warner. I acknowledge the Chair is fascinated.
    Senator Collins. Good. [Laughter.]
    Chairman Warner. I am saying to myself: Where was Margaret 
Chase Smith? Where was Edmund Muskie? Where was William Cohen 
on this issue? [Laughter.]
    Senator Collins. Exactly. Well, I am coming to the rescue 
now----
    Chairman Warner. That is quite clear.
    Senator Collins.--I hope, with the help of our nominee.
    Chairman Warner. Quite clear.
    Senator Collins. But the Corps has recognized the extent of 
the erosion. The Corps has recognized it is a direct result of 
this jetty, and the Corps has undertaken steps to mediate the 
problem as a Section 111 project.
    Now, the Senate has provided $350,000 in fiscal year 2002 
for a study, an additional $1.2 million for fiscal year 2003 to 
start construction. But unfortunately, the Corps has discovered 
a flaw in its design, and it has now gone back to the drawing 
board. It has raised questions about whether it can even 
undertake the project.
    So today I have two requests of you. The first is I want to 
invite you, and you can bring your whole family, we will give 
them lobster.
    Chairman Warner. Can I come? [Laughter.]
    Senator Collins. You can come too, Mr. Chairman, and the 
ranking member can come.
    I want to invite you to come tour this area, because until 
you see it with your own eyes and see the devastation that has 
occurred and see where houses once stood, and now the sea has 
taken them, it is really difficult to imagine just how serious 
this erosion is. So I think if you saw it with your own eyes 
that it would be helpful.
    Second, I would ask you to work with me and State and local 
officials to solve this problem once and for all. The people 
locally are very discouraged, because they thought they had an 
agreement with the Corps to solve this problem, and now we seem 
to be back to square one.
    So I am not asking you to commit to a solution today, but I 
am asking you to commit to helping us find a solution. I thank 
the indulgence of the other committee members.
    Mr. Woodley, could you respond?
    Mr. Woodley. Yes, Senator, and thank you very much. I will 
say that I think it is very important for government officials, 
whether State or Federal, who are responsible for natural 
resource management issues and policy to travel to these places 
and see the land.
    I was very proud as Secretary of Natural Resources where I 
had oversight for our State parks that I was the first 
Secretary of Natural Resources in Virginia to actually visit 
each of our State parks, and we have some 35 in our system. It 
took me a lot longer than I thought it would to actually get to 
all of them. But it is critically important as you say to go 
and see the ground and understand--and speak to the local 
officials and understand the issue.
    If confirmed, that would certainly be a part of my policy, 
and a trip to Maine would be a very important part of that 
endeavor.
    Senator Collins. Thank you, Mr. Chairman. Mr. Chairman, I 
do have some questions for the other witnesses, but I will 
submit them for the record. I appreciate the indulgence of the 
Chair. Thank you.
    Chairman Warner. We thank our distinguished colleague very 
much. It was quite an illuminating bit of history.
    Senator Levin. I think Senator Collins has made quite a 
dramatic presentation. I think we would all be interested in 
your response to that problem as an indicator of how you are 
going to respond to these kinds of important local issues. This 
is more than a local issue obviously, since it involves a 
national shoreline as well.
    Mr. Woodley, let me start with you. There was a National 
Academy of Sciences' recommendation that there be an 
independent review of large-scale civil works projects proposed 
by the Army Corps of Engineers, and the budget of the President 
for the last 2 years has expressed support for that approach.
    Will you commit, if confirmed, to ensure that independent 
reviews are conducted for large-scale civil works projects 
proposed by the Army Corps of Engineers?
    Mr. Woodley. Yes, sir, I will.
    Senator Levin. The Army Inspector General in November 2000 
found that three Army Corps of Engineers officials had 
manipulated data in a cost-benefit analysis in order to justify 
a $1 billion project. Will you personally commit, if confirmed, 
that you will work to ensure the integrity of the analyses 
conducted by the Corps?
    Mr. Woodley. Yes, sir, I will.
    Senator Levin. Will you personally commit, if confirmed, to 
comply with the letter and spirit of the Whistleblower 
Protection Act, ensuring that professionals at all levels 
within the Corps of Engineers are encouraged to do their jobs 
to the best of their capacity without fear of retaliation or 
harassment because their conclusions may not be what the 
leadership of the Corps was looking for?
    Mr. Woodley. Yes, sir, I will.
    Senator Levin. Thank you.
    Dr. Cambone, let me talk to you about your new position 
here. Congratulations particularly on your appointment--
congratulations to all three of you, but since you are the 
first, Dr. Cambone, to occupy this office, you get a special 
note here this morning. You are really paving the way, and you 
will set the tone for how that office functions in the future.
    In October 2002, there was a story in the New York Times 
that reported that a four- to five-person intelligence team had 
been established by the Under Secretary of Defense for Policy 
to search for information on Iraq, including its ties to 
terrorist organizations.
    The Deputy Secretary of Defense, Paul Wolfowitz, was quoted 
as describing--here, I am quoting him--at least as quoted by 
the New York Times, ``a phenomenon in intelligence work that 
certain people who are pursuing a certain hypothesis will see 
certain facts that others won't and not see certain facts that 
others will.'' Then Mr. Wolfowitz said, ``The lens through 
which you are looking for facts affects what you look for.''
    Do you believe that different intelligence analysts look 
through different lenses? Will your analysts, your people, look 
through a different lens than the other Intelligence Community 
as a whole?
    Dr. Cambone. Sir, first the office, itself, is not being 
structured to do analysis. That is to be done inside of the 
Defense Intelligence Agency (DIA) and the CIA. It is the work 
that is done by the National Security Agency (NSA) and the 
National Imagery and Mapping Agency (NIMA). What the staff of 
the OUSD/I will do is inquire if there are questions that are 
being raised by the Secretary, or other senior members of the 
Department, about finished intelligence or even some of the 
unfinished, if you will, intelligence that is received.
    If there are differences between and among the Intelligence 
Community analysts, if there are questions that senior DOD 
officials would like to pursue with more vigor, this office 
would facilitate that kind of activity, and press the questions 
with the Intelligence Community as a whole, but it is not 
intended to do the work itself.
    On the question of whether different analysts see different 
problems in different ways, I think the answer to that is: Yes, 
they do. In part it has to do with their area of expertise. The 
photo interpreters at NIMA see things differently than do the 
analysts at NSA.
    The key to the all-source intelligence product that is 
delivered to the Department and other agencies of the 
government is that under the direction of the Director of 
Central Intelligence (DCI), those are all brought together as a 
finished product. But in the end, asking questions about how 
analysts arrived at those conclusions and what the sources of 
the information were, I think, are the kinds of activities that 
the customer ought to engage in because the customer of the 
intelligence really does need to know something about that. 
Those who are doing the analysis for them need to know what 
issues the customers have in the back of their minds, and what 
concerns they may have.
    Senator Levin. People with different functions in the 
intelligence world obviously are looking for information that 
relates to their particular function, but the statement that 
Mr. Wolfowitz made was that the Intelligence Community is 
pursuing one hypothesis which the Defense Department 
intelligence team is not pursuing. What hypothesis is that? 
Give me an example.
    He has not answered my letter I wrote him on November 19. 
He has not responded to my letter, and I am determined the he 
will respond to this letter. But what is the hypothesis that 
that is----
    Dr. Cambone. Yes, sir. I cannot speak for the Deputy, but 
what I can reflect on is the issue of the hypothesis. That is, 
I think, that it is often the case that, depending on the 
question you ask, you tend to pursue a problem with a certain 
set of assumptions that flow from that question and follow the 
material that you have in front of you in light of the 
questions that you have asked.
    The value of having multiple individuals looking at 
information is that many of them will ask a different question. 
They will come to the information with a different question, 
see different patterns, pursue different angles on a thought. 
In the end, that information is brought together again for yet 
another look, to ask ``Have we considered all the angles on 
this question?''
    Senator Levin. I do not think it is a question of different 
individuals looking----
    Dr. Cambone. Yes, sir.
    Senator Levin.--but it is a question of whether the team, 
the function of the intelligence team at the DOD has a 
different function, a different hypothesis----
    Dr. Cambone. Yes.
    Senator Levin.--that is going to be pursued than the 
Intelligence Community as a whole. Let me try to phrase it a 
different way.
    Critics have interpreted the establishment of the new 
position that you have been appointed to as evidence of 
Secretary Rumsfeld's contest with Director Tenet for dominance 
over American intelligence operations. Others have stated that 
Secretary Rumsfeld is creating another Director of Central 
Intelligence for all practical purposes.
    Now, I joined with Senator Warner in the creation of this 
position, so that is not a view which I particularly hold or 
that I hope will prove to be in any way accurate. But what is 
your answer to those critics?
    Dr. Cambone. Yes, sir. That is not the intent behind the 
creation of the office. That is why in the opening remarks I 
took a moment to say what this office is not. It is not an 
office whose purpose is to do the work of or substitute for the 
work of the DCI and the Intelligence Community as a whole.
    To the extent that it will be engaged with the Director of 
Central Intelligence, it will be through the Secretary of 
Defense, who is the one responsible for all intelligence 
matters within the Department.
    It is designed to enable the DCI, in particular, when he 
has needs that can be satisfied by the Department of Defense, 
to enable us to respond with alacrity. There have been 
occasions in the past--I am sorry to say--when that has not 
always been the case. Why? It has been primarily bureaucratic 
in character.
    In the preparation for this hearing, when I sent around the 
answers to the questions that the committee asked me to respond 
to, it was 28 individuals to whom I had to send those questions 
to even get a first level look at the answers. Had I gone 
further, I probably would have been at 50 offices.
    So within the Department of Defense we need to be able to 
streamline our approaches to intelligence. We need to make sure 
that we are able to respond with the timeliness and the 
accuracy that the DCI needs, even as we need to do the same for 
the combatant commanders.
    So the office is meant to be a staff function for the 
Secretary of Defense, much like his other offices within OSD, 
to ensure that he, the Secretary of Defense, is able to execute 
both his Title 10 and, unique to him, his Title 50 
responsibilities under the U.S. Code.
    Senator Levin. Thank you.
    Chairman Warner. Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Dr. Cambone, when I see you, I think quite often that 
things really do work out for the better, even though we go 
through times when we are not too certain of it, and you know 
what I am talking about.
    Dr. Cambone. Thank you very much.
    Senator Inhofe. I can remember--and I have to say that I 
believe I was wrong initially when we were going--I know you 
are not in the program analysis and evaluation (PA&E) business 
anymore, and this has nothing to do with your new position. But 
I do think that when we had to redo this thing, it--with the 
goal of still giving our kids adequate cover by 2008, by giving 
it a capability that they do not have today, and still having 
it work out with the future combat system, using the----
    Dr. Cambone. Yes.
    Senator Inhofe. I think it had a happy ending. I feel good 
about that. I would assume you would agree with that.
    Dr. Cambone. Yes, sir, I do.
    Senator Inhofe. Let me just ask you this question. I have a 
quote from you. You said, ``The single most important action 
will be to rely on and appoint individuals from throughout the 
DOD and Intelligence Community who are highly skilled and 
experienced in intelligence, and in intelligence resource 
management and acquisition, operations, and policy to positions 
of responsibility and authority.''
    Do you think we should have had somebody who has that 
background more than a background of consuming intelligence?
    Dr. Cambone. Consuming--that is a fair question, sir.
    Senator Inhofe. Yes.
    Dr. Cambone. My answer is no. Let me first say why I said 
what I said about those positions. The purpose of the office 
is, as I said, to assist the Secretary in the execution of his 
responsibilities. The Intelligence Community is a broad and 
diverse place. In order, therefore, to get the best advice to 
the Secretary and the other senior management in the 
Department, I thought it was important that we have people who 
are skilled in working within that community, so that is one 
half of the problem is managing.
    The other half, of course, of the problem is leadership. 
Management and leadership are not quite the same.
    I think it is important that the head of each of the Under 
Secretary components in the Department share the kinds of 
objectives for the remaking, the modeling of those activities 
over which they have been given responsibility. So that is one 
reason.
    Second, to go back to this issue of the consumer, the 
consumer plays a very important role in--I think, in the work 
of the intelligence communities. To the extent that the 
consumer is interested, pays attention, follows up on 
questions, and gives credit when it is due, and criticism when 
it is appropriate, that makes both the consumer and the 
producer of the intelligence better. If both are better, then 
we will all be better.
    Senator Inhofe. I think that is an excellent answer, and I 
think you would do an excellent job in this position.
    Mr. Woodley, there is an issue that apparently is not a 
current issue, but it was discussed. That is the proposal to 
divest the Army Corps of Engineers. If that were an issue 
today, what would your feelings be?
    Mr. Woodley. Senator, my feelings on that would be that 
Congress has spoken on that issue in, I believe, it is Section 
109 of the Appropriations Act. I have no views, plans, or 
intentions in any way that are contrary to that provision of 
law.
    Senator Inhofe. Of course, we would, in that section, we 
know it is not going to happen in this fiscal year, but it 
could happen in the future. I was just wondering if you had any 
opinions on that, should it come up.
    Mr. Woodley. No, sir. The only opinion I have with respect 
to that is that that is something that would have to be 
presented to Congress, if it----
    Senator Inhofe. Yes. It does have to come for congressional 
approval.
    Mr. Woodley. If a proposal came forward----
    Senator Inhofe. That is true. Now, one of the things that 
we will be talking about--and it affects not just my State or 
Arkansas and the other States, and that is the 9- versus 12-
foot channel issue. We have already talked about that. I would 
hope that we will be able to stay together on that so we can 
use that capacity and use it very effectively. Do you have any 
thoughts about your 12-foot channel?
    Mr. Woodley. No, sir. That is not an issue that I have 
studied or had any opportunity to develop views on, but I would 
certainly want to consult with you on that as we proceed to 
manage and develop those water resources and navigation.
    Senator Inhofe. Ambassador Brooks, you and I have visited. 
I appreciate very much your giving me your time coming by the 
office.
    I think we have talked about this over the years, our 
concern over the reliability of the stockpile without testing. 
In a recent NPR interview, you mentioned the age of the United 
States plutonium is the oldest that has ever existed and its 
characteristics change with age. What is your comfort level in 
terms of the reliability, and at what point will testing have 
to come into play?
    Ambassador Brooks. I am very comfortable about the 
reliability of the stockpile today. We have a number of 
mechanisms including independent looks by the two national 
laboratories, a body that advises the commander of the U.S. 
Strategic Command, so I am completely comfortable with the 
reliability of the stockpile today.
    The farther you go in the future, the less dogmatic I am 
willing to be. I do not see any specific time when testing is 
likely to be required, but because I cannot be sure, I think it 
is important that we maintain the capability to test, if 
necessary, to either confirm or correct a problem with a 
significant weapon in the stockpile.
    Senator Inhofe. I assume that during your term of service 
in this position that you will readily come and advise us as 
time goes by as to that reliability?
    Ambassador Brooks. Absolutely, sir.
    Senator Inhofe. Fine. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Warner. If I might ask, Senator, that is a key 
exchange of question and reply. But I am not sure, though I 
listened very carefully: Were you referring to the testing that 
will be provided by the stockpile, what we call that system----
    Ambassador Brooks. Stockpile stewardship, sir.
    Chairman Warner.--stewardship, or returning to an actual 
testing?
    Ambassador Brooks. I am referring to the continued 
reliability and how sure we can have it without continually 
testing.
    Chairman Warner. The actual testing?
    Ambassador Brooks. Actual testing.
    Chairman Warner. It is the word ``actual,'' I think that 
should be----
    Ambassador Brooks. Yes, sir.
    Chairman Warner.--put in the record to clarify it exactly.
    Senator Inhofe. Thank you for the clarification.
    Chairman Warner. That was my understanding of this 
important colloquy, but I believed it would be helpful to me 
and maybe others to follow it, to put something in on that.
    Ambassador Brooks. Certainly, Mr. Chairman. In my reply, I 
was using the word ``testing'' to mean underground nuclear 
testing with a nuclear explosion.
    Chairman Warner. Which currently the United States is not 
doing.
    Ambassador Brooks. Which currently we do not do. We do a 
vast amount of testing of components----
    Chairman Warner. Right.
    Ambassador Brooks.--and of systems. That continues, and 
must continue.
    Senator Inhofe. But when this restriction was first placed 
on it, you and I remember----
    Chairman Warner. Oh, yes.
    Senator Inhofe.--questioning, at what point are we taking a 
risk? That is what we are getting at. Thank you very much.
    Chairman Warner. I think that is important. I intend to 
return to this when I start my own questioning. But I want to 
accommodate the members who are coming and going.
    Senator Ben Nelson.
    Senator Ben Nelson. I thank you, Mr. Chairman. Thank you to 
all of you today for being here before us.
    For Dr. Cambone, it is a welcome back.
    Dr. Cambone. Thank you, sir.
    Senator Ben Nelson. I think it is the hope of the committee 
that the position that you have been nominated for will greatly 
improve the intelligence-gathering capabilities of the 
Department and enhance our national security.
    Ambassador Brooks and Mr. Woodley, I apologize for having 
to cancel the planned office calls due to my attendance at 
President Roh's inauguration in South Korea. I appreciate your 
willingness to engage with all of the members of the committee 
on this, on the occasion of your potential positions.
    Ambassador Brooks, 2 years ago when General Gordon 
testified before the Subcommittee on Strategic Forces, I 
inquired about some cuts that the administration's fiscal year 
2002 budget would make to the Department of Energy's 
nonproliferation programs. I was concerned because they were 
cuts of approximately $400 million, and that included the 
Material Protection, Control, and Accounting (MPC&A), our 
accounting program, which improves the physical security at 
Russian nuclear weapons facilities, and that was cut by $31 
million; and the nuclear cities initiative, a program to assist 
the Russian weapon scientists' transition to commercial 
positions, was cut by $20 million.
    Now, having said that, I would like to begin by 
complimenting you and the Department of Energy for requesting a 
30 percent increase now over last year's budget for nuclear 
nonproliferation programs. The fiscal year 2004 budget of $1.3 
billion is the largest in history for these programs. As far as 
I am concerned, it is some of the best money that we can spend 
for the protection of the world, but particularly for the 
protection of our own people.
    My question is with regard to strategic command at Offutt 
Air Force Base in Nebraska. Obviously, it relies heavily on 
NNSA's ability to ensure the safety and reliability of this 
Nation's stockpile. Since 1992, explosive tests have not been 
conducted, which NNSA has stated are not needed at this time 
but, instead, the lengthy and tedious process of disassembly 
and inspection, has been conducted to include refurbishment. 
The development of improved surveillance modeling and 
simulation tools show signs that earlier reliability 
assessments were maybe overly optimistic.
    Given that, is our ability to conduct inspections and 
perform refurbishment in jeopardy at the current funding rate? 
Have we put in enough money to be able to conduct these 
inspections and perform refurbishment at this time?
    Ambassador Brooks. Senator, I believe we have. The budget 
that the President submitted has, in addition to the 
substantial increase in nuclear nonproliferation, a substantial 
increase in the weapons program work as well.
    I think there are several parts to this. One is to continue 
to develop the extremely high-tech tools like the National 
Ignition Facility, the Dual Access Hydro Radiography Facility, 
that will allow us to understand these very complex physical 
phenomenon without nuclear explosions. The second part is to 
improve our modeling capability through the Advanced Simulation 
and Computing Program. Both of those programs are well funded 
and proceeding well.
    Then, as you correctly note, we have a routine surveillance 
program, and that program is not being hampered by funds or by 
anything else. So I do not now believe that there are 
significant reliability issues with the stockpile. I do not now 
see a need to resume underground nuclear testing in the 
immediate future.
    But as I said in response to a question from one of your 
colleagues, I think no one can predict the future with enough 
certainty to know that you will never need that. That is why I 
believe the test readiness at the Nevada test site needs to 
continue to be maintained.
    Senator Ben Nelson. But you think at the present time, 
regardless of what may happen in the future, we are okay?
    Ambassador Brooks. Yes, sir.
    Senator Ben Nelson. All right.
    Ambassador Brooks. There is probably no single issue which 
we devote more intellectual talent to than making sure that the 
statement I just made is true.
    Senator Ben Nelson. Now, if asked to dismantle and 
disassemble warheads to a level of, I think, 1,700 by 2012, do 
you think that the budget is sufficient to handle that, at 
least at the present time?
    Ambassador Brooks. The agreement under the Treaty of Moscow 
refers to deployed nuclear warheads. The disposition of all of 
those, that is whether they will be retained as part of the so-
called Responsive Force, or dismantled, that decision has not 
been made. The approach that we take to dismantlement which 
takes place at our Pantex facility in Amarillo, Texas, is a 
level funding or a level effort approach. So we use 
dismantlement to keep the workforce steady in between life 
extensions.
    If I had a massive requirement by 2012 to do more 
dismantlement, then I think we would need to take a look. It 
might not be a money question. It might actually be----
    Senator Ben Nelson. Capacity to do it.
    Ambassador Brooks.--yes, a capacity question. But our 
approach to dismantlement is to treat it, essentially, as an 
industrial process and do it in an efficient way while giving 
greater priority to the life extension of the active stockpile.
    Senator Ben Nelson. I thank you, Ambassador. My time has 
expired.
    Thank you very much.
    Chairman Warner. Thank you very much, Senator.
    I see Senator Clinton has joined us. Thank you, Senator.
    Senator Clinton. Thank you, Mr. Chairman.
    Mr. Woodley, I understand your nomination will also be 
considered by the Environment and Public Works Committee on 
which I serve. I hope you will forgive me if I focus my 
attention today on the other two nominees. I will look forward 
to having the opportunity to discuss issues with you before the 
EPW Committee.
    Mr. Woodley. Yes, Senator.
    Senator Clinton. Ambassador Brooks, much of the Nation's 
work in counter-terrorism will be, as I understand it, managed 
and funded by the newly established Department of Homeland 
Security (DHS). The Department of Energy and the National 
Nuclear Security Administration have led discussions to 
establish a joint sponsorship agreement with DHS, and they have 
identified five DOE labs that will directly support homeland 
security and have special relationships with the DHS.
    At this time, the list of labs includes Lawrence Livermore, 
Sandia, Los Alamos, Pacific Northwest, and Oak Ridge. After 
several discussions with the principals involved, it appears 
unlikely that this list will include Brookhaven as one of the 
designated key laboratories, even though Brookhaven's 
capabilities are important and relevant to the technology 
development mission of the DHS. I am concerned about this 
refusal to consider Brookhaven as one of the special labs. It 
is clearly a critical facility that is performing an 
extraordinary amount of high level and essential work that I 
believe is directly relevant to the needs of homeland security 
and national security.
    So my question is: What are you doing to ensure that the 
capabilities of all of the DOE labs are brought to bear on 
these problems? What about the role of Brookhaven? Is it 
possible that Brookhaven could now or in the future be included 
as a key DOE laboratory in the area of homeland security?
    Ambassador Brooks. Senator, the precise answer to the last 
part of your question, I am going to have to refer to my 
colleagues at the Department of Homeland Security. But let me 
make a couple of comments about how we got here.
    First of all, I do not want anything that anybody in our 
Department or Homeland Security has done or said to be taken as 
some indictment of Brookhaven. Brookhaven has been supporting 
our nonproliferation programs, my former responsibility, and 
Brookhaven supports our radiological assistance program, which 
is part of our emergency management area. When we began 
discussions with the Department of Homeland Security, we were 
primarily focused on the particular programs that or for which 
responsibility is being transferred.
    Those programs are all of our chemical and biological 
programs, which will be transferred to the new department on 
Monday, and our nuclear smuggling program. In those particular 
programs, Brookhaven has not played a particularly large role. 
So our focus in our initial discussions with the Department of 
Homeland Security has been on the seamless transfer of ongoing 
programs.
    I do not believe that there is any intent to exclude from 
future consideration Brookhaven or the other Department of 
Energy national laboratories. But we are--our initial focus 
was, as I say, on the laboratories which had ongoing programs. 
I will be--and the agreement that we are working on with the 
Department of Homeland Security would not preclude involvement 
of other national laboratories. I will be glad to carry your 
concern specifically to my Homeland Security colleagues.
    Senator Clinton. I really appreciate that, Ambassador. In 
part I do because I think potential for radiological attacks is 
as important and maybe even more likely, in some instances, 
than chemical and biological given the ease of putting together 
a dirty bomb and then, of course, other nuclear terrorist 
potential as well.
    So I think there are some artificial lines that might be in 
the process of being drawn that I am not sure are going to make 
that sort of seamless transfer and the integration of the 
issues in DHS as smooth as they could be.
    But, Ambassador, I also would like to ask: In response to 
the committee's policy questions, you state that you favor 
securing, accounting for, and disposing of weapons-usable 
nuclear material beyond the former Soviet Union, but that the 
countries typically identified for such assistance such as 
India, Pakistan, and China have thus far shown no interest in 
U.S. assistance. Are there other nations that you believe could 
benefit from expanded nonproliferation programs? Second, do you 
think we are devoting enough resources to securing, accounting 
for, and disposing of nuclear material in the former Soviet 
Union?
    Ambassador Brooks. The second one is easy: Yes. We are not 
now in the former Soviet Union limited by money. We are limited 
by the ability of a somewhat cumbersome and bureaucratic 
Russian system to absorb assistance. So there is no question 
that right now the resources that Congress has provided in 
2002, 2003, and that I hope will be provided in 2004, are more 
than adequate.
    With respect to other countries, the principal area that we 
need to focus on is research reactors that use highly-enriched 
uranium fuel. The notion here is to try and get those converted 
so that they do not need highly-enriched uranium, and then get 
the highly-enriched uranium fuel which is, by definition, 
suitable for weapons use, back. You saw that in the operation 
that the State Department and we and others led in Yugoslavia. 
We are working those discussions in other countries. I would 
like to be a little nonspecific about where we are talking.
    Senator Clinton. That is fine.
    Ambassador Brooks. I think that is the biggest area. Most 
of the highly-enriched uranium--there are a lot of reactors 
everywhere, but they use low enriched uranium of much less 
concern. Most of the highly-enriched uranium in the world is in 
the countries you have mentioned or in countries of Western 
Europe where you have--we are always in discussion with our 
friends about how to improve security. But the issues are of a 
whole different level. They have the knowledge and the 
resources. So I do not think that there is a large unmet need, 
except in the countries that I referred to in my statement. 
Cooperative programs require----
    Senator Clinton. Cooperation.
    Ambassador Brooks.--cooperation.
    Senator Clinton. I might want to follow up in a non-public 
hearing on some of the others.
    Ambassador Brooks. I would welcome that opportunity, ma'am.
    Senator Clinton. If I could, Mr. Chairman, I wanted to ask 
Dr. Cambone, based on your answers to the policy questions, you 
state that with much of our military based inside the United 
States and our role in protecting the Nation, there are likely 
to be many areas of common concern and potentially coordinated 
action with the Department of Homeland Security.
    When George Tenet appeared before this committee 2 weeks 
ago, I asked him about the need to ensure that the new 
Terrorist Threat Integration Center (TTIC) directs proper 
intelligence to local and State law enforcement agencies. This 
is one of our continuing problems, and it is something that I 
am sure will never be resolved satisfactorily to all parties 
involved. But nevertheless, it is important that we have as 
clear an idea as possible about the type of intelligence, about 
the type of threats within our country that you will be sharing 
with the TTIC, and how that intelligence will flow to local 
officials.
    If you could, would you briefly describe the state of play 
and the thinking about how that is going to work?
    Dr. Cambone. Yes, I would. There are two, at least two 
dimensions in which the Department will interact at the State 
and local level. One has to do with the relationship of the 
base commanders, they in turn working through the command that 
we set up in Northern Command, will do what is called 
antiterrorism force protection activities; that is, the 
physical security of the installations.
    That implies an interaction with the local authorities that 
assure that communications are properly done, information is 
shared. If there are people who are observed outside the fences 
of these installations, that information is often shared. Daily 
there are reports on the sharing of information between our 
people and the law enforcement people in the communities.
    The TTIC, as it is called, is designed to enable the flow 
of broader information, intelligence, data, back out to those 
who need it, to include local and State officials. The key to 
this is going to be--and I must say it is in its very early 
stages, and I have not been involved in the detail of its 
construction to separate the information from the sources of 
the information. That is something that we need to learn to do.
    It is unfortunate that we oftentimes lend the credibility 
of the information to the source. So, therefore, you tend to 
send the sourcing along with the information as a way of 
validating the information. But once you have done that, of 
course, you cannot disseminate the information very far because 
you put the source at risk. So one of the interesting cultural 
changes we are about to undergo, and have begun is to separate 
the collection from the analysis. If we can learn to do that, 
and they are struggling to learn to do it, I think then that 
flow of information will be a lot easier.
    Now, that all has to be coordinated through Governor 
Ridge's people at the Department of Homeland Security. They are 
the ones who are charged with the lead. But the Secretary has 
made it plain that we are to be very active in this effort.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you very much, Senator.
    The Chair is going to remain throughout the hearing, 
obviously, so if I can accommodate other Senators. I will ask a 
few questions now, and then we will go through another round. 
This will be my first opportunity.
    First, Dr. Cambone, Senator Levin in his questions 
correctly asked about concerns raised by some that the position 
for which you are recommended has been viewed by some as a 
challenge to the DCI. I think we ought to have in the record 
the views of Director Tenet. I think it is important that if 
you know them, just to articulate and summarize them.
    Dr. Cambone. I do not have with me the detail of his 
statement to you. But it came in broadly in two directions in 
my conversations with the DCI, so let me talk there: First, it 
will enable his community management staff and others within 
the Intelligence Community, essentially to have a single point 
of reference with the Department for the purposes both of 
aiding and assisting the Intelligence Community in its 
activities and to better enable the collection of intelligence 
and the management of the intelligence agencies within the 
Department.
    The second is, if you will, a more technical issue of 
concern to the DCI, but one that we are attentive to. That is a 
better association between the, if you will, lower level 
tactical intelligence collection that is done by the Department 
of Defense with aircraft, J-STARS, AWACS, the P-3s. There is an 
awful lot of information that we collect as an ordinary part of 
our everyday activity that does not seem to find its way back 
into the collective Intelligence Community.
    One of the things we need to do is to assure that that 
takes place, because there is a great deal of valuable 
information there for the national community that they do not 
oftentimes have access to.
    So I think the DCI is keen on getting that part of the 
relationship better established, in order that when he sits 
down to think about the national foreign intelligence program, 
he can better calibrate what it is he needs, where he is likely 
to get support from Defense and, therefore, how he can better 
distribute his resources which are always finite, over the wide 
array of concerns and problems that he faces every day.
    Lastly, there is a relationship that has been long 
established between the Director of Central Intelligence and 
the Secretary of Defense, in which they meet in an executive 
committee arrangement. The Department of Defense has not had 
the proper staffing functions within it to implement the 
decisions that are taken there. So the Secretary of Defense is 
compelled to make a series of telephone calls after a meeting 
to assure that things happen, whereas Mr. Tenet returns home 
and turns to his director of community management.
    So the Secretary of Defense now will have within the 
Department a staff organization that can receive those 
decisions and get them implemented and move us in the direction 
we need to go.
    So I think those are, in my conversations with Mr. Tenet, 
the kinds of advantages that he expects to see coming from 
this.
    Chairman Warner. What will be the exact relationship 
between your post and the defense intelligence agencies?
    Dr. Cambone. There are within the Department of Defense a 
number of intelligence agencies, to include the DIA, the 
National Imagery and Mapping Agency, the National Security 
Agency, the National Reconnaissance Office. They, being with 
the Department of Defense, are subject to the Secretary's 
guidance and authority but they are, at the same time, elements 
of the national Intelligence Community, and so they are in that 
capacity responsive to the Director of Central Intelligence.
    When they are operating with the Department of Defense and 
particularly as we are now at war, those agencies serve as 
combat support agencies. They actually send people to the 
combatant commands where they supply them with the daily 
information that is needed for those combatant commanders to 
execute their missions.
    So the expectation of the Secretary is that this Under 
Secretary will assure that those agencies, when operating as 
combat support agencies, are making full use of the information 
that is available, that they get to the combatant commanders 
the information that they need, that they get it to them in a 
format that is useful, that encourages the attention to what we 
in the Department have taken to calling ``predictive 
intelligence.''
    Most intelligence work--I am sorry Senator Levin is not 
here, because this is one of those differences in perspective--
has historically been trying to pick needles out of haystacks. 
I mean, you tend to look at the haystack and you turn it around 
and you wonder if there is anything in there that is important. 
Or you know there is a needle in there, and you try to go and 
find it.
    What we are trying to get to is the point where we can move 
information and intelligence rapidly enough that our combatant 
commanders can begin to predict how a battle might unfold, what 
an adversary may do in order that our combatant commanders can 
be in a position to thwart those actions and to overwhelm the 
enemy. So in a combat support role, there are those kinds of 
changes in emphasis and approach that need to be done.
    In terms of the contribution of these agencies to the 
national community, I think he expects that through this 
office, we will be able to give to the DCI a coherent 
understanding of what we believe in the Department is going to 
be necessary in the way of technical capability, manning, the 
skill sets of the members of those defense agencies, in order 
to be able to support the things that we do, and then--that is 
one; and two, then, to rationalize those recommendations by the 
Department of Defense for a particular kind of signals 
intelligence capability, for example, over against those things 
that the DCI knows that he will need in order to be able to 
execute the missions that he has.
    So there is a rationalization process, a distribution of 
resources then that has to be undertaken. So those are the 
kinds of functions that will be done by this Under Secretary 
relative to those defense intelligence agencies which are 
within the Department.
    Chairman Warner. Their reporting chain, the directors of 
the defense intelligence agencies, will they report through you 
to the Secretary, or how will that chain go?
    Dr. Cambone. They report to the Secretary of Defense, sir.
    Chairman Warner. So there is no chain broken there.
    Dr. Cambone. Not in the way that you are suggesting, which 
is that the chain of command would alter. As combat support 
agencies, the chain of command goes from the President to the 
Secretary to the Commander. The role for the Under Secretary is 
again to facilitate that activity. It is to make sure that on a 
day-to-day basis that communication is kept up, that the 
opportunities or interaction between the two are maintained, 
and to do the kind of staff functions that are necessary to 
ensure the smooth functioning of those organizations and their 
relationship with the Secretary.
    Chairman Warner. Thank you. I will return with further 
questions.
    Mr. Woodley, it is essential that the President fully 
utilize all resources available for homeland defense and the 
war on terrorism. The Corps historically has played an 
important role in protecting the Nation's navigable waterways. 
What are your views about the Corps and how they might enhance 
their approach to the mission of that infrastructure?
    I just want to further amplify this question.
    I am sure that you are pleased that Ann Loomis is here 
today. She has been my chief of legislation for a number of 
years and has established an extraordinary, incredible 
reputation in the field in which you are about to enter, 
hopefully, with confirmation. I am going to read a little 
document that I asked her just a few minutes ago to prepare for 
me.
    The maintenance of our Nation's navigable channels at major 
ports is critical to moving American goods and agricultural 
projects around the world. These channels with sufficient 
depths are also critical for ensuring the movement of our Armed 
Forces.
    So my point is that the Corps' civil works mission is also 
essential to our military preparedness, or responsiveness and, 
indeed, America's economy. For example, today in the Hampton 
Roads Channel, carrier battle group departures on return to the 
Norfolk Naval Base depend on the high tide and coordination 
with the scheduled commercial vessels.
    What are your views on the Corps' navigation mission and 
its relationship between the military requirements as well as 
our economic requirements?
    Give me a short answer because this is going to require you 
to develop a longer response for the record.
    Mr. Woodley. I am glad you mentioned the Port of Hampton 
Roads because----
    Chairman Warner. There was no doubt that that was going to 
be mentioned in the course of this day. [Laughter.]
    Mr. Woodley. You are aware of the work we have done and the 
Commonwealth, and the Governor of the Commonwealth to ensure 
the viability of that port as a national security asset and as 
a commercial and trade asset. I believe it is and will remain 
one of the premiere port and transportation intermodal 
facilities on the east coast.
    To the extent that the Corps of Engineers has a role, and I 
know very well that it has a great role, then the Corps of 
Engineers will continue to maintain that function and find ways 
to enhance it as it has in the past. I think it is a shining 
example of the ways in which the Corps of Engineers has 
contributed for 200 years to the security and well-being of our 
Nation.
    Chairman Warner. Now, for Ambassador Brooks. Where today do 
you see the stockpile stewardship program? I have followed this 
issue for these many years that I have been privileged to be 
here. The amount of funds that have gone into that are 
absolutely enormous. Where are we today on that curve between, 
of course, the start-up of that project, and where it has 
gotten to where it is first beginning to give us some results 
and where it is contemplated it will finally reach its plateau 
so that, hopefully, it more than fully provides the facts that 
were once provided by actual testing?
    Ambassador Brooks. Mr. Chairman, we are, I think, on 
schedule. The Nuclear Ignition Facility, which is one of the 
big tools, will actually start performing experiments that are 
directly relevant to the stockpile next year. We continue, of 
course, with a robust program of sub-critical experiments.
    I had the opportunity to tour the Atlas and Jasper 
facilities in Nevada about 3 weeks ago. The progress there is 
good. We are moving steadily along in understanding the use of 
these very large-scale computers, and beginning to do 
calculations that are directly relevant to the stockpile 
stewardship program there.
    Some of these programs, however, are not going to 
ultimately be finished until the end of the decade. The 
approach used for the National Ignition Facility, for example, 
which ultimately will have 196 beams, is to start doing 
experiments when you have enough beams to do them, but we will 
not be ready for the full experiments until later in the 
decade. I think that we will see over the next several years 
more and more data coming out from these programs which will 
increase our overall confidence in the stockpile. So I am 
confident that the program is on schedule. At the moment, we do 
not have any particular problems with the program. I mean, 
these are large, complex projects so there are always issues.
    Chairman Warner. It is awesome, the amount of computers 
involved. Try once again to show me: Where are we on the curve 
between start-up of this program many years ago, and the 
projected date at which it has reached its full capacity to 
provide the facts necessary to give verification to the 
reliability of our stockpile?
    Ambassador Brooks. I am not absolutely sure that I can give 
you a meaningful point using that analogy. I think we are 
several years away from having all of the tools that we believe 
are necessary completed. I think we are on the schedule that we 
expected.
    I would be wary of misleading you if I tried to say that we 
have 70 percent of the date, sir. I would be happy to give you 
a more considered response for the record. But I do not--these 
are extraordinarily important things----
    Chairman Warner. Please think it through because----
    Ambassador Brooks.--and I do not want to shoot from the 
hip.
    Chairman Warner. Yes. To the layman, there is an assumption 
out there that our stockpile is credible. Our President 
periodically makes public his determination that it is credible 
through the reports that you and others provide. But given that 
the program that we have deemed the national nuclear stockpile 
stewardship program was yet to be completed, there comes a time 
when the aging process of just the raw materials and hand-made 
weapons themselves, that it crosses a line that we have to make 
that difficult decision: Had we better not quickly go to the 
actual testing until the stockpile has fully reached its 
optimal point?
    Ambassador Brooks. I think the right way, or the way I 
think of it at least, is that you use all of the tools that you 
have.
    Chairman Warner. Right now we do not have the tools.
    Ambassador Brooks. We do not have all of the tools yet that 
we are going to have. But all of the tools that we do have and 
all of the scientific judgment that we have and all of the data 
that we have tells us that the stockpile is currently reliable.
    Chairman Warner. I am not trying to impugn in any way your 
clear statement to that effect in the hearing.
    Ambassador Brooks. Yes, sir.
    Chairman Warner. I am looking out in the out-years. You 
have said I think in response to a very good question by 
Senator Inhofe that: ``There may come a time when I have to 
come to the Congress of the United States and advise you of the 
progress or lack of progress of the stewardship program,'' 
because of difficulty of overcoming the most complex of 
challenges technically. We better resort temporarily to some 
testing to make sure we are going to be all right.
    Ambassador Brooks. Yes, sir. What I am trying to portray to 
you is a little bit of a race. As the uncertainties broaden 
because we are farther and farther from actual testing, so the 
capability of the tools increases. Assuming that we keep the 
capabilities of the tools and the laws of physics do not just 
actually surprise us, then I think we will continue to have 
confidence for the foreseeable future that we do not need to 
test.
    But I do want to make the point that the history of the 
nuclear weapons program is replete with physical facts that we 
did not know until we knew them.
    Chairman Warner. Right.
    Ambassador Brooks. So if something comes up, then we could 
be in trouble sooner, but I do not see it right now.
    Chairman Warner. All right. We are going to ask for Senator 
Levin to take another round.
    Senator Levin. Thank you, Mr. Chairman.
    Dr. Cambone, I want to go back to this intelligence team 
that has been established by the Under Secretary of Defense for 
Policy to find out: What is the relationship between that team 
and your new office; as well as asking, I guess, the more 
fundamental question as to whether it is appropriate for that 
kind of intelligence analysis to be performed by personnel 
outside of the intelligence agencies whose job it is to perform 
the analysis? Why are we having an intelligence analysis 
capability in a policy shop?
    Dr. Cambone. I will tell you what I understand of it. That 
is that there were a series of reports that had been produced 
by one or another of the various groups, intelligence agencies 
throughout the government. The Under Secretary for Policy 
wanted to take them and array them and ask, ``What do they say? 
Let us look at all of them,'' and then compare the information 
and the analysis in those reports against the kind of 
information that is provided to him, by the way, on a routine 
basis. He is a consumer of unfinished intelligence. He is 
briefed every morning by the intelligence agencies.
    So as a knowledgeable consumer, he then put together a 
handful of people to assist him in going through that 
information. They were not--in the way that one might use the 
term ``technically,'' they were not intelligence analysts. Two 
of them, I believe, have had experience in the Intelligence 
Community. I do not remember their status. I think one was 
retired, and one had moved on from that position. Then there 
were one or two others who were assisting them with the 
paperwork. It was a way of putting together a better 
understanding for the Under Secretary about what all of this 
information meant.
    Having gone through that drill, they then went out and met 
with the analysts at the agency and sat down and talked through 
with them sort of on: Where did the information come from? What 
is the meaning if we express it this way as opposed to that 
way? Does this information square with what you had?
    It is my experience more than once that analysts on the 
same subject in different parts of an agency do not have the 
same information.
    That conversation went on for the better part of an hour or 
two, and they left, again from my understanding, with an 
appreciation on the part of the analysts at the agency for 
their interest and their perspective on the data and the 
information. Now, did they in the end agree on all of the 
particulars? Again, having not been part of it, I do not know. 
I can almost assure you, however, that the answer is no, they 
did not agree on all of the particulars.
    Senator Levin. I am trying to figure out: What is the role 
of that group compared to what you are going to be doing now?
    Dr. Cambone. I wanted to get that square first.
    The second is that they would not be a part of--that group 
as it was constituted would not have been--let me back up. If 
there had been a desire by the Under Secretary for Policy for a 
closer look at some of the information that had been provided, 
I would expect, once this office stands up and if I am 
confirmed by the Senate, that he would come to me and say, 
``Can we take a closer look at this? What is the view across 
the broader Intelligence Community activity? Why are they 
thinking these things?'' Then we would, as I said earlier, 
facilitate that kind of conversation.
    Senator Levin. Which means it is really the role of your 
office?
    Dr. Cambone. I think in the end that will be true. But I do 
not want to----
    Senator Levin. Are his handful of folks going to stay in 
place?
    Dr. Cambone. I do not know that, sir. If you mean will they 
be--is he going to keep that function going when--I do not know 
the answer to that.
    Senator Levin. He is going to ask you to perform it, 
hopefully?
    Dr. Cambone. I would hope so. I think that is the intent, 
sir.
    Senator Levin. I guess we will have to ask him. But I think 
we should ask for the record, to avoid any kind of sloppiness 
and duplication, fuzziness, lack of accountability, that we ask 
that question of Mr. Feith.
    Chairman Warner. I support you in that because it sounds 
like he would come and task you with responding to his need.
    Dr. Cambone. I would think that would be the way that it 
would work.
    Chairman Warner. We ought to have that clarified, and the 
Senator is correct.
    Senator Levin. We could ask Mr. Feith.
    Dr. Cambone. But I do want to underscore, Senator Levin, 
that all of the consumers--and I think it is as true within the 
Department of Defense as it is elsewhere--to engage in a very 
active conversation with the analysts and the agencies.
    Senator Levin. I would hope so.
    Dr. Cambone. As I said earlier, it goes a long way to 
improving the understanding on both sides.
    Senator Levin. Yes. I would hope they would have active 
conversations, but that is different from duplicating a 
function.
    Dr. Cambone. Yes, sir.
    Senator Levin. You made reference to remodeling the defense 
intelligence----
    Dr. Cambone. Yes, sir.
    Senator Levin.--in response to the committee's pre-hearing 
policy questions. I am wondering what kind of remodeling you 
have in mind.
    Dr. Cambone. They are in the two main broad areas, sir, 
that I think we have to focus some attention on. One is the 
association of what the Department does for its operational and 
tactical level intelligence work, the P-3s and the Global Hawks 
and the kinds of things that we operate for the express purpose 
of supporting our combatant commanders and their subordinate 
commands.
    Those units, those activities collect an awful lot of 
information that is useful to the national Intelligence 
Community. There has not been a good process for moving that 
information into the national domain and permitting the 
Intelligence Community analysts to factor that information into 
their datasets, first. Second, it does not really give the DCI 
a sense of how he might distribute his own resources in the 
National Foreign Intelligence Program, relative to what he 
knows he could get if he had a coordinated program at the 
operational and tactical level with the Department. So that is 
one.
    The second is that we really have to step back a bit from 
our current efforts to support the war and the current needs of 
the Department of Homeland Security, Department of Justice, and 
the FBI, and ask ourselves in some detail, ``In 2018, in 2020, 
what are going to be the tasks of the Intelligence Community,'' 
not as a broad statement that ``I need to know what leadership 
in one country or another is doing.'' But ``what are the tasks? 
What are going to be the targets? Where do you have to go to 
get that information? What are going to be the obstacles to 
getting it?''
    We know that our adversaries have found ways to deceive and 
deny us, to bury their facilities and activities underground, 
that they have learned how to bury their activities within 
cyberspace. So what are going to be the obstacles to getting 
the information that we want to have? What is the capability we 
have today against those expectations? Then how do we remedy 
those shortfalls?
    It is when you get to the end of that chain and you say, 
``How are we going to remedy it,'' that you come to, I think, 
the view that an arrangement in which we allow for intelligence 
reporting to be done up very distinct chains where the 
information only comes together at the top--oftentimes, if I 
may say so, in the office of the consumer, that is not going to 
be adequate. We need to think through organizational 
relationships so that there is more sharing across those 
agencies and activities. So that is one.
    The second is that the way that we employ our assets, 
whether they be technical or human, has to be thought through 
again. What we have is a set of parts that are all used 
independently of one another frequently. I believe that if we 
learn how to use them in concert as a single system, we will 
find that we are not only more efficient but that we are 
capable of learning things that we before had not been able to 
discover.
    Lastly, we have to think then about the actual technical 
performance of those assets. What kind of signals? What kind of 
imagery? What kind of human--how do we have to equip our human 
intelligence assets so that they can get the information they 
need and transport it?
    The world is changing rapidly. The technology is changing 
faster. The assets we have in hand today were designed 10 and 
15 years ago. Whether they will be adequate to our needs 10 or 
15 years from now is, I think, a question we have to pursue 
with a great deal of vigor and, based on the conclusions we 
come to, remodel the community then in terms of its technical 
capability, in terms of the way in which we use those technical 
capabilities, and then in the way that we organize and present 
the information so that a future President, a future Congress, 
a future Secretary of Defense has information that is 
appropriate to his circumstances and it is not information that 
is presented as a consequence of the way we are organized, and 
as a result of the technical performance of our systems.
    Senator Levin. A few more questions if I may?
    Chairman Warner. Please.
    Senator Levin. All right. Ambassador Brooks, let me ask you 
a few questions. Is there currently a requirement for a new 
nuclear weapon?
    Ambassador Brooks. No, sir.
    Senator Levin. Is there a requirement now to repeal the 
prohibition on research, engineering, and development of a 
small, below-5-kiloton nuclear weapon?
    Ambassador Brooks. The administration is looking at that 
question. My personal view is that anything that inhibits 
thinking about the future should be looked at skeptically. But 
the administration has not made a decision yet on that 
specifically.
    Senator Levin. As to whether or not to develop it?
    Ambassador Brooks. No, sir. There is no requirement----
    Senator Levin. Are you looking skeptically at any 
restriction on the development, or just on the research or 
what?
    Ambassador Brooks. The question of development is a policy 
question, and I respond to military requirements from the 
Department of Defense as approved by the President.
    The question of maintaining the intellectual capability at 
the labs is part of my responsibility. I believe that you 
maintain intellectual capability by working on real things, and 
that placing limits around what you can think about in 
general--I am skeptical of the wisdom of things that do that, 
sir.
    Senator Levin. So you are talking about being skeptical of 
prohibitions on research and thinking.
    Ambassador Brooks. Yes, sir, I am.
    Senator Levin. Okay. Is there, or do you know whether or 
not there has been a decision to proceed with the robust 
nuclear earth penetrator?
    Ambassador Brooks. To proceed with the study, yes. To 
proceed with a weapon, no, sir. There is not even an issue to 
be decided. The study is to talk about what might be done if we 
were to decide sometime in the future to do it.
    But as soon as the Department of Defense submits the 
congressionally-mandated report, which I expect will come 
within the next week or two, my understanding of the law is 
that I am then authorized to take the money that was 
appropriated in the fiscal year 2003 appropriations act and 
start thinking through what might be done. But I want to 
distinguish it very carefully with proceeding to understand the 
technical implications, and proceeding with a decision to 
actually develop or deploy something. We are nowhere near the 
latter decision.
    Senator Levin. All right. The National Nuclear Security 
Administration budget for 2004 requests $6 million for 
``advanced concepts.''
    Ambassador Brooks. Yes, sir.
    Senator Levin. What are ``advanced concepts?'' What kind of 
projects are we talking about?
    Ambassador Brooks. We are still discussing the specifics 
with the Department of Defense, the national labs, and the 
military community. We had a formal meeting to start that 
discussion in December.
    What happens at those meetings is: The military community 
looks at concepts that they might--I want to emphasize the word 
``might''--find useful. Then the idea of this is for us to go 
and get an understanding of: Could that be done at all? Could 
it be done without testing? Could it be done with an adaptation 
of the existing weapons?
    The kinds of concepts that often come up are improved 
concepts in safety and security, tailored effects, 
electromagnetic pulse, reduced radiation. So we are in the 
early stages of deciding exactly which of those possible things 
we will look at, but the idea would be to try and understand at 
a somewhat deeper level than we do now what might be 
technically available if there were formal military 
requirements in the past--in the future.
    Senator Levin. Have you ever talked with representatives of 
other countries that are considering the development of nuclear 
weapons, trying to persuade them not to do it, at the same time 
that we are looking at advanced concepts for nuclear weapons? 
Have you ever been engaged in a conversation with a country 
that says, ``You folks are still talking about possible 
testing. You are talking about new concepts, new weapons, and 
you are trying to talk us into signing a nonproliferation 
treaty''? Have you ever had that kind of conversation?
    Ambassador Brooks. I have not personally had that kind of 
conversation. My experience is that just as, to be candid, I 
tend to focus on what I think might be necessary to meet our 
own requirements, that other countries do, too.
    I do not, however, believe that the things that we are 
doing--and I need to make this very clear, both my personal 
position and my understanding of the administration's position. 
We are not planning or considering a return to nuclear testing. 
We are maintaining a capability if we have to do that in the 
future. We are not planning, developing new nuclear weapons. We 
are maintaining the design expertise at the laboratories and 
trying to understand what the law of physics will allow if we 
are allowed to do it in the future.
    So I think with that caveat, I would be prepared to have 
that debate with other countries, but I have not personally 
done it.
    Senator Levin. One last question, Mr. Chairman.
    Chairman Warner. Yes.
    Senator Levin. Do you support efforts to move where 
possible, using our dollars, to secure fissile materials that 
are, in addition to the former Soviet Union, in other places as 
well?
    Ambassador Brooks. Yes, sir. Once again, the programs that 
I administer are all cooperative programs, and so the first 
prerequisite is to find people who have a lot of fissile 
material, need our financial help, and are willing to offer it, 
because where we use the American taxpayers' dollars is 
important. Right now that pretty much means the former Soviet 
Union. But in principle, I am in favor of securing fissionable 
material anywhere it exists in the world.
    Senator Levin. Thank you.
    Thank you, Mr. Chairman.
    Chairman Warner. As a follow up to that important question, 
what is your professional understanding of the sensitivity 
between ourselves and the Russian government with regard to our 
participation in their nonproliferation programs and access to 
some of their sites, allegedly this material that should be 
carefully monitored?
    Ambassador Brooks. I think at the very highest levels of 
the Russian government there is strong support for our 
cooperative programs. I think at the working level, when you 
get to the actual sites and to people whose responsibilities 
are to protect it, they welcome our cooperative program. I 
think in the middle, there is a bureaucracy and the FSB, the 
Federal Security Service, that still has trouble in believing 
we are really there to help rather than to gather intelligence.
    So we have a continued challenge to get the appropriate 
access. By and large, in the programs that I administer, we 
have done well. We have had very good access in the Ministry of 
Atomic Energy sites. We have had very good access for the 
Russian Navy sites. I cannot speak for the Defense Department's 
access, but they also have had good cooperation.
    As we finish and get down to the most sensitive facilities, 
we are going to see more resistance to U.S. access, and we are 
just going to have to continue to work with the Russian 
Federation. I am extraordinarily helped in that by the strong 
working relationship Secretary Abraham has with his Russian 
counterpart. So I think that we are doing well on access, but I 
do not want to mislead the committee into suggesting that 
everything is rosy. There are still a lot of people in Russia 
for whom the Cold War is not over, and we just have to work 
through that.
    Chairman Warner. Dr. Cambone, we have all heard stories of 
the terrorists using internet bulletin boards, cryptic 
messages, newspapers, and similar methods to communicate. Most 
defense intelligence analysts depend on U.S. and trusted allied 
intelligence censors and collectors for their information.
    What role can open source information play in the defense 
arena? In your view, are we putting enough resources against 
that area?
    Dr. Cambone. Open source information can be enormously 
valuable. I think the short answer is no, we do not put enough 
of our resources against that. The Foreign Broadcast 
Information Service which was once a--did an awful lot of work 
in collecting and finding open source material, is a smaller 
organization than it once was.
    So, no, we have to put more emphasis on that, if for no 
other reason than to begin to give us some contextual 
understanding of what is taking place in the countries of 
interest to us, first.
    Second, the technical journals are interesting sources of 
information on technical development. I will give you an 
example. When I was working on the Space Commission, we were 
concerned about the security of our space assets. We took that 
issue to the analytic community and the Intelligence Community, 
and they were interested but not as concerned, until we showed 
them the website for an organization at the University of 
Surrey in the U.K. which had a legitimate business essentially 
on the side in which they produced and operated micro 
satellites.
    You sort of take that--if you just take the screen print 
and you say: Now, if the University of Surrey is engaged in 
this process--and by the way, one of the countries they list as 
a customer has entities in the People's Republic of China and 
elsewhere--does that give you some sense that relevant 
technology is readily available and that maybe space assets are 
prey to this kind of technology?
    In the time since, I can assure you there has been 
increased interest and a different approach being taken within 
that community on that subject.
    Senator Levin, if I may, that is another example of a 
different perspective on a problem. It is not that I knew 
anything more than they did about what was taking place in the 
world, other than I came across a piece of information which, 
when put into the puzzle, made you see it a little differently.
    So as an example to the importance of open source 
information, I think that is a very good example.
    Chairman Warner. Let us talk a little bit about the private 
sector. U.S. commercial businesses have developed extraordinary 
capabilities over the past several years especially in the 
areas of imagery from space, encryption detection, data mining, 
and data visualization. Will you access, as best you can, all 
of those talents?
    Dr. Cambone. Yes, sir. We certainly will. As you may know, 
in my current and previous position, I have been a very strong 
proponent of the use of commercial imagery. In my current 
position, in the budget that we have submitted for your 
consideration, there is a tremendous amount of resources, 
dollars, put against exploiting that contemporary technology in 
order to create that kind of horizontal integration that we 
need across the agencies.
    Chairman Warner. Now, my last question gets down to the 
real world, floods. Mr. Woodley, as we were returning from our 
trip, one of our colleagues was really deeply moved and 
concerned about some flooding in his State. I was quite 
impressed with the sincerity of his concern on that question.
    Experience with natural disasters has shown that in a 
typical year the Corps responds to more than 30 Presidential 
disaster declarations, plus numerous State and local 
emergencies. Additionally, the Corps' flood control efforts 
include the maintenance and operation of 383 major dams.
    Given the competing mission areas for the Corps of 
Engineers, how do you envision that this important 
responsibility be carried out in the future?
    Mr. Woodley. Mr. Chairman, the maintenance of the civil 
works infrastructure, including the flood control 
infrastructure, is perhaps the greatest challenge facing the 
Corps of Engineers. It would be a very high priority for me, if 
confirmed. The work that is being done and the research that is 
being done in this area by the Corps of Engineers, I believe it 
is fair to say is second to none in the world.
    There are a lot of innovative ideas that are coming forward 
in this arena that do not necessarily depend on the hard 
structures which have been the mainstay in the past, and there 
is a great deal of very forward-looking thinking on hydrology, 
and that is sponsored by the Corps of Engineers. I can tell you 
that, if confirmed, that would be something that we would 
continue and I hope that we would be able to enhance.
    Chairman Warner. These are very important hearings, and the 
responses to our questions I think have been quite satisfactory 
and very accurate. But there are more questions to be asked of 
each of the nominees. So Senator Levin and I will, on both 
sides of the committee, endeavor to collect these questions and 
send them to you and ask for your earliest and most prompt 
acknowledgment.
    Other than that, I thank, first of all, the young people 
who have joined us and withstood the test of time, and 
hopefully have----
    Senator Levin. Which means staying awake, if I could just 
say.
    Chairman Warner. Oh, yes. [Laughter.]
    They have increased their knowledge.
    I join with all members of this committee in commending 
each of you for the recognition for your appointments by the 
President of the United States, to these very key and important 
positions. I would hope that the Senate will act expeditiously. 
I know my colleague and I will work to see that our committee 
does so, and then we will have the responsibility to work with 
other Senators on the floor to move these nominations ahead.
    Senator Levin. We only foresee that one of you will have 
your nomination filibustered. But I am going to keep you 
guessing as to which one of the three that is. [Laughter.]
    Chairman Warner. Watch out for the floods, my fellow. 
[Laughter.]
    Senator Levin. In other words, all three of you may be.
    Chairman Warner. That is right. [Laughter.]
    Good luck, and we thank again the families for joining us.
    We are adjourned.
    [Whereupon, at 11:29 a.m., the committee adjourned.]

    [Prepared questions submitted to Dr. Stephen A. Cambone by 
Senator Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. I fully support the implementation of the reforms.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. The reforms called for by the Goldwater-Nichols Act have 
been widely implemented.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. From my point of view, the most important aspects include 
the clear responsibility, authority, and accountability given the 
combatant commanders for mission accomplishment; the increased 
attention to the formulation of strategy and contingency planning; and 
the creation of a strong, direct, and unambiguous chain of command.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I support the goals of Congress in enacting the 
reforms of the Goldwater-Nichols legislation and, if confirmed, will 
support their continuing implementation.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Under Secretary of Defense for Intelligence?
    Answer. My understanding is that, if confirmed, my primary 
responsibility will be to assist the Secretary of Defense in 
discharging his intelligence-related responsibilities under Title 10 
and Title 50 U.S.C.:

        <bullet> to serve as the principal adviser to the Secretary of 
        Defense and, at his direction, to exercise authority, 
        direction, and control of intelligence organizations within the 
        Defense Department to ensure that they are manned, trained, 
        equipped, and organized to support the missions of the 
        Department;
        <bullet> to serve as the principal adviser to the Secretary of 
        Defense in the discharge of his responsibility to ensure that 
        defense intelligence organizations that are elements of the 
        national Intelligence Community are responsive to the Director 
        of Central Intelligence (DCI) in the execution of the DCI's 
        authorities;
        <bullet> to support the Secretary of Defense in his role as the 
        DCI's counterpart in the Intelligence Community Executive 
        Committee.

    Other responsibilities of the USD/I are to ensure, at the direction 
of the Secretary of Defense, that:

        <bullet> the intelligence agencies within the Department are 
        able to provide effective and timely support in response to 
        tasking by the Director of Central Intelligence;
        <bullet> the Chairman and other members of the Joint Chiefs of 
        Staff and combatant forces are provided with the intelligence 
        and related support needed to discharge their responsibilities;
        <bullet> the senior leadership of the Department, civilian and 
        uniformed, is provided information needed to make decisions 
        affecting long-term capabilities of U.S. forces, including 
        development of weapons systems, posture, basing, deployment and 
        employment;
        <bullet> information--including tactical information--useful to 
        defense intelligence consumers, and to other users identified 
        by the DCI, is collected, analyzed, and distributed by defense 
        intelligence organizations in a timely fashion and in formats 
        appropriate to users' needs;
        <bullet> the conduct of counterintelligence operations is 
        overseen to defend the security of defense personnel, 
        facilities, processes, information, and systems, to include 
        computer and network-based systems;
        <bullet> recommendations are made to the Secretary of Defense 
        and the Department's intelligence and intelligence-related 
        policy, plans, programs, requirements, and resource allocations 
        are coordinated, to include preparation of Joint Military 
        Intelligence Program and Tactical Intelligence and Related 
        Activities budgets as well as DOD activities included by the 
        DCI in his submission to Congress of the NFIP.

    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. If confirmed, I believe my past experience qualifies me to 
perform the duties of USD/I. I was a consumer of intelligence while 
serving on the staff of the Director, Los Alamos National Laboratory in 
the early 1980s and as the Director of Strategic Defense Policy in the 
Office of the Secretary of Defense in the early 1990s. I served as 
Staff Director for two Congressional commissions--The Commission to 
Assess the Ballistic Missile Threat to the United States (1998) and The 
Commission to Assess United States National Security Space Management 
and Organization (2000). This collective experience has provided me a 
broad foundation of knowledge on the collection, analysis, and 
production of intelligence, as well as the organization, technical 
capabilities, and operations of the Intelligence Community.
    The positions I have occupied in the Department since January of 
2001--the Special Assistant to the Secretary of Defense and to the 
Deputy Secretary of Defense; Principal Deputy to the Under Secretary of 
Defense for Policy; and now as Director, Program Analysis and 
Evaluation--have given me day-to-day experience with defense 
intelligence as well as the broader Intelligence Community both as a 
consumer and in preparation of policy and programmatic guidance. For 
example, in my current position, I have been actively engaged in the 
development of elements of the fiscal year 2004 budgets for the 
National Foreign Intelligence Program, the Joint Military Intelligence 
Program and the Tactical Intelligence and Related Activities aggregate.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Under Secretary of 
Defense for Intelligence?
    Answer. If confirmed, the single most important action will be to 
rely on and appoint individuals from throughout the DOD and the 
Intelligence Community who are highly skilled and experienced in 
intelligence and in intelligence resource management and acquisition, 
operations, and policy to positions of responsibility and authority 
within the OUSD/I. They will be critical to the tasks of identifying 
information resident in the Intelligence Community of interest to 
defense users and finding ways to ensure the timely delivery of that 
information.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of Defense would prescribe for you?
    Answer. If I am confirmed, I expect that I will:

        <bullet> Work closely with the DCI and his Community Management 
        Staff to ensure that there is no misunderstanding between the 
        Secretary of Defense and the DCI on intelligence matters of 
        high importance and consequence to the Nation, on the 
        development of intelligence-related policies, plans, programs, 
        requirements, and resource allocations and in the day-to-day 
        management of intelligence;
        <bullet> Recommend to the Secretary of Defense policies, plans, 
        and intelligence requirements related to the execution of 
        contingency operations and preparation of deliberate plans by 
        combatant commanders;
        <bullet> Assist the Secretary of Defense and other senior 
        defense officials in reducing the likelihood of surprise by 
        remodeling the defense intelligence culture and capabilities to 
        continue the efforts within defense intelligence to be more 
        responsive to its users, quicker to identify emerging threats, 
        and enabled to employ the most efficient information management 
        systems;
        <bullet> Ensure that defense activities of the Department that 
        may support national intelligence efforts are transparent to 
        the DCI so that he can build the National Foreign Intelligence 
        Program with the full knowledge of the potential contribution 
        of these activities to support his requirements;
        <bullet> Oversee execution of defense intelligence resources;
        <bullet> Consult, and coordinate as required, with other DOD 
        elements to ensure that defense intelligence and NFIP 
        activities are not unintentionally duplicative of other DOD 
        activities;
        <bullet> Work closely with Congress in the remodeling of 
        defense intelligence.
                             relationships
    Question. In carrying out your duties, how will you work with the 
following:
    The Secretary of Defense
    Answer.

        <bullet> If confirmed, I would serve as his principal adviser 
        on matters related to intelligence in the conduct of his 
        responsibilities under Title 10 and Title 50 U.S.C. to provide 
        authority, direction, and control over intelligence 
        capabilities of the DOD, including those DOD agencies and 
        elements considered part of the national Intelligence 
        Community.
        <bullet> Exercise, at the direction of the Secretary of 
        Defense, authority, direction, and control over DOD 
        intelligence activities.

    The Deputy Secretary of Defense

        <bullet> If confirmed, I would work with the Deputy Secretary 
        of Defense (as alter ego of the Secretary of Defense) as his 
        principal adviser on matters related to intelligence in the 
        conduct of his responsibilities under Title 10 and Title 50 
        U.S.C. to provide authority, direction, and control over 
        intelligence capabilities of the DOD, to include those DOD 
        agencies and elements considered part of the national 
        Intelligence Community.
        <bullet> I would assist the Deputy Secretary of Defense on the 
        discharge of any responsibilities related to intelligence 
        delegated to him by the Secretary of Defense, to include 
        planning, programming, and budgeting responsibilities.

    The Under Secretaries of Defense
    USD/AT&L

        <bullet> In recommending policy, plans, programs, requirements, 
        and resource allocations for DOD intelligence and intelligence-
        related activities, I would consult, and coordinate as 
        required, with USD/AT&L on programs and requirements for 
        intelligence and intelligence-related systems acquired by DOD. 
        Coordination would include any offices to which USD/AT&L may 
        have delegated authority, e.g., the Under Secretary of the Air 
        Force, who is the DOD Executive Agent for Space.
        <bullet> In addition, I would ensure the timely delivery of 
        intelligence information to USD/AT&L to permit him to adjust, 
        as appropriate, DOD S&T, RDT&E and procurement in response to 
        extant or emerging threats.

    USD/Policy

        <bullet> If confirmed, in recommending policy, plans, programs, 
        requirements, and resource allocations for DOD intelligence and 
        intelligence-related activities, I would consult, and 
        coordinate as required, with USD/P to ensure DOD-related 
        intelligence activity supports the goals, objectives, and 
        policies of the national security strategy of the United States 
        and of the defense strategy and policy of the DOD, the 
        deliberate and contingency plans of the combatant commanders, 
        and the operational activities of those commanders.
        <bullet> I would ensure timely delivery of intelligence 
        information to USD/P to permit him to propose changes to the 
        policy, strategy, plans, structure, posture, deployment, or 
        employment of U.S. military forces and to anticipate emerging 
        challenges and threats.
        <bullet> I would support USD/P, as required, in the discharge 
        of his responsibilities as DOD's representative within the 
        interagency process and in his interactions with allied, 
        friendly, and other governments.

    USD/Comptroller

        <bullet> If confirmed, in recommending policy, plans, programs, 
        requirements, and resource allocations for DOD intelligence and 
        intelligence-related activities, I would consult, and 
        coordinate as required, with USD/C on preparation of the DOD 
        program and budget for its intelligence and intelligence-
        related activities, including preparation of those DOD items 
        contained within the NFIP.
        <bullet> I would work with USD/C to ensure, on behalf of the 
        DCI and DOD intelligence activities, the prompt and proper 
        distribution of funds by USD/C in support of those activities.

    USD/Personnel & Readiness

        <bullet> If confirmed, in recommending policy, plans, programs, 
        requirements, and resource allocations for DOD intelligence and 
        intelligence-related activities, I would consult, and 
        coordinate as required, on directives, instructions, and 
        policies that would affect DOD personnel engaged in those 
        activities.
        <bullet> I would ensure timely delivery of intelligence 
        information to USD/P&R to assist him in the discharge of his 
        responsibilities for the well-being of members of the defense 
        establishment, the readiness of U.S. forces, and the capacity 
        of the department's health care system to meet emerging needs.

    The Assistant Secretary of Defense for Command, Control, 
Communications, and Intelligence

        <bullet> The USD/I will have responsibility for intelligence 
        and intelligence-related activities currently resident in 
        C\3\I.
        <bullet> If confirmed, I would consult with the successor to 
        the ASD/C3I, and coordinate with him where required, concerning 
        information and other C\3\ system requirements. ASD/C\3\I will 
        continue to have oversight responsibility for DOD-wide C\3\ and 
        computer requirements programs and budgets.
        <bullet> I would provide the successor to the ASD/C\3\I 
        intelligence information in a timely fashion that will permit 
        him to adjust defense-wide capabilities to meet emerging 
        challenges and to support the combatant commanders, especially 
        in time of hostilities.

    The Service Secretaries and the Service Intelligence Directors

        <bullet> If confirmed, I would engage the service secretaries 
        and their directors of intelligence and intelligence-related 
        operations in three ways:

                <bullet> On behalf of the Secretary of Defense, I would 
                provide guidance to them with respect to policy on 
                manning, equipping, training, and organization within 
                their military departments that contribute either to 
                defense-related intelligence or to the Intelligence 
                Community.
                <bullet> On behalf of the Secretary of Defense, and in 
                coordination with the DCI, I would provide guidance and 
                oversight to the military departments related to 
                intelligence activities conducted by elements of the 
                military departments for the Intelligence Community 
                pursuant to existing and future agreements.
                <bullet> On behalf of the Secretary of Defense, I would 
                synchronize service intelligence agency and defense 
                programmatic, acquisition, and doctrinal efforts to 
                meet warfighter needs.

    The General Counsel of the Department of Defense

        <bullet> If confirmed, I would seek advice and coordination as 
        appropriate of the General Counsel in the exercise of 
        authorities by the USD/I as directed by the Secretary of 
        Defense.

    The Directors of the Defense Intelligence Agencies

        <bullet> The directors of the defense intelligence agencies--
        e.g., the Defense Intelligence Agency, the National Security 
        Agency, the National Reconnaissance Office, and the National 
        Imagery and Mapping Agency--operate within the DOD and, as 
        such, under the authority, direction, and control of the 
        Secretary of Defense. The Secretary of Defense is responsible 
        for ensuring these agencies and others are capable not only of 
        performing their defense missions, but also of responding in a 
        timely fashion to the tasking of the DCI as elements of the 
        Intelligence Community.
        <bullet> At the direction of the Secretary of Defense, who 
        works in coordination with the DCI, the USD/I will provide the 
        authority, direction, and control to the defense intelligence 
        agencies to ensure they are capable of fulfilling both of the 
        above-mentioned missions. In addition, and by direction of the 
        Secretary of Defense, the USD/I will evaluate the performance 
        of these agencies in their support to defense missions.

    The Under Secretary of the Air Force

        <bullet> The Under Secretary of the Air Force (USecAF) has been 
        designated by the Secretary of Defense as the DOD Executive 
        Agent for Space. The USecAF is also the Director of the NRO.
        <bullet> If confirmed, I will work with the USecAF to ensure 
        that those space and other systems for which he is responsible 
        and which are dedicated to, or may substantially contribute to, 
        intelligence are developed, integrated, and deployed to meet 
        the intelligence needs of the DOD and the Intelligence 
        Community.

    The Director of Central Intelligence

        <bullet> The DCI is responsible to the President for the 
        provision of national intelligence. He has the authority to 
        task those DOD intelligence agencies that are part of the 
        Intelligence Community. The Secretary of Defense is charged 
        with assuring that DOD intelligence agencies support the DCI.
        <bullet> If confirmed, I would exercise authority, direction, 
        and control of these agencies at the direction of the Secretary 
        of Defense and would coordinate in his behalf with the DCI 
        those policies, plans, programs, requirements and resource 
        decisions relative to these agencies (or other DOD components 
        and activities) to ensure the ability of the DCI to discharge 
        his responsibilities.
        <bullet> The USD/I will, at the direction of the Secretary of 
        Defense, coordinate with the DCI concerning support from the 
        Intelligence Community required by the DOD and support required 
        by the DCI from the DOD.
        <bullet> The USD/I will ensure the DCI has insight into and 
        benefits from DOD tactical activities that can contribute to 
        intelligence.

    The Deputy Director of Central Intelligence for Community 
Management

        <bullet> The staffs of the OUSD/I and DDCI/CM will ensure that 
        the defense intelligence and national intelligence missions are 
        coordinated on a routine basis.
        <bullet> If confirmed, I will ensure that matters requiring 
        coordination between the DCI and Secretary of Defense, e.g., 
        policy, plans, programs, requirements, and resources, are 
        staffed to resolve differences that might arise between their 
        organizations. Furthermore, in coordination with the DDCI/CM, 
        the USD/I will staff the Secretary of Defense/DCI Executive 
        Committee meetings and oversee the implementation of direction 
        resulting from the Intelligence Community Executive Committee.

    Officials in the Department of Homeland Security with intelligence 
responsibilities

        <bullet> If confirmed, I will consult, and coordinate as 
        required, with the Department of Homeland Security regarding 
        all DOD intelligence activities and any others assigned to 
        OUSD/I in support of or supported by the Department of Homeland 
        Security.
        <bullet> I would ensure that the Department of Homeland 
        Security is provided, via means mutually agreed upon within the 
        interagency process, with information relevant to its mission 
        in a timely manner to permit it to successfully discharge its 
        responsibilities.
                     major challenges and problems
    Question. In your view, what are the major challenges that will 
confront the Under Secretary of Defense for Intelligence?
    Answer. If confirmed, I believe I will have three major challenges:

        <bullet> Continuing to ensure that intelligence information is 
        provided to the senior civilian and uniformed leadership of the 
        Department in a timely manner and in useful formats, that is 
        predictive in character to permit them to take appropriate 
        action to avoid surprises, mitigate surprise when it occurs, 
        and otherwise arrange U.S. military forces to meet evolving 
        challenges;
        <bullet> Ensuring that intelligence information is provided to 
        combatant forces in a timely manner and in formats useful to 
        them;
        <bullet> Ensuring that DOD assets are defended from attack by 
        foreign and hostile intelligence services.

    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. If confirmed, I believe the key to addressing these 
challenges is the organization of the OUSD/I. The Secretary of Defense 
has given guidance that he expects it to be ``output'' oriented. That 
is, the OUSD/I will not seek to direct the processes by which 
intelligence is collected, analyzed, and disseminated by the 
Intelligence Community. Instead, it will engage the leadership of the 
Intelligence Community to convey the needs of senior defense officials, 
civilian and uniformed, and evaluate the timeliness, relevance, and 
utility of the resulting product. That evaluation would be used to 
recommend, as appropriate, changes in policy, plans, programs, 
requirements, and resource allocations to meet the needs of DOD 
officials.
    Question. What do you anticipate will be the most serious problems 
in the performance of the functions of the Under Secretary of Defense 
for Intelligence?
    Answer. The most pressing challenge facing the DOD is arranging 
itself to operate in an environment where surprise is commonplace. 
Defense intelligence has an important role to play in helping to avert 
surprise and mitigating its effects when it occurs. Defense 
intelligence is critical to enabling the Department to adjust its 
policies, structure, posture, and capabilities and plans to operate in 
this environment. Those activities need to be attentive to the 
possibility of surprise and will need to improve its ability to warn of 
impending surprises.
    One area in which increased attention may be needed is in the field 
of counterintelligence. The end of the Cold War did not reduce 
appreciably the efforts of hostile espionage services to target DOD 
activities. DOD counterintelligence efforts need both to protect DOD 
activities and, in collaboration and coordination with the Intelligence 
Community and law enforcement, work to deny and disrupt the efforts of 
foreign services to target the DOD.
    In addition, the advent of the homeland defense and security tasks 
requires that DOD intelligence contribute to those tasks. In so doing, 
however, great care must be taken to ensure that DOD activities are 
fully in accord with the law and conducted under the supervision of 
competent authority.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, the single most important action I will take 
is to find, immediately, highly capable professionals to assess warning 
methodologies and lead the OUSD/I CI effort.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues that must be addressed by the Under Secretary of 
Defense for Intelligence?
    Answer. If confirmed, I will establish the following priorities:

        <bullet> Immediately, to ensure that combatant commanders 
        receive the information they require, in a timely manner and 
        useful format, to successfully conduct current operations. In 
        addition, OUSD/I would review and, as appropriate, revise 
        methodologies for assessing the immediacy and magnitude of 
        threats to U.S. interests and the manner in which warnings are 
        prepared and delivered to senior civilian and uniformed defense 
        officials.
        <bullet> In the mid-term, to address DOD counterintelligence 
        activities to ensure a balance between the counterintelligence 
        support managed by military departments and the 
        counterintelligence support to force protection that is 
        conducted, per Goldwater-Nichols, under the command of 
        combatant commanders.
        <bullet> Over the long-term, to work to remodel the DOD 
        intelligence structure and its human and technical capabilities 
        as part of the broader DOD effort to transform itself to meet 
        emerging challenges of coming decades.

ASSISTANT SECRETARY OF DEFENSE FOR COMMAND, CONTROL, COMMUNICATIONS AND 
                              INTELLIGENCE

    Question. The establishment of your position would appear to have a 
significant impact on the future organization of ASD/C\3\I. Clearly, 
there is a close association between the ``C\3\'' functions and 
intelligence.
    How would you propose that the ``C\3\'' functions, including 
information technology management, interoperability, and cybersecurity 
policy be integrated into the Department's overall organization?
    Answer. Under a plan being developed for the Secretary of Defense, 
it is being proposed that the successor to the ASD/C\3\I would remain a 
direct report to the Secretary of Defense. The successor to the ASD/
C\3\I would retain responsibility for the C\3\ network, to include its 
interfaces, system applications, and information management on the 
network. The defense agencies and activities overseen by USD/I will be 
users of that network and would rely heavily on the successor to ASD/
C\3\I. As a result, there will be a continuous interchange between 
OUSD/I as a service user and the prospective C\3\ as service provider.
    Question. How do you anticipate that the responsibilities of the 
Assistant Secretary of Defense for Command, Control, Communications, 
and Intelligence would change once an Under Secretary of Defense for 
Intelligence is appointed?
    Answer. Under a plan being developed for the Secretary of Defense, 
it is being proposed that the successor to the ASD/C\3\I would focus on 
Department-wide information integration, on building the foundation for 
network-centric operations utilizing information systems and 
management, and on network oversight among other areas. This is an area 
of increasing importance to the DOD. Because DOD networks support other 
departments and agencies, this is an important area to the overall U.S. 
Government as well.

                        INFORMATION SUPERIORITY

    Question. Many have described the major responsibility of the 
Assistant Secretary of Defense for Command, Control, Communications and 
Intelligence as ``information superiority.''
    Which aspects of information superiority will be under the purview 
of the Under Secretary of Defense for Intelligence and which will 
remain under the ASD/C\3\I?
    Answer. Under a plan being developed for the Secretary of Defense, 
it is being proposed that the successor to the ASD/C\3\I would retain 
responsibility for oversight of information integration and for the 
C\3\ networks on which DOD and other U.S. Government agencies depend 
(to include ensuring the integrity of the information on the system).
    USD/I will have oversight of the employment of those networks for 
operational purposes by DOD intelligence activities, the data that 
rides those networks, and the deconfliction of those activities with 
information operations conducted by DOD entities.

                  TERRORIST THREAT INTEGRATION CENTER

    Question. In his recent State of the Union speech, President Bush 
announced the establishment of a new Terrorist Threat Integration 
Center to facilitate the fusion of information about terrorist threats 
from various intelligence and law enforcement agencies.
    What role do you envision for the Department of Defense in this new 
organization?
    Answer. DOD should play an important role in staffing, supporting, 
and deriving significant benefit from the TTIC. The new center is 
envisioned as the top of the analytic pyramid, a facility where all 
terrorist information is pulled together and then distributed, perhaps 
without source attribution, to those working on the front lines of 
confronting and defeating terrorism. DOD has offered to assist in any 
way appropriate to support the TTIC. DOD has examined facilities, 
communications, data handling systems, and training, to name just a 
few. As the TTIC system is further developed, DOD will be ready to plug 
into it in whatever manner is prescribed, while ensuring that DOD 
activities are fully in accord with the law and conducted under the 
supervision of competent authority.
    Question. In your view, what has changed within defense 
intelligence agencies since September 11 to enable them to better share 
information among themselves, within the larger Intelligence Community, 
and with appropriate law enforcement agencies?
    Answer. The expansion of the National Counterterrorism Center, 
located at CIA, the FBI's Counterterrorism Division, and the standing 
up of the Department of Defense Joint Intelligence Task Force to 
Counterterrorism have demonstrably improved the sharing of information 
on the terrorism threat. The National Security Agency and National 
Imagery and Mapping Agency also have made marked improvements to their 
terrorism collection and reporting efforts. To highlight a significant 
difference, pre-September 11 information-sharing judgments often 
highlighted why something couldn't be shared. Today the emphasis is on 
figuring out how we can share the information. Every day, terrorism-
related products of these organizations demonstrate that interagency 
cooperation and information sharing have improved significantly. The 
creation of the TTIC is a sign that there is room for further 
improvement. We should not rest until we are convinced that every stone 
is being turned over to root out international terrorism and defeat 
this threat to our peace and security.
    Question. In your view, what additional changes, if any, are 
needed?
    Answer. To the degree allowed by law and proper security, 
intelligence and law enforcement agencies must be able to access each 
other's databases. The Intelligence Community and law enforcement 
agencies continue to report not only what they know, but also how they 
know it. This ``source-specific'' analysis presentation has a tendency 
to drive up the classification levels of analytic products, emphasizes 
the distinctions and differences in how information is obtained, and 
perpetuates the sense of ownership of certain forms of information. In 
some cases the attribution is necessary, but in most cases it could be 
eliminated. The Intelligence Community should push for greater emphasis 
on reporting what is known about terrorist threats without specifics 
about how the community came by the knowledge. Greater effort is needed 
to inform appropriately cleared officials about what is not known.

                            HOMELAND DEFENSE

    Question. Over the past year, with the establishment of the 
positions of Under Secretary of Defense for Intelligence and Assistant 
Secretary of Defense for Homeland Defense, the Department of Defense 
has been fundamentally reorganized to better address the critical 
homeland defense mission.
    In your view, what challenges lie ahead in integrating the 
intelligence capabilities of the Department of Defense with those of 
the Department of Homeland Security and other associated Federal, 
State, and local agencies?
    Answer. The challenge facing DOD intelligence, and other 
intelligence entities, is primarily cultural. Intelligence entities 
have developed ways and means of doing things that satisfied their own 
purposes and those of their primary customers. The need to integrate 
information for homeland defense and security requires adopting new 
policies and, most importantly, new cultures.
    Question. Does the Department of Defense's existing requirements 
process adequately support the establishment of an intelligence 
requirement for the homeland defense mission?
    Answer. The establishment of both ASD/Homeland Defense and Northern 
Command will bring homeland defense and security requirements into the 
programming and resourcing processes within DOD. The defense 
intelligence needs of ASD/HLD and NorthCom will be addressed through 
the OUSD/I.

                             TRANSFORMATION

    Question. Secretary Rumsfeld has established transformation of the 
Armed Forces to meet 21st century threats as one of his highest 
priorities.
    What is the role of intelligence in the overall transformation 
process?
    Answer. Transformation is driven in significant ways by 
intelligence. The Intelligence Community provides the advance warning 
needed to design defense capabilities and effects-based results that 
can overcome future threats, to arrange the structure, posture, and 
deployment of U.S. forces, and to inform the deliberate and contingency 
planning efforts of the combatant commanders for the employment of the 
force.
    Question. Specifically for the defense Intelligence Community, what 
do you believe transformation should mean?
    Answer. For defense intelligence, it means developing, in 
coordination with the Intelligence Community as a whole, the means 
needed to provide ``exquisite'' intelligence--to know our adversaries' 
secrets without their knowing we know them. This is essential to 
avoiding surprise, especially in this era of widespread proliferation 
of weapons of mass destruction.
    In addition, it means taking advantage of information management 
techniques and modern communications to provide military users with the 
information they require, when they require it, and in formats useful 
to them. It is particularly important to provide critical, near-real-
time information to forces engaged in operations.
    It also means closing the gap--in concept, time, and cultures--
between intelligence and military operations. To do so is to enable a 
seamless transition from the collection of information to its 
employment to assessments of the effects of that employment. This 
seamlessness is key to military success on the modern battlefield.
    Question. In your view, what transformation capabilities does our 
Intelligence Community require?
    Answer. Transformation for the Intelligence Community as a whole is 
taking place now, as agencies increasingly employ existing intelligence 
capabilities as a single system of multiple parts.
    This transformation can and should be accelerated by an infusion of 
new technology to permit analysts to be more effective, to substitute 
machines for people in performing certain tedious but critical tasks 
such as database construction, translations, network analysis, etc., 
and to develop and deploy new collection capabilities to penetrate 
adversaries' denial and deception efforts in order to provide 
``exquisite'' intelligence and to survive in increasingly hostile 
environments.

                     DEFENSE INTELLIGENCE AGENCIES

    Question. The defense intelligence structure has evolved over the 
years, most recently with the creation of the Defense Human 
Intelligence Service in 1996 and the establishment of the National 
Imagery and Mapping Agency (NIMA) in 1997.
    In your view, is the current organizational structure of defense 
intelligence the best structure to support military and national 
intelligence needs?
    Answer. The existing system is engaged in a war and confronting 
simultaneous crises, and the need, it seems to me, is to do the very 
best with what we have in hand while taking every opportunity to 
maximize the current system's performance. If confirmed, I will not 
hesitate to recommend changes that would expedite achievement of those 
objectives so long as the changes did no harm to our ability to win the 
war on terrorism and to counter proliferation.
    Question. If not, what changes would you recommend to the current 
structure?
    Answer. If confirmed, my examination of current structure will 
focus on the future. I am most interested in those intelligence 
capabilities of the Department and the Nation that must be created and 
managed to deal with threats that will have to be faced over the next 
decades. I think it will take considerable study, leadership and a 
foundation of consensus amongst the next generation of intelligence 
professionals (Congressional and Executive) to achieve the kind of 
reform that must be enacted.

                           HUMAN INTELLIGENCE

    Question. The Secretary of Defense has indicated that he would like 
to have enhanced human intelligence capabilities within the Department 
of Defense.
    What are the goals and overall mission of defense human 
intelligence?
    Answer. The most immediate objective of the Secretary of Defense in 
seeking enhanced intelligence provided by human beings is to improve 
the knowledge that enables effective decision making--information 
useful down to the tactical level in the conduct of a military 
operation and that will permit U.S. forces to act with speed and 
decisive force. Technical collection is not always sufficient for these 
purposes.
    Question. In your view, what changes or additional capabilities, if 
any, are needed in the Department's human intelligence organization?
    Answer. DOD needs to associate those defense elements capable of 
providing ``actionable intelligence'' more closely with those assets 
under the DCI's control to provide a seamless transition from 
collection in support of the U.S. Government and to manage crises, to 
intelligence preparation of the battle space to advance force 
operations, and then to the support of operations and post-conflict 
operations.

               NEED FOR INDEPENDENT INTELLIGENCE ANALYSIS

    Question. There is an absolute requirement that intelligence 
analysis be independent and free of political pressure to reach a 
certain conclusion including a conclusion that fits a particular policy 
preference.
    If confirmed, are you committed to ensuring that all intelligence 
analysts within the DOD, including those who may be seconded to offices 
that are not part of the defense intelligence structure, are free from 
such pressure?
    Answer. Yes.

               TOTAL INFORMATION AWARENESS (TIA) PROGRAM

    Question. The Defense Advance Research Project Agency (DARPA) has 
developed a ``Total Information Awareness'' program, to develop and 
integrate information technologies that would enable the government to 
sift through multiple databases and sources to detect, classify, and 
identify potential terrorist activities.
    If confirmed, what would be your intentions for fielding an 
operational capability for such a program if the TIA technology project 
were to complete a successful development?
    Answer. The TIA program is a research program to help develop tools 
to track terrorists. It is not a collection program. If this DARPA 
research program were to develop tools that could be usefully provided 
to other agencies, including some within the DOD, we would be bound by 
existing statutory and regulatory restrictions, subject to the 
oversight of Congress placed upon the handling of the data those tools 
would be designed to sort and better organize.

   CONTROL OF INTELLIGENCE AGENCIES WITHIN THE DEPARTMENT OF DEFENSE

    Question. Some have suggested that the Director of Central 
Intelligence should be given sole control over all programming and 
budget execution of Federal Government intelligence programs, including 
those within the Department of Defense.
    What are your views about whether the Secretary of Defense should 
retain his current authority for developing and implementing 
intelligence programs with the defense agencies?
    Answer. The National Security Act of 1947 (as amended) and 
Executive Order 12333 created the existing arrangement between the 
Secretary of Defense and the Director of Central Intelligence. The 
Director of Central Intelligence is responsible to the President for 
national intelligence and, therefore, has specified authorities 
relative to the assets capable of providing that intelligence. A number 
of those assets reside within the DOD. They do so not out of 
convenience but because DOD, down to the tactical level of operations, 
is a primary consumer of the information provided by those assets. This 
is underscored by the designation of these agencies as combat support 
agencies.
    The Secretary of Defense is tasked under Title 50 U.S.C. to ensure 
that these agencies are capable of supporting and are responsive to the 
tasking of the Director of Central Intelligence.
    There is a process for apportioning the resources of these agencies 
to meet the needs of both the Director of Central Intelligence and the 
Secretary of Defense. Absent that process, each would find himself 
compelled to recreate, separately, the same or similar capabilities to 
meet their responsibilities.
    That each will have needs particular to his circumstances is 
understandable. Provisions exist for each to meet those needs without 
disrupting the larger relationship. The Intelligence Community 
Executive Committee is the venue for resolving any issues that may 
arise.
    In my view, the Secretary of Defense should retain his authority. 
The USD/I is being created to assist the Secretary of Defense in 
discharging his responsibilities under Title 10 and 50 U.S.C.

                          ACQUISITION PROGRAMS

    Question. Both the National Security Agency and the National 
Imagery and Mapping Agency have sizeable development and procurement 
programs underway intending to modernize their abilities to support 
their customers' intelligence needs.
    What role would you play, if confirmed, in overseeing major 
acquisition programs within the defense Intelligence Community?
    Answer. If confirmed, I will be responsible for guidance on DOD 
intelligence policy, plans, programs, requirements, and resources and 
for coordination of the same within the DOD and between the DOD and the 
Director of Central Intelligence.
    Technical support to the USD/I would be provided by, among others, 
DOD's USD/AT&L, ASD/C\3\I, and the Under Secretary of the Air Force as 
well as by the Deputy Director for Community Management and the Central 
Intelligence Agency's Director of Science and Technology.

                    DEPARTMENT OF HOMELAND SECURITY

    Question. Administration officials have indicated that the 
Department of Homeland Security, while being a customer of the new 
Terrorist Threat Integration Center (TTIC), will also have an analysis 
group with an operational role aimed at obtaining a picture of the 
threat situation in the United States and addressing vulnerabilities. 
Additionally, processing intelligence information collected from 
components of the Department of Homeland Security, such as the Coast 
Guard, INS, and Border Patrol, will be one of the tasks that must be 
accomplished.
    What role, if any, do you anticipate that the Department of Defense 
will play in the Department of Homeland Security's intelligence 
collection and assessment function?
    Answer. DOD intelligence organizations already have a variety of 
relationships with various components of the new Department of Homeland 
Security, including the Coast Guard, Secret Service, Customs, and 
others. If confirmed, I would anticipate continued support to these 
activities and, in coordination with the ASD/Homeland Defense, an 
immediate initiative to work out arrangements for information sharing, 
as appropriate, with the intelligence organization established within 
the new department. The defense focus is traditionally toward foreign 
and overseas threats, but with much of our military based inside the 
United States and our role in protecting the Nation, there are likely 
to be many areas of common concern and potentially coordinated action. 
In any such actions, great care will be taken to ensure that DOD 
activities are fully in accord with the law and conducted under the 
supervision of competent authority.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Intelligence?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Susan Collins

                  TERRORIST THREAT INTEGRATION CENTER

    1. Senator Collins. Dr. Cambone, recently the administration 
initiated other reorganizations to improve our Nation's ability to 
detect and respond to possible threats. In particular, the 
administration announced the establishment of the Terrorist Threat 
Integration Center, under the authority of the Director of Central 
Intelligence, as the focal point for intelligence analysis. How will 
the Pentagon interact with this new center?
    Dr. Cambone. The DOD will contribute information developed as a 
result of its authorized activities, e.g., force protection, 
counterintelligence, preparations to conduct homeland defense missions, 
tactical operations abroad, and other activities. In return, the DOD 
will benefit by TTIC's intelligence affecting U.S. military operations, 
force protection, and homeland defense.

                       INTELLIGENCE REQUIREMENTS

    2. Senator Collins. Dr. Cambone, there are increasing demands on 
the Department of Defense's technical intelligence gathering resources. 
With the possibility of hostilities against Iraq and continuing concern 
about North Korea's development of nuclear weapons, these demands will 
continue to grow. As threats develop, do we have adequate resources to 
fulfill new intelligence requirements?
    Dr. Cambone. The DOD is in the early stages of a long-term 
commitment to balance intelligence resources against security threats. 
The OUSDI will develop a system by which to capture defense 
intelligence requirements across agencies and services, evaluate them, 
prioritize them against available resources, and, as appropriate, 
rationalize those priorities in light of those of the DCI. It will 
conduct a thorough review of existing programs; examine long-term 
threats and other criteria by which to evaluate DOD needs over the 
longer term; and then seek adjustments to DOD and NFIP programs and 
resources as appropriate.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                  TOTAL INFORMATION AWARENESS PROGRAM

    3. Senator Bill Nelson. Dr. Cambone, the Total Information 
Awareness (TIA) program has been controversial for its perceived 
threats to privacy and lack of independent oversight. What are your 
specific responsibilities and authorities relative to the research, 
development, deployment, and management of the TIA program?
    Dr. Cambone. The TIA program is a research program to help develop 
tools to track terrorists. It is not a collections program. It is a 
DARPA research program. If TIA were to develop tools that could be 
usefully provided to other agencies, including some within the DOD, we 
would be bound by existing statutory and regulatory restrictions, 
subject to the oversight of Congress placed upon the handling of the 
data those tools would be designed to sort and better organize.

                    INTELLIGENCE SATELLITE PROGRAMS 

    4. Senator Bill Nelson. Dr. Cambone, intelligence satellites are a 
critical part of DOD's intelligence and communications network. The 
future of the DOD satellite program is also tied to the future of the 
EELV. What are your specific responsibilities and authorities with 
regard to the intelligence satellite programs and will you exercise 
budgetary oversight for these programs throughout the budget process?
    Dr. Cambone. As USDI, I will have responsibility for recommending 
to the Secretary of Defense priorities for intelligence and 
intelligence-related satellite programs requirements and resources. As 
a member of the Defense Acquisition Board, I will continue to ensure 
program development. Through the program review process in the DOD and 
in coordinating NFIP proposals with the DCI's staff, I will ensure that 
throughout the budget process the Secretary's priorities are addressed. 


    5. Senator Bill Nelson. Dr. Cambone, in your view, are the 
satellite programs adequately funded in the near- and long-term?
    Dr. Cambone. Satellite programs currently underway must be managed 
carefully to ensure they are delivered on time, within cost, and 
provide desired capabilities. Future challenges will place demands on 
all of our intelligence and intelligence-related systems including 
satellite programs. We are investing now in R&D for systems that hold 
the potential to meet our future needs. As the technology for those 
programs matures, we will have better estimates of this cost.

    6. Senator Bill Nelson. Dr. Cambone, how would you prioritize among 
the various satellite programs? How would you rank order the 
intelligence collection, communications, and navigation support 
satellite programs? 
    Dr. Cambone. All are of high importance. The challenge we face is 
arranging priorities within each category to ensure that we sustain 
currently needed capability even as we put aside enough resources to 
invest in follow-on capabilities. Recommending those priorities to the 
Secretary of Defense is one of the USDI's most important roles.

                       POSITION RESPONSIBILITIES

    7. Senator Bill Nelson. Dr. Cambone, your position as Under 
Secretary of Defense for Intelligence appears to have some overlap with 
existing offices. How will your new position's responsibilities differ 
from those of the existing Assistant Secretary of Defense for C\3\I?
    Dr. Cambone. The USDI will have responsibility for intelligence and 
intelligence-related activities currently resident in ASD/C\3\I. I will 
consult with the ASD/C\3\, and coordinate with him where required, 
concerning information and other C\3\ system requirements. ASD/C\3\ 
will continue to have oversight of DOD-wide C\3\ and computer 
requirements programs and budgets and will focus on Department-wide 
information integration, on building the foundation for network-centric 
operations, and on network oversight, among other areas. I will provide 
the ASD/C\3\ intelligence information in a timely fashion that will 
permit him to adjust defense-wide capabilities to meet emerging 
challenges and to support the combatant commanders, especially in time 
of hostilities. The ASD/C\3\ retains responsibility for the C\3\ 
network, to include its interfaces, system applications, and 
information management on the network. The defense agencies and 
activities overseen by USDI will be users of that network and will rely 
heavily on the ASD/C\3\. As a result, there will be a continuous 
interchange between OUSDI as a service user and the ASD/C\3\ as a 
service provider.

                               OVERSIGHT

    8. Senator Bill Nelson. Dr. Cambone, who will be responsible for 
OSD oversight of intelligence-related space programs such as the space-
based radar?
    Dr. Cambone. The USDI will be the focal point for oversight of all 
intelligence and intelligence-related activities of the Department of 
Defense.

                       SPACE-BASED RADAR PROGRAM

    9. Senator Bill Nelson. Dr. Cambone, the space-based radar program 
is an important part of any future space architecture. How do you plan 
to `rationalize' the new space-based radar program with the Future 
Imagery Architecture (FIA) program?
    Dr. Cambone. The Transformational Space and Airborne Project, a 
joint effort between the DOD and the Intelligence Community, is the 
first step toward providing the answer to this question. At the center 
of that project is the issue of how best to employ as a single 
enterprise existing, planned, and projected space and airborne systems 
to satisfy the needs of those who depend on the knowledge they generate 
to achieve the Nation's security goals. The project also is examining 
how far technology limits can be pushed in meeting those needs, and at 
what cost. This project will help us determine which current systems 
should migrate to a new future structure and which ought we to develop 
to meet future needs. The USDI and the DDCI/CM are responsible for 
overseeing this review and reporting its results and proposals to the 
Secretary of Defense and the DCI.
                                 ______
                                 
    [The nomination reference of Dr. Stephen A. Cambone 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  February 4, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Stephen A. Cambone, of Virginia, to be Under Secretary of Defense 
for Intelligence. (New Position)
                                 ______
                                 
    [The biographical sketch of Dr. Stephen A. Cambone, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]

             Biographical Sketch of Dr. Stephen A. Cambone

    Stephen A. Cambone was appointed by the Secretary of 
Defense as Director, Program Analysis and Evaluation, on July 
1, 2002. On July 19, 2001, he was confirmed by the U.S. Senate 
as the Principal Deputy Under Secretary of Defense for Policy. 
He held that position until July 1, 2002. Prior to that, he 
served as the Special Assistant to the Secretary and Deputy 
Secretary of Defense from January 2001 to July 2001.
    Dr. Cambone was the Staff Director for the Commission to 
Assess United States National Security Space Management and 
Organization from July 2000 to January 2001. He was the 
Director of Research at the Institute for National Strategic 
Studies, National Defense University (INNS/NDU) from August 
1998 to July 2000. Before that he was the Staff Director for 
the Commission to Assess the Ballistic Missile Threat to the 
United States from January 1998 to July 1998; a Senior Fellow 
in Political-Military Studies at the Center for Strategic and 
International Studies (CSIS) from 1993 to 1998; the Director 
for Strategic Defense Policy in the Office of the Secretary of 
Defense from 1990 to 1993; the Deputy Director, Strategic 
Analysis, SRS Technologies (Washington Operations) from 1986 to 
1990; and a Staff Member in the Office of the Director, Los 
Alamos National Laboratory from 1982 to 1986.
    Dr. Cambone graduated from Catholic University in 1973 with 
a B.A. degree in Political Science, from the Claremont Graduate 
School in 1977 with an M.A. degree in Political Science, and 
from the Claremont Graduate School in 1982 with a Ph.D. in 
Political Science. His numerous awards include the Secretary of 
Defense Award for Outstanding Service in 1993 and the Employee 
of the Year Award with SRS Technologies (Washington Operations) 
in 1988.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Dr. Steven A. 
Cambone in connection with his nomination follows:]

                                                  February 7, 2003.
Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Under Secretary of Defense, 
Intelligence. It supplements Standard Form 278, ``Executive Personnel 
Financial Disclosure Report,'' which has already been provided to the 
committee and which summarizes my financial interests.
    I do not believe that any of the financial interests listed on my 
Standard Form 278 will create any conflict of interest in the execution 
of my new governmental responsibilities if I am confirmed. However, any 
potential conflict of interest issues will be resolved as indicated in 
the ethics agreement attached to my SF 278. There are no additional 
potential conflicts of interest to report in Part C of the Committee's 
Biographical and Financial Information Questionnaire (or 
Questionnaire). Additionally, I have no other interests or liabilities 
in any amount with any firm or organization that is listed as a 
``Department of Defense Prime Contractor Receiving Awards over 
$25,000.''
    During my term of office, neither I, nor my spouse, will invest in 
any organizations identified as Department of Defense contractors or 
any other entity that would create a conflict of interest with my 
governmental duties.
    If confirmed, I am committed to serve in this position at the 
pleasure of the President throughout his term of office.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation other than that which was reported in Part D of my 
Questionnaire. To the best of my knowledge, there have never been any 
lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated. To the best of my knowledge, 
I am not presently the subject of any governmental inquiry or 
investigation.
    I am not, to the best of my knowledge, a member of certain 
organizations/professional societies, as has been previously provided 
to the committee. None should pose any conflict of interest with regard 
to my governmental responsibilities. I trust that the foregoing 
information will be satisfactory to the committee.
            Sincerely yours,
                                                Stephen A. Cambone.
                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Stephen Anthony Cambone.

    2. Position to which nominated:
    Under Secretary of Defense for Intelligence.

    3. Date of nomination:
    February 4, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    Bronx, New York; June 22, 1952.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Margaret Taaffe Cambone.

    7. Names and ages of children:
    Maria Cambone; 12 years.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Our Lady of Lourdes High School; 9/1966-6/1970; H.S. Diploma; 6/
1970.
    Catholic University; 9/1970-5/1973; B.A., Political Science; 5/
1973.
    Claremont Graduate School; 1974-1977; M.A., Political Science; 
1977.
    Claremont Graduate School; 1977-1981; Ph.D., Political Science; 
1982.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Director, Strategic Defense Policy; Office of the Secretary of 
Defense/ISP, DOD; Room 2D459, Pentagon, Washington, DC; 4/1990-4/1993.
    Self-employed; Los Alamos Lab/SAIC/National Institute for Public 
Policy; 1809 Barbee Street, McLean, VA; 5/1993-10/1997.
    Senior Fellow, Political-Military Studies; Center for Strategic and 
International Studies; 1800 K Street, NW, Washington, DC; 6/1993-7/
1998.
    Staff Director; IPA, Ballistic Missile Threat Commission; HQ CIA, 
Langley, VA; 11/1997-7/1998.
    Director of Research; Institute for National Strategic Studies; 
National Defense University; Marshall Hall, Fort McNair, Washington, 
DC; 8/1998-11/2000.
    Staff Director, Commission to Assess United States National 
Security Space Management and Organization (detailed from National 
Defense University); 2100 K Street, NW, Suite 300, Washington, DC; 7/
2000-1/2001.
    Distinguished Research Professor; Institute for National Strategic 
Studies; National Defense University; Marshall Hall, Fort McNair, 
Washington, DC; 12/2000-7/2001.
    Staff Assistant, Presidential Transition Office (detailed from 
National Defense University); 1800 G Street, NW, Washington, DC; 1/13/
2001-1/21/2001.
    Special Assistant to the Secretary of Defense (detailed from 
National Defense University); 1000 Defense Pentagon, Washington, DC; 1/
22/2001-7/2001.
    Principal Deputy Under Secretary of Defense Policy; 2000 Defense 
Pentagon, Washington, DC; 7/2001-6/2002.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Nominated--to serve on the Commission to Assess United States 
National Security, Space Management and Organization.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Detailed to the Bush/Cheney Transition Team from National Defense 
University.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Dole Campaign, 1996, $1,000.
    I may have contributed to other local campaigns:
      Colleen Sheehan, Congress, PA, c. 1996.
      John Eastman, Congress, CA, c. 1998.
      William B. Allen, U.S. Senate, CA, c. 1996.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Secretary of the Navy, Distinguished Public Service, 2003.
    Secretary of Defense Award for Outstanding Service, 1993.
    Employee of the Year, SRS Technologies (Washington Operations), 
1988.
    Ph.D. awarded with High Honors, Claremont Graduate School, 1982.
    Best Master's Degree Thesis, Government Department, Claremont 
Graduate School, 1977.
    Earhart Fellow, 1976-1977.
    Blue Key, Honorary Award, 1973.
    Pi Sigma Alpha, +9, c. 1974-1980.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    ``Threats and Risks Prompting a Commitment to Ballistic Missile 
Defense (BMD),'' National Missile Defence and the Future of Nuclear 
Policy, Occasional Paper, Institute for Security Studies--Western 
European Union, September, 2000.
    With Ivo Daalder, Stephen J. Hadley and Christopher Makins, 
``European Views of National Missile Defense,'' Policy Paper, The 
Atlantic Council, September, 2000.
    ``An Inherent Lesson in Arms Control,'' The Washington Quarterly, 
Vol. 23, No.2 (Spring 2000).
    ``After the Assessment: Responding to the Findings of the Rumsfeld 
Commission.'' Director's Colloquium, Los Alamos National Laboratory, 
February 9, 1999.
    A New Structure for National Security Policy Planning, (Washington, 
DC: CSIS Press), 1998.
    ``Demarcation Issues Between Strategic and Theater Systems: A 
Response [to an Administration View],'' Robert L. Pfalzgraff, Jr., ed., 
Security Strategy and Missile Defense (Cambridge, MA; Institute for 
Foreign Policy Analysis), 1996.
    With Colin Grey, ``The Role of Nuclear Forces in U.S. National 
Security Strategy: Implications of the B-2 Bomber,'' Comparative 
Strategy, Vol. 15, No.1 (Fall 1996).
    With Patrick J. Garrity, ``The Future of U.S. Nuclear Policy,'' 
Survival, Vol. 36, No.4 (Winter 1994-5).
    With Don M. Snider and Daniel Goure, ``Defense in the Late 1990s: 
Avoiding the Trainwreck'' CSIS Report, 1995.
    ``Readiness Standards for the Future,'' prepared for the Institute 
for National Security Studies, National Defense University, Washington, 
DC, 1995.
    ``An Approach to Defense S&T and Providing Technological 
Superiority for U.S. Military Forces,'' CNSS, Los Alamos National 
Laboratory, 1995.
    ``The Coming of Age of Air and Space Power,'' with Dan Goure, CSIS 
Report, September 1997.
    ``NATO Enlargement: The Debate in the U.S. Senate,'' CSIS Report, 
September 1997.
    ``NATO Enlargement: Implications for the Military Dimension of 
Ukraine's Security,'' The Harriman Review, Vol. 10, No.3, Winter 1997.
    ``Will the Senate Endorse NATO's Enlargement,'' RUSI Journal, Vol, 
142, No.6, December, 1997.
    ``NATO's New Members: Ready for Accession,'' unsigned Strategic 
Comments for the International Institute for Strategic Studies, Vol. 3, 
No. 10, December, 1997.
    ``European Unified Political-Military Planning and Control: The 
Creation, Organization and Control of a European Force,'' Gert de Nooy, 
ed., The Role of European Ground and Air Forces after the Cold War (The 
Hague: Netherlands Institute of International Relations/Clingendael), 
1997.
    ``ABM Treaty Compliance: U.S. Air Force Single Site NMD Concept,'' 
for National Security Research Inc., with Linton Brooks, Signey 
Graybeal, Keith Payne, William Graham, Patricia McFate, Willis Stanley, 
June 1996.
    ``NATO Expansion: A Strategic Perspective,'' U.S. Defense 
Intelligence Agency, 1996.
    Preface to ``Medium Extended Air Defense System and the Euro-
Atlantic Defense Relationship,'' CSIS Report, March 1996.
    ``Organizing for Security in Europe: What Missions, What Forces, 
Who Leads, Who Pays?'' Graduate Program in International Studies, 
Working Paper 95.5, Old Dominion University, 1996.
    ``Role of the United States in the Future of Europe,'' Ann-Sofie 
Dahl, ed., Security in Our Time: Four Essays on the Future of Europe, 
(Stockholm, National Defense Research Establishment), 1995.
    Editor, ``NATO's Role in European Stability,'' CSIS Report, 
Washington, DC, 1995.
    ``Time to Define a New US-CIS Relationship,'' Europe Orientale et 
Centrale: Les Options de L 'Europe Occidentale (Brussels: Centre 
d'Etudes de Defense, Institut Royal Superieur de Defense), 1995.
    ``The Implications of U.S. Foreign and Defence Policy for the 
Nordic and Baltic Region,'' Arne O. Bruntland, Don M. Snider, eds., 
Nordic Baltic Security: An International Perspective, CSIS Report, 
Washington, DC, 1995.
    ``The United States and Theater Missile Defense in North-east 
Asia,'' Survival, Vol. 39, No.3, Autumn, 1997.
    ``Weapons Proliferation: Australia, the U.S. and the Strategic 
Equilibrium of the Asia-Pacific'' in Roger Bell, Tim McDonald and Alan 
Tidwell, editors, Negotiating the Pacific Century (Sydney: Allen & 
Unwin), 1996.
    ``The Political Setting,'' Dick A. Leurdijk, ed., A UN Rapid 
Deployment Brigade: Strengthening the Capacity for Quick Response (The 
Hague: Netherlands Institute of International Relations/Clingendael), 
1995.
    ``NATO and Peacekeeping: Lessons Learned,'' U.S. Defense 
Intelligence Agency, 1995.
    ``Principles of Operational Concepts for Peacemaking,'' Ernest 
Gilman, DetlefE. Herold, eds., Peacekeeping Challenges to Euro-Atlantic 
Security (Rome: NATO Defense College), 1994.
    ``Kodak Moments, Inescapable Momentum and the World Wide Web: Has 
the Infocomm Revolution Transformed Diplomacy?'' Center for Information 
Strategy and Policy, Science Applications International Corporation, 
McLean, VA, 1996.
Testimony:
    --  ``Iran's Ballistic Missile and WMD Programs,'' Testimony before 
the Subcommittee on International Security, Proliferation and Federal 
Services, Committee on Government Affairs, United States Senate, 106th 
Congress, September 21, 2000.
    --  ``Elements of a Decision to Deploy National Missile Defense,'' 
Testimony before the Armed Services Committee, House of 
Representatives, 106th Congress, June 28, 2000.
    --  ``Elements of a Modern, Nonproliferation Policy,'' Testimony 
before the Senate Foreign Relations Committee, March 21, 2000.
    --  ``Issues Surrounding the 50th Anniversary Summit of NATO,'' 
Testimony before the Senate Foreign Relations Committee, Subcommittee 
on European Affairs, April 21, 1999.
    --  ``Qualifications of Poland, Hungary and the Czech Republic for 
NATO Membership,'' Testimony prepared for the Senate Committee on 
Foreign Relations, 105th Congress, October 22, 1997.
    --  ``Prepared Statement on the Costs of NATO Enlargement,'' 
Appendix 4, The Debate on NATO Enlargement, Hearings before the 
Committee on Foreign Relations, United States Senate, 105th Congress, 
1st Session, Committee Print S. Hrg. 105-285.
    --  ``The ABM Treaty and Theater Missile Defense,'' Testimony 
before the Military Research and Development Committee of the Committee 
on National Security, House of Representatives, 104th Congress, March 
21, 1996.
    --  ``Space Programs and Issues,'' Testimony before the 
Subcommittee on Strategic Forces of the Senate Armed Services 
Committee, 104th Congress, May 2, 1995.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have not delivered formal speeches. I have, however, participated 
in numerous panel discussions, colloquies, etc. Those presentations 
frequently were developed into articles. Examples include:

    --  ``After the Assessment: Responding to the Findings of the 
Rumsfeld Commission.'' Director's Colloquium, Los Alamos National 
Laboratory, February 9, 1999.
    --  ``Demarcation Issues Between Strategic and Theater Systems: A 
Response [to an Administration View],'' Robert L. Pfalzgraff, Jr., ed., 
Security Strategy and Missile Defense (Cambridge, MA; Institute for 
Foreign Policy Analysis), 1996.
    --  ``Organizing for Security in Europe: What Missions, What 
Forces, Who Leads, Who Pays?'' Graduate Program in International 
Studies, Working Paper 95.5, Old Dominion University, 1996.
    --  ``Role of the United States in the Future of Europe,'' Ann-
Sofie Dahl, ed., Security in Our Time: Four Essays on the Future of 
Europe, (Stockholm, National Defense Research Establishment), 1995.
    --  ``Time to Define a New U.S.-CIS Relationship,'' Europe 
Orientale et Centrale: Les Options de L 'Europe Occidentale (Brussels: 
Centre d'Etudes de Defense, Institut Royal Superieur de Defense), 1995.
    --  ``The Political Setting,'' Dick A. Leurdijk, ed., A U.N. Rapid 
Deployment Brigade: Strengthening the Capacity for Quick Response (The 
Hague: Netherlands Institute of International Relations/Clingendael), 
1995.
    --  ``Principles of Operational Concepts for Peacemaking,'' Ernest 
Gilman, Detlef E. Herold, eds., Peacekeeping Challenges to Euro-
Atlantic Security (Rome: NATO Defense College), 1994.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Stephen A. Cambone.
    This 7th day of February, 2003.

    [The nomination of Dr. Stephen A. Cambone was reported to 
the Senate by Chairman Warner on March 6, 2003, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on March 7, 2003.]
                              ----------                              

    [Prepared questions submitted to John Paul Woodley, Jr., by 
Senator Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. Yes, I support full implementation of these reforms. The 
objectives of the Goldwater-Nichols Act most directly relevant to the 
mission of the Assistant Secretary of the Army (Civil Works) are as 
important today as when the act was passed. They provide for more 
efficient and effective use of defense resources and they improve the 
management and administration of the Department of Defense (including 
the Department of the Army).
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. It is my understanding that the Army has fully implemented 
the Goldwater-Nichols reforms.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The important goals of Congress in enacting these defense 
reforms, as reflected in Section 3 of the Goldwater-Nichols Department 
of Defense Reorganization Act, can be summarized as strengthening 
civilian control; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; and enhancing the effectiveness of 
military operations and improving the management and administration of 
the Department of Defense.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in Section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes, I agree with the goals of Goldwater-Nichols.

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Assistant Secretary of the Army for Civil Works?
    Answer. The duties and functions of the Assistant Secretary of the 
Army for Civil Works are specified in Section 3016 of Title 10 of the 
United States Code and Department of the Army General Orders No. 3, 
dated July 9, 2002. Section 3016 of Title 10 states that the Assistant 
Secretary of the Army (Civil Works) ``shall have as his principal duty 
the overall supervision of the functions of the Department of the Army 
relating to programs for conservation and development of the national 
water resources, including flood control, navigation, shore protection, 
and related purposes.'' General Order No. 3 further specifies that this 
includes:

        <bullet> developing, defending, and directing the execution of 
        the Army Civil Works policy, legislative, and financial 
        programs and budget;
        <bullet> developing policy and guidance for and administering 
        the Department of the Army regulatory program to protect, 
        restore, and maintain the waters of the United States in the 
        interest of the environment, navigation, and national defense;
        <bullet> developing policy guidance and conducting oversight 
        for the U.S. Army Corps of Engineers programs in support of 
        other Federal and non-Federal entities, except those activities 
        that are exclusively in support of the United States military 
        forces;
        <bullet> in coordination with the Deputy Chief of Staff, G-3, 
        developing policy for and directing the foreign activities of 
        the U.S. Army Corps of Engineers, except those foreign 
        activities that are exclusively in support of United States 
        military forces overseas; and
        <bullet> formulating and overseeing the program and budget of 
        Arlington National Cemetery and Soldiers' and Airmen's Home 
        National Cemetery.

    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. My service as Deputy Attorney General of Virginia for 
Government Operations and as Virginia's Secretary of Natural Resources 
give me a background in public policy and public administration, 
especially policy and administration pertaining to the environment and 
natural resources. This experience has been broadened by Federal 
service in the Office of the Secretary of Defense, dealing with policy 
and oversight for the Defense Department's environmental and natural 
resource conservation programs. My more than 20 years' service as an 
active and Reserve Army judge advocate provide some insight into the 
Army as an institution and the role of the Assistant Secretary for 
Civil Works in that institution.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Assistant Secretary 
of the Army for Civil Works?
    Answer. Yes, I intend to take several actions to enhance my 
expertise as Assistant Secretary of the Army (Civil Works). If 
confirmed, I will travel to Corps of Engineers divisions to see first-
hand many of the infrastructure development and environmental 
restoration projects. My goal is to gain a fuller understanding of the 
issues that surround the planning, design, construction, operation and 
maintenance of these projects. I intend to reach out to Members of 
Congress, the other Federal agencies, State and local interests, study 
and project sponsors, and other stakeholders to gain a deeper 
appreciation of their perspectives in areas of mutual concern.
    I also will work closely with the Chief of Engineers and the 
Director of Civil Works to ensure that I am fully informed and prepared 
to address the important issues I would oversee if confirmed as 
Assistant Secretary of the Army (Civil Works). I look forward to the 
challenge and experience this position affords.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Secretary of the Army would prescribe for you?
    Answer. I expect to be asked to carry out the duties and functions 
of the Assistant Secretary of the Army (Civil Works) as articulated in 
General Orders Number 3, dated July 9, 2002.

                             RELATIONSHIPS

    Question. Please describe how you envision your working 
relationship, if confirmed, with the following:
    The Secretary of the Army
    Answer.

        <bullet> I will work closely with the Secretary of the Army in 
        furthering the goals and priorities of the President. 
        Consistent with the General Orders, I expect the Secretary to 
        rely on me to oversee the Civil Works program of the Army Corps 
        of Engineers and the programs of Arlington National Cemetery 
        and Soldiers' and Airmen's Home National Cemetery.

    Under Secretary of Defense for Logistics and Materiel Readiness

        <bullet> I will work through the Secretary of the Army to form 
        a close and constructive relationship with the Deputy Under 
        Secretary of Defense (Logistics, Materiel Readiness) in areas 
        of mutual interest.

    The Under Secretary of the Army
        <bullet> I look forward to working with the Under Secretary of 
        the Army to learn his perspectives and capitalize on his 
        experience as Acting Assistant Secretary of the Army (Civil 
        Works), in order to ensure a seamless transition in oversight 
        of the Army Civil Works program and the Army national cemetery 
        program.

    Deputy Under Secretary of Defense for Installations and Environment

        <bullet> Having worked for the Deputy Under Secretary of 
        Defense for Installations and Environment, I look forward to 
        continuing our constructive relationship, working through the 
        Secretary of the Army, in areas of mutual interest.

    The Assistant Secretary of Defense for Homeland Defense

        <bullet> I will work through the Secretary of the Army to form 
        a close and constructive relationship with the Assistant 
        Secretary of Defense for Homeland Defense to ensure that the 
        full array of assets of the Army Corps of Engineers is 
        available to support the national defense, including the 
        engineering and technical management and emergency response and 
        recovery capabilities associated with the Army Civil Works 
        program.

    The Assistant Secretary of the Army for Installations and 
Environment

        <bullet> I will work to form a close and constructive 
        relationship with the Assistant Secretary of the Army 
        (Installations and Environment) in areas of mutual interest.

    The Chief of Staff of the Army and the Army Staff

        <bullet> If confirmed, I will establish and maintain a close, 
        professional relationship with the Chief of Staff as he 
        performs his duties as the senior military leader of the Army.

    The Chief of Engineers

        <bullet> I believe the relationship between the Assistant 
        Secretary of the Army (Civil Works) and the Chief of Engineers 
        best serves the interests of the Nation when it is based on 
        mutual respect, trust, and cooperation. Both positions have 
        enormous responsibilities and demand great attention to very 
        complex issues. I believe the current Chief of Engineers, LTG 
        Robert Flowers, and I will have such a relationship. Our 
        ability to be responsive to the President's priorities and to 
        the policy directives of Congress depends greatly on the 
        success of this relationship.

    State Governors

        <bullet> The Army and its Corps of Engineers must remain 
        committed to working cooperatively with Governors and local 
        authorities for the benefit of local citizens and for 
        sustainable development and protection of the Nation's natural 
        resources. These cooperative efforts must be undertaken in the 
        context of Civil Works authorities and legal responsibilities. 
        These responsibilities often require a balancing of diverse 
        interests. The proper reconciliation of these interests demands 
        open communication among all parties. I am committed to 
        establishing and maintaining a full and open dialogue with the 
        Governors on all issues of mutual interest.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the Assistant Secretary of the Army for Civil Works?
    Answer. Historically the Nation's rich and abundant water and 
related land resources provided the foundation for our successful 
development and rapid achievement of preeminence within the 
international community. Since the beginning of our Nation, the Army 
Corps of Engineers has been a great asset, providing engineering 
support to the military, developing our Nation's water resources, and 
restoring and protecting our environment. The Corps has improved the 
quality of our life by making America more prosperous, safe, and 
secure. That said, the Corps must be flexible and evolve if it is to 
continue to make important contributions to the Nation and respond to 
today's problems. There are many pressing needs in this country for 
water resources development and environmental restoration. Perhaps the 
three greatest Civil Works challenges we face are the need to maintain 
the Corps' existing infrastructure, the need to repair our damaged 
environment, and the need to ensure the physical security of the Corps' 
infrastructure around the country.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. We must all work together to define the appropriate role 
for the Corps of Engineers in addressing these problems. The challenges 
the Corps faces are complex, and there are many difficult decisions to 
make. It is of paramount importance that we bring all interests to the 
table and that all have a voice in the development of solutions to our 
Nation's problems. If confirmed, I will engage in an open and 
cooperative dialogue with Congress, other Federal agencies, States, 
tribes, and local governments on the many important challenges that the 
Army Corps of Engineers faces. With regard to infrastructure security, 
if confirmed I will work with the Corps to ensure the protection of its 
infrastructure against natural and manmade disasters, including acts of 
terrorism.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Assistant Secretary of the Army 
for Civil Works?
    Answer. I would not identify any specific structural problems with 
the performance of the function of the Assistant Secretary of the Army 
for Civil Works. The many difficult decisions on complex issues of both 
local and national importance are bound to be controversial at times, 
and require an open mind and a willingness to entertain input from and, 
if possible, to reconcile differing points of view.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. I have not yet developed a specific plan. One of my first 
priorities will be to meet with the Chief of Engineers and with 
officials in the administration and Congress to seek their input and to 
develop a plan for how the Army can best fulfill the Civil Works 
mission in furtherance of the national interest.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Assistant Secretary 
of the Army for Civil Works?
    Answer. As Assistant Secretary of the Army for Civil Works, I would 
work to ensure effective management and administration of the Army 
Civil Works program and the Army's national cemetery program. I would 
seek ways to more efficiently use the Nation's resources in the 
development and execution of these programs to ensure that the 
taxpayers' dollars are wisely spent.

           CIVILIAN OVERSIGHT OF THE ARMY CORPS OF ENGINEERS

    Question. On March 30, 2000, then Secretary of the Army Caldera 
announced a series of reforms intended to strengthen civilian oversight 
and control over the Army Corps of Engineers Civil Works program. The 
Secretary's memorandum stated:

        ``The [Assistant Secretary] shall have full authority to 
        establish the final position of the Department of the Army on 
        any policy, programmatic, legislative, budgetary, or other 
        organizational matter involving or affecting the civil works 
        functions and their implementation, unless directed otherwise 
        by me.''

    What is your view of this memorandum? What steps have been taken to 
implement it and what concern, if any, do you have about its full 
implementation?
    Answer. It is my understanding that the directives in that 
memorandum were never implemented. I also understand that the current 
Chief of Engineers and a prior Assistant Secretary jointly signed a 
memorandum laying out the philosophy that would guide their efforts as 
they carried out their respective responsibilities. I have no reason to 
believe that philosophy should change. The challenges and complex 
issues that arise in the Civil Works program demand a close, 
professional relationship between the Assistant Secretary and the Chief 
of Engineers, based on mutual respect, trust, cooperation and full 
communication. I am committed, if confirmed, to establishing and 
maintaining such a relationship with the Chief, in order to respond 
effectively to the President's priorities and the policy directives of 
Congress.
    Question. What is your view of the relative authority of the Chief 
of Engineers, the Assistant Secretary of the Army for Civil Works, the 
Secretary of the Army, the Army Chief of Staff, and the Secretary of 
Defense with regard to the civil works function of the Army Corps of 
Engineers?
    Answer. My view of the relative authority of the Chief of 
Engineers, the Assistant Secretary of the Army for Civil Works, the 
Secretary of the Army, the Army Chief of Staff, and the Secretary of 
Defense with regard to the civil works function of the Army Corps of 
Engineers follows:
    Secretary of Defense. As head of the Department of Defense, the 
Secretary of Defense has full authority, direction, and control over 
all its elements. He exercises this power over the Corps of Engineers 
through the Secretary of the Army, whose responsibility for, and 
authority to conduct, all affairs of the Army is subject to the 
authority, direction, and control of the Secretary of Defense. If 
confirmed, I will cooperate fully with the Secretary of Defense and the 
President in fulfilling the administration's national defense 
priorities and efficiently administering the Corps of Engineers in 
accordance with the policies established by the Office of the Secretary 
of Defense.
    The Secretary of the Army. As head of the Department of the Army, 
the Secretary of the Army is responsible for, and has the authority 
necessary to conduct, all affairs of the Department of the Army. He may 
assign such of his functions, powers, and duties as he considers 
appropriate to the Under Secretary of the Army, as well as the 
Assistant Secretaries of the Army, and require officers of the Army to 
report to these officials on any matter.
    The Chief of Staff of the Army. The Chief of Staff of the Army 
performs his duties under the authority, direction, and control of the 
Secretary of the Army and is directly responsible to the Secretary. The 
Chief of Staff also performs the duties prescribed for him by law as a 
member of the Joint Chiefs of Staff.
    The Assistant Secretary of the Army for Civil Works. The Assistant 
Secretary of the Army for Civil Works is principally responsible for 
the overall supervision of the Army's Civil Works program, including 
programs for conservation and development of the national water 
resources, flood control, navigation, and shore protection. The complex 
issues that arise in this area demand a close, professional 
relationship between the Assistant Secretary and the Chief of 
Engineers, based on mutual respect, trust, cooperation, and full and 
open communication. I am committed to establishing and maintaining such 
a relationship with the Chief, in order to respond effectively to the 
President's priorities and the policy directives of Congress.
    The Chief of Engineers. As a member of the Army Staff, the Chief of 
Engineers reports to the Chief of Staff, through the Vice Chief of 
Staff, with respect to military matters. The Chief of Engineers reports 
to the Assistant Secretary of the Army (Civil Works) on civil works 
functions of the Army, including those relating to the conservation and 
development of water resources and the support for others program. The 
Chief of Engineers also reports to the Assistant Secretary of the Army 
(Civil Works) with respect to most other matters for which the Chief 
may be responsible. In the area of installation activities, the Chief 
reports to the Assistant Secretary of the Army (Installations & 
Environment), who has principal responsibility for all Department of 
the Army matters related to installations and the environment.
    Question. In your view, does the Corps need to make fundamental 
changes in the way it operates? If so, what changes would you 
recommend?
    Answer. While I believe the Corps of Engineers is a fundamentally 
sound organization, I nevertheless would look for ways for it to become 
more adept at working with its Federal and non-Federal partners in 
solving very real problems for our citizens. The Corps has strong 
technical abilities and has proven time and time again that it can 
solve difficult problems. I would seek ways for the Corps to become 
more innovative and creative in serving the President, not only in 
domestic Civil Works and emergency response, but also in the Nation's 
vital national security interests.

                        RELATIONS WITH CONGRESS

    Question. The position of Assistant Secretary of the Army for Civil 
Works often involves issues of great significance to States and 
localities and their elected officials in Congress.
    If confirmed, how would you view your role in addressing such 
matters with Congress?
    Answer. If confirmed, I would view my role in addressing difficult, 
politically charged issues as one of facilitating full and open 
communication among all interested parties, be they others within the 
executive branch, Members of Congress, or the public. I intend to 
appropriately involve all interested parties and make decisions that 
take into account all relevant information.
    Question. What procedures would you follow regarding consultation 
with Congress prior to issuing any secretarial decisions or 
announcements regarding reforms that may effect the execution of the 
civil works and environmental functions of the Army Corps of Engineers?
    Answer. While I have not yet developed a specific plan, I recognize 
the importance of consultation with Congress prior to implementing any 
reforms that may affect the execution of the civil works and 
environmental functions of the Army Corps of Engineers.
    Question. What is your view of the role of the civilian and 
military leadership of the Army Corps of Engineers in developing goals 
for Corps programs and presenting these goals to the legislative 
branch?
    Answer. If I am confirmed, it is my intent to provide the civilian 
leadership needed to enable the Corps to be an even more valuable asset 
to the Nation. I would expect the Chief of Engineers and the Director 
of Civil Works to bring to me their recommendations in this regard. 
Representing the administration, I will work with Congress to set the 
proper direction for the Corps.

              SCRUTINY OF ARMY CORPS OF ENGINEER PROJECTS

    Question. In November 2000, the Army Inspector General found that 
three Army Corps of Engineers officials had manipulated data in a cost-
benefit analysis in order to justify a $1 billion project.
    What steps have been taken since 2000 to ensure that projects are 
appropriately analyzed and justified?
    Answer. First, let me say that the expenditure of Federal funds 
should not occur unless a proposed project demonstrates a solution to a 
public need, is in the Federal interest, has a willing and capable non-
Federal cost-sharing sponsor, will produce benefits that outweigh the 
project's costs, and is in compliance with all environmental laws and 
policies, economic principles, and engineering criteria. I understand 
that these are the principles under which all Civil Works projects are 
analyzed. I understand further that, in furtherance of these 
principles, a new Project Planning and Review team has been established 
in the Office of the Assistant Secretary of the Army for Civil Works 
with the mission of providing an Army review of, and oversight and 
quality assurance for, Corps of Engineers decision documents that 
recommend Federal action.
    Question. If confirmed, what initiatives would you take to further 
enhance civilian oversight of the execution of projects by the Army 
Corps of Engineers?
    Answer. If I am confirmed, I will work closely with the senior 
leaders of the Corps of Engineers to ensure that the Project Planning 
and Review team in my office continues to work as an integral part of a 
vertical team including the Corps headquarters, divisions, and 
districts to further strengthen the project planning and analysis 
process. In this way, we can improve performance and increase 
efficiency while still ensuring that we satisfy our oversight 
responsibilities under the Army General Orders.
    Question. What is your view of the degree of independence that 
should be provided to the economists charged with assessing the 
economic viability of Corps projects and the role of the senior 
civilian and military leadership of the Corps in reviewing the work of 
those economists?
    Answer. While I am not yet familiar with the details of the 
technical and policy review process followed by the Corps of Engineers 
in managing feasibility studies, the process needs to ensure that the 
many professionals who are involved in those studies are afforded an 
appropriate level of independence.
    Corps of Engineers professionals at all levels need to follow 
established regulations, procedures, and policy in providing unbiased 
and professional analyses in determining whether a project is, or is 
not, economically justified. Like any other organized system of 
analysis, the integrity of this process is critically dependent on all 
Corps of Engineers professionals doing their jobs in analyzing, 
assessing, and providing the documentation upon which the merits of a 
proposed Civil Works project may be weighed.
    The role of the senior civilian and military leadership is to 
ensure the integrity of the system to provide an independent policy, 
legal, and technical assessment of each proposed project, and then to 
rely on that documentation as the basis for their recommendations to 
policy decisionmakers to accept, reject, or modify a proposed action.

                   NATIONAL ACADEMY OF SCIENCES STUDY

    Question. In July 2002, the National Academy of Sciences 
recommended independent reviews of large-scale civil works projects 
proposed by the Army Corps of Engineers.
    What is your view of this recommendation?
    Answer. Although I am not yet familiar with the details of the 
National Academy study, I believe such a review would have value, 
provided it does not needlessly increase the cost of projects or delay 
decisions. An independent review program should complement existing 
technical, policy, and public reviews. Moreover, an independent review 
needs to occur when it is most effective, that is, as an integral part 
of the planning process, not after studies have been completed.
    Question. What action has been taken, if any, in response to the 
recommendations of the National Academy of Sciences?
    Answer. I understand that the President's budget for the Civil 
Works program for fiscal year 2004 provides funding specifically to 
establish an independent peer review. The Corps planning process must 
address diverse and often contradictory interests on water resources 
management, restoration, and development. The independent review 
program will facilitate the resolution of such concerns in a timely and 
effective manner and, in the long run, will expedite project delivery.

                               NAVIGATION

    Question. The Army Corps of Engineers has built and maintains an 
intra coastal and inland network of commercial navigation channels, and 
locks and dams for navigation, which comprise an integral parts of the 
Nation's critical infrastructure. The Corps also maintain 300 
commercial harbors, through which pass 2 billion tons of cargo a year, 
and more than 600 smaller harbors. Significant amounts of heavy 
equipment and supplies bound for potential overseas military operations 
move by ship through ports maintained by the Civil Works program.
    What do you view as the greatest challenges facing the Army with 
respect to the execution of its navigation mission?
    Answer. I expect one of the greatest challenges with the execution 
of the navigation mission to be the maintenance and modernization of 
aging infrastructure. An equally significant challenge to the 
navigation mission is the management of hundreds of millions of cubic 
yards of dredged material removed from our Nation's marine 
transportation harbors and waterways.
    Question. Are there aspects of this mission which you believe 
should be transferred from the Department of the Army?
    Answer. This is a challenging question and one that I will be 
prepared to answer after I have had the benefit of comprehensive 
discussions with Members of Congress, Civil Works stakeholders, and 
other Army and Corps senior leaders. I believe that analysis of this 
concept should take place only in accordance with Sec. 109 of H. J. 
Res. 2, as and when that provision takes effect.
    Question. In your view, how can the Corps best respond to 
environmental concerns in carrying out its navigation mission?
    Answer. If I am confirmed, I will work closely with others in 
Government, the environmental community, and private industry to seek 
the proper balance between supporting the Nation's economic growth 
through a competitive port and waterway system and fulfilling our 
responsibilities for environmental stewardship. I look upon the 
navigation mission as an opportunity to highlight the Army's and the 
Corps commitment to the environment, including the use of dredged 
material for beneficial uses, such as habitat and marsh restoration.

                         ENVIRONMENTAL MISSION

    Question. The Corps is responsible for environmental restoration 
projects at Department of Defense Formerly Used Defense Sites and also 
at Department of Energy Formerly Utilized Sites Remedial Action 
Program. Under the DOE program, the Army Corps of Engineers cleans up 
former Manhattan Project and Atomic Energy Commission sites, making use 
of expertise gained in cleaning up former military sites, and civilian 
hazardous waste sites under the Environmental Protection Agency 
``Superfund'' program.
    What do you view as the greatest challenges facing the Army with 
respect to the execution of its environmental restoration mission?
    Answer. The Department of Defense Formerly Used Defense Sites 
(FUDS) program is carried out by the Army Corps of Engineers as the 
Executive Agent for the entire Defense Department. This program would 
not be within the purview of my responsibilities if I am confirmed as 
the Assistant Secretary of the Army (Civil Works). However, based on 
experience in my current position, I would say that the challenge in 
the FUDS program is to demonstrate greater progress in the cleanup of 
these sites.
    The Formerly Utilized Sites Remedial Action Program (FUSRAP) would 
be under my oversight, if I am confirmed as Assistant Secretary of the 
Army (Civil Works). As I understand it, Congress directed several years 
ago that FUSRAP become part of the Civil Works program of the Army 
Corps of Engineers as a means to expedite the accomplishment of the 
clean-up of these sites. Like many other programs, I would see the 
current challenge as achieving that goal within the limited funding 
available, given today's economic and national security environment.
    The Corps implements environmental restoration and protection 
projects as part of its Civil Works mission, the most well known of 
which is restoration of the Everglades. In fact, the Corps has become a 
leader in the restoration and protection of our Nation's environment. I 
think the greatest challenges facing the Army with respect to its Civil 
Works environmental restoration mission are working with Federal, 
Tribal, and local governments to plan and implement projects using 
watershed or ecosystem perspectives, ensuring that water resources 
projects are formulated using sound science, and implementing post-
construction monitoring where appropriate to facilitate adaptive 
management, and ensure projects are producing the benefits that were 
intended.
    Question. Are there aspects of this mission which you believe 
should be transferred from the Department of the Army?
    Answer. This is a challenging question and one that I will be 
prepared to answer after I have had the benefit of comprehensive 
discussions with Members of Congress, Civil Works stakeholders, and 
other Army and Corps senior leaders. I believe that analysis of this 
concept should take place only in accordance with Sec. 109 of H.J. Res. 
2, as and when that provision takes effect.
    Question. What is your vision for this aspect of the Corps' 
mission?
    Answer. I understand that the Corps of Engineers environmental 
restoration and protection mission has continued to grow, and I 
anticipate that these projects will remain popular all across the 
country. People want clean water and air, and a healthy environment to 
live in, and Corps environmental projects have made significant 
contributions to our Nation's environmental health.
    Question. If confirmed, how would you propose to address the Corps' 
environmental funding requirements?
    Answer. If I am confirmed, I will work closely with the Corps of 
Engineers, officials within the administration, and Congress in 
reviewing funding requirements not only for the critical environmental 
activities of the Corps, but also for other, equally-important Civil 
Works program areas, such as commercial navigation and flood and storm 
damage reduction. We need to find the proper balance among these 
purposes. Given the funding constraints associated with current 
economic conditions and national defense priorities, it is important 
that the Army carefully consider these matters in order to provide the 
Nation with an effective, efficient, and well-balanced Civil Works 
program.

                 MISSION OF THE ARMY CORPS OF ENGINEERS

    Question. If confirmed, how would you preserve the integrity of the 
Corps's environmental and civil works mission?
    Answer. At this time I have no specific proposals. However, I do 
understand that, through its Civil Works program, the Army Corps of 
Engineers has a unique responsibility to balance environment and 
development in the public interest. If I am confirmed, I will preserve 
the integrity of civil works missions to protect and restore the 
environment and to promote national economic development by making the 
environment an integral part of all civil works activities.
    Question. What are your views about the potential performance of 
regulatory functions presently performed by the Army Corps of Engineers 
by other governmental or nonmilitary entities?
    Answer. This is a challenging question and one that I will be 
prepared to answer after I have had the benefit of comprehensive 
discussions with Members of Congress, Civil Works stakeholders, and 
other Army and Corps senior leaders. I believe that analysis of this 
concept should take place only in accordance with Sec. 109 of H.J. Res. 
2, as and when that provision takes effect.

      DEPARTMENT OF HOMELAND SECURITY AND PROTECTION OF HOMELAND 
                             INFRASTRUCTURE

    Question. The establishment of the Department of Homeland Security 
is one of the U.S. Government's largest ever cabinet-level 
reorganizations. Despite this reorganization, the Department of Defense 
will continue to play a critical role in homeland defense.
    What coordination do you expect to take place between the office of 
the Assistant Secretary of the Army for Civil Works and the newly 
established Department of Homeland Security?
    Answer. The Army Corps of Engineers has long-standing relationships 
with several agencies that are being incorporated into the Department 
of Homeland Security (DHS). Under the Federal Response Plan, the Corps 
fulfills a critical role as the lead Federal agency for Public Works 
and Engineering in executing assigned disaster response and recovery 
missions in support of FEMA. I fully expect this role and strong 
relationship to continue as FEMA becomes part of the DHS structure. 
Additionally, the Corps has a clear relationship with the U.S. Coast 
Guard that requires close collaboration on port and navigable waterway 
operations and security, which I also expect to continue. I can also 
envision relationships and coordination with the Transportation and 
Border Security elements of DHS for the same reason. Finally, the Corps 
needs to maintain close relationships and coordination with DHS in 
addressing requirements for the security of the Nation's water 
infrastructure, for which the Corps has significant high priority 
infrastructure requirements and interests of its own.
    Question. Since the attacks on the World Trade Center and the 
Pentagon, what processes and new programs have been implemented, or 
would you propose if confirmed, to address heightened security and 
resource protection issues in civil works projects?
    Answer. While I am not intimately familiar with the details of 
Corps activities following September 11, I understand that the Corps 
completed security reviews and has begun design and implementation of 
security improvements for several hundred Civil Works projects in its 
inventory of locks, dams, hydropower projects and other facilities to 
determine vulnerability to terrorist threat and potential consequences 
of such an attack. Critical infrastructure assets operated and 
maintained by the Corps are vital national components of the 
transportation, water, and power infrastructure sectors. If I am 
confirmed, I will work with the Chief of Engineers to continue to 
improve security of this essential infrastructure in support of the 
global war on terrorism and the Nation's economic vitality.

                            WETLANDS PERMITS

    Question. Section 404 of the Clean Water Act requires landowners or 
developers to obtain U.S. Army Corps of Engineers permits to carry out 
activities involving disposal of dredged or fill material into 
navigable waters of the United States, including wetlands. For more 
than a decade, the stated goal of the Federal Government has been ``no 
net loss of wetlands.'' A review by the National Academy of Sciences of 
June 26, 2001, concluded that the Army Corps of Engineers program for 
mitigation of wetlands losses has fallen short of the stated goal of no 
net loss of wetlands. Subsequently, the administration prepared its 
National Wetlands Mitigation Plan of December 24, 2002.
    Do you support the goal of ``no net loss of wetlands''?
    Answer. Yes. The goal of ``no overall net loss of wetlands'' was 
established by President George Bush in the early 1990s and was 
recently reaffirmed by President George W. Bush in December 2002 with 
the release of the National Wetlands Mitigation Action Plan.
    Question. Do you believe that we are currently meeting that goal?
    Answer. This is one question I intend to explore if I am confirmed. 
I understand there are differences of opinion on whether or not the 
Corps is meeting the goal. I also understand that there are monitoring 
and record-keeping issues that should be addressed in this connection.
    Question. What is your view of the recommendations of the National 
Academy of Sciences report?
    Answer. I have looked at that report, and it raises a number of 
points that merit consideration. I am sure the report's recommendations 
are being reviewed by the Corps of Engineers. If confirmed, I will meet 
with the Corps to seek their input and to develop a plan for addressing 
the report recommendations.
    Question. What specific steps do you believe that the Army Corps of 
Engineers should take to move us closer to the goal of ``no net loss of 
wetlands''?
    Answer. At this time I do not have specific steps in mind. However, 
if I am confirmed, I plan to meet with the Corps regarding the 
Regulatory Program generally and this important goal in particular, and 
explore options for improved performance, including documentation of 
performance toward achieving this goal.
    Question. What is your view of recently proposed changes and 
revised guidance for wetlands program of the Army Corps of Engineers?
    Answer. I have not had the opportunity to study the revised 
guidance in any detail, but I have been informed that the guidance is 
expected to help Corps regulators and the regulated public to 
accomplish successful, self-sustaining compensatory mitigation 
projects.

                     STATE WATER QUALITY STANDARDS

    Question. In the past, the Army Corps of Engineers has not always 
been required to meet State water quality standards in constructing and 
operating its water resources projects.
    Do you believe that the Army Corps of engineers should be required 
to meet State water quality standards in constructing and operating 
Corps projects?
    Answer. As a general matter, yes, I do.
    Speaking in general terms, under Section 401 of the Clean Water 
Act, the Army Corps of Engineers is required to obtain water quality 
certifications from States for discharges of pollutants, such as 
dredged or fill material, that are part of Corps projects.
    Subsection 404(r) of the Clean Water Act waives the requirement to 
obtain the State water quality certification if the necessary 
information on the effects of the proposed discharge of dredged or fill 
material is included in an Environmental Impact Statement on the 
proposed project submitted to Congress before the discharge takes place 
and prior to either authorization of the project or appropriation of 
construction funds. Nevertheless, it is the policy of the Corps to seek 
State water quality certification rather than utilizing the subsection 
404(r) exemption provision in most circumstances. I understand that the 
Corps does not invoke Subsection 404(r) to circumvent State section 401 
water quality certification requirements, out of respect for and 
deference to State water quality policy determinations, and I approve 
of this policy.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of the 
Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

                Question Submitted by Senator Mark Pryor

                         WORKING RELATIONSHIPS

    1. Senator Pryor. Mr. Woodley, thank you for supporting your 
country by agreeing to take on the difficult duties of Assistant 
Secretary of the Army for Civil Works. I want you to know that I plan 
to support your nomination.
    You mention in your written testimony that you plan to travel to 
Corps divisions across the country to examine projects first-hand. We 
would welcome your visit to Arkansas and I hope that you can put us on 
your travel schedule soon. Let me know when you plan to be in Arkansas.
    You forthrightly acknowledge the daunting job of balancing the 
competing interests at work on many Corps projects. I applaud your 
commitment to create working relationships within the Army and with 
State Governors.
    You mention that you plan to work closely with other stakeholders. 
I would like to know what steps you plan on taking in creating useful 
dialogues with environmental groups such as, for example, the National 
Resources Defense Council, and private industry, such as power 
utilities.
    Mr. Woodley. If confirmed, I would work to facilitate full and open 
communication among all interested parties, be they others within the 
executive branch, Members of Congress, or public stakeholders, 
including environmental groups, power utilities, and other interested 
parties. I intend to appropriately involve all interested parties and 
make decisions that take into account all relevant information.
                                 ______
                                 
    [The nomination reference of John Paul Woodley, Jr., 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                  January 22, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    John Paul Woodley, Jr., of Virginia, to be an Assistant Secretary 
of the Army, vice Michael Parker.
                                 ______
                                 
    [The biographical sketch of John Paul Woodley, Jr., which 
was transmitted to the committee at the time the nomination was 
referred, follows:]

             Biographical Sketch of John Paul Woodley, Jr.

    On October 2, 2001, Deputy Under Secretary of Defense 
(Installations and Environment) Raymond F. DuBois, Jr., announced the 
appointment of John Paul Woodley, Jr. as Assistant Deputy Under 
Secretary of Defense (Environment).
    Mr. Woodley is the principal assistant and advisor to Deputy Under 
Secretary DuBois for all environmental, safety, and occupational health 
policies and programs in DOD. Those programs include cleanup at active 
and closing bases, compliance with environmental laws, conservation of 
natural and cultural resources, pollution prevention, environmental 
technology, fire protection, safety and explosive safety, and pest 
management and disease control for defense activities worldwide. He 
will also advise DuBois on international military agreements and 
programs pertaining to environmental security.
    Prior to his appointment, Mr. Woodley served as Secretary of 
Natural Resources in the Cabinet of Virginia Governor Jim Gilmore from 
January 1998 until October 2001. As Secretary of Natural Resources, Mr. 
Woodley supervised eight Virginia agencies responsible for 
environmental regulation, permitting and enforcement, natural and 
historic conservation, and outdoor recreation, including fisheries and 
wildlife management.
    Prior to his appointment as Secretary of Natural Resources, Mr. 
Woodley served as Deputy Attorney General of Virginia for Government 
Operations beginning in 1994. The Government Operations Division of the 
Attorney General's Office represents all State agencies assigned to the 
Secretaries of Administration, Finance, Transportation, Commerce and 
Trade, and Natural Resources, in addition to the Virginia Alcoholic 
Beverage Control Board, the Workers' Compensation Commission, the 
Virginia Lottery and the Virginia Retirement System.
    Mr. Woodley attended Washington & Lee University in Lexington, 
Virginia, on an Army R.O.T.C. scholarship. He received a bachelor of 
arts degree from Washington & Lee in 1974, and was elected to Phi Beta 
Kappa. Mr. Woodley also attended the Law School at Washington & Lee, 
where he received his juris doctor degree cum laude in 1977.
    Immediately after law school, Mr. Woodley was law clerk to the late 
U.S. District Judge D. Dortch Warriner of the U.S. District Court in 
Richmond from 1977 until 1979.
    Mr. Woodley served on active duty with the U.S. Army Judge Advocate 
General's Corps from 1979 until 1985, serving in Germany and at the 
Pentagon. Mr. Woodley left active military service in 1985 and returned 
to Richmond, where he was practiced law until 1994. Mr. Woodley holds 
the rank of Lieutenant Colonel in the Army Reserve, and has been 
awarded the Army Achievement Medal, the Army Commendation Medal (1st 
Oak Leaf Cluster), and the Meritorious Service Medal (2nd Oak Leaf 
Cluster).
    Mr. Woodley, 48, is a native of Shreveport, Louisiana. Mr. Woodley 
and his wife, Priscilla, have three children, Elizabeth (15), Cornelia 
(13), and John Paul III (10).
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by John Paul 
Woodley, Jr., in connection with his nomination follows:]

                                                  January 23, 2003.
Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Assistant Secretary of the Army, Civil 
Works. It supplements Standard Form 278, ``Executive Personnel 
Financial Disclosure Report,'' which has already been provided to the 
committee and which summarizes my financial interests.
    I do not believe that any of the financial interests listed on my 
Standard Form 278 will create any conflict of interest in the execution 
of my new governmental responsibilities if I am confirmed. However, any 
potential conflict of interest issues will be resolved as indicated in 
the ethics agreement attached to my SF 278. There are no additional 
potential conflicts of interest to report in Part C of the Committee's 
Biographical and Financial Information Questionnaire (or 
Questionnaire). Additionally, I have no other interests or liabilities 
in any amount with any firm or organization that is listed as a 
``Department of Defense Prime Contractor Receiving Awards over 
$25,000.''
    During my term of office, neither I, nor my spouse, will invest in 
any organizations identified as Department of Defense contractors or 
any other entity that would create a conflict of interest with my 
governmental duties.
    If confirmed, I am committed to serve in this position at the 
pleasure of the President throughout his term of office.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation other than that which was reported in Part D of my 
Questionnaire. To the best of my knowledge, there have never been any 
lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated. To the best of my knowledge, 
I am not presently the subject of any governmental inquiry or 
investigation.
    I am a member of certain organizations/professional societies, 
which have been previously provided to the committee. None should pose 
any conflict of interest with regard to my governmental 
responsibilities. I trust that the foregoing information will be 
satisfactory to the committee.
            Sincerely yours, 
                                             John Paul Woodley, Jr.

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John Paul Woodley, Jr.

    2. Position to which nominated:
    Assistant Secretary of the Army (Civil Works).

    3. Date of nomination:
    January 22, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 28, 1953; Shreveport, Louisiana.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Priscilla Woodley.

    7. Names and ages of children:
    Elizabeth, 16; Cornelia, 14; John Paul, 11.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    B.A., Washington & Lee, 1974; J.D., Washington & Lee, 1977.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    1977-79, Law Clerk, USDC, Richmond, VA;
    1979-1985, U.S. Army;
    1985-1990, Private law practice;
    1990-1994, Assistant Commonwealth's Attorney for Henrico County, 
Virginia;
    1994-1998, Deputy Attorney General of Virginia for Government 
Operations;
    1998-2001, Secretary of Natural Resources for the Commonwealth of 
Virginia;
    2001-present, Assistant Deputy Under Secretary of Defense for 
Environment;
    1985-present, Army Reserves, Judge Advocate General Corps, 
Lieutenant Colonel.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    See 9 above.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Virginia State Bar.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Richmond City Republican Committee, Member.
    Henrico County Republican Committee, Member.
    Third District Republican Committee, Chairman.
    Republican National Lawyer's Association, Board Member.
    Virginia Republican Lawyer's Association, Chairman.
    Candidate for City Council of Lexington, Virginia.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    See (a) above.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.

  30 October 1997..................  Gilmore for Governor..        $100
  12 November 1997.................  Friends of Jerry              $100
                                      Kilgore.
  12 December 1997.................  Republican Black              $100
                                      Caucus.
  12 September 1998................  Campaign for Honest           $100
                                      Change.
  19 October 1998..................  Bliley for Congress...        $100
  27 May 1999......................  Hord for Delegate.....        $100
  23 March 2000....................  Henrico Republican            $110
                                      Committee.
  07 July 2000.....................  Republican National           $500
                                      Lawyers Assn..
  16 March 2001....................  Republican National           $100
                                      Lawyers Assn..



    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Meritorious Service Medal (2 oak leaf clusters);
    Army Commendation Medal (1 oak leaf cluster);
    Army Achievement Medal.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    None.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have made speeches to numerous groups and conferences. I have 
records of only a few of these, which I will provide.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                             John Paul Woodley, Jr.
    This 28th day of January, 2003.

    [The nomination of John Paul Woodley, Jr., was reported to 
the Senate by Chairman Warner on March 27, 2003, with the 
recommendation that the nomination be confirmed. The nomination 
was referred to the Committee on Environment and Public Works, 
which conducted a hearing on the nomination on April 1, 2003, 
and reported to the Senate by Chairman Inhofe on April 9, 2003, 
with the recommendation that the nomination be confirmed. The 
President signed a recess appointment of Mr. Woodley on August 
22, 2003.]
                              ----------                              

    [Prepared questions submitted to Ambassador Linton F. 
Brooks by Senator Warner prior to the hearing with answers 
supplied follow:]

                        Questions and Responses

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have over four decades of experience in national 
security, much of it associated with nuclear weapons. I was deployed on 
four nuclear-equipped ships, serving as Weapons, Executive, and 
Commanding Officer. In Washington I had assignments as Special 
Assistant to the Assistant to the Secretary of Defense for Atomic 
Energy, responsible for all Navy nuclear programs and for international 
nuclear weapons cooperation, as Director of the Navy's Strategic and 
Theater Nuclear Warfare Division, and as Director of Defense Programs 
on the staff of the National Security Council. In the latter assignment 
I was the White House official responsible, among other things, for all 
Department of Energy nuclear programs and for U.S. nuclear testing 
policy during the final third of the Reagan administration. Finally, I 
have served in the National Nuclear Security Administration for 16 
months, the last 7 as Acting Administrator.
    Question. Do you believe that there are any steps that you need to 
take to enhance your expertise to perform the duties of the Under 
Secretary for Nuclear Security, Department of Energy and Administrator, 
NNSA?
    Answer. I believe there are no specific steps that I need to take 
at this time to prepare myself for the duties of Under Secretary for 
Nuclear Security/Administrator, NNSA. The experience I have gained 
during the 7 months in which I have been acting in this position, 
combined with four decades of national security background, has given 
me the requisite background and knowledge. Because of the broad scope 
of NNSA's responsibilities, I naturally expect to continue to learn and 
develop if I am confirmed.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Under Secretary for Nuclear Security, Department of Energy and 
Administrator, NNSA?
    Answer. I believe the most important challenges I face will 
include:

        <bullet> Maintaining a safe, secure, and reliable nuclear 
        stockpile without underground nuclear testing.
        <bullet> Managing the reorganization announced in December 2002 
        in a way that gains the promised benefits of increased 
        effectiveness while ensuring fair and equitable treatment of 
        people.
        <bullet> Implementing the President and the Secretary's agenda 
        on improving the protection of highly-enriched uranium and 
        plutonium worldwide in order to prevent this material from 
        falling into the wrong hands.
        <bullet> Ensuring that we continue the underlying science to 
        support the stockpile of the future, adapting the current 
        stockpile if needed.
        <bullet> Maintaining adequate security for NNSA's facilities, 
        assets, and personnel, over the long-term in the face of what 
        may be a permanent transformation of the threat. Maintaining 
        adequate security over the long-term in the face of what may be 
        a permanent, and continuous transformation of the threat. 
        Ultimately we must move beyond guns, gates, and guards to a 
        greater use of technology and a systems architecture for 
        security.
        <bullet> Replacing the experienced people who will be coming to 
        the end of their Federal service over the next few years and 
        sustaining a challenging and rewarding environment to recruit 
        and retain the uniquely talented people that are so essential 
        to our mission success.
        <bullet> Continuing to modernize an aging infrastructure.
        <bullet> Focusing on the future. My experience with Washington 
        jobs is that it is very easy to be consumed by the urgency of 
        the in-basket and very difficult to think about the future.

    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. I intend to work closely with my NNSA colleagues and 
Congress on each of these issues. I believe successful implementation 
of the restructuring of NNSA is key to many of these issues, as is 
continued strong budgetary support from Congress.
    Question. Please explain the importance you place on continuing to 
ensure a unique organizational identity for the NNSA and what steps you 
would take to establish such an identity if confirmed?
    Answer. I am a strong supporter of maintaining a unique 
organizational identity for NNSA as a separately organized entity 
within the Department of Energy. Such an organizational identity is not 
an end in itself but a means to ensure effective implementation of 
NNSA's national security responsibilities to maintain the safety, 
security and reliability of the nuclear stockpile.
    Thanks to the good work of my predecessor and the strong support of 
the Secretary of Energy, I do not believe I will need to take 
additional steps to establish such an identity. Instead I believe that, 
if confirmed, I should focus my energies on ensuring that NNSA delivers 
the benefits to the country for which it was created.

                           OVERALL MANAGEMENT

    Question. In your view, when will the Department of Energy be able 
to say that the NNSA has been completely established and implemented as 
envisioned by Congress when the NNSA was created in the National 
Defense Authorization Act for Fiscal Year 2000?
    Answer. I believe that considerable progress has already been made. 
If we are able to implement the restructuring announced in December 
2002 in a fashion that eliminates bureaucracy and improves oversight, 
if we are able to use new models of oversight to improve contractor 
performance, and if we are able to continue the fiscal discipline in 
planning, programming, and budgeting established by my predecessor, 
then I believe that by the end of 2004 NNSA will be completely 
established and implemented as envisioned by Congress when the NNSA was 
created.
    Question. In addition to NNSA's current reorganization efforts, 
what else needs to be done to meet the vision for the NNSA as set forth 
in the Fiscal Year 2000 National Defense Authorization Act?
    Answer. My predecessor established NNSA as a separately organized 
entity, therefore my focus should be on making that entity effective 
and efficient in order to meet the intent of Congress. I believe the 
NNSA management resulting from the organizational decisions announced 
in December will be effective. The elimination of a layer of management 
and the creation of a service center should improve both efficiency and 
effectiveness. If confirmed, my primary management focus will be to 
ensure that this reorganization succeeds. I do not currently have 
additional initiatives to propose.
    Question. On December 20, 2002, NNSA announced a plan to 
restructure its management, including a 20 percent reduction in Federal 
personnel in 5 years.
    How do you believe the NNSA management should be restructured to be 
more effective?
    Answer. I believe the most important elements of the restructuring 
of December 2002 are the elimination of a management layer and of 
overlapping responsibilities and the clarification of lines of 
authority. I do not presently see the need for further major changes 
beyond those already announced.
    Question. How will the announced personnel reductions help meet 
this goal?
    Answer. I view personnel reductions as the result of the 
elimination of duplication and of a shift to a more effective mode of 
contractor oversight. Announcing them now forces NNSA managers to 
prioritize and streamline work and helps ensure that the benefits of 
our restructuring are actually achieved.
    Question. NNSA, in large measure, was created in response to 
security lapses at the Los Alamos National Laboratory. Unfortunately, 
we have seen that security lapses have continued to occur. Section 
3212(b)(10) of the Fiscal Year 2000 National Defense Authorization Act 
provides that ``the Administrator has authority over, and is 
responsible for, all programs and activities of the administration, 
including administration of contracts, including the management and 
operations of the nuclear weapons production facilities and the 
national security laboratories.''
    If confirmed, what would be your plan to make sure that security 
lapses do not continue at the NNSA facilities?
    If confirmed, what policies would you institute to improve the 
manner in which managers of NNSA facilities deal with security matters?
    Answer. I believe these two questions are so integrally related 
that they must be answered together. In my view, there is no single 
answer to improving security. Sound polices, constant management 
attention, vigorous programs of self-assessment and external review, a 
strong security culture, and a habit of sharing lessons learned across 
the complex are all required.
    If confirmed, I would expect to place particular emphasis on the 
role of senior management. In my opinion, previous approaches to NNSA 
oversight confused the issue of accountability and responsibility. The 
new organization I announced on December 20, 2002, and which, if 
confirmed, I am determined to implement, places responsibility for 
security management squarely on the shoulders of the Federal line 
managers at each site. With clear responsibility and accountability 
should come stronger and more effective Federal oversight. At the same 
time, I believe that the contractors--especially the top managers--who 
operate NNSA facilities must likewise be held accountable. I have 
attempted to do so while Acting Administrator and, if confirmed, will 
continue to do so.

                            WEAPONS PROGRAMS

    Question. If confirmed, what specific steps would you take to 
retain critical nuclear weapons expertise, particularly design 
capabilities, in the NNSA workforce?
    Answer. Design expertise resides in the three NNSA national 
laboratories, Los Alamos, Lawrence Livermore, and Sandia. I believe 
retaining experienced individuals at these laboratories is a function 
of providing them with a stable environment and with technically 
challenging work. Thus, if confirmed, I will work to resolve the 
uncertainties caused by current management problems at Los Alamos and 
to ensure that the NNSA budget continues to support a strong science 
component.
    Question. If confirmed, what specific steps would you take to 
ensure that new weapons designers are appropriately trained?
    Answer. I believe new weapons designers are best trained by working 
on actual complex nuclear design issues. Ongoing efforts to extend the 
life of the current stockpile and science based stockpile stewardship 
provide some opportunity, but in addition I believe it is important to 
have a robust advanced concepts program. Such a program is, of course, 
valuable for other reasons as well; it helps provide options for future 
adaptation of the stockpile to meet changing conditions and 
capabilities to assess foreign nuclear weapons activities. If 
confirmed, I will work to ensure a sustained advanced concept program 
is an integral part of our overall weapons efforts.
    Question. Do you support retaining the capability to re-manufacture 
every component expected to be found in the stockpile? Please explain 
what you believe are the most pressing re-manufacturing needs.
    Answer. Yes, I support retaining such a capability. With only a few 
exceptions, each major nuclear weapon component will ultimately need to 
be replaced given an extended lifetime for current stockpiled weapons. 
To evaluate the most pressing production needs, the NNSA conducted a 
Production Readiness Assessment of the manufacturing sites within the 
Nuclear Weapons Complex, in 2000, 2001, and 2002. Collectively, these 
assessments addressed (1) the ability of the production complex to 
implement current schedules, (2) an estimate of the production capacity 
of the complex, and (3) an evaluation of our ability to rebuild, within 
36 months, any item currently used in the enduring stockpile.
    Of the current non-operational production capabilities the most 
significant areas of concern are primary and secondary nuclear 
component production. NNSA has programs in place to correct for these 
shortfalls. I expect LANL will deliver a certifiable W88 pit this year 
and a certified W88 pit by fiscal year 2007. At the Y-12 plant in 
Tennessee, we have recently resumed wet chemistry operations and expect 
to have enriched uranium processes operational next year. If confirmed, 
I will support the continuation of these efforts.
    Question. What role do you foresee nuclear weapons playing in U.S. 
defense and foreign policy strategies in the coming decade and beyond?
    Answer. In January 2002, the President submitted the Nuclear 
Posture Review to Congress. In that review, he noted that nuclear 
weapons will continue to be essential for assuring allies and friends 
of U.S. security commitments, dissuading arms competition, and 
deterring hostile leaders by holding at risk those installations that 
such leaders value and that cannot be held at risk by conventional 
means. At the same time, the President noted that fundamental changes 
in international security have taken place in recent years that require 
us to think of nuclear weapons as part of a ``New Triad'' of nuclear 
and non-nuclear strike capabilities, defensive forces, and a responsive 
defense R&D and industrial base of which the nuclear weapons enterprise 
is a key element. I believe this analysis of the role of nuclear 
weapons in defense and foreign policy will remain valid for the 
foreseeable future.
    Question. What role will the Administrator of the NNSA play in 
determining U.S. defense and foreign policy and the role of nuclear 
weapons?
    Answer. My predecessor played a significant role in the conduct of 
the Nuclear Posture Review. If confirmed, I would expect to play a 
similar role in any future reviews as well as in ongoing implementation 
of the Nuclear Posture Review. I would expect my major contribution 
would be in ensuring that the technical capabilities of the nuclear 
weapons complex were adequately considered in any policy deliberations.

                     STOCKPILE STEWARDSHIP PROGRAM

    Question. When do you believe the science-based Stockpile 
Stewardship Program will be in a position to continuously certify our 
enduring nuclear weapons stockpile as safe, secure, and reliable, 
without the need for underground nuclear testing?
    Answer. In my view, it is not possible to predict when the 
Stockpile Stewardship Program will be in a position to continuously 
certify the Stockpile with such high confidence that we can guarantee 
that nuclear testing will never be required. I do not believe that 
Stockpile Stewardship and nuclear testing are alternatives. The goal of 
Stockpile Stewardship is to ensure a safe, secure, reliable, and 
effective nuclear deterrent. It is our hope to be able to do this 
without testing, and I foresee no immediate need for testing. But the 
complex conditions of a nuclear explosion and the inherent 
uncertainties associated with the aging of nuclear weapons make it 
impossible to preclude the possibility that we will someday need to 
test. In my view, a test to confirm or correct a problem identified by 
the Stockpile Stewardship Program is not a failure of Stockpile 
Stewardship, but a confirmation of the wisdom of the program.
    Question. What is your view of the Department of Energy (DOE) 
Stockpile Stewardship Program and the likelihood that it will allow the 
U.S. to maintain its nuclear deterrent in the near- and long-term? 
Please identify any vulnerabilities that you see in the Stockpile 
Stewardship Program that should be addressed either by DOE or by 
Congress, and how they should be addressed.
    Answer. I have great confidence in the Stockpile Stewardship 
Program and do not see any vulnerabilities requiring action at this 
time. Because this program is so important, I will, if confirmed, 
continue to monitor it closely and will promptly advise Congress if 
problems are identified.
    Question. Do you believe that the DOE Stockpile Stewardship Program 
is fully integrated with Department of Defense requirements? If not, 
please explain those steps you would propose, if confirmed, to ensure 
that the plans and programs of the NNSA are fully integrated and linked 
with the requirements established by DOD.
    Answer. Yes, I believe the program is appropriately integrated with 
the Department of Defense.
    Question. When do you anticipate there will be a 2003 annual 
Stockpile memorandum?
    Answer. The NNSA and the Department of Defense have been working to 
revise the Stockpile structure to comply with the guidance from the 
Nuclear Posture Review. These efforts are nearing conclusion and I 
expect the next Nuclear Weapons Stockpile Memorandum to be submitted to 
the President in May 2003.

                         NUCLEAR POSTURE REVIEW

    Question. The Nuclear Posture Review announced the administration's 
plan to reduce the number of operationally deployed strategic nuclear 
warheads to between 1,700 and 2,200 by the year 2012.
    With the large number of refurbishment and other life extension 
program activities planned over the next decade, is there enough 
facility capacity and personnel in the NNSA workforce to also take on a 
large increase in dismantlement during the same decade?
    Answer. The current nuclear weapons industrial complex is limited 
in the number of weapons that can be processed at the Pantex Plant, 
with the work split among units undergoing surveillance, refurbishment, 
or dismantlement. Planned renovations of existing facilities at Pantex 
will expand capacity sufficient to meet the anticipated Nuclear Posture 
workload. During the period fiscal year 2008 through fiscal year 2010--
when three new refurbishments (W80, W76, B61) are underway--there would 
be only a small reserve capacity available to fix unanticipated 
problems in the stockpile, respond to new warhead production 
requirements, or handle a potentially increased dismantlement workload. 
That reserve capacity would increase after fiscal year 2014. Under 
current planning assumptions, NNSA would not define a firm schedule for 
dismantlements; rather it would ``load level'' the Pantex operation by 
scheduling dismantlements in a way that does not interfere with ongoing 
refurbishments or new production.
    Question. Does the Nuclear Posture Review have an effect on 
dismantlement rates?
    Answer. Some warheads are likely to be retired and dismantled as a 
result of the Nuclear Posture Review, but that determination has not 
yet been made beyond reaffirming the earlier decision to retire the W62 
warhead by 2009.
    Question. What should be the policy for setting a priority between 
these potentially competing activities?
    Answer. Under current planning assumptions, NNSA would not define a 
firm schedule for dismantlements; rather it would ``load level'' the 
Pantex operation by scheduling dismantlements in a way that does not 
interfere with ongoing refurbishments or new production. I believe this 
is a sound approach.
    Question. What weapons systems, if any, will be dismantled as a 
result of the Nuclear Posture Review?
    Answer. The President announced in November 2001 that the United 
States would reduce its operationally deployed strategic nuclear 
warheads to between 1,700 and 2,200 over the next 10 years. Some of the 
warheads removed from operational status will become part of the 
responsive force while I expect others will be retired and dismantled. 
Specific decisions have not yet been made beyond reaffirming the 
earlier decision to retire the W62 warhead by 2009.

                     FACILITIES AND INFRASTRUCTURE

    Question. Upon its creation, NNSA inherited a dilapidated 
infrastructure throughout the aging nuclear weapons complex. At the 
request of the Department of Energy, Congress created the Facilities 
and Infrastructure Recapitalization Program (FIRP) in the National 
Defense Authorization Act for Fiscal Year 2002.
    Although FIRP appears to be making good progress in revitalizing 
our infrastructure through elimination of maintenance backlogs, what 
would be your plan, if confirmed, to make sure the current and future 
maintenance needs, under the Readiness in Technical Base and Facilities 
Program, are met to ensure FIRP goes out of business after 10 years, as 
originally planned?
    What specific standards should be applied to ensure that the 
Readiness in Technical Base and Facilities Program meets current and 
future maintenance needs across the nuclear weapons complex so that no 
additional scope is added to the FIRP?
    Answer. I believe that there are two primary tools to ensure that 
NNSA does not revert to the infrastructure problems of the past. The 
first is the strengthened Planning, Programming, Budgeting, and 
Evaluation program put in place by my predecessor. This program is 
producing a meaningful Future Years National Security Program that 
gives appropriate visibility to funding across the range of our 
programs to assure that we rebuild, revitalize, and sustain our nuclear 
weapons program infrastructure.
    The second tool is the establishment and implementation of a 
disciplined and integrated corporate infrastructure management program. 
This includes industry-based maintenance procedures and meaningful 
performance metrics for both the Readiness in Technical Base and 
Facilities and the Facilities Infrastructure Recapitalization Programs. 
A proven approach to knowing if investments in maintenance are having 
the desired effect is to measure the deferred maintenance backlog over 
time. NNSA has established goals for reducing the deferred maintenance 
backlog to within industry standards by fiscal year 2009. Similarly, 
industry practices provide for an annual investment in current year 
maintenance to assure that the deferred maintenance backlog is not 
increased. Collectively, these two efforts work to recover and sustain 
the infrastructure.
    If confirmed, I will support the continued development and use of 
these metrics in the both the Readiness in Technical Base and 
Facilities and the Facilities Infrastructure Recapitalization Programs. 
Ultimately, prevention of a recurrence of the problems of the past 
requires a commitment to maintenance on the part of NNSA leadership, 
both Federal and contractor. If confirmed, I would ensure the 
implementation of a disciplined and integrated corporate infrastructure 
management program for the NNSA. I am committed to ensuring that NNSA 
facilities and infrastructure have prudent maintenance and adequate 
funding.
    Question. What steps will you take to ensure that only the 
necessary construction projects are undertaken and how will you ensure 
that in 10 years a new FIRP is not needed?
    Answer. The NNSA's PPBE process, our formal process for 
construction project approval and evaluation and an integrated 
corporate infrastructure management program together would be the means 
by which we would assure effective management of our infrastructure. If 
confirmed, I would continue to assure focus and commitment to these 
efforts.
    Question. How will you ensure that old unneeded facilities are torn 
down, or transferred so that they will not need long-term maintenance?
    Answer. Currently NNSA intends to reduce the size of its nuclear 
complex through consolidation within existing sites and through the 
continued disposition of Cold-War legacy facilities via the 
Department's Environmental Management Program. Beyond this, our future 
efforts would include planning and execution for decommissioning, 
decontamination and disposition of excess facilities to reduce the 
nuclear weapons complex footprint and annual costs. If confirmed, I 
would continue this focus and I would work to assure that new 
construction projects are offset by an equal or greater reduction of 
square footage in our program.

                             TEST READINESS

    Question. If the President decides that underground nuclear testing 
is necessary, what are the long lead items which result in the 
scheduling of such testing 2 to 3 years in the future?
    Answer. I believe that the most probable reason for conducting a 
nuclear test is to confirm a significant problem with a weapon critical 
to the Nation's deterrent posture or to verify that a significant 
identified stockpile problem has been rectified. In this case, the 
pacing item will be the time to design the appropriate test and 
necessary instrumentation. Based on history, such design would probably 
take about 18 months (since we are speaking of a hypothetical problem, 
it is not possible to be definitive). Thus I support reducing the test 
readiness at the Nevada Test site from the current 24-36 months to 18 
months.
    Question. In your view, what is the criteria by which the President 
should determine testing if necessary?
    Answer. I believe that the President should authorize a nuclear 
test when such a test is the only means to confirm a significant 
problem with a weapon critical to the Nation's deterrent posture or to 
verify that an identified stockpile problem has been rectified. If 
confirmed, I will not hesitate to recommend such testing if required, 
although I do not foresee a need for testing at this time.
    Question. In your view, what is the optimal test readiness posture 
which NNSA should be aiming to meet?
    Answer. I believe that readiness to test within 18 months of a 
decision to do so is appropriate for the foreseeable future. If 
confirmed, I will ensure that NNSA budget requests support such a 
readiness posture.
    Question. What would your role be, if confirmed, in determining 
optimal test readiness?
    Answer. If confirmed, I will regard determining optimal test 
readiness to be part of my responsibilities, subject to direction from 
the President or the Secretary of Energy and to the availability of 
necessary appropriations by Congress.

           PIT PRODUCTION CAPABILITY AND MODERN PIT FACILITY

    Question. The Under Secretary of Defense for Policy stated in 
testimony before the Senate Armed Services Committee on February 14, 
2002, ``I believe that of the countries that have nuclear weapons we 
are the only one that does not have the capability to manufacture new 
nuclear weapons now.''
    Please describe the progress being made at the Los Alamos National 
Laboratory to manufacture certifiable W88 pits by the end of fiscal 
year 2003.
    Answer. The progress is good and I expect the milestone to be 
achieved on time. Los Alamos National Laboratory has met all critical 
path milestones required to manufacture a certifiable pit in fiscal 
year 2003. In calendar year 2002, Los Alamos manufactured five 
development W88 pits on or ahead of schedule.
    Question. Please describe the progress being made on the conceptual 
design work and environmental impact statement for a Modern Pit 
Facility.
    Answer. Progress on a Modern Pit Facility is good. Following 
approval of mission need by Secretary Abraham in May 2002 and 
notification of Congress in September 2002, NNSA initiated conceptual 
design in October 2002. NNSA plans to complete all conceptual design 
work required for a critical decision on system requirements and 
alternatives in fiscal year 2006. A decision on proceeding with a 
Modern Pit Facility and, if we are to proceed, a decision on site 
selection should occur by March 2004, following the review required by 
the National Environmental Policy Act. If confirmed, I will work to 
ensure that these milestones are met.
    Question. Has the Department of Defense made a final determination 
as to the annual number of pits by weapon type that are required?
    Answer. No.

                      SECURE TRANSPORTATION ASSETS

    Question. NNSA is responsible for transporting nuclear weapons and 
special nuclear materials, including special nuclear materials being 
transported between Environmental Management (EM) sites.
    If confirmed, what would be your plan to make sure the growing 
demand for secure transportation assets, both within Defense Programs 
(DP) and EM sites, is met?
    Answer. The Deputy Administrator for Defense Programs and the 
Assistant Secretary for Environmental Management are working together 
to integrate defense and environmental management requirements. I would 
encourage this process to continue. Ultimately, I believe we will need 
to increase the number of secure transportation assets, especially 
Federal agents. If confirmed, I will support existing plans for such an 
increase.
    Question. In your view should EM pay for the cost of shipping such 
material, including capital investment needed to meet their cleanup 
schedules?
    Answer. NNSA provides transportation of nuclear materials as a 
service to the entire Department, funding such transportation from 
within the NNSA budget. At present, I see no need to change this 
process, but will continue to review the issue if confirmed.
    Question. In your view should NNSA pay for costs of shipping to 
other DOE programs?
    Answer. NNSA provides transportation of nuclear materials as a 
service to the entire Department, funding such transportation from 
within the NNSA budget. At present, I see no need to change this 
process, but will continue to review the issue if confirmed.

                        SECURITY VERSUS SCIENCE

    Question. Despite recent counterintelligence and security failures 
at the Department of Energy's nuclear weapons labs, many have opposed 
implementing enhanced security and counterintelligence measures for 
fear that doing so would endanger the viability of the science and 
research programs carried out at these labs.
    Can you describe the relative importance you place on maintaining 
the scientific capabilities of the weapons labs and a vigilant security 
and counterintelligence posture?
    Answer. In my view, both are essential to the effective execution 
of our national security mission. Without great science, effective 
security would be meaningless. Without effective security and 
counterintelligence, the classified science so critical to national 
security could not be protected.
    Question. Do you believe these goals are at cross-purposes?
    Answer. Not at all. The two goals should be complementary; we 
cannot achieve success in great science if such success is at the 
expensive of national security, and vice versa. However, we must work 
hard to better integrate the two.
    Question. If confirmed, what would your plans be for implementing a 
revised polygraph program?
    Answer. The Secretary of Energy is legally required to promulgate a 
rule implementing a revised polygraph program, taking into account the 
results of the October 8, 2002 National Research Council Report ``The 
Polygraph and Lie Detection.'' I am participating in the development of 
that revised policy. Pending completion of our work, it is not possible 
to comment on specific plans for implementing a revised program.

                         MANAGEMENT OF THE NNSA

    Question. What do you understand the role of the Administrator of 
the NNSA to be relative to the Secretary of Energy and the Deputy 
Secretary of Energy?
    Answer. As the head of a separately organized administration within 
the Department of Energy, the Administrator of the NNSA reports 
directly to the Secretary. Simply put, I work for the Secretary and 
Deputy Secretary.
    Question. If confirmed, will you take direction from the Secretary 
of Energy and the Deputy Secretary of Energy with regard to:
    The organization of the National Nuclear Security Administration; 
the management of the National Nuclear Security Administration; policy 
development and guidance; budget formulation, guidance, and execution, 
and other financial matters; resource requirements determination and 
allocation; program management and direction; safeguards and security; 
emergency management; integrated safety management; environment, 
safety, and health operations; administration of contracts, including 
the management and operations of the nuclear weapons production 
facilities and the national security laboratories; intelligence; 
counterintelligence; personnel; and legal and legislative matters?
    Answer. Each of these areas is a formal responsibility of the 
Administrator as set forth in Section 2402 of the NNSA Act. I would 
therefore neither seek nor expect direction from either the Secretary 
or the Deputy Secretary in these areas on a routine basis (direction to 
modify the NNSA organization is prohibited by Section 2409 of the NNSA 
Act). In the 7 months I have been Acting Administrator, neither the 
Secretary nor the Deputy Secretary have sought to involve themselves in 
the internal functioning of NNSA. If, in the future, I received 
direction in these areas, I would, of course, accept it.
    Question. What is your view of the authority of the Secretary of 
Energy and the Deputy Secretary of Energy to meet with, receive 
briefings and information from, and provide direction to, officers and 
employees of the NNSA, including the Directors of the National 
Laboratories?
    Answer. As I understand the NNSA Act, in providing direction to 
officers and employees of NNSA, the Secretary or Deputy Secretary are 
to act through the Administrator. The Secretary and Deputy Secretary 
can gather information in any way they chose, including by the use of 
staff.
    Question. Do you believe that the expertise of Department of Energy 
personnel serving outside the NNSA can be helpful to you if you are 
confirmed as Administrator?
    Answer. Yes.
    Question. What is your understanding of your authority to draw on 
that expertise?
    Answer. I understand that I have essentially unlimited authority, 
except for dual-hatting.
    Question. To what extent would you expect to do so?
    Answer. If confirmed, I would expect to draw on wider expertise as 
required. My experience suggests that detailing specific individuals to 
NNSA has been the most productive way to draw on such expertise. In 
addition, my predecessor made a number of formal arrangements that I 
would continue. For example, he arranged to use the DOE Office of 
Independent Oversight and Performance Assurance to conduct reviews of 
NNSA environment, safety, health, security, cyber security, and 
emergency management activities, rather than attempt to create a 
comparable NNSA review function. As another example, DOE's Office of 
Environment, Safety and Health conducts investigations under the Price-
Anderson Act on my behalf.
    Question. Would it be helpful to you, if confirmed, to be able to 
draw upon the expertise of Department of Energy personnel outside the 
NNSA through details, dual-hatting, or other available personnel 
authorities?
    Answer. Yes, with the exception of dual-hatting, which I believe to 
be inconsistent with the concept of a separately organized NNSA.
    Question. In your view, should the Department of Energy have a 
single counterintelligence czar, who serves as both the head of the 
Department-wide Office of Counterintelligence and the Chief of Defense 
Nuclear Counterintelligence?
    Answer. The National Counter Intelligence Executive was tasked by 
Congress to conduct a study of this issue. The National 
Counterintelligence Executive report was completed in January 2003 and 
recommended the two programs be consolidated with a single manager 
reporting to the Secretary of Energy. I am still reviewing these 
conclusions and have not yet formed a final opinion.
    Question. What is your view of the extent to which the National 
Nuclear Security Administration is bound by the existing rules, 
regulations, directives, and guidance of the Department of Energy?
    Answer. In general, the National Nuclear Security Administration is 
bound by the existing rules, regulations, directives, and guidance of 
the Department of Energy. The Administrator is authorized to issue 
administration-specific policies, which may modify DOE directives, 
unless disapproved by the Secretary of Energy. I believe that the 
appropriate model is for the Secretary to set Department policy while 
the Administrator interprets policy for implementation within the NNSA. 
If confirmed, I would expect to develop a separate set of 
implementation guides for many Departmental orders.

               DEFENSE NUCLEAR NONPROLIFERATION PROGRAMS

    Question. The majority of the programs within the Office of Defense 
Nuclear Nonproliferation deal with securing, accounting for, and 
disposing of former Soviet Union WMD and their related expertise.
    What is your view of expanding these programs beyond the states of 
the former Soviet Union to address the emerging threats posed by the 
proliferation of WMD arsenals and expertise?
    Answer. I am in favor of expanding programs for securing, 
accounting for, and disposing of weapons-useable nuclear material 
(taking such actions with respect to other weapons of mass destruction 
is not, in my view, an appropriate responsibility for the National 
Nuclear Security Administration). At the same time, the United States 
has concentrated on Russia because that is where the greatest amount of 
at-risk material is. Further, the countries typically identified for 
potential assistance (India, Pakistan, and China, for example) have 
thus far shown no interest in U.S. assistance. Because the material 
protection control and accounting efforts of the United States 
Government are inherently cooperative, this may make it difficult to 
expand to other countries.
    Question. In your view, are any improvements needed in the Defense 
Nuclear Nonproliferation Programs? If so, what improvements would you 
recommend?
    Answer. I have not identified any specific improvements required in 
the Defense Nuclear Nonproliferation Program. These programs appear 
generally effective and well-managed. My biggest concern is the 
continued slow pace of commitments to specific programs by our 
international partners under the G8 Global Partnership.

                     NUCLEAR EXPLOSIONS MONITORING

    Question. In your view, are the capabilities of the United States 
for monitoring nuclear explosions sufficient to detect any nuclear 
explosions?
    Answer. No. Remote detection of nuclear explosions under all 
possible evasive and low yield scenarios is not technically possible.
    Question. What additional steps do you believe could be taken by 
the NNSA which could enhance our nuclear explosions monitoring 
capabilities?
    Answer. The NNSA research and engineering program on nuclear 
explosion monitoring is dedicated to maintaining U.S. detection 
capability on satellite-based systems and the analysis of data from 
ground-based geophysical systems. Historically NNSA supports the 
science and technology foundations to sustain existing and future 
monitoring of nuclear testing. I do not currently believe that there 
are additional steps that NNSA should be taking in this area.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary for 
Nuclear Security, Department of Energy and Administrator, NNSA?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
    Question. Do you agree to comply with statutory reporting 
requirements, including the annual weapons program report?
    Answer. Yes.
                                 ______
                                 
    [Question for the record with answers supplied follow:]

              Question Submitted by Senator Susan Collins

       NNSA COORDINATION WITH THE DEPARTMENT OF HOMELAND SECURITY

    1. Senator Collins. Ambassador Brooks, the Administrator of the 
National Nuclear Security Administration (NNSA) is charged with 
promoting international nuclear safety and nonproliferation. It is 
critical that the NNSA work closely with the new Department of Homeland 
Security in protecting our Nation from either attacks on American 
nuclear facilities, or from a smuggled weapon. Do you have any 
suggestions on how to facilitate coordination between the NNSA and the 
new Department?
    Ambassador Brooks. I believe we are off to a good start. The DOE 
and Department of Homeland Security (DHS) Memorandum of Agreement 
concluded on 28 February 2003 establishes the framework to ensure that 
the capabilities of DOE's national laboratories and sites, including 
the production plants, are made available to DHS for its missions on an 
efficient basis. DOE is committed to supporting DHS counterterrorism 
and homeland security initiatives, and related initiatives of our other 
partners in the Department of Defense and the intelligence and law 
enforcement communities that are responding to this new threat.
    In addition to these formal steps, we have taken informal steps as 
well. I have met personally with the three Under Secretaries of DHS 
with whom we will be interfacing. I have also detailed several 
experienced individuals to assist the new Department in coordinating 
its efforts with DOE.
                                 ______
                                 
               Question Submitted by Senator John Ensign

       NNSA COORDINATION WITH THE DEPARTMENT OF HOMELAND SECURITY

    2. Senator Ensign. Ambassador Brooks, as you are aware the 
President recently signed into law the Omnibus Appropriations Act for 
Fiscal Year 2003. That Act provided $35 million for a National Center 
for Combating Terrorism at the Nevada Test Site Facility. By the end of 
this year, the Nevada Test Site will have received more than $100 
million in funding for emergency response training and instructed 
nearly 10,000 emergency responders.
    Having endured the horrific attacks of September 11, our Nation now 
finds itself committed to a global war on terror. To this end it is 
imperative that we utilize every available resource to ensure our first 
responders are appropriately trained and prepared to deal with whatever 
crisis confronts us. The National Center for Combating Terrorism is the 
one facility in the country where all facets of emergency responder 
training and research can be brought together. With this knowledge, 
will you personally support and willingly work with Secretary Ridge of 
the Department of Homeland Security to ensure the National Center for 
Combating Terrorism fulfills its goal of being the Nation's premiere 
training site of emergency responders?
    Ambassador Brooks. The Nevada Test Site has unique capabilities to 
provide a wide range of training, research, and field testing of newly 
developed sensor technology for use by the Department of Homeland 
Security and its customers. I expect it to be well-utilized by the new 
Department of Homeland Security. In addition, Congress has funded the 
National Center for Combating Terrorism to provide research and 
training for emergency responders. I will work with Secretary Ridge to 
ensure that the funds are well-used and the center works effectively to 
support the national interest.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

             GENERAL ACCOUNTING OFFICE--REPORTED CONCERNS 

    3. Senator Chambliss. Ambassador Brooks, a February 26, 2002 
General Accounting Office (GAO) assessment expressed concern regarding 
the NNSA's lack of a long-term strategic approach, fragmented budgeting 
process, confused line of authority, and workforce quality. Please 
address what you have done as Deputy Administrator for Defense Nuclear 
Nonproliferation to address these concerns and fill longstanding 
vacancies within this key directorate with qualified individuals.
    Ambassador Brooks. Since assuming the position of Deputy 
Administrator for Defense Nuclear Nonproliferation on October 20, 2001, 
I have instituted a number of reforms in NNSA in direct response to the 
congressional concerns above, and in support of the President's 
Management Reform Agenda. Specifically, I worked with the former 
Administrator to develop and implement an integrated Planning, 
Programming, Budgeting, and Evaluation (PPBE) process which achieves 
the integration we have been seeking between headquarters, our national 
laboratories, and our international partners. From an organization and 
management standpoint, in December, I formally approved the 
comprehensive NNSA organization concept contained in the February 2002, 
``Report to Congress on the Organization and Operations of the National 
Nuclear Security Administration.'' This reorganization clarifies 
headquarters and field roles and responsibilities, and identifies clear 
lines of authority, and implements new business practices in NNSA. With 
respect to concerns on our workforce quality, it is my opinion that 
NNSA, and the Defense Nuclear Nonproliferation Program in particular, 
has a very high quality and diversified workforce. We have staffed most 
of the longstanding vacancies. In addition, I am continuing to 
federalize the Defense Nuclear Nonproliferation workforce with a 
combination of seasoned contractor employees with experience in the 
nonproliferation arena, and younger talent at lower levels using the 
Defense Nuclear Nonproliferation sponsored Nonproliferation Graduate 
Intern Program.
    We are also in the process of recruiting several senior level 
positions specifically targeting diverse candidates.
    In summary, I have taken substantial steps to address the concerns 
highlighted in the GAO report. Defense Nuclear Nonproliferation has 
instituted an aggressive hiring initiative and that will continue. We 
have been successful in hiring many new qualified employees dedicated 
to Federal service and to the goals of the nonproliferation program. I 
believe we will continue to be successful as we staff new vacancies 
provided by Congress in our budget.

                     NONPROLIFERATION COORDINATION 

    4. Senator Chambliss. Ambassador Brooks, in a post-September 11, 
2001 evaluation, the GAO called for greater coordination among U.S. 
nonproliferation programs. Please provide specific examples of 
initiatives you have undertaken and programs you have championed during 
your tenure as head of Defense Nuclear Nonproliferation to improve 
nonproliferation coordination and implementation among key agencies 
such as the Department of State, Central Intelligence, etc.
    Ambassador Brooks. The NNSA primarily coordinates its 
nonproliferation activities through the NSC's interagency coordination 
committees. Meetings are held frequently to address interagency 
nonproliferation issues and activities and include agencies such as the 
Departments of Defense and State as well as the Intelligence Community. 
Specifically in the area of warhead security, I undertook jointly with 
the NSC, Department of State, Department of Defense, as well as certain 
other agencies, to establish an interagency working group in order to 
ensure effective and close coordination amongst U.S. agencies involved 
in USG efforts to improve the security of Russian nuclear warheads that 
are in need of improved security. This working group has already met on 
numerous occasions and has proven to be highly beneficial.
    In addition to the NSC's interagency coordination committees and 
warhead working group, I have significantly enhanced our coordination 
and interaction with the Intelligence Community to ensure maximum 
leverage of our collective understanding and expertise to more 
effective address and mitigate the worldwide threat of WMD 
proliferation. This interagency ranges from close joint reviews of 
proposed IPP projects to gaining a better understanding of potential 
nuclear smuggling routes to support our border security mission.
    Another important initiative that I have strongly supported 
involves detailing on a full-time basis an NNSA nonproliferation expert 
to the Department of State's Bureau of Eurasion Affairs to further 
enhance our close working relationship with the Department of State in 
the threat reduction area. This relationship has specifically 
contributed to State Department's and the NNSA's collective ability to 
quickly and efficiently address threat reduction issues, including 
processes involving the approval of country clearances for NNSA 
travelers heading to Russia to perform threat reduction work.
    Finally, I would like to highlight one initiative in the area of 
R&D nonproliferation, known as the Counterproliferation Program Review 
Committee (CPRC). The purpose of the CPRC is to ensure effective 
coordination among the Department of Defense, Department of Energy, and 
the Intelligence Community on nonproliferation research and development 
and counterproliferation activities. This committee has long been an 
effective means by which the departments coordinate their activities 
and has recently developed joint R&D roadmaps.

             TRACKING AND SAFEGUARD OF HAZARDOUS MATERIALS 

    5. Senator Chambliss. Ambassador Brooks, please provide an 
assessment of capabilities within the NNSA for international tracking 
of so-called dirty bomb and foreign research reactor material and the 
prioritization on accurate tracking and safeguarding of these 
materials. 
    Ambassador Brooks. The Material Protection, Control and Accounting 
Program (MPC&A) is dedicated to safeguarding nuclear and radiological 
materials, both at a storage site and in transit. The MPC&A's 
Radiological Dispersal Device Program seeks to develop a coordinated 
and proactive strategy to locate, recover, and secure orphan sources 
throughout the former Soviet states. Currently, the task of keeping 
track of radiological materials is the responsibility of each 
individual country. Funding remains an obstacle for some countries, and 
other countries do not consider safeguarding materials a high priority. 
One of the motivations for holding the International Conference on 
Security of Radioactive Sources in Vienna this month was to encourage 
many other countries to recognize the urgency of this threat. Through 
the NNSA, the U.S. can provide critical support in the form of 
technical and financial assistance to enable countries of interest to 
properly account for nuclear and radiological material.
    In addition to these strategies that focus primarily on the sources 
at a storage site, the Second Line of Defense Program provides 
integrated, sustainable systems to detect nuclear and radiological 
smuggling and thereby significantly minimize the risk of nuclear 
proliferation and terrorism.

                    MONITORING OF NUCLEAR MATERIALS 

    6. Senator Chambliss. Ambassador Brooks, please provide specific 
actions taken by the NNSA since September 11, 2001 to enhance 
monitoring and tracking of sensitive nuclear materials.
    Ambassador Brooks. We are currently taking a comprehensive look at 
our needs for data collection and management on foreign fissile 
material holdings. The Deputy Secretary has directed me and the 
Director of Intelligence to survey all foreign fissile material 
database holdings and we have begun that effort. We are now seeking 
information from sources outside the Department. We will be analyzing 
those responses to see if there is a need for the additional data 
collection at NNSA. 
    NNSA currently uses the International Nuclear Analysis (INA) 
database which is a U.S. Government sponsored project that maintains 
the nuclear industry's information and tracks nuclear materials. INA 
tracks and monitors nuclear weapons useable inventories of 100,000 tons 
of spent fuel and 1,000 tons of plutonium at nearly 200 sites in 33 
countries. Current INA services include: nuclear material tracking; 
nuclear program modeling; topical reports on nonproliferation issues; 
and rapid responses to ad hoc requests from the nonproliferation 
community.

                 INTERNATIONAL NUCLEAR ANALYSIS PROGRAM

    7. Senator Chambliss. Ambassador Brooks, please provide the status 
of funding for the International Nuclear Analysis (INA) program, which 
monitors nuclear weapons-usable and radiological-dispersion device-
usable materials internationally.
    Ambassador Brooks. The International Nuclear Analysis (INA) 
database is a commercial product of the Nuclear Assurance Corporation 
(NAC). This product, along with NAC's Fuel Track publication, is a 
compilation from open commercial sources of international nuclear 
reactor fresh fuel shipments and calculations of spent fuel outputs. 
The MPC&A program uses INA to assimilate data on amounts of secured or 
vulnerable special nuclear material from a variety of sources, both 
sensitive and nonsensitive. NNSA will continue to fund the program in 
fiscal years 2003 and 2004. In fiscal year 2005, the Department of 
Energy's Office of Security will assume management responsibility for 
the INA program, contingent on approval of out-year funding.
                                 ______
                                 
            Questions Submitted by Senator Lindsey O. Graham

                      F-CANYON AND H-CANYON SITES

    8. Senator Graham. Ambassador Brooks, F-Canyon at Savannah River 
Site (SRS) was originally built in the early 1950s in part to recover 
plutonium-239 to support the nuclear weapons stockpile. Section 3137 of 
the NDAA for Fiscal Year 2001 prohibited the decommissioning of F-
Canyon until both the Secretary of Energy and the Defense Nuclear 
Facilities Safety Board (DFNSB) certified that all materials present at 
F-Canyon were safely stabilized and all future fissile materials 
disposition can be met by H-Canyon or other facilities. DOE is ready to 
certify the fiscal year 2001 requirements, but DFNSB is not prepared to 
certify at this time. Do any of the programs within NNSA plan to use F-
Canyon now or in the future?
    Ambassador Brooks. So long as the H-Canyon is operational, there 
are no NNSA organizations that require the use of the F-Canyon now or 
in the future.

    9. Senator Graham. Ambassador Brooks, are there any reasons now or 
in the future for which NNSA would need to utilize F-Canyon to meet 
NNSA's mission?
    Ambassador Brooks. NNSA has no reasons now or in the future to 
utilize F-Canyon. The complex-wide analysis documented in the Savannah 
River Site Canyons Nuclear Material Identification Study, dated 
February 2001, concluded that all materials in the complex potentially 
requiring canyon processing for disposition can be processed through 
the H-Canyon.

    10. Senator Graham. Ambassador Brooks, are there any materials held 
by NNSA which need to be disposed of and processed through F-Canyon? 
    Ambassador Brooks. There are no materials held by NNSA which need 
to be disposed of and processed through the F-Canyon. However, there 
may be some potential materials that require H-Canyon capabilities. The 
weapons complex is currently in the process of identifying those 
materials. 

    11. Senator Graham. Ambassador Brooks, does NNSA see any reason why 
F-Canyon should not be decommissioned?
    Ambassador Brooks. As long as H-Canyon is operational, NNSA sees no 
reason why F-Canyon should not be decommissioned.

    12. Senator Graham. Ambassador Brooks, what future utilization does 
NNSA have for H-Canyon?
    Ambassador Brooks. If the Office of Environmental Management keeps 
H-Canyon operational, the Office of Fissile Materials Disposition will 
use H-Canyon for the disposition of approximately 16 metric tons of 
off-specification surplus highly-enriched uranium (REV) that is part of 
an interagency agreement between DOE and the Tennessee Valley 
Authority. The use of H-Canyon for this purpose would extend until 
approximately the end of calendar year 2007 under current schedules. Up 
to 3 metric tons of additional off spec HEU was recommended for H-
Canyon processing in a 2001 DOE study that analyzed options for 
disposition of unallocated off-spec HEU. Processing that additional 
material would require H-Canyon to remain operational through 
approximately 2010. If H-Canyon were not available, the Department 
would have to consider other alternatives for disposing the materials.

    13. Senator Graham. Ambassador Brooks, does NNSA plan to recommend 
decommission of the H-Canyon? If so, in what year?
    Ambassador Brooks. H-Canyon is owned and operated by the Office of 
Environmental Management. As a result, it would be improper for the 
NNSA to recommend decommissioning an asset belonging to another part of 
the Department of Energy.

                            PIT FACILITIES 

    14. Senator Graham. Ambassador Brooks, since we closed the Rocky 
Flats site in 1989 the United States has no capability to manufacture 
primaries. Los Alamos has a limited capacity to manufacture pits, but 
not enough to meet the Nation's future needs. Why is the construction 
schedule for the Modem Pit Facility so long? Do we not need pit 
production capacity sooner?
    Ambassador Brooks. Designing a modern nuclear facility with 
appropriate capacity and to comply with all the attendant 
environmental, safety, and health laws requires detailed and time 
intensive planning and engineering work. 
    NNSA is working very hard to ensure that this major nuclear 
facility will meet our plutonium pit production requirements for the 
next 50 years. We plan to begin construction of this facility in 2011 
with initial production operations beginning in 2018 and full scale 
production by 2020.
    Based on currently available data on the aging of pits, the MPF 
will be available when needed to support the stockpile. In the unlikely 
event that we discover a significant problem with a pit type in the 
stockpile, there is a potential to increase the small interim pit 
manufacturing capability at Los Alamos. 

    15. Senator Graham. Ambassador Brooks, what sites are being 
considered for the construction of a Modern Pit Facility? Has a 
preferred site been identified?
    Ambassador Brooks. NNSA is now examining five candidate sites--the 
Pantex plant in Amarillo, Texas, Carlsbad, New Mexico, the Nevada Test 
Site, Savannah River, and Los Alamos--as possible locations for the 
MPF. A draft Environmental Impact Statement (EIS) will be issued later 
this spring. Following a series of public meetings, a final EIS and 
associated Record of Decision (ROD) will be issued by April 2004. The 
final EIS will identify a preferred site.
    The NNSA will prepare site specific environmental documentation if 
the ROD supports a decision to construct and operate a MPF. The fiscal 
year 2004 budget request will allow conceptual design and other 
planning activities, NEPA work, and technology development activities 
to proceed on a schedule that will support a CD-1 decision in fiscal 
year 2006.

    16. Senator Graham. Ambassador Brooks, it is my understanding that 
as we reduce the variety of nuclear warhead types in the United States 
arsenal the greater the need for a Modern Pit Facility. Is that the 
case, and if so, could you explain why?
    Ambassador Brooks. As the size and diversity of the stockpile 
declines, the safety, security, and reliability of the stockpile will 
become more vulnerable to problems in a single component such as a 
particular pit type. Should a problem arise in the stockpile that 
involves the pit, it will be critical for the United States to correct 
that problem as quickly as possible. The Modern Pit Facility is being 
designed to have a capacity to manufacture at least 125 pits per year 
and the capability to manufacture all pit types in the stockpile.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                     DEVELOPMENT OF NUCLEAR WEAPONS

    17. Senator Bill Nelson. Ambassador Brooks, the Nuclear Posture 
Review indicates that this administration may seek to develop new 
nuclear weapons. Last year the House tried to remove the legal 
prohibition on developing small nuclear weapons, so called mini-nukes. 
The Senate prevailed and the current law prohibiting such action 
remained unchanged. Has DOD developed a requirement for any new nuclear 
weapon?
    Ambassador Brooks. There are no current requirements for new 
nuclear weapons. 

    18. Senator Bill Nelson. Ambassador Brooks, is NNSA planning to do 
any work on any new nuclear weapons in fiscal year 2004? 
    Ambassador Brooks. There are no current plans for new nuclear 
weapons, nor are we developing or fielding any new nuclear warheads. We 
are, however, fulfilling our responsibility to maintain and strengthen 
our capabilities to design, develop, produce, and certify new warheads 
if we are asked to do so in the future. 

    19. Senator Bill Nelson. Ambassador Brooks, has DOE been asked to 
look at the possibility of developing small nuclear weapons, the mini-
nukes?
    Ambassador Brooks. No.

                       NUCLEAR TESTING TIMELINES

    20. Senator Bill Nelson. Ambassador Brooks, the fiscal year 2004 
NNSA budget request includes money to move NNSA from the current 
approved time to be ready to conduct a nuclear test in 24-36 months to 
18 months. Why is this action being taken and how much will it cost to 
achieve and maintain this level of readiness? 
    Ambassador Brooks. It is only prudent to continue to hedge for the 
possibility that we may in the future uncover a safety or reliability 
problem in a warhead critical to the U.S. deterrent that could not be 
fixed without nuclear testing. Were that to be the case, we might 
require a test sooner than would be provided by our current 24-36 month 
test readiness posture. As a result of the NPR, we have begun a 
transition to an l8-month test readiness posture that will enhance the 
responsiveness of stockpile stewardship efforts and thereby strengthen 
national security. We chose 18 months as a test readiness figure 
because that is typically how long it will take to diagnose and correct 
an as yet unidentified problem.
    In years prior to fiscal year 2003 request approximately $9 million 
was identified in the RTBF/Program Readiness as unique for underground 
test readiness activities at the Test Site. An additional $6 million is 
required to maintain the 24-36 month test readiness posture bringing 
the total to $15 million, an additional $10 million is needed to 
progress towards an 18 month test readiness posture. We anticipate that 
an annual total of $25 million is required to sustain an 18 month test 
readiness posture.

    21. Senator Bill Nelson. Ambassador Brooks, has there been a formal 
approval by the Nuclear Weapons Council of this level of readiness?
    Ambassador Brooks. The transition to an 18 month test readiness 
posture has been discussed with the Department of Defense, is 
consistent with the Nuclear Posture Review, and has the concurrence of 
the Nuclear Weapons Council.

                       NUCLEAR WEAPONS STOCKPILE

    22. Senator Bill Nelson. Ambassador Brooks, the nuclear weapons 
stockpile is reviewed annually to confirm its safety and reliability. 
In the most recent review the conclusion was again reached that the 
stockpile is reliable and there is no need to test. Is there any 
requirement to conduct a nuclear test at this time? 
    Ambassador Brooks. At the present time the NNSA Stockpile 
Stewardship Program continues to deliver the science and technology 
needed by the Directors of the three weapons labs to continue to 
certify to the Secretaries of Energy and Defense that the stockpile 
remains safe, secure, and reliable and that there is no need to conduct 
a nuclear test at this time.

    23. Senator Bill Nelson. Ambassador Brooks, under what 
circumstances would you recommend to the President that a resumption of 
underground nuclear testing was needed? 
    Ambassador Brooks. I would recommend a resumption of underground 
nuclear testing to the President if the laboratory directors advised me 
that a high level of confidence in the safety or reliability of a 
nuclear weapons type, critical to our nuclear deterrent could no longer 
be certified without conducting a nuclear test.

                     STOCKPILE STEWARDSHIP PROGRAM

    24. Senator Bill Nelson. Ambassador Brooks, Stockpile Stewardship 
is the program that the NNSA runs to maintain the nuclear weapons 
stockpile without underground testing. The bulk of this program would 
be needed even with nuclear testing, so in my opinion it is misleading 
to assume that the sole purpose of the program is to replace testing, 
and if the U.S. returned to testing the program would not be needed. Is 
the Stockpile Stewardship Program providing the necessary tools to 
provide needed confidence in the stockpile? 
    Ambassador Brooks. Yes. I agree with your statement that the bulk 
of the Stewardship Program would be continued in the unlikely event 
that the United States had to return to testing. Even when, prior to 
1992, the United States was conducting underground tests the complex 
performed a wide variety of physics and engineering experiments to have 
confidence in the safety, security, and reliability of the stockpile.

    25. Senator Bill Nelson. Ambassador Brooks, are there any 
shortcomings of the Stockpile Stewardship Program that you have 
identified at this point?
    Ambassador Brooks. No. Having served as the Acting Administrator of 
the NNSA for the last 9 months, I have been deeply impressed with the 
scientific rigor being applied by the weapons complex to ensure that 
the nuclear weapons stockpile remains safe, secure, and reliable. I 
will continue to closely monitor the work by the complex to ensure that 
the best scientific and engineering tools are brought to bear on the 
challenges of maintaining and the increasingly older nuclear weapons 
stockpile.
                                 ______
                                 
    [The nomination reference of Ambassador Linton F. Brooks 
follows:]

                    Nomination Reference and report

                           As In Executive Session,
                               Senate of the United States,
                                                  February 4, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Linton F. Brooks, of Virginia, to be Under Secretary for Nuclear 
Security, Department of Energy, vice Gen. John A. Gordon, USAF, 
resigned.
                                 ______
                                 
    [The biographical sketch of Ambassador Linton F. Brooks, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]

           Biographical Sketch of Ambassador Linton F. Brooks

    Ambassador Linton F. Brooks was named the Acting Administrator of 
the National Nuclear Security Administration (NNSA) by President George 
W. Bush on July 9, 2002. The NNSA carries out the national security 
responsibilities of the Department of Energy. Prior to this, Ambassador 
Brooks directed the NNSA's nonproliferation programs involving nuclear, 
chemical, and biological weapons of mass destruction. The 
nonproliferation office promotes international nuclear safety and 
supports programs that ensure the security of nuclear weapons materials 
in Russia and other countries. The nonproliferation office also 
supports research and development of detection systems for biological 
and chemical agents.
    Prior to joining the Department of Energy, Ambassador Brooks served 
as Vice President and Assistant to the President for Policy Analysis at 
the Center for Naval Analyses (CNA), a federally-funded research and 
development center located in Alexandria, Virginia from 1994 to 2001. 
As such, he was responsible for broad policy analyses of issues of 
national importance. Ambassador Brooks came to CNA following an 
extensive career in government service. During the Bush administration, 
he served as Assistant Director for Strategic and Nuclear Affairs at 
the United States Arms Control and Disarmament Agency, and in the State 
Department as Head of the United Stales Delegation on Nuclear and Space 
Talks and Chief Strategic Arms Reductions (START) Negotiator. In this 
latter capacity, he was responsible for final preparation of the START 
I Treaty, which was signed by Presidents Bush and Gorbachev in Moscow 
on July 31, 1991. In December 1992, he performed a similar function 
during the final preparation of the January 3, 1993, START II Treaty. 
Thereafter, he served as a consultant on START II ratification to the 
Clinton administration.
    Before becoming Head of the United States Delegation to the Nuclear 
and Space Talks in April 1991, Ambassador Brooks served for 2 years as 
Deputy Head of the Delegation, holding the rank of ambassador. He 
joined the delegation after spending over 3 years as Director of Arms 
Control on the staff of the National Security Council, where he was 
responsible, among other things, for all aspects of United States 
strategic aims reductions policy and nuclear testing policy during the 
final third of the Reagan administration.
    Ambassador Brooks' National Security Council service culminated a 
30-year military career. Prior to his retirement as a Navy captain, 
Ambassador Brooks served at sea in destroyers, ballistic-missile 
submarines, and attack submarines, commanded the nuclear-powered attack 
submarine U.S.S. Whale (SSN 638), and served in a variety of Washington 
assignments relating to nuclear policy, military strategy, and arms 
control.
    Ambassador Brooks holds a BS in physics from Duke University, where 
he was elected to Phi Beta Kappa, and an MA in government and politics 
from the University of Maryland. He is a Distinguished Graduate of the 
U.S. Navy War College and has published a number of prize-winning 
articles on naval and nuclear strategy.
    The son of a career Army officer, Ambassador Brooks was born in 
Boston, Massachusetts, on August 15, 1938. He now resides in Vienna, 
Virginia with his wife, the former Barbara Julius of Lancaster, 
Pennsylvania. The couple has two grown daughters, Julie and Kathryn.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Ambassador 
Linton F. Brooks in connection with his nomination follows:]

                                                 February 25, 2003.
Hon. John Warner,
Chairman, Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Under Secretary of Energy for Nuclear 
Security and Administrator, National Nuclear Security Administration. 
It supplements Standard Form 278, ``Executive Personnel Financial 
Disclosure Report,'' which has already been provided to the committee 
and which summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Energy (DOE) contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any organization identified as a DOE or 
Department of Defense contractor or any other entity that would create 
a conflict of interest with my government duties.
    I do not have any present employment arrangements with any entity 
other than DOE and have no formal or informal understandings concerning 
any further employment with any entity. If confirmed, I am committed to 
serve in this position at the pleasure of the President throughout his 
term of office.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I am a member of certain organizations and professional societies, 
which have been separately provided to the committee. None of these 
should pose any conflict of interest with regard to my governmental 
responsibilities. I trust that the foregoing information will be 
satisfactory to the committee.
            Sincerely,
                                          Linton F. Brooks,
                                              Acting Administrator.

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Linton Forrestall Brooks; Nickname: Lint; Middle name misspelled on 
birth certificate as ``Forestall''.

    2. Position to which nominated:
    Under Secretary of Energy for Nuclear Security and Administrator, 
National Nuclear Security Administration.

    3. Date of nomination:
    February 4, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    August 15, 1938; Boston, Massachusetts.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Barbara Sue Julius on October 24, 1964.

    7. Names and ages of children:
    Julie K. Brooks (34); Kathryn L. Brooks (30).

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Columbia High School, Columbia SC; 1954-55; Diploma.
    Duke University, Durham, NC; 1955-59; BS; June 1959.
    University of Maryland, College Park, MD; 1969-72; MS; August 1972.
    U.S. Navy War College, Newport, RI; 1978-79; Certificate.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Deputy Administrator for Defense Nuclear Nonproliferation, National 
Nuclear Security Administration, Department of Energy, Washington DC; 
October 2001.
    Vice President, Center for Naval Analyses, Alexandria, VA; April 
1993-October 2001.
    Consultant, U.S. Arms Control and Disarmament Agency, Washington, 
DC; January 1993-September 1995 (part time).

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    U.S. Navy officer; June 1959-May 1989.
    U.S. State Department; June 1989-August 1992.
    U.S. Arms Control and Disarmament Agency; August 1992-January 1993.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    United States Naval Institute (professional).
    U.S. Naval Submarine League (professional).
    Chase Hill Civic Association (civic).
    No offices held.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    None.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    State Department Distinguished Honor Award (2)
    U.S. Arms Control and Disarmament Agency Distinguished Honor Award
    Military decorations: Defense Distinguished Service Medal, Defense 
Superior Service Medal, Legion of Merit (3), Navy Commendation Medal
    Arleigh Burke Prize for professional writing
    Richard G. Colbert Prize for professional writing
    Phi Beta Kappa

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Book (co-editor with Arnold Kanter): U.S. Intervention Policy for 
the Post-Cold War World: New Challenges and New Responses, (An American 
Assembly Book), New York, W. W. Norton & Co., 1994.
    Book Chapter: ``Conflict Termination Through Maritime Leverage'' in 
Stephen J. Cimbala and Keith Dunn (eds) Conflict Termination and 
Military Strategy; Westview Press, 1987; ``Diplomatic Solutions to the 
`Problem' of Nonstrategic Nuclear Weapons,'' (forthcoming).
    Monograph--Peacetime Influence Through Forward Naval Presence, CNA 
Occasional Paper, Center for Naval Analyses, Alexandria, Virginia, 
October 1993.
    Articles in International Security--``Naval Power and National 
Security; The Case for the Maritime Strategy'' (Fall 1986); ``Nuclear 
SLCMs Add to Deterrence and Security,'' (Winter 1988/1989).
    Articles in Naval War College Review--``Pricing Ourselves Out of 
the Market: The Attack Submarine Program'' (September-October 1979); 
``An Examination of the Professional Concerns of Naval Officers as 
Reflected in Their Professional Journal'' (January-February 1980).
    Articles in Submarine Review--``Strategic Planning in the Submarine 
Force'' (January 1985); ``Forward Submarine Operations and Strategic 
Stability'' (April 1993); ``Comments on Defensive Anti-Air Warfare for 
SSNs'' (July 1994); ``Waiting for START III'' (October 1998).
    Articles in the Proceedings of the United States Naval Institute--
``Tactical Nuclear Weapons: Forgotten Facet of Naval Warfare'' (January 
1980); ``It's Time to Start Speaking Up'' (January 1985); `` `New' As 
in Nuclear Land Attack Tomahawk'' (April 1985); ``Escalation and Naval 
Strategy'' (August 1985); ``The Nuclear Maritime Strategy'' (April 
1987); ``Nuclear weapons at Sea'' (August 1988) (with Franklin C. 
Miller); ``Dropping the Baton'' (June 1989); ``Why Doesn't the Navy 
Make More Use of the Retired Community'' (January 1994); ``The New 
Nuclear Threat'' (May 1994).
    Comment and Discussion in the Proceedings of the United States 
Naval Institute--October 1983 (Operations in a nuclear environment); 
November 1984 (Anti-SSBN operations); December 1984 (Nuclear 
escalation); August 1985 (Tomahawk missiles).
    Article in Undersea Warfare (official Navy publication); ``Arms 
Control and Submarines,'' (Spring 2001).
    Articles published in my official capacity and representing U.S. 
Government positions; ``The Strategic Arms Reduction Treaty: Reducing 
the Risk of War,'' NATO Review, Volume 39, Number 5 (October 1991); 
``START: An End and a Beginning,'' Disarmament, Volume XV, Number 2 
(1992).

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Copies of all speeches have been provided to the committee.

    17. Commitment to Testify before Senate Committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Linton F. Brooks.
    This 23rd day of February, 2003.

    [The nomination of Ambassador Linton F. Brooks was reported 
to the Senate by Chairman Warner on March 6, 2003, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on May 1, 2001.]


NOMINATION OF LTG JOHN P. ABIZAID, USA, FOR APPOINTMENT TO THE GRADE OF 
       GENERAL AND TO BE COMMANDER, UNITED STATES CENTRAL COMMAND

                              ----------                              


                        WEDNESDAY, JUNE 25, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m., room 
SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Roberts, Allard, Sessions, Cornyn, Levin, Reed, Bill Nelson, 
and E. Benjamin Nelson.
    Committee staff members present: Judith A. Ansley, staff 
director; and Gabriella Eisen, nominations clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Ambrose R. Hock, professional staff 
member; Thomas L. MacKenzie, professional staff member; Paula 
J. Philbin, professional staff member; Lynn F. Rusten, 
professional staff member; Scott W. Stucky, general counsel; 
and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; and Maren R. Leed, professional staff member.
    Staff assistants present: Andrew W. Florell and Sara R. 
Mareno.
    Committee members' assistants present: James Beauchamp, 
assistant to Senator Roberts; Jayson Roehl, assistant to 
Senator Allard; Arch Galloway II, assistant to Senator 
Sessions; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Russell J. Thomasson, assistant to Senator Cornyn; Barry Gene 
(B.G.) Wright, assistant to Senator Byrd; Elizabeth King, 
assistant to Senator Reed; Eric Pierce, assistant to Senator 
Ben Nelson; and Andrew Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The committee 
meets today to seek testimony concerning the nomination by the 
President of the United States of Lieutenant General John P. 
Abizaid, United States Army, for appointment to the grade of 
General and to be Commander, United States Central Command 
(CENTCOM). We are privileged to have before the committee this 
morning a nominee who played such a pivotal role in the vital 
mission of Operation Iraqi Freedom by the coalition forces. As 
Deputy Commander, Combined Forces Command, forward-located in 
Qatar, General Abizaid was General Frank's principal deputy in 
the planning and execution of Operation Iraqi Freedom.
    I compliment you, General, your staff, and most especially 
the soldiers, sailors, airmen, and marines, together with the 
coalition partners, who achieved the remarkable 17-day advance 
to Baghdad which eventually led to the overthrow of the 
ruthless, tragic Saddam Hussein regime.
    However, the continuing loss of life and limb is very much 
on the minds of all here in America, especially Congress. The 
danger to the United States and the coalition forces, as we all 
know so well, continues. The most challenging phases of this 
military operation may well be now and in the days and months 
and perhaps years to come as we attempt to bring peace, 
security, and democracy to the people of Iraq.
    All of us, the American people, Congress, and especially 
the families of those of the military currently serving in Iraq 
and in Afghanistan, are concerned about security situations in 
both of these areas of your command.
    We also would like to welcome your wife here this morning. 
I wonder if you might be gracious enough to introduce her.

 STATEMENT OF LTG JOHN P. ABIZAID, USA, FOR APPOINTMENT TO THE 
  GRADE OF GENERAL AND TO BE COMMANDER, UNITED STATES CENTRAL 
                            COMMAND

    General Abizaid. Thank you, Mr. Chairman. I would like to 
introduce my wife, Kathy Abizaid. We went to high school 
together, managed to get married after I graduated from West 
Point, and we have been married for 30 years.
    She is the sole reason that I have three great kids that 
are serving their country, and she has been a marvelous partner 
to be with in these 30 years of service to the Nation. She is 
the smart one of the family, sir.
    Chairman Warner. Your humility shows through, General; a 
touch of that, as always, is a very valuable asset.
    I have had the privilege of being associated with military 
families for a very long time. There is an old saying, a good 
military wife makes a good military soldier. Now, today, with 
our modern forces, the converse is often true. We have many 
women serving with great distinction in military positions.
    So we send our thanks to you, Kathleen, and your family for 
giving support. I had the opportunity to visit with you this 
morning, and your grandfather served in World War I in the 
trenches, as did my father. Both of them were doctors. General 
Abizaid has a superb record of military service, one of the 
most impressive compilations of joint duty that this committee 
has had before it in some time. The joint service operations I 
think reached an all-time high water mark in the course of the 
Iraqi operations.
    His prior assignments as Director of the Joint Staff, 
Director for Strategic, Plans, and Policies, J-5, of the Joint 
Staff, and a participant in joint operations in Kosovo and 
Bosnia, and in northern Iraq following Operation Desert Storm, 
qualify this nominee, in my judgment, for the challenges of 
command.
    More importantly, General Abizaid brings a unique 
perspective. He is truly an expert on and a student of the 
region to which CENTCOM has most of its responsibilities. He is 
currently serving his fifth tour of duty in the Middle East. He 
is fluent in Arabic, has studied the Middle East, and has a 
very proud family heritage closely tied to the cultures of this 
region.
    General Abizaid also brings a special family perspective to 
this position and responsibility. He is the son of a man who 
served this Nation as a Navy petty officer in World War II, and 
his children are involved in military responsibilities in 
various stations around the globe.
    General Abizaid will bring the intellect of a Middle East 
expert, the wisdom of a compassionate leader, and the passion 
and understanding of a parent to this challenging position. The 
soldiers, sailors, airmen, and marines under your command, 
together with those in the coalition forces, are fortunate 
indeed that the President has selected you for this position, 
and that you are willing to serve, together with your family.
    In this hearing today we will review the qualifications of 
this superb soldier. The committee will also seek your 
perspective on recent events in the region and the challenges 
that lie ahead.
    Together with Senator Levin and Senator Roberts, we met 
with General Abizaid in Qatar in February. I think all of us 
were very impressed with his candor and breadth of knowledge. 
As I visited with him yesterday, I was reminded of how 
remarkably experienced he is for this particular position.
    I was also reminded, however, of the many issues that come 
before Congress today, and indeed, the American public, who are 
desirous to have a clear understanding of such issues as the 
following:
    What was the level of planning for our military with regard 
to securing and stabilizing Iraq following major combat 
operations? Was the level of resistance during the major 
conflict, and particularly post-conflict, adequately evaluated? 
Were preparations in place for those two levels of resistance?
    In the course of the campaign you relied on the military 
intelligence that you had. How accurate, in your judgment, was 
it? What do we look at for the future in terms of intelligence, 
the ability to get from the Iraqi people vital information to 
try and complete the operations and turn over this Nation to 
the people of Iraq?
    Troop levels are a constant question. Did we have enough to 
accomplish the mission? What does the future hold? How long do 
you anticipate the United States will need to keep significant 
military forces in Iraq?
    I also want to pause for a moment. We were fortunate to 
have coalition forces operating with us. Since Senator Roberts 
and I met yesterday with a group of British Members of 
Parliament, we expressed to them our profound sorrow over the 
tragic losses of the British forces recently. Could you please 
give us an update on that, and also the operation by which we 
interdicted people moving from Iraq into Syria?
    During our meeting in February, with the four Senators 
visiting you at your headquarters, I asked you the same 
question I have asked every single member of this 
administration that has appeared before this committee or in 
other fora here in the Senate--are we going to find weapons of 
mass destruction after the troops move forward and the major 
conflict has subsided, and the spotlight of the world press can 
come in and take pictures and evaluate the existence or 
nonexistence of weapons of mass destruction? At that time, you 
gave me a reply, and perhaps in the course of your testimony 
today you can address that reply and what you did subsequent to 
our meeting to confirm the credibility of your reply.
    General Abizaid, we thank you for your service to the 
Nation. Thank you for your willingness to lend your 
considerable talent to this most difficult of challenges. We 
look forward to your testimony.
    But I do hope that you have had an opportunity this morning 
to look into today's paper, in which I thought there was a very 
direct reference to the concern throughout many circles about 
the ability of the military to grapple with these challenges 
that are being presented today, and the risks that each of them 
were experiencing; and indeed, in some instances, loss of life 
and limb.
    This article recites, ``The teams were established and 
trained to provide emergency humanitarian aid to deal with 
refugees who perform basic infrastructure repair, not to 
rebuild town governments, set up courts, disperse salaries, 
sort out agricultural problems, and take on many of the other 
chores we have been forced to perform in postwar Iraq.
    ``We have been given a job that we haven't been prepared 
for, we haven't been trained for, we weren't really ready 
for,'' said a senior civil affairs officer in central Iraq. ``A 
lot of the stuff we are doing, we are making it up as we go 
along.''
    Now, we all respect the perspective and viewpoints of 
others, particularly public servants who are trying to do their 
best. But it is clear that in the course of our training, from 
boot camp to advanced training, military missions are quite 
clear. Soldiers and other military men are trained to seize an 
objective and utilize firepower; and under the protection of 
that firepower--often under the protection of heavy armor, and 
with little doubt as to when and how they are to use their 
weapons to protect themselves and gain the objective.
    Now they are stranded with 360-degree exposure, often in 
ones and twos on the streets of Iraq. They are suffering the 
consequences. They are dealing with civilians, and it is quite 
a high level of concern here in this committee and in Congress 
as to whether or not the planning of this was adequate.
    Did we foresee the measure of instability that we are now 
encountering? Are we prepared today? If not, what are we going 
to do to fill the gap?
    You are taking over this command and following a very 
distinguished record of achievement by General Franks. He will 
be appearing before this committee in open and closed sessions 
shortly after the Fourth of July recess period. We will have 
the opportunity to talk with him.
    I am quite interested in how you are going to take on your 
responsibilities. Do you have a change of direction, with no 
disrespect to what General Franks did? But you have a mission 
that is somewhat different than when you were his principal 
deputy and planning for the combat phases.
    Senator Levin, do you have a few remarks at this time that 
you would like to make? Would you like to address the General 
or the committee?
    Senator Levin. Thank you, Mr. Chairman. Let me join you in 
extending a warm welcome to General Abizaid and his family.
    General, you have been nominated to be the commander of the 
most challenging of all the areas of responsibility of our 
combatant commands. I usually don't distinguish between those 
commands, but in this case I think it is obvious that yours is 
extraordinarily challenging.
    You have in your area of responsibility Afghanistan and 
Iraq, where U.S. and coalition forces have recently fought 
major conflicts. In the case of Iraq, they are still involved 
in conflicts. They are dangerous places for forces conducting 
stability operations. Moreover, the Central Command area of 
responsibility includes Iran, which continues to pose a 
potential threat to regional peace and security, as well as a 
number of nations whose territory has proven hospitable to 
terrorist organizations.
    In sum, after you are confirmed you will have one 
dangerous, difficult region under your command. I do not know 
of anyone who is better qualified to take over this 
responsibility than you are. As a matter of fact, it is hard 
even to imagine a better qualified nominee than you. You bring 
to this challenging new assignment a wealth of background, 
experience, and talents. It makes you particularly well-suited 
to a job that requires the mix of warfighter, strategist, and 
diplomat.
    The questions which Senator Warner has asked, and the rest 
of us will ask, are critically important and very difficult. We 
are glad that you are going to be there to address the issues 
that are raised by these questions.
    We congratulate you on this appointment. We thank you for 
your extended service to this Nation. We thank your family for 
their commitment to your service and to our Nation.
    You might have exaggerated just slightly when you said that 
your wife was the sole reason for your three children; but 
other than that, I have no doubt that your comments about her 
are totally accurate.
    Marrying a high school sweetheart is always a wonderful 
love story. I'm sure the two of you have enjoyed those years 
together, and hopefully that enjoyment will continue when you 
undertake your new responsibilities. You already have 
undertaken this responsibility, so your wife knows what you are 
in for and what she is in for. Nonetheless, it is an additional 
responsibility that will now rest on your shoulders.
    I know this committee and the entire Nation are grateful 
for that service and that willingness to continue to serve this 
wonderful country of ours.
    Chairman Warner. Thank you very much, Senator Levin.
    Senator Levin, I think we should state, for the benefit of 
those members of the committee who were not with us yesterday 
morning, that 10 members of the committee had breakfast with 
Secretary Rumsfeld. We covered a wide range of issues, some of 
which we will discuss here today.
    I notice in today's press that Secretary Rumsfeld states 
that he gave an energetic endorsement of pre-war intelligence 
in Iraq, and that virtually everyone agreed that Baghdad had 
weapons of mass destruction. The article has further details. I 
mention that because that is a subject that this committee will 
be considering in the context of the appearance of all the 
witnesses, and you and I have extended to Secretary Rumsfeld 
repeated invitations to come forward to the committee. I am 
hopeful that that can be achieved just after the Fourth of July 
recess.
    When we go through the standard questions, it is very 
important we have a record that reflects your replies. You gave 
answers to a series of questions propounded by the committee. 
They will be made part of the record. The standard questions we 
ask in open session are as follows.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Abizaid. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which appeared to presume the outcome of the 
confirmation process?
    General Abizaid. No, sir.
    Chairman Warner. Will you assure your staff complies with 
deadlines regarding communications, including questions for the 
record and hearings?
    General Abizaid. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional inquiries?
    General Abizaid. Yes, sir, I will.
    Chairman Warner. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Abizaid. Yes, they will.
    Chairman Warner. Have you any opening remarks? We will let 
you proceed with those momentarily.
    I want to make one other comment. I mentioned that four of 
us were visiting with you in February. Senator Levin and I and 
some colleagues hope to be joining you in the not too distant 
future in your AOR.
    The subject of congressional delegations is very important. 
Congress is a coequal body of our Government. We have very 
important oversight responsibilities. Throughout history, 
committees of the armed services, the House and Senate 
particularly, have initiated many programs on behalf of the men 
and women of the United States military.
    I say ``initiated.'' They were actually thought through and 
designed in Congress. We have a very special trust and 
responsibility for the welfare of all those in uniform and 
their families. Part of that requires that we periodically 
visit them when they are serving in the far-flung outposts of 
the world.
    Yesterday Secretary Rumsfeld confirmed the importance of 
Members of Congress being able to go into the field and perform 
their continuing oversight responsibilities.
    Our trip has been well-planned, and we expressed 
appreciation to General Franks and yourself. We anticipate it 
will be very successful. I bring that up only in the context 
that I am hopeful other Members of Congress--particularly this 
committee and other committees of the Senate with very special 
oversight responsibilities on matters of national security--can 
avail themselves of the opportunity to visit your AOR at this 
particular point in time in history and work with you such that 
they can bring back a better and broader understanding of the 
challenges facing the men and women in the Armed Forces.
    Thank you very much. I would be happy to receive your 
opening comments at this time.
    General Abizaid. Thank you, Mr. Chairman. Let me start by 
saying we certainly do welcome you into the area of operations, 
and we agree with you 100 percent that it is important for you 
to see the great work our young men and women are doing out 
there.
    Mr. Chairman and Senator Levin, distinguished members of 
the committee, I consider it an honor to be nominated to serve 
as Commander of CENTCOM, and I appreciate the confidence of the 
Secretary of Defense and the President in making this 
nomination. I appreciate your consideration of that nomination, 
as well.
    Thank you for your support, and for the wonderful support, 
I might add, that you have given to the men and women that have 
served so well and so faithfully in the CENTCOM area of 
operations in war, and now in stability operations in places 
like Iraq, Afghanistan, and the Horn of Africa. I would 
consider it the greatest privilege to serve as their commander, 
and I can think of no honor greater than to serve as the leader 
of American service people.
    Before I open for questions, sir, I would just like to add 
my condolences to yours and the rest of the men and women in 
Central Command to the families of the six British servicemen 
that were killed yesterday in Iraq; and, I might add, to all of 
the servicemen and women that have given their lives there. 
They are doing wonderful work. We appreciate their sacrifice.
    I am open to your questions, sir.
    Chairman Warner. Thank you. We will go to a 6-minute round. 
I am glad that you mentioned that. I'm sure that you would have 
covered that.
    Let us go back to our conversation that took place in 
February with regard to weapons of mass destruction, when I did 
ask you what you anticipated. Perhaps at this time you can just 
review what you stated, and the fact that you went back to 
corroborate your own opinions with the experts within your 
command.
    General Abizaid. Yes, sir. During your visit, you asked me 
very directly, in no uncertain terms, whether I believed we 
would find weapons of mass destruction, either in the course of 
the campaign or afterwards. I believe that I told you that we 
would, and I thought we would do it rather early in the 
campaign. I believe I also said that I expected that the enemy 
would use weapons of mass destruction against our troops.
    Fortunately, they did not use weapons of mass destruction 
against our troops.
    Chairman Warner. We certainly all share in that good 
fortune, by the grace of God.
    General Abizaid. I believe that--as we get on with the 
mission of continuing to look for weapons of mass destruction 
and piece together the evidence that is available within the 
country, not only by looking through documents but also by 
talking to various people that have come forward to give us 
information, or people that we have detained that we are asking 
for information--that we will piece together the story that 
tells us what happened to the weapons of mass destruction 
somewhere between 1998 and 2003.
    I am confident we will show that there was deception, and I 
am also confident that at some point it will lead us to actual 
weapons of mass destruction.
    Chairman Warner. I share in those views, General. I 
continue to believe that the intelligence was accurate, that 
the weapons are somewhere concealed, or remnants of the 
destruction, and that eventually this will be unfolded. Perhaps 
the one thing we can agree on is that we anticipated an earlier 
discovery than has occurred thus far. But I know that the 
intelligence operations of other governments in the coalition 
forces and so forth shared with us the expectations that you 
have expressed with regard to these weapons of mass 
destruction.
    Let us turn to your military intelligence. As a 
consequence, recently, there has been, in the views of some--
not this Senator, but the views of some--concern. I think on 
behalf of the others--with whom I disagree--it is somewhat 
legitimate, as to the validity of that type of intelligence, an 
example being the thought that we would soon find weapons of 
mass destruction. That is just one example. What do you think 
about the quality of the intelligence you had and that the 
operations, as they progressed, relied on, and was that 
reliance accurate?
    The intelligence regarding the future of Iraq, how accurate 
do you feel it was?
    General Abizaid. Senator, I believe that my overall 
assessment of how intelligence served us throughout the 
campaign would be that that intelligence was the most accurate 
that I have ever seen on the tactical level, probably the best 
I have ever seen on the operational level, and perplexingly 
incomplete on the strategic level with regard to weapons of 
mass destruction.
    Let me talk about the tactical level of the quality of 
intelligence. Never before have we had such a complete picture 
of enemy tactical dispositions and intentions. I think largely 
the speed of the campaign was incredibly enabled by the 
complete picture we had of the enemy on the battlefield.
    From an operational point of view, as we did the planning, 
as General Franks postulated what would happen--all of which 
was, of course, enabled by intelligence professionals 
throughout the community--we came up with a remarkably clear 
picture of what the enemy would do operationally. We expected 
to fight the main battle between the line of Karbalah, Kut, and 
Baghdad. We expected it to be fought against the four 
Republican Guard divisions, and we largely expected their exact 
positions on the battlefield. We were prepared in our overall 
strategic plan to take advantage of that.
    Certain things about our strategic intelligence were quite 
good. For example, the top 55 leaders, where were they, what 
were they doing, what were they thinking, et cetera. Today we 
stand at 32 of those top 55, or 52, people in our custody. That 
is a real tribute to our strategic intelligence, as well as the 
skill of our special operators who have gone forward and 
detained many of them. But it is perplexing to me, Senator, 
that we have not found weapons of mass destruction when the 
evidence was so pervasive that it would exist. After your 
visit, I called in my intelligence staff, because you were so 
adamant--not only you, but also Senator Levin--about 
understanding the questions with regard to the weapons of mass 
destruction.
    Now, I put my intelligence professionals around the table--
and this was before General Franks had arrived in the theater, 
or perhaps he was out traveling around. I asked, is there 
anybody around this table who believes we will not find weapons 
of mass destruction in Iraq? To a man and to a woman, they all 
said we would find them.
    So the confidence of the intelligence professionals, and my 
confidence in them, was high, and actually, it remains high. It 
is interesting, as we conducted the campaign, that as we 
overran positions early in the campaign we found an incredible 
amount of defensively oriented chemical equipment. I surmise 
from that that they were certainly intending somewhere in the 
campaign to use weapons of mass destruction. As a matter of 
fact, we had a lot of intelligence that said there was a red 
line that existed along the line Kut to Al Amarah and Karbalah, 
that once we crossed that line and closed in on Baghdad, we 
could expect weapons of mass destruction.
    In 1991, I had served in northern Iraq. I had seen up in 
the Kurdish areas the fact that the Iraqis had used chemicals 
against their own people. We certainly knew from studying the 
campaigns with the Iranians during the 8-year war that they had 
used chemical weapons. A lot of the intelligence traffic 
indicated on a tactical level, as well as a strategic level, 
that they would use it against us.
    Chairman Warner. Let me move on to the question that I 
raised in reading the daily press about the training of our 
people to take on the very risky business that they are 
undertaking today and tomorrow and in the indefinite future.
    What can you tell us about that? Were we adequately 
prepared to deal with this insurgency among particularly the 
Baathist party, which has somehow come together, whether by 
communications or just old maxims and instructions, and is now 
in all probability at the root cause of the daily loss of life 
and limb and the insurgency we are seeing? How best can we 
prevent that, and stop it?
    Also, to what extent does the mystery of Saddam Hussein 
still filter down to give incentives to certain elements, 
particularly the Baathists, who promote this insurgency?
    General Abizaid. Sir, to the broader question as to whether 
or not we are prepared for environments such as that we are now 
facing in Iraq, the answer is yes. We have been serving in 
places like Kosovo and Bosnia for a long time. The tradition of 
the United States Army in particular goes back many years to 
constabulary duty all around the world.
    We have a tradition and we have a sense of training that 
allows us to deal with these difficult types of conditions. The 
troops would prefer to be involved in direct combat, as all of 
us would, because it is cleaner and it is much more easy to 
deal with. But I think all of us understand that in this part 
of the world in particular, that it is going to be dangerous 
duty, that there are people that don't want us to be there, and 
that they will oppose us being there.
    I would characterize the opposition that we face in Iraq as 
essentially being of three types. The first is the residual 
Baathist activity that we see in the Baathist stronghold in a 
triangle described by Baghdad, Ar Ramadi, and Tikrit. That is a 
very tough area. We believe that there are a number of Baathist 
cells that continue to operate there.
    Their level of organization doesn't seem to be high to me. 
There is nothing that will defeat us militarily that will come 
out of that triangle. The way best to deal with the Baathist 
resurgence and the Baathist activity there is to take the 
battle to them, to be offensive, dismantle the cells, kill 
those who would try to kill us, and be very aggressive.
    The second level of activity we see in Iraq is that of what 
I think is best described as radical anti-American Islamist; 
although I use the term ``Islamist'' advisedly, because they 
are very un-Islamic in the way they go about doing their 
terrorist activities.
    We recently had a major strike against a camp of foreign 
fighters in the western desert that was quite successful that 
indicated that there were foreign fighters from places 
throughout the Middle East. I do not believe that these 
Jihadists are allied with the Baathists, but it is clear that 
they will move towards the ungoverned spaces. Iraq to a certain 
extent in certain areas is certainly without government, and 
people are moving into those areas to take advantage of 
American forces being there, to attack us. Again, the way we 
need to deal with them is to be offensive, to find them, and to 
attack them, and also to ensure that we pay attention to what 
is moving along the Syrian, Jordanian, and Saudi borders, in 
particular.
    The third level that we find, which is always difficult to 
deal with because we are not policemen, has to do with the 
criminal element, with the complete collapse of security in 
Iraq. With the dissolution of the Saddam Hussein government, 
there is no doubt that there is an increase in criminal 
activity. Some of the criminals are very well-armed, and when 
we come up against them, it appears as if you are dealing with 
organized military types, but that is not the case.
    So again, dealing with the criminal element becomes a 
tougher problem for us. That is one that won't be solved by all 
the soldiers in the United States Army, and that will be solved 
by building police capacity within Iraq, and time and training 
and effort to reform Iraqi police institutions.
    Chairman Warner. I anticipate the Senate will confirm you 
very promptly. Once you take office, are you going to change 
the tactics or the rules of engagement to try and give a 
greater degree of protection to our soldiers?
    General Abizaid. Sir, the best protection that we can give 
our soldiers is an offensive spirit in a tough place. That is 
what they need to have. They need to go out and seek the enemy. 
They need to bring the fight to the enemy. They need to defeat 
the enemy.
    We will be able to do that as long as we don't hunker down 
in base camps and try to avoid contact. We need to seek 
contact. We need to be aggressive. That is what we are doing in 
Iraq. We have rules of engagement in doing that.
    It is mischaracterized, unfortunately, in the press that we 
are sitting around being attacked. In at least half of the 
actions that take place there, we are the folks that initiate 
the contact. So we will do everything we can to protect our 
soldiers and maintain an offensive spirit and take the fight to 
the enemy. Over time, we will bring the situation under 
control.
    Chairman Warner. Senator Levin.
    Senator Levin. General, I want to refer to the same article 
that Chairman Warner made reference to as to whether or not our 
forces there are prepared and trained to carry out the tasks 
that they now have. I think, to summarize them, without much 
doubt they are really nation-building tasks. Would you, first 
of all, agree that they are adequately prepared for these 
nation-building tasks?
    Second, would you address the issue as to who is really in 
charge? What is the relationship between you and Ambassador 
Bremer on the civilian side?
    General Abizaid. Yes, sir. First of all, there is no 
strictly military solution to the problem of bringing stability 
to Iraq. It requires a national effort. It requires bringing 
together not only all of the resources of the national 
community, and of the interagency community, but it also 
requires bringing together a lot of the resources of the 
international community.
    The military tasks of bringing security and stability are 
tasks for which we are very adequately prepared. There are 
requirements for building police forces that are not exactly 
within what I would describe as a job description for the Armed 
Forces of the United States. Yet, we do that. The marines have 
done a wonderful job in southern Iraq in building police 
capacity.
    We sometimes forget that we have 8,000 police on duty in 
Baghdad, for example. I think overall in the entire country we 
probably have somewhere around 30,000 or 40,000 police back on 
duty, and they have been brought back on duty through the good 
offices of soldiers and marines.
    That having been said, are we prepared to rebuild 
governmental institutions? No, we are not. We need to turn to 
Ambassador Bremer to write a constitution and to cause 
political activity to take place that is acceptable to the 
Iraqi people, that will allow institutions to move forward in a 
manner that will give hope for the future of Iraq. That is not 
a military task, and that is not something we are trained for. 
We look to Ambassador Bremer on the civilian side to do that. 
Ambassador Bremer reports directly to the President through the 
Secretary of Defense as the Coalition Provisional Authority. He 
brings together the civil side of the house in ensuring that 
all the resources that the United States Government and the 
coalition can be brought together are brought together to help 
Iraq move forward and rebuild institutions, et cetera.
    He is served by the commander of Combined Joint Task Force 
7 commanded by Lieutenant General Rick Sanchez as his military 
arm; I won't say his military commander, because Ambassador 
Bremer is not in the military chain of command. But clearly, 
Ambassador Bremer sets broad priorities for General Sanchez. 
General Sanchez works for General Franks in the direct military 
chain of command, and of course, then through the Secretary of 
Defense.
    So I think that the arrangements with Ambassador Bremer 
being there, with the Coalition Provisional Authority being 
given a lot of authority--especially fiscal authority--to build 
institutions in Iraq, will, over time, make a huge difference.
    I would like to remind you that we only crossed the line of 
departure 98 days ago. I think that the progress that we have 
made is actually amazing. If I were just to relate to you very 
quickly my impressions of Baghdad, I have been to Baghdad every 
week since the end of the war----
    Senator Levin. If I could interrupt you because of a 
shortage of time. Please forgive me for doing that.
    General Abizaid. Certainly.
    Senator Levin. General Sanchez, he reports to General 
Franks, correct?
    General Abizaid. Yes, sir.
    Senator Levin. But what is the relationship between Sanchez 
and Bremer?
    General Abizaid. The relationship between Sanchez and 
Bremer is that General Sanchez coordinates directly with 
Ambassador Bremer for his broad priorities within Iraq.
    Senator Levin. So Franks reports, then, to the Secretary of 
Defense, and Bremer reports to the Secretary of Defense?
    General Abizaid. Yes, sir.
    Senator Levin. Which means that in terms of the chain of 
command, they come together in terms of a unified chain at the 
Secretary of Defense?
    General Abizaid. That is correct.
    Senator Levin. We have about 145,000 troops now in Iraq, is 
that correct?
    General Abizaid. That is correct, sir.
    Senator Levin. Do you expect that number will remain about 
the same, or could it change up or down, somewhat?
    General Abizaid. Sir, the number can go up and the number 
can go down. First and foremost, it depends upon the enemy 
situation. I think right now we have sufficient number of 
troops to deal with the tasks at hand that we are faced with 
militarily.
    Senator Levin. Do you expect that number or approximately 
that number would be needed for the foreseeable future?
    General Abizaid. I think that the number can come down once 
we finish with our current offensive operations, which we will 
reevaluate on or about the 30th of June.
    The other factors that influence it, Senator, are the 
number of police that are functioning and reliable within Iraq; 
the number of coalition forces that will come into Iraq that 
are international forces; and finally, the degree of progress 
that we have on the Iraqi national army.
    Senator Levin. If it does come down somewhat for whatever 
reason, do you estimate that at least for the foreseeable 
future, that we still will require a significant number of 
troops in Iraq?
    General Abizaid. For the foreseeable future, we will 
require a large number of troops for Iraq.
    Senator Levin. On the weapons of mass destruction (WMD) 
question, I think you are right that just about everybody that 
I know of expected that we would find WMD. Many still do. It is 
still very possible that we will find WMD. That confidence 
level was based on the intelligence that we received. Would you 
agree with that?
    General Abizaid. Yes, sir.
    Senator Levin. When you indicated that your forces found 
defensive WMD as you overran positions, did they find any 
offensive WMD, such as artillery shells or any Scud missiles?
    General Abizaid. No.
    Senator Levin. That is what you indicate is the perplexing 
incompleteness, is that correct?
    General Abizaid. I thought as we crossed what we termed 
``the red line'' that we would overrun artillery units that had 
chemical warheads.
    Senator Levin. Finally, in terms of the relationship 
between the military forces and Ambassador Bremer, has there 
been any change since Ambassador Bremer arrived in that 
relationship from what it was when General Garner was there?
    General Abizaid. I think the number one change is that we 
co-located the headquarters of General Sanchez with that of 
Ambassador Bremer. I think it was a very good decision to make, 
to bring the two of them together so they could coordinate very 
closely on day-to-day operations. That is the biggest change I 
would note.
    Senator Levin. General Sanchez still reports to you.
    General Abizaid. He reports to General Franks, yes.
    Senator Levin. Excuse me.
    General Abizaid. Yes, sir.
    Senator Levin. He will be reporting to you, hopefully, in 
the next couple of days.
    General Abizaid. Hopefully, yes, sir.
    Chairman Warner. Thank you.
    Senator Roberts.
    Senator Roberts. General, thank you for visiting with me on 
Monday. As has already been indicated by the chairman, we truly 
appreciate your candor and the information you provided us 
concerning the challenges that CENTCOM faces.
    When we were in your AOR just prior to kickoff of the 
military operations--we just had a very frank visit with you. 
In terms of forthrightness, candor, and frankness, I think you 
gave us the best briefing that we received.
    It may have already been mentioned, Mr. Chairman, but it 
certainly bears repeating that this is very much a family 
affair for this nominee. His daughter, only 24, is now in Qatar 
working on important issues as a DOD civilian. His son-in-law 
just came back from Afghanistan. His son, P.F.C. Abizaid, just 
came back from Korea. This is a remarkable family with 
remarkable dedication to service to our country.
    Let me just follow up, if I might. We had a discussion that 
the chairman has already gone into, as well as Senator Levin.
    You mentioned the foreign intervention and the criminal 
element, the ongoing challenges in regard to the cities, the 
Shi'as, and the de-Baathizah--I think that was your word; I am 
not sure there is a word, but we just coined a new one--and all 
the problems and challenges that entails.
    I wanted you to touch a little bit on Saddam Hussein. There 
were some comments made immediately after the major war effort 
was declared over that it didn't make much difference--I know 
you didn't say this--whether he was alive or dead, that the 
regime has changed.
    I think it makes a great deal of difference. Would you 
reflect on that for me in regard to the fear factor and the 
tribal influence; that after 30 years of degradation and 
absolute barbaric rule, that perhaps we underestimated the fear 
factor. Also, the factor in the Baathist loyalists and the 
Saddam Hussein Fedayeen that if there is hope he is alive, that 
there would be some sliver of hope they may be restored to 
their position of power.
    Would you amplify on those issues a little bit?
    General Abizaid. Yes, sir. I agree with you, Senator, that 
it is very important to confirm or deny whether Saddam Hussein 
is alive or dead. It is important because the fear factor is 
high. It is important because he was a brutal dictator who 
killed hundreds of thousands of his own people. It is important 
for the Iraqi people to come to closure with this nightmare 
that he imposed upon them.
    I believe that the Baathist party 30-year reign of terror 
will not come to an end easily until we can show them that not 
only can we get 32 of the 52, but we can get 52 of the 52. So 
we need to continue to answer the question of whether he is 
alive or dead.
    I would say, Senator, that it is an open question as to 
whether he is alive or dead. Certainly the capture of the 
number four man on the list, Abid Hamid, is a very important 
step. I don't know that we could necessarily believe what he is 
telling us, but I do know that when you start finding people 
like him you are on the right trail.
    It is also important to note that it is not just us looking 
for Saddam. There are literally hundreds and thousands of 
Iraqis that are looking for him, as well, because they have a 
score to settle with him. There is not a family in Iraq that 
hasn't suffered in some way.
    That having been said, he does have a very strong tribal 
loyalty up in the Tikrit area, and that tribal loyalty will not 
be easily broken.
    Senator Roberts. Could you amplify a little bit on Desert 
Scorpion, in which you mentioned the need to engage the foreign 
interventionists in regards to the young Jihadists that are 
coming from all over the Middle East?
    I think that, following your line of thinking, instead of 
attacking the consulate and embassy or hospital or something of 
this nature, if in fact they wanted to take part against the 
great Satan, all they had to do is come to Iraq and there are 
145,000 Americans there that become targets.
    You also indicated to me that through Desert Scorpion not 
only did we engage, but we set them back considerably. This was 
a very different kind of situation than they had originally 
thought. So are we making progress in regard to that kind of a 
situation. To set them back, in other words.
    General Abizaid. Senator, I believe that in the broader 
global war on terrorism, especially in the CENTCOM area of 
operations, that we have made a lot of progress. We have set 
the terrorists back in Afghanistan, we have set the terrorists 
back in Iraq, we have set the terrorists back in other places. 
Every terrorist that we find and kill in the Middle East is one 
less that will find his way to the United States to kill us 
here, so we need to bring the war to them. Desert Scorpion was 
a perfect example of how we could do that.
    Senator Roberts. It is my understanding that we will be 
getting some international help in dividing up sectors of Iraq 
along the lines of Kosovo, if that is an allegorical example. I 
don't know if it is or not, but with Poland and Britain.
    Are there any other of the allies in regard to your 
information that may be providing some assistance?
    General Abizaid. Sir, we will be receiving about 30,000 
coalition troops between now and September. I know the 
department is working on bringing more coalition forces in. We 
have a British division that will be in the south that will 
include Italian, Dutch, and other contingents.
    The Polish division will go into the South Central portion. 
That will include some Ukrainian and some other contingents. I 
know the department is talking with other nations, as we will, 
about bringing in coalition forces. I would prefer to take that 
one for the record, Senator, and give you a complete list, 
rather than try to do it from memory.
    [The information referred to follows:]

    As of July 15, 2003, 20 countries have military personnel deployed 
in Iraq as follows:

        [Deleted] Poland.
        Australia [Deleted] United Kingdom.

    Seventeen additional countries are planning to deploy military 
personnel to Iraq as follows:

        [Deleted].

    Military to military discussions are initiated and ongoing with 10 
other countries as follows:

        [Deleted].

    Senator Roberts. I will use the expression that it is very 
true in this particular case that this general is the right man 
for the right job at the right time.
    Chairman Warner. Thank you, Senator Roberts. I think you 
will find strong concurrence in that observation among the 
members of the committee.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Welcome, 
General Abizaid. I have had the privilege of knowing John 
Abizaid for 30 years. We were lieutenants together in the 504th 
Parachute Infantry. Back then, it was certain he would be 
General, and it is certainly obvious today.
    Chairman Warner. How certain was it that you would become a 
Senator?
    Senator Reed. That was uncertain.
    General Abizaid. We were certain of that.
    Senator Reed. I will second the comments of all my 
colleagues: there is no one better prepared for this important 
and critical assignment than John Abizaid. It is a function of 
his intellect, his experience, and his character. All those 
virtues will be tested mightily in the days ahead.
    I also second his recognition of his wife, Kathleen, and 
his family. They have been an integral part of everything he 
has done. I don't think it was humility, Mr. Chairman. It was 
just sheer honesty that he gave credit to Kathy for all the 
good things that happened in his life. He is an honest person.
    John, General, I am delighted that you are here and that 
you will take on this responsibility.
    One of the facts I think that we are facing today in Iraq 
is an insurgency which is already causing us casualties, and 
which is directed against infrastructure. It is unclear yet 
whether it is well-organized or if it is simply spontaneous, 
but it is an insurgency.
    Can you give us your estimate of whether the situation will 
get worse before it gets better, or are we, in the days ahead, 
in for some very difficult times before it is resolved?
    General Abizaid. I think, Senator, we are certainly in for 
some difficult days ahead periodically. It would not be safe to 
say that the situation is going to continue to get worse. As a 
matter of fact, I believe the thing that a lot of people 
underestimate is the degree to which Iraqis want military 
activity to end, as well.
    There is a lot of support for the coalition presence, and 
there will be more support for the coalition presence as we 
build governmental institutions that are good for the future of 
Iraq.
    I think over time as we move forward on the economic, 
diplomatic, and political fronts, that we will have less 
military activity directed against us. But we should not kid 
ourselves about the fact that we can be the subject of 
terrorist attacks in Iraq, because we know people are coming 
our way. We shouldn't kid ourselves about the ability of 
Baathist groups to come forward and strike Americans or British 
or other soldiers in a way that causes a lot of casualties.
    That having been said, I just would like to say that there 
are a lot of people in the Middle East that believe that our 
weakness is our inability to stay the course. They believe that 
two casualties today, two casualties tomorrow, four the next 
day, will eventually drive us out. It is a belief they hold 
firmly. We need to be just as firm that we can't be driven out.
    Senator Reed. I concur with your assessment that there is 
probably a thought that if we suffer casualties, we will be 
driven out. But one important way to maintain the public 
support that is necessary is to be absolutely candid and 
forthright about the course that we will bear, in terms of 
personnel, in terms of time, and in terms of resources.
    About the costs, that is something about which the American 
people will react unfavorably to if they feel they have not 
been given all the facts. I feel confident you will do that.
    Let me raise the issue of troop levels. I know we had a 
chance to chat about this in the office. I concur that, in this 
situation, intelligence is absolutely critical. Adding more 
troops without good intelligence is probably not effective.
    But it seems that there are areas in the country that are 
essential--because we can't cover them--refuges for 
organization or for recovery of these groups. In addition to 
that, it appears also that they are targeting pipelines and 
other facilities which might require active patrolling.
    In the context of the evolving situation, do we need more 
forces there?
    General Abizaid. Sir, my estimate is that we do not at the 
present time. I also want to assure the committee that should 
we think we need more, we will ask for more. The protection of 
the infrastructure is a problem that we have to look at very 
carefully. Right now we have a lot of Iraqis helping us in the 
protection of that infrastructure. I think we will find that 
over time there will be sufficient Iraqi interest in protecting 
their future, and that they will do that.
    If, on the other hand, attacks against the infrastructure 
continue to score a lot of damage, then we will have to relook 
at the way we use our forces. To me, there are sufficient 
forces to do what we have to do, but we can't get locked into 
this notion of a certain number of soldiers per square 
kilometer. The way that you conduct military operations most 
effectively is to free up your forces for offensive action and 
move to where the problem is. That is what we intend to do.
    But we won't hesitate to ask for more if we need them, sir.
    Senator Reed. Let me raise an issue, again, with this 
intelligence situation. I was very surprised that it appears 
there were no weapons of mass destruction deployed with Iraqi 
forces. That is a fact, though, isn't it; that is not an 
argumentative matter? You found no deployed weapons, is that 
correct?
    General Abizaid. That is correct, we found no deployed 
weapons. Frankly, I thought we would have.
    Senator Reed. Frankly, your experience in these matters is 
much greater than anyone's on this panel. But I would have 
assumed that there would be telltale signs of a chemical 
weapon, chemical artillery rounds; that in a situation where 
you had penetrated their signals so completely, even random 
comments about special weapons--all those things. The 
configuration--I recall seeing something yesterday that 
Secretary Powell at the U.N. was briefing about a facility 
which he declared contained chemical weapons.
    Did you have that kind of intel? Were you targeting sites 
that you thought, before you crossed the LD, had chemical 
weapons?
    General Abizaid. Yes, sir. We had about 1,000 sites that we 
thought in one way or another were related to chemical weapons 
or biological weapons or the nuclear program. But we issued 
orders as we crossed the line that I described before, Kut-Al 
Amarah-Karbala, to increase our targeting against artillery, 
because we had indications from intelligence that they were 
getting ready to distribute chemical weapons to forward 
Republican Guard artillery units.
    That is what we thought, so we really targeted those 
artillery units in particular very hard. So the answer to the 
question is, I am again perplexed as to what happened. I can't 
offer a reasonable explanation with regard to what has 
happened, but I believe that when the Iraqi surveillance group 
conducts their work, that through the documents we look at, 
through the interviews we conduct, and through the people that 
are going to come forward, that we will piece the picture 
together. But I think it will take some time.
    Senator Reed. If I can make one additional comment--it 
doesn't require a response by the General--there are many, and 
I was included in that category, that felt that there might be 
weapons of mass destruction in Iraq, but that was only one part 
of assessing the threat which would require a military option. 
The other was the intention of the regime to use them and 
deploy them.
    I think certainly right now we have to reevaluate whether 
our intelligence was effectively gauging the intention and 
capability or will of that regime to use weapons of mass 
destruction, which is the critical question, I suspect, in the 
calculation to deploy the military option. Thank you, Mr. 
Chairman.
    Chairman Warner. Thank you, Senator, an important line of 
questions.
    I think this very hearing is doing precisely what the 
Senator desires, and it is the responsibility of this committee 
to probe these areas with the witnesses that come before us.
    If my colleagues would indulge the prerogative of the 
chair--you say that you are at a loss. That is a very candid 
response. I have often, in my consultations with senior 
officers, heard that the fact that this campaign was 
orchestrated by the Secretary of Defense, together with General 
Franks and yourself; was launched without the pattern followed 
in 1991, namely, of some 30-day air campaign lay-down, and 
Saddam Hussein was probably anticipating some parallelism 
between the two campaigns--the fact that from launch time to 17 
days you overcame Baghdad, he and his structure of command and 
control probably was totally caught off guard. To the extent 
that he was contemplating the use of these weapons of mass 
destruction, and, as our colleagues said, forward deployment of 
the units, that timetable I think was drastically thrown off by 
the bold initiatives of the coalition forces.
    Could that possibly be an answer?
    General Abizaid. It is possible, Senator. But I think--I 
said I was at a loss. My wife thinks I am at a loss an awful 
lot.
    Chairman Warner. That is all right. It is human nature.
    General Abizaid. I believe that if we had interrupted the 
movement of chemical weapons from the depots to the guns, that 
we would have found them in the depots. But we have looked in 
the depots and they are not there.
    So the question is, at what point did the government of 
Iraq make some decision to move its weapons and hide its 
weapons somewhere, or destroy them? Before the war we picked up 
movement at the depots that we thought meant that they were 
certainly moving things forward for use in military operations. 
It may very well have been that they had received the order 
quite to the contrary, to get rid of them.
    But I don't know, and I think we won't know for a while.
    Chairman Warner. Thank you.
    General Abizaid. But we will know.
    Chairman Warner. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I want to associate my remarks, General Abizaid, with the 
others congratulating you on your fine service. I think there 
are few people better qualified for CENTCOM than you. Looking 
over your background, it is just extraordinary. You have a 
master's from Harvard in Middle Eastern studies. You have been 
in combat, and you have led troops in the field; a good 
combination of Athens and Sparta, maybe.
    It is a challenge, I know, but some of your experience is 
extraordinary. I would like to ask you about that, and how it 
might apply to what we can expect to see as we seek to have 
this country of Iraq reestablish itself as a legitimate nation.
    One thing first I would like to ask about. To me, I always 
felt that one of the major justifications for confronting 
Saddam Hussein was the fact that we really never ended the 1991 
Gulf War. We were flying aircraft from Turkey and Saudi Arabia, 
the no-fly zones; we were patrolling the Persian Gulf, 
enforcing an embargo; we had troops in Kuwait that guaranteed 
they did not move in again.
    I am not sure that the American people or some of us in 
Congress have thought a minute about just how much we were 
expending each year in terms of personnel, manpower, and 
aircraft to keep Saddam Hussein in his box. Could you give us 
any thoughts about what was involved in just maintaining the 
status quo before this war commenced?
    General Abizaid. Sir, that is a great point. We did expend 
a considerable amount of national treasure and effort in 
keeping Saddam Hussein in the box.
    We had Operation Southern Watch going that flew hundreds of 
thousands of hours over southern Iraq.
    We had Operation Northern Watch going that flew hundreds 
and thousands of hours over northern Iraq.
    We spent years bombing antiaircraft positions. We spent a 
considerable amount of time in operations such as Desert Fox, 
to try to keep Saddam in the box.
    So those were good efforts, they were valiant efforts; but, 
ultimately, they were not enough. I think that bringing this 
brutal regime down with as many of the hundreds of thousands of 
people that he killed was a good thing in its own right.
    Senator Sessions. I would certainly agree, and would point 
out that the effort we were expending was in the name and on 
behalf of the United Nations, enforcing the resolutions the 
United Nations had passed. We were the primary enforcer of 
that.
    You spent some time in the Kurdish region of northern Iraq. 
You dealt with the people there. Somehow, that group of people 
managed to carve out for themselves a semi-functioning 
territory and government.
    How did that happen? Is there anything we can learn from 
that success, as to how we can create a successful new 
government in the whole nation of Iraq?
    General Abizaid. Sir, I think the success of the Kurdish 
enclave in terms of building their own prosperity and building 
their own institutions is one we all should look at, because we 
freed them of the terror of Saddam Hussein and his intelligence 
services and his armed forces. They moved forward in a very 
clear way to build a better society for themselves.
    The Iraqi people are very talented. They have a great 
amount of resources. Over time, they will build a society that 
is better than the one that Saddam Hussein gave them. I am very 
confident about that. But it is not something that will happen 
overnight. It will take some time. They will have to build 
their confidence.
    If you look in the Shi'a south, for example, Senator, the 
Shi'a are experiencing a degree of freedom and ability to live 
their lives free from interference and terror in a way that 
they have never experienced before. I think we should not lose 
sight of that.
    The Iraqis have a great opportunity ahead of them to move 
forward with us. What we need to do is to be smart enough to 
figure out how to make sure that we move forward with them.
    Senator Sessions. I think you stated that very well. In the 
Kurdish area, we have heard reports that Saddam Hussein used 
chemical weapons against the Kurds. You have been there. Is 
that true? What kind of weapons did he utilize and what kind of 
casualties were there? Can you describe that for us?
    General Abizaid. Sir, we certainly know that he used 
chemical weapons. It is very well known that he used them in 
the village of Halabjah on the northeastern side of the Kurdish 
areas, near Sulimaniyah. The number of casualties--I would 
hesitate to really give you that number, but at least 5,000 
people were killed in that particular attack. It is clear to me 
that he used them elsewhere.
    It is also clear, and we know beyond any shadow of a doubt, 
that he used chemical weapons against the Iranians in the Iran-
Iraq war.
    So there is no doubt that he had chemical weapons. He used 
what we believe were nerve agents against the Kurds in 
Halabjah, and there is certainly no doubt that he had any 
scruples about using these weapons of mass destruction.
    Senator Sessions. To me, the fact that he never 
demonstrated--that he deliberately and openly destroyed those 
weapons led anyone to a fair conclusion that they were still in 
his possession, Mr. Chairman.
    The way I saw it, from the beginning, the United Nations in 
1998--when they were forced out, the inspectors were, they left 
with a final conclusion that there were large stores of weapons 
of mass destruction. We never had any proof, or he never 
produced any proof, that he destroyed them or got rid of them. 
To me as a lawyer the case was made, and it was never rebutted 
up until the time the conflict started. Thank you.
    Chairman Warner. Thank you, Senator. I think at this 
juncture in the record the Senator has brought out the use of 
WMD by Saddam Hussein. You responded. You should also address 
here the killing fields, which were discovered by your 
advancing forces. Were the weapons utilized there conventional? 
For what reason did he destroy so many of his own population?
    You have discovered these mass graves in many instances in 
your advance. Could you elaborate on that?
    General Abizaid. Yes, sir. As early as 1991 when we 
operated in Iraq we found mass graves. Certainly since the 
conclusion of combat operations we have found an awful lot of 
mass graves, especially in the area of Al Hillah, south of 
Baghdad. We will continue to find more mass graves.
    The method he used is about as brutal as you can imagine. 
Women and children--sometimes you find them with bullet holes 
in the back of the skulls. Sometimes you find them with no 
marks whatsoever, and you have to wonder whether or not they 
just weren't thrown into the pit to be buried alive. That is 
certainly what survivors tell us happened.
    There is no more brutal regime that ever existed in the 
Middle East than this particular regime. We should shed no 
tears for the Baathists, and we should be resolute in 
prosecuting those that performed these horrible things.
    Chairman Warner. Many children were found in these graves?
    General Abizaid. Yes, sir.
    Chairman Warner. Some of them clutching their own prize 
toys, dolls and otherwise, as they went to death, is that 
correct?
    General Abizaid. That is correct, Senator. What you can 
imagine of the killing fields of Nazi Germany or Cambodia were 
every much as much active in Iraq as those other places.
    Chairman Warner. Thank you.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman. Welcome, 
General. Welcome to Mrs. Abizaid. Welcome to Florida. I hope 
Tampa is greeting you appropriately and taking care of you. 
MacDill is a good place. You are in one of the historical 
residences there, so we are glad to have you.
    General, I would like, for the record, for you to state 
what you stated to me in our personal conversation about 
looking for Scott Speicher.
    General Abizaid. Thanks, Senator. First, let me say my wife 
has been in Tampa for about 6 months. I have been assigned to 
Tampa for 6 months and I have seen it for 6 days. I liked the 6 
days that I have seen it. I hope to spend more time there. 
Thank you for your hospitality. It is a great place. Sir, it is 
amazing when you think about it that we have had two wars with 
Iraq, and there is only one person that we can't account for, 
and that is Scott Speicher. We had a very robust effort that 
attempted to confirm or deny his location, whether he was alive 
or whether he had died as a result of either being in Iraqi 
captivity or as a result of the crash of his aircraft.
    Chairman Warner. Excuse me, General. I think for the 
record, for those following these proceedings, you had better 
give a little historical context: when he was lost, the branch 
of Service, and the like. Many people are interested in this 
case.
    General Abizaid. Thank you, Mr. Chairman. Scott Speicher, 
who is from Jacksonville, was shot down on the first night of 
the Gulf War in 1991. We walked away from a downed pilot 
through a series of mistakes. When we asked for the exchange of 
POWs, we did not ask for him. He had been declared dead, 
mistakenly. We asked for his remains. They didn't have his 
remains, they had him.
    From sightings from corroborated witnesses, there is reason 
to think that it is credible that he was sighted as recently as 
1998. So you can imagine the trauma that the family is going 
through, having him first declared dead, and then about 5 years 
later the Department of Defense changes his status from killed 
in action to missing in action. Last fall, the Secretary of the 
Navy changed his status to ``missing/captured,'' which is POW.
    So that is the background, Mr. Chairman. Thank you for the 
opportunity to clarify that.
    Senator, we had an awful lot of places that we wanted to 
look into that were associated, as a result of the intelligence 
we had, as to places that he could have been moved to or been 
incarcerated in, et cetera.
    There was one intriguing find at the Hakmiya prison where 
we saw the initials ``M.S.S.'' scrawled on one of the walls. 
Certainly, Michael Scott Speicher--it is hard to wonder what 
else that could have meant.
    But in all of our searching, we have yet to find evidence 
that he was alive or in the hands of the Iraqis. We have 
questioned a lot of people. In the same vein as WMD, we have a 
lot of work yet to do. We owe it to him. We owe it to all men 
and women that serve in uniform that we will figure out what 
happened to him and conclude this case. We will continue to 
look.
    Senator Bill Nelson. When the chairman had his committee 
meet with the Secretary yesterday, Secretary Rumsfeld gave me 
his latest classified briefing on Speicher. We discussed the 
public information that we made public yesterday that Major 
General Keith Dayton has been appointed to oversee not only the 
WMD search, but also the search for Captain Speicher.
    Chairman Warner. He is in charge of the 1,400-person force 
constituted by Secretary Rumsfeld to be specifically tasked 
with weapons of mass destruction issues, prisoner issues, and 
other matters.
    Senator Bill Nelson. And Speicher. That is important. I 
handed the Secretary a personal letter from the family 
yesterday asking that a high-level person be appointed. They 
specifically had asked that he be appointed to report to 
Bremer. The Secretary feels like this should go up through 
CENTCOM, so they will be reporting to you there, General.
    I wanted just to get this on the table, because this is 
important. I can't go with the chairman, because of previous 
obligations, on his trip that is coming up next week, but I'm 
going to come to Iraq as soon thereafter as I can get out 
there.
    I want to talk to General Dayton. I want to go to that 
prison cell, I want to go to any of the graves that you are 
examining, and I want to talk to the investigators, the team, 
the special team. I want to talk to any prisoners, anything. 
This is the least I can do for the family.
    Let me ask you----
    Chairman Warner. Before we conclude on that, Senator 
Roberts will be accompanying me. He has been working with you 
in conjunction on this case. He is chairman of the Committee on 
Intelligence, and he has a personal interest in this.
    Senator Bill Nelson. Senator Roberts and I are joined at 
the hip on this. We do everything in coordination with each 
other. He has given me a blue slip on my allotted time, 
however.
    Chairman Warner. Why don't you take an extra bit of time 
here, Bill?
    Senator Bill Nelson. Thank you.
    There is a story in today's London Times: ``Resurgent 
Taliban forces have reorganized their command structure to 
fight against coalition troops in Afghanistan and President 
Karzai's government.'' Can you give us your thoughts on that, 
and what we ought to do about it differently than what we are 
doing now?
    General Abizaid. Senator, thanks for bringing up the issue 
of Afghanistan. As we focus a lot on Iraq, sometimes we lose 
sight of the fact that there are 10,000 U.S. troops up there. 
They are fighting in tough circumstances. Nearly every day 
there is some sort of engagement with either Taliban remnants, 
al Qaeda, or other Afghan groups that seek to overthrow the 
Karzai government. My old regiment of paratroopers is up there. 
They are doing a wonderful job. I visited them the other day.
    We have achieved a lot in Afghanistan. We have denied it as 
a safe haven for al Qaeda. We have taken out the Taliban 
government. We have given the Karzai government an opportunity 
to move forward. I think it is safe to say that there is a lot 
of work that still needs to be done in Afghanistan.
    Senator Bill Nelson. Is there some degree of Taliban 
resurgence?
    General Abizaid. I don't know that I would use the word 
``resurgence,'' but I would say there is a danger from the 
Taliban that we shouldn't underestimate. Does President Karzai 
deserve the respect and support of the international community? 
I think the answer is absolutely yes. As we are now able to 
focus more broadly throughout the theater, I certainly will 
reevaluate what we are doing militarily in Afghanistan and have 
discussions with the Secretary about what the way ahead is 
there.
    Senator Bill Nelson. Mr. Chairman, I have one more 
question, but I will wait until my colleagues----
    Chairman Warner. Our colleagues would be glad to indulge 
you, I think.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    General, you had said that the movement at the depots, the 
intelligence from that, is what led you to believe that when 
you crossed the red line that you were going to find that they 
had destroyed the chemical weapons.
    My question is, as the chairman has launched this 
investigation into what went wrong with the intelligence, this 
morning the New York Times was reporting an expert analyst 
telling legislators that he was pressed to distort some 
evidence. This is a senior intelligence expert named Christian 
Westerman.
    If we have the shading of intelligence to operational 
commanders like you, that is a fairly significant--if true--
detriment for a military commander, I would assume. We don't 
know the answer because the chairman is going to have his 
investigation, but do you have any comments?
    General Abizaid. Sir, I firmly believe that there was no 
distortion of the intelligence. I looked at it as a military 
professional. My subordinates looked at it as military 
professionals. I really believe that the intelligence 
communities did their best to give us their best judgment about 
what they thought, and that is what happened. That we didn't 
get it completely right is what I consider to be a fact.
    Will we figure out what we didn't know? I think we will. 
But again, I would like to emphasize, as I said previously, 
there were huge successes of intelligence in other areas, 
especially about the Iraqi battlefield, the order of battle, et 
cetera.
    So I believe that there is no finer intelligence community 
in the world than ours. Do we have to do better? Should we look 
to see what went wrong and make sure we understand it so we can 
fix those problems? Absolutely. It is essential we do so.
    Chairman Warner. Thank you, Senator Nelson. I am glad you 
emphasized the tactical intelligence. That is confirmed by the 
various steps in the military operations.
    Senator Cornyn.
    Senator Cornyn. Good morning, General. I am interested in 
the process of, obviously, first providing security in the 
country; but then, what steps are being taken to make sure that 
the Iraqis have a reasonable opportunity to create a democracy, 
a representative form of government within their country, and 
one that recognizes the basic human rights of the Iraqi people 
to speak, to worship as they see fit and according to their 
consciences, and to exercise their right of consent to the laws 
and the policies that govern them?
    I would be interested in your--first of all, given the 
joint nature of the arrangements between Ambassador Bremer and 
General Sanchez, is that something that CENTCOM is intimately 
involved in, or is that something that Ambassador Bremer is 
doing in connection with the State Department? Could you 
describe who has responsibility for that process?
    General Abizaid. Yes, sir. Ambassador Bremer has the lead 
for remaking the governmental institutions. He has a group of 
some extremely talented folks from all over the U.S. Government 
that are putting teams together that will eventually help the 
Iraqis with a constitutional process. He reaches out to Iraqi 
leadership, political leadership, almost daily.
    He has an extremely active program to build a 
representative government within Iraq. Senator, this is really 
probably the toughest of all missions. There is no real 
tradition of democracy as we know it in Iraq. We wish them 
luck, and they will need a lot of help. But I think that if 
anybody can make it happen, it is the people that are working 
for Ambassador Bremer and Ambassador Bremer himself.
    There is great interest in doing it right. Of course, there 
are many conflicting opinions. The important aspect that 
Central Command brings to the table is our ability to provide a 
secure environment in which meetings can be held and in which 
people can express their opinions, et cetera.
    So yes, we are partnering in this. But as I mentioned 
before, the Iraq problem won't be fixed by any single solution, 
not by a single military solution nor a single government 
solution. We have to move together economically, militarily, 
diplomatically, and on governmental reform together. As we do 
that, things will improve.
    Senator Cornyn. I know immediately after the main 
hostilities ended there were various comments made. I believe 
General Garner and others had expressed that maybe it was their 
hope, as opposed to a realistic expectation--how long we would 
need to stay to provide that help and assistance to the Iraqi 
people as they attempt to establish the rule of law and a 
representative government.
    Do you have an opinion as to what sort of timetable we may 
be looking at before the Iraqi people are able to take that 
responsibility in hand without perhaps risking the loss of 
everything that we have been able to gain through the great 
effort of our military forces in such a brief period of time?
    General Abizaid. Sir, the Iraqi people are moving ahead and 
are very anxious to take charge of the political process of 
their own future. That is exactly what we want them to do. 
Ambassador Bremer is there to assist, not to dictate.
    The process will take time. Governmental and institutional 
reform will take a long time, and I would certainly say that 
American engagement in that regard will be measured in years.
    The military side of the engagement will depend upon 
whether or not we are successful in building Iraqi police 
institutions, Iraqi military institutions, and the presence of 
other international forces.
    While I will only say that our military involvement there 
will be certainly a long one, I wouldn't want to characterize 
how long it is going to be. It can come down as we have success 
on the institutional front.
    Senator Cornyn. I actually am very glad to hear you say 
that, because I think it is far more realistic than perhaps 
some of the statements that were made immediately following the 
main conflict about our desire to get in and out quickly.
    Of course, maybe that was our desire; but the reality is, I 
believe, as you have expressed it. We have some history of 
reconstruction postwar in places like Japan and Germany which 
obviously is on the order of years, not days or weeks.
    I was concerned--and I would be interested in your comment 
on this--that after the Gulf War we encouraged some Iraqis to 
rise up against Saddam, and then we left, and he used that as 
an opportunity to repress and indeed to murder thousands of 
Iraqis.
    Until we actually find Saddam and account for him, whether 
dead or alive, do you view that as a pivotal event that will 
assist us in moving forward and the Iraqi people in moving 
forward? Do you feel like they are hesitating now because of 
their uncertainty as to his outcome?
    General Abizaid. Sir, in the north they are not hesitating. 
The Kurdish population is moving forward. In the south the Shia 
are very active politically. As far as they are concerned, they 
are not overly worried that Saddam will reappear.
    The real problem is in the Sunni heartland. We need to 
ensure that we can account for Saddam Hussein so that the 
people that were on his team before and are supporting violence 
against our forces understand that there is no future for them.
    We also need those members of the Sunni community that 
would otherwise be afraid to come forward and establish some 
sort of political activity in the Sunni community that is 
outside the scope of the Baath party. I think some of them are 
hesitant to do that until we close out the case of Saddam.
    Senator Cornyn. Thank you, General.
    General Abizaid. Yes, sir.
    Chairman Warner. I assume if there were any new facts 
regarding Saddam Hussein you would share them with the Senate 
here this morning. There are no new facts?
    General Abizaid. No new facts, Senator.
    Chairman Warner. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I would like to join my colleagues in wishing you well in 
your new position. I think you are going to be confirmed. I 
think you will bring the experience we need. I wish you well.
    As a field commander, you obviously look at a number of 
scenarios; ``what if'' situations that can happen when you are 
on that battlefield. I would assume that you appreciated the 
fact that you were warned of the possibility that there could 
have been weapons of mass destruction, is that correct?
    General Abizaid. That is correct, sir.
    Senator Allard. As Commander in Central Command, I presume 
you will make every effort you possibly can to warn your field 
commanders of any possibility of weapons of mass destruction 
that they may incur on the battlefield. Is that correct?
    General Abizaid. That is correct, sir.
    Senator Allard. I think sometimes you expect things to be 
there, but when you show up and find out they are not there, 
there is a sigh of relief to a certain degree, because you 
didn't have to contend with it. But also I think you appreciate 
the fact that you were warned of that possibility and could 
have that contingency in mind as you move forward.
    Let me talk a little bit--raise a question relating to the 
whole command area that you will be serving in or are in 
command of, and talk a little bit about the base alignment that 
is apparently going on, at least what has been reported in the 
media.
    The press has reported that the United States has pulled 
out most or maybe all of its air assets out of Incirlik Air 
Force Base in Turkey, and is in the process of downsizing at 
Prince Sultan Air Force Base in Saudi Arabia. They are both 
major command centers, as I understand it.
    What were the reasons for withdrawing from these bases, and 
have we found suitable sites in neighboring countries to 
replace these once critical bases?
    General Abizaid. Sir, Incirlik is in the European Command 
area of responsibility. While there is some drawdown going on 
there, there is certainly a desire by the European Command to 
maintain a very strong relationship with our Turkish allies.
    During the war we got a tremendous amount of support--in 
spite of the fact that our land forces didn't come across the 
border, we did receive a lot of support from the Turks. But I 
would defer any questions about Incirlik to the European 
Command.
    As for Saudi Arabia, yes, we are drawing down on our forces 
at Prince Sultan Air Base, and we have other areas in the 
Persian Gulf that have readily accepted U.S. forces that 
allowed us to operate from there during the war.
    I would like to take the question for the record, because 
there are certain local sensitivities in the region about 
acknowledgment of the amount of force and the effectiveness of 
it, et cetera.
    [The information referred to follows:]

    [Deleted.] The Office of the Secretary of Defense directed Central 
Command [deleted]. Central Command has primarily [deleted.] Plans for 
relocation were temporarily suspended due to Operation Iraqi Freedom. 
Central Command has since completed the relocation of assets and is 
[deleted].

    I would like to emphasize that we have a very good and 
strong relationship with the Saudi Arabians. They were very 
supportive during the war. I think it is clear to the Saudis 
that they are facing the same enemies we face in the world of 
terrorism, and that together we are going to have to work very 
hard to face this threat.
    So I anticipate our relationship with the Saudis to 
continue to be strong. We won't have the same footprint there, 
but we will have a very strong and important relationship in 
getting after the terrorists together.
    Senator Allard. Thank you for that response.
    I would like to talk a little bit about the space-based 
assets that you utilized in Operation Iraqi Freedom.
    Would you give us an assessment of the performance of these 
assets? If you have the insight, can you give us any idea of 
additional capabilities that you would like to see in future 
combats?
    General Abizaid. The space-based assets performed 
magnificently. To have a complete picture of the enemy, as 
complete a picture of the enemy as we had with regard to their 
military formations, has an awful lot to do with our domination 
of information technologies and of space-based things.
    I don't want to go into the classified parts that you are 
well familiar with, Senator, other than to say that there were 
other programs that gave us great service, as well, that are 
classified. I would be happy to talk with you about it in a 
classified session.
    In terms of what more we could get out of our space-based 
assets, we need to exploit our ability to dominate the 
information spectrum from space more and more in the future. It 
is just critically important. Our ability to sense, our ability 
to see, our ability to hear, our ability to broadcast can all 
be enhanced by space-based assets, and I think it is only our 
imagination that would keep us from being able to enhance our 
ability to fight wars more efficiently using space assets, even 
if they are not weaponized.
    Senator Allard. That gets back to the basic question of 
what happened to the weapons of mass destruction, in many 
regards. Talk a little about the Patriot missile system. They 
shot down a number of Iraqi ballistic missiles. There were a 
couple of friendly fire incidents. Would you talk a little bit 
about that system?
    General Abizaid. Sir, I have great confidence in the 
Patriot system. We have to very thoroughly investigate what 
happened on the friendly fire incidents. I have not had an 
opportunity to look at the work that the Army is doing to try 
to understand what went wrong technically there. I think there 
were some similarities in the incidents.
    I certainly know that the Patriot systems protected our 
forces very well from ballistic missiles that were fired at 
them, so I have a lot of confidence in it. But it is important 
that we understand what technical problems caused the friendly 
fire incidents and correct them right away.
    Senator Allard. Thank you for your answers.
    Chairman Warner. Do you have another question or two?
    Senator Allard. Just one question, Mr. Chairman.
    You mentioned in your advanced questions to the committee 
that, and I quote, ``Our ability to strike rapidly sometimes 
exceeds our ability to sense and assess the effects as quickly 
as we would have liked.''
    Can you please expand on that? Did you have sufficient 
intelligence, surveillance, and reconnaissance (ISR) assets? In 
a perfect world, what additional ISR capabilities would you 
like to have?
    General Abizaid. ISR is in chronically short supply for the 
department, and I think we need more ISR assets with our wide 
responsibilities in order to make sure we are sensing our 
environment better. I believe that the Secretary would not be 
surprised by that answer.
    With regard to the comment in my written questions, it 
really had to do with a period that we went through where the 
battle damage assessment process was not working as efficiently 
as General Franks would have liked it to work.
    This was during the stage of the battle when we were up on 
the Karbala-Kut line facing the Republican Guards. We did not 
think that the turnaround time on the assessments of what 
damage we were doing to the enemy came to us quickly enough. I 
am not sure whether that is a technical problem or a process 
problem. I tend to believe it is more of a process problem.
    But certainly we need to always improve our ability to 
sense what we have done to the enemy so that we can take 
advantage of the weaknesses that we perceive. That requires 
some work.
    Senator Allard. Thank you. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    My distinguished ranking member is trying to cover two 
hearings at one time, so I will defer my further questions 
until he has completed his.
    Senator Levin.
    Senator Levin. I appreciate that very much, Mr. Chairman. 
Just a few additional questions, General.
    First as it relates to the recent event next to Syria 
relative to that convoy, what was the intelligence about that 
convoy? What did we expect it to be? What did it turn out to 
be? That is question one.
    General Abizaid. Senator, I believe that it would be very 
important for me to discuss this with you in a classified 
session.
    Senator Levin. Including what it turned out to be?
    General Abizaid. Yes, sir.
    Senator Levin. That is fine, if that is the way it should 
be.
    Second, we have a new organization here now that is looking 
for weapons of mass destruction significantly larger than the 
previous one, which I think was the 75th Exploitation Task 
Force, if that is correct.
    General Abizaid. Yes, sir.
    Senator Levin. Can you tell us the way in which the mission 
functions and capabilities of the new group, the Iraq Survey 
Group, differs from the 75th Exploitation Task Force?
    General Abizaid. Yes, sir. The 75th Exploitation Task 
Force--I would describe them as the blue-collar WMD searchers. 
We, of course, thought we could send them to specific targets, 
that they would need to do the muscle work, the technical work 
to recover the weapons of mass destruction quickly and then 
bring them back to us. They were equipped more for moving, 
finding, and quickly exporting.
    Chairman Warner. Could I interrupt? I have just been 
informed this clock is not functioning. A vote was called, all 
the time has expired, and they are waiting for our vote. So we 
will go vote.
    [Whereupon, the committee recessed from 11:18 to 11:35.]
    Chairman Warner. Gentlemen, we will continue the hearing. I 
will have to vote again and then come back and we will conclude 
it. Senator Levin was not able to return, but he asked that 
when I depart for the next vote, could you put into the record 
your full response to his question.
    General Abizaid. The 75th Exploitation Group did the work 
to locate the highly probable areas where we could find weapons 
of mass destruction, but they did not have a strong analytical 
group that was able to exploit documents, interrogations, and 
essentially connect the dots on the missing puzzle pieces that 
were apparent with being unable to find weapons of mass 
destruction.
    So it was decided that we needed to put together a 
specialized group that had a very strong analytical capability. 
That is when we decided to build--or the department decided to 
build the Iraq Survey Group. I would refer to them as the 
white-collar searchers for WMD. They have a strong group of 
intel professionals and analysts that will look through miles 
and miles worth of stacked up documents and reports on 
interrogations, et cetera.
    They will also look at the history of what the United 
Nations had done previously, what intelligence was reported 
previously, and then try to solve the central question as to 
what happened between 1998 and 2003 with regard to Iraq's 
weapons of mass destruction program.
    At the same time, as they go through all of this, they 
should be able to give us clues as to where we should go next. 
The 75th had a list of a thousand sites to go to, but that 
really probably is not the most effective way of getting at the 
problem, especially now that we haven't found anything. We need 
to look at the evidence and have judgments made at a high level 
as to where we might achieve the higher payoff. So that is why 
there is an ISG.
    Chairman Warner. General, the North Atlantic Treaty 
Organization (NATO) to me is one of the greatest institutions 
that we have had the privilege as a Nation to participate in. I 
have spoken out a number of times in support of NATO, and 
hopefully always will. I have heard comments from responsible 
persons informing me that serious consideration has been given 
to incorporating NATO into your efforts in Iraq.
    Could you bring me up to date on that and give your own 
personal views?
    General Abizaid. Sir, I do not know the degree to which the 
Secretary and the folks in the department have moved forward on 
the idea to include NATO formally in Iraq stability operations.
    Chairman Warner. I would hope that during the course of 
your stay here in Washington that that can be briefed to you in 
full.
    General Abizaid. Senator, NATO has agreed to provide the 
next International Security Assistance Force (ISAF) command in 
Afghanistan.
    Chairman Warner. I was going to go to Afghanistan 
momentarily. So at the moment you prefer to respond for the 
record on NATO?
    General Abizaid. Yes, sir.
    Chairman Warner. Give that further study.
    General Abizaid. Yes, sir.
    [The information referred to follows:]

    Several NATO countries are unilaterally participating in stability 
operations in Iraq. NATO, as an organization, has provided support to 
Poland as they prepare to lead one of the Multi-National Peacekeeping 
Divisions in Southern Iraq. We are continuing to explore additional 
methods to leverage the significant capabilities and experience that 
NATO possesses. [Deleted.] NATO's imminent assumption of command of the 
International Security Assistance Force in Kabul, Afghanistan should 
provide some valuable lessons that we can incorporate into our efforts 
in Iraq.

    Chairman Warner. I just want to conclude by saying that I 
strongly endorse at the earliest possible time the 
incorporation of NATO in the diversity of challenges that face 
you and Ambassador Bremer in the immediate future.
    Now, shifting to Afghanistan, my understanding is that they 
have now formally concluded those arrangements. I would like to 
have you describe what they are, and also the chain of command 
that NATO reports through, and the relationship with the United 
Nations.
    General Abizaid. Sir, the chain of command--Senator, in 
Afghanistan right now we have the United States and coalition 
forces engaged in combat operations which report directly to 
the Commander of Central Command. Then you have the forces of 
ISAF, which are not in the direct chain of command with CENTCOM 
but do respond to some degree of tactical control.
    I will have to respond for the record for precision with 
regard to the chain of command with NATO. But I think you will 
continue to see ISAF performing the stability role in and 
around the Kabul area; American combat operations, coalition 
combat operations, being a separate chain of command; and there 
are discussions currently under way in the department as to the 
future of that chain of command.
    It is possible, for example, that there will be some new 
command arrangements that move. But suffice it to say that NATO 
will participate and will have an important role to play in 
ISAF. I agree with you 100 percent that this is a good thing 
for us.
    [The information referred to follows:]

    The International Security Assistance Force (ISAF) operates under a 
United Nations (U.N.) mandate, but not under U.N. control. The current 
mandate runs through December 2003. We anticipate that an extension of 
the mandate is forthcoming.
    NATO has agreed to assume command of the ISAF. NATO involvement 
with ISAF is a significant occurrence because this is NATO's first 
deployment outside of Europe. An ISAF IV Letter of Arrangement (LOA) 
between NATO and the United States will specify command and control 
(C2) arrangements between NATO and coalition forces operation in 
Afghanistan under Operation Enduring Freedom (OEF). [Deleted]. Details 
of the relationship between the ISAF and OEF forces, however, have not 
yet been finalized.

    Chairman Warner. I presume you share that same opinion with 
regard to Iraq?
    General Abizaid. Sir, I am all for NATO participation, as 
long as we do not violate unity of command for combat 
operations.
    Chairman Warner. It is very important that that be made 
ever so clear. NATO I think tactically would have a joint chain 
to General Jones and yourself, CENTCOM.
    The President of the United States met with President 
Musharraf yesterday. I think it was a very beneficial meeting 
on a wide range of issues. I have studied the initial reports. 
I have had the pleasure of meeting with President Musharraf on 
a number of occasions. I presume you have had that same 
opportunity.
    General Abizaid. No, sir, I have never met with the 
President.
    Chairman Warner. You will have that opportunity shortly 
after you assume your new command.
    General Abizaid. Sir, if confirmed, one of the first places 
I will go is Pakistan.
    Chairman Warner. Pakistan has been enormously cooperative 
in missions we have, are, and perhaps will be, conducting in 
Afghanistan.
    The President made direct reference in the presence of 
President Musharraf that we are continuing direct efforts to 
get Osama bin Laden. I presume you have been following those 
operations. Could you elaborate a little on that?
    General Abizaid. Sir, the Pakistani military and some of 
their other security services have worked very closely with us 
in ensuring that there is no safe haven for al Qaeda within 
Pakistan. They have certainly done a wonderful job on their own 
in the areas of the urban centers of Karachi, Quetta, et 
cetera, where they have done a magnificent job of disrupting, 
identifying, and keeping al Qaeda from really establishing 
themselves firmly.
    They have tougher challenges up along the border with 
Afghanistan for a lot of different cultural reasons and for 
security reasons, where there is no tradition of strong 
Pakistani forces up there.
    Chairman Warner. The geography lends a certain challenge.
    General Abizaid. The geography is like the Rocky Mountains 
times two. It is very difficult, very mountainous; one of the 
most daunting areas for military operations that you could find 
anywhere on Earth. The same goes for the Afghan side of the 
border.
    The help that the Pakistanis have given us in operations in 
and around Afghanistan has been absolutely essential to the 
success of operations there. I certainly will do everything 
that I can to build upon General Frank's very excellent 
relationship with President Musharraf and with the Pakistani 
military.
    We both know that it is a matter of utmost importance for 
both of our nations to get after the al Qaeda threat and that 
Afghanistan's stability is as important to Pakistan as it is to 
the United States. So we look forward to close cooperation and 
building on closer cooperation with them.
    Chairman Warner. I think it is important in this hearing 
that I state that in my opinion, there is ongoing risk to 
American forces and other forces operating in Afghanistan. The 
American public should understand that while they may not be on 
page 1 with the frequency that they once were, our troops are 
very courageously, bravely, and with a high degree of risk 
carrying out these missions. Am I not correct in that?
    General Abizaid. Sir, you are absolutely correct. I visited 
Afghanistan a week ago. My old regiment is operating out there, 
a bunch of young paratroopers, up on the border 10,000 feet 
with helicopter support, often with Afghan militias, often with 
Afghan regular forces. They are doing wonderful work.
    The other place that wonderful work is being done is where 
Major General Carl Eichenberry is and the work that he is doing 
to build the Afghan National Army. So from a security 
standpoint, there is a lot of fighting that continues to go on 
there. There is more ahead. Our troops there should be praised 
and thanked every day.
    Chairman Warner. Senator Levin and I have made two trips to 
the region, one just recently. You mentioned your old regiment 
and their courageous performance. Any other nations 
participating as actively in this?
    General Abizaid. Yes, sir. In Afghanistan, I had the 
opportunity there to see the Romanians operating. They have a 
special operations unit that is doing an excellent job. I also 
saw French soldiers that were operating there, likewise doing 
the same. In an ISAF we know the Germans were the victims of a 
terrorist attack very recently. Those troops serving in ISAF, 
Germans, Dutch, and others are doing wonderful work, as well.
    The international community, ISAF, plus our own 
conventional operations that are going on there, are often out 
of the limelight, but they are very important and successful.
    Chairman Warner. General McNeill was in command when 
Senator Levin and I were there. I was very impressed with him 
as a professional. My understanding is through a routine 
rotation he is now back here in the United States.
    General Abizaid. Yes, sir. He is back in the United States. 
He has yet to give up command of the 18th Army Corps. I believe 
the Army has that scheduled soon. I'm sure there are great 
things in store for that soldier. He is one of the finest we 
have.
    Chairman Warner. I share in that view. It is the intention 
of myself, concurring with the ranking member, to have him 
appear before the committee to give us the benefit of his 
experiences over there in the very near future. I mention that 
because this committee is ever mindful of the situation in 
Afghanistan and the risks that our forces are daily 
encountering.
    Now, I want to read an interesting concluding paragraph in 
one of the press stories today, a story which covered in some 
detail--the detail that is available--the tragic loss of the 
British forces.
    ``Security concerns will only grow if Tuesday's 
violence''--that is referring to that incident--``indicates an 
uptick of attacks,'' whatever the word ``uptick'' means; I 
would assume an increase of attacks--``is beginning in Shiite-
dominated areas of Iraq, where British troops have a large 
security role.''
    ``The Shiites, who make up some 60 percent of the Iraqi 
population, were abused by the Saddam Hussein regime and 
constantly had maintained a fairly neutral stance toward the 
American and British occupation. Resistance groups also have 
been blamed for a series of attacks in recent days on oil and 
natural gas pipelines and other infrastructure.''
    This is the key paragraph: ``The new attacks,'' again 
referring to particularly the one on Tuesday, ``also show that 
the British troops' less aggressive stance in the more peaceful 
south may not fully succeed in preventing the kind of angry 
attacks that until Tuesday had focused on U.S. troops. American 
forces have responded with coordinated raids and tough tactics, 
while British forces have taken a more kid glove approach to 
occupation.''
    In my consultations and study of this situation, I was 
advised that the British decided that they could perhaps 
perform their mission as a central component of nationbuilding 
in that region by presenting themselves physically in a less 
formidable manner. I think they stopped, for a period of time, 
the use of the protective vests and actually utilized equipment 
other than helmets, and perhaps in other areas they altered 
their practices.
    Now, my first question is, was this differentiation in 
approach and tactics a matter which was coordinated up through 
General Franks and yourself, and was it with your approval; or 
was that discretion reposed in the British commanders to 
exercise without the necessary approval of the senior command?
    I ask that because I suppose a lot of American forces felt 
maybe they would like to take off the added weight of the 
protective vests and push back the helmet for a softer headgear 
or something of that nature; but to the best of my knowledge, 
that was not done.
    Then this refers to the tough tactics that we employed 
versus the less tough tactics exercised by the British forces--
they describe it as kid gloves--in performing their missions.
    Did it come through? Did you chop on it and say okay----
    General Abizaid. No. Commanders' discretion in the field, 
sir. We granted--General Franks in particular, he is a 
commander that grants a broad degree of discretion to his field 
commanders. It would have gone, probably, as a question unasked 
as to whether or not they needed permission to adjust their 
operating style.
    I would take great issue with the notion that the British 
forces are using kid gloves, anyway.
    Chairman Warner. That is why I wanted you to have an 
opportunity to reply.
    General Abizaid. They are undoubtedly among the toughest 
and finest professional soldiers on Earth.
    Chairman Warner. I share that view.
    General Abizaid. It is a great pleasure to have them in the 
coalition. I think when the smoke clears we will find out that 
what happened yesterday was some sort of a local problem; that 
people were surprised by it on both sides, and that it 
escalated in a way that is unfortunate and caused the loss of 
life.
    But there is no lack of aggressiveness in the way that the 
British do business. In fact, they often take more risks than 
we do because philosophically they have learned different 
lessons from their own military history than we have. I think 
allowing national contingents to operate within their best 
judgment is what makes a coalition strong. You will find the 
British as tough as they come.
    Chairman Warner. I agree with that. As a matter of fact, I 
have said often--and will repeat--without the support of Great 
Britain from the Prime Minister on down, this operation would 
have been considerably more difficult for the U.S. contingent 
of the coalition forces.
    General Abizaid. Our greatest concern before the war was 
they wouldn't cross the berm with us.
    Chairman Warner. They did.
    General Abizaid. We are thrilled to have them by our side, 
and still are.
    Chairman Warner. That brings me to this cultural 
difference.
    Fragmentary reports on this incident described that the 
locals were concerned with tactics used in the course of trying 
to remove weapons from the households and other private places. 
Also, they have a very--I don't know quite how to phrase it--an 
extraordinary respect for the women in their culture, and I 
don't mean to differentiate between what we have. I certainly 
share extraordinary respect in my culture.
    I wonder if you could enlighten us on that cultural 
framework, and how, hopefully, as you move in, drawing on your 
background, that you can be in a position to advise our troops 
and coalition forces about the importance of those cultural 
differences and how best to perform our missions, at the same 
time paying due respect.
    General Abizaid. Senator, if you go to the location where 
this incident occurred south of Al Amarah in Maysan province, 
in many respects it is one of the most isolated provinces in 
the nation of Iraq. Its ties to old tradition are probably 
stronger than almost anywhere else.
    Chairman Warner. That goes back centuries, am I not 
correct?
    General Abizaid. Absolutely; thousands of years. As a 
matter of fact, near the site of this action is the place 
called Al Qurnah, which is rumored to be the original Garden of 
Eden, so civilization has been there for a long time.
    The cultural norms that they have established are very 
private. They are very family-oriented. They are very 
protective of the women. We have to be smart enough in our 
operations to be culturally sensitive, yet also understand that 
Saddam and the Saddam Fedayeen during the war used cultural 
sensitivities against us in every way possible. So in order to 
protect our forces, sometimes we have to make compromises.
    I think our troops are smart enough, as are the British, to 
make those compromises at the right time. But we need to be 
talking to the local leadership before we conduct major search 
and cordon operations.
    Chairman Warner. I think more and more this phase of the 
operation--we will have to draw on your expertise and 
knowledge, and hopefully you will infuse that knowledge right 
down to the foot soldier.
    I have to go and vote again. I will be right back.
    [Whereupon, the committee stood in recess from 
approximately 12 noon to 12:21 p.m.]
    Chairman Warner. Gentlemen, we want to cover other areas of 
your AOR.
    Let us start with the border nation of Iran: first, the 
implications with regard to our missions in Iraq; and second, 
with regard to the Middle East problem; and then with regard to 
security to other nations in the region as a consequence of 
this what I view as a somewhat unstable and autocratic regime 
largely operated by the tier of government referred to as the 
Mullahs.
    General Abizaid. Yes, Senator. Clearly, Iran, with a 
population of somewhere around 65 million people and large 
armed forces, is a power to be reckoned with in the Gulf. As a 
matter of fact, were we not in the Persian Gulf or the Arabian 
gulf, whichever you choose to use, you would find Iran as the 
most powerful nation there.
    Chairman Warner. Excuse me. That is important, but I think 
you describe ``most powerful'' as a consequence, I presume, of 
its table of organization and military forces, their equipment, 
their readiness, and indeed, the doctrine under which they are 
trained?
    General Abizaid. Sir, they have the most capable military 
force in the region outside of our own. They have a doctrine 
that is designed to take advantage of what they perceive as our 
weaknesses. They look in particular to target what they view as 
naval vulnerabilities, especially in the chokepoints and places 
such as the Strait of Hormuz.
    Chairman Warner. That poses a threat to our operating units 
which periodically and most constantly have been in that Gulf 
region, is that correct?
    General Abizaid. That is correct, sir. They have a very 
robust intelligence service which has played active and not 
helpful roles in places like Lebanon, Iraq, and others with 
regard to working against the United States. So it is clear 
that the Iranians are a challenge.
    Yet, on the other hand, I think all of us look with a 
certain degree of hope at various reform movements that we see 
taking place inside Iran. The government is split between 
hardliners and those that wish to move in the direction of 
reform; although I think we shouldn't underestimate the degree 
to which President Khatami's government could move, even if he 
had the desire to do so, in a direction that would be more 
accommodating to the United States.
    Iran is a very serious contender and player in the 
geopolitics of the Persian Gulf and militarily. We need to be 
very concerned about them.
    Chairman Warner. Does the situation in Iraq have a bearing 
on the instability between the Palestinians and the Israelis 
and vice versa? Does that have a far-reaching influence into 
what is occurring on Iraq?
    General Abizaid. Sir, I think that the movement towards 
some sort of accommodation between the Israelis and the 
Palestinians is a positive and essential step, not only for 
Israel and the Palestinians but for the whole region.
    There is a connection--there is not a day that goes by 
where, as I travel around the region, the various leaders in 
countries that are very positively inclined towards the United 
States don't ask us to get more involved. I don't think they 
are looking for us to impose a solution, but they are looking 
for us to play a role in finding a solution.
    Although it is way out of my lane, I believe that the 
initiatives we are undertaking now are very important, and they 
will play themselves out to a certain extent not only in Iraq 
but throughout the entire region.
    Chairman Warner. In my trip recently through there, like 
you, when I visited with the heads of government, the heads of 
state, it was brought up at every meeting.
    I think we should also include in the record today the 
strong support we are receiving from Qatar and Kuwait. I hope 
to visit the government of Kuwait with my delegation when we go 
there. We have had a long association with them working in the 
Senate here over many years with Kuwait. Their contribution in 
land alone--we occupied for purposes of training and staging a 
very considerable portion of their real estate, temporarily 
occupied. I think I would like to have your comments on both.
    General Abizaid. Sir, I would describe the Kuwaiti 
government's support for the United States of America--and in 
particular these recent military operations--as nothing short 
of courageous. They have been incredibly supportive. They have 
suffered under Saddam Hussein in a way that taught them that he 
had to be dealt with, finally, and their support was unwavering 
in every respect. We couldn't ask for a better relationship 
than that which we have with the Kuwaitis.
    It is important Kuwaitis remember that we have helped them 
come to grips with a large number of their citizens that we 
can't account for. They were last seen being moved by the Iraqi 
intelligence services from Kuwait into Iraq in 1991. 
Unfortunately, we haven't found any of these people alive. I 
think we will find, sadly, that they were executed by the 
Iraqis, but at least we can close out the concerns of the 
families over time. There is still a lot of work to do there. 
To answer your question about Kuwait, we have great support.
    The Qatari government has been incredibly supportive as 
well in many respects. Not only are they supportive, but they 
are one of the most liberalizing influences in the Persian Gulf 
region. I think we owe the Qatari government not only a debt of 
gratitude for their military support, but also for the example 
that they set in their willingness to liberalize in a part of 
the world that is not necessarily noted for its liberal 
thought.
    Chairman Warner. We are contemplating some long-range 
relationships there, particularly as it relates to CENTCOM, are 
we not?
    General Abizaid. Sir, the mutual relationship with the 
Qataris is one of the United States providing obvious 
protection for their sovereignty, and them providing us with 
obvious access to a very strategically located basing 
construct, to include the forward headquarters of CENTCOM. It 
is a very good place to operate from.
    Chairman Warner. Should we not also cover the United Arab 
Emirates (UAE) in the context of our discussion here?
    General Abizaid. Yes, sir, the United Arab Emirates is also 
a staunch friend, and gave us and continues to give us great 
support in the Gulf region. Their military in particular has 
worked very closely with us in establishing a credible force 
there. They have been great supporters of the United States in 
many respects.
    On the other hand, we shouldn't consider any of these 
countries as being our lackeys, because they quickly tell us 
what they don't like, and they work with us in very important 
ways.
    But probably the most important thing that I have not 
mentioned is that for Kuwait, for Qatar, for the UAE, for Oman, 
for Saudi Arabia, this is a matter of life and death that they 
are engaged in with regard to the global war on terrorism. The 
terrorists will never defeat the United States, but they could 
be a mortal danger to any of those regimes.
    Chairman Warner. You did mention Oman, because they have 
given us--when I was there some time ago with Secretary Cohen I 
saw the foundations of that. I later was there with Senator 
Levin.
    General Abizaid. This concurrence of interest against the 
terrorists should not be underestimated. It is very important 
for our continued well-being here at home and also for their 
continued well-being in their homes to fight this fight. We are 
getting great cooperation from them.
    Chairman Warner. Our record today should also reflect that 
Jordan and Egypt, through their leadership, have likewise had a 
very constructive role in the war on terrorism.
    Turning now to the India-Pakistan relationships for the 
moment, that seems to have de-escalated to the point where 
there may be a ray of optimism.
    Have you a view on that?
    General Abizaid. Sir, I believe that the India-Pakistani 
relationship every now and then shows a ray of optimism, but 
the Kashmiri problem is very difficult. It will need a lot of 
work. It will need a lot of time. It needs a lot of good will 
between both sides.
    We have to be optimistic with regard to the India and 
Pakistan relationship, because if we are not we could quickly 
find ourselves in a position where we have a very important 
part of the world moving towards nuclear war, so our engagement 
with both sides to find a sensible solution to a very difficult 
problem is important. As you have already mentioned, our 
military relationship with the Pakistanis is especially 
important to CENTCOM.
    Chairman Warner. Returning to Iraq, we discussed--and we 
certainly have seen a good deal of press, within the past 
several weeks particularly--very poignant and accurate stories 
about the perception of the foot soldier in Iraq, his view that 
he fought the war as best he could, and it is time for him to 
be rotated. I know that is difficult.
    Could you comment a little bit on your rotation policy for 
the Army and Marine Corps units, particularly those units that 
bore the brunt of the early action?
    General Abizaid. Yes, sir.
    Sir, if I may, I know you would concur with me that we also 
need to make sure that we mention Bahrain in your previous 
question, as well.
    Chairman Warner. Yes. I helped start the Navy there many 
years ago--or enlarge it, I should say--when I was in the Navy 
Secretariat. I am glad you mentioned that.
    General Abizaid. We received wonderful support from Admiral 
Keating. He is a wonderful, brave and courageous man.
    Chairman Warner. Our naval component commander----
    General Abizaid. Yes, sir, Admiral Keating is doing a great 
job there.
    Sir, I understand one of the most important things for any 
soldier to know is when they are coming home when they are 
employed in a combat zone. When you go into combat operations--
we didn't know whether the Iraq operation would last 17 days or 
170 days. We couldn't tell the soldiers when they were coming 
home, and General Franks specifically went out of his way to 
ensure that commanders understood that there was no guarantee 
that when this was over, that--when the combat operations 
against major forces were over, that we would bring everyone 
home very quickly. He knew clearly that there would be a 
requirement for stability forces.
    That having been said, we are working currently with the 
Services to ensure that units that come in have rotational 
dates that are known to the troops. It is important.
    I should point out that the First Armored Division was 
scheduled to be the rotational replacement for the Third 
Infantry Division. That did not happen because the security 
situation did not move as quickly in a direction that we 
thought it would towards stability, and we needed the 
additional forces.
    I think you will see in the weeks ahead that we will be 
able to make some decisions on rotating the units out that have 
been there the longest. We owe those soldiers an answer as to 
when that might be.
    I would also like to point out, as you mentioned to me in 
your office the other day, that we cannot underestimate the 
huge contribution played by the Reserve and National Guard. 
That is continuing to be played.
    I think somewhere between 25 and 30 percent of the force in 
the Persian Gulf region, and perhaps within Iraq itself, is 
either a National Guard or a Reserve component. That simply 
means we couldn't do the job without them under any stretch of 
the imagination.
    Some of these folks have been deployed ever since September 
11, or been activated since September 11. They are making 
contributions that are unbelievable. We owe it to them to 
review how best to use them in the future, and to make changes 
in the way we do business with them that keeps them on the 
team.
    So I know the Secretary is very concerned about that. I 
know the Chairman is. I know General Franks is. All of us are 
working hard to figure out what is the right thing to do with 
those great people that serve us in this capacity during 
wartime.
    Chairman Warner. Earlier, I mentioned that we, as a 
military force, have reached a high water mark in jointness. I 
think one of the most extraordinary positive examples was the 
manner in which the United States Marine Corps and the United 
States Army in parallel areas of operation worked side by side 
in this advance.
    Would you like to comment on that?
    General Abizaid. Sir, having personally witnessed the low 
water mark of jointness during the Grenada operation, I can 
tell you, we are better than we have ever been. During Grenada, 
I could not get Navy fighters on targets because they had 
different maps. I could not get the Marine Cobras to come where 
I wanted them to because we couldn't talk properly to one 
another on the radio frequencies. I couldn't bring in naval 
gunfire on a position that was having good effect against my 
soldiers, because we hadn't practiced those sorts of things 
properly.
    Chairman Warner. We took casualties in that situation.
    General Abizaid. We sure did. My company had 5 killed and 
10 wounded.
    So I think that, as a captain, I witnessed the low point of 
our inability to operate. We couldn't even deconflict. Today, 
we are actually moving towards joint integration. This joint 
force that operated in this battle space, thanks largely to the 
plan that General Franks put together, was the best integrated 
joint force we have ever put together.
    Now, I think there is still more work to be done. We have 
to get more joint, we have to get more able to bring in 
precision-guided weapons in front of the lowest level unit that 
is on the battlefield. We have to make sure that the 
inadequacies that currently exist go away; and more joint 
training, more joint programs, more understanding of where 
these problems are, and working lessons between the Services, 
led by joint commanders, are directions that we need to go.
    Chairman Warner. I think in that context we ought to talk 
about the naval and Air Force component commanders, and the 
magnificent manner with which those missions were carried out. 
Sometimes well in excess of a thousand missions a day were 
flown during the height of the combat operations. As you told 
me yesterday when we talked, there are combat air patrol (CAP) 
at this very moment on standby in the air and on ships and 
ready on land to respond to any contingency experienced by our 
forces that would need the application of air power.
    General Abizaid. Sir, the use of air power in this campaign 
was well coordinated, not only between the various Services 
that were flying things in the air, but between the components, 
in a way that was unprecedented.
    When you went to the combined air operations center, you 
saw Navy, Air Force, Marine, and Army folks all working 
together to deconflict probably the most crowded airspace that 
has ever existed in military history. That we didn't have more 
difficulty with fratricide than we did, that we didn't have 
more difficulty in the control of airspace than we did, is 
nothing short of a miracle.
    So the work that has been done to bring all of our air 
forces into the battle space in a very precise manner is 
something that we need to build on. It doesn't mean it is 
perfect, but it is pretty damned good.
    Chairman Warner. We should acknowledge that a number of 
nations, if maybe not formally part of the coalition--their 
ground facilities supported that air operation and were 
essential.
    General Abizaid. Sir, absolutely. Not only did we have 
great cooperation with our British allies, but we had failed 
today, or I had failed today, to mention the work that the 
Australians did there.
    Chairman Warner. Yes.
    General Abizaid. We had the Australian special operating 
forces with us; we had the air forces in the air with us; we 
had the naval forces at sea with us; and all performed in a 
manner that was quite phenomenal.
    Now, I would say, Mr. Chairman, that we need to find a way, 
before the next one of these that comes around, to more agilely 
share combat information of a classified nature with our 
coalition partners. That was a source of friction that we need 
to work our way through. I think it is vitally important.
    Chairman Warner. This committee, under the joint leadership 
of myself and the ranking member, will conduct some in-depth 
after-action studies. We have always done that as the 
committee--quite frankly, I am of the opinion, speaking for 
myself, that ``after action'' is not a usable title because 
action is still going on. I am ever mindful of the risks being 
assumed today. So we will eventually get to that.
    In that context, we will discuss the biggest tactical 
lesson you learned in the conflict; in other words, to point to 
the future through lessons learned. Time doesn't permit today 
to get into that, but we will undoubtedly see you back here 
again, hopefully in your capacity as Commander of CENTCOM, and 
we will cover it.
    The Horn of Africa, we have had some units down there for 
some time. Let's touch on that.
    General Abizaid. Yes, sir. We have a joint task force for 
the Horn of Africa that is commanded by a Marine one-star at 
the present time that is operating from a base location in 
Djibouti. These forces are capable of conducting operations 
against terrorist targets, should they present themselves. More 
importantly, they are working with the local governments in the 
region to help them help themselves against the terrorist 
organizations that operate in that area.
    Over time, it has become clear to us that areas such as 
Somalia are ungoverned spaces, and as such, attract the type of 
people that want to do us harm.
    We need to understand the battlefield as completely as we 
can. Our area goes down into Kenya, Somalia, et cetera. You 
know the problems we have had in Kenya, and the large number of 
operations that the terrorists have conducted there. So it is 
really essential to have a presence there.
    We are currently examining the command and control 
relationships. One of the things I will do, if confirmed, upon 
assuming command is review the size, mission, and activity of 
our forces down there. My impression is that there is more work 
to be done there.
    Chairman Warner. The humanitarian suffering in that part of 
the world is just extraordinary.
    We should touch a bit on the United Nations, their work 
with the nongovernmental organizations (NGOs), particularly in 
Afghanistan and Iraq.
    I presume those nongovernmental organizations--we have 
given them such support as we can, and that has been a 
reasonably smooth operation in both the Afghan and the Iraqi 
AORs.
    General Abizaid. Sir, we have worked carefully and closely 
with the United Nations and numerous nongovernmental 
organizations in both Iraq and Afghanistan. It is very 
important that we do what we can to provide a secure 
environment for those organizations to operate.
    There has been some concern expressed recently in certain 
parts of Afghanistan. We will continue to work with them to the 
best of our ability to help them operate in a safe atmosphere.
    But it is interesting, of all the many things that we 
thought could go wrong, in Iraq in particular, one of the 
problems has not proven to be a humanitarian nightmare of 
displaced people, starving people, et cetera. We have work to 
do, and a lot of people need a lot of help, but the 
international community seems pretty well disposed to work the 
problem in an effective way.
    Chairman Warner. The NGOs have done magnificent work, not 
only in these two operations, but for a long time. I saw it 
firsthand in the Balkans when I made a number of visits in that 
area.
    On the question of international terrorism, that is your 
top priority, as directed by the President? What are some of 
the initiatives that you will strike out on once you become 
CENTCOM commander?
    General Abizaid. Sir, I would build on the work that 
General Franks has already started and largely conducted in 
places like Afghanistan and elsewhere. He has done an 
absolutely magnificent job in establishing a military framework 
around which we can get at this problem, or through which we 
can get at this problem.
    This problem is not going to go away tomorrow. It is not 
going to go away in the short run. We have a lot of military 
work that we will have to do to keep the terrorists off balance 
and bring the war to them on their territory, and not accept 
their offensive against our territory.
    So I will review in particular the way that we have 
organized our Special Operation Forces. I think it is very 
important that we not look at Afghanistan, Iraq, and the Horn 
of Africa through soda straws and regard them as separate and 
distinct theaters of operation that are not connected. The 
truth of the matter is that everything in the CENTCOM 
operations is connected, especially with regard to the war on 
terrorism. There are no borders in the war on terrorism, and we 
have to take a theater-wide approach to getting at them 
militarily.
    The number one way you get at them militarily is not only 
through your offensive, aggressive actions against them, but 
through closely working with nations that want the capacity to 
defeat them, and enabling them to get at the problem 
themselves.
    Chairman Warner. Is it your professional judgment in the 
conduct of the operations, both in Afghanistan and Iraq, that 
in any way the drawdown of those forces from CENTCOM resulted 
in any loss of momentum in the war on terrorism by CENTCOM?
    General Abizaid. Sir, all of us understand very clearly, 
from the President through the Secretary to General Franks, 
that the war on terrorism is our most important action. There 
is no loss of momentum.
    Chairman Warner. Thank you for this hearing. We have had a 
very full and in-depth hearing on a wide range of issues.
    Is there anything left undone that I or other colleagues 
did not bring up that you think bears on this important hearing 
on your qualifications to assume CENTCOM command?
    General Abizaid. No, sir.
    I think I failed to say probably the most important thing 
of the day, which is the biggest lesson learned from the Iraq 
war, that our most important asset is our people.
    Chairman Warner. No question about it. It is not something 
that we need to be reminded of, but the facts are there.
    Also, there is a lesson that this country must be 
supporting an overall military establishment which ranges from 
the heavy tank to the smallest vehicle. I have actually seen an 
unmanned vehicle no bigger than a softball, that can take off 
and give the battlefield commanders real-time information. This 
is extraordinary, the high tech that is moving into the 
military, and how the military have quickly adapted to the 
advances in technology to improve their ability to achieve 
missions; and, most importantly, to achieve a safer environment 
for the personnel to act.
    So the foot soldier, the ``boots on the ground,'' is the 
phrase that is everlastingly etched in the history of this 
country, and this is another chapter of it. Thank you for that 
reminder of the troops and their families, who bear the brunt 
of the conflict throughout the history of this Nation. I think 
this is a ``well done'' to General Franks and a hurrah when you 
take over, and one is not going to be louder than the other. 
They are both equal. Good luck.
    General Abizaid. Thank you, sir. I appreciate your time and 
confidence.
    Chairman Warner. The hearing is adjourned.
    [Whereupon, at 12:52 p.m. the committee adjourned.]

    [Prepared questions submitted to LTG John P. Abizaid, USA, 
by Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of those reforms, particularly in your 
assignments as Director of the Joint Staff and Deputy Commander, U.S. 
Central Command.
    The goals of Congress in enacting these defense reforms, as 
reflected in section 3 of the Goldwater-Nichols Department of Defense 
Reorganization Act, can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. I do. Goldwater-Nichols allows the combatant commander to 
focus on warfighting. In my opinion, one need look no further than the 
USCENTCOM theater and Operations Desert Storm, Enduring Freedom, and 
Iraqi Freedom to demonstrate the soundness of those reforms. The 
importance of effective joint and combined operations under a clear 
chain of command cannot be overstated.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. I think that Goldwater-Nichols got it right. I do not 
believe any significant changes to the act are required.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. Goldwater-Nichols required the military to look beyond its 
service parochialisms requiring deconfliction across the battlefield, 
to move more toward integration of effort and unity of command. While 
we still need to continue to move toward full joint/combined 
integration we would still be deconflicting battlespace between 
Services had Goldwater-Nichols not occurred. In addition, the enhanced 
role of the Chairman of the Joint Chiefs of Staff cannot be overstated. 
His ability to provide his best military advice gives the Joint Force a 
powerful advocate.
    Question. Do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. As I stated earlier, I think Goldwater-Nichols got it 
right. I do believe, however, that there is unfinished business in 
carrying out the spirit of the act, particularly in the area of 
resourcing. In my opinion, we should review the process within DOD that 
allots fiscal and manpower resources to the combatant commands. We all 
recognize the Services' responsibilities to upgrade and improve 
installations, train, and support their personnel and maintain and 
acquire new weapons and technology. These responsibilities and programs 
are intended to support the work of the combatant commands, but there 
are times when the priorities of the combatant commands conflict with 
those of the Services. For most missions assigned to a combatant 
commander, their service components provide the resources. However, 
there are times when the joint warfighting perspective and requirement 
needs greater visibility within our resourcing constructs. Such 
requirements are exemplified by ISR and strategic lift shortfalls in 
the Joint Force.

         RELATIONSHIP DEPUTY COMMANDER, COMBINED FORCES COMMAND

    Question. Please describe your duties and role as deputy commander 
during Operation Iraqi Freedom.
    Answer. Combatant commander staffs are generally resourced to 
conduct one major theater war at a time. The scope of the Iraq 
operation, coupled with continuing operations in Afghanistan, 
requirements for coordination elsewhere in the global war on terrorism, 
extensive basing demands and unexpected requirements for joint 
integration made it clear that additional senior leadership in the 
region was needed. As the deputy commander, I helped sustain in-theater 
political and military support for Operation Iraqi Freedom by working 
on our relationships with militaries in the region, seeking access to 
bases and ports, and securing permission for staging and overflight.
    During the war, I assisted the commander by focusing on the 
integration of joint (and inter-agency) capabilities and the 
integration of our joint efforts with those of our allies.
    The commander focused my duties in the Iraq theater only. In his 
absence I made decisions at the CENTCOM forward headquarters and, at 
his direction, conducted detailed coordination between component and 
coalition commanders.
    The deputy commander's permanent presence in Qatar permitted 
constant coordination with coalition commanders. Forward command 
presence in the theater facilitated coordination with European Command 
(EUCOM) and resolved potentially disruptive issues with nations in the 
region.
    During the past 7 weeks, I have facilitated CJTF-7 support of the 
Office of the Coalition Provisional Authority and helped develop future 
plans for joint, combined and Special Operations Forces. In addition, 
my presence in the area of operations provides a frequent on-scene 
assessment of conditions within the Arabian Gulf theater of operations.
    Question. Do you support making this in-theater deputy commander 
position permanent, and, if so, where would you recommend the deputy 
commander be located?
    Answer. I strongly support permanently assigning a three-star 
deputy commander to a forward U.S. Central Command Headquarters in the 
theater. A three-star deputy commander forward facilitates engagement 
and development of personal relationships that are critical to pursuing 
bilateral and multilateral initiatives in a volatile region. With the 
commander torn between the demands of a huge and difficult region and 
frequent interaction with commanders, staffs, and national leaders in 
the United States, it makes sense to have a senior leader forward.
    Question. How did you share responsibility with the deputy 
commander located at MacDill Air Force Base?
    Answer. As the deputy commander forward, I focused the majority of 
my attention on supporting General Franks in the planning and execution 
of Operation Iraqi Freedom. LtGen Delong, positioned in Tampa, remained 
aware of the situation in Iraq, but also focused effort on executing 
the commander's intent throughout the rest of the area of 
responsibility. He also helped maintain a coalition of more than 70 
coalition partners who sent Senior National Representatives (SNR) to 
Central Command in Tampa. This command and control arrangement allowed 
the Commander to maintain a balance of focus between current 
operations, long range planning and inter-agency policy development.
    As mentioned earlier, the scope of operations in the theater and 
the pace of operations allowed Mike DeLong and I to provide 24-hour 
senior level oversight and coordination throughout the campaign. Mike's 
position in Tampa, in the same time zone as our leaders in Washington, 
was extremely valuable.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. Please see biography.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Commander, U.S. Central Command?
    Answer. We face obvious challenges in Afghanistan, Iraq, and in the 
global war on terrorism. We must continue to apply offensive action 
against terrorist threats within our AOR and at the same time provide 
security for major stability operations in Afghanistan and Iraq.
    Long range success in this mission depends on generating and 
effectively employing a sustainable mix of U.S. and coalition military 
and non-military capabilities.
    The threat we face is pervasive, asymmetric, adaptive, and elusive. 
We must meet the threats of our region on their home ground.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. My immediate focus will be on continuing to improve the 
security situation in Iraq and Afghanistan while assisting in setting 
the conditions for long term success of the Coalition Provisional 
Authority and interim governments. Critical to these efforts are 
aggressive prosecution of the threat, strong support from our coalition 
partners, creation and sustainment of indigenous police and guard 
forces as well as accelerated fielding of national armies. Our success 
in these areas will drive how quickly we can redeploy our own forces. 
In addition, we will work exceptionally closely with local governments, 
our Special Operations Forces and our intelligence agencies to confront 
and destroy terrorist entities throughout the region.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the performance of the functions of Commander, U.S. Central Command?
    Answer. With a region as broad, volatile, and militarily active as 
the CENTCOM AOR, the most serious problems are span of control and 
unity of command. The issues are further complicated by the necessity 
to embed CENTCOM's military activities into the broader context of U.S. 
governmental policy and synchronized agency effort.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. Within the next year, we should assess ways to streamline 
and simplify procedures associated with policy and authority to support 
national efforts in both Afghanistan and Iraq. In addition, we will 
begin a complete reassessment of our strategies and operational 
concepts employed in the theater with regard to the war on terrorism.

                        OPERATION IRAQI FREEDOM

    Question. From your perspective as an operational commander, in 
theater, and now as the prospective Commander of United States Central 
Command, what are the top lessons learned with regard to planning 
Operation Iraqi Freedom, including ongoing stability operations?
    Answer. Operation Iraqi Freedom was the most well-integrated 
combined and joint operation ever. It is a benchmark for future action 
by U.S. or coalition forces. Carefully integrated planning and conduct 
of mission rehearsals during the 3 to 4 month period prior to the 
operation enabled continuous refinement of the plan prior to commencing 
operations. These ``rehearsals'' ensured all components understood 
timing, synchronization, integration, maneuver, and employment of joint 
lethal fires and other non-lethal effects planned for the operation. 
Thus we must sustain and improve our robust planning and rehearsal 
capabilities for major operations.
    The Force Deployment Planning and Execution process requires more 
flexibility. The current deployment management systems are ``Cold War 
vintage.'' They were not adaptive enough to meet OIF political and 
operational planning, basing, access, and over flight requirements. 
Automated tools are needed to speed force sourcing, planning and 
deployment execution.
    Reserve mobilization policies and systems must also adapt to the 
more fluid force deployment and employment model we see in the future. 
The Reserve Force management policies and systems are inefficient and 
rigid. Many Reserve units provide the Active Force with critical combat 
support and service support, and there were instances where these 
enablers arrived late as a result of our current cumbersome 
mobilization and deployment system.
    At the strategic and operational levels, battle damage assessment, 
interagency integration, and ISR management must be improved.
    Shaping interagency involvement, while a key factor in our success, 
will also require continued attention and support. Military power alone 
does not win wars and it certainly does not win the peace.
    Question. How would you assess the adequacy of forces provided to 
Central Command, both in terms of quantity and mix, to conduct 
Operation Iraqi Freedom up to the fall of Baghdad?
    Answer. I assess that our force quantity and mix was adequate to 
conduct offensive operations. We employed the most lethal force ever to 
take the battlefield in less than half the time in took to posture for 
Operation Desert Storm 12 years ago. OIF had the right joint and 
combined force mix that allowed the commander to employ their combined 
effects and meet objectives.
    Question. How would you assess the adequacy of forces provided to 
Central Command, both in terms of quantity and mix, to conduct the 
ongoing stability operations?
    Answer. In general, the mix and quantity are correct for ongoing 
operations. Our analysis indicates force sizing is sufficient unless 
new missions are added to current requirements. As we moved away from 
combat operations to stability operations, the force mix changed 
considerably in favor of ground forces. As conditions change, the 
composition and size of our forces will continue to change. The factors 
that influence the force mix in Iraq are future enemy actions, the 
success we have in standing up the Iraq Police Force and the New Iraqi 
Army, as well as integrating Coalition Force contributions. That having 
been said I will fully reassess our current operational set and force 
commitments for both Afghanistan and Iraq immediately upon taking 
command.
    Question. What role do you foresee for forces from additional 
coalition nations in Iraq in the future?
    Answer. The role envisioned for coalition forces focuses on 
assuming security, stability, and reconstruction operations in various 
sectors throughout Iraq. As these coalition forces arrive, we will be 
able to redeploy U.S. forces. It has always been important that we 
build a diverse and international force mix in Iraq. We currently have 
commitments for UK and Polish led Multinational Divisions (under UK 
command--UK, Italian and Dutch Brigades; under Polish command--Polish, 
Ukrainian and Spanish Brigades). We are continuing discussions with 
India to secure a commitment to lead a third division. We also have 
been working with Pakistan to provide major forces. Several countries 
have agreed to provide forces based on their capabilities to fill out 
these multinational headquarters/divisions. At this moment, 18 
coalition partners have deployed forces into the USCENTCOM AOR in 
support of military operations in Iraq. An additional 42 nations are 
conducting military to military discussions with respect to deploying 
forces to Iraq in support of post-conflict stability and security 
operations.

                             TRANSFORMATION

    Question. Do current transformation initiatives support CENTCOM's 
future requirements?
    Answer. From recent and current combat operations experiences, I am 
confident that DOD initiatives will support CENTCOM's future 
requirements. While we have the best fighting forces in the world, we 
must not be satisfied with the status quo. Growing asymmetric threats 
have dictated that we transform to a lighter, more flexible, more 
rapidly deployable force, while maintaining the lethality and overmatch 
of our heavy forces. We must remain committed and prepared to swiftly 
respond across the full spectrum of military operations, either 
unilaterally or in concert with other nations. The CENTCOM staff is 
linked to the various transformation efforts in DOD and provides combat 
proven lessons into the process of transformation.
    Question. How will the Army's transformation impact CENTCOM's 
current operations?
    Answer. As long as the Army continues to build lighter, more agile 
forces and maintain the overmatch of our heavy forces while focusing on 
their ability to bring precision guided weapons to bear on the 
battlefield in a timely manner, I see nothing in the Army's 
transformation efforts to give me concern. Beyond force structure and 
operational transformation, there are significant logistics aspects of 
Army transformation that will address sustainment issues. Continuing 
efforts to establish a common relevant logistics operating picture 
through asset visibility and in-transit visibility systems are 
particularly important transformational activities in a theater so far 
from home.
    Question. If confirmed, how do you anticipate you would have to 
adjust CENTCOM's operational plans as a result of overall DOD 
transformation?
    Answer. As DOD transforms, operational plans will be refined 
through life cycle reviews to take full advantage of improved 
capabilities, while focusing on transformational capabilities rather 
than transformational goals. We expect that transformational 
capabilities will allow us to reduce force buildup times, leverage 
precision engagement for greater effect, reduce anticipated logistics 
overhead, incorporate digital infrastructure to support information 
dominance, and protect the changing vulnerabilities of the transformed 
force. We must, however, guard against building plans which incorporate 
unrealized transformational theories and capabilities.
    Question. What impact will the Army's transformation have on the 
large prepositioned stocks CENTCOM maintains in its area of 
responsibility?
    Answer. The important aspect of this issue is whether the Army's 
transformation will obviate the need for prepositioning; the answer is, 
no. As transformation continues, it is important that we maintain 
prepositioned equipment and stocks that reflect those changes. The 
right mix and correct positioning of equipment, munitions and 
sustainment stocks will continue to be an essential component in the 
Central Command area of responsibility.

                              AFGHANISTAN

    Question. What is your assessment of the current situation in 
Afghanistan?
    Answer. Significant progress has been made in the last 18 months. 
Thanks to the efforts of coalition forces, Taliban forces no longer 
control the government or provinces and al Qaeda has been denied 
freedom of operations within the country. The Islamic Transitional 
Government of Afghanistan (ITGA) is established in Kabul, provinces 
outside Kabul are beginning to rebuild efforts, and elections are 
scheduled for the summer of 2004. There remains much to be done. With 
continued emphasis on stability operations, reconstruction and with the 
support of the international community, I am confident our long-term 
goals will be achieved.
    Question. What is the status of efforts to develop and field an 
effective Afghan Army and national police force?
    Answer. The German-led national police force training program is 
making strides in developing a high-quality police force. This police 
force is the key to long-term security and stability within the 
country. However, with only 1,500 in training of the 50,000 required, 
the current pace of training will not achieve the results required to 
provide security to all provinces in the near-term. Greater USG and 
international support is required to achieve our goals.
    The U.S.-led Afghan National Army (ANA) program is on track and 
will field a full-strength Central Corps by January 2004. Light 
infantry battalions are constantly training and providing military 
presence in provinces outside Kabul. The first ANA battalion will join 
coalition forces in conducting operations within the next 30 days. The 
ANA has inspired confidence in the central government.
    Question. In your view, what additional military or other 
assistance is required to ensure the transition of Afghanistan to a 
stable, democratic, and economically viable nation?
    Answer. Foremost, improve local security for both the Afghan people 
and international aid organizations by increasing the scope and speed 
of national police fielding. In addition, empower a civilian-led 
authority to oversee all non-military functions and reconstruction 
efforts; complete fielding of the eight planned Provisional 
Reconstruction Teams with U.S. assets; and press neighboring nations to 
end support for regional warlords.

                           NATO PEACEKEEPERS

    Question. What additional opportunities, if any, do you foresee for 
NATO forces to conduct out of area operations in the CENTCOM area of 
responsibility?
    Answer. I look forward to introducing a NATO presence in the 
CENTCOM AOR. NATO involvement brings professionalism and experience in 
a wide range of capabilities and the ability to integrate seamlessly 
with U.S. forces. Their presence and operations will enhance CENTCOM's 
ability to fight the global war on terrorism throughout the region. As 
NATO forces are introduced, it is imperative that command and control 
relationships are established that ensure unity of effort under 
CENTCOM's operational control.

                             INDIA-PAKISTAN

    Question. What is your assessment of the current situation with 
regard to Pakistani-Indian relations?
    Answer. The recent attempt at rapprochement between India and 
Pakistan is encouraging, but both countries clearly have a long way to 
go to put aside their deeply entrenched mistrusts and suspicions. There 
remain contentious and emotionally charged issues to be addressed and 
resolved, with Kashmir being the foremost issue. Clearly Indian-
Pakistani conflict can lead to a nuclear war. CENTCOM's continued 
relationship with Pakistan provides a venue for dialog and confidence 
building that can do much to lessen tensions.

                OPERATION IRAQI FREEDOM LESSONS LEARNED

    Question. From your perspective, what are the top lessons learned 
from recent and continuing military operations in Iraq?
    Answer. As I mentioned earlier, operations in Iraq demonstrated a 
maturing of joint and combined force operations. Some capabilities 
reached new levels. From a joint integration perspective, our previous 
operations in our AOR (OSW/ONW, OEF) helped to develop a joint culture 
in our headquarters staffs and in our components. These operations also 
helped to improve joint interoperability and improve our joint C\4\I 
networks. Integrated battlefield synergy achieved new levels of 
sophistication. Our forces were able to achieve their operational 
objectives by integrating multiple and rapid operations incorporating 
ground maneuver, special operations, precision lethal fires and 
application of other non-lethal effects. We saw a real integration of 
forces to achieve effects as opposed to the de-confliction approach 
used in earlier conflicts.
    Our overall information operations campaign supported both the 
operational and tactical objectives of the commander. However, we found 
it difficult at times to assess and measure its effects during the 
operation. Better resolution of the IO effectiveness is now emerging 
during Phase IV operations. Intelligence, surveillance, and 
reconnaissance helped decisionmakers plan and execute strikes and 
maneuver effectively. However, our ability to strike rapidly sometimes 
exceeded our ability to sense and assess the effects as quickly as we 
would have liked.
    Some capabilities require additional work. Fratricide prevention 
suffered from a lack of standardized combat identification systems. 
Units in theater arrived with seven different combat ID systems. Manual 
procedures and workarounds were rigorously applied by our commanders to 
overcome these shortcomings.
    As mentioned earlier, deployment planning and execution need some 
work to meet emerging needs; deployment management systems must meet 
political and operational planning, basing, access, and over-flight 
requirements in future contingencies.
    Coalition information sharing must also be improved at all levels. 
Our coalition partners need our full support during combat operations 
and we need to develop agile systems of information sharing that do not 
compromise sensitive U.S.-only information.
    Finally, a significant command and control challenge was the task 
in determining future bandwidth requirements for the AOR infrastructure 
and new warfighting systems. The demand for ISR and battlefield 
information continues to grow. Additionally, command and control ``on 
the move'' was hampered by the finite number of UHF tactical satellite 
channels available. The demand for UHF TACSAT exceeded the finite 
capacity and forced continuous prioritization of those available 
channels as the operations unfolded.

                       FORMER SOVIET UNION STATES

    Question. What is your assessment of current U.S. military 
relationships with these nations, including Uzbekistan, Tajikistan, and 
Kyrgystan?
    Answer. Our relationship with the Central Asian States (CAS) is 
good and improving. They have actively supported our efforts in 
Afghanistan with over flight and basing access for coalition forces. We 
continue to expand our security cooperation programs by increasing and 
focusing our bilateral military contacts and security assistance 
programs to build interoperability and host nation capabilities to 
assist in the fight against terrorism.
    Question. What security challenges do you see in this portion of 
the CENTCOM area of responsibility?
    Answer. Terrorism, narcotics trafficking, and the proliferation of 
WMD and their components remain the primary regional security concerns 
in Central Asia. These challenges are magnified by weak economies and 
porous borders that make this area a potential breeding ground for 
discontent and radicalism. Through our security cooperation programs, 
we are assisting the countries with improvement of their security and 
border controls. We remain cognizant of the need to implement strong 
force protection measures in a region where the lack of developed 
infrastructure could impact the security of our coalition forces.

                                  IRAN

    Question. What is the view of U.S. allies in the region with regard 
to the threat posed by Iran?
    Answer. Iran casts a shadow on security and stability in the Gulf 
region. Iran's military is second only to the United States. U.S. 
allies in the Gulf region acknowledge Iran's increasingly proactive 
efforts to soften its image and to appear less hegemonic; however, 
Iran's military poses a potential threat to neighboring countries. U.S. 
forward presence will continue as a balance against any possible use of 
force by Iran. By continuing our forward presence in the AOR, we serve 
to influence Iran against any possible use of military force while 
providing assurances of long-term commitment to our friends and allies.
    Question. What is your assessment of the prospects for political 
reform in Iran?
    Answer. This question is probably best addressed by the experts in 
the Department of State and the Intelligence Community. In my opinion, 
there is chance for political reform to occur in Iran. It will not 
happen without some internal instability in Iran which could also 
create regional tensions. In such an environment, a credible Central 
Command deterrent capability is vital for regional security.

                        MISSILE AND WMD THREATS

    Question. How do you evaluate Iran's current capability to use 
ballistic missiles and WMD against U.S. forces, and what is your 
projection of Iran's future capabilities?
    Answer. Iran has the largest ballistic missile inventory in the 
Central Command region to include long-range WMD delivery systems 
capable of reaching deployed U.S. forces in theater. Systems include 
SCUD short-range ballistic missiles (SRBM) and SHAHAB-3 medium-range 
ballistic missiles (MRBM).
    Iran's indigenous nuclear program continues. Iran has not declared 
all of its nuclear facilities and activities in a timely manner as 
required by the IAEA. Iran's long-term ability to develop nuclear 
weapons remains a source of serious concern.
    Iran signed the chemical weapons convention treaty banning chemical 
weapons but, Iran is assessed to have the largest chemical weapons (CW) 
program in the region. Tehran also has a biological weapons (BW) 
program, the size and scope of which remains unclear.
    In the future, Iran will continue to develop more advanced/longer 
range ballistic missiles and more advanced CBW agents. Iran will 
continue to be a proliferation concern in our region.
    Question. How do you evaluate Iran's cruise missile capabilities, 
and Iran's ability to threaten U.S. naval forces and commercial 
shipping in the Persian Gulf, the Strait of Hormuz, and the Arabian 
Sea?
    Answer. Over the past 5 years, Iran has substantially improved its 
anti-ship cruise missile (ASCM) capabilities through the acquisition of 
additional missiles, the indigenous production of mobile launchers and 
the purchase of new ASCMs from China and North Korea. However, 
realistic training has been very limited; we assess only a limited 
capability to effectively employ these weapons.
    Nevertheless, the use of ASCMs and other weapons within Iran's 
coastal defense forces support a layered force strategy which poses a 
viable threat to western naval forces and shipping. Iran's strategy 
seeks to simultaneously employ air/land/ship-based ASCMs, submarines (3 
x) and naval mines in concert with hundreds of lightly armed small 
boats in order to overwhelm the enemy and control the Strait of Hormuz 
(SOH). Iran's focus remains in the littoral; its ability to project 
power into the Arabian Sea is marginal. Use of externally based 
terrorist elements and surrogates is planned to compliment maritime 
capabilities.
    Question. If confirmed, how would you protect the troops under your 
command from these threats?
    Answer. I would use all available PATRIOT and AEGIS assets to 
counter any ballistic missile and/or cruise missile threat to U.S. and 
coalition assets in-theater as appropriate. The Command would work with 
Services to continue to develop ballistic missile defense capabilities. 
Certainly, military planning will fully consider tactics, timings, 
techniques, and procedures to deal with the threat in the event of an 
escalating crisis.

                            FORCE PROTECTION

    Question. If confirmed, what would your top priorities be in terms 
of force protection?
    Answer. USCENTCOM will maintain an offensive orientation and carry 
the war on terrorism to the enemy. The Command will continue to develop 
and implement dynamic Anti-Terrorism/Force Protection/Critical 
Infrastructure programs to assess and mitigate threats to DOD personnel 
and assets. These programs include:

          Monitoring of terrorist threat intelligence with effective 
        analysis and dissemination and to remain vigilant to address 
        new terrorist tactics intended to exploit our weaknesses.
          Developing programs that help eliminate sanctuary for 
        terrorists and enable host nations to detect, deter, and 
        eliminate terrorist elements.
          Pursuing host nation support for force protection measures to 
        include measures to counter MANPAD threats (off base 
        patrolling) and to continue the development of force protection 
        infrastructure at U.S.-occupied bases.
          Conducting vulnerability assessments of DOD facilities and 
        infrastructure regularly to assess and mitigate threats to 
        personnel and assets.
          Integrating appropriate emerging technologies, such as 
        scanning and imaging systems for vehicles and people; explosive 
        and metal detectors; military working dogs; and other merging 
        technologies on the verge of release to field.

    I anticipate an ongoing critical need for substantial augmentation 
by active duty and Reserve personnel to support Anti-Terrorism/Force 
Protection efforts. That having been said, we will never be able to 
achieve 100 percent force protection in this volatile region.
    Question. What additional steps, if any, need to be taken to ensure 
that personnel being assigned to the CENTCOM area of responsibility are 
fully prepared for potential threats?
    Answer. USCENTCOM must work closely with the Services to 
incorporate lessons learned from the field into relevant training, 
tactics, techniques and procedures, as well as the development of new 
technological capabilities.

                             HORN OF AFRICA

    Question. What is the strategic importance of this region to the 
United States?
    Answer. The Horn of Africa (HOA) sits astride one of the most 
critical sea lines of communications in the world. It is imperative 
that we maintain freedom of navigation to ensure strategic maritime 
access to the entire CENTCOM AOR and freedom of movement of ocean-borne 
commerce, including oil. The ports in Djibouti and Kenya also afford 
strategic entry points to the rest of Africa for humanitarian relief 
and contingency operations. Ungoverned areas in the HOA are used as 
safe havens for terrorist organizations that could potentially threaten 
our national interests. We must remain engaged in the HOA to deny the 
ability of these organizations to operate freely.
    Question. Since EUCOM has geographical responsibility for most of 
Africa, what is the advantage of assigning the Horn of Africa to 
CENTCOM?
    Answer. The majority of the population in the HOA is more aligned 
along religious and ethnic lines with nations in CENTCOM than with the 
remainder of the African continent. Ungoverned areas within this region 
remain safe havens for terrorist and radical Islamic organizations that 
threaten our national interests. These organizations are connected to 
other elements that mainly operate in the central region. Leaving the 
HOA in CENTCOM's AOR provides the strategic and operational advantage 
of seamless integration and the creation of optimal conditions for 
conducting operations.

                                PAKISTAN

    Question. What is the current status of U.S.-Pakistan military 
cooperation?
    Answer. The U.S.-Pakistan military relationship is good, and 
continues to improve. Pakistan remains a strong ally in Operation 
Enduring Freedom (OEF). The Pakistan military continues to improve its 
capability and effectiveness to deal with international terrorist 
organizations. They have actively pursued and captured terrorists 
within their country. We will continue to foster the relationship to 
demonstrate our commitment to long-term regional stability and improved 
U.S. relations.

               SCIENCE ADVISORS FOR COMBATANT COMMANDERS

    Question. If confirmed, how would your Command make use of the 
technical expertise available in the Services and their laboratories in 
order to provide scientific and technical advice to the warfighters?
    Answer. I would not only leverage the Service laboratories, but 
also the laboratories in other public and private sectors. CENTCOM has 
established a Science Advisor position, whose principle responsibility 
is liaison with science and technology centers of excellence and 
supporting agencies that receive direct input from all public and 
private laboratories such as Defense Advanced Research Project Agency 
(DARPA), Army's Field Assistance in Science and Technology (FAST), 
Counter-Terrorism Technology Task Force (CTTTF) and the Service 
laboratories. I see the Science Advisor as the entry point for 
technology input into the process of transformation. The critical 
linkage between the laboratories and the battlefield is increasing as 
we attempt to develop the Future Force.

                      BANDWIDTH ON THE BATTLEFIELD

    Question. What challenges do you anticipate in fully utilizing 
these important assets with the limited bandwidth currently available 
to the warfighter?
    Answer. Bandwidth is a critical warfighting resource and its 
availability was, itself, one of our greatest challenges--both inter 
and intra theater. Only through significant investments in commercial 
terrestrial and space segments leases were we able to secure the 
communications pipes necessary to prosecute the war. Our most 
significant challenge is determining future bandwidth requirements for 
the AOR infrastructure and new warfighting systems--because we know 
those requirements will grow. Sustained funding support for these 
commercial bandwidth resources is imperative. Operationally, our 
challenge will continue to be the smart, balanced employment of 
commercial and military communications assets to ensure redundant and 
reliable network support to the warfighter. To increase our capability 
command and control on the move, it is imperative that we secure 
additional UHF (TACSAT) bandwidth or alternate means. All Services have 
the obligation to aggressively pursue new technologies and system 
designs that take into account this limited critical resource.
    Question. What is your assessment of the bandwidth available during 
Operation Iraqi Freedom?
    Answer. We had sufficient bandwidth for C\4\ISR requirements to 
prosecute the war. We achieved this sufficiency through intelligent 
investments in commercial communications as well as the smart, balanced 
employment of commercial and military communications assets as 
discussed in the paragraph above. We had marginally sufficient 
bandwidth for command and control on the move, specifically UHF TACSAT. 
The enormous demand for UHF channels exceeded the very limited 
availability of UHF bandwidth. However we measure sufficiency today, it 
is imperative that we do not underestimate the challenges in securing 
bandwidth to meet the future requirements as described above.

                        CONGRESSIONAL OVERSIGHT

    Question. Do you agree, if confirmed for this high position, to 
appear before this committee and other appropriate committees of 
Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. Central 
Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [The nomination reference of LTG John P. Abizaid, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 18, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, U.S.C., section 601:

                             To be General

    LTG John P. Abizaid, 0000.
                                 ______
                                 
    [The biographical sketch of LTG John P. Abizaid, USA, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
          Resume of Service Career of LTG John P. Abizaid, USA
Source of commissioned service: USMA.

Military schools attended:
    Infantry Officer Basic and Advanced Courses
    Armed Forces Staff College
    National Security Affairs Fellowship--Hoover Institute--Stanford 
University

Educational degrees:
    United States Military Academy--BS--No Major
    Harvard University--MA--Area Studies

Foreign language(s): Arabic--Modern, German, Italian

Promotions:

------------------------------------------------------------------------
                  Promotions                      Dates of Appointment
------------------------------------------------------------------------
2LT...........................................                 6 Jun 73
1LT...........................................                 6 Jun 75
CPT...........................................                 6 Jun 77
MAJ...........................................                 1 Sep 84
LTC...........................................                 1 Apr 90
COL...........................................                 1 Sep 93
BG............................................                 1 Nov 96
MG............................................                 1 Mar 00
LTG...........................................                 2 Oct 00
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Jan 74..........................  Aug 74............  Rifle Platoon
                                                       Leader, C
                                                       Company, 1st
                                                       Battalion
                                                       (Airborne), 504th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, North
                                                       Carolina
Aug 74..........................  Apr 75............  Scout Platoon
                                                       Leader, 1st
                                                       Battalion, 504th
                                                       Infantry, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, North
                                                       Carolina
May 75..........................  Feb 77............  Platoon Leader, A
                                                       Company, later
                                                       Executive
                                                       Officer, C
                                                       Company, 2d
                                                       Battalion
                                                       (Ranger), 75th
                                                       Infantry, Fort
                                                       Lewis, Washington
Mar 77..........................  Sep 77............  Commander,
                                                       Headquarters and
                                                       Headquarters
                                                       Company, 2d
                                                       Battalion
                                                       (Ranger), 75th
                                                       Infantry, Fort
                                                       Lewis, Washington
Oct 77..........................  Aug 78............  Student, Basic
                                                       Arabic Modern
                                                       Standard Language
                                                       Course, Presidio
                                                       of Monterey,
                                                       California
Sep 78..........................  Jun 80............  Olmsted Scholar,
                                                       University of
                                                       Jordan, Amman,
                                                       Jordan
Jul 80..........................  May 81............  Student, Harvard
                                                       University,
                                                       Center for Middle
                                                       Eastern Studies,
                                                       Cambridge,
                                                       Massachusetts
Jun 81..........................  Dec 81............  Student, Infantry
                                                       Officer Advanced
                                                       Course, United
                                                       States Army
                                                       Infantry School,
                                                       Fort Benning,
                                                       Georgia
Jan 82..........................  Nov 83............  S-5 (Civil
                                                       Military Affairs
                                                       Officer), later
                                                       Commander, A
                                                       Company, 1st
                                                       Battalion
                                                       (Ranger), 75th
                                                       Infantry, Hunter
                                                       Army Airfield,
                                                       Georgia and
                                                       Operation Urgent
                                                       Fury, Grenada
Dec 83..........................  Dec 84............  Staff Officer,
                                                       Army Studies
                                                       Group, Office of
                                                       the Chief of
                                                       Staff, Army,
                                                       Pentagon,
                                                       Washington, DC
Jan 85..........................  Jun 85............  Student, Armed
                                                       Forces Staff
                                                       College, Norfolk,
                                                       Virginia
Jul 85..........................  Jun 86............  Operations
                                                       Officer, Observer
                                                       Group Lebanon,
                                                       United Nations
                                                       Truce Supervision
                                                       Organization,
                                                       Naqoura, Lebanon
Jul 86..........................  Jan 88............  Executive Officer,
                                                       3d Battalion,
                                                       325th Infantry,
                                                       United States
                                                       Army Southern
                                                       European Task
                                                       Force, Vicenza,
                                                       Italy
Feb 88..........................  Jun 88............  Deputy Commander,
                                                       3d Battalion,
                                                       325th Infantry,
                                                       United States
                                                       Army Southern
                                                       European Task
                                                       Force, Vicenza,
                                                       Italy
Jul 88..........................  May 90............  Aide-de-Camp to
                                                       the Commander in
                                                       Chief, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Jun 90..........................  Jun 92............  Commander, 3d
                                                       Battalion, 325th
                                                       Infantry, United
                                                       States Army
                                                       Southern European
                                                       Task Force,
                                                       Vicenza, Italy
                                                       and Operation
                                                       Desert Shield/
                                                       Storm, Northern
                                                       Iraq
Jul 92..........................  Jun 93............  National Security
                                                       Affairs Fellow,
                                                       Hoover Institute,
                                                       Stanford
                                                       University,
                                                       Stanford,
                                                       California
Jul 93..........................  Jul 95............  Commander, 1st
                                                       Brigade, 82d
                                                       Airborne
                                                       Division, Fort
                                                       Bragg, North
                                                       Carolina
Jun 95..........................  Oct 96............  Executive
                                                       Assistant to the
                                                       Chairman of the
                                                       Joint Chiefs of
                                                       Staff, Office of
                                                       the Chairman,
                                                       Joint Chiefs of
                                                       Staff,
                                                       Washington, DC
Oct 96..........................  Aug 97............  Assistant Division
                                                       Commander
                                                       (Maneuver), 1st
                                                       Armored Division,
                                                       United States
                                                       Army Europe and
                                                       Seventh Army,
                                                       Germany and
                                                       Stabilization
                                                       Force, Bosnia
Aug 97..........................  Aug 99............  Commandant of
                                                       Cadets, United
                                                       States Military
                                                       Academy, West
                                                       Point, New York
Aug 99..........................  Sep 00............  Commanding
                                                       General, 1st
                                                       Infantry
                                                       Division, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany and Task
                                                       Force Falcon,
                                                       Kosovo
Oct 00..........................  Oct 01............  Director for
                                                       Strategic Plans
                                                       and Policy, J-5,
                                                       The Joint Staff,
                                                       Washington, DC
Oct 01..........................  Jan 03............  Director, The
                                                       Joint Staff,
                                                       Washington, DC
------------------------------------------------------------------------


Summary of joint assignments:

------------------------------------------------------------------------
          Assignment                     Dates               Grade
------------------------------------------------------------------------
Operations Officer, Observer      Jul 85-Jun 86.....  Major
 Group Lebanon, United Nations
 Truce Supervision Organization,
 Naqoura, Lebanon.
Executive Assistant to the        Jun 95-0ct 96.....  Colonel
 Chairman of the Joint Chiefs of
 Staff, Office of the Chairman,
 Joint Chiefs of Staff,
 Washington, DC.
Director for Strategic Plans and  Oct 00-Oct 01.....  Lieutenant General
 Policy, J-5, The Joint Staff,
 Washington, DC.
Director, The Joint Staff,        Oct 01-Jan 03.....  Lieutenant General
 Washington, DC.
------------------------------------------------------------------------


U.S. decorations and badges:
    Distinguished Service Medal
    Defense Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit (with 4 Oak Leaf Clusters)
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (with 2 Oak Leaf Clusters)
    Army Commendation Medal (with Oak Leaf Cluster)
    Army Achievement Medal
    Combat Infantryman Badge
    Expert Infantryman Badge
    Master Parachutist Badge
    Ranger Tab
    Joint Chiefs of Staff Identification Badge
    Army Staff Identification Badge
                                 ______
                                 
                     United States Central Command,
                   Office of the Deputy Commander in Chief,
                                        MacDill Air Force Base, FL.
Hon. John Warner, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Commander, CENTCOM. It supplements 
Standard Form 278, ``Executive Personnel Financial Disclosure Report,'' 
which has already been provided to the committee and which summarizes 
my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I, nor any member of my immediate 
family will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I trust that the foregoing information will be satisfactory to the 
committee.
            Sincerely,
                                           John P. Abizaid,
                            Lieutenant General, United States Army.

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG John P. 
Abizaid, USA, in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    John P. Abizaid.

    2. Position to which nominated:
    Commander, CENTCOM.

    3. Date of nomination:
    June 18, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    1 April 1951; Redwood City, California.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Kathleen Patricia Denton of Bridgeport, CA. 
Married on 22 December 1973.

    7. Names and ages of children:
    Sharon Marie Abizaid, age 27.
    Christine Sandra Abizaid, age 23.
    David Edward Abizaid, age 20.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    My wife and I are trustees of the A.W. Berreyesa Trust which was 
established for our children after a relative's death. Assets of that 
trust are listed on my Financial Disclosure Form. Trust documents are 
attached at Tab A.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of the United States Army.
    Society of the 1st Infantry Division.
    82nd Airborne Division Association.
    The Retired Officers Association.
    Association of Graduates, United States Military Academy.
    Member of Board of Directors, George Olmstead Foundation (Active 
Duty Member, no compensation).

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other tahn those listed on the service record 
extract provided to the committee by the executive branch.
    Distinguished Cadet, United States Military Academy, 1973.
    Olmstead Scholarship, George Olmstead Foundation, 1980.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                   John P. Abizaid.
    This 14th day of June, 2003.

                                 ______
                                 
    [The nomination of LTG John P. Abizaid, USA, was reported 
to the Senate by Chairman Warner on June 26, 2003, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on June 27, 2003.]


NOMINATIONS OF THOMAS W. O'CONNELL TO BE ASSISTANT SECRETARY OF DEFENSE 
    FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT; AND PAUL M. 
       LONGSWORTH TO BE DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
       NONPROLIFERATION, NATIONAL NUCLEAR SECURITY ADMINISTRATION

                              ----------                              


                        THURSDAY, JULY 10, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:09 a.m. in 
room SR-222, Russell Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, Inhofe, 
Roberts, Allard, Collins, Levin, Reed, Akaka, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Gabriella Eisen, nominations clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; L. David Cherington, counsel; Mary 
Alice A. Hayward, professional staff member; Scott W. Stucky, 
general counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, minority 
counsel; Evelyn N. Farkas, professional staff member; and Peter 
K. Levine, minority counsel.
    Staff assistant present: Andrew W. Florell.
    Committee members' assistants present: James Beauchamp, 
assistant to Senator Roberts; Douglas Flanders and Lance 
Landry, assistants to Senator Allard; James P. Dohoney, Jr., 
assistant to Senator Collins; Elizabeth King, assistant to 
Senator Reed; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; and Terri 
Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee will come to order. We are 
pleased to have before the committee this morning Thomas 
O'Connell, nominee for the position of Assistant Secretary of 
Defense for Special Operations and Low Intensity Conflict, and 
I understand our distinguished and valued colleague from Rhode 
Island will introduce him momentarily. Additionally, Senator 
Roberts will introduce Mr. Longsworth, am I correct on that?
    Senator Roberts. Yes, sir.
    Chairman Warner. Fine, thank you. We welcome Paul 
Longsworth back. We've never really felt he's left. 
Nevertheless, he's one of our very own and we repose tremendous 
pride and respect in you, indeed a distinguished number of the 
staff of this committee that has gone on to accept 
responsibilities in the area of our national defense and 
security.
    We're fortunate that each of our nominees have included 
this morning members of their family and I will at the 
appropriate time ask them to recognize those members.
    Mr. O'Connell comes highly qualified for this key post but 
I'll reserve my observations until Senator Reed and Senator 
Roberts have finished their introductions. We'll first 
recognize Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, Senator 
Levin, and colleagues. It's an honor for me to introduce Tom 
O'Connell to this committee. He brings to his job as the 
Assistant Secretary for Special Operations and Low Intensity 
Conflict an expertise and passion. He is a dedicated patriot, 
someone who graduated from the University of Rhode Island in 
1968, served as an infantry lieutenant in Germany, then went to 
Vietnam, where he was decorated with a Bronze Star for Valor 
and the Purple Heart. He returned to the United States and 
concentrated his military career in intelligence operations, 
the very operations which he will supervise.
    He has seen it all, from the platoon level, company level, 
and battalion level. He's been in Special Operations Command, 
he's been in regular units, he's been in the 18th Airborne 
Corps. I can't think of anyone more qualified to be Assistant 
Secretary of Defense for Special Operations and Low Intensity 
Conflict. He has distinguished himself in many ways. He is now 
retired from the military, working for Raytheon, and--I think, 
Mr. Chairman, that you pointed out--he has brought with him his 
family and he will, I'm sure, at your suggestion introduce 
them. They have been a proud part of his life and his career 
and a part of his success, I'm sure.
    In Rhode Island, we can claim some very distinguished 
military officers, and Tom's one of them. His family is still 
there working. His brother is a dispatcher in the Jamestown, 
Rhode Island Police Department. It is a public-spirited family. 
It is a family that has given much to the country. I 
unreservedly recommend our committee's approval of this 
distinguished American, a great soldier, Tom O'Connell.
    Chairman Warner. I thank you very much, Senator Reed. You 
speak from a very distinguished record yourself of service in 
the United States Army.
    Senator Collins, I understand you also have some opening 
remarks with regard to this nominee.
    Senator Collins. Thank you very much, Mr. Chairman. As we 
can all see by reviewing the background of Mr. O'Connell, he is 
eminently qualified to fill the position for which he has been 
nominated. What I want to comment on, however, is not so much 
Mr. O'Connell's fine record, as his good judgment and 
extraordinary fortune in marrying a native of the State of 
Maine. [Laughter.]
    I think that speaks volumes about his abilities and 
judgment. His wife of 35 years, Pat, is a native of Maine. She 
is the daughter of the Ladues, who are lifelong residents of 
Hollowell, Maine. Her father was the director of property tax 
for the State of Maine. Both of the O'Connells' sons attended 
the University of Maine, and they have a lake house in 
Winthrop, Maine.
    So I thought that bit of information was also critical to 
the committee's determination. I appreciate the chairman's 
yielding to me on that point.
    Chairman Warner. I must say as I approached the nominee I 
thought it was his daughter that he was introducing. 
[Laughter.]
    I see this marvelous family--I expect at this point in time 
you'd better step in, Mr. O'Connell, and introduce this 
wonderful family. We please ask that they stand.
    Mr. O'Connell. First, my wife, Pat, who has already been 
pointed out by the Senator. My son, Kevin, a captain in the 
United States Army, his wife, Lindsay, they're newlyweds, 
married a year ago. My son, Andy, who's in the Coast Guard 
Reserves, just recalled to active duty from college to the 
United States Coast Guard Reserve--he was two courses short of 
his college degree, but he's back on active duty with no 
complaints. His lovely wife, Catherine, who is an identical 
twin. My sister Sally's son, Luke. Sally is sitting in the next 
row. I have John Grimes, my boss from Raytheon sitting there, 
the distinguished gray-haired gentleman. Well-known in town, my 
sister, Sally O'Connell Pezonko. My sister, Lori O'Connell 
Fisher. Lori's husband, Carl Fisher. Sally's husband, Larry 
Pezonko. A dear, dear friend, Michael Ledeen, and his wife, 
Barbara, is AWOL.
    Chairman Warner. I wonder if anybody in the room who's not 
here in support of your nomination could stand up----
[Laughter.]
    These hearings are very important. It is the fulfillment of 
the Senate's role under the Constitution of advice and consent 
to the President. But in this instance, Mr. O'Connell, speaking 
for this Senator and I think the majority of this committee, if 
not the entire committee, the President has chosen well in 
selecting you. We are delighted that the family has joined you.
    I have an old yellowed set of hearing records when I sat in 
that chair 30-plus years ago. I treasure that little bit of a 
hearing record, as you and your family someday will treasure 
the one that this committee will print on your behalf.
    So I will put into the record at this point without 
enumerating, because I couldn't do it as well as Senator Reed, 
the distinguished career that you have had.
    Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. Like my 
colleague, Senator Reed, I want to say that it's an honor and a 
privilege for me to introduce no stranger to this committee, 
Paul Longsworth. I do it today for two reasons. Well, first 
just let me say that the Longsworth posse is not as numerous as 
the O'Connell posse but we make up for numbers with quality and 
dedication. [Laughter.]
    When we ride the trail ride, we ride straight and true from 
Wichita to Dodge City to any other place in Kansas. At any 
rate, the first reason is that the programs that he will be 
responsible for in this new position are under the jurisdiction 
of the Subcommittee on Emerging Threats and Capabilities, which 
I have the good fortune of chairing and which the chairman had 
the foresight to form some years ago. But more importantly, I 
am pleased to introduce him because he is a fellow Kansan and 
certainly we could use a few more Kansans around here in 
Washington.
    Mr. Longsworth is from Wichita, Kansas. He graduated from 
Wichita State University. He's a Shocker and has almost two 
decades of experience working with the Department of Energy 
(DOE) and its national laboratory system. He has worked in the 
private sector and in the Federal Government and in Congress. 
As everybody on the committee knows, he most recently served 
Congress as a professional staff member on this committee. 
Currently he is the senior policy advisor for national security 
in the former Soviet Union in Energy Secretary Abraham's 
office. In this capacity, he has advised the Secretary on a 
wide range of national security matters, including 
nonproliferation stockpile stewardship and intelligence.
    He works closely with the National Security Council and 
other Federal agencies and international organizations such as 
the International Atomic Energy Agency, an agency that has 
received a lot of mention in today's world in terms of 
importance.
    I believe all of these experiences and capabilities make 
him a highly qualified candidate for the position of Deputy 
Administrator. I am proud to support his nomination. I would 
also like to join in welcoming Paul's family, and in keeping 
with the tradition set by my distinguished friend and 
colleague, Senator Reed, I would ask Paul to introduce his 
family. His wife, by the way, is from Pennsylvania. We thought 
we'd have Senator Specter here and Senator Santorum to give a 
ringing endorsement following the example of Senator Collins, 
but they are busy. But let me say that they are very proud of 
Paul's lifelong selection. Paul, would you like to introduce 
your family, please?
    Mr. Longsworth. Thank you, Senator. I have my parents here 
from Wichita, Thorn and Sue Longsworth. I have my wife, 
Rebecca, here, who is from Pennsylvania, and her mother, my 
mother-in-law, Sally Keene, from Washington, Pennsylvania.
    Senator Roberts. That concludes my comments, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Levin. Mr. Chairman, I wonder if I could just add a 
supporting comment here because Senator Collins has established 
a precedent which it seems to me is noteworthy. I understand 
that your father is a graduate of Michigan State.
    Mr. Longsworth. He is. Yes, sir. [Laughter.]
    Senator Levin. Number one, where's your green jacket? 
Number two, that fact puts your son over the top as far as I'm 
concerned. He just made it. It was nip and tuck until then, but 
now he's okay. [Laughter.]
    Chairman Warner. Senator Allard.
    Senator Allard. Mr. Chairman, just briefly, I have written 
comments that I'd like to make a part of the record. But I'd 
just like to remind the committee that when I first came on 
this committee and then became chairman of the Subcommittee on 
Strategic Forces, Paul was my staff person and he worked with 
me to bring me up to par in what was currently happening in the 
area of nuclear issues. I can't think of anybody better 
qualified or knowledgeable than Paul to assume this position. I 
just wanted to personally wish him well. He did a good job for 
me.
    [The prepared statement of Senator Allard follows:]

               Prepared Statement by Senator Wayne Allard

    Mr. Chairman, thank you very much for holding this nomination 
hearing today. I believe it is very important that we move these 
nominees as quickly as possible. These two positions are too vital to 
leave vacant.
    First, I want to thank Thomas W. O'Connell for taking the time to 
come visit me a few weeks ago. I believe we had a very good but brief 
meeting during one of our stacked votes.
    Second, I welcome Paul Longsworth back to the committee. When I 
first became Chairman of the Strategic Forces Subcommittee, Paul had 
the chore of getting me up to speed on all the diverse and complicated 
issues surrounding the subcommittee's jurisdiction regarding the 
Department of Energy's nuclear programs. Paul is a very qualified 
nominee to be the Deputy Administrator for Defense Nuclear 
Nonproliferation, National Nuclear Security Administration. He will 
bring years of experience and expertise to the position. He has been 
and will continue to be a valued advisor to Secretary Abraham and 
Director Linton Brooks.
    Mr. Chairman, I strongly support both these nominees and look 
forward to moving out of committee and out of Senate so they can get to 
work.

    Chairman Warner. I'll put into the record my remarks with 
regard to each of these distinguished nominees and again I 
commend the President, the Secretary of Defense, and the 
Secretary of Energy for their wisdom in selecting these 
outstanding individuals who are well-experienced and well-
qualified. We are fortunate in this Nation to have these 
nominees together with their families accept public service. It 
is quite a challenge, particularly in these days and times 
which are quite perilous and uncertain facing this Nation and 
indeed the world.
    Senator Levin.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner

    I am pleased that we have before the committee this morning Thomas 
O'Connell, the nominee for the position of Assistant Secretary of 
Defense for Special Operations and Low Intensity conflict. I understand 
Mr. O'Connell is a Rhode Islander and will be introduced by Senator 
Reed.
    It is a personal pleasure for me to welcome back to the committee 
Paul Longsworth, a distinguished former member of the committee staff. 
Mr. Longsworth has been nominated to serve as the Deputy Administrator 
for Defense Nuclear Nonproliferation at the National Nuclear Security 
Administration of the Department of Energy. I understand that Senator 
Roberts will introduce Mr. Longsworth.
    We welcome the nominees and their families.
    Family support is critical to the success of individuals in senior 
positions in our Government. We thank you all for your role in 
contributing to the impressive careers of public service of our two 
nominees.
    Mr. O'Connell comes highly qualified for this key post, having 
served over 27 years on active duty as an Army infantry and 
intelligence officer, including service in the Special Operations 
community. Among Mr. O'Connell's accomplishments, he served with the 
Central Intelligence Agency as Deputy for Command Support; as Deputy 
Director for U.S. Special Operations Command; as brigade commander for 
the Army Special Mission Unit; and as commanding officer of a Military 
Intelligence Battalion in the 82nd Airborne Division. His combat 
experience includes tours of duty in Vietnam, Grenada, Panama, and 
Southwest Asia. His awards include the Defense Superior Service Medal, 
the Bronze Star for Valor, the Purple Heart, and the Air Medal. Since 
retirement from active duty, Mr. O'Connell continued his public service 
as a task force member of the Defense Science Board and the President's 
Advisory Committee on National Security Telecommunications.
    Paul Longsworth is likewise highly qualified for the position of 
Deputy Administrator for Defense Nuclear Nonproliferation at the 
National Nuclear Security Administration. The Deputy Administrator is 
responsible for programs designed to detect, prevent, and reverse the 
proliferation of weapons of mass destruction, and Mr. Longsworth has 
extensive experience in this important area. Mr. Longsworth is 
currently the senior Policy Advisor for National Security and the 
former Soviet Union to the Secretary of Energy, and, as such, Mr. 
Longsworth is responsible for advising the Secretary on a wide range of 
programs and issues related to stockpile stewardship and 
nonproliferation. In addition to his service with the Armed Services 
Committee, Mr. Longsworth has worked for the Senate Committee on 
Environment and Public Works and for the Office of Science and 
Technology of the Department of Energy.
    Our nominees have a wealth of experience, and I believe each of 
them will excel in the positions to which they have been nominated. We 
welcome them and their families and look forward to their comments and 
responses today.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, I'm going to follow your lead 
and put my opening statement in the record. We have two well-
qualified nominees before us. I'm glad that we also have a 
nominee who has some experience in the legislative branch, on 
this committee no less. Since there has been a great deal of 
commentary about the flow of power to the executive branch from 
the legislative branch in this administration, which has been 
resisted by many of us, this is now a case where we're fighting 
back. We are infiltrating the executive branch. We are 
delighted with your experience and knowledge, Paul, that you 
will be bringing to your new position.
    [The prepared statement of Senator Levin follows:]

                Prepared Statement by Senator Carl Levin

    Thank you, Senator Warner. I want to join Senator Warner in 
welcoming our witnesses and their families this morning.
    I am pleased that we finally have a nominee--Thomas O'Connell--for 
the position of Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict (SO/LIC) before us today. That position has 
been vacant for 2 years, and yet the issues that fall under the purview 
of that office--including special operations, peace or stability 
operations, counternarcotics policy, and worldwide efforts to combat 
terrorism--are among the most critical responsibilities of the 
Department of Defense.
    Mr. O'Connell comes to us with a long, distinguished background in 
special operations and intelligence work, and the endorsement of our 
colleague, Senator Reed.
    Paul Longsworth, nominated for the position of Deputy Administrator 
for Defense Nuclear Nonproliferation at the National Nuclear Security 
Administration, is a former member of the committee staff. It is always 
a pleasure to see former staff members selected for senior positions in 
the executive branch.
    If confirmed, Mr. O'Connell, you would assume responsibility for 
the policy that would guide peace or stability operations. Senator 
Warner and I, along with several other members of this committee, have 
just returned from Iraq, and we visited Afghanistan earlier this year. 
It is evident to me that in Iraq and Afghanistan, we urgently need to 
develop a comprehensive, multinational strategy for establishing 
security, and fostering political and economic reconstruction.
    At the same time, you will be charged with guiding the Special 
Operations Command as it assumes its new expanded role in the global 
campaign against terrorism. You will also oversee the Special 
Operations Command's budget and its prioritization of roles and 
missions. This is critical, because while the Special Operations 
Command takes the lead in fighting the war on terrorism, special 
operators must continue to receive training for, and conduct, the many 
other missions, such as foreign internal defense, that give these 
operators access to other countries the United States may want to 
collaborate with, or where U.S. troops may be deployed in the future.
    Finally, among your responsibilities will be formulating and 
implementing an effective counterdrug policy, and ensuring that our 
military commitments in places like Colombia meet with success and 
support U.S. foreign policy.
    The position for which Paul has been nominated, the Deputy for 
Nuclear Nonproliferation, has grown in significance since its creation. 
The Department of Energy, and now the National Nuclear Security 
Administration, is at the forefront of the effort to account for, 
secure, and protect nuclear weapons, nuclear weapons materials, and 
nuclear weapons technology from the former Soviet Union from falling 
into the wrong hands.
    We now have the opportunity to expand those nonproliferation 
programs to address nuclear materials that could be used in 
radiological dispersal devices, so-called dirty bombs. Secretary 
Abraham recently hosted an international assembly to begin to address 
this problem. In addition, we have the opportunity to work 
cooperatively with Russia to reduce the size of its nuclear weapons 
manufacturing complex. We should take full advantage of these 
opportunities.
    I look forward to working with both our nominees, upon their 
confirmation, to address the challenges of special operations and low 
intensity conflict, and nuclear nonproliferation.

    Chairman Warner. In keeping with the responsibilities of 
this committee, we have asked our witnesses to answer a series 
of advance policy questions. They have responded. Without 
objection, I will make the responses as well as the questions a 
part of today's record.
    The committee also propounds to each of its nominees before 
the advice and consent procedure standard questions, and I will 
proceed now to ask you questions, and if you will please 
acknowledge with a sharp, crisp answer.
    Have you adhered to applicable laws and regulations 
governing conflict of interest?
    Mr. O'Connell. Yes.
    Mr. Longsworth. Yes.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Longsworth. No.
    Mr. O'Connell. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record and hearings?
    Mr. O'Connell. Yes, sir.
    Mr. Longsworth. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. O'Connell. I will, sir.
    Mr. Longsworth. Yes, sir.
    Chairman Warner. Will those witnesses be protected from 
reprisal for such testimony or responses that they provide 
Congress?
    Mr. O'Connell. Yes, sir.
    Mr. Longsworth. Yes, sir.
    Chairman Warner. I think we will now proceed with an 
opening statement from Mr. O'Connell, but I'd like to make an 
observation or two. My good friend and colleague on my left and 
I have been on this committee some 25 years. As we look back 
over the several things that we have worked on, I think the 
establishment of the Special Operations Force category in the 
Department of Defense by special congressional legislation--the 
two of us worked on it with our former colleague, former 
Secretary of Defense, Senator Cohen--it shows that we have 
taken a special interest in this position through the years.
    It is a very critical position to the changing threats that 
face this Nation today because the Special Operation Forces 
(SOF) have the versatility and perhaps the degree of mobility 
and the speed with which to react that is specially designed 
for these forces. They have distinguished themselves in a most 
commendable way, in the operations in Afghanistan, in Iraq, and 
elsewhere in the world.
    I just wanted to make that comment because I'm proud of 
what Congress did. We undertook this responsibility in the face 
of, I might say, less than full support from the defense 
establishment, the fear being that the creation of this force 
would result in competition, more competition than perhaps is 
desired. I always feel that a little competition between the 
branches of the Services is healthy, but more competition would 
have not been in the benefit of national defense. Well, that 
hasn't proven to be true, and the Special Operations Forces 
have proven over and over again not only their courage and 
their commitment together with their families, but they have 
proven the concept of jointness, that our Armed Forces really 
are one.
    Proud though they are of their Army, Navy, Air Force, 
Marine Corps, and Coast Guard uniforms, the bottom line is they 
fight for the cause of freedom, irrespective of the branches 
they are in and this has been proven in the SOF. I remember so 
well on our first trip to Afghanistan the night when we watched 
those teams of somewhere between 20 to 25 individuals board 
their helicopters for a very cold and chilly flight in-country 
to perform a mission, and then bring themselves out before the 
first light. One officer--that was all that was needed because 
the enlisted men knew full well their responsibilities. I take 
great pride in it, as I'm sure you do, Senator, for what we've 
done.
    So we'll now receive your statement, Mr. O'Connell.

 STATEMENT OF THOMAS W. O'CONNELL TO BE ASSISTANT SECRETARY OF 
DEFENSE FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT (ASD 
                           (SO/LIC))

    Mr. O'Connell. Thank you, Senator. Just as an aside, I've 
been very fortunate to be present at many of the briefings and 
demonstrations that you and several other colleagues on the 
committee have attended over the years.
    Mr. Chairman, Senator Levin, distinguished members of the 
committee, I'm honored to come before you as the President's 
nominee for the position of Assistant Secretary of Defense for 
Special Operations and Low Intensity Conflict. I greatly 
appreciate the confidence expressed by the President and 
Secretary. I want to assure you that if I am confirmed, I will 
strive to justify that trust, particularly to the members of 
our Nation's Special Operations Forces, who daily serve 
liberty's cause in many dangerous corners of the world.
    Anyone fortunate enough to receive an honor like this has 
many to thank. I wish my parents, Jerry and Claire O'Connell of 
Lake Worth, Florida and Jamestown, Rhode Island, could be here 
today. They are my heroes and charter members of the greatest 
generation. My wife Pat has provided unwavering support during 
a 27-year military career. My sons Andy and Kevin would make 
any father proud. My sisters Sally and Lori and my brother Tim 
have been very supportive siblings. Our long-time friend who 
wanted so much to be here today for this hearing is retired 
Navy Captain Chuck Jacques, currently struggling against 
leukemia in a Minnesota hospital. I know his heart is here 
today. In fact, he is a neighbor of yours, Senator Warner.
    We are at an extraordinary time in our Nation's history. 
The war on terrorism, coupled with unprecedented security 
challenges, now places exceptional demands on our military and 
in fact on our entire Government. I believe today's challenges 
to our Special Operations Forces parallel those faced at the 
darkest days of World War II. As in that era, these challenges 
will be met by forces remarkable in their quality, self-
sacrifice, courage, integrity, and dedication.
    If confirmed, the primary challenge that I will face as the 
assistant secretary is the successful prosecution of the global 
war on terrorism. Special Operations Forces are at the 
forefront of the war, and this office will be responsible for 
making every possible effort to ensure that these missions are 
ultimately successful. America's Special Operations Forces 
possess unique capabilities to meet the many diverse threats 
that mark this conflict and these certainly increase their 
importance as a primary force in the Nation's defense.
    If I am confirmed, the second challenge would be continued 
development and execution of stability operations. In 
Afghanistan and Iraq, we have seen that the transition of 
operations in the theater from military action to stabilization 
and low intensity conflict, and then eventually to local 
civilian control, is difficult. I note that both the chairman 
and the ranking member just returned from both locations in the 
not too distant past. Special Operations Forces, including 
civil affairs, and psychological operations elements, can 
provide a support essential to the combatant commander.
    The third challenge is the transformation of Special 
Operations Forces. It will be important to remain fully 
compatible with the doctrinal and technical changes that are 
taking place within the Defense Department. We must continue to 
transform SOF to better position them to confront and defeat 
the threats of the 21st century. This will be an especially 
important task in light of the designation of the U.S. Special 
Operations Command as the lead command for the war on 
terrorism.
    If confirmed, I will work closely with the Commander, U.S. 
Special Operations Command, to ensure that the annual funding 
can effectively maintain a ready force to meet the challenges 
of the new security environment. I recognize that the creation 
of the position of Assistant Secretary for Special Operations 
and Low Intensity Conflict is the product of many historical 
factors that bear witness to the keen and abiding congressional 
interests in these areas of responsibility. The historically 
close working relationship between that office and Congress is 
a tradition that has served the country well, and as we 
continue the war on terrorism and face many other challenges, 
it will only become more important. If confirmed, I look 
forward to continuing that close relationship.
    I wish to thank all the Senators and their staffs who took 
considerable time to meet with me and discuss the many critical 
issues that face our Special Operations Forces today. I share 
your concerns and interests, and if confirmed, look forward to 
working with each of you to give these forces every possible 
edge against the many adversaries that seek to destroy this 
Nation.
    I certainly appreciate Senator Reed's willingness to 
introduce me and thank him for his kind words. We share the 
common bond of having commanded in the 82nd Airborne Division, 
and know what an extremely high honor it is to serve with 
soldiers ready to risk all for each other.
    With that, sir, I'd be pleased to welcome your questions.
    Chairman Warner. We'll undertake the questioning of Mr. 
O'Connell because he has a very pressing engagement, so if you 
will just bear with us, Mr. Longsworth.
    Mr. Longsworth. Yes, sir, that's fine.
    Chairman Warner. Senator Levin, do you wish to lead off? 
I've had the opportunity to speak with this nominee on a number 
of occasions. I intend to put most of my questions into the 
record.
    Senator Levin. Fine, yes, sir.
    Mr. O'Connell, this position has been vacant for a number 
of years. It is a critically important position, and you are 
someone who has the background to fill it and to bring it up to 
where we need it to be. On the initiative of Senator Reed, the 
Senate version of the defense authorization bill for the next 
fiscal year includes a requirement that the Secretary of 
Defense report to Congress on the expanded role of the Special 
Operations Command (SOCOM) in the global war on terrorism. If 
confirmed, have you thought about what decisionmaking 
mechanisms you would recommend for authorizing, planning, and 
conducting individual missions? Under what circumstances would 
you recommend requesting authorization by Congress?
    If you haven't given a lot to that issue, that's fine, you 
can just indicate that to us and let us know as you proceed in 
your new responsibilities how you address that issue. But the 
question is, are there any specific decisionmaking mechanisms 
that you are prepared to recommend at this time for 
authorizing, planning, and conducting the individual missions?
    Mr. O'Connell. Senator, I'm not prepared to recommend any 
at this time. I would like to state for the record that at 
least 7 years ago I had a considerable amount of familiarity 
with how those things progressed and I have looked at some of 
the mechanisms, or provisos that have been put in place by the 
Secretary that these operations will be conducted in 
conjunction with the combatant commander. I'd just like to make 
that statement for the record, sir.
    Senator Levin. That's fine. Do you believe that some of the 
special operators should operate undercover?
    Mr. O'Connell. Absolutely.
    Senator Levin. How are we then going to distinguish between 
the roles and missions of the special operators and the 
intelligence operators, as a practical matter and as a legal 
matter?
    Mr. O'Connell. Sir, I believe that the law is quite clear, 
and in fact has been quite clear that there are authorities 
under both Title 10 and Title 50 to conduct those special 
operations missions enumerated in Title 10, some of them 
undercover. Again, it's been my experience--but I've been out 
of this for 7 years--that there is quite a robust mechanism and 
those operations that included both intelligence activities and 
classic direct action or military activities were integrated 
and overseen quite well.
    Senator Levin. Your written answers to policy questions 
contain the statement that the Special Operations Command will 
look at moving certain ongoing collateral activities not 
requiring unique SOF capabilities to general purpose forces in 
order to free up special operators for their primary mission, 
which is to wage the war against terrorists. What specific 
collateral activities, if you have any in mind, should be moved 
to the conventional forces?
    Mr. O'Connell. Sir, the only one that I am aware of was, I 
believe, a training mission in Georgia. To the extent that 
there are other missions like that, I believe at least some 
current policy decision makers have decided that that is the 
type of mission that can be turned over to conventional forces. 
That would be one, sir.
    Senator Levin. All right, thank you. In your written 
answers to pre-hearing policy questions, you refer to a joint 
effort between the Office of Special Operations and Low 
Intensity Conflict that, ``seeks technology programs to ensure 
that the Special Operations Forces' capability remains at the 
cutting edge of technology'' and you state that the 
``Department's increased investment in science and technology 
initiatives will continue that trend'' of accelerating 
technologies into deployable systems for special operators and 
eventually into conventional units.
    However, the budget request for fiscal year 2004 of $6.7 
billion for the Special Operations Command includes a decrease 
in money for research and development. I'm wondering how do you 
intend to increase funding for research and development given 
that budget request?
    Mr. O'Connell. I noted, sir, that Congress was good enough 
to add a plus-up to that. The one thing--and certainly if 
confirmed, sir, I would have to go back and look at the 
specifics of the difference between what you authorized and 
what the SOCOM budget was. But I would like to make one point--
that one of the most difficult things that a military command 
does, or anybody in the military does, is to look out across 
all the research and development (R&D) areas and make sure that 
you are leveraging the ones that can perhaps be used by Special 
Operations Forces.
    That's an extremely difficult thing to do. It requires a 
lot of smart people and a lot of time. If confirmed, sir, I can 
assure you that at least I will make good use of that money and 
good use of that talent in looking across the entire Department 
of Defense.
    Senator Levin. Finally, there's a question about retention. 
During the Iraq war we saw the single largest deployment of 
Special Operations Forces since World War II, something like 
10,000 troops were engaged in those operations, securing 
airfields, oil wells, dams, ports, clearing mines, searching 
for Scuds, weapons of mass destruction searches, arms caches, 
and they also rescued Private Jessica Lynch. It was truly 
outstanding work. However, we have received reports now from 
some special operators that there is an early indication that 
there is going to be a negative that arises from these 
deployments, including some resignations.
    The problem appears to be most acute for civil affairs and 
psychological operations forces. Apparently, 80 percent of all 
psychological operations forces are still in Iraq. If we are 
going to have a retention problem with our Special Operations 
Forces, we are going to need some action on your part. I'm 
wondering whether you're prepared at this time to make 
recommendations relative to retention?
    Mr. O'Connell. Not specific recommendations, Senator Levin, 
but I'd like to assure you that I have read all of the previous 
testimony relative to this issue in front of both the House and 
Senate on the manning status, Reserve versus active, in both 
the psychological operations and civil affairs units. I know 
that adjustments are being made to both build new units and 
move more capability into the regular forces. I can assure you, 
sir, that if I am confirmed that will be a matter of utmost 
concern to me.
    Senator Levin. Just to wind up on this issue, since my time 
is up--one proposal that we've heard from the civil affairs and 
psychological operations officers who have met with staff is 
that the retention problem can be effectively addressed by 
granting the operators more predictability in assignments and 
schedules, including some ability to choose assignments, at 
least choose them obviously subject to the approval of a 
commander. I just would urge you to take a look at those 
particular mechanisms as ways of improving retention and leave 
it at that.
    Mr. O'Connell. I will, Senator.
    Senator Levin. Thank you.
    Chairman Warner. Thank you, Senator Levin.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. Again I just wanted 
to reconfirm the wisdom of the President in selecting Mr. 
O'Connell for this important job, he has done us all very proud 
in my home State of Rhode Island, he and his family. I 
neglected to mention his sister is a Providence school teacher. 
I mentioned his brother and his other sister is here with him. 
We tend to stick together in Rhode Island, so I'm not surprised 
we have half the State here. [Laughter.]
    But, just quickly--your responsibilities are worldwide, 
literally. An area of the world that has in the past received a 
great deal of attention, but because of the conflict in the 
Persian Gulf is not currently receiving the same front page 
attention, is Colombia. Have you had the opportunity to make a 
preliminary assessment about the situation in Colombia and our 
involvement?
    Mr. O'Connell. Senator Reed, I have not seen any specific 
briefing documents on Colombia. I had some experience there a 
considerable time ago. I try to follow it as best I can in the 
open press. I know it's a very difficult and thorny problem. 
The one observation I would make is that I think sometimes we 
never see any good news, but I think President Uribe has made 
good progress in a very difficult path. But in terms of 
specific recommendations on any changes in Colombia, I wouldn't 
have them at this time, sir.
    Senator Reed. Another point that I would make for comment 
if you'd like is that today's Washington Post indicated that 
poppy production in Afghanistan is up to 1999 levels, pre-war 
levels, and that is not only a counternarcotic problem, it's a 
counterinsurgency problem because it fuels the warlords. That's 
their cash crop. Any thoughts, specifically or in general, 
about your liaison with counterdrug forces and law enforcement 
authorities?
    Mr. O'Connell. Sir, the current Office of the Assistant 
Secretary for Special Operations and Low Intensity Conflict has 
a very robust counterdrug office. The Department recently 
redefined counternarcotics and counterdrug to include going 
after activities that are related to counterdrug, but not 
specifically, i.e. transportation, safe havens, production, and 
things like that.
    I have no immediate suggestions other than I will be able, 
hopefully, to talk to General Vines, the task force commander 
there, and certainly talk to the new Central Command (CENTCOM) 
commander on his thoughts as well as the many people that DOD 
liaises with in the President's Drug Control Office, et cetera. 
It is a very serious problem, and I don't pretend that it 
isn't. To the extent that we can do anything about it, the only 
thing I can say is we can certainly try and I'd be happy to 
come back and brief you on what we might try to do.
    Senator Reed. Thank you. Just a final point. Among your 
range of activities, as I understand, is the responsibility for 
detainees, which leads directly to the facility in Guantanamo, 
which if you're not aware of this, but you probably are, our 
Rhode Island National Guardsmen will deploy there shortly to 
take up the security task, so you'll have a special motivation 
in this one. But it obviously raises significant issues of 
policy and processing. I think we have about 680 detainees, the 
White House has recently announced they're commencing legal 
process for 6. That leaves over 600 individuals who are in a 
status that is unclear, and I'm sure in the course of the next 
several years obviously there has to be some decision with 
respect to the status of these individuals, but I don't have a 
question frankly. I just wanted to--I'm sure you're aware of 
it, but to make everyone aware of it.
    Mr. O'Connell. I am well aware of the problem, Senator, and 
well aware of the challenge I'm going to face there.
    Senator Reed. We think you're up to it.
    Mr. O'Connell. Thank you, sir.
    Senator Reed. Thank you very much.
    Chairman Warner. Thank you again, Senator Reed, for your 
participation and interest in this. Mr. O'Connell, as I 
mentioned earlier, your office was one created by Congress, and 
we take a very special and continuing interest in this office. 
I'd hope that if we bring you before this committee in the 
future, as we will, that you will share with us your personal 
views, even though those views may be at variance with your 
superiors.
    Mr. O'Connell. I will, Senator.
    Chairman Warner. You have some of the finest of all the 
services, some who take time and time again personal risks far 
more than others do, and therefore, we need the strongest and 
toughest of spokesmen in this position. I hope you recognize 
that.
    I frankly feel that we should be considering in the near 
future, and at this time I suggest you not reply to my 
statements, but I really think that the size, in terms of 
increasing Special Operations Forces should be reviewed. Is 
there any capability that is lacking today that should be 
added, and indeed perhaps additional roles for SOCOM? Now, we 
need look no further than the challenges posed by the African 
continent to address the seriousness of peacekeeping and 
humanitarian missions, which often Special Operations Forces 
are involved in. As I look at some of these situations into 
which our people must go, we can't put a badge on them and say, 
we're peacekeepers, don't shoot. That doesn't work.
    Those who want to place peacekeepers or humanitarian forces 
in harm's way will not be deterred simply because of the title 
or the written description of the mission. They look at the 
uniform, the equipment, the resolute face, and from that point 
on they could be in harm's way.
    So look carefully at this. I realize you're not in the 
operational chain that's traditional in the Department of 
Defense. You know full well, the Secretary to the chairman and 
down, but your people will look to you to express a strong 
voice and to discharge your oversight responsibilities. I hope 
that you will not be reserved in advising your superiors of 
your views with regard to the missions which the operational 
chain may assign your forces.
    The primary responsibility of course is the recruiting, 
equipping, and training of these forces. But I feel that it's 
very broad, and I would push the limits in discharging your 
duties. At all times I want you to know that this committee is 
available to hear your views if you so desire. Simply inform 
myself, the ranking member, or other members of the committee.
    Peacekeeping is becoming an ever-increasingly important 
role for our Armed Forces worldwide and we're proud of the 
manner in which those missions have been carried out to date, 
how they are being carried out, and how they will be carried 
out in the future because these stability operations and 
humanitarian assistance can often solve a problem short of the 
use of force.
    Now, you have also the counterdrug activities. We've 
mentioned that in the context of Colombia. There again, come to 
us if you feel that you're not properly financed, equipped, or 
otherwise provided for in the discharge of your duties.
    The Department of Homeland Security has domestic 
counterterrorism, but you have it beyond the shores, and there 
again, the President has said that our war on counterterrorists 
is our number one priority. I agree with the President, as I'm 
sure you do as well.
    I'll place the balance of these questions into the record 
unless you have any further comments you wish to make to me 
with regard to my observations.
    Mr. O'Connell. No, Senator, I've written everything down.
    Chairman Warner. Good. Recruiting seems to be all right for 
the moment. I think it was important that my colleagues raised 
the question of retention because understandably I'm very proud 
of elements of the SEAL teams and so forth which rotate in and 
out of their Navy Department responsibilities with the SOF. 
They're all very proud of it. I learned a lot about SOF through 
those individuals. So I anticipate I'll be taking a trip down 
to visit your various commands with you hopefully in the near 
future.
    Mr. O'Connell. Thank you, sir.
    Chairman Warner. If there are no further questions before 
the committee, any Senators desiring to place questions I would 
ask that that be done before the close of business tomorrow 
such that our nominee hopefully can be voted on by this 
committee at the earliest opportunity next week.
    Thank you very much, Mr. O'Connell, and we thank your 
family. Godspeed and good luck.
    Mr. O'Connell. Thank you, Senator Warner. I appreciate your 
courtesies.
    Chairman Warner. Thank you. You can go ahead and collect 
your team and leave Mr. Longsworth on his own. [Laughter.]
    Mr. O'Connell. Thank you very much, sir.
    Chairman Warner. Thank you. We'll just wait a minute until 
you depart.
    Chairman Warner. Mr. Longsworth, we would be happy to 
receive your opening statement.

STATEMENT OF PAUL M. LONGSWORTH TO BE DEPUTY ADMINISTRATOR FOR 
  DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Mr. Longsworth. Thank you, Mr. Chairman. Thank you, Senator 
Levin and Senator Reed. I am honored to be here to be 
considered as the President's nominee for Deputy Administrator 
for Defense Nuclear Nonproliferation in the National Nuclear 
Security Administration (NNSA) within the Department of Energy.
    I, too, am thankful to the President and I'm thankful to 
Secretary Abraham and Ambassador Brooks for the confidence that 
they've placed in me. I would also like to thank the members of 
this committee for your continued support of the programs that 
make up the NNSA's nonproliferation effort.
    To say that I'm honored to be nominated for this position 
is an understatement. I've worked with the Department of Energy 
for almost my entire professional career and I've seen many 
changes including, most recently, the establishment of the NNSA 
by this committee and the House Armed Services Committee.
    Chairman Warner. You were very active in the preparation of 
the appropriate statutes that made that possible.
    Mr. Longsworth. Yes, sir. As my wife will tell you, I've 
spent a lot of evenings here working on that. [Laughter.]
    Chairman Warner. I remember them well.
    Mr. Longsworth. While there have been many changes, the one 
thing that has remained the same is the dedication, patriotism, 
and competence of the scientists, engineers, technicians, and 
program managers that carry out our nonproliferation efforts. I 
don't think any group typifies this dedication better than the 
people that work in the Office of Defense Nuclear 
Nonproliferation. These individuals work tirelessly to address 
the spread of weapons of mass destruction and they bring to the 
task an unmatched level of technical experience and expertise. 
Many of these individuals spend weeks out of every year, some 
as many as 100 nights a year away from their families and they 
work in far-flung locations throughout the world such as the 
closed cities of Russia, Siberia, the Ural Mountains, and other 
locations, where they lack the most basic western amenities.
    They work to secure the materials, the expertise, and the 
technologies that might be used by terrorists against the 
United States or our allies. In short, they prevent those 
threats before they reach our Nation's shores. They're the 
front line of our nonproliferation program. They carry out the 
work that the committee authorizes, and I commit that, if I am 
confirmed, I'll make it my job to make them more successful. 
I'll focus my attention on removing any obstacles that hinder 
their work or create inefficiencies.
    These materials represent an attractive target of 
opportunity for the terrorists who are openly and actively 
seeking nuclear materials to threaten the United States, 
blackmail the international community, or simply inspire 
terror. We cannot stand idly by and hope that Russia and other 
nations of the former Soviet Union take all the necessary steps 
to secure this material because, short of acquiring an intact 
nuclear weapon, the quickest route to a nuclear bomb is 
accessing poorly secured, highly enriched uranium or plutonium. 
Russia alone possesses an estimated 600 metric tons of weapons-
useable nuclear material and thousands of warheads.
    My first priority, if confirmed, will be to ensure that we 
finish the work that we've started in Russia as quickly as 
possible, and I will continue the work that Ambassador Brooks 
and Secretary Abraham have started to accelerate our 
cooperative programs after September 11 to secure these nuclear 
materials and warheads.
    Russia isn't the only source of the threat. There are 
materials and technologies in other parts of the world that 
must also be secured. Our programs will have to adapt and 
evolve to locate and address these emerging threats. If 
confirmed, I will bolster our efforts to provide export control 
assistance to other nations, to assist the International Atomic 
Energy Agency (IAEA) with a safeguards program, and contribute 
to the overall U.S. effort to strengthen the nonproliferation 
regime. I commit to this committee that I will work day and 
night to ensure that the nonproliferation programs of the NNSA 
are effective and responsive to the most urgent threats that 
face our Nation.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you, sir.
    Prior to North Korea repudiating the Nuclear 
Nonproliferation Treaty, the NNSA provided a technical 
expertise team to monitor the agreed framework in North Korea. 
I think you're familiar with that, are you not?
    Mr. Longsworth. Yes, sir.
    Chairman Warner. At the time of the team's departure, what 
did the team observe regarding the status of the North Korean 
nuclear program?
    Mr. Longsworth. They were removed from North Korea prior to 
North Korea removing the seals that the IAEA had placed on 
those canisters, so everything was intact when they left. I 
will tell you that the cooling pond was in a fairly shabby 
state and we were preparing to replace the pumps and so forth 
in that pond where the fuel was actually stored. But it was 
fully compliant when our experts left.
    Let me just, as a side note, point out that the individuals 
who worked in North Korea endured amazing hardships to be at 
that location. North Korea has what's called Anti-America Day 
and we had our teams in-country at that time. I can tell you 
some of the stories, but they were spit upon and yelled at and 
threatened quite actively by just normal citizens. So North 
Korea was one of the far-flung locations that I referred to 
that our experts worked in to prevent the spread of that 
plutonium.
    Chairman Warner. Putting aside diplomacy within the past 24 
hours there has been another development on that, or several 
that I've found quite interesting, and putting aside the 
subject of military operations, is there anything that your 
department could be doing from a technical standpoint or in 
relationship to the IAEA to try and lessen these tensions and 
bring about a greater degree of compliance with the 
nonproliferation objectives of not just this country but the 
world?
    Mr. Longsworth. We are actively involved in trying to 
address the North Korean problem. To answer your first 
question, we do provide technologies and we have a very active 
research and development program. We developed the sensors and 
the computer algorithms and so forth that analyze data to 
assess what other countries are doing. We do that both through 
national technical means and we support the IAEA on a technical 
level.
    On a policy front, we are supporting White House and State 
Department efforts to reach a solution to that problem, and we 
do support that actively on a policy level.
    Chairman Warner. Let the record show that in December 2002, 
the Office of Defense Nuclear Nonproliferation within the NNSA 
contributed both funds and technical expertise to the IAEA. 
You've just addressed that fact, and the Iraq Nuclear 
Verification Office (INVO) and the United Nations Monitoring 
Verification and Inspection Commission (UNMOVIC). So that was 
taxpayers' money going to support those operations, correct?
    Mr. Longsworth. Yes, sir.
    Chairman Warner. I think those investments were well taken 
by this country. Then I'd have to ask, in the post-conflict 
Iraq what additional support and technical expertise do you 
think the Office of Defense Nuclear Nonproliferation could 
provide to the Departments of Defense and State with regard to 
Iraq?
    Mr. Longsworth. We are advising the Department of Defense 
right now. We have supported certain operations in Iraq with 
technology and people. Right now, we don't have a lot of 
activities going on in Iraq because of the unrest that remains 
there, but we stand ready to support the Department of Defense 
with both technology and expertise from our material sites when 
the request comes. We have not been requested to do that yet.
    Chairman Warner. I hope that the relations with the 
Department of Defense are very smooth and professional and that 
it's a joint effort.
    Mr. Longsworth. Yes, sir, they are.
    Chairman Warner. I've not detected any strong differences; 
views on policy or otherwise.
    Mr. Longsworth. No. We work very closely with the 
Department of Defense. I think that it's their concern for the 
safety of our people going in-country right now, that is the 
main barrier.
    Chairman Warner. The Secretary of Energy announced on July 
2, 2003, that he plans to combine the two offices of 
counterintelligence, the one run by the Department of Energy, 
and the other run by the NNSA, into one office to be run by the 
Department of Energy. As you may recall, it was a 
counterintelligence breach that, in the judgment of Congress, 
led to the particular legislation creating the NNSA. Do you 
have any concerns that taking the counterintelligence program 
out of the NNSA may interfere with the type of nuclear 
proliferation concerns which led to the creation of the NNSA in 
the first place?
    Mr. Longsworth. No. We have dramatically enhanced our 
counterintelligence capabilities since the NNSA was created. I 
don't think that combining those will cause any additional 
degradation of our ability to counter threats of espionage or 
sabotage or any other threat against our sites or our 
technologies. In fact, we hope that this will provide some 
synergy and we'll get some efficiencies out of that.
    There is also an advantage of having this organization 
address the entirety of the Department of Energy and the NNSA 
together. You get a seamless counterintelligence program that 
way. I will say that because we are not really downsizing the 
counterintelligence office within the NNSA. Those activities 
themselves will continue; we're simply streamlining how they're 
carried out and how the policy is established.
    Chairman Warner. Many countries' weapons of mass 
destruction programs are developing rapidly despite the 
existence of nonproliferation policies and treaties worldwide. 
Why do you think this is the case, and what new approaches 
should be taken by the United States and the international 
community to try and address this universal concern?
    Mr. Longsworth. I think the availability of materials and 
technology has contributed greatly.
    Chairman Warner. Would you say increasing availability, or 
about level, or a little less? I don't know what you'd use as a 
benchmark.
    Mr. Longsworth. I think the appetite for more powerful and 
even more destructive weapons is probably increasing on the 
part of rogue nations and non-nation state actors.
    Chairman Warner. I share that view. Because they look at 
the asymmetric system. They can't possibly develop the carriers 
that we have and the extraordinary Armed Forces on the ground 
there. So they look to this as the means by which to carve out 
their place on the world scene that is increasingly worsening.
    Mr. Longsworth. Yes, sir.
    Chairman Warner. Do you agree with that?
    Mr. Longsworth. Yes, sir, I do, wholeheartedly. With the 
fall of the Soviet Union, many of the restrictions that used to 
contain technologies and material and to make them unavailable 
to these rogue actors, a lot of those protections have gone 
away, and we are in a new environment now. The main mission of 
the Office of Defense Nuclear Nonproliferation is to ensure 
that we have layered defenses to protect those technologies 
from getting into the hands of bad actors. We protect material 
and technology at the source, we protect at border crossings to 
detect material transiting countries, and we protect at the 
U.S. border with radiation detectors at ports and other places 
in the United States. We're working in conjunction with the 
Department of Homeland Security now to build layered defenses 
because these other, what I'll call Cold War protections, have 
fallen away in many cases.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Just on that last point, do you think we 
should allow vehicles into this country that cannot be tested 
for radiation?
    Mr. Longsworth. We have a very aggressive program to screen 
containers. I'm not sure today that it is technically possible 
to screen every container or every vehicle that comes into the 
United States. I'm not sure that is practicable.
    Senator Levin [presiding]. But if we're unable to screen 
vehicles, if there are certain types of vehicles that can't be 
practically screened giving the current equipment, should we 
allow them in?
    Mr. Longsworth. I think you have to look at a whole range 
of methods to assess what might be coming into the country. A 
detector at a portal or a border crossing is only one. There is 
also profiling that you can use, such as, what was the country 
of origin, where did it come from, what do we know about it, 
and what, from intelligence, do we know about certain 
activities by terrorist organizations or other groups? You can 
combine all of those into a picture that helps you focus on 
which vehicles or containers you should stop and inspect. But 
today, to answer your question, I don't think it's practicable 
to stop every vehicle.
    Senator Levin. That's not my question. I'm not talking 
about the quantity of vehicles. I'm talking about the type of 
container. If it cannot be inspected because of the nature of 
the material in it, shouldn't we be leery about allowing it in?
    Mr. Longsworth. I think we should definitely be leery. We 
are working on technologies that can assess in all types of 
containers what's inside and some of those will require opening 
up the container and visually inspecting them.
    Senator Levin. Until we can do that, should we not be leery 
about allowing them in, until that technology is available or 
until we can open them up?
    Mr. Longsworth. My personal opinion is I think you would 
stop a lot of commerce. Again, I don't think that's practicable 
to do.
    Senator Levin. Stop a lot of commerce? You mean if as a 
practical matter, we don't have the technology and you can't 
open them up as a practical matter for inspection, we should 
not be cautious or leery about allowing those containers in?
    Mr. Longsworth. No, I think that we should use all of the 
tools that we have available to assess what's in the containers 
and focus our efforts on going after the containers that we 
view to be at risk or threatening.
    Senator Levin. I want to talk to you about the Nation's 
nonproliferation goals and the broader context in which we 
should look at the nuclear weapons policies of the Nation. When 
you look at the broader context, here's what we are being 
requested to do by the administration: repeal the prohibition 
against developing new nuclear weapons with explosive yields of 
5-kilotons, which is roughly a third of the size of the nuclear 
bomb that was used at Hiroshima which immediately killed an 
estimated 140,000 people and left many more injured.
    The administration is asking us for $15 million to continue 
work on a robust nuclear earth penetrator (RNEP) that would 
modify an existing high-yield nuclear weapon, a much higher 
yield than the one I just described because this one would have 
a yield of approximately 30 to 70 times the explosive power of 
Hiroshima.
    Now, your office is charged with helping to implement the 
U.S. policy to dissuade others from pursuing nuclear weapons. 
How do you persuade others from pursuing nuclear weapons when 
we're looking for new uses of nuclear weapons?
    Mr. Longsworth. Actually, I would say that I don't think 
that we are intending to look for a new use for a new nuclear 
weapon. First let me say also, President Bush, I think, is 
fully committed to the nonproliferation regime, including the 
Nonproliferation Treaty. I think we have a very good track 
record in the nonproliferation arena.
    Senator Levin. Rhetorical commitment is one thing. I'm 
talking about deeds and actions.
    Mr. Longsworth. These are practical deeds. We have 
negotiated the dramatic reduction in our nuclear forces, 
upwards of 60 percent with the Treaty of Moscow. We've 
increased funding for the IAEA for its safeguards and its 
verification programs. We have also been working with the G-8 
to dramatically increase funding; the proposal now is to 
provide $20 billion over the next 10 years to directly affect 
proliferation of weapons of mass destruction.
    The one program that you might be referring to is the RNEP 
feasibility study, which is just that, a feasibility study. It 
is intended to look at the B-83 gravity bombs, to see if they 
can be modified to hold at risk known targets.
    Senator Levin. To make them useable for a new purpose?
    Mr. Longsworth. Well, no, I would say that these are known 
targets. These are targets that today, we would like to hold at 
risk. I don't think the RNEP study, please note it's just a 
study, does anything to change the missions that we have for 
our stockpile. It simply makes it more effective.
    Senator Levin. What's wrong with the word useable? Why do 
you shy away from the word useable? Aren't we looking at the 
possibility of using it for that purpose?
    Mr. Longsworth. Deterrence is intended to be a threat and 
if the threat isn't credible, I think that does undermine our 
nonproliferation efforts.
    Senator Levin. But the deterrence which you're talking 
about is to make a more useful nuclear weapon, in fact two 
different warheads.
    Mr. Longsworth. We have done this before. We have modified 
a nuclear weapon before. The B-61 Mod 7, we modified that to be 
the B-611. I think at the time this committee and the previous 
administration debated whether that was a new nuclear weapon, 
and I think that they--that that was not----
    Senator Levin. Is it a new use of an existing nuclear 
weapon?
    Mr. Longsworth. No. I would say that it is not.
    Senator Levin. If it's not a new use for an existing 
nuclear weapon, what is it? I mean, why not just be candid 
about it and say, ``sure it's a new use for an existing nuclear 
weapon.'' I don't see how we can possibly not acknowledge that 
this administration is looking into ways to make two nuclear 
weapons more useable. You can cite the things that you have, 
but it still comes down to the, it seems to me, irrefutable 
fact that we are looking at modifying weapons for use as bunker 
busters, which otherwise they would not be useable for, and in 
the case of the 5-kiloton weapon, it is a new nuclear weapon.
    I don't want to press you further than that. You can cite 
the Moscow agreement, you can cite the other things we're 
doing, but these two things run the opposite direction of our 
effort to persuade the rest of the world to rely less on 
nuclear weapons and they're held up to us as being, hey, you 
guys are doing this while you're telling us to do the opposite.
    Mr. Longsworth. I don't think they may make that case. 
Other nations may make that case. I think it would not be. I 
don't view that as a credible argument on their part, because 
we are drawing down our stockpile. I actually will also say, it 
has been determined that this is not a new nuclear weapon. I 
believe the previous administration came to the same 
conclusion, and it is intended to hold at risk targets that we 
hold at risk today.
    Senator Levin. Okay.
    Senator Reed.
    Senator Reed. Thank you very much, Senator Levin. Again, 
welcome, Mr. Longsworth. The Office of Nuclear Nonproliferation 
has built up large unspent balances in their nonproliferation 
programs, and Congress has provided this money to sort of jump 
start the activities in Russia. But it's a double-edged sword. 
As the money is unspent, some look to take those monies away 
from a very important program, and as we had a chance to 
discuss in my office, this is an area of concern. What are your 
plans to implement the congressional direction to accelerate 
these programs, get the money spent effectively, not just to 
spend it but to spend it effectively, and reduce these 
proliferation threats?
    Mr. Longsworth. First and foremost, I think we have to work 
to overcome the obstacles within Russia to utilize the funding 
that we provide. Secretary Abraham has indicated that one of 
the first things he wants me to work on is to work directly 
with my counterparts in Russia to accelerate things like 
contract approval processes, to work with them on access 
agreements vigorously, to get access to their sites. All of 
these things are kinds of barriers to conducting programs in 
Russia.
    But I do want to say one thing about uncosted balances. It 
takes about 18 months to carry out a project in Russia, for a 
whole range of reasons. The first of which is we have to have 
the money obligated, we have to obligate the money at the time 
we begin negotiating contracts. So the money becomes obligated 
on that date. Then we have to negotiate a contract, we have to 
carry out the work and before we can make payment on whatever 
the project is, we have to confirm that the work was done to 
the specification that we wanted. All of those things require 
our scientists to get access to the facilities and to go there 
and visually inspect and access has been a problem in recent 
years. We're working to fix that.
    So on average it takes about 18 months. You can do simple 
math and determine that a fiscal year is 12 months, you'll have 
about a third left over in any given fiscal year that is 
committed and it is obligated but it is not necessarily costed 
yet. I think some people have misinterpreted the high levels of 
uncosted balances as us not spending or not utilizing the funds 
that Congress authorizes and appropriates, or that we're not 
making progress in Russia but that is not true. We are making 
progress. But it does take about 18 months to conduct work in 
Russia and that will lead to a level of uncosted balances of 
roughly a third.
    Senator Reed. Thank you. We have some, as you point out, 
successful programs in Russia. One is the Initiatives for 
Proliferation Program (IPP) and that is to identify Russian 
scientists who we want their talents directed at something 
good, not something mischievous. That's working pretty well. 
We're faced now though with the closure of some major nuclear 
facilities in the weapons manufacturing program. How are we 
going to deal with those closures on a facilities-wide basis 
when you have a large number of scientists who suddenly are 
without employment?
    Mr. Longsworth. The purpose of the IPP, as you've stated, 
is to buffer the downsizing at these weapons complexes so that 
the scientists and engineers that work there don't become 
unemployed and go work for people that we don't want them to 
work for, such as rogue nations and other actors.
    There is currently a backlog of proposals in the IPP to do 
work from U.S. industry and western industry and to me that is 
an indication that the program is immensely successful, the 
fact that we have a backlog of people waiting to come into it. 
But we will continue to carry out these programs, we'll 
continue to do them in a way that focuses the IPP funding on 
the sites where we want to have the greatest impact.
    I don't think we want to address all individuals at all 
times. Our intent is to soften the downsizing, not to 
ameliorate it completely.
    Senator Reed. Let me ask a final question about the IAEA. 
It is an increasingly important organization. At present, it is 
inside Iran inspecting, and they're the only, I think, reliable 
source of inspections. What can we do to enhance its ability to 
operate, what support could we give to it? What are those 
things we have to do to make it a more effective and credible 
partner in our efforts to end proliferation?
    Mr. Longsworth. We do fund the IAEA pretty vigorously and 
in fact, in the last 2 years President Bush has dramatically 
increased the U.S. support for IAEA, and I expect that will 
continue. They really are, as you've noted, able to operate in 
countries that one nation alone could not, and frankly, if the 
IAEA fails, I think the world is a much less secure place, and 
we have a vested interest in making sure that they are 
successful. That's why we've increased funding for the IAEA.
    We provide them technical experts that actually move and 
work in their offices. Senator Warner mentioned UNMOVIC. A lot 
of those inspectors were from DOE sites that went into Iraq. So 
we support them pretty vigorously and I expect that the support 
will increase over time.
    Senator Reed. Thank you very much. Thank you, Mr. Chairman.
    Chairman Warner [presiding]. Thank you. I share your views 
on the IAEA. I think they've handled themselves with 
credibility in the events of recent.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman, I want to thank you 
for being here today. I want you to note that I'm so low in 
seniority that they put me down here at the witness table. 
[Laughter.]
    Senator Reed. If you'd like, Mark, I'll introduce you. 
[Laughter.]
    Senator Pryor. Yes, please do. My wife's not from Rhode 
Island, but----[Laughter.]
    Anyway, let me ask a few questions if I may. I want to 
focus primarily on North Korea and Iraq, in no particular 
order, but let me ask about Iraq first. There have been some 
news reports about some official or scientist in Iraq taking 
some of our people to his backyard or someone's backyard, and 
digging up some pieces or parts of a machine that could be, I 
guess, a centrifuge, I'm not quite sure. What exactly was found 
there, could you give me the low-down on that if you can?
    Mr. Longsworth. This was a scientist who worked in the 
Atomic Energy Agency in Iraq. He was a senior scientist. He had 
not only components, components which are controlled by export 
laws and other things that Iraq was not allowed to have. He had 
components of a western uranium enrichment technology. He also 
had the schematics for building and designing an enrichment 
facility.
    Senator Pryor. Let me interrupt right there. Where did he 
get this? Where did Iraq get this? Where did they get the 
machinery and the schematic?
    Mr. Longsworth. They got it illegally. It is a technology 
that is a European design and it was proliferated to Iraq.
    Senator Pryor. We're in an open session here so we need to 
be sensitive to that, but can you tell me the age of the 
machine or the parts?
    Mr. Longsworth. It's a technology that is perfectly useful. 
I would guess that device is about 20 years old, 25 years old. 
I'm sorry, not the device itself. The technology itself is 
about 25 years old.
    Senator Pryor. But is it the kind of thing that if they dug 
it out of the ground and cleaned it up and whatever, is it 
still useable?
    Mr. Longsworth. It absolutely is. But it is just one 
component of an entire system, but they did have the drawings 
on how to make it.
    Senator Pryor. Do you think they have the entire system?
    Mr. Longsworth. It's unclear. I don't think we know. I may 
not be privy to all of the information.
    Senator Pryor. Right. I know that there has been much 
discussion about President Bush mentioning the Iraqis trying to 
buy uranium from an African nation, and I don't want to drag 
you into that unless you have something you'd like to volunteer 
on that.
    Mr. Longsworth. I don't. It's an intelligence matter.
    Senator Pryor. Right. But it did raise a question in my 
mind about purchasing uranium and how easy is it for a country 
or a company or a terrorist organization or an individual to go 
out and purchase the kind of materials needed, the uranium 
needed to make a nuclear device.
    Mr. Longsworth. Uranium is a commercial commodity. It's 
sold throughout the world for nuclear fuel. It's controlled, 
but it is a commercial commodity. The way that we attempt to 
control and contain those types of materials and technologies 
from getting to countries like Iraq is by using export control 
laws, and we also work very closely with an organization called 
the Nuclear Suppliers Group, which is a group of nations that 
supply nuclear fuels and technologies. This group works very 
closely with governments to control the spread of nuclear 
technology and nuclear material to ensure that the commerce in 
natural uranium and other commodities, which by the way is not 
useful at all in nuclear weapons, you have to enrich it up to a 
very high level to be useful in a nuclear weapon. But that 
Nuclear Suppliers Group is very active and we support it very 
vigorously.
    Senator Pryor. How confident are you in the system that 
exists in the world today to control the supply of uranium?
    Mr. Longsworth. It's good. It could be better. We're always 
looking for ways to improve it. I think the thing that's 
happening is that, again, the appetite for nuclear technology 
is not decreasing, it's increasing, and that just requires us 
to continually try to stay ahead of the threat and continue to 
vigorously bolster those countries that have either maybe not 
adequate export control laws or maybe even nonexistent or that 
they don't enforce them. We need to work closer with those 
nations to make sure they know how to do it or they have the 
right laws and that they have the right enforcement mechanisms.
    Senator Pryor. How many companies or nations, how many 
entities are out there in the world today that have the ability 
to enrich uranium to the point that it could be useful in a 
nuclear device?
    Mr. Longsworth. I'm not sure I know the answer to that.
    Chairman Warner. I think that's a very important question, 
and I would suggest we want accuracy in the answer and that it 
be provided for the record. I share with you a desire to have 
that knowledge, Senator Pryor. Good question.
    Senator Pryor. Thank you.
    [The information referred to follows:]

    Nine countries currently have commercial uranium enrichment 
plants--six supplying the world market and three supplying internal 
requirements only. Commercial is used in the context of uranium 
enrichment supply for fueling civilian nuclear power reactors.
    Countries supplying the world enrichment market:


               Country                                                                            Owner

  1. France                                                                              Eurodif
  2. Germany                                                                             Urenco
  3. The Netherlands                                                                     Urenco
  4. Russian Federation                                                                  MinAtom
  5. United Kingdom                                                                      Urenco
  6. United States                                                                       USEC Inc.


    Other countries with enrichment plants serving only internal 
commercial requirements:

  7. Brazil (startup mode)
  8. China
  9. Japan



    Chairman Warner. You may continue if you want to take a few 
more minutes.
    Senator Pryor. Thank you. From the standpoint of terrorists 
obtaining a nuclear device, it seems to me that they somehow 
could get the uranium and enrich it on their own, but I would 
think it's more likely that they would be able to actually get 
the enriched uranium somewhere on the black market. Is it your 
sense that that's the more likely scenario?
    Mr. Longsworth. The IAEA has documented a number of 
attempts to acquire weapons-useable material, and I believe 
there have been other attempts as well.
    Senator Pryor. Now the two sources of that that are the 
most of concern to me would be one, the former Soviet Union, 
and I want to get your thoughts on how confident we are about 
the whereabouts of all the former Soviet Union's arsenal, and 
two, is North Korea. The reason I focus on North Korea, and I 
think it's probably conventional wisdom here on this committee 
and in the Senate, is because they are living in such a failed 
economy. It seems like one of the few things they have going 
for them is their arms programs.
    But it seems that those two, the former Soviet Union and 
North Korea, seem to be the two primary sources. Now would you 
agree with that, or are there other sources that you're 
concerned about?
    Mr. Longsworth. When you're referring to nuclear material, 
weapons-useable nuclear material, I would describe Russia as 
the Fort Knox of nuclear material. They have vast quantities at 
dispersed locations.
    Senator Pryor. Now, when you say the Fort Knox do you feel 
like they're as secure as Fort Knox is?
    Mr. Longsworth. No, I don't. But let me say this is an 
interesting point. A terrorist doesn't necessarily want to 
break into Fort Knox to get to a facility that may have large 
quantities of material. The most attractive facility is the 
country bank or the bank out in the suburbs that maybe doesn't 
have as much material in it but is perhaps more vulnerable.
    So the weakest link is where we intend to focus our efforts 
first. The first priority is to go to those facilities that are 
forgotten, maybe don't have a mission, don't have an ability to 
generate revenue, to pay their employees, but have quantities, 
maybe not the large quantities that are present in Russia's 
serial production enterprises, but have enough that would be 
useful for a terrorist. Those are the kinds of facilities that 
we have focused on first.
    Senator Pryor. Now you mentioned----
    Chairman Warner. Senator, could I interject?
    Senator Pryor. Sure.
    Chairman Warner. It's such an important colloquy that I 
think that you'd be well advised to, on a technical standpoint, 
broaden the category because it's not necessarily the 
thermonuclear explosion--we all know that--but we now have the 
dirty bomb category which is the dispersal of this material in 
such a manner that the effects from the radiation cause severe 
damage to human existence. Am I not correct on that?
    Mr. Longsworth. Yes, sir.
    Chairman Warner. So I think as you're in this colloquy, 
it's the securing of this material for use antithetical to life 
and limb that isn't in the category of an actual thermonuclear 
explosion, but is in a dispersal pattern such that the dirty 
bomb might cause. So I want you to continue, but let's broaden 
the category from a technical standpoint.
    Senator Pryor. Thank you, Mr. Chairman, I do agree with 
that, and so I would like to broaden that if possible. You 
mentioned Russia. Now when you say Russia do you mean all the 
former Soviet states, or are you talking about just the Nation 
of Russia?
    Mr. Longsworth. I was referring just to Russia, but there 
are materials that we are working to address in the former 
Soviet states.
    Senator Pryor. What about the old eastern bloc countries. 
Do they have stockpiles?
    Mr. Longsworth. They do not have nuclear stockpiles. There 
are materials in those countries that would be attractive to 
terrorists, yes, and some of it is in the form of reactor fuel, 
highly enriched reactor fuel, and some of it is just in spent 
fuel and in other forms.
    Senator Pryor. Mr. Chairman, that's all I have.
    Chairman Warner. That was an excellent line of questioning. 
I thank you.
    Senator Levin, do you have further questions?
    Senator Levin. Actually it's along the same line. The NNSA 
has asked for legislation to allow for the expansion of 
materials protection beyond the former Soviet Union. What are 
the plans for that expansion, do you know?
    Mr. Longsworth. We are trying to address the evolving 
threats and that means moving outside of the former Soviet 
Union itself. We believe we have the authority to do this. I 
think what we asked for was clarification that we could do 
this.
    Senator Levin. What specific plans do you have to do it, 
assuming you have the authority, which we hope you have or will 
be given?
    Mr. Longsworth. We have an action plan, I guess I would 
call it a program plan in place and ready to execute in those 
countries.
    Senator Levin. How many are there, do you know?
    Mr. Longsworth. A dozen. I will say that's the first tier. 
There are about a dozen countries initially.
    Senator Levin. The NNSA's Second Line of Defense Program is 
a very effective program working primarily with Russia to 
improve border security to prevent nuclear materials from 
crossing into or out of Russia. The Department of Defense has 
started a program that will be similar to the NNSA program, 
which is designed to work with the states of the former Soviet 
Union other than Russia.
    It's important that the programs, plus a variety of other 
U.S. Government programs, be coordinated. How will you work to 
ensure that full coordination of those programs?
    Mr. Longsworth. We are doing that now. We're actually 
working with the Threat Reduction Office of the Department of 
Defense to support them. Most of the technology frankly that 
they use in their sensors, and frankly the technology that the 
State Department used when it initially put up sensors 
immediately after the fall of the Soviet Union, most of those 
technologies came from DOE facilities. So we continue to be the 
technology provider and the provider of expertise, so that 
interaction is going on right now.
    Senator Levin. We had a discussion before about the earth 
penetrator and you said it's not a new weapon, and I agreed, 
but it's a new use of an old weapon, so we went through that. 
Now let's talk about the 5-kiloton prohibition. That clearly is 
a new weapon and if we remove that prohibition on the 
development of a 5-kiloton weapon that is the development of a 
new nuclear weapon. Doesn't that undermine our argument in the 
world of, hey, don't move down that path?
    Mr. Longsworth. I don't think it does. One thing that I 
think is inherent in our programs is we have not proposed to 
design or build anything. We're simply doing studies, and I 
would note that the things that we're looking at are only one 
element in a spectrum of options that DOD is looking at to hold 
those targets at risk. I think it would be very premature to 
assume that there is any foregone conclusion that we are going 
to move beyond this feasibility study. This is a study to 
determine if it can be done.
    Senator Levin. The only purpose for this study is because 
we may want to do it.
    Mr. Longsworth. I think it's to ensure that we are able to 
respond quickly as rogue nations and other countries begin to 
go deeper and deeper.
    Senator Levin. I'm not talking about the earth penetrator. 
I'm talking about the 5-kiloton prohibition.
    Mr. Longsworth. They are related. The repeal of the Spratt-
Furse provision I think is what you're referring to, the 1993 
provision. It is overly restrictive in the sense that many of 
our attorneys believed that it would prohibit us from doing 
assessments, it would have prohibited our lab scientists from 
even thinking about doing additional thinking about what might 
be possible.
    Senator Levin. So you wouldn't mind the prohibition staying 
for the development, providing we don't try to get into 
someone's grey matter?
    Mr. Longsworth. I think that even that is not needed. We 
would have to come to Congress to request funds. It would 
prejudge whether we were going to go to a Phase 6.3 in the 
Joint Nuclear Weapons Life Cycle Process. I think it's 
unnecessary.
    Senator Levin. What about the Nonproliferation Treaty? 
North Korea pulled out of that treaty--they gave notice that 
they were going to pull out of it. Do we have any problems with 
countries giving notice under a treaty and pulling out of it? 
We did the same thing with the ABM Treaty. We gave notice and 
pulled out of it. How do we argue that North Korea shouldn't 
use a provision of the treaty to give notice and pull out of 
it?
    Mr. Longsworth. The Nonproliferation Treaty is, I think, 
different than the ABM Treaty.
    Senator Levin. Not the withdrawal part of it. I'm just 
talking about the withdrawal part. There is a provision in the 
Nonproliferation Treaty, is there not, to give notice and 
withdraw?
    Mr. Longsworth. Yes, sir.
    Senator Levin. If that's part of the treaty, why shouldn't 
countries exercise that?
    Mr. Longsworth. I think the Nuclear Nonproliferation Treaty 
(NPT) is a different type of treaty. It underpins all, I think, 
civilized nations' attempts to halt the spread of nuclear 
weapons. I don't see the comparison between that and the ABM 
Treaty, which was really driven by the Cold War and the 
structures of the Cold War.
    Senator Levin. What about the Comprehensive Test Ban 
Treaty? Would that underpin----
    Mr. Longsworth. President Bush has issued a continuation of 
the moratorium on testing, and we have no intent to breach 
that.
    Senator Levin. Or to ratify it.
    Mr. Longsworth. As the members of this committee may 
remember, we spent a lot of time debating that, and there were 
flaws with that treaty. Maybe we can go through those again, 
but that treaty itself was flawed, and like the ABM Treaty, one 
of the key flaws was that it was a permanent treaty, and it 
would prejudge what the world would look like in two, three, or 
four decades from now.
    Senator Levin. We wish you all the best. We do. You're 
well-qualified for the position, and your work on this 
committee hopefully gave you some of the tools that you're 
going to need.
    Mr. Longsworth. Yes, sir. Let me just say I appreciate the 
debate and the discussion on these nuclear programs. Obviously 
we wouldn't be having a debate if there weren't legitimate 
arguments on each side.
    Senator Levin. Thank you.
    Mr. Longsworth. I think the primary focus of the Office of 
Defense Nuclear Nonproliferation is to, in a tactile way, 
address the threat, and that is material security, that's 
keeping scientists from working for rogue nations, and 
controlling technology. That is what I've dedicated myself to 
do.
    Chairman Warner. You had a good hearing this morning, and 
you've been very responsive to the questions. I just close by 
joining Senator Levin in the pride in the members of this 
committee, but perhaps even the greater pride among the 
professional staff of this committee.
    This committee has been privileged to have one of the 
finest professional staffs throughout the many years that I've 
been on the committee with my colleague here, under great 
chairmen, through these years. It has attracted the finest and 
we're so proud when they move on to accept other challenges of 
responsibility because life on the committee staff of the Armed 
Services Committee is not a bed of roses. They all know that. I 
hear some coughs in the background, so I think I better close 
the hearing right now. [Laughter.]
    Mr. Longsworth. Thank you, Senator.
    [Whereupon, at 11:42 a.m., the committee adjourned.]

    [Prepared questions submitted to Thomas W. O'Connell by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    Do you support full implementation of these defense reforms?
    Answer. I support full implementation of Goldwater-Nichols and the 
subsequent special operations reforms. Those important reforms have had 
impressive success in the years since they were enacted. I believe the 
increase in readiness levels and the attendant demonstrations of true 
joint warfighting capabilities of our Armed Forces validate the wisdom 
of the Defense Reorganization Act of 1986.
    Question. What is your view of the extent to which these defense 
reforms have been implemented?
    Answer. These reforms have fundamentally changed the way the 
Department of Defense works by strengthening the role of the Chairman 
of the Joint Chiefs of Staff and the combatant commanders, and 
significantly improving the ability of the Department to carry out its 
fundamental mission--protecting America's security and furthering its 
vital interests. It has made the chain of command clearer, focused 
clear lines of responsibility and commensurate authority on the 
combatant commanders and provided more effective civilian control of 
the military, thus making our Armed Forces more effective. It has 
helped us greatly improve the interaction among each of the Services in 
conducting military operations--fully joint operations are now the 
norm.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. In my view, the unambiguous responsibility and authority 
assigned to combatant commanders for mission accomplishment and the 
increased attention to strategy formulation and contingency planning 
are the most important aspects. Further, the act promotes jointness in 
our military forces. Our ability to integrate forces into joint 
operations provides another exponential increase in military 
effectiveness.
    ``Jointness'' is no longer a buzz word. It is the driving force of 
daily military operations. I remember the results of the Holloway and 
Long Commissions that contributed heavily to the creation of this 
important reform legislation. I believe that the central findings of 
both reports are embodied in the Goldwater-Nichols Act and subsequent 
implementation.
    Question. The goals of Congress in enacting these defense reforms, 
as reflected in section 3 of the Goldwater-Nichols Department of 
Defense Reorganization Act, can be summarized as strengthening civilian 
control over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes, absolutely. If fortunate enough to be confirmed, I 
will work to continue implementation.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. I am not aware of any pending legislation relative to 
amendments to Goldwater-Nichols. The Secretary of Defense is leading 
the transformation of the Department to improve our national defense. 
As part of that effort, the U.S. military is pursuing a host of 
transformations. Questions of responsibility, authority, and 
organization are matters of specific interest and continuous review. If 
any of these reviews recommend refinements to Goldwater-Nichols, the 
Department will certainly consult closely with Congress, and especially 
this committee. As SO/LIC and SOCOM continue to evolve and assess 
lessons from our most recent conflicts and the global war on terrorism, 
it may be necessary to review relationships. If confirmed, I would 
review and assess new proposals, and will consult closely with 
Congress.

                             RELATIONSHIPS

    Question. If confirmed, what will be your relationship with:
    The Secretary of Defense
    The Deputy Secretary of Defense
    The Under Secretary of Defense for Policy
    The Assistant Secretary of Defense for International Security 
Affairs
    The Assistant Secretary of Defense for International Security 
Policy
    The Assistant Secretary of Defense for Homeland Defense
    The Joint Chiefs of Staff
    Commander, United States Special Operations Command
    Commander, United States Joint Forces Command
    The regional combatant commanders
    The commanders of the service Special Operations Commands
    Officials in the Department of Homeland Security with intelligence 
and counter-terrorism responsibilities?
    Answer. If confirmed, I will report to the Secretary of Defense and 
Deputy Secretary of Defense through the Under Secretary of Defense for 
Policy. I expect to maintain a close working relationship with the 
other Assistant Secretaries in the Office of the Under Secretary for 
Policy, the offices of the Under Secretaries for Acquisition, 
Technology and Logistics, Personnel and Readiness, Comptroller, and 
Intelligence, the Chairman, Vice Chairman and the Director of the Joint 
Chiefs of Staff, and with combatant commanders, especially the 
Commander of the U.S. Special Operations Command and its component 
commands. I will also, if confirmed, work closely with the National 
Security Council Staff and with officials in the Departments of State, 
Justice, Homeland Security, the Intelligence Community, and other 
agencies and departments.

                                 DUTIES

    Question. Section 138(b)(4) of Title 10, United States Code, 
describes the duties and roles of the Assistant Secretary of Defense 
for Special Operations and Low Intensity Conflict ASD (SO/LIC).
    What is your understanding of the duties and functions of the ASD 
(SO/LIC)?
    Answer. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict has oversight of special operations and low 
intensity conflict activities. Those activities include direct action, 
strategic reconnaissance, unconventional warfare, foreign internal 
defense, civil affairs, psychological operations, peace operations, 
post-conflict reconstruction, detainee policy, counterterrorism, 
humanitarian assistance, theater search and rescue, domestic and 
international counterdrug efforts and such other activities specified 
by the President and Secretary of Defense. ASD (SO/LIC) is the 
principal civilian advisor to the Secretary of Defense on special 
operations and low intensity conflict matters. After the Secretary and 
Deputy Secretary of Defense, ASD (SO/LIC) is the principal special 
operations and low intensity conflict official within senior management 
of the Department of Defense.
    Question. Assuming you are confirmed, what changes, if any, in the 
duties and functions of ASD (SO/LIC) do you expect that the Secretary 
of Defense would prescribe for you?
    Answer. At this time, I do not see the duties and functions of ASD 
(SO/LIC) changing from those prescribed in law and current directives.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I completed 27 years of military service as an infantry and 
intelligence officer, holding positions of significant responsibility 
in the special operations community. I participated in Vietnam, 
Grenada, Panama, and the Persian Gulf War. In an assignment as an 
exchange officer in the British Army, I observed how our close ally 
operates. I have extensive joint and combined service that includes 
planning and execution of clandestine special operations activities. I 
commanded at the battalion and brigade level, and served at CIA for 3 
years. For the past 7 years, I have held management positions in the 
civilian defense industry.
    Question. In your view, are the duties set forth in section 
138(b)(4) of Title 10, United States Code, up to date, or should 
changes be considered?
    Answer. Section 138(b)(4) of Title 10 United States Code cites the 
ASD (SO/LIC)'s principal duty as the overall supervision (including 
oversight of policy and resources) of special operations activities (as 
defined in section 167(j) of Title 10) and low intensity conflict 
activities of the Department of Defense. At this time, I do not see the 
need for statutory changes to the functions of ASD (SO/LIC), although I 
look forward to making a more formal assessment.
    Question. What changes, if any, would you recommend?
    Answer. Again, I believe it is too soon for me to recommend changes 
to existing law. If confirmed, my daily execution of duties under 
section 138(b)(4) of Title 10 would, over time, perhaps provide me with 
sufficient expertise to consider changes.
    Question. What Department of Defense activities are currently 
encompassed by the Department's definition of special operations and 
low intensity conflict?
    Answer. Special operations and low intensity conflict activities 
include direct action, strategic reconnaissance, unconventional 
warfare, foreign internal defense, counterinsurgency, contingency 
operations, civil affairs, psychological operations, peace operations, 
post-conflict reconstruction, detainee policy, counterterrorism in the 
United States and abroad, humanitarian assistance, theater search and 
rescue, domestic and international counterdrug efforts, and such other 
activities specified by the President and Secretary of Defense.
    Question. If confirmed, would you exercise overall supervision of 
all special operations and low intensity conflict activities of the 
Department of Defense?
    Answer. Yes.
    Question. In cases in which other assistant secretaries within the 
Office of the Secretary of Defense exercise supervision over some 
special operations and low intensity conflict activities, what is the 
relationship between your office and those other offices?
    Answer. I am not aware of other assistant secretaries who exercise 
supervision over special operations and low intensity conflict 
activities. I believe Title 10, Section 138(b)(4) is clear. If an 
activity pertains to special operations and low intensity conflict, 
then ASD (SO/LIC) supervises and provides policy and oversight, and is 
the principal advisor to the Secretary of Defense on these matters. 
After the Secretary and Deputy Secretary of Defense and under the Under 
Secretary of Defense for Policy, ASD (SO/LIC) is the principal official 
within senior management of the Department of Defense responsible for 
special operations and low intensity conflict. I recognize the need to 
work closely with the regional and other functional offices in the 
Office of the Secretary of Defense.

                          SO/LIC ORGANIZATION

    Question. The position of Assistant Secretary of Defense for 
Special Operations and Low Intensity Conflict has been vacant for over 
2 years.
    What changes, if any, have taken place during this time in the SO/
LIC organization and in the responsibilities of the ASD (SO/LIC)?
    Answer. I understand that there have been three major changes in 
the responsibilities of the ASD (SO/LIC): addition of policy oversight 
and guidance for the global war on terrorism; addition of policy 
oversight and guidance for detainee activities in the aftermath of 
operations in Afghanistan and the global war on terrorism; and 
divestiture of domestic consequence management, installation 
preparedness and homeland defense activities to the office of the ASD 
for Homeland Defense.
    Question. If confirmed, how would you fulfill your responsibilities 
related to counternarcotics?
    If confirmed, how would you fulfill your responsibilities related 
to combating terrorism?
    If confirmed, how would you fulfill your responsibilities related 
to peacekeeping and humanitarian assistance?
    Answer. If confirmed, I will assume oversight and management of the 
varied and complex portfolios in SO/LIC through oversight of the Deputy 
Assistant Secretaries for Counternarcotics, Special Operations and 
Combating Terrorism, and Stability Operations.
    Question. How would you coordinate these responsibilities with the 
ASD for Homeland Defense, who has responsibilities for combating 
terrorism in the United States?
    Answer. A very close relationship between SO/LIC and Homeland 
Defense is already developing. If confirmed, I expect to maintain that 
relationship with the Assistant Secretary of Defense for Homeland 
Defense as he enhances the Department's integration into the Nation's 
homeland security efforts. He will have a number of responsibilities 
for combating terrorism in the United States; SO/LIC retains lead 
responsibility for special operations, including all contingencies in 
which SOF might be employed. In fact, I had a very useful meeting with 
Assistant Secretary Paul McHale to discuss his new responsibilities and 
his interaction with SO/LIC. I believe he is off to a great start, and 
I noted that SO/LIC provided some exceptional personnel to his staff.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the ASD (SO/LIC)?
    Assuming you are confirmed, what plans do you have for addressing 
these challenges?
    What do you anticipate will be the most serious problems in the 
performance of the functions of the ASD (SO/LIC)?
    If confirmed, what management action and timelines would you 
establish to address these problems?
    Answer. If confirmed, the primary challenge that I will face as the 
ASD (SO/LIC) is the successful prosecution of the global war on 
terrorism. SOF are at the forefront of the war, and SO/LIC will be 
crucial to ensuring that they are ultimately successful. I realize the 
magnitude of this task, and that it is much easier said than done. 
However, I believe my past experience on active duty within the SOF 
community has prepared me for this task. A critical component of this 
effort will be close and continual coordination with the Under 
Secretary for Intelligence, the CIA and other major participants. I 
believe it would be prudent to withhold judgment on specific management 
action and timelines until, if confirmed, I have the opportunity to 
function as the ASD (SO/LIC) for a period of time.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the ASD (SO/LIC)?
    Answer. If confirmed, I believe there are three general areas or 
issues that require special attention and commitment on my part. These 
areas are not comprehensive or exclusive of each other or other issues 
not specifically mentioned, but are a snapshot of the broad priorities 
as I see them.
    The first is perhaps the most obvious and of immediate importance: 
continued execution of the global war on terrorism. As we have 
discussed earlier, SOF's unique capability to meet the complex new 
challenges of this war has increased their importance as a primary tool 
in the Nation's defense--as opposed to merely a tool for leveraging 
conventional forces or for smaller, specialized missions. Perhaps the 
most important manifestation of this change is in the designation of 
USSOCOM to be the supported (or ``lead'') command in the war on 
terrorism (whereas before it generally had assumed only a supporting 
role for the regional combatant commands).
    The second is transformation of SOF. We must continue to transform 
SOF to better position them to confront and defeat the threats of the 
21st century, especially in the global war on terrorism. The 
President's budget request contains a number of significant, 
transformational efforts.
    The third is continued development and execution of the concept of 
stability operations. As in Afghanistan and Iraq, we have seen that the 
transition of the theater from one of military action, to one of 
stabilization and low-intensity conflict, and then eventually on to 
local civilian control, is difficult and benefits from the specific 
skills and capabilities of SOF, especially Civil Affairs and 
Psychological Operations Forces.

                             TRANSFORMATION

    Question. Secretary Rumsfeld has established transformation of the 
Armed Forces to meet 21st century threats as one of his highest 
priorities.
    What is the role of Special Operations Forces in the overall 
transformation vision?
    Answer. As I understand it, the Department of Defense has begun a 
significant ``retooling'' of USSOCOM to enable the command to lead the 
war against terrorism in an even more effective manner. Perhaps the 
most profound change is a shift in policy by the Department that 
USSOCOM will no longer serve primarily as a supporting command, but 
rather will plan and execute key missions as a supported combatant 
command. USSOCOM is expanding to plan combat missions directly against 
terrorist organizations around the world and execute those missions as 
the supported Command, while maintaining the role of force provider and 
supporter to the geographic combatant commanders. Additionally, the 
assignment of this transformational responsibility to Joint Forces 
Command will help SOCOM navigate this increasingly complex environment. 
If confirmed, I look forward to working closely with both Admiral 
Giambastiani and the Department's Director for Force Transformation, 
Vice Admiral (ret) Cebrowski, to further transformation efforts.
    Question. Specifically, what do you believe transformation should 
mean for the special operations community in terms of missions, 
training, equipment, or in any other aspect?
    Answer. Transformation is an approach to produce advances in the 
individual, the organization, and in technology to build the right 
capability at the right time to defeat any threat.
    USSOCOM is transforming SOF capabilities to meet the formidable 
challenges associated with waging war against terrorist cells scattered 
across the globe. The command is transforming by building the 
capability to maintain sustained operations in areas where terrorist 
networks are operating. It is investing in critical ``low-density/high-
demand'' aviation assets that provide SOF with the mobility necessary 
to deploy quickly and to execute their missions quickly. It is 
investing in key command, control, and communications to support the 
war on terrorism more effectively. The command has added personnel to 
better sustain worldwide deployments and 24-hour-a-day operations. In 
conjunction with these expanding roles, USSOCOM will also look to move 
certain ongoing collateral activities not requiring unique SOF 
capabilities to general purpose forces in order to free up special 
operators for their primary mission--to wage war against terrorists.
    Question. What, if any, special role can SOCOM's development and 
acquisition capability play in Service and DOD efforts?
    Answer. USSOCOM's unique acquisition authority among combatant 
commanders has allowed the command consistently to accelerate emerging 
technologies into deployable SOF systems. These technologies routinely 
find their way to conventional forces as the military departments and 
other Government agencies integrate SOF-developed products into their 
equipment arsenals. The Department's increased investment in science 
and technology initiatives will continue that trend.

   CIVILIAN OVERSIGHT OF THE UNITED STATES SPECIAL OPERATIONS COMMAND

    Question. The 1986 Special Operations legislation assigned 
extraordinary authority to the Commander, United States Special 
Operations Command, to conduct some of the functions of both a military 
service and a unified combat command.
    Which civilian officials in the Department of Defense exercise 
civilian oversight of the ``service-like'' authorities of the 
Commander, United States Special Operations Command?
    Answer. ASD (SO/LIC), reporting through the Under Secretary of 
Defense for Policy, is the principal civilian official, below the 
Secretary and Deputy Secretary of Defense, that exercises civilian 
oversight of the ``Service-like'' authorities of the command. Federal 
law assigns ASD (SO/LIC) the responsibility for providing overall 
supervision (including oversight of policy and resources) of special 
operations and low-intensity conflict activities of the Department of 
Defense. Although the ASD (SO/LIC) is the primary overseer of special 
operations and low-intensity conflict activities, we work closely with 
regional and other functional offices. Under this arrangement, the ASD 
(SO/LIC) coordinates with regional and functional offices, and executes 
full oversight of USSOCOM. I fully understand this arrangement and plan 
to work closely with the regional and other functional offices as well 
as the Commander, USSOCOM, to ensure that oversight of the command is 
efficient and effective.
    Question. What organizational relationship should exist between the 
ASD (SO/LIC) and the Commander, United States Special Operations 
Command?
    Answer. I believe the organizational relationship between 
Commander, USSOCOM, and the ASD (SO/LIC) is a complex one because of 
the unique authority and responsibilities granted USSOCOM on 
administrative and resource matters. In my view, the organizational 
relationship should be a close partnership. Today numerous aspects of 
SO/LIC and USSOCOM are closely intertwined, ranging from the Technical 
Support Working Group (TSWG) program to collaborative studies on SOF 
forward presence and transformation. I intend to continue to foster 
this relationship between the two organizations. Through our 
cooperative efforts, I believe we can continue to be effective in 
wisely allocating the limited resources entrusted to the command.
    Question. What should be the role of the ASD (SO/LIC) in 
preparation and review of Major Force Program 11 and the Command's 
Program Objective Memorandum?
    Answer. The ASD (SO/LIC) provides overall supervision of the 
preparation and justification of Special Operations Forces programs and 
budget. Past Assistant Secretaries for SO/LIC have served, along with 
Commander, USSOCOM, as co-chair of the Command's Board of Directors, as 
does the current PDASD (SO/LIC), Marshall Billingslea. In this manner, 
the ASD (SO/LIC) and the commander participate in every budgetary and 
programmatic decision involving Special Operations Forces. 
Representatives from SO/LIC regularly spend a significant amount of 
time at USSOCOM headquarters in a joint effort to develop the SOF 
program. This joint effort produces a program that stresses force 
readiness and sustainability, provides sufficient force structure to 
meet the demands of the geographic warfighting commanders and 
Commander, USSOCOM, in his role as a supported commander. This effort 
also seeks technology programs to ensure SOF capability remains at the 
cutting edge of technology. If confirmed, I will work closely with the 
Commander, USSOCOM, to ensure that the annual funding can effectively 
maintain a ready force to meet the challenges of the new security 
environment while simultaneously replacing aging and obsolete equipment 
with systems that will meet the threat well into the next decade.
    Question. What is the appropriate role of the ASD (SO/LIC) in the 
research and development and procurement functions of the Special 
Operations Command?
    Answer. The appropriate role of ASD (SO/LIC) in the acquisition 
functions of the Special Operations Command is to advise and assist 
Commander, USSOCOM, in resolving acquisition issues. As the lead OSD 
official for SOF acquisition matters for the Under Secretary of Defense 
for Acquisition, Technology and Logistics, ASD (SO/LIC) represents SOF 
interests within DOD and before Congress. The responsibilities and 
relationships between ASD (SO/LIC) and Commander, USSOCOM, are clearly 
defined and described in a joint Memorandum of Agreement (MOA) that 
addresses acquisition oversight, including recommendations, advice, and 
assistance provided to program managers and senior decision makers. SO/
LIC representatives participate in working groups, integrated product/
process teams, boards, and committees to address issues, make 
recommendations, and approve programs.
    In addition, the ASD (SO/LIC) has considerable responsibility to 
direct technology development programs that address several mission 
areas in support of other departmental, interagency, and international 
requirements as well as SOF. For example, the ASD (SO/LIC) exercises 
management and technical oversight of the Combating Terrorism 
Technology Support program. The Combating Terrorism Technology Support 
program conducts rapid prototyping to meet requirements of the 
Technical Support Working Group. The Special Operations Command is an 
active participant and chairs the Tactical Operations subgroup.
    Question. What is the appropriate role of the ASD (SO/LIC) in the 
operational planning of missions that involve Special Operations 
Forces, whether the supported command is SOCOM or a geographic command?
    Answer. According to section 138(b)(4) of Title 10, United States 
Code, the ASD (SO/LIC) shall have as his principal duty the overall 
supervision (including oversight of policy and resources) of special 
operations activities (as defined in section 167(j) of Title 10) and 
low intensity conflict activities of the Department of Defense. The 
Assistant Secretary is the principal civilian advisor to the Secretary 
of Defense on special operations and low intensity conflict matters and 
(after the Secretary and Deputy Secretary) is the principal special 
operations and low intensity conflict official within the senior 
management of the Department of Defense.

                 EXPANDED ROLES OF UNITED STATES SOCOM

    Question. The Secretary of Defense recently announced that USSOCOM 
would take on additional, expanded responsibilities in the global war 
on terrorism, as a supported combatant commander, in addition to its 
more traditional role as a supporting combatant commander.
    What role will ASD (SO/LIC) play in the oversight and planning of 
such missions?
    In your view, what types of missions should SOCOM conduct as a 
supported combatant commander?
    What role will ASD (SO/LIC) play in preparing SOCOM for its new 
role?
    Answer. The change from supporting to supported command is a 
fundamental change in many aspects of the mission of USSOCOM. The 
oversight, planning and policy role for ASD (SO/LIC) is especially 
important in that change. The role of SO/LIC and its relationship to 
the command in that process will remain largely unchanged. If confirmed 
as ASD (SO/LIC), I will continue to provide advocacy and oversight for 
the command as it develops the capabilities required to implement these 
fundamental changes. What is different, however, is the magnitude of 
the changes and immediate implications for our national security.
    The changes in the relationships among the relevant commands that 
will, in some cases, switch from supported to supporting and vice 
versa, is likely to require some specific policy changes and 
guidelines. Additionally, changes within USSOCOM will have to be 
pursued as well, simply because of the nature of the new 
responsibilities. As ASD (SO/LIC), I will continue the process of 
working with SOCOM to evolve its capabilities to meet the 
responsibilities it has been assigned by the Secretary. Much has been 
accomplished in the past 2 years, but there is much more to be done.

                      SPECIAL OPERATIONS MISSIONS

    Question. When announcing additional responsibilities for SOCOM, 
Secretary Rumsfeld indicated that SOCOM may divest itself of some 
traditional missions, such as foreign military training, that can be 
conducted by conventional forces.
    What current missions, if any, do you believe can and should be 
divested by SOCOM, and why?
    Answer. USSOCOM missions and tasks must evolve to meet the future 
needs in light of their expanding role in the war on terrorism. 
USSOCOM's new role as a supported combatant commander for the war on 
terrorism, including both planning and execution, drives a refocusing 
of their primary responsibilities and the constraints under which SOF 
are employed. The Department and USSOCOM are conducting a review of the 
SOF principal missions and collateral activities to identify those 
missions and activities that do not require the special skill sets 
inherent to SOF and could be transitioned to or shared with general 
purpose forces.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, why?
    Answer. USSOCOM is expanding its role in the war on terrorism. 
USSOCOM requirements to plan, synchronize, and execute operations on a 
global scale necessitate a more globally capable SOF through the use of 
full spectrum integrated SOF. USSOCOM is expanding to directly planning 
combat missions against terrorist organizations around the world and 
executing those missions as the supported Command, while maintaining 
the role of force provider and supporter to the geographic combatant 
commanders. To meet this challenge, USSOCOM is establishing command and 
control infrastructures that augment the geographic combatant 
commanders and investing in programs and systems to improve SOF's 
speed, precision, lethality, stealth, survivability, and 
sustainability.

                      FUTURE OF SPECIAL OPERATIONS

    Question. Many believe that the principal threats of the 21st 
century will be asymmetric, unconventional ones, often emanating from 
non-state actors.
    Since asymmetric, unconventional threats must now be confronted by 
our conventional forces, what is the future role of special operations? 
What special threats must SOCOM be focused on for the future?
    Answer. As we increasingly face unconventional enemies, we will 
have to continue to adapt to meet these threats. This is the very type 
of threat that SOF has for decades been geared to confront, and 
continues to confront on a daily basis in the war on terrorism.
    SOF were called upon to lead Operation Enduring Freedom. In 
Afghanistan, that effort was waged by less than 500 SOF personnel. They 
mounted an interagency and combined unconventional warfare effort, tied 
closely to indigenous forces and linked with the United States Air 
Force, in a way that provided for a rapid defeat of the Taliban's 
conventional forces. The operation in Afghanistan was prosecuted by 
small units that operated with autonomy in a highly fluid environment. 
It was won by people who could meld with friendly Afghan forces, able 
to:

        <bullet> operate without a safety net;
        <bullet> develop such a rapport that they could trust their 
        security to their Afghan allies;
        <bullet> live without a huge logistics train to provide 
        equipment and supplies;
        <bullet> distinguish between combatants and non-combatants in 
        an environment where civilians and fighters, Taliban and non-
        Taliban, and ex-Taliban, were found together; and
        <bullet> engineer combined arms operations between U.S. B-52s 
        and the Northern Alliance's Soviet era tanks.

    The SOF operator is distinguished from other military personnel by 
specific skills, extensive overseas experience, ability to work closely 
with indigenous forces and to train them, ability to blend into the 
fabric of the society in which he operates, independence and maturity, 
and an unparalleled degree of training. These Americans truly are one 
of a kind--each one. That is why there are so few of them. They are one 
of this Nation's most scarce and precious resources, and they should 
always be employed with careful consideration.

                            LESSONS LEARNED

    Question. In your view, what have been the most significant lessons 
learned by Special Operations Forces in recent military operations, and 
what are the future operational, research and development, and 
procurement implications of these lessons?
    Answer. I understand that a formal military ``lessons learned'' 
process for both Afghanistan and Iraq is being conducted by the Joint 
Staff and will go through Joint Forces Command. That process is not yet 
complete. From that process and those findings, SO/LIC will develop 
policy advice and guidance to facilitate or enable new operational 
constructs for current and future conflicts.
    In addition to that formal process, we learned a great deal about 
the importance of SOF and the best use of their specialized skills. In 
both Iraq and Afghanistan, SOF demonstrated its utility as both a 
component of a larger joint and combined force and as a stand-alone 
force. In particular, SOF's unique expertise in unconventional warfare 
proved invaluable in Afghanistan and in northern Iraq in bringing local 
forces to bear against the enemy. As I mentioned earlier, that 
capability was able to leverage the nationwide situation to our 
decisive advantage with fewer than 500 U.S. personnel. In both 
Operation Enduring Freedom and Operation Iraqi Freedom, SOF again 
demonstrated flexibility, innovation on the fly, improved methods to 
enhance the effectiveness of extremely sophisticated, long-range 
weapons--all with a very small footprint. These types of experiences 
and lessons are what have made SOF into a critical incubator or tester 
for methods, techniques and equipment that will make its way into 
conventional use and enhance combat effectiveness across the Services. 
The most important investment we make in Special Operations Forces is 
in the people who comprise SOF--our soldiers, sailors, airmen, marines, 
and civilians.

                   SIZE OF SPECIAL OPERATIONS FORCES

    Question. The recent successes of Special Operations Forces in 
Afghanistan and Iraq have led many to advocate a significant increase 
in the size of Special Operations Forces.
    Do you believe that we should increase the number of Special 
Operations personnel?
    Answer. Yes. The Department of Defense directed the USSOCOM to 
assume an expanded role in the war on terrorism, which necessitates an 
increase in personnel in specific areas. The President's budget for 
fiscal year 2004 supported an increase of 2,563 personnel that 
increases the total end strength in fiscal year 2004 to 49,848 
personnel. Over the next 5 years, the Department's recognition that 
there was a need for more SOF and the Services' cross-walking personnel 
will grow the force by almost 4,000. This growth primarily supports the 
manning requirements to wage the global war on terrorism. The increases 
focus on fixed and rotary-wing aviation, SEAL Teams, Civil Affairs, 
Psychological Operations, Theater Special Operations Commands, and 
support to USSOCOM as the supported combatant commander in the war on 
terrorism.
    Question. In your view, can the size of Special Operations Forces 
be increased significantly if the rigorous admissions standards for 
these organizations are to be maintained?
    Answer. People are the most important component of SOF capability. 
The SOF operator is one of a kind and cannot be mass-produced. USSOCOM 
continues to work with the Services to improve recruiting, retention 
and inventory levels of Special Operations Forces. Special Operations 
personnel levels remain strong, but new and innovative means must be 
found to sustain and grow current projected inventories. World events 
significantly increased public awareness of what Special Operations is 
all about, consequently raising interest in joining.
    Recruiting, training, and retaining SOF will not be without 
challenges. Several initiatives were implemented over the past year to 
improve the effectiveness of these efforts. Analysis to date indicates 
that the command will have the right numbers to sustain the forces the 
Nation needs. Training instructors and the number of training slots 
available have increased for Army Special Forces, Civil Affairs, and 
Psychological Operations. A recruiting initiative was launched in which 
new Army recruits can sign up for Special Forces directly, rather than 
awaiting selection from a conventional unit. This is an option that has 
not been possible since 1988. In addition, special pay and bonuses were 
implemented to improve retention in highly specialized areas and units.

                               SOCOM/USMC

    Question. In November 2001, the Commandant of the Marine Corps and 
Commander, USSOCOM, signed a memorandum of agreement aimed at 
increasing Marine Corps support and cooperation with SOCOM.
    What do you believe should be the appropriate relationship between 
the Marine Corps and SOCOM?
    Answer. I believe that the relationship between the Marine Corps 
and SOF continues to evolve in a very healthy direction. As you noted, 
for the first time in history, the command and the Marine Corps have 
established a construct for joint warfighting. A Marine detachment is 
in a 1-year proof of concept phase that began last fall. On October 1 
of this year, we expect this detachment will be fully integrated into a 
Naval Special Warfare Squadron and serve there on a rotating basis. 
Additionally, last year, SOF and the Marine Corps began joint wargaming 
exercises called ``Expeditionary Warrior,'' which focus on cooperation 
(with naval support) in combating terrorism and counterproliferation 
contingencies.
    As USSOCOM assumes its role as a supported command in the war on 
terrorism, and can draw on all Services' assets in a theater of 
operation, the joint capability being established between the Marine 
Corps and SOF will undoubtedly grow. We can expect that we will realize 
ways in which such cooperation is possible or even essential. Moreover, 
I note that events in the field continue to drive the creation of close 
working relationships between SOF and the Marine Corps, and other 
conventional units.

                 COUNTERDRUG/COUNTERTERRORISM MISSIONS

    Question. Special Operations Forces have been deeply involved in 
training forces in Colombia to conduct unified counterdrug-
counterterrorism missions.
    In your view, what has been the success of training missions in 
Colombia?
    Answer. The success of the training effort is best measured in 
terms of the unprecedented level of progress being made by President 
Uribe and the Colombian military in destroying the FARC and ELN 
terrorist organizations, in eradicating drug cultivation, and in 
reclaiming Colombia for the people of that great nation. DOD-managed 
training missions have and continue to provide an excellent opportunity 
to train the Colombian military as it becomes a professional force that 
can improve the security of the Colombian people and the respect for 
the rule of law and human rights. As a result, the Colombian military 
units that the Department has trained are more effective and respectful 
of human rights.
    Question. Are these appropriate missions for U.S. Special 
Operations Forces?
    Answer. Absolutely. The Department believes that these missions are 
appropriate for Special Operations Forces. We also execute training 
missions using non-SOF, such as those of the United States Army and 
Marine Corps. The Department reviews training requests to ensure that, 
where appropriate, we employ the right mix of SOF and conventional 
forces.
    Question. What, if any, benefit do unified counterdrug-
counterterrorist training missions in Colombia and counterdrug training 
missions worldwide provide to Special Operations Forces?
    Answer. I understand that the training missions in Colombia and, 
indeed, worldwide, provide excellent opportunities for SOF to work with 
police and military forces of our friends and allies. As a result, SOF 
hone their language and cultural skills and their ``train the trainer'' 
skills, and take advantage of opportunities to work in countries where 
the United States seeks to enhance relationships.

                        COUNTERNARCOTICS POLICY

    Question. The Department of Defense has been extensively involved 
in counternarcotics missions for many years, involving both Active and 
Reserve component forces.
    In your view, what is the appropriate role of the Department of 
Defense in interdicting illegal drugs bound for the U.S., in reducing 
drug cultivation, and in reducing demand?
    Answer. International, Federal, State, and local law enforcement 
agencies are responsible for interdiction activities. DOD supports 
those efforts. For example, the Department provides detection and 
monitoring support, command, control, communications and intelligence 
support and training. I believe that the Department should continue to 
use its unique military skills and assets to support agencies that 
execute interdiction missions.
    Similarly, the Department of Defense does not reduce foreign or 
domestic drug cultivation. The Department of State, in partnership with 
our friends and allies, manages drug cultivation programs outside the 
United States. Federal, State, and local law enforcement agencies 
manage domestic counter-cultivation programs. DOD, again, provides 
detection and monitoring support, command, communications, control, and 
intelligence support and training.
    As part of the President's National Drug Control Strategy, the 
Department executes significant demand reduction programs designed to 
prevent the use of and treatment for drugs by Service members, civilian 
employees and our families. The Department continues to review these 
programs to ensure the efficient use of taxpayer dollars.

                          STABILITY OPERATIONS

    Question. The office of ASD (SO/LIC) is responsible for policy and 
activities concerning stability operations such as peacekeeping and 
humanitarian assistance.
    What has been the involvement of the office of the ASD (SO/LIC) in 
the planning and conduct of stability operations in Afghanistan and 
Iraq?
    Answer. I understand that the Stability Operations office within 
SO/LIC has played a leading role in defining policy with respect to 
humanitarian assistance, peace operations, reconstruction, and war 
crimes issues in both Afghanistan and Iraq. From the early phases of 
both conflicts, the Stability Operations office, in close partnership 
with Central Command, coordinated the inter-theater delivery of 
humanitarian daily rations, bottled water, and relief supplies for 
refugees and other civilians.
    In the case of Afghanistan, the Stability Operations office 
participated in planning for and resourcing the International Security 
Assistance Force for Kabul, drove formation of the interagency 
Provincial Reconstruction Teams, and has been the DOD lead office for 
the fielding of the new Afghan National Army and Afghan Police.
    In the case of Iraq, the Stability Operations office has 
participated in planning and force generation initiatives for the 
multinational force that will eventually assume security 
responsibilities throughout the country. The Stability Operations 
office has also served as a planner and coordinator for humanitarian 
and reconstruction initiatives under the supervision of the Coalition 
Provisional Authority in Iraq. In both the Afghanistan and Iraq crises, 
Stability Operations has worked closely with regional experts in DOD, 
as well as various offices at the Department of State and the NSC.
    Question. Who has had principal responsibility within the Pentagon 
for the planning and conduct of stability operations in these nations?
    Answer. The Office of the Under Secretary of Defense for Policy 
closely supervises the planning and conduct of stability operations in 
both Afghanistan and Iraq, providing policy-level oversight and 
coordination. The Joint Staff, in particular the Directorate for 
Strategic Plans and Policies (J-5), also plays a critical role in 
developing plans and operational guidance for the relevant combatant 
commands. The Stability Operations office has led or assisted other 
offices in policy such as the Assistant Secretaries of Defense for 
International Security Affairs and International Security Policy and 
the Office of the Coalition Provisional Authority, depending upon the 
specific plan or issue for action. On every issue, the hallmark of SO/
LIC work is comprehensive coordination, both within and outside of the 
Pentagon.

               PSYCHOLOGICAL OPERATIONS AND CIVIL AFFAIRS

    Question. Psychological operations (PSYOPs) and civil affairs (CA) 
have played prominent roles in recent military operations, from the 
Balkans to Afghanistan to Iraq. Most U.S. PSYOPs and CA units and 
capabilities are in our Reserve components.
    In your view, do the Armed Forces have sufficient personnel and 
other assets to conduct the range of PSYOPs and CA missions being asked 
of them?
    Answer. Since the start of the global war on terrorism, PSYOPs and 
CA forces have made extraordinary contributions to the security of the 
United States, and to the reconstruction of Afghanistan and Iraq.
    There is a well-documented and urgent need to enhance PSYOPs 
capabilities to penetrate denied areas and to win the ``war of ideas.'' 
This vital requirement will be accomplished by transformation of PSYOPs 
both in personnel and equipment. Planned increases in PSYOPs active 
component forces include the addition of two regional and one tactical 
PSYOPs companies. The Reserve components will receive an additional 
four regional PSYOPs companies.
    Modernization and transformation of PSYOPs equipment is at a 
critical juncture. Significant investment has already been made to 
modernize production, distribution, and dissemination means. More 
importantly, additional investments are concentrating on developing 
transformational dissemination capabilities that will allow us to get 
our messages to previously inaccessible areas. While much has already 
been done, I envision additional PSYOPs transformational programs will 
be developed, especially in the areas of satellite and UAV 
technologies.
    Army CA forces have sustained a high operations tempo for several 
years now, and personnel strength is a concern. Long before the events 
of September 11, a plan was introduced to address the expanded 
utilization of Army CA forces.
    The most important parts of that plan include the addition of 4 
Reserve component battalions, and 84 positions to the lone active duty 
CA battalion--the 96th--in the U.S. Army. During the 2\1/2\ years since 
the plan was developed, the 96th Civil Affairs Battalion has received 
the authorization for its additional staff. From the Reserve component, 
one of the four CA battalions has come on line, with the second to 
follow shortly. The two remaining new battalions are scheduled to be 
activated in calendar years 2004 and 2005, respectively.
    If confirmed by the Senate, I would support the continued 
implementation of this plan. Given the unprecedented pace of deployment 
in support of the global war on terrorism, it may also be necessary to 
increase the force size and structure of the active component CA units 
to provide a greater capability to respond to emerging, near-term 
requirements without requiring mobilizing Reserve CA forces.
    Question. In your view, is the planned mix of active and Reserve 
components adequate in these areas?
    Answer. With regard to PSYOPs, the mix of active and Reserve 
components must be reviewed frequently to ensure that the force 
structure can respond to national requirements. Additionally, annual 
assessments must be completed to match national strategies from a 
regional perspective.
    Approximately 97 percent of the CA forces are drawn from the 
Reserve component. There is no ``correct'' proportion between active 
and Reserve components, but the overwhelming majority of the CA 
personnel should continue to come from the Reserve component. This fact 
will enable the combatant commander to take advantage of the 
reservist's civilian expertise in areas such as civil administration, 
public safety, and economics and commerce.

                          TRAINING CAPABILITY

    Question. The ability of special forces personnel to train 
realistically is of vital importance.
    What capabilities do you consider most important for effective 
training of SOF personnel?
    Answer. Much of what makes SOF personnel special or unique is the 
training. Most of it is very intense and very specialized. The skills, 
however, are perishable over time and with attrition and must 
constantly be pursued. I believe four elements contribute to the 
critical training necessary to maintain SOF.
    First, SOF needs realistic combat training environs. This includes 
ranges that support realistic, live-fire training. It also requires the 
integration of modern weapons and techniques on a large scale, 
including ground, sea, and air assets. Realistic urban combat training 
facilities are of increasing and obvious importance. Less obvious but 
essential is training access in real (actual) critical infrastructure 
facilities, be it a nuclear plant or a major port. Ranges and simulated 
facilities cannot replicate the complexities found in actual 
structures.
    Second, SOF requires adequate mission planning and rehearsal 
systems. Systems that afford the operator the ability to integrate 
real-time information into operations planning and rehearsal provide 
virtual ``eyes on target'' to enhance mission success. For aviators, 
mission rehearsal systems must provide the ability to fly the route, 
evade the threat and hit the target before actual mission execution.
    Third, SOF must have worldwide access and exposure. This includes 
Joint Combined Exchange Training (JCET), humanitarian de-mining 
programs, and counter-drug cooperation. Language training is an 
essential part of this effort. These programs are essential to maintain 
the unique SOF skills and knowledge that proved so decisive in 
Afghanistan and elsewhere.
    Finally, SOF must maintain a robust capability for selection and 
training of SOF personnel. Selection criteria, faculty and curricula 
must be maintained to the highest standards in order to find and 
produce SOF personnel cut from the right cloth. The skills that set SOF 
apart and that make them so important to the national defense are 
perishable and must be continually reinforced and maintained at the 
highest possible levels. Standards must not be reduced.
    Training and experience have the greatest long-term effect on SOF 
capabilities. In order to maintain strategic flexibility and maximize 
the likelihood of operational success, SOF will continue to ``train for 
certainty, educate for uncertainty.'' There is no substitute for tough, 
realistic training.
    Question. What improvements are necessary, in your view, to enhance 
training for SOF personnel?
    Answer. In my opinion, critical improvements include access and 
support for infrastructure facilities (ranges) to conduct realistic 
training. Additionally, language training is essential for the SOF 
operator. Identifying new and innovative methodologies for maintaining 
language proficiency continue to be a challenge.
    Question. What, if any, training benefits accrue to SOF from 
training foreign military personnel?
    Answer. Depending upon the nature of the training mission, there 
can be substantial benefit. The JCET program is one of the most 
valuable tools the DOD has to train SOF overseas and to maintain SOF 
readiness at the highest possible level. JCET ensures critical SOF 
readiness regarding regional language, culture, combat operations, 
combat support operations, and instructor skills. JCET also sharpens 
critical SOF skills to support coalition operations, peacekeeping 
training, and non-combatant evacuation. When we deploy joint special 
operations task forces they must possess the strategic adaptability to 
operate globally and the tactical precision required for sensitive 
operations with far-reaching political consequences. This can be 
accomplished only by having intelligent, experienced, mature, and 
resourceful personnel--armed with cross-cultural communications 
skills--to interact successfully with U.S. country teams, other 
government agencies, non-government organizations and foreign 
indigenous military organizations. JCET activities are a principal 
means of developing and sustaining these skills.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Assistant Secretary of 
Defense for Special Operations and Low Intensity Conflict?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

                  Special Operations Chain of Command

    1. Senator Warner. Mr. O'Connell, the United States Special 
Operations Command's new role as a supported combatant commander will 
require a refocusing of the command's primary responsibilities and the 
constraints under which Special Operations Forces are employed. Each 
regional combatant command includes a sub-unified command for special 
operations providing operational direction and control of special 
operations. If confirmed, how would you anticipate exercising your 
oversight responsibilities over all special operations activities, 
given the increasingly complex network of Special Operations Commands?
    Mr. O'Connell. While each geographic combatant command has a sub-
unified command, commonly called the Theater Special Operations Command 
(TSOC), they are not independent operators. The majority of their 
activities and operations are conducted under the operational command 
of the combatant commander. I would exercise my oversight 
responsibilities in part through the existing process of coordination 
and approval of training, exercise, and operational deployments. My 
office reviews and recommends approval on all such activities. This 
same construct applies to those occasional activities and operations 
that might be under the operational command of the Commander, United 
States Special Operations Command.

               PSYCHOLOGICAL OPERATIONS AND CIVIL AFFAIRS

    2. Senator Warner. Mr. O'Connell, you underscored in your policy 
question answers the unique contribution of PSYOPs forces and the high 
operations tempo that personnel in this specialty have experienced for 
several years. Please explain the plan for active duty and Reserve 
Forces aimed at reducing the stress on PSYOPs and CA personnel.
    Mr. O'Connell. The Department's current force structure plan 
includes increases in both PSYOPs and CA units. Over the next couple of 
years we will add two active component regional PSYOPs companies, four 
Reserve component regional PSYOPs companies, two active component CA 
companies, and two Reserve component general purpose CA battalions. 
These planned increases will mitigate some of the high operations tempo 
that PSYOPs and CA forces have experienced over the past few years. We 
will continue to analyze force structure requirements to ensure that we 
can sustain current and anticipated future operational tempo with 
available forces.

    3. Senator Warner. Mr. O'Connell, are you concerned that too heavy 
reliance--currently 97 percent--is being placed on the Reserve 
component and not enough on the Active Forces?
    Mr. O'Connell. The PSYOPs and CA Reserve component force structure 
is being used to meet surge and long term rotational requirements. The 
high percentage of the force structure in the Reserve component 
provides strategic depth in our manpower resources to meet these 
requirements. The Active Force is equally engaged in continuing 
operations that require quicker responses than available through 
mobilization of the Reserve components. The combination of Reserve and 
Active component forces gives us operational flexibility to meet both 
immediate and long term requirements. We will continue to analyze 
current and anticipated future operational requirements to ensure that 
there is the right mix of the two components in the force structure to 
meet the Department's needs and provide operation tempo.

                         COUNTERDRUG ACTIVITIES

    4. Senator Warner. Mr. O'Connell, the Department has requested 
authority to expand counterdrug activities into certain Andean Ridge 
and Asian nations in an effort to encourage nations in these regions to 
disrupt cultivation and interdict transit of narcotics in these areas. 
What is your view on the need and value of expanding counterdrug 
activities in this manner?
    Mr. O'Connell. Section 1033 of the National Defense Authorization 
Act for Fiscal Year 1998, as amended,\1\ authorized the Department of 
Defense, during fiscal years 1999 through 2002, to provide specific 
types of support to the Governments of Peru and Colombia, at a level 
not to exceed $20.0 million. It has proved to be a responsive and 
effective authority for supporting interdiction efforts in Colombia and 
Peru and it could be extremely useful to bolster security efforts in 
the Andean Ridge and in Afghanistan and the surrounding region.
---------------------------------------------------------------------------
    \1\ Public Law No. 105-85, Nov. 18, 1997, amended by Sec. 1021, 
National Defense Authorization Act for Fiscal Year 2001, (Pub. L. No. 
106-398) 
---------------------------------------------------------------------------
    The proposed legislation recognizes that DOD supports countries 
that are key in our national drug strategy and the defense security 
cooperation goals. An enhanced interdiction capability for these 
nations is critical to our combined efforts to stem the flow of illicit 
drugs, attack a source of terrorist funding, and reduce the threat to 
struggling democracies. By working with the security forces of these 
countries, DOD receives access to host nation information that is 
useful for not only tracking illicit drugs, but also terrorists and 
weapons of mass destruction.
    The proposed legislation expands the nature of support to include 
additional types of equipment and supplies that will sustain and 
reinforce previously provided training and other support, to enable 
these countries to combat drug traffickers.
    The inclusion of Afghanistan, Pakistan, Tajikistan, Turkmenistan, 
and Uzbekistan is a result of the September 11, 2001, attack on the 
United States and the recognition that drug trafficking is an important 
source of funds for many terrorist groups. Disrupting drug trafficking 
in Afghanistan and the surrounding region is also critical for 
establishing a stable government in Afghanistan, which will increase 
the chance for peace in the region.
    The inclusion of Ecuador as a covered country will bolster that 
country at a time when drug traffickers will be looking for new venues 
in which to avoid the counterdrug pressure in Colombia. This is 
appropriate since Ecuador, in spite of its internal difficulties, 
assumed its role in the regional struggle against drug traffickers by 
providing the United States long-term access to its airbase at Manta.
    The expanded authority also provides for upgrading as well as 
maintaining and repairing the equipment of these governments that is 
used for counterdrug activities. For example, DOD could provide 
enhancements to Colombia's and Peru's aerial interdiction fleet to make 
them more effective. It specifically provides for sustainment cost, 
including ammunition for nations willing to do more interdiction, but 
who may not be able to pay for it. The expanded authority doubles 
dollar authority to accommodate four times as many countries being 
supported, and it deletes references to the term ``riverine'' in 
recognition of the fact that host nation counterdrug activities are not 
limited to riverine operations.

                PEACEKEEPING AND HUMANITARIAN ASSISTANCE

    5. Senator Warner. Mr. O'Connell, peacekeeping and humanitarian 
assistance planning and policy had been an important part of the ASD 
(SO/LIC) portfolio of responsibilities. Post-conflict planning and 
conduct of stability operations and humanitarian assistance have been 
handled by other elements of DOD in Operation Iraqi Freedom. What role 
do you see for ASD (SO/LIC) in future peacekeeping, stability 
operations, and humanitarian assistance operations?
    Mr. O'Connell. Due to unique conditions relating to the planning 
and conduct of Operation Iraqi Freedom, an ad hoc organization, the 
Office of Reconstruction and Humanitarian Assistance (ORHA), which 
later became the Coalition Provisional Authority (CPA), was indeed 
established under DOD authority at the Pentagon, and deployed forward 
to Kuwait and then Iraq to coordinate relief and reconstruction 
activities. SO/LIC's Office of Stability Operations was linked closely 
with ORHA/CPA's planning efforts from the very beginning, and is now 
the Office of the Under Secretary of Defense for Policy's lead office 
for a number of CPA's programs in Iraq. (The Stability Operations 
office contributed, in fact, four of its eight assigned military 
personnel to deploy forward with the ORHA organization.)
    As in planning and determination of policy for all peacekeeping and 
humanitarian operations, the Stability Operations office has worked 
closely with the appropriate regional office within the Policy Under 
Secretariat (in this case ISA Near East/South Asia), with the Joint 
Staff, and with the staff of the responsible combatant commander, in 
planning for these phases of Operation Iraqi Freedom. I fully expect 
that the role of SO/LIC and the Stability Operations office will 
continue in this manner for future peacekeeping, stability operations, 
and humanitarian assistance missions.

                       SPECIAL OPERATIONS FORCES

    6. Senator Warner. Mr. O'Connell, Special Operations Forces have 
clearly distinguished themselves in Operations Enduring Freedom and 
Iraqi Freedom. Many have called for increasing the size and scope of 
our Special Operations Forces. What is your view concerning increasing 
the size of Special Operations Forces?
    Mr. O'Connell. Over the next 5 years, there will be an increase in 
the number of personnel assigned to the United States Special 
Operations Command (USSOCOM). Some will bolster SOF aviation 
capabilities; others will enhance the ability of USSOCOM to perform as 
a supported command for the war on terrorism. We also look forward to 
certain increases in SOF, such as an additional SEAL team. At the same 
time, SOF cannot be created overnight. Special operators often spend 
years in conventional forces before they can apply and qualify for SOF. 
Creation of SOF therefore requires considerable time and effort on 
everyone's part, making long-term retention an equally important issue. 
At least as important as overall increases in the manpower assigned to 
USSOCOM are the quality, training, and readiness of the personnel they 
have today.

    7. Senator Warner. Mr. O'Connell, what aspects of SOCOM 
capabilities should be expanded?
    Mr. O'Connell. The Secretary of Defense has directed USSOCOM to 
become a supported command for the war on terrorism. In the past, 
USSOCOM has been a force provider, so this requires changes in 
organization and staffing to allow it to perform new battle staff 
duties. In addition, USSOCOM's ability to undertake what we call 
``operational preparation of the battlespace'' needs to be expanded, 
both for the war on terrorism and to enhance SOF's ability to support 
U.S. and allied conventional forces in campaigns such as Operation 
Enduring Freedom and Operation Iraqi Freedom. This in turn calls for 
increased numbers of people with language capabilities in areas where 
we can expect crises to occur and SOF to be employed in the years 
ahead.

    8. Senator Warner. Mr. O'Connell, what additional roles do you feel 
SOCOM should assume?
    Mr. O'Connell. There are approximately 46,000 personnel under 
USSOCOM today, not a great number considering its global 
responsibilities. USSOCOM has a set of core missions which go to the 
heart of campaigns like Operation Enduring Freedom and Operation Iraqi 
Freedom, and also of the ongoing war on terrorism. In addition to these 
core missions, however, USSOCOM also has a range of collateral missions 
which Special Operations Forces are frequently called upon to perform. 
Some of those can also be performed by U.S. conventional forces, and at 
the present time the Department of Defense is studying which collateral 
missions can be assumed by others, to allow USSOCOM to concentrate upon 
its core missions. This study's recommendations are being reviewed at 
the present time. 

    9. Senator Warner. Mr. O'Connell, what role do you see for the U.S. 
Marine Corps in SOCOM?
    Mr. O'Connell. The United States Marine Corps (USMC) did not place 
any units under USSOCOM when the command was created in 1986, although 
in recent years Marine Corps officers have served at USSOCOM 
headquarters and component headquarters staffs. In the past year, 
USSOCOM and USMC have worked together on interoperability in various 
areas, and also on a first-time USMC force contribution to USSOCOM 
based on its force reconnaissance capabilities. The latter, designated 
the USMC USSOCOM Detachment, is nearing the end of a ``proof of 
concept'' year with Naval Special Warfare Group. USSOCOM also 
participates in ``Expeditionary Warrior,'' an ongoing set of USMC war 
games exploring how USMC units and Special Operations Forces can 
cooperate in a range of contingencies.
                                 ______
                                 
    [The nomination reference of Thomas W. O'Connell follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                       May 1, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Thomas W. O'Connell of Virginia, to be an Assistant Secretary of 
Defense, vice Brian E. Sheridan.
                                 ______
                                 
    [The biographical sketch of Thomas W. O'Connell, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of Thomas W. O'Connell

    A 1968 distinguished military graduate of the University of Rhode 
Island with a BA in Economics, Mr. O'Connell began his career as an 
infantry officer in Germany. He served in Southeast Asia as a field 
advisor to Vietnamese forces including duties with the Phoenix Program. 
Mr. O'Connell was assigned as an instructor in Combat Intelligence at 
the Army's Intelligence Center and School at Ft. Huachuca, Arizona, 
prior to spending 3 years in the 82nd Airborne Division at Ft. Bragg, 
North Carolina as an intelligence officer at battalion, brigade, and 
division levels. During attendance at the Army's Command and General 
Staff College, he earned a Management MA from Central Michigan 
University. 
    Mr. O'Connell then spent 2 years on exchange duty with the British 
Army at the Joint Intelligence Centre in England, where he commanded 
the Foreign Armed Services Branch. From 1980 to 1983, he was the Senior 
Intelligence Officer for a U.S. Army Special Mission Unit. He then 
commanded the 313th Military Intelligence Battalion of the 82nd 
Airborne Division for 2 years, followed by attendance at the Naval War 
College, graduating with highest distinction and completing a Masters 
Degree in International Relations.
    He returned to Ft. Bragg as the Director of Intelligence (J2), 
Joint Special Operations Command, and continued in the Special 
Operations Intelligence field with a 2\1/2\ year brigade command of an 
Army Special Mission Unit.
    After a brief Pentagon assignment in the U.S. Special Operations 
Command's Washington Office, he served 3 years at the Central 
Intelligence Agency as Deputy for Command Support, retiring in October 
1995. Mr. O'Connell's career included participation in four conflict 
arenas of Vietnam, Grenada, Panama, and Southwest Asia and various 
assignments in 33 countries. He holds a Master Parachutist rating and 
received numerous awards including the Defense Superior Service Medal, 
the Legion of Merit, the Bronze Star for Valor, the Purple Heart, and 
Air Medal.
    He is currently a Senior Manager for Raytheon Company. He recently 
participated in Defense Science Board Task Forces, and has served as a 
frequent Task Force member of the President's National Security 
Telecommunications Advisory Committee.
    Mr. O'Connell and his wife Patricia, a marketing executive at Mount 
Vernon Estate, have two sons, both in the military.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Thomas W. 
O'Connell in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Thomas W. O'Connell.

    2. Position to which nominated:
    Assistant Secretary of Defense (Special Operations/Low Intensity 
Conflict).

    3. Date of nomination:
    May 1, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 30, 1946; Great Barrington, MA.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Patricia Ledew O'Connell.

    7. Names and ages of children:
    Andrew T. O'Connell, 30.
    Kevin P. O'Connell, 27.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Rogers High School, Newport RI, 1961-1964, HS Degree, College Prep. 
(1964).
    University of Rhode Island, 1964-1968, BA, Economics (1968).
    U.S. Army Command and General Staff College, Ft. Leavenworth, KS, 
1977-1978, Diploma (1978).
    Central Michigan University, 1977-1978, MA, Management/Public 
Admin. (1978).
    U.S. Navy War College, Newport, RI, 1986-1987, MA, National 
Security and International Relations.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    October 1995-Present, Senior Manager, Raytheon Company, 
Intelligence and Information Systems, (previously Electrospace Systems, 
Chrysler Technology Company, and previously Raytheon E-Systems), 1235 
Jefferson Davis Highway, Arlington, VA, 22022.
    July 1992-0ctober 1995, Colonel, U.S. Army, Deputy Chief Command 
Support, Office of Military Affairs, Central Intelligence Agency, 
McLean, VA.
    July 1991-July 1992, Colonel, U.S. Army, Deputy Director, United 
States Special Operations Command Washington Office, Pentagon, 
Washington, DC.
    February 1989-July 1991, Colonel, U.S. Army Brigade Commander, U.S. 
Army Intelligence and Security Command, Fort Belvoir, VA.
    June 1986-February 1989, Lieutenant Colonel/Colonel, U.S. Army, 
Director of Intelligence (J2), Joint Special Operations Command, Fort 
Bragg, NC.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Special Terrorism Security Assessment, State of Rhode Island, 1987 
(as part of Naval War College Study).
    Defense Science Board Task Force on Transnational Threats.
    President's National Security Telecommunications Advisory 
Committee, Member of Task Forces, Industry Executive Subcommittee 
Alternate Member, Raytheon Company (pro bono).

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Senior Manager, Raytheon Company, Intelligence and Information 
Systems, 1235 Jefferson Davis Highway, Suite 800, Arlington, VA 22202.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Army Navy Country Club, Arlington, VA since 1995.
    Member, Armed Forces Communications Electronics Association since 
1995.
    Member, Association of the United States Army since 1968.
    Member, Old Crows Association since 1995 (Professional Electronic 
Warfare Association).
    Member, Republican Senatorial Task Force, 2002.
    Republican Presidential Task Force, 2000.
    Virginia Republican Party, 2003. Donor and membership.
    Phi Gamma Delta Fraternity, University of Rhode Island, 1965-1968 
(President, Treasurer).
    Alumni Association, University of Rhode Island.
    Member, Special Operations Warrior Foundation (Scholarships for 
Children of Deceased Special Operations Personnel).
    Member, All Ranks Association, Delta Force, and Unit Scholarship 
Fund.
    Member, Fort Belvoir Parish, Roman Catholic Church.
    Member, Board of Directors, Special Operations Division, National 
Defense Industrial Association since 2000.
    Volunteer, National Leukemia and Lymphoma Society, 2000-2003.
    Member, Mount Vernon Civic Association (Neighborhood, since 1996).
    Member, Legal and Regulatory Task Force, Presidents National 
Security Telecommunications Advisory Commission, 2002-present. 
Participation as a member in other NSTAC Task Forces on a pro-bono 
basis for Raytheon Company from 1998-2003.
    Member, Security Affairs Support Association.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    Member, Republican Presidential Task Force, 2000.
    Member, Republican Senatorial Task Force, 2000, 2002.
    Member, Republican Party of Virginia, 2002, 2003.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Raytheon Political Action Committee 1998-2002, $400.
    Republican Presidential Task Force, $100.
    Republican Senatorial Task Force, $100.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Military Awards:
        <bullet> Defense Superior Service Medal.
        <bullet> Legion of Merit (2).
        <bullet> Bronze Star Medal (Valor).
        <bullet> Bronze Star Medal (2).
        <bullet> Purple Heart.
        <bullet> Defense Meritorious Service Medal.
        <bullet> Meritorious Service Medal (3).
        <bullet> Air Medal.
        <bullet> Joint Service Commendation Medal.
        <bullet> Army Commendation Medal (Valor) 2.
        <bullet> Army Commendation Medal (2).
        <bullet> Army Achievement Medal.
        <bullet> Vietnam Service Medal.
        <bullet> Vietnam Campaign Medal.
        <bullet> South West Asia Campaign Medal.
        <bullet> Army Service Medal.
        <bullet> National Defense Service Medal (2).
        <bullet> Humanitarian Service Medal.
        <bullet> Overseas Service Medal.
        <bullet> Republic of Vietnam Gallantry Cross.
        <bullet> Expert Infantry Badge.
        <bullet> Master Parachutist Badge.
        <bullet> Joint Meritorious Unit Award.
        <bullet> Army Superior Unit Award.

    Other
        <bullet> National Honor Society.
        <bullet> Rhode Island Honor Society.
        <bullet> Naval War College (Distinguished Honor Graduate).
        <bullet> Exceptional Performance Award, Central Intelligence 
        Agency.
        <bullet> Outstanding Achievement Award, Raytheon Company.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Farewell Article, The Rose, Magazine of the Intelligence Corps of 
the British Army, 1980.
    ``Leadership in Retrospect'', Military Intelligence Magazine, U.S. 
Army Intelligence Center and School, 1985.
    82d Airborne Long Range Reconnaissance in WWII, 1984 Paraglide, 
Fort Bragg, NC.
    Letter to the Editor, Proceedings Magazine, Naval Institute Press, 
2000.
    Defense Intelligence Journal, Preparing America's Leaders--
Intelligence Symposium, Joint Military Intelligence College Foundation, 
2002.
    Numerous official and classified reports written in conjunction 
with military duties, 1968-1995.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have no copies of formal speeches. I have presided over or 
participated in numerous professional development panels as a member of 
industry including the National Defense Industrial Association Special 
Operations Division, the Association of the U.S. Army and have 
participated in informal presentations at the American Enterprise 
Institute, Washington, DC.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Thomas W. O'Connell.
    This 6th day of May, 2003.

    [The nomination of Thomas W. O'Connell was reported to the 
Senate by Chairman Warner on July 16, 2003, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 21, 2003.]
                              ----------                              

    [Prepared questions submitted to Paul M. Longsworth, by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                                 DUTIES

    Question. What is your understanding of the duties and functions of 
the Deputy Administrator for Defense Nuclear Nonproliferation?
    Answer. The duties of the Deputy Administrator for Defense Nuclear 
Nonproliferation include preventing the spread of materials, 
technology, and expertise relating to weapons of mass destruction; 
detecting the proliferation of weapons of mass destruction worldwide; 
eliminating inventories of surplus fissile materials usable for nuclear 
weapons; and providing for international nuclear safety.
    Question. What background and experience do you possess that you 
believe qualifies you to perform these duties?
    Answer. I have over 17 years of experience working with the 
Department of Energy and its national laboratory system. As a Federal 
employee, I have participated in every phase of the Federal procurement 
and budget process, and have managed both programs and people at the 
DOE. My work with the Russian Ministry of Atomic Energy (and its 
predecessor agency during the Soviet era, the Ministry of Atomic Power 
and Industry) dates back to 1989, when I helped the Department of 
Energy craft the first cooperative agreement on environmental 
restoration and waste management. While serving as a professional staff 
member on the Senate Armed Services Committee, I was responsible for 
advising the Chairman on DOE oversight, budget, and policy matters. 
During the past 2\1/2\ years, I have served as the Senior Policy 
Advisor to the Secretary of Energy for National Security and the former 
Soviet Union. In this capacity, I have participated in reviewing and 
advising the Secretary on re-shaping the nonproliferation programs of 
the National Nuclear Security Administration in order to accelerate and 
expand their scope to rapidly address the most urgent threats.
    Question. Do you believe that there are actions you need to take to 
enhance your ability to perform the duties of the Deputy Administrator 
for Defense Nuclear Nonproliferation?
    Answer. No, not at this time. I feel confident that my past 
experiences have prepared me well to carry out the duties of the Deputy 
Administrator for Defense Nuclear Nonproliferation.
    Question. Assuming you are confirmed, what duties and functions do 
you expect that the Administrator of the National Nuclear Security 
Administration would prescribe for you?
    Answer. I anticipate that the Administrator would authorize me to 
carry out fully all the programs of the Office of Defense Nuclear 
Nonproliferation to support and implement the policies of the 
President. He has not indicated that he intends to prescribe any 
additional duties or functions other than those enumerated in the NNSA 
Act.
    Question. If confirmed, how would you work with the following:
    Other Deputies in the NNSA
    Answer. If confirmed, I intend to work closely with the other NNSA 
Deputy Administrators and the Associate Deputy Administrators on 
crosscutting programmatic issues such as budgets, security, 
counterintelligence, personnel, and procurement. The NNSA Administrator 
has established a Management Council to coordinate policy, financial, 
and other management issues. This Council has been very effective in 
establishing cohesion among the NNSA program offices and I intend to 
participate actively in its deliberations.
    Question. The Assistant Secretary for Environmental Management
    Answer. The Office of Defense Nuclear Nonproliferation has no waste 
management or storage facilities of its own. As a result, many aspects 
of the Office's Fissile Materials Disposition program must be 
coordinated with the Office of Environmental Management to ensure that 
the Mixed Oxide (MOX) fuel program remains on schedule and within cost. 
If confirmed, I intend to work through the NNSA Administrator to 
establish cooperative and productive working relationship with Office 
of Environmental Management.
    Question. Other Assistant Secretaries of the Department of Energy
    Answer. If confirmed, I intend to work through the NNSA 
Administrator to establish cooperative working relationships with other 
Assistant Secretaries of the Department of Energy, where necessary, to 
ensure that overall departmental missions are met.
    Question. Heads of relevant nonproliferation offices at the 
Departments of Defense and State
    Answer. The Office of Nonproliferation has good working 
relationships with the nonproliferation staffs of the National Security 
Council and the Departments of State and Defense. In my current 
capacity as Senior Policy Advisor to the Secretary of Energy, I work 
closely with these parties on a wide range of nonproliferation and 
national security issues. If confirmed, I would work to continue the 
existing partnerships with those organizations and try to improve them 
where possible.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the Deputy Administrator for Defense Nuclear Nonproliferation?
    Answer. The principal challenge confronting the Deputy 
Administrator will be improving Russia's ability to more effectively 
utilize NNSA threat reduction funding. A longer term challenge is 
determining how best to reallocate NNSA resources and capabilities to 
address evolving proliferation threats outside the former Soviet Union.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. Improving Russia's ability to more effectively utilize NNSA 
threat reduction funding will require a number of steps, including 
working with the Russian Ministry of Atomic Energy to improve contract 
review procedures, streamline access at MinAtom and other sites, and 
breaking down other barriers that hinder NNSA-funded activities. The 
Administrator has identified the need to address evolving proliferation 
threats outside the former Soviet Union. The effort to characterize and 
respond to these threats will be an ongoing effort for the Office of 
Defense Nuclear Nonproliferation.
    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Deputy Administrator for 
Defense Nuclear Nonproliferation?
    Answer. The most serious management problems facing the Deputy 
Administrator are: (1) establishing a program management system for the 
Office of Defense Nuclear Nonproliferation; (2) recruiting and 
retaining skilled staff capable of carrying the diverse mission of the 
Office; and (3) continuing to improve the rates at which authorized 
funds are costed and obligated.
    Question. If confirmed, what management actions and time lines 
would you establish to address these problems?
    Answer. If confirmed, I will work with the Associate Administrator 
for Management and Administration to ensure the full implementation of 
a program management system which is compatible with the Five Year 
Nuclear Security Plan (FYNSP) and the Planning, Budgeting, Programming, 
Budgeting and Evaluation (PBP&E) system within NNSA. I will work to 
continue the Nonproliferation Graduate Internship Program and other 
mentoring programs. I will also work with the contractors and program 
managers who execute programs in Russia to find ways to improve the 
rates at which funds are costed and obligated.

                               PRIORITIES

    Question. If confirmed, what broad priorities would you establish 
in terms of issues which must be addressed by the Deputy Administrator 
for Defense Nuclear Nonproliferation?
    Answer. The threat that nuclear materials, technology, or know-how 
might fall into the hands of a terrorist organization remains 
unacceptably high. Programs carried out by the Office of Defense 
Nuclear Nonproliferation continue to work down this threat, but the 
threat is an expanding and evolving one. If confirmed as the Deputy 
Administrator, my highest priority will be to complete the task of 
securing the nuclear weapons complex in Russia and the former Soviet 
Union, while preparing to address the new threats that arise in other 
regions of the world.

        NATIONAL STRATEGY TO COMBAT WEAPONS OF MASS DESTRUCTION

    Question. According to the National Strategy to Combat Weapons of 
Mass Destruction of 2002, ``strengthening nonproliferation to combat 
weapons of mass destruction proliferation'' is one of the three 
principal pillars of U.S. national security strategy. In this regard, 
the National Strategy states that ``we will identify and pursue new 
methods of prevention, such as national criminalization of 
proliferation activities and expanded safety and security measures.''
    If confirmed as Deputy Administrator for Defense Nuclear 
Nonproliferation, what steps would you propose to provide ``new methods 
of prevention'' and ``expanded safety and security measures''?
    Answer. If confirmed, I will continue to support the broad U.S. 
effort to establish new methods of preventing transfers of WMD 
materials, technology, and expertise. Such efforts would include: (1) 
working with the IAEA to strengthen its existing safeguards 
capabilities; (2) working with members of the Nuclear Suppliers Group 
to strengthen and enhance existing safeguards efforts; and (3) 
assessing ways to update and strengthen existing export control 
measures.

                 GENERAL ACCOUNTING OFFICE (GAO) REPORT

    Question. According to the March 2003 GAO report, Weapons of Mass 
Destruction: Additional Russian Cooperation Needed to Facilitate U.S. 
Efforts to Improve Security at Russian Sites, the Department of Energy 
``plans to help secure Russia's weapons-usable nuclear material by 
2008; however the department lacks access to many sites. As a result, 
most of [the department's] expenditures in the past 2 years went to 
functions other than securing buildings, such as maintaining previously 
installed equipment and developing nuclear security regulations.''
    If confirmed, what steps would you take to address these continuing 
problems in Russia?
    Answer. If confirmed, I will continue to press my Russian 
counterparts to expeditiously address the issue of access to Russian 
sites. Such efforts would include finding ways to mitigate Russian 
security concerns while improving the access necessary for U.S. experts 
to confirm that work was completed. I will also continue to work 
closely with the NNSA Administrator, the Secretary of Energy, and the 
Department of State to ensure our concerns are raised to the highest 
levels in the Russian government.

                        BAKER-CUTLER TASK FORCE

    Question. The Baker-Cutler Task Force Report of 2001, A Report Card 
on the Department of Energy's Nonproliferation Programs with Russia, 
stated that the task force observed ``impediments to DOE program 
implementation that should be addressed on an urgent basis. Many of 
these seem to revolve around restrictions on international travel 
stemming from both DOE international regulations and procedures in 
other U.S. Government agencies. These restrictions appear to have 
created unnecessary paperwork and bureaucratic impediments. They hinder 
DOE's ability to supervise work in the nonproliferation programs, 
maintain the pace of projects, and ensure that funds are used 
appropriately.''
    If confirmed, what management improvements would you propose to 
address the impediments to program implementation, including the 
``urgent'' problem with the international travel process within the 
Office of Defense Nuclear Nonproliferation, identified by the Baker-
Cutler Task Force?
    Answer. For the most part, the problems identified in the January 
2001 Baker-Cutler report have been eliminated and do not pose any 
appreciable impediment to the pace of work being carried out in Russia. 
However, the Russian government has placed new restrictions on 
travelers entering the Russian Federation. These new restrictions will 
take effect later this year and could have an adverse impact on the 
ability of U.S. experts to travel to Russia.

                       HARVARD UNIVERSITY REPORT

    Question. According to the March 2003 Harvard University report, 
Controlling Nuclear Warheads and Materials: A Report Card and Action 
Plan, ``It is crucial that the United States and the other countries 
involved provide the financial and personnel resources needed to secure 
the world's stockpiles of nuclear weapons and materials, and to 
accomplish the other steps needed to block the terrorist pathway to the 
bomb, as rapidly as these jobs can be done. As noted earlier, the 
available budgets are now large enough, and the non-monetary obstacles 
substantial enough, that simply adding money to existing programs, 
while making no other changes, would in most cases do little to 
strengthen or accelerate these efforts.''
    What is your view of this perspective, and what changes, if any, 
would you make to strengthen or accelerate these programs?
    Answer. My view of the above statement is that it is fundamentally 
correct. The greatest challenge facing U.S. threat reduction programs 
in Russia is not the level of funding, it is the Russian's ability to 
utilize funding from U.S. and other sources for these threat reduction 
programs.
    The March 2003 Harvard University report on Controlling Nuclear 
Warheads and Materials contains several innovative and actionable 
recommendations to both strengthen and accelerate NNSA's threat 
reduction programs in Russia; however, most of the report's specific 
recommendations were being implemented prior to its publication. For 
example, the G-8 Global Partnership Against the Spread of Weapons of 
Mass Destruction was established in June of last year and will provide 
more than $20 billion over 10 years to address proliferation concerns 
in Russia.

               NEED FOR FINANCIAL MANAGEMENT IMPROVEMENTS

    Question. At present, DOE's Defense Nuclear Nonproliferation 
programs are averaging uncosted balances of almost 50 percent of the 
programs' total appropriated budget. The DOE-wide average is 15 
percent.
    If confirmed, what management initiatives would you propose to 
lower the level of uncosted balances for all DOE Defense Nuclear 
Nonproliferation programs?
    Answer. Uncosted balances reached a high of 48 percent in fiscal 
year 2002 because of several unique circumstances. Among these were the 
government-wide nonproliferation review conducted by the National 
Security Council in 2001, the post-September 11 travel freeze, and an 
influx of supplemental funding provided by Congress late in the fiscal 
year. Clearly, NNSA's Nonproliferation program cannot sustain uncosted 
balances of 50 percent. If confirmed, I will work aggressively to draw 
down uncosted balances in the Office of Defense Nuclear 
Nonproliferation to the lowest practical level.

                        PROLIFERATION DETECTION

    Question. Early detection of proliferation activities has never 
been more critical. The Nonproliferation and Verification Research and 
Development program in the Office of Defense Nuclear Nonproliferation 
plays a key role in conducting applied research to develop near and 
long-term nuclear proliferation detection systems that can provide 
policymakers with timely information to curtail such activities.
    If confirmed, what efforts would you undertake to ensure that 
technologies developed in this area would support the nonproliferation 
programs within the Office Defense Nuclear Nonproliferation, as well as 
related programs at the Department of Defense?
    Answer. The Verification Research and Development program plays a 
pivotal role in the broader interagency community concerned with 
detecting, deterring, and attributing proliferation throughout the 
world. The work carried out by this office, in many areas, represents 
the cutting edge of technology. I strongly support these activities and 
will ensure that they are integrated with and supportive of the 
activities of the Department of Defense and other relevant Federal 
agencies.

                     NUCLEAR EXPLOSIONS MONITORING

    Question. Do you believe that the United States' existing nuclear 
explosions monitoring capabilities are sufficient to deter and detect 
any nuclear explosions?
    Answer. No. Current U.S. nuclear explosions monitoring capabilities 
are sufficient to detect, and therefore deter, most postulated testing 
scenarios. However, the technological capability to remotely detect and 
attribute all possible tests, particularly certain evasive or 
clandestine test scenarios, is not adequate.
    Question. What additional steps, if any, do you believe should be 
taken by the Office of Defense Nuclear Nonproliferation to enhance U.S. 
nuclear explosions monitoring capabilities?
    Answer. The Office of Defense Nuclear Nonproliferation has a 
vigorous research and development program to address this deficiency. 
If confirmed, I will fully support continued R&D in this area to ensure 
that U.S. capabilities keep pace with emerging threats.

                     FISSILE MATERIALS DISPOSITION

    Question. In your view, does the MOX program continue to advance 
the nonproliferation goal of reducing weapons grade plutonium in the 
United States and in Russia?
    Answer. Yes. The Office of Defense Nuclear Nonproliferation is 
responsible for--among other things--detecting, securing, and 
eliminating surplus fissile materials that pose a risk to the U.S. or 
its allies. The MOX fuel program is the only cooperative U.S.-Russian 
program to permanently eliminate weapons-usable plutonium. This must 
remain one of our highest objectives in the effort to stem the threats 
posed by weapons of mass destruction.
    Question. Do you support accelerating the highly enriched uranium 
program?
    Answer. Yes. I support U.S. efforts to accelerate the blending down 
of weapons-origin highly-enriched uranium (HeU) in Russia. The U.S.-
Russia Highly Enriched Uranium Purchase Agreement converts Russian 
weapons-origin HeU into nuclear reactor fuel. Both the U.S. and Russia 
have designated commercial parties to carry out that agreement, which 
results in the blend-down and import into the U.S. of about 30 metric 
tons of Russia uranium each year. Increasing the rate at which Russian 
weapons-origin HeU is blended down--and therefore no longer attractive 
to terrorists--is very important. However, it must be done in a manner 
that does not adversely affect the international uranium market.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Deputy Administrator for 
Defense Nuclear Nonproliferation?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator Daniel K. Akaka

                        ACCESS TO RUSSIAN SITES

    1. Senator Akaka. Mr. Longsworth, I am concerned with the United 
States' efforts to improve the security of Russia's nuclear weapons 
materials. The GAO completed a report that I had requested about these 
efforts in March. The report notes that DOE plans to secure Russia's 
many tons of weapons-useable nuclear material by 2008. GAO found that 
DOE lacks access to many sites which raises questions about whether DOE 
can complete the program by 2008. What are your plans for working 
cooperatively with your Russian colleagues to obtain the access to 
Russian facilities so this important work may be finished in a timely 
manner?
    Mr. Longsworth. The Secretary has established a high-level working 
group consisting of senior DOE/NNSA and senior MinAtom officials 
specifically to address access issues that must be resolved before work 
can proceed. If confirmed, I intend to be an active participant in this 
working group to continue to accelerate the pace of our work in Russia. 
I will work to find innovative, practical solutions that address 
Russian concerns regarding the protection of their national secrets 
while allowing the pace of security upgrades to continue.
    I believe that NNSA projects carried out at Russian Navy sites can 
serve as a good model for future security upgrades at MinAtom's most 
sensitive facilities, such as the serial production enterprises.
    While I agree with overall finding of the GAO report that access 
issues remain a problem, however, I would point out that the Office of 
Defense Nuclear Nonproliferation continues to make progress in Russia. 
If the program continues to make progress at its current pace, there is 
no indication that NNSA will not meet all of its accelerated timetables 
and complete its work by 2008.

                        TACTICAL NUCLEAR WEAPONS

    2. Senator Akaka. Mr. Longsworth, the numbers and security of 
Russian tactical nuclear weapons have been a concern for over a decade. 
During the Senate's debate on the Moscow Treaty several Senators 
expressed reservations that tactical nuclear weapons were not addressed 
by the treaty. In 1991 and 1992, Presidents Bush, Gorbachev, and 
Yeltsin made pledges to consolidate and eliminate U.S. and Russian 
tactical nuclear weapons. In April 2002, Moscow announced that Russia 
could complete destruction of its remaining ground forces battlefield 
nuclear weapons--nuclear mines, artillery shells and warheads for land-
based tactical missiles--by 2004, if sufficient financing was 
available. Given the concerns about the theft of these easily 
transportable ground force weapons, how will you work with your Russian 
colleagues to eliminate completely these weapons as soon as possible?
    Mr. Longsworth. I share your concern about the importance of 
tactical nuclear weapons and the need for their elimination as rapidly 
as possible. Currently, the National Nuclear Security Administration is 
extensively involved in cooperation with Russia to enhance the security 
of Russian nuclear warheads. If confirmed, I would fully support these 
ongoing efforts.
    At the May 2002 Moscow Summit, Presidents Bush and Putin 
established the Consultative Group for Strategic Security (CGSS) in 
addition to signing the Moscow Treaty. The CGSS is chaired by the 
Foreign and Defense Ministers of the United States and Russia, as the 
principal mechanism through which the sides strengthen mutual 
confidence, expand transparency, share information and plans and 
discuss a broad range of strategic issues of mutual interest. The 
initial meeting of the CGSS took place in September 2002, and resulted 
in the creation of three working groups: Working Group One on Offensive 
Nuclear Transparency, Working Group Two on Missile Defense Cooperation, 
and Working Group Three on Nonproliferation.
    Working Group One has met twice this year in Geneva. The U.S. focus 
has been to build confidence in a spirit of cooperation by presenting a 
positive long-term vision and emphasizing near-term transparency. As 
Secretaries Powell and Rumsfeld mentioned during their testimony on the 
Moscow Treaty and to their Russian counterparts, the United States has 
a strong interest in transparency related to tactical nuclear weapons. 
The issue of tactical nuclear weapons has been an element of discussion 
during the Working Group One meetings this year.

                       RADIOACTIVE SEALED SOURCES

    3. Senator Akaka. Mr. Longsworth, an issue of great importance to 
me is the control of radioactive sealed sources and their potential for 
use in a dirty bomb. Last month, the GAO delivered a report I requested 
concerning U.S. and international efforts to control radioactive sealed 
sources. The report shows there is a worldwide crisis in controlling of 
sealed sources. Poor accounting, tracking, and security measures for 
sealed sources exist in many countries around the globe. The GAO report 
recommends that DOE take the lead in the U.S. Government to develop a 
comprehensive program for the government to tackle this problem 
internationally. Please tell me how this will be accomplished.
    Mr. Longsworth. The Radiological Threat Reduction (RTR) program was 
initiated in the aftermath of the terrorist attacks of September 11, 
2001.
    The RTR program's strategy consists of the three key elements: 
securing the most dangerous radioactive materials in the most 
vulnerable locations through bilateral and multilateral projects; 
leveraging critical partnerships internationally to assist countries to 
develop ``cradle-to-grave'' control of radioactive materials; and 
detecting smuggled radioactive materials at border crossings and 
``Mega-Port'' locations through the placement of detection systems.
    Because the RTR program involves many nations and international 
organizations, it requires a significant coordination among the U.S. 
Government, the Russian government, the host governments, and the IAEA. 
We have worked to develop consensus on a number of technical issues 
(sources of concern, activity thresholds, worldwide source inventories, 
health/economic impacts of a Radiological Dispersal Device (RDD), 
etc.). We have also developed internal policies and procedures, such as 
our RDD threat reduction Strategic Plan, Implementation Plan, Threshold 
Document, and program methodology document. All of these were developed 
in the last year through the efforts of numerous government laboratory 
and private sector experts.

    4. Senator Akaka. Mr. Longsworth, in the case of Russia, NNSA has a 
Radiological Threat Reduction program to help Russia control and 
protect dangerous sealed sources. GAO found, however, that 93 percent 
of the funds spent so far by the DOE on this program have been spent in 
the United States by the DOE's national laboratories for labor, travel, 
equipment, and overhead. How will DOE look to spend a greater 
percentage of the remaining funds DOE has at its disposal for this 
program where the problems are overseas?
    Mr. Longsworth. I believe there are two principal reasons why the 
GAO figure of 93 percent is a misleading figure for characterizing U.S. 
spending on international sealed sources.
    First, if you take into account the $3.0 million contribution that 
DOE/NNSA made to the International Atomic Energy Agency (lAEA) last 
year, then you see that only about 60 percent of our budget was spent 
inside the U.S. The funds sent to the IAEA are intended to support 
security improvements in IAEA member states. The actual total spent by 
the RTR program as of January 31, 2003, was $8.9 million. Of this, $5.3 
million was spent inside U.S. on labor and travel. Of that money, a 
large portion covered the salaries of specialists traveling to 
countries of the former Soviet Union to support the mission of securing 
dangerous and vulnerable radiological materials.
    Second, this is a new program with normal, initial start-up costs. 
The first, major activity was a thorough study of the national security 
threat posed by radiological dispersion devices. This study was 
conducted by U.S. subject matter experts, including specialists from 
DOE national laboratories as well as leading experts from private 
industry. At least 28 subcontractors, in addition to personnel from the 
national labs, were involved and their travel--both domestic and 
international--is all reported as funding spent at national labs.
    As the program progresses to an operational phase, increased 
spending in international venues is planned.

    5. Senator Akaka. Mr. Longsworth, the IAEA is developing a Draft 
Code of Conduct on the Safety and Security of Radioactive Sealed 
Sources. It will provide non-binding guidelines for nations to follow 
if they wish to improve the safety and security of sealed sources 
within their borders. This is important, but where possible we should 
reduce our reliance on dangerous sealed sources, thus reducing the 
``sources'' of concern. Senator Domenici in the Energy Bill has a 
provision calling for research on finding substitutes for sealed 
sources. How do you plan to work internationally to help countries, 
industries, medical facilities, etc., to find substitutes for sealed 
sources?
    Mr. Longsworth. NNSA is currently exploring these issues with the 
International Atomic Energy Agency. NNSA held a meeting in Vienna in 
April 2003 with major sealed source manufacturers to discuss ways to 
enhance the safe and secure design, manufacture, distribution, and 
return of radioactive sources and devices. I anticipate follow-on 
meetings and technical discussions to identify recommendations and a 
path forward.

    6. Senator Akaka. Mr. Longsworth, in May, GAO delivered to me a 
report concerning the U.S. program in recovering domestic greater-than-
Class-C radioactive sources. Thousands of these sources still remain to 
be recovered. In addition to the concerns over a dirty bomb, GAO showed 
that there was enough Pu-239 in unrecovered sources for one to two 
nuclear bombs. GAO found that DOE was not giving the program the 
attention it needed or deserved. What plans does DOE have to give this 
program greater attention?
    Mr. Longsworth. Approximately a year and half ago, the Office of 
Defense Nuclear Nonproliferation (NA-20) established a program to 
improve the security of sealed sources overseas. The initial focus of 
the program has been on the former Soviet Union, but in recent months 
has expanded to include other countries of concern. Currently, upgrades 
are in progress at a total of 43 sites in 11 countries. By the end of 
this fiscal year, it is anticipated that 17 site upgrades in 7 
countries will be completed.
    The scope of this problem is large and NA-20 has created four 
documents to guide its activities including a strategic plan, an action 
plan, radioactive threshold values for items of concern, and 
programmatic guidelines to ensure that consolidation and security 
upgrades are consistent across the program. Efforts in this area have 
been closely coordinated with IAEA. Under a tripartite initiative, the 
IAEA and the Russian Federation collaborate with NA-20 to locate and 
secure vulnerable, high-risk sources in the former Soviet Republics. 
Additionally, NA-20 has actively engaged the interagency and has formed 
an interagency working group to develop policy recommendations in cases 
where take-back U.S. origin sources outside the continental U.S. may be 
necessary.

                  THE IAEA'S NONPROLIFERATION MISSION

    7. Senator Akaka. Mr. Longsworth, I am very interested in the 
IAEA's efforts to prevent the proliferation of nuclear weapons. The 
IAEA came to play an important role in uncovering and containing Iraq's 
nuclear program. Now we are looking for the IAEA to play a central role 
in investigating Iran's nuclear intentions. If our diplomacy with North 
Korea bears fruit, the IAEA will undoubtedly be active in monitoring 
and inspecting the elimination of North Korea's nuclear weapons 
program. What are your plans to assist the IAEA in accomplishing its 
crucial nonproliferation mission?
    Mr. Longsworth. The Office of Defense Nuclear Nonproliferation (NA-
20) is one of the U.S. Government's leading supporters of the IAEA and, 
if confirmed, I intend to further our support of the Agency and its 
nonproliferation activities. NNSA support to the IAEA includes 
financial support, personnel, equipment, training, and technical 
consulting services.
    NNSA provides experts from its national laboratories to support the 
IAEA in a wide range of nonproliferation disciplines. NA-20 made 
available over 160 U.S. technical experts who volunteered to support 
the IAEA's WMD inspections in Iraq before the recent conflict. NA-20 
also provided expert assistance to facilitate the IAEA's verification 
of the nuclear material at Tuwaitha last month.
    NNSA continues to provide expert advice and technology to assist 
the IAEA in its role of conducting inspection and monitoring activities 
in the Democratic Peoples Republic of Korea (DPRK). Should our 
diplomacy with North Korea bear fruit, the IAEA will be fully prepared 
to carry out its important those inspections activities. NNSA has also 
developed and trained the IAEA on tools for measuring plutonium in 
spent fuel. I anticipate that further high-priority technical support 
will be needed by the IAEA, should its inspectors be allowed to return 
to the DPRK. If confirmed, I will ensure that NA-20 is responsive to 
any such requirements.
    Consistent with IAEA concerns, NNSA is also working with U.S. 
partners in the Nuclear Suppliers Group (NSG) to protect against the 
diversion of nuclear exports to the DPRK and Iran. NNSA, for example, 
developed and circulated watch-lists of nuclear-related items that fall 
below the control list threshold, but which could nevertheless support 
Iranian or DPRK nuclear weapons development.

                    NUCLEAR NONPROLIFERATION TREATY

    8. Senator Akaka. Mr. Longsworth, I am worried about the future of 
the nonproliferation regime. We were concerned about Iraq violating the 
NPT. Now we are seeking to get North Korea back into the NPT and to 
hold Iran to its NPT commitments. At the NPT's 1995 Review and 
Extension Conference, a commitment to sign a Comprehensive Test Ban 
Treaty by the end of 1996 was one of the key conditions that allowed 
the gathered nations to agree to the NPT's indefinite extension. The 
administration's decision to explore new nuclear weapons designs and 
shorten test site readiness raises questions about U.S. nuclear testing 
plans. If the United States were to resume nuclear testing, do you 
believe the nonproliferation regime would be undermined?
    Mr. Longsworth. The nuclear nonproliferation regime is strong 
despite the current compliance challenges it faces in Iraq, Iran and 
North Korea. At this time, the United States is not developing, 
testing, or producing any nuclear warheads nor does it have any plans 
to resume nuclear testing, consistent with its unilateral moratorium on 
nuclear testing. The administration continues to maintain its 
unilateral moratorium on nuclear testing and urges other states to do 
likewise. In light of this moratorium, it would be imprudent for me to 
respond to hypothetical questions directed at the impact of resumed 
nuclear testing by the United States on the non-proliferation regime.
                                 ______
                                 
    [The nomination reference of Paul M. Longsworth follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                    April 28, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Paul Morgan Longsworth, of Virginia, to be Deputy Administrator for 
Defense Nuclear Nonproliferation, National Nuclear Security 
Administration, vice Linton F. Brooks, resigned.
                                 ______
                                 
    [The biographical sketch of Paul M. Longsworth, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

               Biographical Sketch of Paul M. Longsworth

    Paul M. Longsworth was nominated to be Deputy Administrator 
for Defense Nuclear Nonproliferation at the National Nuclear 
Security Administration (NNSA) by President George W. Bush on 
April 28, 2003. The NNSA carries out the national security 
responsibilities of the Department of Energy (DOE). The NNSA's 
nonproliferation programs work to detect, prevent, and reverse 
the proliferation of weapons of mass destruction. The 
nonproliferation office promotes international nuclear safety 
and supports programs that ensure the security of nuclear 
weapons materials in Russia and other countries. The 
nonproliferation office also supports research and development 
of detection systems for biological and chemical agents.
    Mr. Longsworth is currently the Senior Policy Advisor for 
National Security and the former Soviet Union to the Secretary 
of the United States Department of Energy. He is responsible 
for advising the Secretary on a wide range of programs and 
issues related to stockpile stewardship and nonproliferation.
    Mr. Longsworth has over 16 years of experience in national 
security, nuclear, and environmental issues. He has served in 
the executive and legislative branches of the Federal 
Government and in the private sector. Prior to coming to DOE, 
Mr. Longsworth served as a professional staff member on the 
Senate Armed Services Committee, where he was responsible for 
defense nuclear matters, including: nuclear weapons, 
radioactive cleanup, fissile materials disposition, and naval 
nuclear propulsion programs. Mr. Longsworth has also worked for 
the Senate Environment and Public Works Committee, the Center 
for Strategic and International Studies, the DOE Office of 
Science and Technology, and the Advanced Energy and 
Environmental Systems Division of BDM International 
Corporation.
    Mr. Longsworth hold a Bachelor of Science in Finance-
Economics from Wichita State University. He has received many 
awards of distinction.
    Mr. Longsworth resides in Arlington, Virginia, with his 
wife and two children.
                                ------                                

    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Paul M. 
Longsworth in connection with his nomination follows:]

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Paul Morgan Longsworth.

    2. Position to which nominated:
    Deputy Administrator for Defense Nuclear Nonproliferation, National 
Nuclear Security Administration, U.S. Department of Energy.

    3. Date of nomination:
    April 28, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    July 1, 1962; Swindon, United Kingdom.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Rebecca Newell Keen Longsworth.

    7. Names and ages of children:
    Parker Townsend Longsworth, Age 5.
    Zachary Keen Longsworth, Age 3.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.

----------------------------------------------------------------------------------------------------------------
                                               Attended                  Degree                 Graduated
----------------------------------------------------------------------------------------------------------------
Bellevue East High School, Bellevue,   Sep. 1977 to May 1980..  Diploma................  May 1980
 NE.
University of Arkansas, Fayetteville,  Aug. 1980 to Dec. 1982.  None...................
 AR.
Wichita State University, Wichita, KS  Jan. 1983 to Dec. 1985.  B.S., Finance..........  Dec. 20, 1985
American University, Washington, DC..  Sep. 1989 to Dec. 1989.  None...................
----------------------------------------------------------------------------------------------------------------


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    Senior Policy Advisory for National Security and the former Soviet 
Union, Office of the Secretary of Energy, U.S. Department of Energy, 
Washington, DC, February 2001 to present.
    Professional Staff Member, Committee on Armed Services, U.S. 
Senate, Washington, DC, May 1996 to February 2001.
    DOE Legislative Fellow, Committee on Environment and Public Works, 
U.S. Senate, Washington, DC, April 1995 to May 1996.
    Technology Transfer Specialist, Office of Environmental Management, 
U.S. Department of Energy, Gaithersburg, MD, March 1994 to March 1995.
    Program Analyst, Office of Economic Transition, Richland Operations 
Office, U.S. Department of Energy, Richland, WA, October 1993 to 
February 1994.
    Executive Assistant to the Deputy Assistant Secretary for 
Technology Development, Office of Environmental Management, U.S. 
Department of Energy, Washington, DC, October 1991 to October 1993.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    None.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, First Baptist Church, Alexandria, VA.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    Member, Executive Committee, Young Republican National Federation 
(1982-1985).
    State Chairman, Kansas Young Republicans (1983-1984).
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    $100 to the Republican National Committee, December 2000.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    Environmental Fellow, Council on Excellence in Government, 1996.
    V. Jerry Blue Scholarship in Entrepreneurship, 1984.
    Outstanding Young Men of America.
    Eagle Scout.

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Article: ``Raising the Drinking Age is Not the Answer'' (1983), 
Sunflower Newspaper.
    Article: ``For the Republican View'' (1984), Kansas Student Voice.
    Article: ``Maximizing Research and development Investment in the 
Department of Energy's Environmental Cleanup Program,'' (1996), Journal 
of Technology Transfer.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    I have given several speeches on topics relevant to the position 
for which I have been nominated; however, as I do not speak from a 
prepared text, there are no transcripts of such speeches.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                Paul M. Longsworth.
    This 14th day of May, 2003.

    [The nomination of Paul M. Longsworth was reported to the 
Senate by Chairman Warner on July 16, 2003, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 21, 2003.]


   NOMINATIONS OF GEN. RICHARD B. MYERS, USAF, FOR REAPPOINTMENT AS 
CHAIRMAN OF THE JOINT CHIEFS OF STAFF AND REAPPOINTMENT TO THE GRADE OF 
GENERAL; AND GEN. PETER PACE, USMC, FOR REAPPOINTMENT AS VICE CHAIRMAN 
 OF THE JOINT CHIEFS OF STAFF AND REAPPOINTMENT TO THE GRADE OF GENERAL

                              ----------                              


                        THURSDAY, JULY 24, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:36 a.m. in room 
SR-325, Caucus Room, Russell Senate Office Building, Senator 
John Warner (chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Sessions, Levin, Reed, Akaka, E. Benjamin Nelson, 
Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; Cindy Pearson, assistant chief clerk and security 
manager; and Gabriella Eisen, nominations clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Lynn F. 
Rusten, professional staff member; Scott W. Stucky, general 
counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, minority 
counsel; Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; Gerald J. Leeling, 
minority counsel; and Peter K. Levine, minority counsel.
    Staff assistants present: Andrew W. Florell and Sara R. 
Mareno.
    Committee members' assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; James Beauchamp, assistant to Senator Roberts; 
Arch Galloway II, assistant to Senator Sessions; Frederick M. 
Downey, assistant to Senator Lieberman; Eric Pierce, assistant 
to Senator Ben Nelson; Andrew Shapiro, assistant to Senator 
Clinton; and Terri Glaze, assistant to Senator Pryor.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone.
    We are here this morning for a very important hearing with 
the Armed Services Committee on the advice and consent 
procedures by which the Senate, under its constitutional 
authority, expresses their collective view on the performance 
of these two very fine officers for the 2 years they have been 
in office, and the strong likelihood that that advice and 
consent will be given for the ensuing 2 years. The nominations 
of General Richard B. Myers, U.S. Air Force, current Chairman 
of the Joint Chiefs of Staff, and General Peter Pace, U.S. 
Marine Corps, the current Vice Chairman, to be reappointed to 
the grade of General and to continue to serve for a second 2-
year term in their respective positions are the subject of 
today's hearing.
    At a time of extraordinary activity for our Armed Forces, 
we are privileged to have before the committee this morning 
these nominees who have played such critical roles in the 
global war on terrorism and in Operation Iraqi Freedom.
    General Myers was Vice Chairman of the Joint Chiefs of 
Staff on September 11, 2001, when the planes hijacked by 
terrorists slammed into buildings in New York and here in 
Washington, DC, into the Pentagon. In fact, he was in the 
building, and was acting Chairman that day when America came 
under attack.
    We all remember it for different reasons, but Senator Levin 
and I went over and joined you, General Myers, and the 
Secretary of Defense down in the rooms where the Chiefs make 
their decisions. We remember that very well.
    Less than 3 weeks later, General Myers was confirmed by the 
Senate as Chairman of the Joint Chiefs of Staff, and was 
leading the planning efforts for the global war on terrorism. 
Replacing him as Vice Chairman during that fateful time for our 
Nation was General Pete Pace, who had already served so ably as 
Commander of the U.S. Southern Command. Together, they have 
provided a great team for America and this administration. I am 
pleased that the President and Secretary of Defense have 
decided to keep the team together for the coming 2 years, 
subject to Senate confirmation.
    The committee also welcomes the lovely wives of our two 
officers. Forgive me for not speaking to you when we arrived 
here, Mary Jo Myers and Lynne Pace.
    I ask that in a moment you introduce those lovely ladies 
and the family members that may be gathered with them.
    Families are an essential part of military life, and they 
play a role more and more now. The Armed Forces are about 60 
percent, I think, a married force, compared to years ago in our 
country when a very small fraction of military men, certainly 
in World War II and Korea, were married.
    Two years ago, when General Myers and General Pace were 
confirmed as Chairman and Vice Chairman, our Nation had just 
come under attack. The military was faced with great 
challenges. The tempo of military operations over the past 2 
years has been unprecedented: operations in Afghanistan, a 
global war against terrorism, Operation Iraqi Freedom, and 
ongoing commitments around the globe.
    While major combat operations in Afghanistan and Iraq have 
concluded, the danger to U.S. and Coalition Forces continues, 
and I think that General Abizaid and General Sanchez, and 
indeed General Myers and General Pace have tried to clarify 
some misunderstanding with regard to the President's historic 
remarks made this year in terms of the reality that this war 
for the small unit soldiers remains very threatening and is 
taking its toll.
    The most challenging phase of these military operations lie 
ahead, as we attempt to bring peace, security, and democracy to 
the people of Iraq and Afghanistan. All of us--the American 
people, Congress, and especially the families of those who 
continue to serve--are concerned about these challenges, and we 
look to you two fine professional officers to give that 
leadership.
    The global war on terrorism is far from over. Our forces, 
Active and Reserve, are the best in the world; but they are 
spread, in the judgment of many, including this Senator, in a 
very thin way. We have to address how best to take care of the 
short-term and the long-term challenges of the standing size of 
our forces.
    As we speak, a possible deployment to Liberia is under 
consideration, and we will cover that subject today in the 
course of this hearing, because I have some very grave concerns 
about this operation, given the facts as we know them now and 
the changing picture, hour upon hour, in that area of the 
world. Undoubtedly, there is enormous human suffering, 
deprivation, and the like. But to inject U.S. forces into that 
scene requires very careful planning.
    As always, the threat from North Korea, another rogue 
state, looms large on the horizon, and the North Korean 
situation is very high on the priority of the members on this 
committee as to what our options are there. We will cover that 
today.
    General Myers and General Pace have superb records of 
military service which are summarized in the biographies before 
us, and are already well-known to the committee. I will not 
elaborate further, other than to say that we are fortunate as a 
Nation to have such well-qualified professionals for these 
important positions.
    General Myers and General Pace, we thank you for your 
service, and that of your families--I repeat, that of your 
families--and for your willingness to continue to lead this 
Nation and our military.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you, Mr. Chairman. This is an historic 
event in that we have never before, to my knowledge, held a 
hearing in which both the Chairman and the Vice Chairman of the 
Joint Chiefs of Staff testified at the same hearing. It is 
appropriate that it be held, actually, in this historic room.
    I want to extend a very warm welcome, both to General Myers 
and General Pace, and their spouses and their family members, 
if there are additional family members here in attendance.
    When the committee held its hearing on the nomination of 
General Myers to be Chairman of the Joint Chiefs of Staff, it 
was a scant 2 days after the terrorist attacks on New York City 
and the Pentagon. The hearing on General Pace's nomination to 
be Vice Chairman followed some 12 days later.
    The intervening period since then has witnessed 
extraordinary events; some of the most extraordinary events, 
indeed, in our Nation's history. United States and Coalition 
Forces attacked the Taliban and al Qaeda forces in Afghanistan, 
commencing on October 7, 2001. As a result of Operation 
Enduring Freedom, the Taliban regime was removed from power, al 
Qaeda lost its safe haven, and the transitional government of 
President Karzai was selected in a traditional Afghan way to 
lead the country until a permanent government could be elected.
    Afghanistan, however, is not yet free from conflict, and 
some 8,000 U.S. forces remain deployed there, in addition to a 
like number of allied forces.
    U.S. and Coalition Forces launched Operation Iraqi Freedom 
on March 19 of this year. Coalition Forces liberated Iraq and 
routed the Iraqi army and security forces with extraordinary 
speed. But Iraq is far from free from conflict, and 
approximately 148,000 U.S. forces remain deployed there, with 
about 12,000 Coalition Forces, mostly British, at this time.
    Frequent ambushes, mainly carried out by the Baathist 
forces loyal to Saddam, are resulting in almost daily 
casualties to U.S. forces. We all hope that Tuesday's firefight 
in which Saddam's sons were killed will help to eliminate any 
belief or fear that Saddam might return.
    Our forces in Iraq--a number of whom have been deployed to 
the Persian Gulf for nearly a year, and most of whom have been 
there for 6 months--are tired, and with conflicting 
announcements as to their departure date, they are riding an 
emotional roller coaster. Hopefully, yesterday's announcement 
of an Army rotation plan will provide the predictability that 
they so sorely need.
    U.S. forces also remain overseas in long-term deployments, 
such as to South Korea; in mid-term peacekeeping deployments to 
the Balkans; and in short-term deployments, such as the Horn of 
Africa. Potential deployments to places like Liberia remain 
possible, and possibly dangerous. Our forces, both Active and 
Reserve, are stretched very thin. This is particularly true of 
our ground forces, and is exacerbated in certain specialties 
such as military police, special operators, and civil affairs.
    In the face of these challenges and demands, American 
servicemen and women have demonstrated extraordinary bravery in 
combat and unparalleled compassion in combat's aftermath.
    Senator Warner and I, along with many of our colleagues on 
this committee, have been privileged to visit our troops in 
those two nations and elsewhere, and have been enormously proud 
of them, their dedication, and their professionalism.
    Most of that is because of their own personal qualities; 
but some of that is attributable to leadership, and two truly 
fine leaders are before us today. The Nation is fortunate that 
General Myers and General Pace have agreed to continue to serve 
in the demanding positions of Chairman and Vice Chairman of the 
Joint Chiefs of Staff. We will need the experience and the 
outstanding professional judgment that these two officers bring 
to those assignments. We again are very grateful to them and to 
their families for their service and dedication to this Nation.
    Chairman Warner. I am about to ask the standard questions, 
but I am informed that one of our colleagues, the chairman of a 
committee, has to go to chair his own committee hearing, so I 
will defer to him at this point.
    Senator Inhofe.
    Senator Inhofe. I will be very brief. Thank you, Mr. 
Chairman. I do have to chair a committee hearing in about 18 
minutes from now, so there won't be time to get to questions.
    Let me just echo what both of these gentlemen have said. I 
honestly cannot think or believe there is anyone I can think of 
in the uniformed services that I hold in higher regard than the 
two of you. You have done a great job. I don't think we are 
giving you all you need, however, so I would like for the 
record for you to please analyze where we are in two areas.
    There is an article that just came out in Space Technology 
that quoted General Handy talking about what you had to do to 
handle the transport and tanker problems that we had, and I 
felt if something interrupted someplace else in the world at 
that time, I think we would have had real serious problems. So 
I would like to have you address that.
    Also, I have the standard question that I always ask, and 
that is regarding both end strength and force structure. Mr. 
Chairman, I appreciate the opportunity to get to these 
questions.
    Chairman Warner. Thank you. Will you prepare those 
questions and then formally----
    Senator Inhofe. I will do that, fine.
    Chairman Warner. Senator McCain.
    Senator McCain. I have no opening statement, Mr. Chairman.
    Chairman Warner. Senator Nelson.
    Senator Ben Nelson. I have no statement, thank you.
    Chairman Warner. The committee has asked both General Myers 
and General Pace to answer a series of advance policy 
questions, and they have responded to those questions.
    Without objection, I will make the questions and responses 
part of the record.
    I also have certain standard questions we ask of every 
nominee who appears before the committee. If you will both 
respond to each question, then we can move on to the policy 
issues.
    First, have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Myers. I have.
    Chairman Warner. General Pace.
    General Pace. Yes, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record and for hearings?
    General Myers. Yes, sir.
    General Pace. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Myers. Yes, sir.
    General Pace. Yes, sir.
    Chairman Warner. Will those witnesses be protected from 
reprisal for their testimony or briefings?
    General Myers. Yes, sir.
    General Pace. Yes, sir.
    Chairman Warner. If you have any opening remarks, we will 
give you the opportunity. But before you do so, I wanted to 
share with each of you, because this is a subject which is very 
active at the moment, some information that I just received.
    I talked to the Deputy Secretary of Defense and to the 
deputy to Ambassador Bremer about the release of the pictures 
of Saddam Hussein's two sons. I was advised that at this moment 
the press, predominantly the Iraqi press, are being given 
access to photographs of those remains and those photographs 
will be released. Thank you.
    General Myers.

STATEMENT OF GEN. RICHARD B. MYERS, USAF, TO BE CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Myers. Mr. Chairman, Senator Levin, other 
distinguished members of the committee, I do have a short 
opening statement, and I thank you for the opportunity to 
appear before you today.
    The first thing I would like to do is to thank you for your 
support of all the men and women in uniform who serve today, 
and our veterans. I know you are as proud as I am of the work 
they have been doing and your statements indicated that and we 
thank you for all of that support.
    As you indicated in your remarks, the past 2 years have 
brought incredible challenges for our Nation. We have united to 
prevent a recurrence of the horrible attacks of September 11, 
2001, and we have fought the threat of global terrorism. We 
have won major battles in the war on terrorism.
    In Afghanistan, as you indicated Senator Levin, we toppled 
the oppressive Taliban regime. We have disrupted al Qaeda's 
safe haven and destroyed terrorist training camps. In Iraq, we 
ended Saddam Hussein's brutal regime in a matter of weeks.
    However, we certainly aren't dwelling on past successes. 
There is clearly much work yet to be done in this war on 
terrorism. We continue to work toward stability and security in 
Afghanistan, Iraq, and other places around the globe. To ensure 
a lasting peace in these countries, we must be aggressive and 
determined in our actions, and patient and steady in our 
commitment. It will take time for representative governments to 
take hold, and it will take time to build the confidence of 
newly liberated people.
    The situation in Iraq today is complex. Saddam Hussein left 
behind a legacy of fear and corruption, a degraded economy, and 
a deteriorated infrastructure. This legacy creates a 
vulnerability which those who lost their status under the old 
regime attempt to exploit.
    Former Baathist ex-soldiers, paramilitary groups, security 
organizations, criminals, and terrorists from other countries, 
operating in small cells or at random, seek to perpetuate 
Saddam Hussein's pattern of brutality and destruction by 
carrying out attacks on Coalition Forces and on Iraqis who seek 
peace and freedom.
    In addition to confronting these threats, our men and women 
are helping to accomplish some amazing things in Iraq. More 
than 30,000 Iraqi police officers are establishing law and 
order in Iraq. Our forces are providing training to many of 
them, including ethics training, in addition to day-to-day 
police work training.
    Iraq now has a free press. In fact, more than 100 
newspapers are being published. United States forces helped 
reopen Mosul's independent television station.
    One hundred forty-eight courts are now up and running. 
Military lawyers are advising the Iraqis on how to conduct fair 
trials. Twenty-seven of 43 banks have begun conducting 
transactions, and the Iraqi central bank is paying salaries to 
police, hospital staff, teachers, and utility workers. 
Coalition Forces are helping to safeguard their vaults.
    We have helped deliver over 1 million metric tons of food. 
Nearly all of Iraq's 1,450 hospitals and clinics are treating 
patients, and our forces are providing security for some of 
these. Ninety-five percent of the schools are open, including 
Baghdad University, and these schools are now being used for 
education instead of storing weapons. Our forces have helped 
repair and rebuild some of these schools.
    I could go on. The point is that our forces are making a 
real difference in Iraq. They are providing not only security 
but also prosperity, freedom of expression, justice, education, 
and medical care. They are making a very real difference, and 
they are providing hope for the future.
    Our forces understand the importance of their role in this 
mission, and commanders at every level are confident about the 
future in Iraq. On the other hand, we know the war on terrorism 
isn't over. Brave men and women go in harm's way every hour of 
every day, in Iraq and elsewhere. We remember the families and 
friends of those who have fallen in our thoughts and prayers.
    We are asking a lot of our troops right now, but it is for 
good reason. Never before in our Nation's history has our very 
existence and all we stand for been threatened in the way it is 
being threatened now. Terrorists want to destroy freedom and 
democracy here in the United States and around the world and I 
am certain that al Qaeda, as we speak, is planning more 
terrorist attacks.
    One thing you can be sure of: We are committed to fighting 
this war on terrorism and to protecting American values, the 
American people, and our homeland, and you can also be sure of 
one other thing--that we will win.
    Again, I think the past few years have brought tremendous 
successes, and I intend to continue to pursue the three 
priorities that have been my focus for the past 3 years. 
Winning the war on terrorism is one of them. Number two is 
enhancing joint warfighting, and three is transforming our 
Armed Forces so we can deal with this 21st century threat in 
the environment we face.
    If confirmed, I promise to continue providing you the best 
military advice I can offer. Anything less would be a 
disservice to the fighting men and women to whom America owes 
so much.
    When I came before you in confirmation just 2 days after 
the terrorist attacks of September 11, I pledged to focus on 
sustaining our quality force and taking care of the heart of 
our military, our dedicated soldiers, sailors, airmen, marines, 
Coast Guardsmen, and DOD civilians. I reiterate that pledge 
today, and I look forward to answering your questions. Thank 
you.
    Chairman Warner. Would you be most kind to introduce your 
family, General?
    General Myers. Mr. Chairman, I have one family member here 
today--at least that I know of--and that is my wife, Mary Jo. 
We celebrated our 38th wedding anniversary in June, and I can 
guarantee you that I would not be sitting at this table if it 
were not for her support, her critique of performances, which 
she will be doing later today, and everything that the family 
needs in the military today.
    You are exactly right. Families are part of the military 
and readiness, and our ability to do our job is dependent upon 
our families and how they are taken care of.
    Chairman Warner. Thank you very much, Mr. Chairman.
    General Pace, perhaps you would start by introducing your 
family, and then proceed with your statement.

STATEMENT OF GEN. PETER PACE, USMC, TO BE VICE CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Pace. Mr. Chairman, thank you, sir. Senator Levin, 
members of the committee, it is my great pleasure to introduce 
my wife, Lynne. We just celebrated our 32nd anniversary this 
past April. Our two children are not able to be here today. Our 
daughter Tiffany is an accountant and our son Peter is a 
Captain in the United States Marine Corps. We are immensely 
proud of both of them, and as General Myers has pointed out, 
and as is true for me, and is true for all of our service 
members, we cannot do what we do without the unbelievably 
strong support of our families.
    I know for me personally, my wife and two children have 
made me feel every day that what I do is important and like so 
many other families, they pretend--and they let me pretend--
that the awards I have received and the promotions I have 
received have been based on my own merit. I know that it is, 
like with so many other families, because of their support and 
because of their sacrifice.
    We have families right now whose loved ones are serving 
overseas. They don't know when their son or daughter, or their 
spouse, is in trouble or in harm's way, so they go through 
every day thinking the possible worst. The families do, in many 
ways, sacrifice more than those of us who go overseas to fight 
our country's battles, and we owe them all a great debt of 
gratitude.
    Chairman Warner. I appreciate those comments from both of 
you, because we have a military force today which I refer to, 
really, as a married force. It's at 60 percent; is that about 
right, general?
    General Myers. That's about right, sir.
    Chairman Warner. We have seen recently the courage 
expressed by families in times of grief, in times of, frankly, 
disagreeing with some of the decisions being made. I think it 
has been a healthy thing for spouses to speak out in certain 
instances. So speaking for myself, I welcome it and encourage 
it.
    General Pace. Thank you, sir. I would like to thank you and 
the committee for the opportunity to appear before you here 
today, and especially, and more importantly, for the strong, 
steadfast, bipartisan support of this committee in supporting 
all of us in uniform.
    It has been my honor since 1 October of 2001 to serve as 
Vice Chairman, alongside General Myers. If confirmed, I promise 
that I will continue to strive to provide my best military 
advice to the leadership of this country.
    In providing that best military advice, I will keep in mind 
that privates to lance corporals to lieutenants and captains, 
and all those who are in harm's way right now, deserve our very 
best support and deserve our very best advice to those of you 
who make decisions.
    Again sir, we owe a great debt of gratitude to all our 
families, and I thank you for this opportunity.
    Chairman Warner. Thank you very much.
    I just want to comment. You mentioned the sergeants and the 
corporals and the like. That has really been the backbone and 
the strength of our military since the earliest times. We have 
had that fine tradition of authority being reposed in those in 
the enlisted ranks.
    I know all of us here, I think, have visited Afghanistan, 
and are about to visit Iraq. We have seen how the sergeants 
have had enormous responsibility. General, perhaps you could 
share a story that you told me last night about one sergeant 
and his role in connection with the location and designation of 
Saddam Hussein's two sons? That's quite a story.
    General Myers. I would be happy to, Mr. Chairman. It has to 
do with the first reports from an Iraqi of where the two sons 
might be, and the first report came into part of the 101st 
Division. It was one of their military intelligence units. The 
first report was to a sergeant.
    This sergeant gets tens of these kinds of people walking in 
every day with various reports; so he has to be on his toes, 
because they can't chase them all down. So they have to sort 
them out in a way, just like any kind of work like this.
    Chairman Warner. Now, he is the point man to make the first 
decisions as to where there is and is not credibility?
    General Myers. He makes the first decision. You bet.
    His instinct told him, this sounds plausible. So he started 
the chain of events that led to the events that you know about.
    I would tell you, and I don't know for certain, but I know 
the next people in that chain of command were other 
noncommissioned officers (NCOs), up to a captain. So probably 
for the first hour or so decisions were being made by exactly 
the kind of people General Pace was talking about, who serve us 
so well.
    Chairman Warner. Thank you for that.
    I wanted to accommodate, again, Senator Inhofe, who has to 
chair another committee hearing.
    Senator Inhofe. Thank you, Mr. Chairman. I will not abuse 
that generous offer. I will only say that I will be submitting 
the questions for the record. A lot of us may be concerned 
about the shortage that I have referred to in our tanker and 
airlift capability. I will specifically be asking some things 
about the advisability of retiring some 68 of our KC-135Es in 
light of this shortage; and then wanting to get specifically a 
question about Guard and Reserve versus the regular forces, and 
the blend change that you folks and others have talked about. 
So I'll just do that for the record and Mr. Chairman, you're 
very nice to allow me to say this.
    Chairman Warner. Then in the minute I have remaining, I 
would like to ask for your views on the issue of bringing in 
additional nations to participate with the coalition force 
structure today in the security mission. What successes you 
have had, and what is the likelihood of additional 
participation?
    My understanding is that there are 19 nations that have 
contributed military forces, which are in one way or another 
participating in the overall coalition responsibility to bring 
about security in the confines of the entire Iraq border.
    General Myers. I would be happy to do that, Mr. Chairman. 
In the overall way of dealing with the security situation in 
Iraq, internationalizing that capability is very important to 
us.
    We have one international division in there currently being 
led by the U.K. They have several nations that support them, 
and those are part of the 19 nations that have committed ground 
troops to the security situation and to the coalition. There 
are 15 other nations that will be committing troops, as well.
    We have elements of the Second International Division in 
Iraq as we speak trying to learn what their responsibilities 
are going to be, and they are being helped by U.S. forces. They 
are being helped to put their forces together by the North 
Atlantic Treaty Organization (NATO), because it is a NATO 
nation, Poland, that will lead the next international division. 
So that is a total of 34 countries that have pledged troops on 
the ground, 19 there now, and 15 that will be there.
    Ideally we would like more, and we are working with several 
other countries to try to get them to come in and lead another 
division. We would certainly like three international divisions 
here in the near-term if we could get them. We will be working 
with these other countries that could possibly provide forces.
    So it is exactly the right thing to do, and I think we are 
getting the support because people understand how important it 
is to win the war on terrorism, to win the war, to finish the 
stability operations and win the conflict in Iraq, and create a 
prosperous and stable country there.
    Chairman Warner. Let's define the role of NATO a bit--they 
have not formally been involved, but they are working, as you 
say, with the Polish forces. To what extent will you and 
others, including the Secretary of Defense, be involved in 
trying to solicit further participation by NATO?
    The Secretary, when he appeared before this committee a 
short time ago outlined that a number of the NATO nations, 
notably Spain, have contributed forces. It is anticipated that 
others may do so. But the formalized participation by NATO, can 
that be more integrated into the overall command and control of 
this situation, or is the current headquarters and command 
structure sufficient? Doesn't it require either adjunct or 
participation by NATO?
    General Myers. Mr. Chairman, to answer that, let me remind 
people what NATO is involved in today. They are currently 
involved in Bosnia and Kosovo, both NATO operations. They are 
also taking over the interim security assistance force in 
Kabul, a force of over 5,000.
    Chairman Warner. In Afghanistan.
    General Myers. I'm sorry; Kabul, Afghanistan. They will be 
responsible for that mission. It will be a NATO mission. They 
are taking over from the Germans and the Dutch who are leading 
that mission right now, which of course are both NATO nations.
    I think the talk is beginning on what contributions NATO 
can make to Iraq, besides the contributions they are making 
today from the individual nations that you mentioned that are 
making contributions, and the help that they have given the 
Polish Division in the force generation and the planning. NATO 
has capability there, and they have helped out Poland and other 
countries that are joining Poland, in this regard.
    I think we just need to keep the door open. Certainly, 
nobody has closed the door on NATO participation in Iraq, and 
we just have to keep working on that. But I would just remind 
people, they are in three major operations right now--well, to 
include Iraq, four major operations--and they are the lead in 
three of them. But we would welcome, I think, NATO help.
    Chairman Warner. My last question would relate to Liberia 
and the decision process now underway by which the President is 
trying to make an assessment as to the force level and 
composition that could be put in by the United States to 
stabilize a very tragic situation in terms of human suffering.
    But, on the other hand, in my judgment it is a situation 
that poses great personal risk to forces such as our forces 
that could be injected into that very fast-moving and volatile 
situation there in Monrovia and greater Liberia.
    General Myers. If you will permit me, Mr. Chairman, let me 
just describe the situation that we currently have in Liberia. 
It hasn't changed dramatically in the last 24 hours.
    We have a situation where you have a leader who has to go. 
As we know, he is not a good leader, has not done good things 
for Liberia or, for that matter, has not been helpful to the 
countries in the region. So President Taylor must leave, and 
that part is being worked out.
    The other issue is the two major rebel groups, the 
Liberians United for Reconciliation and Democracy (LURD) and 
the Movement for Democracy in Liberia (MODEL). I think the 
intelligence community would tell us that you are probably not 
going to get political leadership out of these rebel groups, 
that they are not a replacement for Taylor. So it is not clear 
who is going to step forward in a political sense when the 
situation settles down in Liberia, to take over the political 
leadership.
    In the meantime, you have a humanitarian situation where 
food, clean water, and medical care is a problem. All the 
nongovernmental organizations that were in there providing 
those kinds of capabilities have left because of the security 
situation. So it is a situation that is, as you have described 
it, not a pretty situation. It is not going to give way to any 
instant fix. Whatever the fix is going to be is going to have 
to be long-term.
    Currently, we have the West African nations surrounding 
that area, to include Nigeria, Ghana, Senegal, and others, that 
are looking to put a force in there to help stabilize the 
situation in Liberia. They, of course, have asked for U.S. 
support, and what the administration is doing right now is 
trying to determine what the character of that support is going 
to be.
    As a military person I am concerned, like you, that 
whatever we do, we have a very clear mission, that we 
understand the mission we are asked to do, that we have an idea 
of when the mission is going to be over, and that we have 
sufficient force to deal with the security situation--that we 
do not go in on a shoestring when we need an adequate force. 
There are other things we can consider, but those are probably 
the three main things.
    We have looked at all sorts of options. There has been no 
decision made on this. I think I will just leave it there.
    Chairman Warner. I would also add, for myself, and I draw 
that from statements made by our President in earlier days, 
that there be a clear and identifiable strategic interest; 
security interest, of this country. That to me remains somewhat 
to be defined in this situation, should the decision be made to 
go forward.
    Can I just draw by way of conclusion from your remarks that 
you concur, that this is not a risk-free operation, if we were 
to undertake it?
    General Myers. Mr. Chairman, I don't think any operation 
like this is risk-free. We have at least three warring 
factions, the LURD, the MODEL, the two rebel groups, and the 
government forces themselves. They are all armed. They are not 
disciplined troops as we know them. There are a lot of young 
people fighting in these groups. It is potentially a dangerous 
situation.
    So when you go into it, you need to go into it knowing 
that. It may be that we can go in in terms of support for these 
Economic Community of West African States (ECOWAS) forces. 
ECOWAS countries have come forward and volunteered forces. Some 
of the forces will need some equipping and some training before 
they go in. So it is a longer-term issue, and it is a matter of 
months, probably not weeks, for some of those forces. Some of 
them probably can get in there fairly quickly, but small 
numbers.
    Then eventually I believe Kofi Annan up at the U.N. said 
this will become a U.N. mission at some point. That all has to 
be blended into this.
    But I will go back to the larger issue. There is a 
political situation there with the president of a country, a 
``democracy,'' and how they deal with President Taylor, and 
where he goes. This interim government is also important to our 
security situation. That is a somewhat cloudy picture today.
    Chairman Warner. General Pace, you had experience in your 
previous command before becoming vice chairman, with Central 
and South America, do you have any views to add to those of the 
chairman?
    General Pace. Sir, my experience in Somalia is a little 
more akin to the potential experience in Liberia. I would echo 
what General Myers just said, that it is potentially a very 
dangerous situation. If we are asked to do something 
militarily, we need to make sure we do it with the proper 
numbers of troops and that we be prepared for the eventualities 
of having to take military action.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Just on that Liberian issue, would you 
recommend going in unless Taylor is either gone or on his way 
out as we arrive?
    General Myers. So far, that has been one of the planning 
assumptions that we made. That otherwise, you get into a 
situation that General Pace knows only too well, and it would 
define your mission, and the mission would be quite different 
if Taylor were to remain there than if he were gone. So one of 
our planning assumptions is that he will leave, either before 
or simultaneously with the troops entering, whether they are 
ECOWAS or U.S. troops, or U.S.-supported ECOWAS troops.
    Senator Levin. General Myers and General Pace, the United 
States has 148,000 troops deployed to Iraq. It appears now our 
presence is going to be required for a long time. General 
Franks, who was here a few weeks ago, said that he thought the 
current troop levels would be required in Iraq for the 
foreseeable future.
    Do you agree with General Frank's assessment, General 
Myers?
    General Myers. General Abizaid, after his confirmation 
hearing before this committee and after he wound up his work in 
Tampa, is back in theater. The first thing he did was go to 
Baghdad and meet with all his commanders, his ground division 
commanders, and General Sanchez, the Commander of Joint Task 
Force 7.
    Of course, one of the questions he asked right away was, 
``Do you have the resources to do the job that we are asking 
you to do?'' His commanders agreed that they had the resources 
to do the job.
    I would say for the foreseeable future--it is hard to put a 
date on it, but I think for the next several months--that I 
would not anticipate a major shift in the number of forces over 
there. As we continue to work this situation, and as I 
indicated, aggressively going after the various elements that 
are providing a security threat to Coalition Forces and to the 
Iraqi people, we will have to recalibrate that.
    So I would say that General Abizaid won't look beyond next 
spring. That is about as far as he is looking in terms of force 
levels.
    Senator Levin. He will make no judgment either way beyond 
that at this time?
    General Myers. I don't think anybody is prepared to make a 
judgment beyond next spring at this point.
    Senator Levin. Either way?
    General Myers. Either way. But the force rotation schedule 
that was briefed by General Keane, the acting Chief of Staff of 
the Army, goes a little bit beyond that. It goes through 2004.
    Senator Levin. Does that force rotation schedule assume 
that there will be a third division coming in from some other 
country?
    General Myers. It doesn't. No, sir, I don't think it 
assumes that. It does not assume that. If that were to happen, 
then obviously we would need less U.S. forces.
    Senator Levin. You have had a conversation, I think, with 
your counterparts in other countries relative to the prospects 
for other countries participating in significant numbers; not 
of countries, but of countries that have significant numbers of 
troops.
    General Myers. Yes, sir.
    Senator Levin. Because it is not just the number of 
countries, but whether they are countries that have large 
numbers of troops that might make a commitment and so far, we 
have not been able to obtain the commitment of the Indians, 
Egyptians, French, Germans, or Pakistanis. There are a number 
of other countries.
    What, in your judgment--from your conversations with 
military leaders in those countries--would it take for us to 
obtain commitments from those countries that might be able to 
provide significant numbers of troops?
    General Myers. Let me first say that between the Office of 
the Secretary of Defense and the Joint Staff, the unified 
commanders out there, the Department of State, there is, if you 
will, a full court press on some of the countries you just 
mentioned for them to contribute troops.
    But it comes down to probably at least three categories.
    There is one category where what they want is the United 
States to come forward and ask them in a way that is acceptable 
to them. There is another case where they would like Islamic 
nations in the region to ask them; whether it is the Iraqi 
governing council that was just stood up or whether it is a 
Gulf State or Jordan or somebody, to ask for help to bring in 
another predominantly Muslim country. Then there is a third 
case where they are looking for the United Nations to ask for 
help.
    So there are at least those three baskets where I think you 
can put a lot of those countries in, and discussions are 
ongoing with some of the countries you mentioned. As a matter 
of fact, as you said, they have large standing forces and for 
the most part, they would like to do it. One of the things that 
we continually have to work with is what support do they need 
from the United States in terms of getting there, in terms of 
sustainment and so forth, and all those issues will have to be 
worked. But you can bet that this issue is very high on the 
priority list, to internationalize this effort as much as 
possible.
    General Pace. If I might answer, the other part of the 
coalition is the Iraqis themselves, and, sir, about one-half of 
these 60,000 police that we estimate we need have been 
recruited. The Iraqi Army estimate of about 40,000 is beginning 
training. Within the next 10 days, the first battalion begins 
its training. The militia force that is going to assist with 
static defense of pipelines and the like, is beginning to stand 
up.
    So the combination--not only of U.S. and other outside 
Coalition Forces, but the Iraqi people themselves--will be very 
useful and productive in the future.
    Senator Levin. Thank you. General Myers, at the press 
conference yesterday, Deputy Secretary Wolfowitz said that some 
of our assumptions turned out to be wrong in Iraq. He went on 
to describe a number of them, including the following: that 
none of the Iraqi Army units, at least none of any significant 
size, came over to our side so we could use them as Iraqi 
forces with us today.
    Another one that we assumed incorrectly was that the police 
would turn out to be helpful to us, but they turned out in the 
opposite direction, to require a massive overhaul. A third 
assumption which turned out to be wrong, he pointed out, worst 
of all was that the remnants of the Baathists who ran Iraq for 
35 years would continue fighting, as they have.
    Would you add any additional assumptions to that list which 
turned out to be wrong?
    General Myers. I think, Senator Levin, that is a fair list. 
On the police issue, if I may just put a little more detail, I 
was having dinner in Iraq back in May with some Army and 
military police who had been working with Iraqi police, and I 
said, how do they perform? They said, well, they are really 
quite a different force. They aren't police in the sense that 
we know police that are out among the populace that are on 
presence patrols, as we call it. They stayed in their station 
houses and went out to pick up people for interrogation and 
bring them back.
    I said, well--so it goes back to the opening statement, 
where it requires a lot of training. As General Pace said, we 
have about 31,000 police now back on the rolls of the total 
number needed of 61,000. The 31,000, most of them have been 
trained and most of them are out and about, but we are only 
halfway there.
    Clearly what we assumed about the police force was 
incorrect, so we have had to make up for it. In the 100 days 
that we have been working this, we have been fairly aggressive 
about that part of the action.
    I think one of our assumptions was that we would have the 
presence of the terrorist organizations like Ansar al-Islam and 
other foreign fighters come into Iraq. They don't want the 
coalition to be successful; they don't want a democratic Iraq; 
they don't want good things for the Iraqi people, so we knew 
they were going to come in.
    I don't know if we made an assumption on this, but it is 
something we need to keep our eye on. About 3\1/2\ weeks ago, 
we killed around 80 of these individuals who had come in from 
Syria and were in an encampment. They were not Iraqis, they 
were foreign fighters from other Arab states. We have to keep 
our eye on that.
    A big unknown out there--and I don't think it probably 
falls in this assumption category, because I think we assumed 
there would be issues here--but that is groups that are 
supported by Iran that are anti-coalition and that want to have 
undue influence on the Iraqi people. We have to watch that very 
carefully.
    Senator Levin. Thank you, Mr. Chairman. Thank you, General 
Myers.
    General Pace. I would just simply add, there were certain 
things, also, that we planned for that fortunately did not come 
about. We had to plan for the possibility of an environmental 
disaster in the northern and southern oil fields, and thanks to 
the plan that was executed by General Franks and his forces, 
that did not happen. Refugee flow to the tune of hundreds of 
thousands, if not millions, did not happen because of the 
precision of the attack. Starvation did not happen.
    So there were certainly things both good and bad that might 
have happened that did or did not happen, sir.
    Chairman Warner. Senator McCain?
    Senator McCain. I would like to thank both of you for your 
service and your willingness to serve the country, and we are 
very proud of the leadership and outstanding service you have 
rendered to the country.
    As you may know, there was a hearing yesterday at the House 
Committee on Armed Services concerning the leasing proposal for 
Boeing 767 aircraft. I have several questions concerning that.
    General Myers, have you ever heard of an acquisition, a 
major acquisition, of a weapons system or program that was made 
without the conduct of analysis of alternatives? Isn't it 
accepted procedure that an analysis of alternatives should be 
conducted?
    Perhaps, before you answer, I could quote from a letter 
that you wrote to me saying, ``If the Department and Congress 
decide to proceed with a lease agreement, the Joint 
Requirements Oversight Council (JROC) supports conducting an 
analysis of alternatives to address the remaining 
recapitalization requirement.''
    General Myers. Correct, Senator.
    I think, as I understand the situation, that the tanker 
lease proposal--there was some direction or guidance from 
Congress that they could conduct this differently, perhaps, and 
were relieved from some of the restrictions of normal 
acquisition programs in pursuing this approach. That is my 
understanding.
    Senator McCain. In an appropriations bill, certainly not 
through this committee?
    General Myers. Right.
    Senator McCain. But you took the one line in an 
appropriations bill as relief of a requirement--or somehow an 
excuse--for not having an analysis of alternatives, which is a 
fundamental, basic aspect of the determination of a--and this 
is at least roughly a $30 billion proposal?
    General Myers. I will stick with my letter, sir. I think we 
are prepared to do that.
    Senator McCain. Do you know if there has ever been a formal 
study of the corrosion problems associated with the KC-135s?
    General Myers. Sir, I don't know if there has been a formal 
study.
    Senator McCain. I don't think so. I think some Air Force 
generals went down there and looked at planes with corrosion on 
them, and said, ``Fire.'' I don't think that is appropriate 
behavior, to be honest with you, because I can find you planes 
all over the Air Force and the Navy, and the Marine Corps that 
have corrosion problems, but before we reach those conclusions, 
we do a study of the overall problem.
    General Pace, the Joint Requirements Oversight Council 
(JROC) plays a critical role in validating major defense 
acquisition programs, correct?
    General Pace. That is true, sir.
    Senator McCain. Validating major defense acquisition 
programs generally requires reviewing programs and analysis of 
alternatives (AOA). That is the same question I asked General 
Myers.
    General Pace. Yes, sir.
    Senator McCain. In fact, and in October of 2001--and I 
understand that you don't remember every document and every 
memoranda on which your name appeared. Please don't think that 
I do.
    But I would remind you that in October of 2001, as Chairman 
of the Joint Requirements Oversight Council, you directed that 
the United States Air Force brief on an air refueling AOA. I 
will be glad to supply you with that memorandum.
    It says, ``In addition, the Joint Requirements Oversight 
Council directs the program in return to brief the results of 
the future air refueling aircraft analysis of alternatives upon 
its completion.''
    Do you know if you were ever provided with that?
    General Pace. Sir, to the best of my knowledge the Air 
Force came back at least once, if not twice more.
    The problem as presented to the JROC, as I recall, was that 
we have a 35- to 40-year-old tanker fleet that is key to our 
strategic ability to deploy and employ our forces. The JROC 
agreed that those tankers need to be replaced, and we did not 
determine, nor was it our position to determine, whether they 
should be leased or bought. We simply said we needed to get on 
with the decision, and we recommended that a decision be made 
to replace those aircraft without bias from the JROC as to 
whether or not leasing or buying would be more appropriate.
    Senator McCain. Well, let me ask you again, did you receive 
an analysis of alternatives, as your memorandum requested?
    General Pace. We received a briefing, at least one if not 
two briefings, on buying versus leasing. The result was that 
leasing got us more tankers faster. Buying got----
    Senator McCain. How does it get you the tankers faster, 
General Pace?
    General Pace. If I remember the numbers, it is something 
like 68----
    Senator McCain. What is it that makes it faster if you 
lease versus the normal process?
    General Pace. I will have to go back and find the briefing, 
sir. But I recall the briefing summary was that we could get 
tankers faster by leasing, but it might be more expensive. What 
the JROC said was----
    Senator McCain. How do you get them faster? The production 
line produces a certain number of airplanes per day, week, or 
month.
    What you are talking about here is that we should--that 
because we are making this long-term commitment then we--
Congress doesn't approve the procurement every year. I guess 
that is the only thing I can assume. So therefore, we should 
lease aircraft carriers? I think the Chairman would be very 
amenable to saying let's lease about 10 carriers over the next 
20 or 30 years, because we could get online quicker that way.
    I want to tell you that--and my time has expired--you 
should pay attention to what the General Accounting Office 
(GAO) had to say yesterday before the House Armed Services 
Committee, and that is that GAO's cost estimate is $173.5 
million per plane, which is about $35 million more than $138.4 
million.
    There is no one on this planet that believes that at the 
end of a 6-year lease we are not going to buy the airplanes. No 
one believes that. So this facade that we are only going to 
have a lease for 6 years, and then we are going to pay them 
again for the purchase of it--we are running a $455 billion 
deficit here.
    I don't think you have a stronger advocate for defense 
spending than me, but it is very hard for me to go back--have 
you seen the lease yet? Has anyone seen the lease yet?
    So what you have done and what the Air Force has done is 
come over here and ask for the approval--which two of the 
bodies have, the House Appropriations Committee and the Senate 
Appropriations Committee--without us ever having seen the 
lease. Do you think maybe the taxpayers of America deserve to 
see the lease?
    General Pace. Sir, as best I can to try to answer the 
question, leasing or buying is not within the purview of the 
JROC. As I recall, the aircraft were available to be converted 
to tankers on the lease program. To buy, you would have to 
basically start from scratch and build the airframes.
    The presentation we received in the JROC was that not based 
on dollars and cents, but simply availability of airframes to 
be converted, versus buying and constructing new airplanes, 
that you could, in the short-term, get more airplanes more 
quickly.
    Again, we made no distinction between leasing and buying. 
We went forward and said we need to replace the 35 to 40, and 
regarding the dollars and cents you went to the civilian side 
of the house, where they make the decision about whether to buy 
or lease.
    Senator McCain. I thank you, General, and perhaps I am 
directing my remarks to the wrong person, because it is clear 
it was a political decision. An entity set up like Enron, by 
the way, is going to be involved in how they acquire this.
    But I think that, as advisers to the President of the 
United States, that you should be aware, that there has been no 
study of the corrosion problems of the KC-135. In a dramatic 
reversal of the previous Air Force stated position that the 
135s would have to be replaced beginning in the year 2013. That 
was a previous Air Force study.
    The fact is that we still haven't seen the lease. The GAO, 
which is a generally reliable source for information, says this 
is going to cost a heck of a lot more than the Air Force 
alleges, and I think that this is something that deserves the 
utmost scrutiny on your part, because I don't believe, 
unfortunately, that defense dollars are going to be as readily 
available a few years from now as they are today. It is hard 
for me to justify increased defense spending when we have a 
sweetheart deal like this in order to bail out Boeing Aircraft.
    I thank you.
    Chairman Warner. The record should reflect, and you are 
aware of this, Senator, that the Department of the Air Force 
sent over the standard notification of a new start 
reprogramming to this committee, as it did to other defense 
committees of Congress. This committee has not acted. This 
committee will not act until we have had a hearing, and in 
consultation with the members, Senator Levin and I propose to 
set that hearing early in September.
    Senator McCain. I thank both the chairman and the ranking 
member for their cooperation on this issue. I am deeply 
grateful.
    Chairman Warner. Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman. General Myers 
and General Pace, I, too, appreciate so much your service in 
your present capacity for the last 2 years and look forward to 
that continuing in the future.
    I was looking at the rotation plan that was put together 
for the Army with the global war on terrorism, and looking at 
Operation Iraqi Freedom and looking at Enduring Freedom in 
Bosnia, Kosovo, and the Sinai. I noticed that in the rotation 
plan it is a little bit sparse as it relates to Reserve or 
Guard units.
    I wonder if, briefly, you could tell me--with respect to 
all the Services--whether there is a plan to put in place an 
additional rotation schedule that would involve the Guard and 
Reserve units? Because they are obviously as disrupted as the 
regular forces, but in some respects their situation would be 
unique, since they have, typically, jobs back home and they are 
on extended deployment.
    So is there any movement afoot to come up with a plan for 
Guard and Reserve units?
    General Myers. I think, Senator Nelson, the short answer 
is, absolutely. As you noticed in the rotation plan of, if you 
will, the combat forces, there are two enhanced separate 
brigades that belong to the Army National Guard that are part 
of that plan and they will be notified, I believe, in October, 
and they will have 120 days to train for their mission. They 
will spend about 6 months in theater, more or less, then come 
back. We anticipate they will be mobilized for a total of a 
year.
    The two enhanced separate brigades we are talking about 
have not been mobilized in the last 5 years, and that's why 
they were picked, because of the kind of capability they have, 
and also the fact that they haven't been mobilized.
    There are other forces that support these combat forces 
that are being worked on right now. Some of those are obviously 
going to come from the Reserve because in some cases the combat 
support and combat service support are only in the Reserve 
component. So there will be more Reserve Forces that will 
follow the combat forces.
    One of the policy guidance issues that the Secretary gave 
us is, don't just look at Army combat support, and combat 
service support. If other Services have those kinds of units, 
then reach and get them, whether it is active duty or Reserve.
    A good case in point would be engineers. All the services 
have very good combat and regular engineers, and there is no 
reason we need to ask units that have just gotten back, or 
Reserve units, if we have active duty units that can fulfill 
these missions from the Air Force, the Marine Corps or the 
Navy. So we are looking at that as well.
    But back to the basic question. Yes, we have to identify 
them. I think it's the most important thing we can do, more 
important than almost anything else we can do--it is a busy 
force. They know why we are busy, but we have to provide them 
predictability.
    It is important for everybody. It's important for Active-
Duty Forces and their families and so forth, as we have seen 
from all the issues surrounding the Third Infantry Division. 
But it is perhaps even more important for our Reserve 
component, because they not only have their families to worry 
about, they have their employers to worry about. It is 
important to those employers.
    I think employer support has been terrific. We want to keep 
it that way. Predictability is one of the ways to do that. So 
as we develop this plan and continue to determine the combat 
support, and combat service support that is going to support 
these units, that is going to be a major part of it and that is 
going on right now.
    Senator Ben Nelson. Well, I appreciate that.
    If there is any discussion about low morale among the 
troops, it's not about 120-degree weather, it's not about food, 
it's not about the living conditions, it's not about combat 
conditions, it's not about safety issues. It's about ``knowing 
the date that my deployment might terminate,'' recognizing that 
it might be extended.
    But an endless deployment, an endless commitment, just 
simply is causing a lot of concern. We are now starting to get 
letters from family members, asking if we are going to be a 
family-friendly unit. I do appreciate both of you and your 
comments about your families, about the family support, and I 
know you understand that. I may be preaching to the choir. But 
we all recognize that if the families back home start to get 
concerned about it, it will have a multiplying effect with our 
troops.
    Anyway, I appreciate that fact. I was going to ask another 
question as it relates to adding additional countries to 
internationalize the support in Iraq.
    I notice you made reference to NATO and Senator Levin 
picked up, I think also, on the NATO aspect of what we are 
doing. Is there any chance of getting NATO to formally agree to 
providing troops and providing support without France or 
Germany?
    General Myers. Senator Nelson, I don't think I can answer 
that accurately, because to my knowledge, we haven't asked that 
question, yet.
    Senator Ben Nelson. Which brings me to another point. Is 
there a chance that we might ask that question?
    General Myers. Yes, sir. I indicated that I think there is 
ongoing dialogue with NATO. They have, obviously, shouldered 
heavy burdens in other parts of Europe and the Balkans, as well 
as Afghanistan. There have been some preliminary discussions, 
but not at NATO at large.
    I don't think in particular that our perception of how 
certain countries might react to it would ever stop us from 
asking that question and working with NATO, if that is the 
right thing to do. We are just not quite to that point yet. But 
there is nothing holding us back. There is no prohibition, 
there is nothing that is stopping us.
    Senator Ben Nelson. I understand that timing is everything 
in negotiations and in discussions, but do you think there will 
be a terminal point where we might be able to pull the trigger 
on the question?
    General Myers. I'm sorry?
    Senator Ben Nelson. Do you think there will be a terminal 
point where we can pull the trigger on the question as to 
whether or not they will be supportive of our efforts? Don't 
tell me when, but do you think we will be able to ultimately 
ask them the question, ``Will you join with us,'' and get an 
answer?
    General Myers. Probably, would be my answer. I just don't 
want to get ahead of the Secretary of Defense and others that 
would be considering this, because obviously there would be a 
political dimension, not just a military dimension, to doing 
that.
    But as I said, I have heard nothing about anybody saying 
this is not potentially the right thing to do; that is, to go 
down this street.
    There are, as was mentioned, NATO nations supporting our 
efforts in Iraq and Afghanistan. There are large deployments. 
There are finite capabilities, certainly, in NATO. So we'd have 
to be cognizant and aware of that. But I don't know that there 
is any other--there is nothing out there that says that we 
shouldn't do that. There's nobody saying that we shouldn't do 
that.
    Senator Ben Nelson. The internationalization of the troops 
today amounts to about, what, 10 percent of our troops that are 
there?
    General Myers. We have 148,000 U.S. forces in there right 
now, and Coalition Forces are in the neighborhood of 13,000.
    Senator Ben Nelson. I appreciate that.
    General Myers. That 13,000 should grow to over 20,000, 
somewhere between 20,000 and 30,000 here, in the next couple of 
months. It needs to be higher now.
    Senator Ben Nelson. That is the point I am making as well. 
I appreciate it.
    General Myers. Thank you, sir.
    Chairman Warner. Thank you very much, Senator.
    Senator Allard.
    Senator Allard. Mr. Chairman, thank you. Like other members 
on this committee, I would like to welcome both Chairman Myers 
and General Pace. I think you are both doing a fine job.
    I am thoroughly impressed with the job that our men and 
women in the field have done during our conflicts, and part of 
that has been because we have relied on many of our space 
assets. That has led to a good deal of our success.
    General Myers, prior to September 11, I think it was 
generally agreed that the status of the space programs, that 
they were a high priority on the list. Since then, we have seen 
additional commitments as far as funding everything for our on-
the-ground conflict in Afghanistan and Iraq.
    My question to you is, do you see future problems with the 
funding and prioritization of our space systems, both white and 
black programs?
    General Myers. Senator Allard, first of all, let me say we 
appreciate your support to the space side of the house. It has 
been tremendous, and your interest in that is appreciated.
    On the budget you have already looked at in committee for 
2004--there were substantial assets that weren't there in 
previous budgets that support space assets. Many of the 
recommendations of the Rumsfeld Commission on how we organize 
for space have been adopted and are in effect right now.
    So I think in terms of properly resourcing space, having 
the correct organizations to bring space to the warfighter, we 
have far advanced the ball since I served my tour at U.S. Space 
Command.
    The last conflict, the conflict in Iraq, we reached new 
heights in the use of space to help enable that warfight. We 
have crossed many hurdles in the policy and perhaps legal areas 
that we were unable to cross in previous conflicts. I can't go 
into more of that because some of it is highly classified. But 
we have made great progress in bringing what space can bring to 
the fight, so the warfighter is confident that he has this 
capability.
    I also think in terms of funding that space is seen in many 
cases as really being one of the enablers for transformation, 
and that the funding is fairly robust. If I were back at U.S. 
Space, if there were a U.S. Space Command now, it's in the new 
Strategic Command, but I think if you talked to Admiral Ellis, 
he would tell you that we are on a pretty good track for 
bringing more space to bear on the fight.
    General Pace. If I might add to that, Senator. I went to a 
meeting, I think it was about a week ago last Thursday. It was 
chaired by Mr. Teets, the Under Secretary of the Air Force, in 
his National Reconnaissance Office role.
    He had in that meeting about 14 to 16 folks from various 
agencies in the government pulling together all the programs, 
looking at them in ways that they can play off each other so 
that the resources that are available to be spent on space 
activities are spent in a way that are complementary. I am very 
encouraged by what I saw and heard at that meeting, sir.
    Senator Allard. I thank you both for your responses.
    General Pace, when you came up for initial confirmation, 
you expressed support for the Joint Requirements Oversight 
Council and its role in developing the requirements process for 
the weapons system used by the combatant commanders.
    Would you now recommend any changes in the JROC process, 
having been in your role for 2 years?
    General Pace. Senator, there have been tremendous changes 
in the last 2 years, not because I have been chairing it, but 
because the process has had the value of the previous year's 
experience, growth, and maturing and we have now been able to 
improve what I inherited, which was a process that was very 
good at grading the Services' homework.
    In other words, if a service came up with an idea, they 
would bring it to the JROC, prove to us it was a joint 
capability, and we would then bless it as a system that was 
worthy of being procured, and that it would fit into the joint 
fight.
    Now, with General Myers' direction and leadership, we have 
gotten around in front of that and have begun a top-down driven 
process that says, first of all, here are the capabilities that 
our country is going to need 15, 20 years from now. Then, these 
are the operational concepts that feed those capabilities. Then 
we consider the cross-threading of what each of the Services 
are doing, for example, in command and control, so that as we 
look at major combat operations, as we look at stability 
operations, as we look at strategic deterrents, as we look at 
homeland security--each of those is a stovepipe-like concept, 
and then cross-cutting each of those are things like command 
and control.
    So we are looking at putting out in front of the Services 
the concepts and capabilities that the Nation will need, and 
they, then, are coming to us to show us how they will fill the 
gaps in capabilities that we are able to define for them, 
rather than coming up and just having a series of good ideas. 
So it is top-driven as opposed to bottom-up, sir.
    Senator Allard. Now, I have a question I would like to have 
one of you answer, if you would. It pertains to the personnel 
management proposed by Secretary Rumsfeld.
    Do you fully support those recommendations, what he is 
pushing, and would you share with us the reasons why you think 
the changes need to be implemented?
    General Myers. I do. I think I can speak for all the Joint 
Chiefs of Staff that we have come over and testified on those 
changes. I think you are primarily referring to the civilian 
personnel management changes that are being requested.
    Senator Allard. That is correct.
    General Myers. The reason I do, and the reason that the 
Joint Chiefs do and that the military does, is because we just 
have to increase the flexibility that we have in managing our 
workforce. We have tremendous flexibility in managing the 
uniformed members, and a lot less flexibility in how we manage 
the civilian workforce.
    It is important for the security environment that we be 
able to do some things that we need to do, and to be able to do 
them quickly. I think it plays into the end strength equation. 
There are some number of jobs being performed by people in 
uniform that could be performed by Department of Defense 
civilians that currently can't be because it is just too 
cumbersome to try to change. With some of them, it is just too 
hard to do, so we usually default to the easiest thing and put 
somebody in uniform in the job or hire a contractor on the job, 
denying somebody a civil service position.
    But the underlying rationale is that in the 21st century, 
we need new ways to manage our people that are fair, that are 
consistent, that reward people adequately, that are different 
from the ways we have done it in the last century. That comes 
down to flexibility, primarily, and that's why I support it.
    General Pace. I also support it, Senator, for the exact 
reasons that General Myers just mentioned, especially from the 
standpoint of providing more opportunities to the civilian 
workforce. I believe that given the flexibility in those 
proposals, that instead of someone in uniform or instead of a 
contractor performing the mission, we will be able to hire a 
civil servant to do it, because they are capable of doing it. 
But the procedures right now just make it too difficult to go 
in that direction. We need to get the job done, so we get it 
done. We get it done by putting a person in uniform or getting 
a contractor to do it, because there is a certain amount of 
time within which we must start.
    Senator Allard. Thank you both for your responses.
    General Myers. Can I tack on one thing Senator Allard, as 
we were talking about DOD civilian personnel, that is often 
overlooked in our equation because we are in uniform and we 
talk about our men and women in uniform? I think it is also 
important also to talk about the men and women that serve the 
Department of Defense that don't wear a uniform but wear 
civilian clothes. They are in Iraq with us. They often face the 
same hazards that our men and women in uniform do. They do a 
terrific job.
    I think both General Pace and I and all the Joint Chiefs 
appreciate it probably more than we say; because it is easy to 
talk about sailors, soldiers, airmen, marines, Coast Guardsmen, 
but we also always ought to add DOD civilians, because very 
often, they are right in the fight with us and are doing a 
terrific job.
    Senator Allard. Thank you.
    Chairman Warner. Thank you very much, Senator. Senator 
Pryor?
    Senator Pryor. Mr. Chairman, I thought that Senator Reed 
was here first.
    Senator Reed. No.
    Senator Pryor. Thank you, Mr. Chairman.
    I want to first thank you all for your service today. It 
has been outstanding and I congratulate you on your 
renominations here and I tend to support those heartily.
    General Myers, I would like to ask you a few questions, if 
I could, about weapons of mass destruction in Iraq. I think 
that--I hope you take these questions in the spirit in which 
they are asked, and that is a genuine desire to clear up what 
has happened in Iraq since we have been over there.
    About 4 months ago, you gave a statement to CNN where you 
said, ``We know that the Iraqis have weaponized chemical and 
biological weapons. They have surface-to-surface missiles that 
can deliver them. They have aircraft that can deliver them. 
They have unmanned aerial vehicles (UAVs) that can deliver them 
and they have artillery that can deliver them, as well.''
    I was going to ask you specifically about those four 
delivery mechanisms, about what we have found in Iraq since we 
have been over there; specifically, have we found surface-to-
surface missiles, the aircraft, the UAVs, and the artillery 
that could have delivered weapons of mass destruction?
    General Myers. We have found surface-to-surface missiles. I 
don't know that we have found any that had chemical or 
biological warheads mated to them, but we have found the 
delivery vehicles.
    The documentation for the aircraft--I do not know if we 
have found the spray tanks that had been tested, but we have 
pictures of that testing, so that is, I don't think, in 
dispute. On the UAVs, I think we are going to get into 
classified areas here. I will be happy to provide for the 
record, what we have discovered.
    There are artillery--we know they have that capability. 
Just the other day, we found some artillery shells that are for 
that purpose. They have a different casing for that purpose. 
Whether or not there were chemicals or biological agents in 
there, we don't know. We'd have to test that.
    But we know--I am very confident that they had the 
capability in all those delivery means to employ chemical and 
biological weapons if they'd made that decision to do so.
    Senator Pryor. I do not want to get into classified 
material in this setting so I am sensitive to that concern.
    General Myers. If you have a question for the record in 
that regard, I would be happy to answer that in terms of UAVs.
    Senator Pryor. Okay, thank you.
    [The information referred to follows:]

    [Deleted].

    Also, about 2 months ago on the Today Show you said ``Given 
time, given the number of prisoners that we are now 
interrogating, I am confident that we are going to find weapons 
of mass destruction.''
    Do you still have that same degree of confidence today?
    General Myers. I do, and the reason I do was the event 
yesterday when we came up with Qusay and Uday. The way we found 
them was an Iraqi citizen coming forward and saying, I know 
where they are. There may have been even a second source that 
said, I know where they are.
    I think, as has been stated many times, in a large country 
like Iraq that has practiced denial and deception on this 
program for a long time, it is well-documented that it is a 
matter of time before we find the evidence of a program, and 
most probably, some of the material itself. It is going to take 
time.
    We have what we call the Iraqi Survey Group that is 
dedicated primarily to this mission. It is over a thousand 
people under the leadership of Major General Keith Dayton, who 
is one of the deputies over at the Defense Intelligence Agency. 
He, along with Dr. David Kay, are leading this effort, and I am 
confident that the program and some material will eventually be 
found, but I think it is going to take time.
    Senator Pryor. You mentioned evidence of the program and 
evidence of weapons of mass destruction (WMD). I recall a 
number of press reports during our time there in Iraq about the 
looting of suspected sites of WMD. What impact, in your 
estimation, did looting have on our ability to locate evidence 
of the weapons themselves or the evidence of the weapons 
program?
    General Myers. An excellent question, and I don't think I 
can give you a precise answer, as we sit here. Most of the 
looters were after things that had some sort of tangible value. 
They were not after the weapons of mass destruction. They would 
have stayed away, but they were after something they could turn 
into cash or some other use to them or their family.
    I would have to go back and ask General Dayton now that 
they've been working this really hard to see if they think that 
valuable evidence was lost. We do know that in the war and in 
the immediate aftermath, that some documentation was lost and 
some evidence was probably lost.
    We also know that there is a lot of evidence yet to go 
through, that we have stacks and stacks of evidence. We have a 
lot of people that we have to interrogate and go through that 
as well. So what percentage was lost and how big an impact, I 
can't give you a good balance.
    Senator Pryor. One concern I have----
    Chairman Warner. Could I interrupt just a minute, Senator 
Pryor? That is such an important question that Senator Levin 
and I are working on, and we will confirm a day, but we will 
have a briefing to this committee next week by Dr. Kay, who is 
the civilian head, a former weapons inspector, who is part of 
the Rumsfeld team now put in Baghdad under Bremer, and he will 
be joined by General Dayton, who is the military commander of 
those forces. Significant forces have been assigned to perform 
the missions to try and get more information regarding the WMD 
program.
    Now, you go ahead and take a little more time. I 
interrupted you.
    Senator Pryor. Thank you, Mr. Chairman.
    One concern I have about the looting and the looters 
looking for things of value is that something of value could 
have been the weapons themselves, and they could end up on the 
black market. They could end up in terrorist hands. Do you 
share that concern?
    General Myers. I think that is always a concern when you 
have weapons of mass destruction, that they fall in the wrong 
hands. After all, that was one of the major reasons for going 
into Iraq in the first place, to ensure that terrorists didn't 
get their hands on biological or chemical weapons that we were 
certain the Iraqis had. So, clearly, if they can get them 
through other means, that is an issue.
    I will tell you, given the forces we have in the country, 
given the attention we have on this issue, we are attuned to 
that eventuality.
    Senator Pryor. The last thing I have is not really a 
question but just something I would like to leave you with, 
because I think this would be more appropriate in a classified 
setting. That is it is probably a little too early today to do 
a ``lessons learned'' on your search for weapons of mass 
destruction, but certainly I would hope at some point you and I 
could visit, possibly with the entire committee, about lessons 
learned and maybe knowing what we know today, if we could do it 
all over again, what would we change, if anything, and how we 
might get to a more sure result in our search for weapons of 
mass destruction?
    General Myers. I think that is very appropriate. We have 
been very aggressive on capturing the lessons learned of the 
major combat operations. There is work starting now on the 
period after major combat operations ended, on the lessons 
learned there, as well.
    I think that is one of the things that we will do well. We 
will criticize ourselves where it is appropriate, and we won't 
waste any time patting ourselves on the back if we did it 
right, and we will continue that process.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman. Let me, 
too, congratulate you, General Myers and General Pace, for your 
service to the Nation and for something else. I think your 
service is motivated by a deep appreciation of the sacrifice 
and service of so many young Americans who wear the uniform of 
the United States and that's what makes the contribution of the 
uniformed officers to our defense something special, and I 
thank you for that.
    Let me clarify, General Myers, a response that you gave to 
Senator Levin. You indicated that--at least I thought that I 
heard you say that there was no coalition division involved in 
the Army rotation plan. I have information that suggests the 
101st Air Assault is scheduled to be replaced next February by 
a coalition division yet to be named; is that correct?
    General Myers. Yes. I can't remember my response to Senator 
Levin, but----
    Senator Reed. I just wanted to clarify.
    General Pace. I think the difference at the time, if I may, 
sir, you are talking about the difference between two divisions 
and three divisions and the question is whether or not for the 
foreseeable future--which is the next couple of months--whether 
or not the three divisions were in there, and I think General 
Myers said----
    Senator Reed. We both, for the record, recognize that one 
yet-to-be-designated, named, and contributed multinational 
division is on paper scheduled to replace the 101st next 
spring----
    General Myers. That's correct.
    Senator Reed. This leads to the second question: This a 
division-sized unit, so we are not talking about one truck 
company from Hungary and a signal battalion from someplace 
else. Who are the likely donors for a division-sized unit that 
you would, at this point, solicit?
    General Myers. We are in discussions with the country of 
Turkey. They have a large, very competent army, and we will 
continue those discussions. They would certainly be able to 
provide, if they wanted to, a division headquarters and 
hopefully a couple of brigades.
    Pakistan is another country that has a competent army, and 
we are in discussions with them, and I think you know the 
situation in India. They certainly could provide a division. 
They are, again, a competent force and I think that the press 
pretty well spelled it out, that they are waiting for an 
invitation, perhaps, that would be backed by the United 
Nations.
    Senator Reed. If we do not successfully recruit a 
multinational division, then we are going to have additional 
stresses, particularly on the Army. That seems to be obvious, 
is that correct?
    General Myers. Well, there are some things that are not on 
that chart, and one of the things that is not on that chart is 
the potential use of a Marine division, and that is in the 
thought process and in the planning.
    Senator Reed. So now we put the stress on the Marine Corps?
    General Myers. Well, another way to put it is that we are 
trying to spread the predictability of the stress as much as we 
can; not just U.S. forces, but international forces and not, 
when you talk about the U.S. forces, not just the United States 
Army, but the United States Marine Corps and not just, as I had 
mentioned before, in combat support, combat service support. 
Not just the Army or Marine Corps support assets, but other 
services that can provide those.
    Senator Reed. Let me ask you a related question. You may 
not have this information, and that is entirely appropriate. 
Just get it to the committee.
    How much are we contributing to these or proposing to 
contribute to these multinational divisions in terms of donated 
equipment, logistical support, per diem, or just out-and-out 
payments?
    General Myers. It depends on the country involved. For some 
of the countries that don't have the wherewithal--in the Polish 
division, we have said we will provide the lift to get them 
there, whether it is our aircraft or whether it's contract 
lift, to be determined by the situation; and that we will help 
with sustainment while they are in there, because many of those 
forces don't have sustainment capabilities.
    Again, that does not necessarily mean that we should think 
immediately of U.S. forces providing that sustainment. It could 
be done by a contractor. So we have committed to the Polish 
division, to some of those countries that don't have those 
capabilities, we have provided sustainment and we provide lift.
    Senator Reed. Could you provide the cost, at least for the 
Polish division? I presume we are paying for this and that it 
is coming out of American resources, our budget? Your budget, I 
should say.
    General Myers. Let me provide that for the record. But I 
think that we will find that cost comes--there are appropriated 
dollars in that cost. We are continually seeking contributions 
from international donors, but no money will come from seized 
or vested Iraqi assets.
    [The information referred to follows:]

    The Defense Department currently estimates that it will cost the 
United States $29 million to lift, sustain, and equip the Polish-led 
Multinational Division that will deploy to Iraq for Phase IV stability 
operations. The Defense Department will cover $243 million in costs; 
the State Department will cover $47 million. The troop-contributing 
nations will all pay their own salaries and other special pays. Future 
lift and sustainment costs for other coalition or multinational 
divisions will depend upon specific needs and requirements of those 
contributing coalition countries.

    Senator Reed. Just a final question on this line. I notice 
in the rotation plan that the 3rd Infantry Division is being 
replaced by elements of the 82nd, both superb divisions, well 
led by General Blount and General Swannack. But there is a 
difference between a mechanized infantry division in this type 
of operation and an airborne light infantry division. The big 
difference is vehicles.
    How are you going to make up the mobility differences in 
that situation and other situations?
    General Myers. The forces that are going in are being 
tailored for the mission, and in fact what General Abizaid 
wants is to go from a heavy force to, if you will, to more 
infantry or foot soldiers. Obviously, they need mobility, and 
they will make accommodation for that.
    By the same token, as you look at the rotation you will see 
the 1st Cav Division on there, which is a heavy division. They 
will probably not go in heavy with their tanks and so forth. 
They will probably go in a mechanized way, not with a lot of M-
1 tanks. So they will be augmented by armored high mobility 
multi-wheeled vehicles (HMMWVs), and perhaps some other 
vehicles.
    In addition, to give them more infantry with the 1st Cav, 
the enhanced separate brigades quite likely will be asked to 
put battalions with the various brigades of the 1st Cav so they 
have more infantry with them as they go in, to include a civil 
affairs battalion, as well.
    So what General Abizaid is trying to do, and what the Army 
is helping him do, is to tailor these forces exactly for the 
task that they have today and the task generally does not call 
for a very heavy force. But you're quite right, they need the 
mobility and they will have that.
    Senator Reed. Is there another round, Mr. Chairman?
    Chairman Warner. Yes, we will have another round. Would you 
like to take an additional question, Senator?
    Senator Reed. If I could ask one question.
    A few days ago, General Myers, General Pace, a manned 
portable air defense rocket was fired at a C130, which would be 
a significant, if it continues, escalation in the threat 
profile. It begs several questions. One is, is there an 
estimate--and you might not be able to give it in open 
session--of the number of these systems that are in the 
country?
    The second question is, is there an estimate of any number 
of systems that might have been taken out of the country, 
either smuggled out for sale or simply smuggled out for other 
purposes?
    General Myers. Sir, we are going to have to ask the 
intelligence community to provide those estimates. Clearly it 
was a weapons system they had. I think there have been two 
confirmed firings at C130s since major combat operations ended 
and we started operating in Baghdad.
    There are several efforts underway to deal with that 
threat. One is to offer to buy these weapons to get them off 
the market, as we have done in other cases. Another is to 
search for them, an active search, around the airports and so 
forth, and those operations are ongoing.
    As you said, it is potentially a very dangerous threat, and 
we have to deal with it. We can get you the number, the 
estimates, from the intel community.
    Senator Reed. Thank you, General Myers, General Pace.
    Chairman Warner. Thank you, Senator. We will now begin a 
second round.
    General, the subject of the Korean Peninsula is of grave 
concern to me, and I think our President is moving with a 
policy that is the policy most likely to succeed in bringing 
about North Korea recognizing that the proliferation of weapons 
of mass destruction is not in the interest of that country or 
any other country in that region or any other country in the 
world, and that to achieve that goal, the multilateral approach 
is the best.
    We have had a lot of expressions of concern by individuals 
recently, most notably, former Secretary of Defense Perry, a 
man with whom I was privileged to work very closely in my 
service on this committee, an individual that I was privileged 
to travel with officially on a number of occasions.
    Subsequent to his retirement from the Department, he 
continued to pursue efforts to reconcile the differences and to 
achieve a status quo with North Korea that would enable the 
fulfillment of the goals that the world holds with regard to 
nonproliferation of weapons of mass destruction.
    That framework that he and President Clinton and others put 
in place was put in shambles by actions taken by North Korea. 
Now this President again is trying to reconstruct a policy.
    But given the proximity of South Korea, which has to be a 
partner, and Japan, which would suffer enormous consequences, 
economically, if somehow a rapid departure of people from North 
Korea and would suddenly descend on Japan. China, I think, has 
taken a constructive and active role recently, and we see there 
is glimmer of hope that at least a tripartite meeting can take 
place with China, North Korea, and the United States, perhaps 
as a preliminary to a full multinational meeting.
    But putting aside the diplomacy, I have always subscribed 
to the belief that our diplomacy can be no stronger than the 
military options to enforce diplomatic decisions, if that 
becomes necessary. Hopefully, we will not ever see an outbreak 
of hostilities on the Korean Peninsula again.
    Those hostilities are fresh in this Senator's mind for 
personal reasons of many years ago. You and I have discussed 
this privately, the consequences of an exchange of conventional 
weaponry on the South Korean peninsula has horrific dimensions, 
not only to our own forces but to the civilian populations of 
South Korea, as well as North Korea, and the military forces 
that face each other.
    Nevertheless, we have to, as best we can, keep the American 
public and others informed as to what the options are that the 
Department of Defense is looking at, in consultation with the 
Department of State, to back up the goals that we have. That 
goal is simply to provide peace and security for both North 
Korea and South Korea on that peninsula, and hopefully the 
optimism that at some point in the future they might reconcile 
their differences so the two nations can become more closely 
aligned with each other, whether it is through trade or 
immigration, or the like.
    So just take your time, and give us your views on this.
    General Myers. Well, Chairman Warner, as usual, there is a 
lot of meat in almost every sentence that you spoke there, so 
let me just start down it as I was trying to take some notes, 
here.
    You are quite right, if there were to be conflict on the 
peninsula, there would be a lot of casualties. It is because of 
the North Korean army, over a million-person army, 70 percent 
of which is south of Pyongyang, and its artillery which can 
range Seoul from just above the demilitarized zone (DMZ) on the 
high ground. So there would be great tragedy, because there 
would most likely be a lot of casualties. Having said that----
    Chairman Warner. Let me just interrupt, because we as a 
Nation have seen the casualty rates. We lament every day the 
loss of a soldier, two soldiers, and the wounding of five or 
six in Iraq. The same is true with Afghanistan. I remember 
during that situation, again, we lost many brave individuals.
    But my mind is quite fresh with the statistics of World War 
II, when in the fall of 1944, to give the last three major 
engagements, the United States alone--I'm not talking about 
their allies, Britain and France--41,000 casualties killed, 
wounded and missing in the Battle of the Bulge, which was the 
last major engagement, major in terms of divisional structures 
in World War II. That was followed by Iwo Jima, where the 
Marine Corps, together with the Army, but primarily the Marine 
Corps, lost over 21,000 killed, wounded, and missing. Then we 
had Okinawa, with casualties somewhat greater in totality than 
Iwo Jima.
    Now, that was a half-century ago. But in my judgment, the 
magnitude of those casualty figures of World War II could be 
replicated in the Korean Peninsula if we saw a full engagement 
of conventional forces between the North and the South, and our 
allied position with the South Korean forces. Would I be 
correct in that?
    General Myers. Chairman Warner, it is always difficult to 
estimate casualties. But given that North Korea has long-range 
artillery well dug into the hills that can range the major city 
of South Korea, Seoul, I think you would have to assume that 
there would be a lot of carnage. I don't think we can predict 
exact numbers. We were never very good at that. But there would 
be----
    Chairman Warner. Certainly it would be far in excess of 
what we have been experiencing here in Iraq and in Afghanistan 
and in situations like that.
    General Myers. It would be a different circumstance. But--
and that is where I left off, as I was starting my statement.
    The next part though is equally important--that there would 
never be a doubt about the outcome of this conflict. The reason 
is because our U.S. forces on the peninsula and the South 
Korean forces are extremely well-trained and led. We know they 
often have to deal with a quality of life because of their 
facilities and so forth being less than desirable, but as we 
speak, their motto is, ``We have to be ready to fight 
tonight,'' because of just what you said, about the kind of 
forces they are arrayed against.
    They are ready, and while we talk about Afghanistan and 
Iraq and we talk about other places U.S. forces are, we can't 
forget that we have 37,000 U.S. forces on the peninsula that 
bring security to the peninsula. Given that, the outcome would 
never be in doubt, that if North Korea were to start a conflict 
like that, that it would end with the end of that regime, that 
would not be a question, militarily anyway. That is probably 
the best deterrence we can have against an eventuality like 
that.
    You mentioned counterproliferation and proliferation of 
fissile material that we now know--North Korea has admitted to 
reprocessing fuel rods that came out of their nuclear reactors. 
They have enough fissile material for 6 to 12 weapons, perhaps. 
They have claimed they have already processed all those fuel 
rods, publicly.
    I think this is a very serious problem. Here is a country, 
North Korea, that is the biggest proliferator of missile 
technology of any country in the world. They are on the list of 
states that support terrorism. Now you add fissile material 
with countries out there that we know want fissile material and 
have cash--it is a very dangerous combination. So that 
convergence is not good.
    Clearly, we can't go into this in this open hearing, about 
all the military plans and preparations that surround our 
ability to defend the peninsula and other plans that we might 
have. But I think it must be said that we are working this 
issue very hard.
    Having said that, diplomacy is the way ahead. Now, I'm 
getting a little bit outside my lane, but as you said, it looks 
as if we will have another round of multilateral talks. I think 
this time they will be multilateral, as opposed to just 
trilateral. I think that has yet to be determined. But the 
Chinese government is being helpful here, and certainly we 
consult with the South Korean government and Japan, as well.
    So that is clearly the preferred course here; that somehow 
diplomatically we can work our way through this issue, which I, 
like you, view as very serious. The notion or the thought that 
fissile material could be proliferated to other countries could 
change our security environment, again in a not-so-nice way.
    You mentioned the number of casualties in the Battle of the 
Bulge, and Iwo Jima. I think, as we talk about this war on 
terrorism, we haven't had casualties to that number.
    But it is interesting to think about how quickly we had 
3,000 casualties one September morning. Those 41,000 and those 
22,000 were over a little bit longer period of time; but in a 
matter of about an hour, we had 3,000 Americans and other 
citizens dead. So it is a different kind of threat that we are 
dealing with in the war on terrorism.
    Chairman Warner. I am glad you brought that up. Very 
definitely, we have that September tragedy in mind. It has been 
a guidepost for our President, who has courageously addressed 
this worldwide war on terrorism. Every time we must reflect on 
that loss here in our Nation, right here in the homeland of the 
United States.
    General Myers. Absolutely. General Pace may have something 
to say on Korea or the situation.
    General Pace. Well, I think General Myers laid it out very 
well. There is great opportunity for the diplomatic equation 
here. The United States, South Korea, Japan, China, Russia--to 
name five very important countries--have an enormous 
opportunity to work together to convince North Korea that there 
is a better way to live and to become part of the international 
community, but I also echo what General Myers has said. If it 
ever were to come down to a military requirement, there is no 
doubt in my mind that we are more than ready to execute the 
current plans and to prevail on any battlefield.
    Chairman Warner. I simply brought up the historical 
casualty figures because I think the preparation of the 
American public on all aspects, all dimensions of the 
contingency is incumbent upon the administration, and indeed 
Congress, as we approach these decisions working together.
    Senator Levin very graciously said that you may take this 
time, Senator Sessions, so we will go right to you.
    Senator Sessions. Thank you, Mr. Chairman. I just wanted to 
take this moment, at the time of your reappointment, to express 
my tremendous admiration for the work that you have done, for 
the leadership you have provided, and for the success with 
which you have led our brave men and women in battle, the 
efforts that have been undertaken to make this a more secure 
country. Yes, we are not perfectly secure, but there is no 
doubt in my mind that under your tenure as leaders of the Joint 
Chiefs we are much better and much safer today than we were 
before. I much prefer that the terrorists be worried that we 
are coming after them than us be sitting here waiting on them 
to come after us.
    You have helped transform our military. I will just submit 
some written questions on that subject. But I just want to say 
this is a big deal. We have in fact gone from a Defense 
Department that was divided to a Defense Department that is 
one. The different branches work together in a coordinated way.
    While I have no doubt we can do better, we are coordinating 
and working together in unprecedented ways, and it is allowing 
our men and women to have tremendous success on the 
battlefield, and placing great stress on enemy soldiers, 
avoiding enemy civilians or civilians in the country there, and 
minimizing the threat to themselves. It has just been a 
tremendous thing.
    Yes, we have critics. You will be proposing more changes. 
There will be challenges and questions by this Congress. But I 
think you are doing the right thing. All in all, day after day, 
we are making tremendous progress. No military in the history 
of the world has done as well, in my view. Change is hard for 
everybody, but I salute you for it.
    I just wanted to take that moment, and you can be certain 
that this Senator supports your reconfirmation, and is so 
delighted and honored that you have agreed to serve again. I 
think it will allow us to complete the Iraqi operation, and 
continue to help us transform so that we will be able to meet 
the new challenges that face our country.
    Mr. Chairman, thank you for letting me be with you here, 
and thank you for your leadership. We have some tough times 
going on right now in the appropriations authorization process 
for the Armed Services Committee, and your leadership is just 
remarkable. We appreciate it, we appreciate what you do.
    General Myers. Thank you, Senator.
    General Pace. Thank you, Senator.
    Chairman Warner. I want to say that Senator Levin is a 
working partner in trying to work through these things. It is 
up to you, now.
    Senator Levin. Thank you Mr. Chairman.
    General Myers, one of the primary goals of Goldwater-
Nichols was to ensure the ability of our uniformed military to 
provide independent military advice to the Secretary of 
Defense, to the President, and to Congress.
    In your response to our prehearing policy questions, you 
have pledged if confirmed to give us your personal views, even 
if those views differ from the administration in power. 
Congress authorized separate staffs for the civilian and 
military leadership of the services to ensure that senior 
military officers have the staff support and the advice needed 
to provide that independent military advice.
    We are concerned by recent efforts to combine military and 
civilian staffs to make the military support staff subordinate 
to the civilian support staff. My question is, do you currently 
have the staff support that you need to provide independent 
military advice to the Secretary of Defense, to the President, 
and to Congress? What role does a separate and independent 
staff play in enabling you to provide that advice?
    General Myers. Senator Levin, I think we do have that 
staff, as it is currently organized. I think it is very 
important, as we provide our military advice, that it be pure 
military advice; and that the political issues surrounding 
military options and so forth be just that, be done by our 
political masters.
    But I think the advice we give has to be untainted by 
political influence. That is the kind of advice that we try to 
provide, both General Pace and myself, and the rest of the 
Joint Chiefs.
    I think our staff is well-organized and appropriately 
organized at the current time to provide that kind of advice. I 
think that is consistent with the statutes and the way this 
country and this Congress intends for us to act.
    Senator Levin. Going back to North Korea, now, let me ask 
the question this way.
    It is clearly in our military and national interest that 
North Korea not build an arsenal of nuclear weapons, and that 
we should try to persuade North Korea not do so, and I assume 
you would agree with that. If not, let me know in your answer 
to the question, but that is the starting point, which is 
obvious.
    If that effort to prevent North Korea from building an 
arsenal and from transferring weapons requires that, in return 
for a complete and verifiable elimination of their nuclear 
weapons program, that we pledge not to attack North Korea, 
would that not make good military sense?
    General Myers. I think this starts to get outside my lane. 
Clearly, as we talked about earlier, conflict on the Korean 
peninsula is not a pleasant thought, because of the reasons 
discussed earlier.
    But once you start talking about how we might deal with 
that, what one side might promise to the other--again, that is 
a little bit outside, well, quite a bit outside my lane.
    But one thing we have learned over the last decade is, a 
little bit over the last decade, is that promises made by the 
North Korean regime can't be counted on. I think we will need 
to leave it to the diplomats and to our political leadership to 
decide what we are willing to give for what we get. I don't 
think that is necessarily something that, from a military 
perspective, we probably ought to have driving the process.
    Senator Levin. That is why the verification part of that 
question is so important.
    General Myers. Absolutely.
    Senator Levin. Senator Pryor asked you about the search for 
weapons of mass destruction in Iraq and you were asked about a 
statement that you made and that others have made that you are 
confident that we are going to find weapons of mass destruction 
in Iraq.
    In answer to that, you talked about programs, which is not 
responsive to the question. The question related to weapons.
    General Myers. I think I said that we would find evidence 
of a program and of weapons. I believe we will.
    Senator Levin. Does that mean we're going to--in your 
judgment we are still going to find weapons of mass 
destruction?
    General Myers. In my judgment, I think we will. Now, the 
reason I said programs and weapons is, I think, it is so easy 
to hide things.
    There was a good report done, and I don't know if you have 
seen it in the committee. It was a classified report, of which 
portions were declassified, and it talked about an inspector 
for the Environmental Protection Agency. His job was to find 
those companies that were supposedly disposing of hazardous 
waste in appropriate ways, but really weren't. They were 
bilking the customer, bilking the government by picking up 
hazardous waste and then depositing it in other places, and we 
talked about so many tons of material that could be put in 55-
gallon drums. You could place these almost anywhere. If you 
think about the number of 55-gallon drums within a 5-mile 
radius of where we sit, it is probably thousands, and how 
difficult it would be to find a few in there that have 
hazardous waste or, in the case of Iraq, chemical or biological 
weapons.
    So there is always the possibility that the Iraqi regime 
has, during the war and the aftermath, destroyed a lot of the 
evidence. We don't know that.
    I am telling you my personal conviction based on the 
intelligence that I read before the war, and what the U.N. 
inspection teams, both the United Nations Special Commission 
(UNSCOM) and the United Nations Monitoring, Verification, and 
Inspection Commission (UNMOVIC), said. Based on all that 
testimony, I think it is likely that we will find material as 
well, or traces of material, or evidence of material that 
existed, and so forth, and the evidence of a program. That is 
my belief, and I think it will----
    Senator Levin. Material can include all kinds of things, 
including precursors, but the specific question relates to 
weapons of mass destruction and the question is, are you still 
confident that weapons of mass destruction will be found in 
Iraq?
    General Myers. Personally, I am confident we will.
    Senator Levin. Should I keep going?
    Chairman Warner. Sure, take a question or two.
    Senator Levin. You were, I think, somewhat reluctant to get 
into the question of troops from other countries. I am a little 
surprised at that, given our conversations with some of our 
commanders in the field about how valuable it would be to have 
forces from other countries, including Germany, France, India, 
Pakistan, Egypt, and others.
    You have indicated what it might take and you put those in 
three baskets and I think that is very helpful to obtain the 
consent of nations that have large numbers of troops.
    But when it came to the question of whether or not it would 
be valuable to actually seek the support of NATO which might 
make that possible, or to seek the support of the U.N. which 
might make that possible, you, I think, were much more 
reluctant to be forthcoming in that area. I am somewhat 
surprised, and I want to press that issue a bit further.
    We have 93 percent of the troops there now, roughly, if my 
math is right. If we succeed in the numbers that you indicated 
in getting--I believe the figure was 20,000 or so additional 
troops--that we would still be at about 80 percent of the 
troops on the ground by the end of the year.
    Our troops are stretched. We assume that there will be a 
third division coming in internationally, as you indicated to 
Senator Reed's question. It is in everybody's interest, it is 
in the world's interest--at least the decent countries that 
care about things like this--that there be stability in the 
Middle East and stability in Iraq, and that Iraq move towards 
democracy, as well as stability, so there is a common interest 
in that.
    As you pointed out, NATO knows how to do this. In fact, 
they have done it in the Balkans and in Afghanistan. So we 
don't have a problem about NATO knowing how to say yes and how 
to be supportive, not just of an individual country like Poland 
but as an entity. The U.N. knows how to say yes, though it is 
always more complex because there are a lot more countries and 
there are a lot more political requirements there.
    But as you point out, we would expect that the U.N. would 
take over the operation in Liberia. Our commanders that we 
talked to when we were visiting the region under Senator 
Warner's leadership, many of us were there, and they said that 
they welcome the troops of countries that have not yet made a 
commitment, that they would provide valuable military resources 
to us if they joined us.
    So there didn't seem to be any reluctance there, talking to 
our commanders about the value of troops from, again, Germany, 
France, India, and so forth.
    Do you agree that it would be of value to have German, 
French, Indian, Pakistani, Egyptian, Turkish forces in Iraq; 
and that it would be useful to--providing we don't give up the 
unity of command or clarity of command, that it would be useful 
to seek the support of NATO and the United Nations in order to 
make that possible?
    General Myers. Senator Levin, let me clear up one thing 
right away. I am very bullish on trying to get international 
forces in there. I think that is really important, for all the 
reasons that you said. It is something that, in fact, the Joint 
Staff works on very hard. We have some folks devoting all their 
time, some great action officers, trying to make that happen.
    Senator Levin. My question very precisely though is seeking 
the support of NATO and the U.N. to make that possible.
    General Myers. The only reason I hesitate on those two is 
because it is going to be a political decision on NATO's part 
whether they do or not, and we have just begun to think about 
how NATO formally might be part of that. So those discussions, 
I think, have started at the highest levels. They haven't 
trickled down.
    Are we opposed to a NATO organization coming into Iraq? No, 
absolutely not. Clearly not. It would be in our best interest 
if that were to happen. But all I was trying to indicate is 
that those discussions, while ongoing, are not complete yet.
    Senator Levin. I want to ask, do you ever see any finite 
moment where there might be a request to NATO? There was just a 
sort of a real hesitation.
    General Myers. Sure. I think there will be.
    Senator Levin. Will be what?
    General Myers. My answer would be that there would probably 
be a request to NATO at some point.
    Senator Levin. You would welcome it?
    General Myers. Sure, absolutely. There has not been an 
insurmountable problem in all our work with our international 
partners around the world. Some people hold out command and 
control as being a big issue. We have always been able to work 
through the command and control arrangements, and there are 
ways we can do that that satisfy us, the United States, and 
that satisfy other countries and their sovereignty, and ensure 
that in the end we have a good unity of effort, a unity of 
command. So that will not be a problem, certainly not in our 
minds.
    Senator Levin. Would the same thing be true, that we could 
possibly work that out with the United Nations' support?
    General Myers. It is possible that can be done, as well, 
certainly.
    Senator Levin. Former Senator Abraham, now Secretary of 
Energy Abraham, said we are not planning to develop any new 
nuclear weapons at all. My final question to you is, are you 
aware of any military requirement or any effort to develop a 
military requirement for a new nuclear weapon?
    General Myers. No, Senator. I am not.
    Senator Levin. Thank you, Mr. Chairman. Thank you both.
    Chairman Warner. Before recognizing Senator Clinton, who is 
next, I think it is important that the record, in response to 
Senator Levin's important question on international 
participation, contain a clear answer from the Department of 
Defense, in consultation with the Department of State. Because 
I think it is a joint responsibility of both departments and 
the secretaries of both, so I would put a question in at this 
point and ask the administration to answer it clearly as to 
what overtures, formal or informal, have been made to, first, 
the North Atlantic Council with regard to NATO participation; 
and such responses as the administration can share with us; and 
what overtures have been made to, specifically, the countries 
of France, Germany, Turkey, and perhaps others with regard to 
their willingness to participate with the current Coalition 
Forces in both Afghanistan and in Iraq, because the questions 
are important.
    I am not certain that in your position you have full 
knowledge of what may have transpired. Perhaps you do. Perhaps 
you wish to respond to my question at this time. But I think I 
want the Secretaries of State and Defense to respond to these 
important questions by my colleague.
    General Myers. You are right, Mr. Chairman, it is a shared 
responsibility between the Department of Defense and the 
Department of State in terms of asking for and getting this 
support. I think I am aware of most activities that are going 
on, and there are ongoing dialogues with all those countries 
that you just mentioned.
    General Abizaid recently visited Pakistan. General Jones, 
our European commander, recently visited Turkey. General 
Abizaid visited Turkey, as well, and those were some of the 
topics that were discussed. So on the military level, it is 
working. I'm going to take a trip to the region. I'm going to 
Iraq, Afghanistan, India, and Pakistan. That will be among the 
topics that I cover, as well.
    Chairman Warner. Fine. I think it is important that we 
continue these, because the internationalization of this force 
would have the consequence of lessening the exposure of our 
forces, although in no way are we trying to cut and run in any 
way, but we must share those burdens, particularly the loss of 
our wonderful men and women of the Armed Forces, and injury.
    It is a national and an international concern. It is not 
just a private matter, it is an international responsibility. 
Because if we can achieve the goals in Iraq and allow democracy 
to take root in that nation, that democracy could spread to 
other nations. To the extent we can democratize those regions, 
I think it lessens the chances for terrorism internationally to 
find havens in which to train, and then to take their terror 
beyond those training camps to elsewhere in the world.
    My understanding with regard to France and Germany is that 
the heads of State and Government have said conclusively at 
this time that they are not going to participate in response to 
certain overtures. But I will leave it up to the Secretaries to 
respond to those questions definitively.
    General Myers. Can I tag on just a minute and respond to 
both you and Senator Levin in terms of contributing troops to 
the situation?
    As General Pace mentioned earlier, it is not just the 
number of troops and the composition of troops on the ground; 
there are other elements of security that have to be mentioned.
    Ambassador Bremer mentioned some to you the other day, 
because there is a political dimension, and an economic 
dimension that have to come along with the security dimension, 
and they all work together to provide the kind of environment 
we want in Iraq, and for the Iraqi people.
    Then General Pace mentioned the new Iraqi Army. It is going 
to take us a year to get the first 7,500 up online. Then it is 
going to take us 2 years to get to 40,000. So we will get some, 
around a division in 1 year and we'll get several divisions in 
2 years. But that work is proceeding.
    A new thing, a new concept is a civil defense force, which 
is going to be somewhere between a police force and a military 
unit, probably made up of young Iraqis who were part of the 
regular Iraqi Army, because they have already had some 
training. We hope to have 4,500 of them trained and ready to go 
with uniforms in August. They can help as far as doing some 
things that U.S. forces are doing, and releasing us to do 
things that we are very good at.
    Then there is the police force, which was mentioned and 
we've talked about. It is what the Iraqis are going to do for 
themselves. It is the political and economic dimensions, which 
are coming along, and Ambassador Bremer covered that, I think, 
when he spoke to the Senate the other day; and then, of course, 
the troops themselves.
    Chairman Warner. Well, that is important, because that new 
force, I think it's called a corps, is to guard power lines, 
which are being torn down as a part of looting or terrorism, 
the broader functions to assist in our convoys as they must go 
up and down the main arteries, road systems and so forth. So it 
is, I think, a very innovative and wise step that was initiated 
by the Secretary of Defense and Ambassador Bremer.
    Senator Levin. Mr. Chairman, if my colleagues will yield, 
relative to your questions to the two Secretaries--and I think 
that is a wise idea--would you be willing to do a number of 
things?
    One, in addition to asking them what overtures have been 
made, to add what overtures are planned? If no request is going 
to be made to NATO and the U.N. for support, if they could tell 
us why that is not going to happen.
    Finally, could you add to NATO the U.N. as the other 
organization that we are asking the questions to, and I would 
be pleased to send that letter jointly with you, if you would 
be willing to have that.
    Chairman Warner. We often try to do things in a bipartisan 
nature, and I think that is an initiative we can do jointly. 
Now, Senator Clinton, you have been very patient. Thank you 
very much for joining us at this hearing today.
    Senator Clinton. Thank you Mr. Chairman. I apologize I 
couldn't get here earlier. We had a hearing on biodefense in 
another committee.
    But I want to thank General Myers and General Pace for your 
service. You came on board at a very difficult time in our 
country's history, and I am personally, and I'm sure, on behalf 
of my constituents, very grateful.
    I also want to commend you on the performance in both 
Afghanistan and in Iraq, and particularly the planning of the 
mission in Iraq that did limit and minimize the kind of 
collateral and civilian damage that might have otherwise 
occurred. I think that is a great tribute to you and to the men 
and women you are responsible for commanding.
    I want to focus for just a minute on Afghanistan. 
Obviously, our immediate concern, because of the headlines, is 
the continuing dangerous environment in Iraq and the challenges 
of rebuilding and reconstructing that devastated nation.
    However, as we all know, we do have thousands of U.S. 
troops in Afghanistan, including from the 10th Mountain 
Division, from Fort Drum, New York. The assessments I receive 
are quite mixed.
    I am told that the only secure place in the country, 
depending upon the time of day, is all or part of Kabul; and 
that we have made alliances with a number of warlords out of 
necessity, in order to have some effort ongoing to pacify and 
bring order to certain parts of the country, but that there has 
been a resurgence of Taliban/al Qaeda activity that is 
troublesome.
    So I would like to ask both of you, what is your assessment 
of the security situation in Afghanistan? Do we have enough 
troops, either American and international, to provide 
significant control? How important are these reports that the 
Taliban is regrouping? Finally, if you know at this time, what 
role will the 10th Mountain Division troops continue to play in 
Afghanistan?
    General Myers. I would be happy to answer, Senator Clinton.
    Often it's alleged that we don't pay much attention to 
Afghanistan, but in fact there has been a lot happening in 
terms of Afghanistan in trying to continue to make that country 
more secure.
    You are right, we have about 10,000 U.S. forces over there, 
as part of the Interim Security Assistance Force in Kabul, 
which is now a German-Dutch mission, but will turn this August 
2003 into a NATO mission. There are over 5,000 international 
forces supporting that.
    On top of that, we have somewhere between 2,000 and 3,000 
Coalition Forces supporting, in this case, now, the 10th 
Mountain Division over there. So we have substantial forces.
    The security situation in the country--if you map out where 
most of the incidents are happening, it is in the area along 
the Afghan and Pakistan border, starting about where Kabul is, 
the Khyber Pass, and down south all the way to a major incident 
we had down to the Spin Boldok area which is the border south 
of the ungoverned areas in Pakistan and the more traveled areas 
there between Afghanistan and Pakistan in the south-southeast.
    That is where the holdouts are. If the Taliban is going to 
get traction, that is where it is going to be. We know they go 
back and forth across the border fairly freely, and that is a 
problem for us. We have gotten complete cooperation from 
Pakistan in that regard.
    The great folks out of Fort Drum, they are going to focus 
on that area. That is where the Italians are focused. We have 
an Alpini brigade in there that is a thousand people strong, 
that is focused in that area, the Gardez, the Khost area, which 
is the area I am trying to describe.
    Do we have enough troops? I think we do have enough troops 
for the situation right now. What we have tried to do is create 
these Provincial Reconstruction Teams (PRTs) that are not 
large, but do bring sort of all the instruments of national 
power, from security, to aid, to construction to the various 
communities, and we hope to, in the next couple of months, to 
have one of those in each of the provinces in the major cities. 
Some are led by the U.S. One is led by the U.K. Other countries 
are looking at leading them as well.
    These are important ways to continue to show the 
improvement of the security situation; and bringing hope and 
real things, like wells that provide clean water, like schools, 
medical facilities, and so forth. That is the idea of these 
reconstruction teams.
    On top of that, we have trained, I think, now the number is 
up to over 4,000, 4,500--correct me if I'm wrong--about 4,500 
Afghan National Army folks, several companies of whom are out 
with our forces right now. So we are trying to put an Afghan 
face on the security picture that the average Afghan sees. By 
the way, these forces are being received by the Afghan people 
very well, as a matter of fact.
    So there is clearly a lot more to be done. I would have 
told you, had it not been for the report I read today, that 
since June we have had a decrease in security incidents, and we 
actually expected the opposite to happen. Here in the last week 
they have started to increase again; but it does ebb and flow.
    We had a successful operation killing 25 Taliban down in 
the Spin Boldok area. We will continue to work that. There is 
also a suspicion that some of the high-value targets that we 
are after are in that same area. We will continue to have to go 
after them.
    So it is uneven throughout the country. I would say three-
quarters of the country is pretty much secure. There is that 
part on the Afghan-Pakistan border that is not so secure that 
we have to deal with.
    Senator Clinton. General, I know my time has expired, but 
another element of this that I would----
    Chairman Warner. Senator, this is your first round, and I 
think Senator Reed and I would indulge you to have a question 
or two in addition.
    Senator Clinton. Thank you, Mr. Chairman, because, Mr. 
Chairman, there is another element to this that I am concerned 
about, and perhaps we could get a written report or maybe this 
is more appropriate for a classified briefing.
    But I am also hearing reports about the increasing presence 
of Iranian interests in Afghanistan; and that not only with 
respect to political, diplomatic, quasi-military presence, but 
also doing work in the country reconstructing roads, building 
schools--really planting a flag, at least in western 
Afghanistan.
    I find that concerning, and so it would be very helpful for 
me to be given some additional information about what we know 
with respect to Iranian actions and intentions concerning 
Afghanistan, and then the related issue with respect to 
Pakistan.
    I agree with you that for many of us, we have gotten much 
more cooperation than we ever thought possible. But I am still 
concerned about the cross-border movements, and also the level 
of instability within Pakistan, and the ongoing efforts to 
destabilize the Musharraf regime.
    So again, any updates you can give us on that, just to keep 
us informed, so we have a better idea of what the real threat-
and-risk ratio is--I would appreciate that.
    Finally, with thanks to the Chairman, I am also still, 
along with so many of my colleagues, perplexed--which is a word 
that General Abizaid used before us--concerning weapons of mass 
destruction. I would be remiss if I didn't ask both of you, 
given your cumulative experience, your expertise, as to what is 
the most reasonable explanation.
    I know that the Chairman and I talked on several occasions 
about our concerns regarding what would happen to our troops 
when they crossed the Tigris or Euphrates, and the likelihood 
of the use of chemical weapons, and the necessity of making 
sure that they had the proper equipment and were as ready as 
possible.
    It is just bewildering, I guess. For those of us who have 
followed the intelligence reports consistently, now, going back 
a number of years, it just doesn't make sense. So I would 
appreciate your take on what happened. How do we answer this 
question?
    There are obvious explanations--it never was as much as we 
thought it was and our intelligence was just off by 90 degrees. 
It was there, it was destroyed, it is still concealed, or worst 
of all options, it has been privatized, in all or part, which 
is what I fear most.
    But I would appreciate your expert assessment briefly on 
that question.
    General Myers. Senator Clinton, let me go back to Pakistan 
for just a minute. I think it is worthy to note that of the 
senior al Qaeda leadership that we have captured--using ``we'' 
very broadly--most of them have been captured by the Pakistanis 
or with Pakistani help, not insignificant. Two, WMD. Clearly, 
UNSCOM, the U.N. inspection regime before the last one, the 
recent inspection regime and their reports, the U.N. Security 
Council resolution--there was no doubt that Iraq not only had a 
program, but had material, and they hadn't accounted for it. It 
is my belief that we are going to find good evidence of a 
program, and it is also my belief that we are probably going to 
find material, as well. It is quite possible.
    We certainly went into combat on March 19th of this year 
thinking that we were going to be subject to chemical and 
perhaps biological attack, and that is why our soldiers and our 
marines and everybody on the ground there, and the air crews, 
were prepared for it. They fought in their protective gear 
which is, having exercised in that gear before, it is not 
something you do voluntarily, because it is a little bit 
cumbersome and it is extremely hot. While the temperatures were 
only in the 1980s and 1990s, this was quite a burden on our 
forces. But the commands made that decision based on our 
knowledge of the threat at the time.
    So why haven't we found it? Well, first of all, it has been 
about 100 days since the end of major combat operations and I 
think, I have always stated--and my belief is--that it is going 
to take some time. This is a regime that has practiced denial 
and deception. They were at the graduate level in denial and 
deception. Witness the reports the other day about one of their 
nuclear scientists that was told to go bury some centrifuge 
parts under his rose bush. Now, if he had not come forward and 
said, ``they told me to bury these parts under this rose 
bush,'' it is unlikely we would have uncovered them.
    I think the same thing is true. They have compartmented 
this so well, and we know they took parts of their program, 
their documentation, perhaps the material, and they spread it 
out in a land the size of California. So it is going to take 
time. It is going to take the same thing that got us the two 
sons. It is going to take Iraqis coming forward saying, here it 
is, or here is what I know.
    We have a very large organization, the Iraqi Survey Group, 
led by General Dayton, with guidance from Dr. Kay, and they are 
progressing down that road. We are going to have to wait and 
see, in the end. But my personal belief is we will still find 
the evidence.
    I share your concern that the worst of all outcomes and the 
reason we went in there is that we did not want weapons of mass 
destruction to fall into terrorist hands, and we have to be 
very alert to that. I think we have the intelligence apparatus 
and forces and people working this so hard that we are going to 
try to keep that from happening. That is clearly a danger.
    Chairman Warner. The line of questioning by the Senator 
from New York with regard to Afghanistan is a very important 
part of this record. I think we should also have initiated by 
the Senator from New York, the latest report on our continuing 
emphasis on trying to apprehend bin Laden and Sheikh Omar, the 
two leaders.
    In our conversations, that is, you and I, General Pace--I 
frequently bring this up in a private context, but I think you 
should emphasize today there has been no diminution in our 
effort to try and apprehend those two individuals, who in all 
probability, are holed up in a piece of geography in this world 
unlike anything else in terms of its inaccessibility to us.
    General Myers. Mr. Chairman, that's right. We continue 
worldwide to go after the leaders of al Qaeda, any members of 
al Qaeda we can find, but the leadership is of great interest 
to us and those efforts have not stopped, clearly.
    Chairman Warner. Thank you.
    Do you have something to add?
    General Pace. No sir, thank you.
    Chairman Warner. Senator Reed. Thank you for your patience.
    Senator Reed. Thank you very much, Mr. Chairman. As Senator 
Clinton has mentioned, the 10th Mountain Division gives me the 
opportunity to say they are also great soldiers led by a great 
commander, Buster Hagenback.
    I would like to return to the situation in North Korea 
which the Chairman opened up. To me, it is the most grievous 
threat we face. As General Myers pointed out this is a regime 
that has shown in the past their willingness to proliferate. 
They have declared publicly that they are processing nuclear 
rods.
    Ironically, we conducted a preemptive attack against a 
nation that had very little military capacity relative to North 
Korea, and that was stoutly denying that they had weapons of 
mass destruction and to date we haven't found any.
    The war plans for North Korea are classified, naturally, 
but the public sources I've seen--and they are dated, I'll 
admit that--suggest that we would need upwards of 200,000 or 
more troops to conduct the operation. Because they are dated, I 
would assume we probably could get that number down a bit; 
given our situational awareness, precision weapons, 
communications superiority. But still we are talking at least, 
my estimate would be 100,000 or more troops.
    Given the deployments today, where are we going to get 
those troops without cutting back our effort in Iraq or 
Afghanistan?
    General Myers. Senator Reed, without going into the 
classified parts of the plan, one of our responsibilities to 
the Secretary of Defense is to ensure that as we use our forces 
around the world on the global war on terrorism, in the Balkans 
or wherever it is we are called upon to use them, that we 
continually assess our ability to fulfill the defense strategy 
and the capabilities that are outlined in the Quadrennial 
Defense Review (QDR) and in our national military strategy, our 
international strategy, and our national security strategy.
    Clearly, one of the major parts of that is our ability to 
defend the peninsula, as we talked about earlier. So as we 
developed the rotation plan, we looked very carefully at our 
ability to respond to a situation on the peninsula, a North 
Korean attack, which would be a worst-case sort of situation. 
We have designed into the Army's rotation plan the kinds of 
units, and the particular timing to make sure that we maintain 
the capability to fulfill the war plans as they are being 
written right now by General LaPorte over in Korea.
    Senator Reed. Mr. Chairman, because of the nature of this 
problem, I think it would be very useful if, in a classified 
setting, if we had a brief on the plan and a lay down of the 
numbers, because I think our responsibility is to ensure that 
we can conduct the battle, but we sure as heck have to make 
sure you have the forces; and not just the forces but the 
critical items, the airlift, high-value items that are always--
--
    General Myers. Sure, all the enablers that you need, you 
bet. That is something we look at. We assess this periodically; 
because we have to remember, we are in a global war, and we 
think it is part of the Joint Chiefs of Staff responsibility to 
look at our force laydown--can we do what we have said we are 
going to do in our National strategy and our defense strategy 
and then where is it we have risk, what risk are we willing to 
accept, and how we mitigate it.
    Senator Reed. I think it comes down, as you point out, 
General, to what risk are you running, and that is a judgment 
that you have to make, but I think it is something we should be 
aware of, and I believe, only in the context of a detailed lay 
down of the numbers.
    General Myers. We'd certainly have to do that in a 
classified setting.
    Senator Reed. Indeed.
    General Pace. To help just a little bit on that, we have 
about 220,000 U.S. forces in the Gulf region right now out of a 
force of about 1.4 million. As the chairman has pointed out, we 
war game ourselves constantly on forces available versus 
potential employment.
    Of interest also, you mentioned some of the high-value 
things we have, of which we have limited numbers. Because the 
war in Iraq, the major battle, is completed, a lot of those 
reconnaissance-type assets we use to find major formations have 
been able to return to the United States, and are undergoing 
reconstitution.
    So in some ways, we have a better position today because of 
the results of the war in Iraq.
    Senator Reed. I think, all of those factors would be useful 
to get a more detailed evaluation.
    General Pace. Yes, sir.
    Chairman Warner. Senator, I will consult with Senator 
Levin, but I think we will ask the Department, particularly the 
JCS, to give us the usual briefing with regard to advising 
Congress just short of the war plans, which is an area which 
the Congress and executive branch has traditionally recognized 
that that situation is shared in a limited way.
    Senator Reed. Thank you, Mr. Chairman, I appreciate that.
    A final question--prior to the initiation of hostilities in 
Iraq, Secretary Rumsfeld indicated that he had bullet-proof 
evidence that there were al Qaeda elements within Iraq. I think 
most commentators recognize that there were certain elements in 
the Kurdish area that might have had allegiances through Iran 
to Iraq, but the implication, obviously, of the Secretary's 
comments was that within the control of the Saddam Hussein 
regime, there were al Qaeda elements. Have you found any of 
those elements?
    General Myers. The elements that we know have a direct 
connection to al-Qaeda are the Ansar al-Islam elements that I 
think you were referring to because they were up there in 
northeastern Iraq before the Iraqi conflict began. They were in 
the process of developing poisons, for sure. We found evidence 
of that.
    Senator Reed. But General, that was an area that was 
controlled by the Kurds, who are nominally our allies?
    General Myers. No, that was not controlled by the Kurds. It 
was controlled by the Ansar al-Islam and other people in that 
area that favored them. The Kurdish forces had tried to take 
that area over several times and were repulsed and lost a lot 
of forces.
    Senator Reed. I stand corrected. Was it controlled by 
Saddam Hussein's forces?
    General Myers. That is a question that I haven't seen 
answered satisfactorily. We do know, and I am worried about the 
classification of this, but maybe it's not as important as 
there is no more Iraqi regime, we do know that the Iraqi 
intelligence service had people involved back and forth. We do 
know that. We also know today that Ansar al-Islam is active 
inside Iraq. We know that, and we know that they have perhaps 
several hundred people. We rounded up seven of them in Baghdad 
the other day. It is one of the things, when you talk about a 
security situation, you have to kind of treat them a little 
differently than you do the remnants of the Iraqi regime, 
because they are likely to fight in a little more sophisticated 
way and a little more aggressively.
    Senator Reed. To your knowledge, were they in Baghdad prior 
to our military operations?
    General Myers. I don't know, sir.
    Senator Reed. Thank you.
    General Myers. What we do know prior to military operations 
was that one of the leaders of Ansar al-Islam was in Baghdad 
for medical treatment and had gone there from time to time. We 
know that.
    Senator Reed. Thank you, General.
    Chairman Warner. Colleagues, it is the intention of the 
chairman to wrap this up, but I am going to remain to do so.
    Does the Senator from New York wish to ask an additional 
question before I do the wrap-up?
    Senator Clinton. Mr. Chairman, if I can just add one more 
concern to the questioning about Afghanistan.
    Chairman Warner. Yes, of course.
    Senator Clinton. A July 9 front page article in The 
Washington Post reported that poppy cultivation levels in 
Afghanistan appear to be back at 1999 levels, the highest level 
ever reached before the Taliban banned the poppy cultivation.
    In this article, it pointed to the lack of a rule of law, 
and even that the wheat donations by the international 
community could, perversely, be fueling this recent upsurge.
    Today's Christian Science Monitor reports that the 
resurgence of the poppy plants could unravel the relationships 
between warlords and the U.S. military.
    I know that in your written answers to our prehearing 
policy questions you assert that, despite some progress, we 
have a ways to go in Afghanistan. So I think we also need some 
additional information about how the U.S. military and related 
assets could be undertaking a counterdrug and stability mission 
to not just address the threat posed by the increased poppy 
cultivation, but all the lawlessness that will flow from it.
    Once again, we will be back into a situation where we have 
warlords, we have smugglers, we have all kinds of challenges in 
trying to bring back law and order. We know how difficult it 
is. We have not won the drug war in the United States. We have 
done a lot to try to help Colombia. We have a long way to go 
there. Is there some way that we can, so to speak, nip this in 
the bud before it gets full-blown and we face an additional 
security challenge, on top of everything else we're 
confronting?
    General Myers. Senator Clinton, you are quite right, this 
is a problem inside Afghanistan. It has been a problem that has 
been addressed primarily by Britain. They have been the ones 
that have had the lead on this.
    It is a complex problem. There is an economic dimension to 
it. There is the warlord dimension to it. Certainly, we know 
where these products go, and they go up into Europe, and that 
is a great concern. So it is one that has to be dealt with by 
the international community.
    We are addressing it on several fronts. But the U.S. 
military at this point has not been one of the primary tools to 
use on this particular issue, it has been the Brits.
    Chairman Warner. Thank you very much, Senator.
    Gentlemen, I will conclude with a couple of questions here.
    The conference between the House and the Senate on the 
defense authorization bill has before it a variety of proposals 
concerning modifying the end strengths of the Army, Navy, Air 
Force, and Marine Corps. Has anything developed in the course 
of events here recently which modifies the positions that each 
of you have taken in previous testimony, the testimony of the 
Secretary of Defense on those issues, that should be taken into 
consideration by the conference at this time before, hopefully, 
the conference report can be put together and acted upon by 
both Houses in the course of the coming weeks?
    General Myers. I will start, and then I will turn it over 
to General Pace.
    I think the Secretary said that he is not necessarily 
against end strengths--I can't put words in his mouth, but not 
necessarily against end strength increases, but I think we all 
share the concern that----
    Chairman Warner. We have always had a long tradition in 
this committee, when each of you were confirmed, to ask for 
your personal views, and I fully respect your allegiance to the 
Secretary as a civilian control of our military, but I think 
your personal views would be of great advantage to Congress.
    General Myers. I'm going to give you those, and I share the 
view that we should not be opposed to the issue of end strength 
increase. We have to look at this carefully.
    We talked about it earlier. One of the things we have to do 
is to make sure if we have somebody in uniform, that they are 
doing what somebody in uniform should be doing; and that we 
don't have people in uniform doing what others could do, 
civilians and so forth.
    You can see all sorts of numbers, but there are several 
tens of thousands that could be--the jobs they are doing could 
be done by civilians, and we are looking at that, as a matter 
of fact, in lots of the support areas. That's one thing that 
has to happen.
    The next thing, when we talk about end strength, is we need 
to rebalance our active duty and our Reserve component mix, and 
part of the force is in particularly high personnel tempo and 
operations tempo, because we don't have that mix right, so that 
rebalancing is a piece of it. When we talk about end strength 
increases and our commitments, we also need to look at our 
commitments, the other part of that equation, and are we in 
places where we have a vital national security interest? Given 
that we are in a war on terrorism, should we reduce our 
commitments in other places?
    There has been an effort by the Department to end our 
commitment in the Sinai. We have been partially successful 
there. On and on it goes. It is very difficult to get out of. 
We have been in the Balkans now--somebody walked up today and 
said, we have been in the Balkans 8 years. Well, I just hadn't 
thought about it that way, but since 1995 we have been in the 
Balkans in varying numbers, and generally they have been 
decreasing, but we have very significant forces in the Balkans.
    The question is, of all those commitments, which ones could 
we stop doing, get others to do to help the end strength, 
inform the end strength equation?
    The other thing I would say is, and we talked about it at 
length, is the internationalization of our efforts. We are 
doing that in places like Afghanistan and in Iraq. As time goes 
on, we are going to bring on more Afghan National Army, Afghan 
police, Afghan border patrol. In Iraq, we have talked about the 
Iraqis we are trying to bring on board, all of which I think 
informs us about where we are.
    Then one thing that goes through my mind is that the most 
expensive thing we can do is bring on a person on active duty 
in end strength. The personnel cost and the medical and all 
that is 60 percent of our budget. It is a very expensive thing 
to do. It takes time, there is lag time to get them on board, 
and then of course, there is the legacy of the budget impact in 
the outyears with this large a force.
    So I think we need to look at those other things I just 
mentioned before we come to the conclusion that an end strength 
increase is needed. That is my personal belief.
    Chairman Warner. General Pace, do you have views?
    General Pace. I would add if I may, Senator, that in 
addition to the scrubbing of the 3,000 billets, give or take, 
that we think are being performed by military that might be 
done by others and in addition to the active Reserve component 
mix that General Myers has mentioned, we also need to complete 
the process that we are going through right now of our scrub of 
our war plans.
    We have just shown ourselves convincingly that the war plan 
that was on the shelf for Iraq and the war plan that was 
executed used about 60 percent of the force that we thought we 
needed for the war plan that had been on the shelf. We are 
going through the same kinds of analyses right now for Korea 
and elsewhere in the world, and as we do that and we absorb the 
lessons that we have learned on precision use of weapons and 
the speed with which we employ our forces, we are finding out 
we can in fact have overwhelming combat power with fewer 
numbers of individual soldiers and marines on the ground. So I 
believe we have more work to do there before we can come 
forward and say we need more troops, sir.
    Chairman Warner. A vote has been called and I must depart, 
but I'm going to ask several questions for the record and then 
one last one here.
    The phrase that ``the United States is stretched very thin 
in terms of its Armed Forces''--that is causing real concern 
for families on the rotation issues, on the ability to recruit 
adequately for active, Reserve, and Guard components. I would 
like to have you address those issues in a written response at 
your earliest convenience.
    [The information referred to follows:]

    To reduce the stresses on our forces and families, the Services, 
Joint Staff, and the Secretary of Defense have developed an Operation 
Iraqi Freedom force rotation policy. The intent of the policy is to 
provide a measure of certainty and stability for our deploying 
soldiers. Eventually, these rotational schedules should permit the 
Services to return to their force deployment goals.
    We are aggressively working to ensure families have the support 
they need during these stressful times. The family support professional 
and volunteer staffs are making every effort to reach out to the 
spouses, children, and parents of our members. Military families come 
together in times like these. This is part of the military's true 
strength. Even though our operational tempo over the past several years 
has been high, it has not negatively impacted our active duty 
recruiting efforts. As military activity continues in association with 
Operation Iraqi Freedom and the global war on terrorism, it is still 
too early to tell whether these operations will have a measurable long-
term impact on recruiting. However, all of the Services are currently 
at or above their fiscal year-to-date recruiting goals. Recruit quality 
also continues to hold steady above the Department's benchmarks of 90 
percent high school graduates and 60 percent scoring in the top half on 
the Armed Forces Qualification Test.
    Currently, the Reserve components as a whole are achieving 96 
percent of their recruiting objective. Recruit quality is comparable 
with past years. Individually, all Reserve components except the Army 
National Guard and the Army Reserve are exceeding recruiting 
objectives. The Army Reserve has shown significant improvement in 
recruitment in the second quarter and is currently achieving 98 percent 
of its objectives. While the Army National Guard is experiencing some 
challenges in meeting its large recruiting objective, it remains within 
acceptable limits of its required end strength. The Department is 
closely monitoring the recruiting efforts of the Army National Guard 
and is working with them to overcome the challenges they are currently 
facing.

    Second, this committee has had, I think, a remarkable 
record in supporting the use of unmanned vehicles. We have gone 
through another very important chapter of utilization of such 
vehicles here in both Afghanistan and Iraq.
    Again, your views on the momentum with which those programs 
should be moving forward and the support that is being offered 
by Congress.
    Also, the concept of using our forces jointly. It has been 
a magnificent chapter in both the Afghan and the Iraqi 
campaigns. Where are we in the desired goals for achieving 
jointness? Are we there, is more needed to be done, and how can 
Congress facilitate that?
    Lastly, as we sit here going through the whole world and so 
forth, the publicity being given to this, I think, 
extraordinarily successful operation of locating and then 
securing the sons of Saddam Hussein. The critics or--I don't 
mean to do that in a pejorative sense, but some people are 
asking, could not this operation have been conducted in such a 
manner as to give every opportunity to capture them alive, 
hoping that we would receive a good deal of information from 
them?
    Now, drawing on my own limited experience, and as I look at 
the facts that are before us, and General Myers, you and I 
discussed this in some detail last night, it seems to me the 
on-scene commanders acted with prudence and professionalism.
    They made a conscientious effort to take them alive. That 
brought harm to our own forces, where we experienced four 
wounded. They repeated the attempt, and then came under fire 
again.
    Then it was after that that the utilization of such 
ordnance resulted in the deaths of all but, I think, one 
inside; and then that person I think had an opportunity, the 
young son to survive, but he, as I understand it, exercised 
force by shooting at our forces.
    Now, I'm going to ask General Pace to lead off in the 
response, because you spent so much of your professional career 
with ground force elements. What is your professional judgment, 
based on the facts as you know them today, of how this 
operation was conducted, and what response should be given to 
the people who raise legitimately the question, could it have 
been done in another way? Touch on the fact that, I think some 
of us were surprised to learn that there was a little bit of a 
fortification within this house, of the living spaces.
    I mean, clearly, long before this operation was undertaken, 
someone made the decision to fortify a part of this house, and 
we are now learning that other of the houses in Iraq were 
similarly fortified, giving rise to the assumption that Saddam 
Hussein anticipated events like this could unfold, and that 
those trying to hide themselves from the Coalition Forces could 
perhaps survive better in some modification to the house that 
enabled a fortified structure.
    Also, having watched the search for Noriega, I remember 
Senator Nunn, then Chairman, and I was ranking member, we went 
to Panama and watched the Army as they pursued Noriega. He had 
safe houses and other facilities where he evaded us for some 
period of time.
    We know that as part of the fortification in Iraq, they did 
have an underground tunnel to exit some distance away from this 
house and then be able to escape. This will be debated, but 
right now it is a hot debate out there, and I think it is 
important that this hearing have your views, General Pace and 
those of General Myers on that question.
    General Pace. Mr. Chairman, not surprisingly, you have 
touched on each of the important parts of that operation.
    Chairman Warner. I came through some of the training that 
you've had, although my career is far more modest in comparison 
to yours.
    General Pace. Sir, everything I have read and everything I 
have been told tells me that the commanders on the ground acted 
exactly correctly in this situation. They did in fact, as you 
pointed out, offer the opportunity for those inside the 
building to surrender. They thought they had the opportunity to 
capture or kill Saddam's two sons; but until the operation was 
complete, and until confirmation, they did not know with 100 
percent certainty what they had.
    They did offer the opportunity to surrender, as you pointed 
out. They made more than one attempt to enter the building and 
to offer the opportunity to surrender. Some of our soldiers 
were wounded in those operations.
    Clearly, with the amount of fire coming back at them from 
inside the building, force was appropriate and should be used, 
and was used. As you pointed out, there is no way of knowing 
whether or not there might have been tunnels or other routes of 
escape.
    The question that I would pose to anyone who might ask, why 
is it we would kill them, is what question would you be asking 
if they somehow managed to escape? I think that given the 
battle as it unfolded over 3-plus hours of combat--the 
restraint that was shown initially to afford them the 
opportunity to surrender, and the power that was used 
appropriately, to protect our own sons and daughters who were 
going into combat, was exactly what those commanders should 
have done.
    Chairman Warner. When you briefed me last night, General 
Myers, you showed me how that house was co-located with other 
private dwellings around it, so we had the concern of other 
occupants in their respective houses.
    A second part of that question is, we have been handed the 
wire stories and other information that these pictures have 
now--are in the public domain worldwide. Last night when I was 
on a national television show, I was asked the question about 
whether or not these pictures should be released. I didn't 
presume that I would be able to make that decision last night; 
but I did say it would be my hope and expectation when the 
decision to release them or not release them was made, it would 
be done with the careful analysis of how best such a decision 
would protect our forces, the Coalition Forces, against further 
death and wounding that we are experiencing every day, and I 
hope that was predicated in that decision.
    General, can you quickly answer it? They are holding the 
vote, so we have to depart.
    General Myers. Well, sir, I think as we discussed last 
night in your office, the issue of how and when to release 
those pictures was carefully considered by Ambassador Bremer, 
General Sanchez, General Abizaid, and the folks on the ground 
in Iraq, and they used their best judgment and the 
recommendations they got from the people that counseled them on 
how to do that.
    Clearly, I think we have done it in a dignified way where 
we don't denigrate the bodies and we don't allow any other 
atrocities to happen to those particular bodies, and I think it 
was done appropriately.
    Chairman Warner. Well, it sends a strong message to those 
still in hiding, be it Saddam Hussein or others, that morale is 
good among our forces and they are able to conduct the toughest 
of operations, and if you wish to have the fate that the others 
experienced, the two sons, stand by.
    General Myers. Absolutely right, sir.
    Chairman Warner. We have concluded this hearing and before 
I hit the gavel, I would note that in just a few years this 
room will be 100 years old, and many hearings have been held in 
it, but this has been among the more important, if I might say, 
because we are looking at the future of our Nation and, indeed, 
the free world, which is marked by uncertainties of a magnitude 
really never experienced before in contemporary history.
    We are fortunate to have men and women like yourselves 
wearing the uniform of our country, working with your 
counterparts in uniform in other countries, taking the risks to 
themselves and their families to ensure that freedom, as we 
love it here in the United States, can be protected not only 
here at home, but to the extent we can, in conjunction with our 
allies, be provided beyond our shores.
    Thank you, gentlemen.
    General Myers. Thank you, Mr. Chairman.
    Chairman Warner. The committee stands adjourned.
    [Whereupon, at 12:29 p.m. the committee adjourned.]
    [Prepared questions submitted to Gen. Richard B. Myers, 
USAF, by Chairman Warner prior to the hearing with answers 
supplied follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. You previously have answered the committee's policy 
questions on the reforms brought about by the Goldwater-Nichols Act in 
connection with your nominations to be Commander, U.S. Space Command, 
Vice Chairman of the Joint Chiefs of Staff, and Chairman of the Joint 
Chiefs of Staff.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
most recent confirmation hearing on September 13, 2001?
    Answer. No. My fundamental view has not changed. The Goldwater-
Nichols Act was a watershed event for needed defense reform. Overall, 
the reforms have clearly strengthened the warfighting capabilities of 
our combatant commands while maintaining appropriate civilian control 
over the military. In terms of enhancing the effectiveness of military 
operations, the performance of the Armed Forces in Operations Desert 
Shield, Desert Storm, Enduring Freedom, and Iraqi Freedom demonstrates 
the results of implementing those reforms.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols in light of the changing environment? If so, what 
areas do you believe it might be appropriate to address in these 
modifications?
    Answer. Clearly our fight in the global war against terrorism and 
our need to work with many agencies outside DOD as well as with our 
coalition partners is creating a much different security environment 
from the one that drove defense reform in 1986. For these reasons and 
others, I have directed my staff to form a working group to identify 
suggested changes to enhance the effectiveness and efficiency of 
selected processes that allow me to carry out my duties as described in 
Title 10. I look forward to receiving their recommendations and those 
of others working on potential ways Goldwater-Nichols might be adapted 
to our new environment.

                                 DUTIES

    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Chairman of the Joint Chiefs of Staff 
as laid out in Title 10, United States Code, and in regulations of the 
Department of Defense pertaining to functions of the Chairman of the 
Joint Chiefs of Staff?
    Answer. I serve as the principal military advisor to the President 
of the United States, Secretary of Defense, and National Security 
Council as established by Title 10. I think the Goldwater-Nichols Act 
has provided the appropriate language to facilitate my primary 
function. However, in the post-September 11 environment my role has 
taken on greater significance in the fight against terrorism in that I 
am the senior military officer who maintains a total global perspective 
for many issues that cross the boundaries of combatant commander areas 
of responsibilities (AORs). This perspective is also critical for 
defense of the homeland, and therefore I think it would be appropriate 
to formally document my new role as principal military advisor to the 
Homeland Security Council.

                             RELATIONSHIPS

    Question. Section 151(b) of Title 10, United States Code, provides 
that the Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. Other sections of law and traditional 
practice, however, establish important relationships between the 
Chairman and other officials.
    Please identify any changes in the relationships the Chairman and 
Joint Chiefs of Staff have experienced with the following officials 
since your last confirmation hearing:
    The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters that the Secretary is authorized to act. I have 
not noticed any changes in the relationship between the Chairman and 
the Joint Chiefs of Staff with the Deputy Secretary of Defense since my 
last confirmation hearing.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, United States Code, and current DOD directives 
establish the Under Secretaries of Defense as the principal staff 
assistants and advisors to the Secretary regarding matters related to 
their functional areas. Since my last confirmation hearing, the only 
changes in the relationship between the Chairman and the Joint Chiefs 
of Staff and the Under Secretaries of Defense has been associated with 
Unified Command Plan changes and the SecDef's recent establishment of 
the Under Secretary of Defense for Intelligence. As specified in UCP 2 
CHG 2, as with other communications between the POTUS, SecDef and 
combatant commanders, communications between under secretaries and 
combatant commanders should be transmitted through the Chairman of the 
Joint Chiefs of Staff.
    I have worked closely with OSD, the Joint Staff and USSTRATCOM to 
delineate the roles and responsibilities of each entity to carry out 
the intent of the POTUS-approved Unified Command Plan.
    Question. The Assistant Secretaries of Defense (ASDs).
    Answer. The SecDef has created a new Assistant Secretary for 
Networks & Information Integration who reports directly to the Deputy 
Secretary of Defense. He has also created a new ASD for Homeland 
Defense who reports to USD (Policy). I have not noticed any changes in 
the relationship between the Chairman and the Joint Chiefs of Staff 
with the Assistant Secretaries of Defense since my last confirmation 
hearing.
    Question. The Vice Chairman of the Joint Chiefs of Staff.
    Answer. I have not noticed any changes in the relationship between 
the Chairman and the Joint Chiefs of Staff with the Vice Chairman of 
the Joint Chiefs of Staff since my last confirmation hearing.
    Question. The Secretaries of the Military Departments.
    Answer. I have not noticed any changes in the relationship between 
the Chairman and the Joint Chiefs of Staff with the Secretaries of the 
Military Departments since my last confirmation hearing. However, the 
Under Secretary of the Air Force now acts as the Executive Agent for 
Space Program procurement.
    Question. The Chiefs of Staff of the Services.
    Answer. I have not noticed any changes in the relationship between 
the Chairman and the Joint Chiefs of Staff since my last confirmation 
hearing.
    Question. The combatant commanders.
    Answer. Since my last confirmation hearing, the only changes in the 
relationship between the Chairman and the Joint Chiefs of Staff and the 
combatant commanders have been associated with Unified Command Plan 
changes.
    UCP 2 created USNORTHCOM. USNORTHCOM's missions include homeland 
defense and providing assistance to U.S. civil authorities.
    UCP 2 CHG 1 disestablished USSPACECOM and established the new 
USSTRATCOM. UCP 2 CHG 2 assigned USSTRATCOM with the emerging missions 
of Global Missile Defense, Global Strike, DOD Information Operations, 
and Command, Control, Communications, Computers, Intelligence, 
Surveillance, and Reconnaissance (C\4\ISR).

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that you 
would confront if confirmed for a second term of office as Chairman of 
the Joint Chiefs of Staff?
    Answer. I see two major challenges for the near term. First, we 
must maintain our current commitments while being prepared to respond 
to others. Second, we have the challenge of transforming our Armed 
Forces to become a force well positioned to face the threats of the 
21st century.
    Our greatest challenge will be to meet the near-term demands in 
winning the war on terrorism while simultaneously transforming the 
force to meet future challenges. Demands on the force today will 
continue to stress our ability to maintain readiness. We must set clear 
priorities for force management and ensuring the institutional health 
of the force. We must also continue to balance recapitalization of 
existing capabilities in the near-term with the demands of 
modernization and transformation that ensure our military superiority 
in the mid- to longer-term.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I have set three strategic priorities: winning the global 
war on terrorism, enhancing joint warfighting, and transforming the 
force.
    As we fight the war on terrorism, we continue to improve our 
ability to conduct joint and combined operations, integrating all 
elements of national power, and employing intelligence in ways that 
reduce our response time and allow us to attack time sensitive/time 
critical targets.
    To enhance joint warfighting, we are integrating lessons learned in 
the WOT, improving our adaptive planning processes, and making 
organizational refinements. Joint doctrine that encompass not only 
military forces, but their complementary interagency partners as well, 
ensures unity of effort and increases the synergy required for success. 
The joint operational concepts developed during the war on terrorism 
and refined through experimentation will lead us to new capabilities 
and a transformed joint force.
    Our capabilities-based approach requires that we define the 
strategic landscape and identify the types of transformed capabilities 
the Armed Forces need to project military power globally. The 
operational environments our forces will face are such that a wide 
variety of robust force mixes may be used to achieve the same strategic 
objectives. Our primary responsibility in this arena is to actively 
explore all possible mixes and employ the best combinations based on 
the situations at hand. To support this approach, we will continue to 
invest in our current capabilities while simultaneously investigating 
new technologies that will ensure our global primacy.
    Across the force, many units have an inordinately high tempo of 
operations (OPTEMPO) and personnel tempo (PERSTEMPO). As a result, we 
are reviewing the mix of Active and Reserve component forces to ensure 
the right mix for future operations.
    Additionally, as we develop our rotation plan for the WOT, we hope 
to add predictability for our forces, to improve morale as well as 
readiness.
    We continue to refine the roles and relationships of organizations 
like U.S. Northern Command and U.S. Strategic Command. As this process 
continues we will also redesign our joint deployment and mobilization 
processes to support the application and sustainment of decisive force.
    These priorities and their associated tasks will be more fully 
defined in our future National Military Strategy, the Joint Vision and 
the Joint Operations Concepts documents when they are completed.

                               PRIORITIES

    Question. In your responses to the committee's advance policy 
questions in connection with your last confirmation, you identified 
your initial priorities as joint warfighting, modernization and 
transformation, making the JROC more strategically focused, better 
defining the military's role in homeland security, finding ways to 
enhance Joint Forces Command's (USJFCOM) role in experimentation and 
transformation, sustaining our quality force, and taking care of 
people.
    How would you describe your progress to date in attaining each of 
your priority goals?
    Answer. We have continued to make real, sustainable progress in 
attaining my priorities. Our progress in the global war on terrorism 
continues unabated toward the singular goal of victory. Overseas, our 
ongoing successful operations in Afghanistan, Iraq and around the world 
continue to pay dividends in weakening terrorist organizations. With 
respect to Homeland Defense, we established United States Northern 
Command with the mission to deter, prevent, and defeat threats and 
aggression aimed at the U.S. We have made progress, but much work 
remains ahead.
    The U.S. Armed Forces' ability to conduct Joint Warfare is better 
today than any time in our history, but challenges remain. Key to 
improving our joint warfighting is the development of the Joint 
Operations Concept to provide an overarching linkage between strategy 
and capabilities. We will continue to improve joint warfighting by 
learning from previous operations like Operation Iraqi Freedom (OIF).
    OIF demonstrated the importance of improved C\4\ISR capabilities to 
joint operations and warfighting. Improving the warfighter's knowledge 
of the battle space and increasing the speed of decisionmaking has 
increased success and saved lives. DOD is committed to investing in 
transformational command and control programs. I greatly appreciate 
this committee's continued support for these critical programs.
    We continue our transformation throughout the military. With the 
institution of the new Joint Capabilities Integration and Development 
System, we have moved the Joint Requirements Oversight Council from a 
requirements-based to a capabilities-based process.
    USJFCOM continues to play an important role in transformation. We 
modified the UCP to provide USJFCOM with the responsibility to support 
the development and integration of fully interoperable systems and 
capability. We followed that last year by providing the resources 
necessary to implement these new responsibilities.
    Question. If confirmed, what would be your priorities for your 
second term as chairman?
    Answer. My priorities for a second term will continue to focus on 
winning the war on terrorism, improving joint warfighting, and 
transforming our Nation's military to face the dangers of the 21st 
century while taking care of the men and women serving in the Armed 
Forces.

                             TRANSFORMATION

    Question. If confirmed, you would continue to play an important 
role in the process of transforming the Armed Forces to meet new and 
emerging threats.
    With the benefit of almost 2 years in office, please describe the 
progress that the Department, including the Joint Chiefs of Staff and 
the Joint Staff, has made in transforming the Armed Forces?
    Answer. Future Joint Force: We are transforming the U.S. Armed 
Forces into a truly joint force that is dominant across the range of 
military operations. To guide our efforts, we published the Joint 
Warfighting and Crisis Resolution in the 21st century perspective on 
how the joint force will operate in the future, establishing the 
precedent on which joint force development will progress. This includes 
a redefined range of military operations that covers warfighting and 
peacetime operations alike.
    Operations Concept: Against this perspective, we are developing the 
Joint Operations Concepts (JOpsC). It provides the operational context 
for the transformation of the Armed Forces of the United States by 
linking strategic guidance with the integrated application of Joint 
Force capabilities.
    Joint Experimentation: Under Joint Staff and OSD guidance and 
Transformation Planning Guidance (TPG) direction, JFCOM has implemented 
a robust joint experimentation campaign plan that runs through 2005. 
This plan incorporates lessons learned, post war defense assessment, 
and emerging service and joint concepts. From this experimentation 
effort, specific recommendations for joint force improvement are being 
submitted for JROC approval and implementation.
    Joint Training: We have automated the Joint Training System through 
the development and fielding of the Joint Training Information 
Management System. This permits full implementation of key business 
practices linking strategy to joint training and exercise programs.
    War Planning: Transforming war planning is a work in progress. For 
example, we have streamlined the plans review and approval staffing 
process to ensure plans are relevant and current. The OSD and the Joint 
Planning and Execution Community are conducting parallel plan review in 
order to complete the review process more quickly. The first round of 
this streamlined review process in being completed now. Historically 
the plan review process took 6 months, and we have transformed it to a 
6-week process. We believe our ongoing efforts will enable us to 
initiate a new deliberate plan, voice guidance, conduct analysis and 
approve it in less than 10 months, where in the past it has taken 2 
years.
    Joint Professional Military Education: Many changes have been made 
to educate our force on what it means to be Joint since Operation 
Desert Storm. Joint operations in Afghanistan and in Iraq highlighted 
the need to readdress what is being taught in all the military 
schoolhouses. One new initiative at National Defense University (NDU) 
is designing what we anticipate will be a 1-week course for newly 
selected three-star flag and general officers. This course, once fully 
fielded, will give our senior leaders needed insights into the demands 
of the Joint Force Commander. Additionally, we changed the CAPSTONE 
program to address Joint Warfighting at the Operational level for our 
one-stars.
    Question. What are your goals regarding transformation in the 
future?
    Answer. Capabilities-based Force: Using the joint operating and 
functional concepts, we will complete transformation to a capabilities-
based force that is better prepared to respond to asymmetrical threats 
and crises worldwide.
    Translating Experimentation to Capabilities: The recommendations 
that come out of the joint experimentation efforts will focus on being 
``Born Joint,'' so that integration is incorporated from conception of 
the relevant ideas, regardless of the service, command, or agency 
providing the capability.
    Doctrine: We have started to implement a joint doctrine 
consolidation effort. Over the next 5 to 7 years we have a proactive 
plan to reduce the number of joint doctrine publications. This will 
promote jointness and transformation by integrating joint mission 
areas, grouping functional doctrine together and eliminating 
inconsistencies and redundancies.
    Training: We are continuing to provide dynamic, capabilities-based 
training for the Department in support of national security 
requirements across the full spectrum of service, joint, interagency, 
intergovernmental, and multinational operations.
    Joint Professional Military Education (JPME): We desire to increase 
the number of officers who are able to participate in JPME by 
increasing the exposure of all officers to JPME over the course of 
their careers. We also intend to tailor the JPME level II program in-
residence, and use distributed learning technology in order to make 
JPME II attendance more accessible. To achieve this objective, we 
require legislation to eliminate the requirements for JPME II to be 
taught only at an NDU school, and for the curriculum at JFSC to be at 
least 3 months in duration.
    For our Reserve Components, we initiated a course of JPME 
encompassing a mix of distributed learning and resident instruction. 
Once complete, we expect a throughput of approximately 1,500 reservists 
and Guardsman per year. On the Non-Commissioned Officer (NCO) side, we 
also see an ever-increasing amount of Senior NCOs assigned to Joint 
Headquarters. We will continue to aggressively improve JPME for NCOs.
    War Planning: We are revising the deliberate planning process to 
complete planning from initiation to approval in 10 months. In today's 
uncertain security environment we need to be able to develop war plans 
that are flexible, and adaptable to specific changes from the initial 
planning assumptions, and do it more quickly.
    Military Culture: The biggest challenge to transforming the 
military is changing the existing culture. That means that our junior 
personnel must think differently from day one. Instead of a service-
centric focus, they must have a joint-centric focus. We are reviewing 
all levels of military education, including that of our noncommissioned 
officers to facilitate this cultural change.
    Question. What is the role of Special Operations Forces (SOF) in 
the overall transformation vision?
    Answer. Operation Iraqi Freedom demonstrated the overall maturation 
of U.S. Special Operations Forces, especially SOF integration with 
precision airpower. SOF, conventional ground, air, and maritime 
operations occurred simultaneously in space and in time frequently with 
conventional forces under SOF command and control. The transformation 
lesson learned is to continue to expand our Joint Training Exercises 
integrating SOF, conventional and coalition SOF.
    Question. Specifically, what do you believe transformation should 
mean for the special operations community in terms of missions, 
training, equipment, or in any other aspect?
    Answer. In future missions, we will rely more on Special Operations 
Command (SOCOM) to look globally. SOF transformation requires continued 
progress in providing the necessary equipment and training to stay 
ahead of the threat. As technology spreads, even a local terrorist 
group can obtain secure wireless communications, global positioning 
systems, and other tools that were unique to military powers only a few 
years ago. For SOF to continue pressing the fight against these groups, 
their own tools must continue to mature and become more transportable, 
survivable, and effective.
    Question. What, if any, special role can SOCOM's development and 
acquisition capability play in service and DOD efforts?
    Answer. SOF will continue its important role in development and 
acquisition. Many items now in common use among conventional forces 
began as SOF-specific requirements.
           expanded roles of u.s. special operations command
    Question. The Secretary of Defense recently announced that U.S. 
SOCOM would take on additional, expanded responsibilities in the global 
war on terrorism, as a supported combatant commander, in addition to 
its more traditional role as a supporting combatant commander.
    In your view, what types of missions should U.S. SOCOM conduct as a 
supported combatant commander?
    Answer. U.S. SOCOM should serve as supported combatant commander 
for campaigns against those terrorist organizations whose cells, 
support networks, or activities are spread across several geographic 
combatant commander (GCC) boundaries. This will allow U.S. SOCOM to 
synchronize military operations against these groups, while using the 
GCC's regional experience and expertise to plan and conduct specific 
operations. It is important to resource SOCOM for these new roles as 
reflected in 2004 budget proposals.
    For some missions, the Secretary may direct Commander, U.S. SOCOM 
to exercise command over special operations overseas, as allowed under 
USC Title 10. This will generally occur when the GCC is unable to 
provide the necessary command and control capability or when the 
mission parameters (available time, national risk, political 
sensitivity) make this command relationship desirable.

                              AFGHANISTAN

    Question. Given the current level of instability in Afghanistan, do 
you believe that the U.S. troop contribution is appropriate in terms of 
size and composition?
    Answer. Despite many achievements by the coalition and the Afghan 
government, Afghanistan is challenged by recent increases in violence 
and internal political tensions. DOD, OMB, and DOS are currently 
reexamining policies and resources required to address the changing 
conditions. As for our troop size and composition, U.S. and coalition, 
they are as requested by the Central Command (CENTCOM) Commander and I 
believe adequate for the tasks at hand.
    Question. What, if any, types of military assistance would you 
recommend in addition to current efforts?
    Answer. Our current efforts are about right. Although we have a 
ways to go in Afghanistan, we are making great strides. We are planning 
to increase the number of Provincial Reconstruction Teams (PRTs) to 
eight, which will provide one PRT in each province. I expect release of 
this Planning Order within the next few days.
    The size of the Afghan National Army (ANA) will increase to 7,200 
by January 2004 and to 10,000 by June 2004. By accelerating the 
training of the ANA, and increasing the number of PRTs, we will be able 
to transfer more of the security responsibilities to the Afghan 
government, thereby reducing the demand on U.S./Coalition Forces.
    CENTCOM has dedicated forces with the mission of locating high 
value targets. They have also developed a Reward Program, offering 
rewards for enemy personnel on the Black List. CJTF 180 is conducting 
operations in the vicinity of the Pakistani border to interdict 
infiltration/exfiltration routes that we believe al Qaeda/Taliban 
forces use. Killing, or capturing, remaining al Qaeda/Taliban forces 
remains a high priority mission for our forces in Afghanistan.

                       STATUS OF THE ARMED FORCES

    Question. Ongoing operations in Iraq, Afghanistan, the Balkans, and 
the Horn of Africa, coupled with deployments to places such as South 
Korea and a potential deployment to Liberia, place enormous pressures 
on the active and Reserve components.
    In your view, how is the overall morale of forces at present, 
particularly with regards to those units and individuals those who have 
been deployed for an extended period of time or have been deployed 
numerous times in recent years?
    Answer. Overall, morale remains good and will improve when we 
formalize the rotation policy. Individual service members will continue 
to express concerns about the equity of the rotation policy and we will 
address those concerns. My assessment is that there is not a 
significant morale issue in the Armed Forces.
    Current global force requirements will remain steady, or increase 
modestly, and as such we are developing a rotational plan in support of 
OIF. This rotational plan will facilitate our ongoing operation in 
support of OIF, sustain our all-volunteer force, and defend our 
homeland, while maintaining the capability to rapidly respond to 
unexpected requirements.
    Leveraging our Total Force, this rotational plan maximizes the 
employment of mostly Active component (Army and USMC) to OIF while the 
Reserve components conduct other global requirements. By establishing 
theater tour length policy of up to 12 months, we will ultimately meet 
respective services' OPTEMPO deployment goals. This rotation allows the 
Marine Corps to reconstitute their force and maintain the capability to 
respond to emerging requirements. Increased use of coalition support 
from one Multi-National Division (United Kingdom) to three Multi-
National Divisions will greatly assist and help lessen out troop 
requirements in support of OIF.
    Question. What plans do you have to address the stress this high 
operational tempo places on our forces and their families?
    Answer. We are aggressively working to ensure families have the 
support they need during these stressful times. Further, the family 
support professional and volunteer staffs are making every effort to 
reach out to the spouses, children and parents of our service members. 
Military families come together in times like these. This is part of 
the military's true strength.

                        JOINT OFFICER MANAGEMENT

    Question. Provisions of law in Title 10, United States Code, 
regarding such matters as management policies for joint specialty 
officers, promotion objectives for joint officers, joint professional 
military education, and joint duty assignments have been in effect for 
over 15 years. Among other factors, changes in the size and composition 
of the officer corps, in the career patterns of officers, in 
operational requirements, and in the personnel requirements of the 
combatant commanders in successfully pursuing joint warfare have 
resulted in proposed legislative changes to existing law in this area.
    Based on your extensive experience in the joint arena, what 
legislative changes, if any, would you recommend in joint officer 
management (JOM) and joint professional military education?
    Answer. Our recent experience in OEF/OIF reveals that we require 
flexibility to ensure joint officer management and joint professional 
military education to meet the realities of today's military 
environment. In particular, we need to update JOM to award appropriate 
joint duty credit for joint experience officers receive when serving in 
high OPTEMPO environments.
    In March 2003, the Department forwarded the report of the 
congressionally directed Independent Study of Joint Officer Management 
and Joint Professional Military Education. The completed report made 
several recommendations regarding changes needed to update JOM/JPME. We 
are preparing legislation incorporating these recommendations. In 
addition, we are developing a strategic plan to help shape JOM to meet 
our future joint requirements.

                 SPACE CAPABILITIES AND TRANSFORMATION

    Question. Space assets have played a crucial role in recent 
military successes, and future space assets such as space based radar 
could transform how the military operates.
    Are you satisfied that such space programs have strong support 
within the Department of Defense and the Services, and are 
appropriately resourced?
    Answer. Space systems and programs enjoy strong support from the 
Services, the Office of the Secretary of Defense, and the intelligence 
community. I believe that the programs included in the budget are 
resourced adequately. The full depth and breadth of space capabilities 
required to support the new defense strategy is still under study.
    On the intelligence side, the Department and the intelligence 
community are engaged in a thorough, joint, end-to-end review of space 
and airborne collection systems known as the Transformational Air and 
Space Project (TSAP). This effort provides the space and airborne 
direction for the future and answers questions of numbers and types of 
systems, ISR architecture, and future resource requirements.

      INTELLIGENCE, SURVEILLANCE AND RECONNAISSANCE SUPPORT (ISR)

    Question. Are you satisfied with the level and quality of 
intelligence, surveillance, and reconnaissance support for U.S. forces? 
If not, what further steps would you recommend to improve ISR support?
    Answer. Intelligence, Surveillance, and Reconnaissance (ISR) assets 
provide daily support to U.S. forces in all theaters, providing crucial 
and timely information to warfighters and other intelligence agencies. 
The current satisfaction with ISR support, however, is tempered by an 
aging platform baseline, and high OPTEMPO and PERSTEMPO demands on 
platforms and personnel. We are developing follow-on ISR programs that 
bring more capabilities to defeat emerging threats and offer more 
options to warfare commanders, such as persistent surveillance. I 
intend to maintain the emphasis to create a more flexible and adaptable 
collection capability to continue to support warfighters and decision 
makers.

                           CLOSE AIR SUPPORT

    Question. In Operation Enduring Freedom, there was some criticism 
of the procedures by which close air support (CAS) was provided; some 
cases involved fratricide and others involved allegations that 
available aircraft were not being efficiently used.
    What steps were taken to improve CAS prior to Operation Iraqi 
Freedom, and what was the impact of these steps?
    Answer. The Army and Air Force warfighter staff talks held after 
OEF established the dialog for addressing OIF specific and some 
enduring CAS issues. This led to the acceleration of the Terminal 
Attack Control Program (TACP) modernization effort, the establishment 
of a very robust Air Ground System, pushing TACP assets down to the 
lowest level to include coalition allies, and the establishment of a 
robust Air Coordination Element (ACE) at CFLCC and Army V Corps Air 
Support Operations Center (ASOC).
    We outfitted A-10s with targeting pods capable of day/night, laser, 
infrared, and night vision goggle employment. The pod enables standoff 
from the target to identify enemy and friendly forces, which gave the 
aircraft more time over the target area and increased survivability. 
During the sand storm, targeting pod equipped A-10s were able to ``see 
through'' the sand to distinguish friendly and enemy forces and 
increase the effectiveness of the attack. We also reduced the amount of 
command and control nodes to increase responsiveness to forces on the 
ground. Finally, all ground attack aircraft were equipped to use GPS-
guided bombs to attack enemy positions very accurately in all weather.
    Overall, we significantly improved Joint CAS Operations from OEF to 
OIF, to the degree that we seamlessly provided CAS regardless of 
service. For example, we had Air Force CAS for marines, and Australian 
CAS for Army and Marine Ground Forces.
    Question. What areas remain to be addressed in the conduct of CAS?
    Answer. We will focus on increasing joint CAS training. Additional 
improvements include, but are not limited to, providing SATCOM radios 
to forces on the ground to increase communications capabilities and the 
outfitting of all A-10s with targeting pods to limit collateral damage, 
reduce fratricide, and provide instant positive battle damage 
assessment.

                             STRATEGIC LIFT

    Question. The Mobility Requirements Study for Fiscal Year 2005 was 
conducted with the assumption of the previous National Military 
Strategy of two Major Theater War (2-MTW). For strategic airlift, the 
study identified a requirement for 54.5 million ton-miles a day, with 
available airlift at the time falling well short. Steps have been taken 
to improve our capability since then by continuing the C-17 production 
line and initiating two C-5 upgrade programs.
    Based on your experience of the last 2 years, how do you assess our 
current strategic airlift capability?
    Answer. The need to conduct the war on terror on several fronts 
simultaneously, changes in how we deploy forces, new defense planning 
guidance (DPG) (including homeland defense), Army transformation, and 
the proliferation of anti-access weapons signal potentially significant 
changes in the combatant commanders' requirement for strategic lift. 
Under MRS-05, 54.5 MTM/D was the minimum for a moderate risk solution, 
but we are planning to conduct another full scale Mobility Requirements 
Study to further clarify strategic lift requirements.

                       PRECISION-GUIDED MUNITIONS

    Question. With an ever-increasing percentage of air-launched 
ordnance being precision-guided, do you believe there is a need to re-
visit the inventory objectives for precision-guided ordnance?
    Answer. In response to the increased demand for guided weapons, and 
to rebuild supplies depleted first in Afghanistan and then Iraq, Joint 
Direct Attack Munition kit and laser guided bomb production have 
increased significantly. As part of our ongoing operational planning 
process, we are currently reevaluating our war plans. We will closely 
monitor inventories of precision munitions, adjust them as appropriate, 
and with the assistance of Congress fund them at an appropriate rate.

                         INFORMATION OPERATIONS

    Question. Information operations and information warfare will 
likely have an increasing role in 21st century warfare. To date, the 
role of information operations in contemporary military operations has 
not been readily apparent.
    What role do you envision for information operations in future U.S. 
military operations?
    Answer. Information operations are maturing rapidly across DOD as a 
whole and within each individual Service. We are committed to fully 
integrating information operations (IO) into the Joint Force 
Commanders' toolkit on a par with air, land, maritime, space, and 
special operations. Information operations are comprised of five core 
military capabilities: Computer Network Operations, Electronic Warfare, 
Psychological Operations, Military Deception and Operations Security. 
The Joint Force Commander employs these core capabilities in an 
integrated, coordinated manner across the full range of military 
operations to better achieve his objectives. Recent operations have 
highlighted the importance of each of these core capabilities and IO in 
Operation Iraqi Freedom was more effective than ever before. We are 
addressing the limitations and shortfalls that must be fixed.
    Question. What concerns do you have regarding the conduct of 
extensive information operations?
    Answer. My primary concern is that the mission area receives 
required support, both in terms of resources and tailored intelligence. 
The IO mission area is relatively new, when compared to other 
established military operations. As such, it is in danger of not 
competing well for scarce resources. In terms of intelligence support, 
IO has some non-traditional requirements that we must scrutinize and 
prioritize along with our other intelligence requirements.

                          BLUE FORCE TRACKING

    Question. General Tommy Franks, former Commander, U.S. CENTCOM, 
recently stated before this committee that multiple, non-interoperable 
blue force tracking systems were a problem during Operation Iraqi 
Freedom, contributing to some confusion on the battlefield and 
complicating efforts to avoid friendly fire incidents. The U.S. Army 
has one such system, which they shared with U.S. Marine Corps units. 
U.S. SOCOM uses different systems. Our coalition partners had no such 
capability.
    What steps would you recommend to rapidly ensure effective blue 
force tracking of all friendly forces on the battlefield--
unconventional, conventional, and coalition?
    Answer. In his testimony, General Franks also described the 
``unprecedented situational awareness'' during OIF. This ``SA'' was in 
fact enabled by the integration of these various blue force tracking 
systems (BFT) within a common picture. The issue wasn't our inability 
to integrate the tracks; rather, that this integrated view of blue 
tracks was not always available at the lowest echelon--the shooter at 
the point of the engagement decision.
    In the near-term, our emphasis is on developing interoperable 
systems that ensure this integrated BFT picture is distributed to the 
shooter. The Joint Blue Force Situational Awareness (JBFSA) Advanced 
Concept Technology Demonstration (ACTD) is already in progress, and 
addresses this exact issue. The ACTD will demonstrate, by end of fiscal 
year 2004, an integrated architecture of existing BFT capabilities that 
includes dissemination and display of a consistent blue force picture 
to the U.S. and coalition shooter. In the longer-term, the U.S. Army, 
as the Department's JBFSA Lead Service, will assist USJFCOM, the joint 
force integrator, in guiding the efficient acquisition of this 
transformational capability.

                          ARMY TRANSFORMATION

    Question. Secretary Rumsfeld has established transformation of the 
Armed Forces to meet 21st century threats as one of the Department's 
highest priorities and has stated that only weapons systems that are 
truly transformational should be acquired.
    How would you assess the level of risk to our forces of foregoing 
or curtailing current acquisition programs in favor of future 
transformation?
    Answer. We have been very careful to balance the risk in trade-offs 
today to fund the necessary capability advances for tomorrow. There has 
always been tension within the defense establishment between readiness 
today and readiness tomorrow. Given the performance of our forces in 
Afghanistan and Iraq, I feel that the Services have the balance about 
right.
    But even with these successes, we must evaluate lesson learned from 
each of these events and constantly look at our procedures and emerging 
technologies. Long term, we are taking the view that we should focus on 
transformational programs where these make sense.
    To pay for transformation to the Objective Force, the Army has 
taken an acceptable level of risk in the modernization and 
recapitalization of the current force. Fielding Stryker Brigade Combat 
Teams fills an immediate capabilities gap identified by the combatant 
commanders--allowing the Army to pursue transformation objectives and 
priorities while meeting current warfighting requirements.
    Question. Can we afford this risk given the current level of global 
threats?
    Answer. Given the current level of global threats, we can't afford 
not to. Operation Iraqi Freedom demonstrated that transformational 
programs that provide speed, precision, improved battlefield command 
and control, persistence and remote sensing are exactly the 
capabilities we need.

                           REBALANCING FORCES

    Question. In a memorandum of July 9, 2003, the Secretary of Defense 
directed action by the Services, the Joint Staff and OSD aimed at 
achieving better balance in the capabilities of the active and Reserve 
components. The Secretary noted that the Department ``needs to promote 
judicious and prudent use of the Reserve components with force 
rebalancing initiatives that reduce strain through the efficient 
application of manpower and technological solution based on a 
disciplined force requirements process.''
    What do you consider to be the principal problems that the 
Secretary of Defense is attempting to address in his memorandum?
    Answer. The Secretary emphasized the need for continuous 
improvement in assigned roles and responsibilities, functions and 
capabilities between the Active and Reserve components that allow us to 
swiftly respond to meet the Nation's military requirements. As we 
transform the military to deal with future uncertainties and the needs 
to defend our territories, we must ensure the RC capabilities are 
properly realigned to meet this challenge. I believe the Secretary's 
vision is to balance capabilities between the Active and Reserve 
component so that our force would be available on-demand, agile, and 
more responsive to deal with any future threat, without overextending 
any specific segment of our RC forces.
    Question. What do you consider to be the biggest obstacles to 
achieving the goals that the Secretary of Defense has set forth in his 
memorandum?
    Answer. I believe the Secretary's tasks are realistic and 
achievable. Homeland security, global terrorism, and regional 
uncertainties will be the determining factors on how difficult our 
tasks will be. The rebalancing of active and Reserve capabilities 
require that we look at all available options and the resources 
required. We will work with the Services and the Department in the 
evaluation of manpower availability, management techniques--including 
contractor support, and technical applications to ensure our forces 
remain agile, responsive, and ready.
    The timeframe for achieving those goals will be challenging. 
However, in light of the significant changes we have experienced in 
global requirements since the end of the Cold War, it is appropriate to 
review our force alignment and make changes where needed as soon as 
practical.

                          U.S. FORCES IN KOREA

    Question. Living and working conditions for many military personnel 
stationed in Korea fall far below acceptable standards. The current and 
previous Commanders, U.S. Forces Korea (USFK), have publicly called for 
significantly enhanced pay and compensation for personnel assigned to 
Korea to address these factors.
    In your judgment, what steps, if any, need to be taken to improve 
living and working conditions and the attractiveness of military 
assignments for career personnel in Korea?
    Answer. The former Chief of Staff of the Army chartered a Tiger 
Team that included Joint Staff and OSD representatives to look at 
conditions in Korea. The Team took an in-depth look at living and 
working conditions, special pay, increasing accompanied tours and 
military construction (MILCON).
    Many living and working conditions in Korea are substandard. This 
adversely impacts morale, retention, and readiness. USFK currently has 
41 installations to maintain. As part of the Korea Land Partnership 
Plan, USFK plans to reduce that number down to 21 installations. Along 
with that base realignment will come improved living and working 
conditions. The USFK Commander, as part of the current and future 
defense strategy review, is aggressively working the MILCON issues to 
ensure we take proper care of our service members.
    With regards to special pay we have made significant progress with 
the authorization of assignment incentive pay. The Senate Report for 
the National Defense Authorization Act (NDAA) for Fiscal Year 2004 
includes provisions for an assignment incentive pay ($100 per month) 
specifically for Korea. Additionally, we are hopeful that the House and 
Senate will enact provisions for the Fiscal Year 2004 NDAA, authorizing 
officers an overseas tour extension incentive identical to what we 
currently offer enlisted personnel.
    With respect to unaccompanied tours, the NDAA for Fiscal Year 2003 
requested the Under Secretary of Defense for Personnel and Readiness to 
report on a plan to increase accompanied tours in Korea from 10 percent 
to 25 percent. Increasing the number of accompanied tours in Korea will 
require a substantial infrastructure (family housing, medical care 
facilities, childcare facilities and other facilities required to 
support the increase in command sponsored dependents) investment.

                       NATIONAL MILITARY STRATEGY

    Question. What aspects of the National Military Strategy, if any, 
require modification or clarification as a result of changed world 
events since issuance of the Strategy in 2001?
    Answer. In 2001, the Secretary of Defense published the Quadrennial 
Defense Review, which promulgated a new Defense Strategy. The Defense 
Strategy directed the Armed Forces to adopt a capabilities-based 
approach for force planning and force development given that the U.S. 
faces dangerous adversaries and the certainty that these adversaries 
will continuously adapt their capabilities in ways that will challenge 
us even more in the future. This document, released in the immediate 
aftermath of September 11 provides the foundation for the new National 
Military Strategy.
    The National Military Strategy will describe our concept for 
employing military force to achieve prescribed objectives in this 
dangerous and uncertain environment. Moreover, the strategy will 
describe the capabilities the Armed Forces must possess to succeed 
today and in the future incorporating the lessons learned in the war on 
terrorism.
    This draft strategy continues to reflect our highest priorities: 
winning the war on terrorism, enhancing joint warfighting, and 
transforming the joint force. It builds on the new National Security 
Strategy and supporting strategies that have been released since 
September 11 and positions the Armed Forces to conduct preventive and 
preemptive operations in defense of the United States and its global 
interests.

                                COLOMBIA

    Question. U.S. military personnel have been involved in the 
training and equipping of Colombian military forces involved in 
counterdrug operations. U.S. military personnel, however, do not 
participate in or accompany Colombian counterdrug or counterinsurgency 
forces on field operations in Colombia.
    Do you favor continuation of this limited role for U.S. military 
personnel in Colombia?
    Answer. Yes. U.S. policy for Colombia is clear that we will assist 
the Colombian Government to regain control over its territory but that 
the Colombian Government is ultimately responsible for resolving its 
own conflict. Our forces are doing an outstanding job of training and 
assisting the Colombian military and police without deploying on combat 
operations with them. I do not believe that allowing U.S. military 
personnel to accompany Colombian security forces would have a strategic 
impact. Additionally, the Colombian military is not asking for this 
type of assistance and is a properly trained and competent force.

                         EXCESS INFRASTRUCTURE

    Question. How high a priority do you place on the closure of excess 
Department of Defense installations and why?
    Answer. In an environment where resources are scarce, we must 
eliminate excess physical capacity to allow for increased defense 
capability focused on `jointness.' I strongly support needed 
infrastructure reductions facilitated by BRAC 2005.
    Question. How do you respond to arguments that initiation of a new 
round of base realignment and closure should be postponed until the 
requirements of the global war on terrorism come into better focus?
    Answer. In the wake of September 11, it is more important than ever 
to avoid expending resources on excess capacity. The authority to 
realign and close bases we no longer need is an essential element of 
ensuring the right mix of bases and forces within our warfighting 
strategy as we transform to meet the security challenges of the 21st 
century.

                       READINESS REPORTING SYSTEM

    Question. You previously have indicated that expansion and 
refinement of the Global Status of Resources and Training System was 
necessary and that a comprehensive readiness reporting system is 
necessary.
    What progress have you made in improving the readiness reporting 
within the Department?
    Answer. The Defense Readiness Reporting System (DRRS) will meet the 
comprehensive readiness reporting requirements. A development contract 
has been awarded on the DRRS. The system is on-track to achieve Initial 
Operating Capability (IOC) by the end of fiscal year 2004 and Full 
Operating Capability (FOC) by fiscal year 2007.
    The Chairman's Readiness System (CRS) will continue to provide 
timely and accurate macro-level readiness information until the DRRS 
reaches FOC. The Joint Staff also makes discrete changes to the CRS as 
required to better capture readiness data, decrease the reporting 
burden, and more closely align the CRS with the DRRS vision.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chairman of the Joint 
Chiefs of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

                              END STRENGTH

    1. Senator Inhofe. General Myers, regarding our troops, Monday the 
New York Times ran an article concerning the current strength and size 
of our military. The article stated that of the Army's 33 total active 
duty brigades, 21 are overseas with 16 of them in Iraq. I believe three 
of the brigades are in a training status, which leaves only nine to 
cover the rest of world. The article also stated that Secretary 
Rumsfeld had sent a memorandum to the service secretaries and to you 
requesting you ``rebalance'' the active and Reserve components. Can you 
comment on the current balance or blend of active duty, Reserve, and 
Guard Forces, the end strength of our military, specifically does the 
end strength adequately address our worldwide commitments, and any 
proposed changes that will ease the burden on our Armed Forces?
    General Myers. To meet the emerging challenges of the future global 
security environment, the United States will require a more flexible, 
responsive, and capable military force. This force must be able to 
rapidly respond to crisis situations anywhere in the world and bring to 
bear an arsenal of the world's most advanced and interoperable 
warfighting capabilities. We are examining our current and future 
military force structure to ascertain whether adjustments are need to 
ensure our military capability remains unequaled in the world. Changes 
to end strength and/or the active/Reserve component balance are 
possible but many other options are also being considered.

                            TANKER AIRCRAFT

    2. Senator Inhofe. General Myers, I recently read an article 
concerning the shortage of transport and tanker aircraft. The article 
stated that General John Handy, the Chief of the United States 
Transportation Command, was forced to devise a new method to deliver 
supplies to Iraq because of a shortage of transport and tanker 
aircraft. Obviously we were able to get the required supplies to Iraq, 
but I am concerned that the shortage of transport and tanker aircraft 
will continue to grow and that we are not addressing the issue. Is 
there a current shortage of transport and tanker aircraft?
    General Myers. Currently, we do not fully meet the 54.5 million ton 
miles per day, the minimum requirements for a moderate risk solution as 
set forth in Mobility Requirements Study 2005. General Handy's method 
of delivery was predicated on the need to conduct the war on terror on 
several fronts simultaneously, and reflected recent changes in how we 
deploy forces. New defense planning guidance, transformation, and the 
proliferation of anti-access weapons signal potentially significant 
changes in the combatant commanders' requirements for airlift and air 
refueling capability. We are planning to conduct another full scale 
Mobility Requirements Study to clarify our transport and tanker 
aircraft requirements.

    3. Senator Inhofe. General Myers, can you specifically address the 
Air Force's desire to retire 68 KC-135Es when there seems to be a 
shortage of tanker aircraft?
    General Myers. The retirement of the 68 KC-135Es, as directed in 
the President's budget for fiscal year 2004, which are less capable 
than the other tankers, will allow the Air National Guard to pay for 
the sustainment of the aircraft and will result in a slight decrease in 
offload capability, the Air Force will be able to mitigate this by re-
distributing aircrew and maintenance personnel throughout the remaining 
KC-135Rs. This will allow the Air Force to better utilize all KC-135 
aircraft. 

    4. Senator Inhofe. General Myers, I understand the Air Force is 
looking at leasing 100 Boeing 767s, but what are the long-term plans 
for replacing the KC-135? Wouldn't the Air Force need more than 100 
Boeing 767s?
    General Myers. One hundred KC-767s are only the beginning of a 
long-term plan to recapitalize the entire tanker fleet. The planned 
Mobility Requirements Study and follow-on studies will help us 
determine the precise level of tanker capability we will need in the 
future. This effort will likely span the next few decades due to fiscal 
matters and production rates of suitable replacement aircraft.
                                 ______
                                 
                Question Submitted by Senator Carl Levin

                        GUANTANAMO BAY DETAINEES

    5. Senator Levin. General Myers, the Department of Defense 
announced on July 23, 2003, that an Australian detainee, who is being 
held at Guantanamo Bay, if charged, would not be subject to the death 
penalty and his conversations with his defense counsel would not be 
subject to monitoring. Britain's attorney general announced a similar 
result with respect to two British detainees on July 22, 2003, after 
meetings at the Pentagon. While it may be that these decisions are the 
result of a careful review of the particular circumstances in these 
three cases, the fact that these decisions apply to the citizens of the 
two nations that participated from day one with troops on the ground in 
Afghanistan, creates the impression that their citizens are receiving 
favorable treatment. Can you tell us if these three detainees are being 
given favorable treatment because Australia and Great Britain were part 
of the U.S.-led coalition in Afghanistan, or will similar treatment be 
afforded to all detainees without regard to their nationality?
    General Myers. The President recently determined that six detainees 
at  Guantanamo are subject to his military order of 13 Nov 2001. This 
determination is not a decision that any of the six detainees will 
necessarily be charged or stand trial, only that if tried, the detainee 
will be tried before a military commission. Two of those six detainees 
are British, and one is Australian. Shortly after the President's 
determination, the White House issued a statement that military 
commissions against U.K. or Australian nationals would not commence 
pending discussions between legal experts of each nation. Since then, 
the Office of General Counsel of the Department of Defense has held 
numerous discussions with both British and Australian officials, and 
more are scheduled. While I am generally aware that many of the issues 
raised by the U.K. and Australia have been discussed, the Joint Staff 
has not been involved in these discussions, and any decisions on issues 
raised during these discussions or relating to commission procedures or 
charges will be made at the OSD level.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

                             BASIC RESEARCH

    6. Senator Reed. General Myers, what role does the Department of 
Defense's basic research (6.1) program play in your vision of our 
Nation's military?
    General Myers. The DOD Basic Research (6.1) program generates new 
knowledge and understanding in science and engineering fields that 
underpin national defense. It stimulates development of new technology, 
which is the foundation for enhancing capabilities of military systems 
and for making them easier and less expensive to manufacture, operate, 
and maintain. Technological advances are key to fielding a military 
that is prepared to fight and win this Nation's battles today and in 
the future.

    7. Senator Reed. General Myers, what level of investment do you 
feel is appropriate for this type of research given other near-term 
priorities?
    General Myers. The breakthroughs used to maintain our technological 
edge and achieve our transformation goals have come through a stable 
and robust investment in basic research. The basic research portfolio 
allows warfighters today and tomorrow to have superior and affordable 
technology options to meet their missions, and to give them 
transformational war-winning capabilities. Technologies such as stealth 
aircraft, the Global Positioning System, night vision devices, 
precision-guided munitions, and vastly more capable information 
management systems are the results of the Department's investment in 
basic research. The technological advantage our Armed Forces enjoy 
today is a legacy of decades of investment in basic resesrch. 

    8. Senator Reed. General Myers, how will you measure the 
effectiveness of investment in these programs in supporting our 
Nation's warfighters?
    General Myers. Measuring the outputs of basic research is one of 
the more difficult metrics in science and technology. We already 
measure the numbers of graduate  students supported, and the number of 
patents and publications. What is more difficult to measure is the 
long-term impact of basic research on future systems. For instance, 
when the Navy conducted basic research on atomic clocks in the 1960s, 
the Department did not realize that one of the outputs would be the 
Global Positioning Systems. These discoveries are vital to continued 
military dominance and provide the opportunity for continued 
transformation. 

                         TECHNOLOGY TRANSITION

    9. Senator Reed. General Myers, how effectively does the Department 
of Defense transition promising technologies from science and 
technology programs into fielded systems?
    General Myers. The recent success of our forces on the battlefield 
attests to the superiority in technology achieved by the Department of 
Defense in transforming science and technology programs into fielded 
capabilities. The interaction of organizations responsible for defining 
military requirements, identifying technical solutions and fielding 
combat-ready systems has produced the best military in the world. As 
good as we are, we aim to be better. Working closely with individual 
military departments, the Joint Staff established its joint 
capabilities based requirements process. The Director, Defense Research 
and Engineering restructured his science and technology coordination 
group to parallel the joint requirements structure, producing a 
streamlined laboratory-to-battlefield connection. The Under Secretary 
of Defense (Acquisition, Technology, and Logistics) provides a variety 
of programs such as Quick Reaction Special Projects and Advanced 
Concept Technology Demonstrations to speed cutting edge technology to 
joint warfighters faster than traditional procurement processes. I am 
convinced that we transition new technology to the battlefield faster 
than ever before. 

    10. Senator Reed. General Myers, what can be done from the 
perspective of operators to improve the speed and efficiency of 
technology development and transition?
    General Myers. We are building on our technology transition 
successes and anticipate even greater efficiency in the future. 
Ensuring that our science and technology investments are aligned with 
operational requirements yields efficiency of effort. Developing new 
acquisition processes to ease access for a diversity of defense 
technology providers gives us challenging and refreshing new solutions. 
As we aim to be efficient with requirement-driven technology 
development, we need also to be receptive to leap-ahead opportunities 
that might not be envisioned by warriors. The drive to be responsive to 
emergent military requirements and to shorten the timeline between test 
bench and battlefield is being vigorously pursued in all arenas related 
to transition: designing, testing, demonstrating, procuring, and 
sustaining capabilities for frontline fighters. We are without peer in 
rapidly transitioning the best technologies to fielded systems.

           MILITARY SERVICES SCIENCE AND TECHNOLOGY PROGRAMS

    11. Senator Reed. General Myers, the level of investment in science 
and technology by each of our military services has not kept pace with 
their overall budget increases. Do you think that the military services 
should be investing more in science and technology?
    General Myers. A strong science and technology program is required 
to provide options for responding to a full range of military 
challenges both today, and into the uncertain future. I think it is 
important to look at science and technology across the Department, 
under the current administration the budget request for science and 
technology has recently grown over 25 percent, which represents a 
significant commitment to science and technology. It is the 
Department's goal to grow the science and technology investment to 3 
percent of the total defense budget.

    12. Senator Reed. General Myers, how should the value of those 
investments be compared with investments in procurement and current 
operations?
    General Myers. Output metrics are important for all categories of 
investments and the Department is in fact working hard to develop 
output oriented metrics that include science and technology. At the end 
of the day, however, decisions require thoughtful, yet subjective input 
from experts in science and technology, as well as from military 
leaders on what is most important for the Department of Defense.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                         OPERATION NOBLE EAGLE

    13. Senator Akaka. General Myers, I would like to get your thoughts 
on a mission we don't hear much about any more, Operation Noble Eagle. 
As I understand it, one of the primary objectives of the operation is 
to deter possible air attacks like those of September 11. Is my 
understanding correct that we are attempting to dissuade potential 
attackers from September 11th-like attacks with airliners or other 
planes used as bombs or missiles?
    General Myers. Yes sir. Operation Noble Eagle plays a vital role in 
homeland defense. It is a visible and constant reminder of the ability 
and resolve of the United States to defend itself against those who 
would seek to repeat September 11-like attacks on our homeland.

    14. Senator Akaka. General Myers, in your military judgment, is our 
current practice of launching combat air patrols and keeping fighter 
jets on alert effective in achieving this objective? If so, is this the 
most effective way to accomplish this deterrent? Have you considered 
any other alternatives or do you have any recommendations?
    General Myers. The Department of Defense works closely with the 
Federal Aviation Administration and the Department of Homeland Security 
to ensure we provide the best deterrent possible within our current 
force posture. The use of military air patrols and alert fighters, 
Temporary Flight Restriction airspace, and the increased airline and 
airport security measures implemented by the Department of Homeland 
Security provide a significant, overt deterrent to potential attackers. 
Other efforts, such as the interagency-developed and staffed National 
Capital Region Coordination Center and the Department of Defense-led 
National Capital Region Integrated Air Defense System are clear signs 
we are working to integrate both law enforcement and interagency 
partners into the air defense community. Finally, we have made 
tremendous improvements with the Department of Homeland Security, and 
its many agencies such as Immigration and Customs Enforcement and the 
United States Secret Service, in the sharing of information and ability 
to enhance the effective execution of each other's missions.

    15. Senator Akaka. General Myers, how long do you think this 
mission will continue, and how long, in your judgment, do you think 
that it should?
    General Myers. This mission will remain until the threat it 
counters is gone. Operation Noble Eagle will be incorporated into 
NORAD's Concept Plan 3310-02, U.S./Canadian bilateral air defense plan. 
As the threat evolves, the name of the mission might change but the 
protection provided by Operation Noble Eagle to the homeland will 
continue as long as necessary.

    16. Senator Akaka. General Myers, I understand that Operation Noble 
Eagle missions are flown by the Air Force, and that a large number of 
the sorties are actually flown by the Reserve and National Guard. Are 
you exploring options to relieve some of the burden on the Air Force 
for this mission?
    General Myers. The distribution of missions and the associated unit 
Operations TEMPO is a very real concern. However, the historic mission 
of the Air Force Reserve and National Guard is the defense of the 
United States. By giving the homeland defense mission primarily to the 
Air Force Guard and Reserve, we free active duty Air Force, Marine, and 
Navy air units for deployment overseas in support of our national 
objectives.

                              RANGE SPACE

    17. Senator Akaka. General Myers, there seems to be continuing 
pressures to grow on our military ranges, demand is increasing for 
range space, and supply is increasingly challenged as urbanization and 
other factors limit our range activities. While a partial solution may 
be an increased reliance on automation, simulation, and constructive 
environments, we will continue to need large plots of land to support 
live fire training, testing, and evaluation. Therefore, although these 
diverging trends may be manageable in the short-term, a long-term 
strategic solution appears to be required. At least part of the 
solution may lie in improved management of our existing range space by 
increasing joint use, but also by better integrating test and training 
ranges. What steps are you taking to develop a viable, long-range plan 
to address these challenges, and what changes are necessary to ensure 
its success?
    General Myers. The pressures and challenges of infringement on our 
existing range infrastructure are certainly increasing. In a world of 
unconstrained requirements and finite resources, the Department of 
Defense recognizes that we must find flexible and creative solutions to 
continue to test and train our joint forces effectively. Computers, 
models, and simulators are already heavily in use, but can only teach 
so much. Combat often involves realities that cannot be simulated. The 
availability of usable range spaces is clearly critical to maintaining 
military training proficiency. We also realize that we cannot easily 
expand or duplicate these capabilities elsewhere to satisfy emerging 
needs. To that end, DOD has aggressively sought measures to optimize 
the use of our ranges. DOD is studying the problem as part of the 
Sustainable Ranges Initiative, which involves identifying range 
requirements, documenting capabilities and shortfalls, and examining 
utilization as one aspect of a comprehensive solution to long-term 
preservation of our Nation's test and training capabilities. 
    Many of our premier test ranges, like Eglin AFB, are heavily 
involved in service and joint training activities. Eglin AFB supports a 
wide range of weapons systems and ordnance testing, while 
simultaneously sustaining a spectrum of Air Force, sister and joint 
training and experimentation needs. This trend towards increasing 
collaboration will continue. From a strategic standpoint, joint 
training and experimentation capabilities are also of increasing 
importance to our Nation's defense. The Joint National Training 
Capability, a new DOD initiative to meet today's joint force training 
needs will stress the development and implementation of joint training/
exercise capabilities at many premier ranges. This and similar DOD 
efforts are leading the way to integrated range use.
    Where appropriate, training or testing areas designed for one 
service can also accommodate the needs of others. However, joint use 
will not fully satisfy service-unique training requirements. 
Scheduling, utilization, and availability issues must also be 
considered. As an example, much of our land is managed for sustainable 
long-term use, which means range managers must consider the land's 
``carrying capacity'' for training. This is not just an environmental 
concern. Realistic training often calls for well-vegetated and non-
degraded landscapes, and terrain representative of field conditions. 
Overuse of the terrain can degrade this realism, as well as compromise 
DOD environmental stewardship obligations.

                           DEPLOYMENT PROCESS

    18. Senator Akaka. General Myers, please provide additional details 
on the plans DOD has to improve the deployment process, the rationale 
to support these changes, and a timeline for their implementation.
    General Myers. As the Joint Deployment Process Owner (JDPO), United 
States Joint Forces Command is leading the effort to make the joint 
deployment planning and mobilization process more efficient. We will 
participate fully with USJFCOM on these efforts.
    A revision of the requirements review procedure is under way, and 
will result in improved processes and automated tools to monitor 
availability of forces and validate the combatant commanders' requests 
for forces. In the near-term, a ``Quickwins'' Tiger Team formed under 
the supervision of the JDPO will propose immediate actions learned from 
the Operation Iraqi Freedom deployment. In the mid-/far-term, the JDPO 
and the Joint Logistic Transformation Center, in conjunction with the 
Joint Staff, will lead the effort to re-engineer the deployment 
process. Collectively, new emerging technologies, once integrated into 
the deployment process, will offer the force provider an enhanced 
capability to more efficiently and effectively manage the total force 
deployment, to include the activation of the Reserves.
    Regarding mobilization, JDPO is developing a more agile, responsive 
process to mobilize Reserve component forces and individuals through 
changes in service and joint doctrine, policy, and law. In the near-
term, USJFCOM will use the ``Quickwins'' strategy to garner short-term 
improvements in the mobilization process. In the long-term, USJFCOM 
will develop new concepts for mobilization more suited to the future 
environment and linked to the Joint Deployment Process. This will be 
collaborative effort that includes coordination with the Reserve 
Component Leadership and the Reserve Forces Policy Board.
                                 ______
                                 
    [The nomination reference of Gen. Richard B. Myers, USAF, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 18, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named United States Air Force officer for 
reappointment as the Chairman of the Joint Chiefs of Staff and 
appointment to the grade indicated while assigned to a position of 
importance and responsibility under title 10, U.S.C., sections 601 and 
152:

                             To be General

    Gen. Richard B. Myers, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Richard B. Myers, USAF, 
which was transmitted to the committee at the time the 
nomination was referred, follows:]
        Resume of Service Career of Gen. Richard B. Myers, USAF
Date and place of birth: 1 March 1942; Kansas City, MO.

Years of active service: Over 38 years as of 5 June 2003.

Schools attended and degrees: Kansas St Univ, BS, 1965; Auburn Univ AL, 
        MA, 1977; Air Command and Staff College, 1977; Army War 
        College, 1981.

Joint specialty officer: Yes.

Aeronautical rating: Command Pilot.

Major permanent duty assignments:

------------------------------------------------------------------------
                                                        From       To
------------------------------------------------------------------------
USAFR, Not on Active Duty...........................   Feb 65    Jun 65
Stu Ofcr, Undergrad Plt Tng, 3576 Stu Sq, ATC, Vance   Jun 65    Dec 66
 AFB OK.............................................
Plt, Tac Ftr, F-4D, 417 TFSq, USAFE, Ramstein AB GE.   Dec 66    Jul 68
Plt, Tac Ftr, F-4D, 417 TFSq, TAC, Mt Home AFB ID...   Jul 68    May 69
Stu, USAF Opnl Tng Crs, F-4E, 436 TFSq, TAC,           May 69    Dec 69
 Homestead AFB FL...................................
Acft Comdr, F-4D, 13 TFSq, PACAF, Udorn RTAFB TH....   Dec 69    Nov 70
Acft Comdr, F-4C, 80 TFSq, PACAF, Yokota AB JA......   Dec 70    Mar 71
Acft Comdr, F-4C, Specl Tactics, 67 TFSq, PACAF,       Mar 71    Mar 73
 Kadena AB JA.......................................
Flt Comdr, F-4C, Specl Tactics, 67 TFSq, PACAF,        Mar 73    Sep 73
 Kadena AB JA.......................................
Ftr Wpns Instr, F-4, 414 FWSq, TAC, Nellis AFB NV...   Sep 73    Apr 75
Flt Comdr, F-4, 414 FWSq, TAC, Nellis AFB NV........   May 75    Aug 76
Stu, Air Comd & Staff College, AU, Maxwell AFB AL...   Aug 76    Jun 77
Air OpS Ofcr, Opnl Test & Eval Div, AF/XOORE, Hq       Jul 77    Jul 80
 USAF, Pentagon DC..................................
Stu, U.S. Army War College, Hq Comd, Carlisle          Jul 80    Jun 81
 Barracks, PA.......................................
Ch, wpns & Tactics Div, 4 TFSq, TAC, Seymour-Johnson   Jun 81    Oct 81
 AFB NC.............................................
Ops Ofcr, D/Ops, 355 TFSq, TAC, Seymour-Johnson AFB    Oct 81    Jun 82
 NC.................................................
Comdr, 335 TFSq, TAC, Seymour-Johnson AFB NC........   Jun 82    Jan 84
Dep Dir, Pers Plans & Sys, DCS/Pers, Hq TAC, Langley   Jan 84    Oct 84
 AFB VA.............................................
Inspection Team Ch, Hq TAC/IGD, Langley AFB VA......   Oct 84    Sep 85
Comdt, USAF Ftr Wpns Sch, TAC, Nellis AFB NV........   Sep 85    Aug 86
Comdr, 325 TTWg, TAC, Tyndall AFB FL................   Sep 86    Jun 87
Comdr, 1 TFWg, TAC, Langley AFB VA..................   Jun 87    Feb 89
Asst DCS/Plans, Hq TAC, Langley AFB VA..............   Feb 89    Jun 89
Inspector General, Hq TAC, Langley AFB VA...........   Jun 89    Jan 90
DCS/Plans, TAC; Dep Dir, Plans; & DCS/Plans, LANT,     Jan 90    Jun 90
 Langley AFB VA.....................................
DCS/Requirements, Hq TAC, Langley AFB VA............   Jun 90    Dec 91
Dir, Ftr, Comdr Cntrl & Wpns prgms, SAF/AQ, Pentagon   Dec 91    Nov 93
 DC.................................................
Comdr, U.S. Forces JA; Comdr, 5 AF, PACAF; Comdr,      Nov 93    Jun 96
 USAFS JA; & Comdr, WESTPACNORTH Air Def Rgn, Yokota
 AB JA..............................................
Asst to CJCS, Joint Staff, Pentagon, Washington, DC.   Jul 96    Jul 97
Comdr, Pacific Air Forces; and Air Component           Jul 97    Aug 98
 Commander, United States Pacific Command, Hickam
 AFB, HI............................................
USCINCSPACE; CINCNORAD; AFSPC/CC; and DOD Manager      Aug 98    Mar 00
 for Manned Space Flight Support Operations,
 Peterson AFB, CO...................................
Vice Chairman, Joint Chiefs of Staff, Pentagon,        Mar 00    Oct 01
 Washington, DC.....................................
Chairman, Joint Chiefs of Staff, Pentagon,             Oct 01   Present
 Washington, DC.....................................
------------------------------------------------------------------------


Promotions:

------------------------------------------------------------------------
                                                              Effective
                                                                 Date
------------------------------------------------------------------------
Second Lieutenant..........................................     3 Feb 65
First Lieutenant...........................................     5 Dec 66
Captain....................................................    13 Jun 68
Major......................................................     1 Sep 76
Lieutenant Colonel.........................................     1 Dec 79
Colonel....................................................     1 Sep 84
Brigadier General..........................................     1 Apr 90
Major General..............................................     1 Sep 92
Lieutenant General.........................................    12 Nov 93
General....................................................     1 Sep 97
------------------------------------------------------------------------


Decorations:
    Defense Distinguished Service Medal with two Bronze Oak Leaf 
Clusters
    Distinguished Service Medal
    Legion of Merit
    Distinguished Flying Cross with one Bronze Oak Leaf Cluster
    Meritorious Service Medal with three Bronze Oak Leaf Clusters
    Air Medal with three Silver Oak Leaf Clusters and three Bronze Oak 
Leaf Clusters
    Air Force Commendation Medal

Summary of Joint Assignments:

------------------------------------------------------------------------
           Assignments                   Dates               Grade
------------------------------------------------------------------------
Chairman, Joint Chiefs of Staff,  Oct 01-Present....  Gen.
 Pentagon, Washington DC.
Vice Chairman, Joint Chiefs of    Mar 00-Oct 01.....  Gen.
 Staff, Pentagon, Washington DC.
USCINCSPACE; CINCNORAD; AFSPC/    Aug 98-Mar 00.....  Gen.
 CC; and DOD Manager for Manned
 Space Flight Support
 Operations, Peterson AFB, CO.
Assistant to Chairman, Joint      Jul 96-Jul 97.....  Lt. Gen.
 Chiefs of Staff, Joint Staff,
 Pentagon, Washington, DC.
Comdr, U.S. Forces Japan; Comdr,  Nov 93-Jun 96.....  Lt. Gen.
 5th AF, PACAF; Comdr, U.S. Air
 Forces Japan; & Comdr,
 WESTPACNORTH Air Defense
 Region, Yokota AB JA.
Air Ops Officer,\1\ Operational   Jul 77-Jul 80.....  Lt. Col. Major
 Test & Eval Div, Directorate of
 Ops & Readiness, Dep Chief of
 Staff, Ops, Programs &
 Readiness, Pentagon DC.
------------------------------------------------------------------------
\1\ Joint Equivalent

                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Richard 
B. Myers, USAF in connection with his nomination follows:]

                      Chairman of the Joint Chiefs of Staff
                                      Washington, DC, 10 June 2003.
Hon. John W. Warner, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my re-
nomination to the position of Chairman of the Joint Chiefs of Staff, 
Pentagon, Washington, DC. It supplements Standard Form 278, ``Executive 
Branch Personnel Public Financial Disclosure Report,'' which has 
already been provided to the committee and which summarizes my 
financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my governmental responsibilities. Additionally, I have no 
other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been re-nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I trust that the foregoing information will be satisfactory to the 
committee.
            Sincerely,
                                          Richard B. Myers,
                             Chairman of the Joint Chiefs of Staff.

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Richard Bowman Myers.

    2. Position to which nominated:
    Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    18 June 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    1 March 1942; Kansas City, Missouri.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Mary Jo Myers (Rupp).

    7. Names and ages of children:
    Nicole M. Little, 32.
    Erin L. Voto, 30.
    Richard B. Myers, Jr., 24.

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    Vice President, Myers Brothers of Kansas City (Non-active position 
with family-owned business).

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Armed Forces Benefit Association.
    The Army and Air Force Mutual Aid Association.
    Air Force Association.
    Kansas State University Alumni Association.
    U.S. Army War College Alumni Association.
    Sigma Alpha Epsilon (Fraternal).
    The Retired Officers Association.
    Vietnam Veterans of America.
    Veterans of Foreign Wars of the United States.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Ira Eaker Fellow, Air Force Association.
    1991 Alumni Fellow Award, College of Engineering, Kansas State 
University.
    Kansas State University, Engineering Hall of Fame.
    General Thomas D. White Space Award.
    General James V. Hartinger Space Award.
    Canadian Meritorious Service Cross.
    Medal of the French Legion of Honor and French National Legion of 
Honor.
    American Academy of Achievement Award.
    Distinguished Kansan of the Year.
    USAF's Gray Eagle Award.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Richard B. Myers.
    This 10th day of June, 2003.

    [The nomination of Gen. Richard B. Myers, USAF, was 
reported to the Senate by Chairman Warner on July 30, 2003, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 31, 2003.]
                              ----------                              

    [Prepared questions submitted to Gen. Peter Pace, USMC, by 
Chairman Warner prior to the hearing with answers supplied 
follows:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. You previously have answered the committee's policy 
questions on the reforms brought about by the Goldwater-Nichols Act in 
connection with your nominations to be Commander, U.S. Southern Command 
and Vice Chairman of the Joint Chiefs of Staff.
    Has your view of the importance, implementation, and practice of 
these reforms changed since you testified before the committee at your 
most recent confirmation hearing on September 25, 2001?
    Answer. My fundamental view of the Goldwater-Nichols Act remains 
unchanged. Overall, the implementation and practice of the reforms have 
clearly strengthened the warfighting capabilities of our combatant 
commands while maintaining civilian control over the military. I 
believe that when the history books are written on Operation Iraqi 
Freedom, they will note that this was the first time that the military 
services truly fought jointly, rather than simply deconflict their 
actions on the battlefield. That joint fight was key to our success.
    Question. Do you foresee the need for additional modifications of 
Goldwater-Nichols in light of the changing environment? If so, what 
areas do you believe it might be appropriate to address in these 
modifications?
    Answer. The global war against terrorism has highlighted our need 
to work more closely within the interagency process, as well as with 
our coalition partners. The Joint Staff is currently identifying 
methods that will allow the CJCS and me to carry out our duties as 
described in Title 10 more effectively and efficiently. The Center for 
Strategic and International Studies is conducting an independent study 
of Goldwater-Nichols, and the Department of Defense is conducting an 
Organizational Study, led by Mr. ``Pete'' Aldridge. I look forward to 
reviewing the suggestions and recommendations these efforts will 
produce.

                                 DUTIES

    Question. What recommendations, if any, do you have for changes in 
the duties and functions of the Vice Chairman of the Joint Chiefs of 
Staff as laid out in Title 10, United States Code, and in regulations 
of the Department of Defense pertaining to functions of the Vice 
Chairman of the Joint Chiefs of Staff?
    Answer. I believe that I serve a critical role for our Nation's 
defense as the Chairman of the Joint Requirements Oversight Council 
(JROC), and as the Chairman's representative to the National Security 
Council Deputies Committee. Further, I am the designated officer to 
perform the duties of the Chairman should he be absent or unable to 
perform his duties as established by Title 10. In all of these 
functions, it is both my legal responsibility and moral obligation to 
provide my best military advice to the President, the Secretary of 
Defense, and the National Security Council. The Goldwater-Nichols Act 
has provided the appropriate language to create my position. I advocate 
keeping the position and duties of Vice Chairman of the Joint Chiefs of 
Staff in tact.

                     VICE CHAIRMAN'S TERM OF OFFICE

    Question. Requirements for appointment as Vice Chairman of the 
Joint Chiefs of Staff and limitations on the length of time an officer 
may serve in that capacity, including renewable 2 year terms under 
certain conditions, are set forth in Section 154 of Title 10, United 
States Code.
    What are your personal views about the sufficiency of the 
provisions of existing law regarding the office of Vice Chairman of the 
Joint Chiefs of Staff as set forth in Section 154?
    Answer. Recently, the Department of Defense proposed legislation to 
provide for 2 year terms for both the CJCS and the VCJCS and that the 
President could reappoint the CJCS and the VCJCS as he deems necessary. 
The current limitation of two additional terms would be removed under 
this proposal. I support this proposal as it provides the President 
increased flexibility in managing the most senior levels of his 
military advisors, and takes greater advantage of the military 
expertise and experience accumulated during previous terms.

                             RELATIONSHIPS

    Question. Please identify any changes you have observed since your 
last confirmation in the relationships between the Vice Chairman of the 
Joint Chiefs of Staff and the following officials.
    The Deputy Secretary of Defense.
    Answer. Under existing directives, the Deputy Secretary of Defense 
has been delegated full power and authority to act for the Secretary of 
Defense on any matters that the Secretary is authorized to act. Because 
of our close association and coordination in numerous briefings, 
particularly those involving the global war on terrorism, I am proud to 
report that the relationship between the Vice Chairman and the Deputy 
Secretary of Defense has grown even stronger over these past 2 years.
    Question. The Under Secretaries of Defense.
    Answer. Title 10, United States Code, and current DOD directives 
establish the Under Secretaries of Defense as the principal staff 
assistants and advisors to the Secretary regarding matters related to 
their functional areas. Recently, the Secretary established the Under 
Secretary of Defense for Intelligence. Aside from this new position, I 
have not noticed any changes in the relationship of the Vice Chairman 
of the Joint Chiefs of Staff with the Under Secretaries of Defense 
since my last confirmation hearing.
    Question. The Assistant Secretaries of Defense.
    Answer. The Secretary of Defense has created a new Assistant 
Secretary for Networks & Information Integration who reports directly 
to the Deputy Secretary of Defense. He has also created a new ASD for 
Homeland Defense who reports to USD (Policy). Aside from these new 
positions, I have not noticed any changes in the relationship of the 
Vice Chairman of the Joint Chiefs of Staff with the Assistant 
Secretaries of Defense since my last confirmation hearing.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. I have great respect and admiration for General Myers and 
the job he has done as Chairman of the Joint Chiefs of Staff. I am 
proud to serve as his Vice Chairman, and we enjoy a close, and closely 
coordinated relationship, not only between our offices, but between us 
and the Secretary and Deputy Secretary of Defense. This represents a 
continuation of the very effective relationship between the Chairman of 
the Joint Chiefs of Staff and the Vice Chairman of the Joint Chiefs of 
Staff since my last confirmation hearing.
    Question. The Secretaries of the Military Departments.
    Answer. The Under Secretary of the Air Force now acts as the 
Executive Agent for Space Program procurement, which is especially 
important to the Vice Chairman in the Vice Chairman's role as Chairman 
of the JROC. Aside from this, I have not noticed any changes in the 
relationship of the Vice Chairman of the Joint Chiefs of Staff with the 
Secretaries of the Military Departments since my last confirmation 
hearing.
    Question. The Chiefs of Staff of the Services.
    Answer. I have not noticed any changes in the relationship of the 
Vice Chairman of the Joint Chiefs of Staff and the Chiefs of Staff of 
the Services since my last confirmation hearing.
    Question. The combatant commanders.
    Answer. The President-approved Unified Command Plan created U.S. 
Northern Command and redefined the roles and responsibilities of U.S. 
Strategic Command. Both of these new command entities have enhanced the 
overall ability of the Armed Forces and the Department of Defense. 
Aside from these welcomed additions, I have not noticed any changes in 
the relationship of the Vice Chairman of the Joint Chiefs of Staff with 
the combatant commanders since my last confirmation hearing.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that you 
would confront if confirmed for a second term of office as Vice 
Chairman of the Joint Chiefs of Staff?
    Answer. In my view, there are two major challenges. First, there is 
the challenge of maintaining the extent and breadth of our current 
commitments while being prepared to respond to others. Simultaneously, 
we have the challenge of transforming our Armed Forces to become a 
force well positioned to face the demands of the 21st century.
    The United States is well positioned to meet these challenges. We 
must continue our warfighting efforts; transform the force in a way 
that makes joint warfighting second nature; and streamline the 
strategic landscape.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. The Joint Staff has a long history of anticipating, 
planning and executing plans that address these issues. Over the past 
year we have undertaken an Operational Availability Study to assess our 
force needs and deployment timelines in the context of our military 
strategy.
    As we look forward, we will continue to execute seminar war games 
in support of our global commitments, such as Prominent Hammer and 
Elaborate Crossbow. These and other efforts clearly have shaped our 
current operational thinking and planning as we work with the combatant 
commanders to prepare for the future.
    We are also using Operation Iraqi Freedom as an opportunity to 
evaluate basing opportunities against the backdrop of the new strategic 
situation. The Services are also reviewing their rotation policies to 
optimize their readiness and ability to respond globally. All of these 
efforts are being done through the lens of our new strategy.
    We will continue to capitalize on our lessons learned from recent 
operations.
    We must also continue on the road to transformation. Over time, we 
will use our recently implemented capabilities-based methodology, to 
establish a common baseline for analyzing future capabilities and 
identifying and filling capability gaps.

                             TRANSFORMATION

    Question. If confirmed, you would continue to play an important 
role in the process of transforming the Armed Forces to meet new and 
emerging threats.
    With the benefit of almost 2 years in office, please discuss the 
progress that the Department has made in transforming the Armed Forces?
    Answer. One area of transformational progress that I am 
particularly proud of as the Chairman of the JROC is the Operational 
Availability Study. Simply put, this has been an iterative process of 
asking ourselves and our combatant commanders how much of our 
warfighting capability is needed, and how quickly is it needed at a 
particular place to support the various war plans. By reviewing the 
plans in this way, we have been able to tee up decision points for the 
Secretary of Defense that have transformed the way we plan, 
preposition, and mobilize our current force. It also will have 
significant impact on how we equip our forces for future joint 
warfighting requirements.
    Question. What are your goals regarding transformation in the 
future?
    Answer. I believe that transformation is as much a mind set as it 
is the acquisition of new equipment or the implementation of new 
doctrine. My goal is to help grow a generation of warfighters who are 
both firmly established in their service culture and strengths, and 
equally as comfortable applying that knowledge in the joint arena. The 
approach to future transformation should incorporate the latest 
technological capabilities, but should also include the ability to 
think differently about what we already have.

                        JOINT OFFICER MANAGEMENT

    Question. Provisions of law in Title 10, United States Code, 
regarding such matters as management policies for joint specialty 
officers, promotion objectives for joint officers, joint professional 
military education, and joint duty assignments have been in effect for 
over 15 years. Among other factors, changes in the size and composition 
of the officer corps, in the career patterns of officers, in 
operational requirements, and in the personnel requirements of the 
combatant commanders in successfully pursuing joint warfare have 
resulted in proposed legislative changes to existing law.
    Based on your extensive experience in the joint arena, what 
legislative changes, if any, would you recommend in joint officer 
management and joint professional military education?
    Answer. While the intent of JOM portion of the Goldwater-Nichols 
Act remains valid, the requirement for JSOs has changed as the 
Department has gained experience in joint operations. The combatant 
commanders tell us they need officers well grounded in their functional 
skills and service competencies, not simply joint specialists. We 
believe the combatant commanders are in the best position to identify 
their JSO requirements, and the current numerical JSO quotas limit 
their desired flexibility.
    In March 2003, the Department forwarded the report of the 
congressionally directed Independent Study of Joint Officer Management 
and Joint Professional Military Education. The completed report made 
several recommendations regarding changes needed to update JOM/JPME. We 
are developing a strategic plan to help shape JOM to meet our future 
joint requirements.
    Question. What legislative changes, if any, regarding the 
management of general and flag officers would you recommend?
    Answer. The general and flag officer (G/FO) management changes 
delineated in the Defense Transformational Act of 2003 will improve the 
efficiency and effectiveness of the Department of Defense. The 
Department's goal is to design a transformational G/FO management 
system that provides flexibility to the President, the Secretary of 
Defense, and the military departments in order to respond to rapidly 
changing situations. The enhanced ability to manage G/FO job tenure and 
career length will improve responsiveness to the evolving requirements 
of the 21st century and continue to attract, develop, and retain 
talented, experienced general and flag officers.

                           JOINT REQUIREMENTS

    Question. With the establishment of U.S. Joint Forces Command, it 
was envisioned that the Commander, U.S. Joint Forces Command, would 
represent the requirements and interests of combatant commander in the 
overall defense requirements and acquisition process.
    In your view, has the Commander, U.S. Joint Forces Command, been 
able to satisfactorily represent the requirements and needs of 
combatant commanders to the Joint Requirements Oversight Council and 
the military services?
    Answer. Yes. For example, in June of this year the Chairman issued 
the Joint Capabilities Integration and Development System (JCIDS) 
Instruction, CJCSI 3170.01C. JCIDS enumerates the procedures of the 
Joint Requirements Oversight Council (JROC). The JROC supports the 
Department by identifying, assessing and prioritizing joint military 
capability needs. JCIDS moves the JROC from a requirements-based to a 
capabilities-based process--a change specifically designed to better 
develop up-front integrated joint warfighting capability for the 
combatant commanders, and specifically enabling the interaction you 
envision for Joint Forces Command. In particular, under JCIDs, 
Commander, Joint Forces Command, leads the Command and Control 
Functional Capabilities Board (FCB), which is the principal organ for 
representing the joint and interoperable qualities so essential for 
effective command and control in the future.
    Question. Are combatant commanders able to identify critical joint 
warfighting requirements and quickly acquire needed capabilities?
    Answer. Combatant commanders identify joint warfighting 
requirements well. The new JCIDS process improves their participation 
and strengthens their voices in moving requirements forward and 
developing solutions. Every Functional Capabilities Board (FCB) 
includes expanded combatant commander representation, giving them 
improved insight and new leverage. Advanced Capabilities Technology 
Demonstration (ACTD), is one of the Department's means of testing and 
quickly fielding promising systems. This new process strengthens and 
empowers the combatant commanders in quickly fielding solutions to 
their warfighting needs.
    Question. What suggestions, if any, do you have for improving the 
requirements and acquisition process to ensure that combatant 
commanders are able to quickly acquire needed joint warfighting 
capabilities?
    Answer. In addition to ACTDs, the Department has a number of other 
methods for quickly fielding our best ideas, including the Joint Test 
and Evaluation Program that is used to assess the military utility of 
new capabilities and mature advanced technologies. This program, 
initiated at the Congress' behest, employed and evaluated 11 
initiatives in Operation Iraqi Freedom. My suggestion for improving the 
process would simply be to continue the course with these new methods 
of fielding our new ideas and promising systems.

                            DEFENSE PLANNING

    Question. The Office of the Secretary of Defense recently announced 
the overhaul of the Planning, Programming, and Budgeting System and 
adopted a 2-year planning cycle. The Planning, Programming, Budgeting 
and Execution (PPBE) system will ``. . . get more integrity into the 
whole system, much more efficiency, much more clarity, and much more 
credibility,'' according to the Comptroller.
    What do you see as the Joint Staff's role in this new system?
    Answer. The Joint Staff's role is unchanged. The chairman will 
continue to meet his statutory obligations by issuing Program Appraisal 
and Program Recommendation memoranda and participating actively in 
development of the Defense Planning Guidance and in annual OSD program 
and budget reviews.
    Question. Will the new Planning, Programming, and Budgeting and 
Execution (PPBE) system be more responsive to the requirements of the 
combatant commanders than the old system?
    Answer. Yes. The new Joint Capabilities Integration and Development 
System (JCIDS) supports the Defense Department's aim of providing 
equipment that is used throughout each of America's armed services and 
that best meets the needs of the combatant commanders. The new JCIDS 
process directly feeds the PPBE, serving as a tool for combatant 
commanders to make timely inputs to the PPBE system for follow-on 
programmatic actions. JCIDS not only better incorporates the combatant 
commanders capability concerns early in the process, it also helps 
combine these needs with the joint concepts and architectures they have 
already identified. Additionally, it provides them a seat on the 
Functional Capabilities Board that reviews issues in a joint manner 
across the Department.
    Question. Do you believe the Joint Forces Command should have a 
more active role in the PPBE? If so, how should they be included in the 
process? If not, why not?
    Answer. The Commander, U.S. Joint Forces Command, Admiral 
Giambastiani, has aggressively set about accomplishing the broadened 
mission he was given under change two to the Unified Command Plan. He 
has reinvigorated Joint Forces Command's ties to the planning, 
programming, budgeting, and execution functionaries in Washington, and 
as such is playing a very active role in PPBE.

              JOINT REQUIREMENTS OVERSIGHT COUNCIL (JROC)

    Question. In your response to the committee's advanced policy 
questions from your last confirmation, you indicated an intent to 
strengthen the JROC's strategic focus with the goals of enhancing the 
JROC's influence of requirements integration through the development of 
operational concepts and architectures; integrating U.S. Joint Forces 
Command joint experimentation efforts into the JROC process; and 
shifting the JROC's focus to future joint warfighting requirements 
while still addressing current commander in chief priorities.
    How would you assess your success to date in achieving these goals?
    Answer. We are on the right path and have recently taken several 
steps to ensure the JROC process is better focused on capabilities 
needs--a top down, strategy based approach. A lot of work has gone into 
this already and more remains to be done. We are developing a Joint 
Operations Concept to provide an overarching linkage between strategy 
and capabilities. The combatant commanders are providing four 
underpinning Joint Operating Concepts. We have aligned our Joint 
Warfighting Capability Assessment Teams into five functional areas--
each of which will have its own associated functional concept. Finally, 
we have laid out a plan for reviewing and refining these concepts as 
the combatant commanders and Functional Concept teams bring them 
forward.
    Question. Has your vision for the role and priorities of the JROC 
changed since 2001?
    Answer. The requirements generation process needed to change. The 
old requirements generation process too-often produced stove-piped 
solutions that were platform-centric and overly threat-based. We found 
we needed to provide betters tools, to allow for more objective 
analysis. The recently approved Joint Capabilities Integration and 
Development System (JCIDS) process addresses these shortcomings. JCIDS 
transforms requirements generation from a threat and system-based 
requirement process to a capability-based process, and provides a more 
focused and complete functional needs analysis to JROC decisionmakers.
    Question. Are you satisfied that the requirements process has been 
applied appropriately to missile defense programs?
    Answer. I am satisfied that the requirements process has been 
applied appropriately to missile defense programs. The Unified Command 
Plan 02, Change 2 Terms of Reference designates U.S. Strategic Command 
as the advocate for all combatant commanders' desired missile defense 
and missile warning characteristics and capabilities. Admiral Ellis, 
Commander of Strategic Command, is executing that responsibility in 
coordination with the Chairman of the Joint Chiefs and the Joint 
Requirements Oversight Council (JROC). This complies with recent 
congressional changes mandating that the JROC review MDA programs.
    Question. How do you see the role of the JROC evolving as the 
Department moves toward spiral development and a capabilities based 
acquisition system?
    Answer. We feel we now have the process about right with the 
implementation of the new JCIDS. A specific feature of JCIDS is to 
avoid making capabilities needs determination a ``100 percent'' 
solution at the start, and to take advantage of the beneficial 
flexibility of spiral development.

                     RELIANCE ON RESERVE COMPONENT

    Question. The men and women of the Reserve component have performed 
superbly in meeting the diverse challenge of the global war on 
terrorism. There is uncertainty, however, about the potential adverse 
effects on recruiting, retention, and morale of continuing mobilization 
of Guard and Reserve personnel.
    What is your assessment of the impact of continuing Guard and 
Reserve deployments on the readiness and attractiveness of service in 
the Guard and Reserve?
    Answer. The prolonged demand on the Guard and Reserve is a very 
serious concern, and we are working hard to deal with this issue. The 
Reserve component continues to perform exceptionally well and has 
proven to be a major contributor to our force structure. To maintain 
current levels of responsiveness, we must continue to ensure our 
personnel receive strong support from their civilian employers and 
their families. We are evaluating several measures that will reduce the 
strain on the Guard and Reserve Forces while continuing to maintain 
responsiveness and flexibility.
    Question. What missions do you consider appropriate for permanent 
assignment to the Reserve component?
    Answer. Although there are unique functions performed specifically 
by the Reserve compoment, the majority of Guard and Reserve members 
participate and provide support across the spectrum as an integral part 
of the Total Force. We are conducting studies to look at realigning 
active and Reserve component capabilities to better match the defense 
strategy. Specifically, we are reviewing a wide range of capabilities 
including those that predominantly reside in the Reserve component, 
from capabilities currently in high-demand for ongoing operations, to 
those that are not frequently mobilized. We are also studying the 
capabilities required for homeland security, and those that are 
critical to post-hostilities operations.

                   END STRENGTH OF ACTIVE DUTY FORCES

    Question. In light of the manpower demands of Operation Iraqi 
Freedom, do you consider the level of active duty authorized end 
strength proposed in the fiscal year 2004 budget to be sufficient for 
today's missions?
    Answer. Yes. We can be justifiably proud of the actions of both 
active duty and Reserve component personnel who have successfully 
accomplished their assigned missions during Operations Iraqi Freedom, 
Enduring Freedom, and Noble Eagle. The President's partial mobilization 
of the Reserve components has allowed us to meet a short-term spike in 
requirements for security forces, intelligence, and communications 
skills. I truly believe in the Total Force concept. These specific 
requirements, while not indefinite, will likely continue in the near 
term to support homeland defense, antiterrorism, and force protection. 
I believe the long-term solution is not increasing the authorized end 
strength, but rather looking at the current force mix, and realigning 
to meet the anticipated needs of the future.
    Question. How do you assess the progress made to date by the 
Services in finding ways to reduce the numbers of military personnel 
performing support functions that can better be performed by civilian 
employees or contractors?
    Answer. I believe the Services are making great strides in identify 
functions requiring military skills, and those that could be performed 
by civilian employees or contractors. This is an ongoing effort, with 
an initial review of more than 300,000 military billets being 
considered for conversion. To date, close to 50,000 military billets 
have been identified for conversion, but we expect this number to 
increase as we continue the review.
    Question. What manpower savings can be achieved through reductions 
in overseas presence, application of technology, and changes in roles 
and missions?
    Answer. We are taking a comprehensive look at missions, technology, 
basing, and required force structure to determine the optimal location 
of our military forces to meet any challenge. As these reviews are 
currently in their early stages, we do not have any projections on 
manpower savings.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Vice Chairman of the Joint 
Chiefs of Staff?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

                Questions Submitted by Senator Jack Reed

               ROLE OF JROC IN ENSURING INTEROPERABILITY

    1. Senator Reed. General Pace, what role does the Joint 
Requirements Oversight Council (JROC) play in ensuring that future 
military information and communications systems are completely 
interoperable?
    General Pace. The JROC has traditionally played a key role in 
ensuring future information and communications systems are 
interoperable. For the JROC, the Joint Staff Command Control 
Communication and Computer System Directorate (J6) certifies 
interoperability and supportability requirements of military 
information and communication systems to ensure they conform with 
policy, doctrine, and applicable interoperability standards for joint 
Information Technology (IT) and National Security Systems (NSS). As 
part of the review process, J6 requests assessment from the Services, 
Defense Information Systems Agency (DISA), and other DOD agencies.

    2. Senator Reed. General Pace, how does the JROC influence the 
research and development community and contractors to ensure that 
future systems are joint and interoperable?
    General Pace. The JROC validates the Joint Warfighting Capability 
Objectives (JWCOs) representing some of the most critical capabilities 
for maintaining the warfighting advantages of U.S. forces. These JWCOs 
form the basis for the Joint Warfighting Science and Technology Plan 
supporting the development of technology options for joint warfighting 
capabilities. The Joint Warfighting Capability Assessment teams, now 
part of the newly formed Functional Capabilities Boards (FCBs), 
interact closely with defense science and technology representatives as 
to channel expertise in scientific disciplines to the FCBs. The Science 
and Technology Program provides the JROC with an effective basis for 
leveraging our Nation's research and development community.
    Under the new Joint Capabilities Integration and Development System 
(JCIDS) process, the JROC will expand its influence within the research 
and development community. The JROC will conduct broader review of 
materiel capability proposals independent of Acquisition Category 
(ACAT). There will also be better linkage to the acquisition process by 
engaging the acquisition agency earlier in the process as capabilities 
are being developed. The establishment of five Functional Capabilities 
Boards with their expanded membership of combatant commanders, OSD, 
defense agencies, and industry and the alignment of the Science and 
Technology Program to the FCB portfolios will increase and enhance the 
JROC's influence on the research and development community.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka

                               WAR GAMES

    3. Senator Akaka. General Pace, your written testimony discusses 
the contributions of war games such as Prominent Hammer and Elaborate 
Crossbow. Can you please provide a description of these war games, as 
well as the main insights you have gained from them?
    General Pace. Joint Staff seminar games, such as Prominent Hammer 
(PH) and Elaborate Crossbow (EC), are conducted at the request of the 
Chairman of the Joint Chiefs of Staff or the Director of the Joint 
Staff. These assessment activities address complex issues not easily 
resolved through normal staff actions and that involve many disparate 
equity-holders. Seminar gaming provides an excellent environment for 
senior leaders to explore innovative processes, address difficult 
issues, and consider potential second order effects.
    Joint Staff seminar games typically take a phased approach to 
analyzing a problem or issue. The first phase usually involves an 
action officer-level workshop to look at aspects of an area of interest 
and identify key issues needing resolution. The second phase is often a 
general officer/flag officer seminar in which these key issues are 
presented to senior leadership for shaping and decision.
    The recently conducted PH and EC series of seminars provided 
insight into the interrelationships of various global operations and 
their projected impact on our force posture. These wargames also helped 
assess force availability for conducting additional contingency 
operations. These wargames provided an effective forum for senior 
military and DOD civilian leaders to understand complex issues and 
provide the best military advice to the Chairman Joint Chiefs of Staff 
and the Secretary of Defense. Specific results of these wargames are 
classified at the SECRET level.
                                 ______
                                 
    [The nomination reference of Gen. Peter Pace, USMC, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 18, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named Marine Corps officer for reappointment as the 
Vice Chairman of the Joint Chiefs of Staff and appointment to the grade 
indicated while assigned to a position of importance and responsibility 
under title 10, U.S.C., sections 601 and 154:

                             To be General

    Gen. Peter Pace, 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Peter Pace, USMC, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]

              Biographical Sketch of Gen. Peter Pace, USMC

    General Peter Pace is the Vice Chairman of the Joint Chiefs 
of Staff. In this capacity, he is a member of the Joint Chiefs 
of Staff and the Nation's second highest ranking military 
officer. General Pace is the sixth officer to hold the position 
and the first Marine.
    As the Vice Chairman, General Pace serves as the Chairman 
of the Joint Requirements Oversight Council, Vice Chairman of 
the Defense Acquisition Board, and as a member of the National 
Security Council Deputies Committee and the Nuclear Weapons 
Council. In addition, he acts for the Chairman in all aspects 
of the Planning, Programming and Budgeting System to include 
participating in meetings of the Defense Resources Board.
    General Pace received his commission in June 1967, 
following graduation from the United States Naval Academy. He 
also holds a Master's Degree in Business Administration from 
George Washington University and attended Harvard University 
for the Senior Executives in National and International 
Security program.
    Upon completion of The Basic School, Quantico, VA, in 1968, 
he was assigned to the 2d Battalion, 5th Marines, 1st Marine 
Division in the Republic of Vietnam, serving first as a Rifle 
Platoon Leader and subsequently as Assistant Operations 
Officer. 
    Returning from overseas in March 1969, he reported to 
Marine Barracks, Washington, DC. During this tour, he served as 
Head, Infantry Writer Unit, Marine Corps Institute; Platoon 
Leader, Guard Company; Security Detachment Commander, Camp 
David; White House Social Aide; and Platoon Leader, Special 
Ceremonial Platoon. He was promoted to Captain in April 1971. 
In September 1971, General Pace attended the Infantry Officers' 
Advanced Course at Fort Benning, GA. Returning overseas in 
October 1972, he was assigned to the Security Element, Marine 
Aircraft Group 15, 1st Marine Aircraft Wing, Nam Phong, 
Thailand, where he served as Operations Officer and then 
Executive Officer.
    On October 1973, he was assigned to Headquarters Marine 
Corps, Washington, DC, for duty as the Assistant Majors' 
Monitor. During October 1976, he reported to the 1st Marine 
Division, Camp Pendleton, CA, where he served as Operations 
Officer, 2d Battalion, 5th Marines; Executive Officer, 3d 
Battalion, 5th Marines; and Division Staff Secretary. He was 
promoted to Major in November 1977. In August 1979, he reported 
to the Marine Corps Command and Staff College as a student.
    Upon completion of school in June 1980, he was assigned 
duty as Commanding Officer, Marine Corps Recruiting Station, 
Buffalo, NY. While in this assignment, he was promoted to 
Lieutenant Colonel in October 1982. Reassigned to the 1st 
Marine Division, Camp Pendleton, General Pace served from June 
1983 until June 1985 as Commanding Officer, 2d Battalion, 1st 
Marines. In June 1985, he was selected to attend the National 
War College in Washington, DC.
    After graduation the following June, he was assigned to the 
Combined/Joint Staff in Seoul, Korea. He served as Chief, 
Ground Forces Branch until April 1987, when he became Executive 
Officer to the Assistant Chief of Staff, C/J/G3, United Nations 
Command/Combined Forces Command/United States Forces Korea/
Eighth United States Army.
    General Pace returned to Marine Barracks in Washington, DC, 
in August 1988 for duty as Commanding Officer. He was promoted 
to Colonel in October 1988. In August 1991, he was assigned 
duty as Chief of Staff, 2d Marine Division, Camp Lejeune. 
During February 1992, he was assigned duty as Assistant 
Division Commander. He was advanced to Brigadier General on 
April 6, 1992, and was assigned duty as the President, Marine 
Corps University/Commanding General, Marine Corps Schools, 
Marine Corps Combat Development Command, Quantico, VA, on July 
13, 1992. While serving in this capacity, he also served as 
Deputy Commander, Marine Forces, Somalia, from December 1992-
February 1993, and as the Deputy Commander, Joint Task Force--
Somalia from October 1993-March 1994. General Pace was advanced 
to Major General on June 21, 1994, and was assigned as the 
Deputy Commander/Chief of Staff, U.S. Forces, Japan. He was 
promoted to Lieutenant General and assigned as the Director for 
Operations (J-3), Joint Staff, Washington, DC, on August 5, 
1996.
    General Pace served as the Commander, U.S. Marine Corps 
Forces, Atlantic/Europe/South from 23 November 1997 to 8 
September 2000. He was promoted to General and assumed duties 
as the Commander in Chief, United States Southern Command on 8 
September 2000 until 30 September 2001.
    General Pace's personal decorations include: Defense 
Distinguished Service Medal, with two oak leaf clusters; 
Defense Superior Service Medal; the Legion of Merit; Bronze 
Star Medal with Combat V; the Defense Meritorious Service 
Medal; Meritorious Service Medal with gold star; Navy 
Commendation Medal with Combat ``V''; Navy Achievement Medal 
with gold star; and the Combat Action Ribbon.
                                ------                                

    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gen. Peter 
Pace, USMC, in connection with his nomination follows:]

            The Vice Chairman of the Joint Chiefs of Staff,
                                      Washington, DC, 17 June 2003.
Hon. John W. Warner, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Vice Chairman of the Joint Chiefs of 
Staff. It supplements Standard Form 278 (SF 278), ``Executive Personnel 
Financial Disclosure Report,'' which has already been provided to the 
Committee and which summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my SF 278 will create any conflict of interest in the execution of 
my new governmental responsibilities. Additionally, I have no other 
interests or liabilities in any amount with any firm or organization 
that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation. I trust that the following 
information is satisfactory for the committee.  
            Very Respectfully,
                                        Peter Pace,
                        General, United States Marine Corps
                       Vice Chairman of the Joint Chiefs of Staff. 

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Peter Pace.

    2. Position to which nominated:
    Vice Chairman of the Joint Chiefs of Staff.

    3. Date of nomination:
    18 June 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    5 November 1945; Brooklyn, New York.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to former Lynne Ann Holden.

    7. Names and ages of children:
    Peter Pace, Jr; 26 (26 Oct. 1976).
    Tiffany Marie Pace; 24 (21 Aug. 1978).

    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Marine Corps Association.
    Member, Military Officers Association of America (formerly TROA).
    Member, Honorable Order of Kentucky Colonels.
    Member, Naval Academy Alumni Association.
    Member, National War College Alumni Association.
    Member, Board of Directors, Marine Corps--Law Enforcement 
Foundation.

    11. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    None.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    I do so agree.

    13. Personal views: Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    I do so agree.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and the information provided 
therein is, to the best of my knowledge, current, accurate, and 
complete.
                                                        Peter Pace.
    This 17th day of June, 2003.

    [The nomination of Gen. Peter Pace, USMC, was reported to 
the Senate by Chairman Warner on July 30, 2003, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 31, 2003.]


NOMINATIONS OF GEN PETER J. SCHOOMAKER (RET.), USA, FOR APPOINTMENT AS 
  CHIEF OF STAFF, UNITED STATES ARMY AND APPOINTMENT TO THE GRADE OF 
  GENERAL; AND LTG BRYAN D. BROWN, USA, FOR APPOINTMENT AS COMMANDER, 
 UNITED STATES SPECIAL OPERATIONS COMMAND AND APPOINTMENT TO THE GRADE 
                               OF GENERAL

                              ----------                              


                         TUESDAY, JULY 29, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m, room 
SR-222, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, Roberts, 
Sessions, Talent, Chambliss, Levin, Reed, Akaka, E. Benjamin 
Nelson, Dayton, and Clinton.
    Committee staff members present: Judith A. Ansley, staff 
director; and Gabriella Eisen, nominations clerk.
    Majority staff members present: Charles W. Alsup, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Patricia 
L. Lewis, professional staff member; Scott W. Stucky, general 
counsel; and Richard F. Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Daniel J. Cox, Jr., professional 
staff member; Evelyn N. Farkas, professional staff member; 
Maren R. Leed, professional staff member; Gerald J. Leeling, 
minority counsel; Peter K. Levine, minority counsel; and Mary 
Louise Wagner, professional staff member.
    Staff assistant present: Andrew W. Florell.
    Committee members' assistants present: John A. Bonsell, 
assistant to Senator Inhofe; James Beauchamp, assistant to 
Senator Roberts; Arch Galloway II, assistant to Senator 
Sessions; Lindsey R. Neas, assistant to Senator Talent; Clyde 
A. Taylor IV, assistant to Senator Chambliss; Frederick M. 
Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Davelyn Noelani Kalipi, assistant to 
Senator Akaka; William K. Sutey, assistant to Senator Bill 
Nelson; Eric Pierce, assistant to Senator Ben Nelson; and 
Andrew Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone. The committee will 
come to order. This is an Army day. I note the presence of 
General Gordon Sullivan, President of the Association of the 
United States Army, and thank you for your consultation.
    Last night, I was privileged to join former Secretary of 
the Army John Marsh in making presentations together, and he 
just wished to say with his usual humility that he takes full 
credit for both of these nominations. He was privileged to 
serve with you in his capacity as Secretary of the Army for 
many years.
    All of us here in the committee are extremely pleased that 
we have before the committee this morning General Peter 
Schoomaker, the nominee to be the 35th Chief of Staff of the 
United States Army, and Lieutenant General Bryan D. Brown, 
United States Army, the nominee to be Commander, United States 
Special Operations Command (SOCOM). I understand General Brown 
will be introduced by Senator Roberts.
    We welcome the nominees and their families, and I ask at 
this moment would each of you introduce your family members. 
General Schoomaker.
    General Schoomaker. Sir, thank you very much. I have my 
wife, Cindy with me here today, whom you've met, and my 
godfather here, General Sullivan. [Laughter.]
    Chairman Warner. General Brown.
    General Brown. Sir, I'd like to introduce my family, 
starting with Sergeant Bryan McCoy II of the 504th Infantry 
from the 82nd Airborne Division, recently returned from 
Afghanistan a couple of weeks ago, and my daughter, his wife, 
Shannon. They're also the parents of a little 20-month-old 
Green Beret in training. My other son-in-law, Captain Kevin 
Leahy, is also an Afghan veteran from the Fifth Special Forces 
Group, and my other daughter, Tracey, and then my wife of 33 
years, my high school sweetheart and my best friend, who is a 
great military wife, consummate volunteer, does all the stuff 
that service wives do so well, and that's my wife, Penny.
    Chairman Warner. Well, thank you both, and I thank the 
families for making arrangements to join us this morning. This 
is a very important moment in the history of the United States 
of America and in the respective careers of these two 
outstanding officers. But in this committee we always recognize 
that family support is critical to the success of those 
individuals who wear the uniform of the United States, whether 
it's in the private's rank or the four-star rank. We thank you 
for your role in providing that foundation, which contributes 
to the greatness of our military.
    General Schoomaker is distinguished in being called back 
from retirement to serve in this critically important post. The 
ranks of our military retired officers are filled with men and 
women of enormous ability and, if confirmed, you will join such 
distinguished Army officers as General Maxwell Taylor, General 
Lyman Lemnitzer, General Andrew Goodpaster, General George C. 
Marshall, and General Douglas MacArthur in reentering the 
active-duty ranks to fill key positions.
    General Schoomaker's active duty career extended over 31 
years, and culminated in his service as Commander, United 
States Special Operations Command from 1997 to 2000. Prior to 
his service in that capacity, the General commanded the United 
States Army Special Operations Command, Joint Special 
Operations Command, and the First Special Forces Operational 
Detachment. He was actively involved in the Desert One hostage 
rescue attempt in Iran in 1980, as well as combat operations in 
Grenada, Panama, the first Persian Gulf War, and the Balkans.
    General, we congratulate you on your nomination, and thank 
you for your willingness to step aside from what was a very 
challenging private career to once again accept the call to 
service.
    General Brown, welcome to you and your family, and 
congratulations on your nomination. General Brown is currently 
the Deputy Commander, United States Special Operations Command. 
He, too, has had a distinguished career in the Special 
Operations Forces. Like General Schoomaker, he commanded the 
United States Army Special Operations Command and Joint Special 
Operations Command. In his career, he also held positions of 
leadership in the 101st Airborne Division (Air Assault), 
Special Operations Command, and First Infantry Division.
    General Brown joined the Army as an infantryman, rising to 
the rank of Sergeant E-5, and earning a spot on a Special 
Forces A Team. Following Officer Candidate School, he trained 
as a helicopter pilot and subsequently served in Vietnam. He 
participated in Operation Urgent Fury, the invasion of Grenada, 
in October 1983, and he commanded a battalion of the 160th 
Special Operations Aviation Regiment during Operation Desert 
Storm.
    Operation Enduring Freedom in Afghanistan and Operation 
Iraqi Freedom have been revolutionary in the use of Special 
Operations Forces. In my view, this is the wave of the future. 
Senator Levin and I and a number of other members of this 
committee, in our trips to Afghanistan over some years now--we 
have made two trips together, as well as to the Iraqi theater--
recognize the enormous, incalculable contributions made by the 
Special Operations Forces in these two operations.
    General Brown, I congratulate you on your distinguished 
career, and on your selection to this important position at a 
critical time for the Special Operations Command.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you very much, Mr. Chairman. This 
hearing this morning indeed is a very significant one, 
involving as it does the nomination of General Schoomaker to be 
the Chief of Staff of the United States Army, which also 
involves being a member of the Joint Chiefs of Staff, and the 
nomination of General Brown to be Commander, U.S. Special 
Operations Command, which is one of nine combatant commands, 
and one which has been given a special role in the war on 
terrorism.
    I want to join Senator Warner in extending a warm welcome 
to both of you and to your families. Special thanks to your 
families for their support. You are both very well-qualified 
indeed for the positions to which you have been nominated. We 
thank you for returning to active duty, General Schoomaker, and 
for your continued willingness to serve, General Brown.
    General Schoomaker will take charge of the Army at a very 
critical juncture. He has noted in his responses to the 
committee's prehearing policy questions that it is an Army at 
war. After performing brilliantly in the war in Iraq, it is the 
Army that is now principally tasked with winning the peace. 
Moreover, it is doing all of these tasks associated with 
nation-building in Iraq while also fighting against a 
continuing insurgency in Iraq.
    It takes an incredibly well-trained, disciplined, and 
motivated force to wage peace on the one hand by offering the 
helping hand of friendship to the majority of Iraqis, while on 
the other hand waging war against the minority who would 
disrupt that peace.
    At the same time, the Army is bearing the brunt of the 
continuing effort to stabilize and rebuild Afghanistan, to help 
keep the peace in Bosnia, Kosovo, the Sinai, and other areas, 
to contain the threat of North Korea, while at the same time 
preparing to execute other missions in support of a national 
military strategy.
    General Schoomaker's challenge, and the challenge for the 
administration and Congress, is to ensure that this Army does 
not lose its edge or break under the strain. The All-Volunteer 
Army has been a huge success. It is primarily the quality of 
the men and women of the Army, and secondarily the superb 
training, equipment, and leadership that they are provided, 
that sets this Army apart from any other in the world. We must 
do everything necessary to ensure that they and their families 
continue to receive the moral and physical support that they 
need and deserve.
    General Schoomaker, we will be looking to you for advice on 
the critical questions of the day, as we in Congress do our 
part in support of our soldiers--questions such as: Is the Army 
large enough to meet its commitments in this new strategic 
environment?
    Your predecessor, General Shinseki, in his retirement 
address, warned about a 12-division strategy and a 10-division 
force, and about the Army's organizational structure, the 
roles, missions, and force mix between the active and Reserve 
components. Is the right balance there between current 
readiness and future readiness ensured by modernization and 
transformation? Given the reality of limited resources, how 
should we prioritize among the requirements to recapitalize the 
current force, field the interim forces, Stryker Brigade Combat 
Teams, and develop the Future Combat Systems of the future 
Objective Force?
    General Brown, you come to us well-prepared to take this 
new responsibility, having served for the last year or so as 
the second in command of the Special Operations Command, and 
prior to that as the Commander of the Army component of the 
Special Operations Command, the U.S. Army Special Operations 
Command, and as the Commander of the Joint Special Operations 
Command.
    General Brown is going to take the helm of the command at a 
pivotal time, as the Special Operations Command assumes an 
expanded role in the global war on terrorism, and completes 
preparations to conduct operations anywhere in the world as a 
supported rather than supporting command. These changes were 
prompted in no small part by the extraordinary performance of 
Special Operations Forces (SOF) in Afghanistan, where small 
teams of special operators joined efforts with Afghan allies 
and called in U.S. air power to achieve tremendous results.
    Similarly, in Iraq, special operators patrol vast amounts 
of territory in Western Iraq to prevent the use of long-range 
missiles against Iraq's neighbors, including Israel, and joined 
forces with the Kurds in Northern Iraq to pin down Iraqi Army 
units. At the present time, in both Afghanistan and Iraq, 
special operators are carrying out operations to find and 
apprehend Osama bin Laden and Saddam Hussein and other high-
value targets, and civil affairs and psychological operations 
personnel are heavily engaged in stability operations.
    This means, however, that our Special Operations Forces, 
both active and Reserve, are also stretched thin. The 
responsibility that has been given to the command by the 
Secretary of Defense is great. It is important that the 
command's efforts be directed by cogent policy and executed 
according to clear guidelines, subject to the authority of the 
Department of Defense, the President, and Congress.
    Having created the Special Operations Command with the 
Nunn-Cohen amendment to the Goldwater-Nichols Defense 
Reorganization Act, this committee shares the responsibility 
for the success of Special Operations in fighting terrorists 
and in executing their other title 10 responsibilities. General 
Brown, we're looking to you to tell us how you plan to approach 
this new expanded mission for your command and what actions are 
underway to ease the pressure on the forces that will be under 
your command. Again, I thank you both, congratulate you both, 
and look forward to this hearing.
    Chairman Warner. Senator Roberts.
    Senator Roberts. Thank you, Mr. Chairman. I would observe 
that the high road of humility is not often bothered by heavy 
traffic in Washington, but it is indeed a humbling experience 
for me and a personal pleasure and a privilege to introduce to 
the committee the President's nominee to lead the Special 
Operations Command, Lieutenant General Doug Brown. I join you, 
sir, and also Senator Levin in welcoming what has to be an all-
American family. I'm also, indeed, honored to be here in the 
presence of General Sullivan, whom I know personally. His son 
and my son were fraternity brothers at Manhattan, Kansas, home 
of the ever-optimistic and fighting Wildcats----[Laughter.]
    --and there's a base right next door to Manhattan called 
Fort Riley that is near and dear to the hearts of these 
gentlemen, I'm honored also to be here in support of General 
Schoomaker, who has rewritten the MacArthur adage when he 
addressed the Joint Session of Congress, that is, old soldiers 
never die, they just serve their country again and again and 
again, in outstanding fashion. There's no fade away in regards 
to General Schoomaker.
    General Brown's background is an ideal match for leading 
America's quiet professionals. He came into the Army in 1967 as 
a private in the infantry. On completion of Airborne School and 
the Special Forces qualification course, he served on a Special 
Forces A Team. His combat tours include Vietnam and Grenada, 
Desert Storm, and others. He was also, perhaps most 
importantly, assistant Division Commander of the First Infantry 
Division at Fort Riley, Kansas.
    He is the Deputy Commander of SOCOM, and previously 
commanded the Joint Special Operations Command at Fort Bragg. 
He is the right man at the right time, having been intimately 
involved in the military component of our war on terrorism and 
expanding role of SOCOM, and that role will expand and has in 
that effort in the months and years to come. As SOCOM missions 
are planned and executed, Doug Brown will not be asking our 
special operators to face risks and challenges he himself has 
not faced in service to our Nation.
    As this committee knows perhaps more so than any other in 
Congress, the family of the soldier, the sailor, the airman and 
the marine serves and sacrifices right alongside the service 
member through distant tours of duty, lengthy deployments, and 
the unknown hazards of duty. The Brown family is no exception. 
In fact, they are a remarkable example of service to the 
country in so many ways.
    Penny Brown is with us today, and we thank you for your 
service and leadership. Doug's eldest daughter, Tracey Leahy, 
teaches school here in Fairfax County, and her husband, Captain 
Kevin Leahy, was wounded in Afghanistan while serving with the 
Fifth Special Forces Group. He's doing just fine.
    Doug and Penny's younger daughter, Shannon McCoy, works at 
Pope Air Force Base in North Carolina. Her husband, Sergeant 
Bryan McCoy, just returned from a 7-month tour in Afghanistan, 
serving with the 82nd Airborne Division.
    Mr. Chairman, that's incredible service. America's national 
security is clearly a family affair. Mr. Chairman, I not only 
endorse General Brown as SOCOM Commander, I also endorse his 
family. They have to be an all-American family in what they 
stand for.
    I asked Penny, when they paid me a courtesy call, ``How do 
you put up with these guys, Doug, Kevin, and Bryan.'' She said 
simply, ``We just love them.'' I think that says it all. I'm 
very humbled and very privileged to endorse all of these 
nominations.
    Chairman Warner. Senator, we thank you for your very 
heartfelt observations. I'm certain that the Brown family 
appreciate your remarks, as well as this committee.
    Given the importance of this occasion, the chair will be 
happy to recognize other members who might wish to say a word 
by way of opening statement before we proceed to the matter of 
routine questions, and then into the presentation of 
statements.
    Senator Sessions.
    Senator Sessions. Mr. Chairman, I would just like to say 
that I had a good meeting with General Schoomaker, and have 
heard reports from quite a number of people who served with him 
and know him, and they give him glowing recommendations. I 
believe the President has made a great choice. We are also 
excited about General Brown's leadership in his important 
command, and I have also heard from a number of different 
sources great reports on General Brown. I think he's going to 
do a great job for us.
    Chairman Warner. Good. Senator Reed was with us earlier. He 
may return. Senator Akaka, and colleagues on this side?
    Senator Akaka. Thank you very much, Mr. Chairman. I want to 
add my congratulations on your appointments. I want to also 
express my appreciation to both of you for being here today and 
for what you have already done for our country. You both have 
had long, distinguished careers. I'm glad to have this 
opportunity to discuss many of the current and future 
challenges for the Army. Welcome, and also to your families.
    Mr. Chairman.
    Chairman Warner. Senator Akaka is too modest to mention 
that he had a distinguished career himself several years ago in 
the United States Army.
    Would any other colleagues like to make a statement?
    Senator Talent.
    Senator Talent. Mr. Chairman, I'll just add to what my 
colleagues have said. My admiration for these men--I hope we 
will approve them, I'm going to vote to approve them, and they 
will undertake these posts at a time as crucial as I suppose 
anybody has ever come to these jobs.
    This is a Nation at war. They have a record that shows 
their unflinching dedication to duty and their willingness to 
confront problems honestly, and to do their duty regardless of 
circumstances. That's what we expect from them, and I know 
that's what they're going to give us, and I'm looking forward 
to their comments and the opportunity to ask them about some 
issues.
    Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Dayton. Mr. Chairman, if it hasn't been said by 
everyone--it has been said--so I will repeat that we're very 
fortunate to have these two outstanding servants of our country 
and leaders of the men and women in our Armed Forces, and I 
look forward to supporting their nominations and having a good 
discussion prior to that. Thank you.
    Chairman Warner. You were one of the members on our recent 
trip to Iraq and part of the congressional delegation, and very 
actively engaged in interfacing with the men and women of the 
United States Forces on that trip.
    Senator Dayton. If you need some new recruits, I'll tell 
you, those two gentlemen at the end there are both, for their 
age, in remarkable condition. I would say, take them anywhere, 
Mr. Chairman, and between their intelligence and their energy, 
I think we'd be well served, and I'd be glad to be several 
hundred yards behind all three of them. [Laughter.]
    Senator Levin. Except for the age reference, we're very 
grateful. [Laughter.]
    Senator Talent. I don't know that anything we could do 
would be unfair to Saddam Hussein, but that would almost be 
unfair, to send these three.
    Chairman Warner. Senator Clinton.
    Senator Clinton. Mr. Chairman, I am delighted to support 
these two nominees, and I must say that it is quite encouraging 
for many of us of a certain age that General Schoomaker would 
come out of retirement to assume this position, and I'm very 
grateful and impressed by that. I look forward to working with 
them, and in addition to General Schoomaker's considerable 
military experience, I was also impressed by his political 
savvy when he came for his courtesy call to my office, bringing 
with him a young Army Reserve Officer Training Corps (ROTC) 
student from the University of Syracuse. That was very well 
done, General. [Laughter.]
    General Schoomaker. I wish I could take credit for having 
him come.
    Senator Clinton. Well, now that you're in charge, take 
credit for everything. [Laughter.]
    I would echo Senator Roberts' very kind comments, because I 
know that in positions like this the family also serves, 
particularly the spouses, and even adult children. So I thank 
your families for being willing to back you and support you in 
undertaking these important missions.
    Chairman Warner. Members of the committee, a number of you 
have spoken to me already about, if I might digress from the 
matter at hand. There was an announcement by the press and two 
colleagues in the Senate, that the Pentagon had proposed spying 
electronically on Americans to monitor potential terrorists as 
a new experiment, with similarities to methods used in online 
futures trading market. Our staff are looking into that, and we 
will have a report for all members before day's end.
    Senator Clinton. Mr. Chairman, I want to personally thank 
you for that. I was going to bring that up during the question 
period. I was appalled that we would be, in a sense, setting up 
a futures market in death and destruction, and it is not in 
keeping with our values, and certainly not in keeping with the 
highest ideals of the men who sit before us. I thank you for 
looking into this matter.
    Chairman Warner. Senator, thank you.
    Senator Levin. Mr. Chairman, just a point. My staff looked 
at that yesterday evening. The first reaction was that it was a 
hoax, so it is important that we find out what is the principle 
that could possibly be behind it if, in fact, it is being 
proposed.
    Chairman Warner. I see the nominees suggesting that maybe 
if either or both of them might be questioned. I doubt that 
will take place, and I would advise you to take the question 
for the record, if so asked. [Laughter.]
    Senator Levin. Unless you can tell us it's a hoax, in which 
case feel free to answer it.
    Chairman Warner. We have standard questions which the 
committee chair poses to all nominees in your position. The 
committee has asked our witnesses to answer a series of advance 
policy questions. They responded to those questions. Without 
objection, I will make the questions and responses a part of 
today's record.
    I also have standard questions we ask of every nominee who 
appears before the committee. Please respond to each question, 
then we can move on to the question period and your statements.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    General Schoomaker. Yes, sir.
    General Brown. Yes.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process by the United States Senate?
    General Brown. No, sir.
    General Schoomaker. No, sir.
    Chairman Warner. Will you ensure that your staff comply 
with the deadlines established for the requested 
communications, including questions for the record before 
Congress?
    General Schoomaker. Yes, sir, I will.
    General Brown. I will.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    General Schoomaker. Yes, sir.
    General Brown. Yes, sir.
    Chairman Warner. Will those witnesses be protected from 
reprisal for such testimony as they may give, or briefings?
    General Schoomaker. Yes, sir.
    General Brown. Yes, sir.
    Chairman Warner. Now, we would like very much if each of 
you would address the committee for a brief opening statement.
    General Schoomaker.

     STATEMENT OF GEN PETER J. SCHOOMAKER, USA (RET.), FOR 
  APPOINTMENT AS CHIEF OF STAFF, USA, AND APPOINTMENT TO THE 
                        GRADE OF GENERAL

    General Schoomaker. Sir, Mr. Chairman, thank you very much. 
I will submit a statement for the record.
    Chairman Warner. Without objection.
    General Schoomaker. I would like to say very briefly that 
it's a great honor to appear before this distinguished 
committee today. I am humbled by the opportunity to reenter 
active service and lead our great Army, and I stand ready to 
answer your questions concerning that.
    Chairman Warner. Fine, thank you. Your statement in its 
entirety will be put in the record.
    [The prepared statement of General Schoomaker follows:]

       Prepared Statement by Gen. Peter J. Schoomaker, USA (Ret.)

    Good morning. Mr. Chairman, and distinguished members of the 
committee, it is a pleasure to appear before you. I respectfully 
request that my opening statement be included in the record.
    In over three decades of active service in our great Army, I never 
imagined this situation, especially after retiring in 2000! Service as 
the Army's Chief of Staff is both a tremendous responsibility and a 
matter of duty. My active service in the Army covered a wide range of 
assignments that included extensive joint duty and participation in 
numerous joint contingency operations. I am honored that the President 
nominated me for this important post, and believe that I possess the 
necessary experience, knowledge, and insight to successfully meet--with 
your help--the challenges facing the Army today.
    Today, our Nation is at war and we are a critical part of the joint 
team--an Army at war. September 11 was not the first shot fired in this 
war. In retrospect, we now can see that we have been fighting this war 
for over 25 years. This is a war that reaches to the furthest corners 
of the world--a war for the very survival of our way of life. It will 
be a long fight. As an Army at war, we will experience both change and 
continuity. We must adjust our priorities. We may even need to change 
our culture. In a world where the strategic environment is transformed, 
we should be prepared to even reexamine our fundamental way of 
thinking. At the same time, we need to celebrate our victories. Your 
Army has much to be proud of.
    Today we are deployed and supporting contingency operations at an 
unprecedented pace. The Army has met these challenges, and I would like 
to publicly acknowledge the role of General Ric Shinseki in that. Every 
Chief of Staff stands on the shoulders of his predecessors, and Ric 
Shinseki leaves a proud legacy of leadership and vision for our Army.
    Inherent to the Army is our critical role as a member of the joint 
team. The Army has much to contribute to the fight--and we will fight 
jointly. The Army must develop its capabilities with a joint 
perspective from the very beginning. Capability development begins with 
an appreciation of the future joint operational environment. It then 
proceeds to development of joint operational concepts. Finally, that 
inherently joint concept drives every dimension of our Army: doctrine, 
organization, training, materiel, leader development, people, and 
facilities.
    We are, have been, and will remain a values-based institution. 
Loyalty, duty, respect, selfless service, honor, integrity, and 
personal courage are the cornerstone of all that we do today. Our 
soldiers, who exemplify these values every day, are world class and are 
the epitome of our American character. They voluntarily risk everything 
that is dear to them in defense of the Nation in faraway places like 
Afghanistan, Iraq, the Philippines, Bosnia, Kosovo, and the Korean 
peninsula. Our soldiers, civilians, and their families set the standard 
every day for selfless service. I am committed to their support to 
ensure that we remain the world's finest land force.
    The Nation just celebrated its birthday. The Army's challenge--its 
very purpose--is to guarantee our future birthdays. For over 228 years, 
the Army has never failed the American people, and we never will. 
Building and maintaining an Army is a shared responsibility between 
Congress, the administration, the American people, our soldiers, and 
civilians. Working together, we have kept the Army ready. Threats to 
United States interests continue to adapt and pose new dangers to our 
society. During this time of uncertainty the Army will continue to 
remain a critical part of the joint team--relevant and ready to the 
defense of our Nation.
    In summary, Mr. Chairman, I am honored to appear before you today 
as the President's nominee to a most challenging leadership 
responsibility. I thank the President, the Secretary of Defense, and 
the Acting Secretary of the Army for the trust they have placed in me 
with this nomination. If confirmed by the Senate, I look forward to 
working with this distinguished committee and the entire Congress in 
the days ahead.

    Chairman Warner. General Brown.

   STATEMENT OF LTG BRYAN D. BROWN, USA, FOR APPOINTMENT AS 
    COMMANDER, UNITED STATES SPECIAL OPERATIONS COMMAND AND 
              APPOINTMENT TO THE GRADE OF GENERAL

    General Brown. Senator Roberts, I appreciate your kind 
remarks and the courtesy you have extended to me and my 
family--sir, I really appreciate it.
    Senator Roberts. Yes, sir.
    General Brown. Mr. Chairman, Senator Levin, distinguished 
members of the Senate Armed Services Committee, I'm pleased to 
appear before the committee today, and I'm extremely honored to 
have been nominated for the position of Commander, United 
States Special Operations Command. As an opening statement, I 
will simply say that I fully understand and appreciate the 
enormous responsibility associated with this position for which 
I have been nominated. I can assure you that, if confirmed, I 
will never lose sight of those responsibilities, and that is my 
role as the Guardian of the Special Operating Forces who serve 
this Nation around the world.
    I very much look forward to working with the members of 
this committee, and I am prepared to answer your questions at 
this time. Thank you, sir.
    Chairman Warner. Thank you very much.
    General Schoomaker, in the course of a very memorable 
private meeting that the two of us had, we shared our personal 
experiences and recollections during the period of the Vietnam 
War, when you were on the front lines and I was back in the 
safe confines of the Department of Defense as Secretary of the 
Navy, but nevertheless visited a number of times in theater. 
I'm not going to go into details this morning, but you assured 
me that the lessons learned in that period--actually, you were, 
if I am correct, in Germany during that period of time.
    General Schoomaker. That's correct, sir.
    Chairman Warner. But you experienced the problems which I 
had as Secretary of the Navy with our forces in-country and 
elsewhere, as a matter of fact. You shared with me your own 
depth of knowledge on that subject, and as we observed today, 
tragically, each day it seems like we are losing men and women 
of the Armed Forces to death and, indeed, suffering injuries as 
they very bravely and courageously undertake the missions in 
Iraq. We are both absolutely of the opinion that this war is 
being conducted in the best professional manner that we know 
how. The people in this country should hopefully continue to 
repose a trust and a confidence in the leaders, particularly 
those uniformed leaders handling those troops as these 
operations are conducted.
    We saw recently from time to time soldiers making 
comments--understandably, the pressures of the times generate 
such comments. Soldiers gripe a bit, but in some respects these 
comments went beyond griping, and you assured me that one of 
your very first steps, if confirmed, will be to go in-country 
and to begin to apply your knowledge as a troop commander these 
many years to assist those in command to bring about the 
successful conclusion of this operation at the earliest 
possible moment.
    I assure you that I was greatly reassured by your depth of 
knowledge and understanding with respect to the individual 
soldiers, and the individual soldier's family, and the stresses 
brought upon it, and the difficulty for society to understand 
these continuous losses at this time. So we're fortunate, as a 
Nation, to have you in this position, after the Senate gives 
its advise and consent.
    Now, you had the unique opportunity to observe the Army in 
your previous role as the Commander of the U.S. Special 
Operations Command and from your retired status for the last 3 
years. However, I understand you've maintained a steady contact 
with the Department of the Army, and perhaps the Department of 
Defense, through your participation in numerous panels and 
studies. In other words, you've continued your professional 
service.
    Please outline briefly some of the things that you've done 
in the period of time since you stepped down and now have been 
recalled to active duty, and describe observations you can make 
regarding the Army that you love so much. With no disrespect to 
General Shinseki, who handled his job with a great deal of 
skill and brilliance, or to the current Vice Chief, who I met 
with yesterday, who is going to be stepping down, what changes 
would you hope to bring about, and in what period of time? 
First, what are some of the things that you've been doing to 
keep abreast professionally?
    General Schoomaker. Sir, since I retired in December 2000, 
I've been both teaching and mentoring within the Army. I'm on 
the adjunct faculty of the School for Advanced Military Studies 
at Fort Leavenworth, where I work with several colleagues in 
leading change in a special elective course out there, as well 
as in the normal course. We work both at the War College level 
with the fellows, as well as with the advanced students, the 
second year students out of the course.
    I'm also a senior mentor with the joint warfighting course, 
working with General Gary Lupke at Joint Forces Command, where 
we conduct the joint warfighting modules for all of the new 
flag officers as they come in. It's now been expanded to 5-day 
sessions, and I've worked through the Joint Warfighting Center 
not only in standing up the new U.S. Northern Command 
(NORTHCOM), but also the transition of U.S. Space Command 
(SPACECOM) to U.S. Strategic Command (STRATCOM), as well as 
working with General Tommy Franks and General Gary Herold. I 
have also worked on an internal look at putting the war plan 
together for the most recent combat operations in Iraq. So I've 
had my fingers and my head into an awful lot.
    I would also like to say that I consider the fact that my 
perspective really goes back in the Army to having been born 
into the Army, my father having served 32 years, both enlisted 
and as an officer in World War II, Korea, and Vietnam. I grew 
up in that family with four other boys.
    I have a brother that's a brigadier general today who 
commands Eisenhower Regional Medical Center down in Georgia, 
and who is very involved in the well-being of the families and 
TRICARE and all of the issues that are involved there. I have a 
19-year-old daughter who today is probably doing push-ups in 
Georgia down at the jump school. She's in Army ROTC, and she's 
learning to be a paratrooper, so hopefully we'll greet her in 
another couple of weeks with jump wings on her chest. So I come 
about the Army as a lifelong experience, not only my own active 
service, but my service as a family member and as a retired 
member as well, and I consider all of that important in terms 
of how I view this.
    Chairman Warner. Very definitely so.
    General Schoomaker. I reference the conversation you and I 
had about the terrible struggles we had in the late sixties and 
early seventies in bringing the Army from the Vietnam 
experience into the volunteer Army we have today, and the many 
concerns that we would have in seeing the volunteer Army and 
the volunteer force across all of the Services threatened 
through improper use, management, and leadership. I continue to 
stand behind our discussion that we had the other day regarding 
that.
    Chairman Warner. Well, the theme was that both of us 
experienced the draft Army of Vietnam, and the birth of the 
All-Volunteer Army, and how well that All-Volunteer Force had 
worked. We have an absolute joint view that the All-Volunteer 
Army must continue, but it's like other things in life--it can 
be fractured if over-stressed due to prolonged deployments, to 
family situations which are just put beyond any reasonable 
ability to maintain relationships, the question of the Guard 
and Reserve call-up, the need to maintain a strong Guard and 
Reserve, bearing in mind that persons in those capacities are 
different in that they maintain a very important civilian 
career and are willing to give that up for periods of time in 
order to fulfill their obligations to the Guard and Reserve.
    Those obligations must be recognized to be of a duration 
that enables them to go back to civilian life and regroup and 
return to what they had given up for that period of active 
duty. So again, I say to my colleagues, we have here in this 
nominee a gentleman who has really experienced all of those 
stresses and seen it through these many years, and is able to 
take the situation today, which, while by no means to be 
critical of the current leaders of the Army, is beginning to 
experience some of the stresses that you and I saw during the 
Vietnam period.
    But what changes would you make? Do you have anything at 
this point in time that you want to indicate to the committee, 
or would you prefer to get in the saddle and ride?
    General Schoomaker. Sir, I think it would be fair to say 
that I need to continue to assess the Army, if I'm confirmed, 
and have an opportunity to do my own assessment.
    My instincts tell me that there are things that I need to 
look at, and in preparation for these hearings I've had the 
opportunity to be briefed about many things, and I'm starting 
to form a short list of things that I want to get into 
immediately. I would appreciate your patience in giving me the 
opportunity to do that before I have to speak on the subject.
    Chairman Warner. Agreed, but you indicated that you would 
make at the earliest possibility a trip into theater, both 
Afghanistan and Iraq.
    General Schoomaker. Yes, sir.
    Chairman Warner. Thank you.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman. A critically 
important part of your background, General Schoomaker, is the 
fact that you received a master's degree at Central Michigan 
University. [Laughter.]
    I should have noted that earlier, and I just remembered it.
    General Schoomaker. Sir, I had to have something to do at 
night. I did that on my own dime.
    Senator Levin. General, the United States has almost 
150,000 troops deployed to Iraq, and we're going to have a 
significant presence at or near that level, apparently, for 
some time. A lot of the troops there don't know when they're 
coming home. General Franks said he thought that something 
similar to current troop levels is going to be required for the 
foreseeable future.
    I'm just wondering, how long do you believe that we could 
maintain a significant troop presence in Iraq, given the 
authorized level of 480,000 troops in the active Army? At what 
point might we have to raise the force levels to make this 
situation sustainable in the long-term?
    General Schoomaker. Sir, that's again a difficult question, 
and I'd like to have some time to really assess the specifics 
of it. As we discussed in the office call, I think that this 
isn't just an issue of end strength, it's an issue of 
fundamental organization. The fact of the matter is, we will be 
in Iraq a long time creating the environment there for it to be 
able to transition to peace and the kind of stable nation 
that's able to operate within the kind of values we'd like to 
see it operate. It's going to require presence there, and that 
presence I think, as you've seen, is going to start 
transitioning to other friends that will help us do that.
    But fundamentally, I think it's an issue of what capability 
we have to have there. We could have a lot of people there and 
the wrong capability and not be very effective, and that, I 
think, is my fundamental challenge--to do an assessment of how 
we're organized--do we have the capability packaged properly; 
can we establish a rotation base before we make a decision on 
whether or not we need more people? Because I think we could 
take a lot more people and put them in the wrong places and end 
up with the same problem, and I'd hate to go down that road.
    Senator Levin. As the chairman indicated, the stress on our 
active duty service members and their families has been 
immense. The problem with our Reserve and National Guard 
personnel, who have really been called up for a longer period 
of time than they had reason to expect, are major problems. 
You've indicated you want some time to reach some 
recommendations on these issues, and that's fair enough, but I 
do hope that you would keep in close touch with this committee 
on this. Because this is a major issue in our States and for 
the Nation as to how much stress we can place on our Active-
Duty Forces, and this whole issue that we've now seen with our 
Reserve Forces of being called upon for service for a longer 
period as, I won't say anyone contemplated, but that most of 
them contemplated. So please give that not only your earliest 
attention, which you've indicated you will, but keep in close 
touch with us as to what you see after you've reached some even 
preliminary conclusions.
    General Schoomaker. Yes, sir.
    Senator Levin. General, Congress has authorized separate 
staffs for civilian and military leadership of the services to 
ensure that senior military officers have the staff support and 
advice needed to provide independent military advice. Do you 
believe it is important that the military staff be there that's 
responsible to you so that you can give independent military 
advice, to the Joint Chiefs, the Secretary of Defense, the 
Secretary of the Army, and Congress?
    General Schoomaker. Yes, sir.
    Senator Levin. Do you?
    General Schoomaker. Yes, sir, I do.
    Senator Levin. Okay.
    General Brown, given the increased operational and 
personnel tempo, especially in Iraq, since the Special 
Operations Command drafted plans for an additional 5,100 
authorization command-wide, do you foresee a future requirement 
for additional Special Operations Forces in addition to that 
request of 5,100?
    General Brown. Senator, at this time we have not done an 
analysis that would say we need more than the 5,100 that we 
will grow between now and the 2009 time period. As we work 
through what the future brings and we take a look at the 
emerging missions, we may have some shortages in specific areas 
that we would then try to address, but right now we think the 
5,100 looks good.
    Senator Levin. Relative to weapons of mass destruction site 
exploitation in Iraq, can you tell us how the Special 
Operations role now differs, or how does it relate to the Iraqi 
Survey Group's (ISG) operations, the group that's led by 
General Dayton?
    General Brown. Yes, sir. We still have the capability. In 
the early days of the war we did many sensitive site 
exploitation missions to get out on the ground quickly and 
assess what exactly was at those sites, and of course from 
those sites we brought back a lot of evidence. We brought back 
computer disks and materials that were then turned over to U.S. 
Central Command (CENTCOM) for analysis.
    Today, because of the standup of the ISG, we're doing a lot 
less sensitive site exploitations, but we still have the 
capability, and we can move quickly if required to get out to a 
sensitive site exploitation that the ISG might not be able to 
move quickly enough to get to. Our aircraft are still there, 
our people are still there.
    Senator Levin. Thank you, General.
    Chairman Warner. Before going to Senator Sessions, General 
Schoomaker, I copied down your statement about Iraq. You said, 
``We're going to be in Iraq a long time.''
    In the course of your response to other Senators, I might 
ask you to refine that comment, because very definitely it is 
the desire of our President and the leaders and heads of State 
governments of the coalition forces, that we're there no longer 
than necessary to turn that country over to the Iraqi people. 
Part of that is the construction of a whole political system of 
government that they are in the process of now forming, the 
councils, and that's transitioning to a team that will write a 
constitution, that would transition to a national election. At 
the same time, efforts are being made to stand up their own 
military force, which presumably can give them security within 
their borders and perhaps such forces as may be needed to 
respond to threats coming from beyond their borders. So you 
might want to revisit that statement as you go along in your 
responses.
    General Schoomaker. Yes, sir.
    Chairman Warner. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman. I share your 
thoughts on Iraq and yes, I have no doubt that we will have a 
presence there of some kind. The question is, will we have 
148,000 troops or hopefully less as time goes along? We do 
believe that we should be there no longer than possible, and 
something I've raised and talked about a good bit recently is 
the training of local Iraqis to be a military and to be a 
police force. Will you give attention to that issue, and would 
you be prepared to request additional funds for training of 
Iraqis to be an effective Iraqi National Army?
    I would just note we could probably pay well 20, 30, 50 
Iraqis for the cost of one American soldier. Quite a number, I 
would assume. So do you have any thoughts about that question, 
and could that help us reduce our presence?
    General Schoomaker. Sure. First of all, I take no issue and 
I fully support the line of thinking with the chairman and you 
in terms of how you described that.
    I think that what I am trying to do, and understand that 
I'm limited in what knowledge I have right now and access to 
the specifics. But I'm being considered here for a position as 
the Chief of Staff of the Army, to be a force provider to the 
combatant commander. The combatant commander I'm sure would 
agree with you that we would like to see ourselves transition 
in the shortest period of time with the least possible cost to 
the Treasury and lives and all of the things that all of us 
agree with.
    But as the Chief of Staff of the Army, and somebody that 
has to think about how we're going to resource this, I have to 
think worst case. I have to think about how we plan and think 
through sustaining a long-term commitment there. I think if you 
take a look at history, and our experience in the Balkans and 
elsewhere, you will find that thinking in the short-term isn't 
the way to go, in my opinion, from the position that I am being 
considered to assume, and so that's where my statement was 
coming from.
    I assure you that this is really an important matter to the 
Army, because we are going to be the well to which people are 
going to be coming for these kinds of things. Because it's 
within the core competencies of the Army that we are looking, 
and so both of you, in my opinion I take no issue with either 
statement, but I think it would be foolish not to think about 
the worst case scenario from the position that I'm being 
considered for, and that's where I was coming from on that.
    Senator Sessions. I appreciate that, General, and I 
remember Senator Levin and I being in Kosovo not long after the 
hostilities occurred, and there were plans to train a local 
police force and security forces. That has not occurred, and 
that's the reason we're still there. I really believe that 
somebody somewhere deserves some criticism for failing to 
create an indigenous government and security force that would 
allow our troops to leave. I believe we have 41,000 still left 
in Bosnia, or Kosovo, and that's far too many in my view, in 
that area of the world.
    But I know you're committed to transformation of the Army 
and making it as capable and responsive to future challenges as 
possible, and to identify what those challenges are. Your 
experience in Special Operations I think gives you a special 
insight into this new kind of warfare that we're dealing with.
    What's your basic thinking about this transformation 
agenda? Is it on course? Do we need to speed it up, or slow 
down? What are your thoughts on that?
    General Schoomaker. Well, first of all I think we have to 
think of transformation as a continuing process. I think the 
Army has been transforming for its entire history. We've always 
embraced change, and at the same time we've looked for the 
continuity in our values and the kinds of things that are very 
important.
    I spent my life--I had a career both in the conventional 
force and in the Special Operations Forces, and I can tell you 
that the performance of the Special Operations Forces today 
that you've seen and all of us are so proud of is a return on 
an investment over a quarter of a century of transformation of 
those forces. So I don't expect that we're going to be able to 
do the kind of transition to the future of the Army over a 
weekend. I think that there has been a tremendous start that 
goes back to several of my predecessors on the kinds of things 
that we're looking at to transform this Army to be relevant to 
the future, and I think on my watch I'm going to have to stand 
on their shoulders as we go forward and do the kinds of things 
that I can bring to the table on it, so it's a long-term thing.
    I think that the way I think about transformation is, it 
will never be an objective. As I discussed with you, I think in 
terms of a current force, and I think in terms of a future 
force, and I think we're always in motion. Where we're working 
the hardest is at the intersection, the overlap of those two, 
where we are bringing technologies, and we're bringing 
concepts, and we're bringing organizations and doctrine 
together to get the most out of our current force and leverage 
the kinds of things we see as we go to the future and organize 
ourselves and think appropriately about the kinds of things 
we're going to be asked to do. So it's a daunting challenge, 
and it's one that's not going to happen over a weekend.
    Senator Sessions. It is a great challenge, but we have made 
a lot of progress. I think our military is so modern, it brings 
in modern management techniques, modern computer abilities, all 
kinds of high-tech capabilities. Those are the things that 
allowed our soldiers to be so effective on the battlefield at 
the NATO assembly for parliamentary members. The French 
Rapporteur reported on the war, Mr. Chairman, and he said that 
the first and overriding conclusion is, a highly trained 
technologically advanced Army can defeat a much larger force 
using old methods. So I congratulate you, because you've saved 
thousands of American soldiers' lives by being transformed. 
You've saved thousands of civilian lives in Iraq, because we 
were able to move quickly and decisively, and even reduce the 
number of enemy soldiers that ultimately had to be killed. So I 
think it's good, and I know that your vision for the future is 
strong.
    General Brown, let me just ask you this. The Special 
Operations Forces performed so well in Afghanistan and in Iraq, 
could you share with us some of your thoughts about the role 
they play, some of the successes in Afghanistan and Iraq? I 
know you were commander there at Special Operations Forces at 
Fort Bragg, and during that period your son was there, and your 
other sons were in the 82nd, your sons-in-law. Do you have any 
thoughts about where we are and where we need to go in the 
future with Special Operations Forces?
    General Brown. Thank you, Senator. I think the first thing 
that comes to mind is that a lesson learned from both 
Afghanistan and Iraq is that SOF need to get on the ground 
early, and when we did that both in Afghanistan and Iraq they 
were much more effective in what they had to do as they built 
forces.
    This was the largest deployment of SOF in the history of 
Special Operations. At one time we had over 14,000 SOF folks 
deployed out of a force structure of about 47,000, so SOF is 
integral on this battlefield. I thought the plan that was 
devised for Iraq that gave large portions of that country to a 
SOF and allowed them to use the abilities that Special 
Operations Forces bring to the table over large portions of 
areas of responsibility was absolutely fantastic. Once we got 
on the battlefield, the SOF were fantastic.
    I will tell you the number one lesson learned and the most 
important thing about Afghanistan and Iraq in my opinion is 
that it proved--we have a saying in Special Operations that 
humans are more important than hardware, and it proved again 
the ability to attract, recruit, train, assess, and retain 
Special Operating Forces. People with those skills are critical 
to success itself on this battlefield, and any other one.
    Senator Sessions. Thank you.
    Chairman Warner. Thank you, Senator.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman, and 
welcome, General Schoomaker and General Brown. With all due 
respect, I really came to thank Sergeant McCoy and Captain 
Leahy for their service. Sergeant McCoy is a veteran of D 
Company, Second Battalion, 504th Infantry, and in 1976 I 
commanded that company. He is living proof that the 
paratroopers are better, they're taller----[Laughter.]
    --smarter, and we're still very proud of them, so thank 
you, Sergeant.
    General Schoomaker, it's no secret that there was a certain 
degree of tension between General Shinseki and the Secretary of 
Defense. You're going into a position which requires not only 
the confidence of the Secretary of Defense, which I'm sure you 
have, but also the confidence of everyone in the Army, which I 
assume and expect you will get as well. But there certainly is 
a different perception today about the relationship between the 
Army and the civilian leaders of the Department of Defense. Can 
you comment on that, and your perspectives going forward? How 
do you think you're going to dispel any lingering rumors?
    General Schoomaker. Well, sir, first of all I can't speak 
to the specifics of what's gone on in the past that I wasn't 
witness to. But like you, as a private citizen I know what the 
perceptions are, and I saw the things that the media reported. 
When I was asked to consider returning to active duty and to 
take on this job, that was one of the things that was on my 
mind. Since the Secretary of Defense is the one that asked me 
to do this, that was one of the first things that we discussed. 
I'm convinced through our discussions and our subsequent 
dealings that we have an open and candid dialogue, and that we 
have come to an arrangement where we can agree to disagree, and 
at the same time understand what the chain of command is. I'm 
very comfortable that he's going to hold to his word, and I 
know I'll hold to mine.
    Senator Reed. Thank you, sir. I think that's the important 
point to begin your service.
    One of the innovations that began several years ago was the 
Stryker Brigades, and they are poised now to begin their first 
operational deployment. Can you comment on that, and also 
additional changes that you anticipate--for example, less 
reliance upon division headquarters as organizing elements, and 
more on separate brigades?
    General Schoomaker. Sir, the Stryker Brigade falls in my 
view in that area I was talking about the intersection of the 
current force and the future force. I think it's going to give 
us some tremendous insights into an Army with the capability to 
be much more strategically agile, where we can truly maneuver 
at operational distances. Ironically the Stryker Brigade that 
we're going to deploy, and I've looked at the organization, has 
more infantry in it than the heavy brigades that we're 
replacing with it, which in an environment like we face in Iraq 
right now is particularly useful.
    So there are some things there in terms of its strategic 
agility, its tactical mobility, its relevance, and in terms 
things that we're facing today, I think the Stryker Brigade is 
going to be very interesting.
    But there are two things that are really important, and 
General Brown touched on one of them. The Army is people, and 
our ability to retain and train, and to advance these 
tremendous people that we have, these soldiers, not only train 
them for certainty but educate them for uncertainty, and to 
create the human element that are problem solvers, the kinds of 
problems that you see them solving every day on the streets of 
Baghdad and elsewhere, is fundamentally important.
    The second thing that's important is that we leverage the 
technologies that allow us to network and operate in a 
networkcentric environment. The reason an Operational 
Detachment Alpha (ODA), a Special Forces A Team, can kill more 
tanks sometimes than what you'll find perhaps in an Apache deep 
attack or something, is the fact that they have a radio that is 
jointly netted that allows them to call on the entire 
Department of Defense.
    They don't care where the effects come from in destroying 
these targets. All they care about is that they arrive on time 
and with the precision that's required to do it. So it goes 
back to the question that I was talking about a while back. 
This isn't all about how many people you put on the 
battlefield. It depends upon what capabilities you put in 
there, and their ability to move about and be relevant at the 
time and place of your choosing to do the kinds of things that 
we need to do--not only in battle, but in winning the peace.
    So these are the kinds of things I think conceptually that 
we have to get our head around, and make sure that we resource 
properly. Because it isn't just an issue of wheels versus 
tracks, platforms, what kind of a cannon, what kind of an 
armored personnel carrier and a tank that we have. It has a lot 
to do with how we bring the whole team into the fight in a very 
agile way on a strategic basis.
    I'm sorry to go a little long on that, but it's a very 
comprehensive issue, and this is the way we're going to 
approach this if I'm the Chief.
    Senator Reed. Let me ask one additional question, General 
Schoomaker, before I ask General Brown a question, and that is, 
we have all noticed that particularly in Iraq we're suffering 
casualties where high-mobility multipurpose wheeled vehicles 
(HMMWVs) are engaged either by RPGs or by grenades. Is that 
causing you to relook at the type of mobility equipment we have 
in Iraq to give our soldiers more protection?
    General Schoomaker. Absolutely, but I will tell you that 
the physics of the point are that the tactics and your 
procedures have a lot to do with all this. We could put tanks 
in position that they could be vulnerable as well. You and I 
had the conversation about the up-armored HMMWVs, and this is a 
matter of programming and affordability, and the whole issue of 
management and how to get those, and soldiers deserve that. We 
should give them the very best that we can, but nevertheless, 
they have to also be used in a manner that's commensurate with 
the environment which they're in.
    I played football in college, and that doesn't get you much 
more than a cup of coffee sometimes, but I played for a very 
successful team. I played for a guy by the name of Fritz 
Shurmur, who took the Green Bay Packers. He was a big NFL 
defensive guy, and he taught us that there are more ways to win 
on defense than there are on offense. You can score more ways 
on defense than you can score on offense, and part of this 
whole deal is the offensive mindset, even in a defensive 
posture, and how your tactics, techniques, and procedures 
operate so that you keep the enemy, your opponent, off-guard, 
and do things.
    So again, I'm going long, but I don't think there are just 
pure technological solutions to all of these problems. I think 
this is a thinking man's game. It's one that has to change all 
of the time. It's a leadership business, and while I'm 
committed to making sure that we design and develop and train 
the very best forces we can, we also have to be hand in glove 
with the joint force commanders to make sure that our doctrine 
and the rest of it evolves to maximize the potential of what we 
field.
    Senator Reed. Thank you, sir. My time has expired. General 
Brown, we had a chance to chat yesterday, and I have every 
confidence that you're going to do an extraordinary job as well 
as General Schoomaker to lead the Army.
    General Brown. Thank you, sir.
    Senator Reed. Thank you very much.
    Chairman Warner. Thank you, Senator.
    Senator Talent.
    Senator Talent. Thank you, Mr. Chairman.
    General Schoomaker, I have first of all what I think is a 
very important question I need to ask you if we're going to 
have a strong relationship in the future. How do you pronounce 
your name, because I've heard Senators pronounce it Schoomaker 
and staff Schoomaker, and normally I would assume the staff 
knew better than the Senators.
    General Schoomaker. First of all, the only one that cares 
is my father. It's Schoomaker. It is as though it were S-k-o-o.
    Senator Talent. That's easier, because that's how it's 
spelled.
    There's just one subject I want to go into with you. It's 
one of the reasons I wanted to be certain to be here and be 
able to ask you the question. I have some history on the whole 
issue of end strength, because I went into the House in 1992, 
and went on the House Armed Services Committee at that point. 
Even as a freshman, knowing as little as I knew then, I could 
see that that was an issue, because we had drawn down the force 
and the active Army from 780,000-plus troops to 480,000--plus, 
and at the same time tempo of operations (OPTEMPO) was going 
up. It seemed to me even as a freshman that this was creating a 
disequilibrium that would have a danger of breaking the force 
and perhaps threatening national security. Obviously OPTEMPO is 
even higher than it was then, and I complained about it, I made 
a lot of points about it in the last administration and I've 
been doing the same in this one.
    Now, I'm also a believer in transformation, but I want to 
make certain that transformation is a way of accomplishing the 
National Military Strategy, not an excuse by which we console 
ourselves while we're not accomplishing it, and I want to know 
your thoughts on the whole subject of end strength. Senator 
Reed mentioned that it's no secret there was tension between 
General Shinseki and Secretary Rumsfeld, and I think there's no 
secret that part of the tension was a disagreement on that 
issue.
    What do you think of General Shinseki's evaluation that we 
needed 20 to 40,000 more people in the active Army, at least to 
round out some of the specialties like military police (MPs) 
and civil affairs? Are you at a point where you can make an 
assessment? How great a priority is it for you to be able to 
make that assessment?
    General Schoomaker. First of all, I do need to have time to 
formally assess this, but I'm going to take a little risk here 
and I'm going to tell you that intuitively I think we need more 
people. I mean, it's that simple.
    But the problem is that we haven't taken a hard look yet at 
how we can rebalance the active component, Reserve component 
mix. Much of this has to do with availability. There are many 
things that we know that we have to have readily available in a 
contingent kind of environment. For instance, port opening 
units, which are all in the Reserves, need to be more available 
to us, so some of that needs to come across in trade.
    My point earlier was that before we just add a very 
expensive component on top of our current construct, I think we 
need to take a look at rebalancing and make sure we know where 
we want to put additional people if we need them. In the Army, 
the figures I've looked at planning wise is something like 
$60,000 a face for an active enlisted soldier. That's an 
important price, and it's one the Army cannot absorb from 
within its Total Obligation Authority, and it would have to 
come with the moneys attached.
    So I think this is an important enough thing that we need 
to take a good look at it. It's one of the things that clearly, 
if I'm confirmed, we're going to have to look at immediately, 
and it has to be done within a context that says, what is a 
relevant Army, how should it be organized, how does it fit the 
joint doctrine, what do we need immediately available, and how 
should it be packaged? We shouldn't be trapped in our old 
construct. If the old constructs work for us, fine. If they 
don't, we need to modify them, and then make a decision about 
whether the Army is big enough.
    Senator Talent. I very much appreciate your candor. It's a 
tremendous relief to me that you're willing to engage in it 
here at the outset. I'm one of those people, and I guess in the 
minority, who believe that we can rely consistently and perhaps 
indefinitely more on the Reserves than we have. I mean, my 
sense of it is that particularly in a time of war they will do 
what we are asking them to do, and we can maintain retention, 
but I don't want to do that by default. I don't want to do that 
because we're unwilling to confront the situation with the 
active Army, so therefore we rely on the Reserves because we're 
not willing to increase the active Army.
    Well, you've answered my second question. I wanted your 
assurance that as General Shinseki did, and regardless of 
whether we or anybody else agrees or disagrees, that you'll 
always give us your best professional opinion on that subject, 
regardless of what others in the chain of command may think. We 
can't do our job here without getting that from people in your 
position, and you've relieved my concern in that respect, I 
appreciate that.
    General Schoomaker. Thank you, sir.
    Senator Talent. Thank you, Mr. Chairman.
    Senator Sessions [presiding]. Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    General Schoomaker, my State does not have an active base, 
so the Reserve and the National Guard are our A Team. All the 
active bases are in States like Virginia, Michigan, Alabama, 
Hawaii, Nebraska, and Georgia. We are going to change that 
hopefully. [Laughter.]
    So I am a cosponsor of Senator Graham's, my colleague 
across the table there, his proposal to make the health 
benefits for the Reserve and the National Guardsmen and women 
full-time, since so many of them are now being called into 
service almost full-time.
    I know there are some bean counters in the Pentagon who 
have concerns about the cost of that, and I recognize that. But 
I'm persuaded that that would be a very valuable way of 
retaining reservists, guardsmen and women, and particularly 
their spouses and families who might not be thrilled with the 
increasing absence away from their homes and their careers. So 
I guess, not to put you on the spot or anything, but I would 
ask if you would at least give that your most serious 
consideration.
    I think that there is a failure, at least in part, to 
recognize the real, overall value--cost savings, even--of 
maintaining these people, and this would be a very effective 
way of doing so. In addition, I think providing a benefit that 
would be of enormous value to these patriotic men and women and 
their families who are enduring this also on their behalf.
    General Schoomaker. Yes, sir.
    Senator Dayton. Another matter that has concerned me, in 
this order, has been the successor to the Crusader cannon, and 
Senator Inhofe has been a prime mover on this. I have been 
pleased to work with him. Do you have a sense of what the 
future holds for this son of Crusader, as yet unnamed?
    General Schoomaker. Are you speaking of the NLOS, the non-
line of sight cannon?
    Senator Dayton. Exactly.
    General Schoomaker. Which is part of our consideration on 
what was known as the Objective Force----
    Senator Dayton. Exactly.
    General Schoomaker.--part of that system of systems, and to 
the best of my knowledge, it continues to be conceptually part 
of that system, and is being developed as part of that system.
    Senator Dayton. Well, I was privileged to see the first 
prototype of that system in Minnesota just the weekend before 
last. The target date is 2008, and there was a concern 
expressed that that date was not going to be held to, and that 
slippage to 2010 or later might be in the unwritten game plan 
now.
    That would leave quite a void in that period of time, in 
terms of the Army's arsenal from what we've been told here. I 
want to express the concern that if that slippage in the 
timetable is somebody's secret intention, that that be made 
explicit to us in the very near future so that we can have that 
debate or discussion very soon, and above-board, not after the 
fact.
    General Schoomaker. I'm not familiar enough with the 
details to comment on it now.
    Senator Dayton. I would ask that you look at that, please.
    General Schoomaker. Yes, sir, I will.
    Senator Dayton. Give us your particular views on whether 
that timetable is going to be official policy and practice or 
not.
    General Schoomaker. Yes, sir.
    Senator Dayton. General Brown, Brigadier General Harrell, 
who was Commander of Special Operations in Iraq, now has 
described this article as saying--and I'm quoting here--he's 
talking about the precedent-setting scope of Special Operations 
in Iraq under his command. He says, ``I've characterized it as 
the largest since World War II. In actuality, I suspect it's 
probably the largest one we've ever done.''
    Is this unique to the circumstances in Iraq, or does this 
presage the expanded role of Special Operations in the future?
    General Brown. Senator, I think immediately it was to the 
fact that we were also doing Afghanistan and Iraq at the same 
time, and in fact could be contributed, or attributed to the 
battle plan that was drawn up and the use of Special Operating 
Forces.
    I think you will see a more active role for Special 
Operations in the future, but I think in this specific case it 
was based on the war plan that was drawn up for Iraq.
    Senator Dayton. Thank you.
    General Schoomaker, Secretary Rumsfeld just recently issued 
a memorandum in which he says in part--it's dated July 9, 
2003--that there are three principal objectives he wants to 
achieve. The first is listed as the structure of the Active and 
Reserve Forces to reduce the need for involuntary mobilization 
of the Guard and Reserve, and structure forces in order to 
limit involuntary mobilization to not more than 1 year every 6 
years.
    How far away are we from being able to achieve that 
objective?
    General Schoomaker. I don't know. I'm very familiar with 
the memorandum. I know that's something that the Army staff is 
working on. It's fundamental to the rebalance issue, and I'd 
like to say, when I was in the position that General Brown is 
going for, we had civil affairs there, that I think the balance 
is still about the same.
    We had 25 battalions of civil affairs at U.S. SOCOM, 24 of 
which were in the Reserve structure, and up to the point that I 
retired, to the best of my knowledge we had covered all 
commitments--you may remember, we deployed almost 80 percent of 
that force and never had to involuntarily deploy anybody. It 
was totally done by volunteers. I think the robustness and the 
willingness of much of our Reserve structure was a lot of it. I 
think it was very commendable. I don't think we can count on 
that forever in that way, and I think this rebalancing, as 
Secretary Rumsfeld has asked for, is a very important 
initiative. It goes back to the fundamental issue that we 
talked about a minute ago, and that's end strength and the 
military occupational specialty (MOS) rebalancing.
    Senator Dayton. I certainly agree with you, sir. The 
willingness of men and women to serve in times of need, and 
their patriotism, and the willingness of their families to 
support their doing so is just phenomenal. We don't want to 
stretch that beyond what we can reasonably expect, and it also 
again goes back to the health benefits. I think it's very 
important that we give proper recognition and reward in ways 
that make a difference in the lives of those men and women and 
their families. I would recommend that again to you.
    I just would close then, since my time has expired, and 
just commend to your review also this current week's Newsweek 
Magazine on August 4. It talks about wives and officers of the 
Third Infantry Division (ID) who were on duty in Baghdad 
listening impatiently to the speeches at a redeployment meeting 
at the base. They all had the same question, when is my husband 
coming home, or spouse--women are over there too, but this is 
the way the quote read--but the Army had other messages. Here 
is some of the advice they received:
    ``Don't have too much beer in the fridge, he's in no shape 
to get drunk, put away the sexy negligee, he probably won't be 
in the mood, don't have lists of chores waiting, he will be 
physically and emotionally spent, and then one more piece of 
advice, don't get your hopes up.''
    A few days after the meeting in May the homecoming was 
postponed and then later postponed again, and the final thing, 
if you're unhappy, keep it to yourself. In the e-mail to family 
members the Second Battalion's rear detachment commander 
cautioned them against contacting elected officials or the 
press, ``in a negative manner regarding the military in this 
deployment of their loved ones.''
    I hope you'll instruct your subordinates to review the kind 
of support that they're giving to the families whose members, 
husbands, or wives are deployed, because I think this is an 
appalling failure to provide the kind of sensitive and I would 
think constructive support that those families are certainly 
entitled to.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    First of all, as I've told each of you privately, we 
appreciate the great job you've done for our country and that 
you continue to do for our country, and it's very comforting 
and exciting to me to see a man like you, General Schoomaker, 
who is willing to come back and serve your country once again. 
I appreciate both of you.
    Senator Nelson and I have been concentrating within the 
Personnel Subcommittee on confronting some issues relative to 
quality of life, and in particular, issues dealing with 
families of our men and women. Senator Dayton just read that e-
mail comment regarding some members of the Third ID and the 
Fourth Infantry, and of course my State is very proud to be the 
home of the Third ID at Fort Benning and at Fort Stewart. I've 
had the pleasure of not just seeing off some of our men and 
women, but having the opportunity to visit with their families 
while they're gone.
    I'll have to tell you that there are a lot of our families 
who are dedicated to the military and great patriots who are 
really upset, not just about the scenario that Senator Dayton 
referred to of getting promised not two times, but now three 
times that their husbands or their wives were coming home, and 
that's been put off, but just the OPTEMPO in general. There's 
story after story of wives who say that their husbands have 
been gone 17 out of 20 months that their children have been 
here, and that when their husbands come home, that they're 
going to have to look seriously as to whether or not they stay 
in.
    General Schoomaker, I'd appreciate your comments on the 
OPTEMPO, what you think we need to do or can do with respect to 
slowing that down so that we can give our military families the 
quality of life that they deserve, and at the same time protect 
America and protect freedom. Because those folks know that when 
they signed up they were committing to do a job, and they're 
willing to do it, and certainly will do it. But obviously 
OPTEMPO continues to be a problem.
    General Schoomaker. Well, Senator, I think that we're going 
to continue to face a future where we're going to have these 
kinds of demands on our forces. I go back to the fact that this 
all has to be done within the context of rebalancing, and that 
we shouldn't deploy anything more than we need. We should 
always be thinking in terms of how we maintain that balance and 
that we don't get ourselves stuck in the kind of cookie cutter 
and template solutions to all of these issues.
    We've spent most of our life sleeping on cardboard boxes 
and meals-ready-to-eat (MRE) cases on cold hard floors in 
barracks all over this world, and have spent a lot more days 
away from our beds than we've spent in our beds. Our families 
have grown up doing this, and I'm talking about the two of us 
that are sitting up here. We're just like everybody else.
    The thing that has always amazed me is the resilience of 
the Army family and of soldiers when they face a tough 
challenge. I bring this up because we cannot offer everybody 
certainty about what their future is. It's a very ambiguous 
future that we look to, and we ought to be very careful about 
the expectations we give people.
    I think that's the most difficult part of this, is when we 
give people expectations that we can't meet. It makes it much 
more difficult than it does telling people that we have a tough 
job to do and we're going to have to hang in there together to 
do it, and I think that's at the root of what we've seen in the 
Third Infantry Division, the fact that they've been told one 
thing and another. Not maliciously, and not because there's 
anybody that wanted to harm anybody, but the fact of the matter 
is that there were some expectations developed that couldn't be 
met for whatever reason, and as a result you start yanking 
people around.
    I think that's very difficult. It aggravates what's already 
a very difficult commitment that these people have made, but I 
am very confident from my own experience and from what I know 
about the great people we have in the Army, that our soldiers 
and their families continue to be very dedicated servants of 
this Nation, and I think that we can work this and sort it, and 
I think we will continue to get great service from them.
    Senator Chambliss. General Brown, you indicated to me 
yesterday that you're not going to increase your number of 
Rangers, but your folks are going to be called on more and 
more, and you're going to have this same problem. Do you have 
any comments on that?
    General Brown. Sir, right now, as we mentioned earlier, 
we're going to grow about 5,100 people. We're going to fill out 
some of the nagging shortfalls that the Rangers had. We're 
going to add some enablers, some logistics support, and some 
things that will help as we go through these deployments, and 
so I think we'll continue to be called on.
    Our OPTEMPO over these last 2 years has been pretty 
extreme. We have at one time most of our aircraft, some 
stationed down at Hunter Army Airfield with the Third Battalion 
160th Special Operations and our Rangers. Just about every one 
of our MH-47s were deployed overseas. We kept just enough to 
keep our school running so we would have some for the future.
    We are going to solve those problems. We're adding in some 
of those key areas where we have really had OPTEMPO problems, 
and that's where, in concert with the United States Army, we're 
building a new MH-47E Battalion that will reduce some of the 
strain on those.
    In our Air Force component, we're going to add some C-130s 
with the ability to refuel helicopters. We're adding additional 
civil affairs folks and some psychological operations folks, 
and all of this based on our analysis of what we need for the 
future to ensure that our OPTEMPO that you have to have some 
sort of a sustaining base to continue ops like we're operating 
right now.
    Our OPTEMPO today, based on the downsizing of the forces 
that we've had in Iraq and Afghanistan, is manageable except in 
some civil affairs areas where we're working very hard to 
reduce that OPTEMPO, and additionally, in some of our Special 
Forces units, our traditional Green Berets. If nothing else 
comes up on the scope in the immediate future, we'll be able to 
get all of our aircraft back online, and get them all 
reconstituted. Then as we go through the next 4 or 5 years and 
continue to build this force structure I talked about, to 
include these enablers, I think it will be a great success for 
helping us with the OPTEMPO problems we've experienced over the 
last 2 years.
    Senator Chambliss. With all due respect to my friend from 
Minnesota, before we go building any bases up there, we have a 
lot of room to expand at our six Army bases in Georgia that 
we're very proud of.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    General Schoomaker, I am concerned, and so is the 
committee, about the many challenges that the Army faces over 
the next few years. Specifically, I wonder about the Army's 
ability to take on what I consider to be major changes to the 
way it currently does business while continuing to support 
large numbers of deployed forces around the world.
    Some of these challenges include reconstituting and 
retraining forces returning from operational deployments. I 
just spent a good day at Fort Bragg seeing what they're doing 
there. Also, returning in significant numbers are foward 
deployed forces to new continental United States home 
situations, implementing unit manning initiatives, 
incorporating unit set fielding, continuing recapitalization of 
major equipment, and continuing to implement changes in 
installation management.
    In your opinion, what is the largest risk associated with 
trying to do all of this at once, and are there aspects that 
you think may need to be delayed or restructured?
    General Schoomaker. Well, first of all, I share your 
concern about this daunting challenge. I've been briefed in 
preparation for this, and as I look up this mountain it looks 
huge, and quite frankly, I'll tell you honestly that I just 
can't at this stage give you any expectation that I can sort 
all that out. I'll tell you I'll do the best I can to do it.
    I also know that the Army can't stop doing what it's doing 
and take a time out to do this. It's going to have to do it on 
the run, and it means that we're going to have to take some 
risks inside of it. We're going to have to change some things 
in this culture and the way we think about doing business, and 
we'll probably go down some roads that we will wish we hadn't 
gone down in this process, but we can't not do it. The 
alternative is not acceptable.
    Right now, we have about 33 brigades in the Army. We have 
23 of those brigades committed in some form or fashion right 
now. We cannot sustain an Army that way indefinitely, with a 
rotation base of that nature. If we add more people to each of 
these brigades, it doesn't solve the problem. So we have to 
look at this in a context that's comprehensive, and we have to 
come up with a base that allows us to be more modular.
    We have to leverage joint resources. We have to be more 
agile, and work in a way that we can establish this sustaining 
base for all of our commitments, not just in areas like Iraq 
and Afghanistan, but our forces in Korea, and the kinds of 
things we're going to do to sustain forward deployed forces in 
Europe all have to be in it. So these notions of unit manning, 
looking at the personnel system, how we educate and train, all 
of these things have to be looked at across the entire force in 
terms of what we're going to do.
    Again I tell you we don't get to huddle up in this. I mean, 
this isn't a soccer game, there's no time out in the deal, or 
ice hockey, whatever your preference is, and we're going to 
have to do this as we continue to serve the Nation. It is a 
daunting task, I won't argue with you. I guess I'm telling you 
I share your concerns, and I'll do my very best to deal with 
it. I have a lot of good professional help, I'll tell you, in 
the Army, and here in this institution.
    Senator Akaka. I want you to know that we're looking 
forward to working with you on these matters.
    Also, because I've been in the Subcommittee on Readiness 
and Management Support here, I've been very jealous about 
readiness programs to be sure that we can support the programs 
that you need. One of the most challenging roles for our 
military is providing readiness ranges, places where our forces 
can work out their strategies. I'm sure you'll find as you 
assume your new responsibilities training areas suitable for 
modern forces, and these ranges are in short supply.
    I understand the Army has expressed an interest in 
acquiring additional land to expand maneuvering space at 
Kuwakuloa training area on the big island of Hawaii. The 
Kuwakuloa training area offers one of the few training areas 
potentially available for expansion in the Pacific region. What 
are your views on such action?
    General Schoomaker. Well, I'm not familiar with the area 
that you're talking about, but as I tour the Pacific region 
I'll certainly take a look at it and get more familiar with it.
    Fundamentally, to operate the way we're going to have to 
operate in a joint context, we're going to have to look at more 
expansive areas, not just for things like tank gunnery and 
artillery firing and things like that. From the standpoint of 
being able to maneuver these forces over the kinds of 
operational distances we expect to operate, some of the 
insertions into Afghanistan were 900 miles one way, and we have 
to have the ability to practice the kinds of things that we 
will do on those kinds of things.
    The maneuver that you saw in Iraq was over distances that 
far exceed our current training areas, and the contiguous 
nature of those training areas, yet those are the challenges, 
and sustaining over those distances, maneuvering, commanding, 
doing battle command over those distances, the logistics of it 
all, we're going to have to find it.
    Now, what we're dealing with is an area where we have to be 
good environmental stewards. We have to deal with the fact that 
the areas are in short supply in many places. We're going to 
have to be creative in how we put these kinds of things 
together, so I guess I'm agreeing with you that this is one of 
our fundamental challenges.
    I don't think we're going to be able to go out and purchase 
or expand just acreage. I think we also have to be creative on 
how we use that acreage and how we link it through some of the 
technologies that we have so that we can do distributed 
training, link it through simulations and network battle 
command, and be quite creative on it, but it's going to 
continue to be a challenge to us.
    I guess that's about all I have on that. It is a concern I 
think we all share.
    Senator Akaka. Thank you for your response.
    Thank you, Mr. Chairman.
    Senator Sessions. Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    General Schoomaker, it's good to see you again. I 
appreciated our visit a couple of weeks ago. General Brown, 
welcome, it was a nice brief meeting yesterday. It's good to 
have you with us to address the questions regarding special 
operations worldwide.
    General Schoomaker, you've already referred to what's ahead 
of you as a daunting task. In some respects, it might be easier 
to face a task that is doing more with less, but you're faced 
with doing more in an area of change and transformation and 
transition at the same time maintaining current capabilities. 
It's an even more difficult version of a daunting task than we 
often face.
    In the midst of all that, in the discussion about 
deployment--I won't go back over the difficult stories that 
have been expressed, and I get the correspondence, I get the 
contacts as well about families that are worried about lengthy 
and numerous deployments, but with questions that are more 
centered on when is the end point, when will they return, and 
when can I know when they will return.
    The military personnel ask it, perhaps in a different way, 
but their point is similar, and that is, if I'm going to go on 
a deployment, I ought to have some idea of when it may be 
designed to end. It could be extended, it could be changed, but 
something that's never-ending has no terminal point, and I 
think that's the uncertainty that's causing a great deal of 
concern.
    I did see, and looked closely at the plan of redeployments 
and rotation. I think it's an excellent start, but what 
concerned me is that it doesn't really expressly deal with 
Reserve and Guard units, and there's the possibility, with the 
OPTEMPO that continues today, where the rotation is more 
related to groups than it is to individuals, or individual 
groups. It's very possible for a Reserve or Guard unit to have 
its deployment ended, come home, and find it's been assigned to 
another unit, and then it's redeployed, even though the goal is 
to have rotation; not to do this.
    I'm hopeful that you will personally see, as you look at 
the rotation plans, and as they're developed in the future, 
because it is changing, that we'll try to keep that to a 
minimum. Because I think nothing could be more devastating to 
morale than to find that people are expecting the rotation to 
occur, and everybody's rotated but their group, and then 
they're redeployed because they're reassigned. I think that's a 
significant area, and I'm going to ask you to respond to that.
    But I'm also encouraged by your very astute observation 
that not all transformation and transition is improvement, that 
we'll be using all kinds of words to describe what's going on. 
But the bottom line is that when it's all said and done we have 
to be better at doing what we've done in the past. We have to 
maintain a currency that is a process, that's a result of 
process and there's a continuing goal. There's never a date 
when it ends, it's ongoing. I know that you understand that.
    Can you give us some assurance that you'll personally look 
at the rotation to be sure that we don't end up with that kind 
of a situation? I think it would be a tragedy.
    General Schoomaker. You can have my assurance that we'll go 
very deeply into this, and what you're talking about. We have a 
thing, and we used it in Special Operations Command, called the 
derivative UIC which allows us to break units up and pull 
selected pieces of it out. The problem is that part of the fact 
that we're not balanced right now says that we end up with 
what's called high demand, low density units, and we've had in 
many cases the same high demand, low density units for years. 
If you're in business and you have high demand, low density 
things, what you're doing is missing a market opportunity. In 
this case, what we're doing is whipsawing our people around.
    Senator Ben Nelson. Well, we'll overuse our resources, and 
we'll lose them for recruitment and retention.
    General Schoomaker. Sure, so it goes back to this whole 
fundamental issue of how you balance, and make sure that what 
we are is relevant, and we've built the capabilities into these 
formations that are relevant to the tasks that we've asked. So 
I agree with you, but again, it's easier said than done, 
because we're going to be doing this on the fly.
    Senator Ben Nelson. Well, there's no question it will be on 
the fly, and it will always be on the fly, because that's the 
way it works. As long as we have a commitment that runs 
throughout the force so that we don't get the unfortunate 
situation that Senator Dayton referred to from the report. We 
don't expect perfection, but that misses the mark by a pretty 
wide margin.
    General Schoomaker. Yes, sir.
    Senator Ben Nelson. So I appreciate it very much. Good luck 
to both of you. Thank you.
    General Schoomaker. Thank you, sir.
    Chairman Warner. Thank you, Senator. I apologize for my 
absence, but together with several other Senators we've been 
looking at this situation of the program that was mentioned 
today in the press about the lottery type of operation that the 
Pentagon envisioned as a means to collect data to look into the 
future to hopefully avoid terrorist attacks. It is my judgment, 
together with Senator Roberts, who is the chairman of the 
subcommittee that handles this particular program, and in 
concurrence with Senator Stevens, that this program should be 
immediately disestablished. We are going to do that in the 
context of the House-Senate conference committee, but at the 
same time we're going to recommend to the Secretary of Defense 
not to use such funds that he has available, Senator Levin, to 
implement the initial stages of this program, which was 
anticipated to start this week, on Friday. So I had to digress 
for a moment on that.
    The committee will receive briefings this afternoon, 
Senator, from all members at the earliest possible time. We 
will establish that time very shortly.
    Senator Levin. Mr. Chairman?
    Chairman Warner. Yes?
    Senator Levin. On that issue, given the fact that it could 
take us a number of weeks before we get a conference report, 
I'm wondering if we shouldn't just urge the Pentagon to 
disestablish it on their own, without our having to act that 
way and I would hope that they would, for obvious reasons.
    Chairman Warner. That may well be the end result, but I 
think that's a constructive observation. The main thing is to 
recommend that they not use the funds that we've isolated now 
that they do have available to initiate this program.
    Senator Levin. Did we get any notice of this program?
    Chairman Warner. Yes, we did. I went back and examined the 
budget request that came over, and then there's this famous 
Wyden report, which requires reporting, and it was described in 
that, so it's been out in public. There's been no effort 
whatsoever to make it secret.
    The program is modeled after a successful program utilized 
by one of the Nation's foremost think tanks, which while not 
directed towards terrorism, was directed towards analysis of 
other contingencies in the future, and in the community it has 
been perceived as a fairly successful program, but we'll go 
into that in the briefing. I just got off the phone with the 
head of the Defense Advanced Research Projects Agency (DARPA), 
and we mutually agreed that this thing should be stopped.
    I wanted to ask a very general question to both of you 
outstanding gentlemen, who have devoted so much of your time to 
specialized training in the Army. If you go back in history, at 
one point in time you just had the good old-fashioned Army, and 
then you had the need for the Delta Force, and that emerged 
into the Special Operations Forces, and then Congress enacted 
special legislation. Senator Levin and I were very active in 
the bill referred to as the Nunn-Cohen piece of legislation, 
because we were all here at that time.
    But I just wondered, and we'll start with you, General 
Schoomaker, about the politics of this within the Army. Once 
you begin to set aside, should we say, the more challenging 
tasks for just one small group, how has that been managed, 
obviously I think successfully, by the Army through these many 
years? Then I'd like to have your views on that, General Brown.
    General Schoomaker. Well, I'm not sure I understand the 
question totally, Senator, but I think you're asking how the 
Army has changed over the years. I think if you take a look a 
long way back through the Army you'll find particular points 
within not only the Army but within our Armed Forces where 
there were significant points of change, but the reality is 
there have always been changes, both large and small, going on.
    If you go back and take a look at the effects of the 
various National Defense Organization Acts, you look at the 
root reforms back in the early 1900s, there were historical 
examples of great revolutionary change that affected things, 
just like Goldwater-Nichols did and Cohen-Nunn did within our 
business.
    But the fact of the matter is, the Army is a large 
organization, and it's full of wonderful people that are 
bright, that are very competent, and are interested in doing 
the right things. But nevertheless they are as subject as 
anybody else to the fact that change is difficult, because it 
changes the status quo. It changes the things that brought them 
success to the point we are. It's the kinds of hard-earned 
things on the battlefields of World War II that are hard to let 
go of those kinds of experiences. So it takes leadership, and I 
feel that's what our job is.
    Leadership is dealing with change. You can't manage change. 
You have to lead it, and then you manage the complexity that 
falls out of the change, and I think that's the Army, and the 
Armed Forces have done that well over the years.
    Chairman Warner. Let me go back a little bit to my own 
modest association with the military through the years. In 
World War II we had Merrill's Marauders--did you ever hear of 
those? Then they were disestablished, and then for a brief 
period the Marine Corps had some paratroop units, and that was 
disestablished. But this concept took root in the Army, and has 
stayed, and has grown.
    What I'm trying to decide, because of the magnificence of 
the performance of these units--Senator Levin and I have the 
most vivid memories of one night on the border of Afghanistan 
in the Thanksgiving period 2 years ago, watching them mount up 
on a cold night and getting onto the helos, 20-some-odd men, 1 
officer, all the rest enlisted. Each knew exactly what his or 
her job was, and they were going to do it. It didn't require a 
lot of supervision, didn't require a lot of hands-on, and they 
went out and did the mission and came back.
    You cannot help but be impressed with that, and I suppose 
people would say, well, let's take the whole Army and convert 
it into the same thing, but that can't be done. You know that. 
We have to have our tanks, we have to have our helicopter 
units, we have to have the good old straightforward infantry 
there. But here's this group over here that I suppose in some 
regard is elitist. Is there more promotion opportunity given to 
them, more personal recognition given to them, and does that, 
in turn, engender some discontent down in the other elements 
that do not see quite the notoriety?
    I recognize that there's a degree of risk that these units 
take that's quite different in some respects to the others. So 
I'm just trying to figure out how you two gentlemen, who have 
spent much of your lives in that, have balanced it out, whether 
or not, for example, we need to increase Special Operation 
Forces. That question's been asked, I think, to you, General 
Brown.
    General Brown. It has been.
    Chairman Warner. But the moment you do that, everybody 
thinks it's been such a superb performance, more and more 
emphasis should be put on it, and then suddenly we're going to 
get top-heavy in one area, and other areas of the Army could be 
the loser, so maybe just touch on that, and then we'll go to 
General Brown.
    General Schoomaker. Well, sir, first of all, when we 
downsize the Armed Forces, we didn't downsize our Special 
Operations Forces. We couldn't. The demand on it was too high.
    We made some adjustments in the Reserve structure, and we 
did some active adjustments. But the fact of the matter is, 
we're recruiting this brilliant, wonderful Special Operations 
capability across the Armed Forces, not just the Army, out of 
the conventional force structure. That's where it comes from, 
and the conventional force structure is only 60-70 percent of 
what it was a decade ago. So it's a very daunting, challenging 
task to get the kind of people that you saw to volunteer out of 
those ranks and sustain it.
    You could go and mass produce a bunch of Green Berets and 
put them on people's heads, but that's the most dangerous 
strategy you could ever have. My advice is that we continue to 
remember that quality is better than quantity, and that we need 
to keep our Special Operations Forces special.
    Now, part of the transformation of conventional forces, 
going into the role that I'm being considered to go into, there 
were many things that we can move the conventional force into 
that have traditionally fallen under the role of Special 
Operating Forces. There are a lot of tactics, techniques, 
procedures, technologies, all kinds of things that we can do 
that will make the conventional force capable of doing many of 
the kinds of things that we traditionally thought here. That's 
exactly what my intentions would be, is that we take a look at 
some areas where it's appropriate to do that. Because quite 
frankly, 90 percent of what we're talking about here has to do 
with an attitude. It all has to do with mind set. It has to do 
with an attitude and a mind set that says I'm a soldier, 
sailor, airman, or marine, and that my job is to serve this 
Nation. It's not to have parades. It's not to sit around and 
just rub sticks. It has to do with being prepared to do what 
this Nation calls on us to do, and I am convinced that these 
people in our formations are up to doing that. It's our job as 
leaders to make sure that we manage it professionally, that we 
manage it appropriately, and that we keep it in proper balance. 
That's what we're doing.
    Chairman Warner. I think the key phrase is keep it in a 
proper balance.
    General Brown, your views.
    General Brown. Sir, I totally agree with General 
Schoomaker. I wrote some random notes here while he was 
talking, and I think some of the keys are that, taking the Army 
for a specific example, is that down at our Special Warfare 
School at Fort Bragg, North Carolina, we've gone to great 
lengths to build the bridges to the training and doctrine 
organizations in the Army so that they have the ability to 
leverage any innovation, any training methodologies, anything 
that we're doing down there that will meet their needs.
    We always brief that we're not out looking for the best 
people, we're out looking for the right people. There are 
people that just want to take personal pride in what they do 
and being involved in Special Operations, they'd gravitate to 
our kind of a force.
    The number one retention tool is job satisfaction, and 
right now our retention is very good in the Special Operations 
Forces, specifically in the Army Special Operations Forces. But 
across the board, the fact is that they are able to get out and 
do what they were trained to do on the battlefield, and that 
has been the number one retention tool.
    I think that first of all in the training arena we build on 
already excellent training done by the services in every one of 
our components. When you do that and you put into their 
training additional ideas and opportunities for them to train--
we value very greatly out-of-the-box thinking and innovation, 
and a lot of exercises and training that our folks go through 
are designed to make them think outside of the box, problem-
solving. In fact some of the reports coming out of Afghanistan, 
the official reports actually said, I thought I was back in 
training, because the scenarios were so much like what I was 
actually doing on the battlefield in Afghanistan. So all that 
kind of training and methodology we share with the services, 
and we work very closely with them.
    So I guess to sum it up quickly, we bring in excellent 
people that are already trained to an excellent level by the 
services, and then we add to it and give them opportunity to 
train. In turn we share the methodologies and the training 
systems that we have with the big services.
    Chairman Warner. Well, I think history reflects that it was 
members of this committee, of which I was a part with Senator 
Levin, that really felt that this needed to have special 
legislation, and that we, and you, among many others, have 
taken that legislation and have made it work in such a way that 
it's consistent with a balancing emphasis in the Department of 
Army and other Services, but of course, this is joint. We have 
Navy, Air Force, Marines, and others now in it.
    Senator Levin.
    Senator Levin. On this same issue, both of you have 
mentioned that because of the huge demand on our Special 
Operations Forces that there needs to be additional 
consideration to shifting some of their missions to 
conventional forces, and some already have been, I think, 
shifted at least to a degree to conventional forces.
    The statute that created these forces and the Special 
Operations Command provides nine missions for SOCOM, and I'm 
just wondering--one example is apparently, we've transitioned a 
mission such as training foreign militaries in basic infantry 
tactics. Apparently it's already been handed off to 
conventional forces.
    In that process, we lost some valuable language and 
cultural training which that particular mission makes 
available, or at least lost some of it. That's a pretty 
valuable gain for our Special Operations Forces, which is there 
to a lesser degree now.
    What missions do you think of those nine we can 
additionally hand off to our conventional forces? I think 
you're obviously familiar with the nine, so I won't go through 
them all, but what further handoff do you think we can make of 
the missions set forth in the statute to conventional forces 
from our Special Operations Forces? Either one of you can 
address it, or both.
    General Brown, why don't you take a shot at it?
    General Brown. All right, sir. My belief is that we do not 
want to, or should not transfer any of those nine legislated 
missions over to another service. What we should do, and what 
we are doing very aggressively, is looking at every one of 
those tasks that we are given every opportunity to go around 
the world and train for as we deploy on specific types of 
missions, and evaluating those as to how well they fit into the 
things that we need for cultural awareness, for global war on 
terrorism issues, for other things, and then we'll take a look 
at those and decide which we can ask another service or another 
force to pick up for us.
    I think the one you mentioned, Senator, is a great example. 
In the Georgia Train and Equip program, where we went in with 
our guys that had language skills and the capability and 
started to train the Georgian army, and got it to a specific 
point where it was up and running, and we had value out of 
being there. Then the Marine Corps came in behind us and took 
over that Georgia Train and Equip program.
    I think there are specific skill sets within those core 
missions that the other Services have at some degree where they 
may be able to pick up some of the tasks that we've been given 
to reduce the load on the Special Operating Forces. But I think 
we need to analyze those very carefully, because I think you 
make a good point that sometimes is missed, that one of the 
keys to Special Operations Forces, and specifically our Green 
Berets and our civil affairs folks, is the ability to get out 
on the ground with the different cultures and continue to stay 
culturally aware, and use the language skills that we're 
training them on. So we need to make sure we're maximizing that 
opportunity as well as pushing other missions to reduce our 
OPTEMPO.
    General Schoomaker. Sir, if I could just follow in on that?
    Senator Levin. Please.
    General Schoomaker. The core missions that you're talking 
about are, and I'm just going to recite them a little bit from 
memory here, direct action, unconventional warfare, special 
reconnaissance, civil affairs, foreign internal defense, those 
kinds of things, and I agree with Doug--I think these are 
mission areas in the statute that should remain within the 
purview of the Special Operating Forces.
    The question is, where are the partnerships between the 
conventional force and the Special Operating Forces, and I 
think if you take a look at our current operations both in 
Afghanistan and Iraq, you will find, for instance in direct 
action, and the recent operation against the two sons is a good 
example, where there was a marriage between Special Operating 
Forces and conventional forces in accomplishing that direct 
action mission.
    Take a look at the kind of reconnaissance being conducted 
in these places today--you'll find both conventional and 
Special Operations Forces are operating concurrently. Foreign 
internal defense, which has to do with things like the Georgia 
Train and Equip mission and other kinds of things, there's a 
marriage there. It shouldn't be a clean handoff where you lose 
the leverage of the team.
    So this is the kind of thing that I was trying to talk 
about earlier, where I think there is a lot here that can be 
leveraged out of the conventional force structure and teaming 
with Special Operating Forces, to include, as we look at such 
things as how we transform our Army aviation, many of the kinds 
of tactics, techniques, procedures, and equipage that goes on 
in Special Operations aviation should be transferred. We should 
experiment and figure out where we get goodness out of those 
kinds of things.
    So I'll leave it there. This is a very rich area, and I 
think it's all about transformation as we go forward.
    Senator Levin. Just one last question for me. You have 
mentioned the importance of job satisfaction in terms of 
retention, and there's obviously a huge amount of that, 
rightfully and understandably so, in Special Ops.
    Some of the special operators have reported to our staff 
that there could be some retention problems in a couple of 
areas in particular, and not because of lack of job 
satisfaction, but mainly because of a lack of any 
predictability in assignments, and perhaps the huge demand. 
Those two areas would be civil affairs and psychological 
operations, and I'm wondering whether or not there is a 
possibility of greater predictability in those assignments.
    We've heard in our conventional forces the raising of 
expectations which then creates predictability, which is then 
dashed. To the extent that that exists in our Special Ops 
Forces, I wonder whether or not we can find a way to provide 
greater scheduling predictability.
    General Brown. Sir, I can tell you that that's something 
that I think is important. We need to work hard to give every 
soldier we deploy as much predictability as we can reasonably 
do there.
    I talked to the Commanding General, Army Special Operations 
Command, who is the component commander that owns the civil 
affairs forces, just before coming up here for this hearing. I 
specifically asked him, are we having a lot of turbulence down 
in our civil affairs forces on retention, because we have 
really deployed a lot of civil affairs folks when you take into 
consideration the Kosovo piece, the Bosnia piece, the Afghani 
piece, and the Iraqi piece. He said quite frankly that today 
there is not a lot of turbulence down there, but that doesn't 
portend what may happen as we start bringing all these folks 
back. So we need to work hard at giving the predictability that 
we can, and then we need to work towards ensuring that we do 
everything we can to keep them in the force.
    Senator Levin. Thank you, Mr. Chairman.
    Chairman Warner. That brings to mind, as we look to the 
future in lessons learned, we've put perhaps a disproportionate 
reliance on the Guard and Reserve with regard to civil affairs 
officers, and as a consequence they had to by and large be 
recalled. So it may well be in the future standing forces that 
we have to keep a larger contingent in that area, so that's 
something for you to look at.
    We've had an excellent hearing here this morning. We thank 
you and your families. Based on what we have reviewed here this 
morning with you, it will be my thought that we can move very 
swiftly to achieve Senate confirmation of your respective 
posts. I have placed into the record your advance questions, 
but I wish to read this one question which I think is important 
for the public to understand, and that is congressional 
oversight.
    In order to exercise its legislative oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive 
testimony, briefings, and other communications of information. 
Do you agree, if confirmed for this high position, to appear 
before this committee and other appropriate committees of 
Congress? You acknowledged yes.
    Further--and this is very important. We have asked this in 
the 25 years both of us have been on this committee, this 
question--do you agree, when asked, to give your personal 
views, even if those views differ from the administration in 
power? In other words, your senior civilian--the Secretary of 
Defense and others.
    Civilian control is maintained historically over the Armed 
Forces of the United States, but it's important for Congress 
from time to time to receive the views of senior officers such 
as yourself, views which could be regarded as at variance with 
those of the body in power exercising civilian control, namely, 
the Secretary of Defense and, indeed, the President himself. In 
Goldwater-Nichols we made a special provision--I remember 
working on this, Senator Levin, and if any officer or Chief of 
Staff of the Army so desired, they could go to the President 
and seek an audience and express their views. I think that's 
been done on several occasions. It's been very important that 
that be done.
    Senator Levin. If I could just support what you're saying, 
Mr. Chairman, in addition, as the chairman has pointed out, to 
presenting views directly to the President where necessary, 
it's essential that you present views to us when asked, your 
own personal views, even if they differ from that of whatever 
administration might be in power. That is absolutely essential 
for us.
    We count on it a great deal, and you have demonstrated that 
this morning, that you are willing and able to do that, and to 
not worry about whether or not your views are exactly in sync 
with the views of the civilians, who we do want to ultimately 
make decisions. But we need to rely on the unvarnished opinions 
of our senior military officers, and we really rely heavily on 
that. We're grateful for your direct response to the question 
that you will do that.
    General Schoomaker. Yes, sir.
    General Brown. Yes, sir.
    Chairman Warner. Thank you very much. The hearing is 
adjourned.
    [Whereupon, at 11:33 a.m., the committee adjourned.]

    [Prepared questions submitted to Gen. Peter J. Schoomaker, 
USA (Ret.), by Chairman Warner prior to the hearing with 
answers supplied follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. More than a decade has passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms.
    The goals of Congress in enacting these defense reforms, as 
reflected in section 3 of the Goldwater-Nichols Department of Defense 
Reorganization Act, can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Yes, the Goldwater-Nichols act has significantly improved 
our joint operations. The reforms initiated by Goldwater-Nichols have 
been irrefutably validated in the crucible of war.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. Although amendment proposals may be appropriate, such 
proposals should take into account the lessons learned by all since 
Goldwater-Nichols was implemented. If confirmed, I look forward to 
working with the Secretary of the Army and the Secretary of Defense to 
examine other legislative and regulatory reforms that might improve 
capabilities and enhance readiness. Several areas might be appropriate 
to address:

        - The role of Joint Forces Command has evolved significantly 
        since Goldwater-Nichols was passed. Goldwater-Nichols 
        refinements might ensure that clear authorities support the 
        role we intend for Joint Forces Command.
        - It may be possible to revise the planning, programming, and 
        budgeting system from a budget driven process to a policy/
        planning driven process.
        - Acquisition reforms should continue to take advantage of new 
        business cycles and models critical for technology.
        - Any changes to the national security structure that better 
        integrate the economic, political, information, and military 
        instruments of power might also help solidify interagency 
        ``unity of effort.''

    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. These reforms have significantly clarified operational 
chains of command and working relations among the military services to 
enhance and synchronize joint operations. Most importantly, they have 
clearly communicated the intent of Congress and the President that our 
warfighting efforts must be increasingly joint.
    Question. Do you believe that the role of the Chiefs of Staff and 
the combatant commanders under the Goldwater-Nichols legislation is 
appropriate and the policies and processes in existence allow that role 
to be fulfilled?
    Answer. The general framework established by the Goldwater-Nichols 
is appropriate and existing policies and processes allow that role to 
be fulfilled. If confirmed, I would like to study in greater depth 
whether the act strikes an appropriate allocation of roles between the 
combatant commanders and the needs and constraints faced by the service 
chiefs. Combatant commanders are often driven by a near-term 
operational horizon, while the services must consider longer periods 
associated with the research and development, acquisition and 
professional development cycles. This leads to natural tensions that 
might be rectified through clarification of roles and relationships.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the commanders of the 
combatant commands. Other sections of law and traditional practice, 
however, establish important relationships outside the chain of 
command. Please describe your understanding of the relationship of the 
Chief of Staff of the Army to the following offices:
    Secretary of Defense
    Answer. The Secretary of Defense, as the head of the Department of 
Defense and the principal assistant to the President in all matters 
relating to the Department of Defense, issues guidance and direction to 
the military departments. If confirmed, I will be responsible to the 
Secretary of Defense and his Deputy, through the Secretary of the Army, 
for the operation of the Army in accordance with such directives. As a 
member of the Joint Chiefs of Staff, I will serve as a military adviser 
to the Secretary of Defense as appropriate. I will cooperate fully with 
the Secretary of Defense to ensure that the Army properly implements 
the policies established by the Office of the Secretary of Defense. In 
coordination with the Secretary of the Army, I will communicate with 
the Secretary of Defense in articulating the views of the Army.
    Question. The Under Secretaries of Defense
    Answer. Acting on behalf of the Secretary of Defense, the under 
secretaries perform responsibilities that require them, from time to 
time, to issue guidance--and in the case of the Under Secretary of 
Defense for Acquisition, Technology and Logistics, direction--to the 
military departments. If confirmed, in coordination with the Secretary 
of the Army, I will communicate with the Under Secretaries in 
articulating the views of the Army. I will work closely with them to 
ensure that the Army is administered in accordance with the guidance 
and direction issued by the Office of the Secretary of Defense (OSD). 
(Note: all the USDs and ASDs may issue instructions to the secretaries 
of the military departments if the SECDEF authorizes them to do so.)
    Question. The Assistant Secretaries of Defense
    Answer. The Assistant Secretaries of Defense have functional 
responsibilities that, from time to time, require the issuance of 
guidance to the military departments. If confirmed, I will, in 
coordination with the Secretary of the Army, communicate with the 
Assistant Secretaries of Defense in articulating the views of the Army. 
I will cooperate fully with them to ensure that the Army is 
administered in accordance with guidance promulgated by the Office of 
the Secretary of Defense.
    Question. The Chairman of the Joint Chiefs of Staff
    Answer. The Chairman of the Joint Chiefs of Staff is the principal 
military adviser to the President, the National Security Council, and 
the Secretary of Defense. Subject to the authority, direction, and 
control of the President and the Secretary of Defense, the chairman 
plans the strategic direction and contingency operations of the Armed 
Forces; advises the Secretary of Defense on requirements, programs, and 
budgets identified by the commanders of the combatant commands; 
develops doctrine for the joint employment of the Armed Forces; reports 
on assignment of functions (or roles and missions) to the Armed Forces; 
provides for representation of the United States on the Military Staff 
Committee of the United Nations; and performs such other duties as may 
be prescribed by law or by the President or Secretary of Defense.
    In conjunction with the other members of the Joint Chiefs of Staff 
(JCS), the Chief of Staff of the Army assists the chairman in providing 
military advice to the President, the National Security Council, and 
the Secretary of Defense. If confirmed, as a member of the JCS, it 
would be my duty to provide frank and timely advice and opinions to the 
chairman to assist him in his performance of these responsibilities. If 
confirmed, in addition, upon request, I will as a member of the Joint 
Chiefs of Staff provide my individual military advice to the President, 
the National Security Council, and the Secretary of Defense. As 
appropriate, I will provide advice in addition to or in disagreement 
with that of the chairman. I will establish and maintain a close and 
professional relationship with the chairman and will communicate 
directly and openly with him on policy matters involving the Army and 
the Armed Forces as a whole.
    Question. The Vice Chairman of the Joint Chiefs of Staff
    Answer. The Vice Chairman of the JCS assists the chairman in 
providing military advice to the Secretary of Defense and the 
President. If confirmed as a member of the JCS, it would be my duty to 
ensure that the vice chairman is provided my frank views and opinions 
to assist him in his performance of his responsibilities.
    Question. The Secretary of the Army
    Answer. If confirmed, my relationship with the Secretary of the 
Army would be close, direct, and supportive. Within the Department of 
the Army, a large part of my responsibility as Chief of Staff would be 
to serve as the Secretary's principal military adviser. My 
responsibilities would also involve communicating the Army Staff's 
plans to the Secretary of the Army and supervising the implementation 
of the Secretary's decisions through the Army Staff and Army commands 
and agencies. In this capacity, my actions would be subject to the 
authority, direction, and control of the Secretary of the Army. In my 
capacity as a member of the JCS, I would also be responsible for 
appropriately informing the Secretary of the Army about conclusions 
reached by the JCS and about significant military operations, to the 
extent such action does not impair independence in the performance of 
duties as member of JCS. I anticipate that I would at all times work 
closely and in concert with the Secretary of the Army to establish the 
best policies for the Army in light of national interests.
    Question. The Under Secretary of the Army
    Answer. The Under Secretary of the Army is the Secretary's 
principal civilian assistant and performs such duties and exercises 
such powers as the Secretary of the Army prescribes. His 
responsibilities require him, from time to time, to issue guidance and 
direction to the Army Staff. If confirmed, I will be responsible to the 
Secretary of the Army, and to the Under Secretary through the Secretary 
of the Army, for the operation of the Army in accordance with such 
directives. I will cooperate fully with the Under Secretary of the Army 
to ensure that the policies established by the Office of the Secretary 
of the Army are properly implemented. I will communicate openly and 
directly with the Under Secretary of the Army in articulating the views 
of the Army Staff, Army commands, and Army agencies.
    Question. The Assistant Secretaries of the Army
    Answer. The Assistant Secretaries of the Army have functional 
responsibilities that, from time to time, require the issuance of 
guidance to the Army Staff and to the Army as a whole. If confirmed, I 
will establish and maintain close, professional relationships with each 
of the Assistant Secretaries to foster an environment of cooperative 
teamwork between the Army Staff and the Army Secretariat as we deal 
together with the day-to-day management and long-range planning 
requirements facing the Army.
    Question. The General Counsel of the Army
    Answer. The General Counsel is the chief legal officer of the 
Department of the Army. His duties include coordinating legal and 
policy advice to all members of DA regarding matters of interest to the 
Secretariat, as well as determining the position of the Army on any 
legal questions or procedures other than military justice matters 
assigned to The Judge Advocate General. If confirmed, I will establish 
and maintain a close, professional relationship with the General 
Counsel to assist him in the performance of these important duties.
    Question. The Chiefs of Staff of the other Services
    Answer. If confirmed, as a member of the JCS, it would be my duty 
to engage in frank and timely exchanges of advice and opinions with my 
fellow Service Chiefs in their roles as members of the JCS. I look 
forward to developing strong working relationships with these 
colleagues, many of whom I know from previous service.
    Question. The combatant commanders
    Answer. Subject to the direction of the President, the combatant 
commanders perform their duties under the authority, direction, and 
control of the Secretary of Defense, and are directly responsible to 
the Secretary of Defense for the preparedness of their commands to 
carry out missions assigned to them. As directed by the Secretary of 
Defense, the military department secretaries assign all forces under 
their jurisdiction, except those forces necessary to perform the 
missions of the military departments, to the combatant commands to 
perform missions assigned to those commands. In addition, subject to 
the authority, direction, and control of the Secretary of Defense and 
the authority of combatant commanders under title 10, United States 
Code, section 164(c), the military department secretaries are 
responsible for administering and supporting the forces that they 
assign to a combatant command. If confirmed, I will cooperate fully 
with the combatant commanders in performing these administrative and 
support responsibilities. I will establish close, professional 
relationships with the combatant commanders and communicate directly 
and openly with them on matters involving the Department of the Army 
and Army forces and personnel assigned to or supporting these commands.

                             QUALIFICATIONS

    Question. What background and experience do you have that you 
believe qualifies you for this position?
    Answer. I have been associated with the U.S. Army since birth and 
have experienced literally every aspect of Army life, as a dependent of 
a professional army officer through the post WWII, Korean War, and 
Vietnam eras, to Army ROTC in college and my own 31\1/2\ years of 
active service and 2\1/2\ years of retired status. I believe that my 
active military service, including duty in Armor, Armored Cavalry, 
Infantry, and Special Forces units, assignments in U.S. Total Army 
Personnel Command, on the Army Staff, as an Assistant Division 
Commander, and as an Army Major Army Command Commander provide solid 
service experience. As one of the initial Joint Service Officers 
designated in 1987, I have extensive joint experience including 
numerous real world joint contingency operations and command of both 
the Joint Special Operations Command and the United States Special 
Operations Command. All of this provides me with the experience, 
knowledge, and insight necessary to successfully meet the challenges 
facing the Army today. My recent experiences working on critical and 
timely defense issues as a consultant to the Defense Department have 
afforded me with a unique perspective that I believe will be valuable 
in discharging the duties of Army Chief of Staff.

                            MAJOR CHALLENGES

    Question. In your view, what are the major challenges confronting 
the next Chief of Staff of the Army?
    Answer. If confirmed, my fundamental challenge will be to help the 
Army--and the Nation--understand what it means to be an Army at war. 
This is a war that reaches to the furthest corners of the world--a war 
for the very survival of our way of life. As the President has stated, 
``this is a different kind of war against a different kind of enemy.'' 
Being an Army at war means that we must be prepared to question 
everything--take nothing for granted. We must rigorously assess our 
priorities, our processes, and our programs to ensure we can meet the 
needs of the Nation in this war.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. My first act would to get out and assess the situation--
talk to the Army's soldiers, their families, and the combatant 
commanders they serve. We need to figure out--as an Army at war--what 
needs to change and what needs to continue. We may need to adjust our 
priorities. We may even need to change the culture--in a world where 
the strategic environment is transformed, we should be prepared to even 
reexamine our fundamental way of thinking. At the same time, our Army 
needs to celebrate its victories. A lot is right with the U.S. Army. We 
need to remember that.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the performance of the functions of the Chief of Staff of the Army?
    Answer. The most serious problem is closely related to our greatest 
challenge: the functions of the Chief of Staff of the Army are designed 
for a peacetime, more predictable environment than the one we face 
today. We need responsive, adaptive processes and organizations to 
support an Army at war.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. If I am confirmed, I will work closely with the Secretary 
of the Army and--through him--OSD, to identify solutions. I will 
quickly evaluate our current organizational structure and realignment 
plans to look for ways to promote unity of effort and enhance 
efficiency and effectiveness. I am confident that the Army has the 
human talent to solve virtually any problem when provided clear 
guidance and a sound organizational framework.

                       PRINCIPAL ROLE OF THE ARMY

    Question. What do you see as the principal role for the U.S. Army 
in terms of our overall national security?
    Answer. The Army's mission is to provide prompt and sustained land 
forces for joint operations.
    Question. What roles should the Army play in contingency, 
humanitarian, and peace operations?
    Answer. The Army provides the Nation, the President, and the 
combatant commanders a unique set of core competencies and capabilities 
to fulfill whatever missions and tasks the Joint Force is assigned. 
Army forces play a vital role in providing the security and stability 
necessary to make contingency, humanitarian, and peace operations 
feasible.
    Question. Is there unnecessary redundancy between Army and Marine 
Corps ground combat forces, particularly between Army light divisions 
and Marine Corps divisions?
    Answer. No. The Army and the Marine Corps each possess unique 
competencies with respect to basing, staging, employment, and 
sustainability. This range of competencies provides the combatant 
commander a broad range of operational options. This combination of 
service capabilities maximizes their total complementary and 
reinforcing effects, while minimizing their relative vulnerabilities.
    Question. Some believe that the Army and the Marines are competing 
for the same declining mission area--the contingency forces role--and 
that each is pursuing capabilities that the other service already 
possesses. What is your view of this observation?
    Answer. It is not at all clear to me that the contingency forces 
role is declining. The Army and the Marine Corps each possess unique 
competencies with respect to basing, staging, employment, and 
sustainability. Their combination maximizes their total complementary 
and reinforcing effects, while minimizing their relative 
vulnerabilities.

                      ARMY ROLE IN THE JOINT FORCE

    Question. The U.S. military fights as a joint force and strives to 
achieve realistic training for military operations. The Army provides 
trained and equipped forces for joint military operations.
    How do you believe the Army can best contribute to improved joint 
military capabilities while preserving its service unique capabilities 
and culture?
    Answer. The Army can best contribute to improved joint capabilities 
by developing its force with a joint perspective from the very 
beginning, transforming from our past practices of de-confliction to 
greater joint interdependence. Force development begins with an 
appreciation of the future operational environment--that appreciation 
must be co-developed with the joint community. It then proceeds to 
development of operational concepts--those concepts must be fully 
nested in joint operational concepts. Finally, that inherently joint 
Army concept drives every dimension of our force: doctrine, 
organization, training, materiel, leader development, people, and 
facilities.

                         VISION FOR THE FUTURE

    Question. What is your vision for the Army of the future?
    Answer. The current Army vision is generally well accepted. If 
confirmed, one of my first tasks will be to assess the current state of 
the Army and its environment, identify major issues and challenges, and 
capture ideas that confirm or refine our strategic direction. I will 
assess the plans in place to achieve our vision and determine if they 
warrant modification or prioritization changes.
    Question. What foundations would you establish, if confirmed, to 
facilitate the attainment of that vision?
    Answer. If confirmed, one of my first tasks will be to assess the 
current state of the Army and its environment, identify major issues 
and challenges, and capture ideas that confirm or refine our strategic 
direction. The assessment I make at that time will determine the 
foundations needed to facilitate attainment of that vision.

                         JOINT EXPERIMENTATION

    Question. The Army has conducted a wide range of experiments to 
identify the path forward toward a digitized force, but has done much 
less with regard to transformation to the Objective Force. In the arena 
of joint experimentation, while the Army has participated in a few 
joint experimentation activities over the last couple years, it is 
clear that more joint experimentation is necessary to meet future 
operational challenges.
    What is your view of the need for joint experimentation and how do 
you see the Army participating in future joint experimentation 
activities as we move into the 21st century?
    Answer. Concept development and experimentation are inextricably 
linked. The Army was the first service to co-sponsor a joint wargame 
(Unified Quest 03) with Joint Forces Command, and I support future 
joint co-sponsorship. The Army must increasingly integrate its 
experimentation with the joint experimentation effort and the DOD 
Transformation Roadmap.
    Question. Do you believe that Army experimentation has been 
sufficient in support of transformation to the Objective Force?
    Answer. There are many kinds of experiments--game seminars, 
modeling, computer simulation, and live experiments on the ground. All 
of these supported development of the Stryker Force. Army 
experimentation, particularly computer simulation, was critical in 
achieving the Milestone B decision of the Future Combat Systems 
acquisition strategy.

                            MISSILE DEFENSE

    Question. Do you consider missile defense to be one of the Army's 
core missions?
    Answer. Yes--missile Defense has been an Army core competency for 
47 years and the Army currently operates the Nation's only deployed 
ballistic missile defense system, Patriot Advanced Capability-3 (PAC-
3). Missile defense is essential to effective land operations.
    Question. What is your view of the proper relationship between the 
Army and the Missile Defense Agency?
    Answer. The Missile Defense Agency should continue to develop and 
produce boost and mid-course phase missile defense systems and transfer 
proven capabilities to the appropriate services for fielding and 
operations and sustainment.
    Question. What do you think the Army's responsibilities are or 
should be with respect to development, procurement, and operation of 
missile defense systems?
    Answer. My current assessment is that the Army, in its role to 
provide force and asset protection to the combatant commanders, should 
retain development, procurement, integration, and operation 
responsibilities of all ground-based terminal phase air and missile 
defense systems.

                             TRANSFORMATION

    Question. Secretary Rumsfeld has established transformation of the 
Armed Forces to meet 21st century threats as one of the Department's 
highest priorities and has stated that only weapons systems that are 
truly transformational should be acquired. Over the past several years 
the Army has terminated or restructured over 77 programs to fund its 
transformation initiative.
    How would you assess the level of risk to our forces of foregoing 
or curtailing current acquisition programs in favor of future 
transformation? Can we afford this risk considering the current level 
of global threats?
    Answer. We must always find the right balance between maintaining 
readiness and combat overmatch in the near term and ensuring them--
through transformation--for the future. We are fighting today and have 
just demonstrated that we have effective capabilities near term. But we 
should anticipate that our adversaries will adapt and--knowing that--
failure to transform would constitute the ultimate, non-affordable 
risk.
    Question. In the allocation of limited resources, how would you 
prioritize among the current force, the interim force (Stryker Brigade 
Combat Teams) and the Objective Force?
    Answer. If confirmed, I would prioritize resources to maximize our 
effective combat capability and capacity over time. Establishing the 
Army's priorities will involve the balancing of competing demands with 
existing resources. As we seek this balance now and in the future, we 
must ensure that we maintain the current readiness of our forces.
    Question. What is your vision for the Army and Army transformation?
    Answer. The vision and current direction of Army transformation 
efforts appear to me to be on track. I will continuously review Army 
progress and direction in this effort as one of my highest priorities.
    Question. Does your vision of Army transformation include a shift 
of force structure from conventional forces, including battalions, 
brigades and divisions, to more Army unconventional forces?
    Answer. Over the past few years, the Army has realigned over 18,000 
spaces to meet the increased requirement for special operations, 
chemical/biological, military police, and other similar capabilities. 
If confirmed, I will continually assess the Army's force mix, to 
include the Reserve component, and make prudent and appropriate 
adjustments over time.
    Question. Do you believe the Army should be reorganized from its 
current division-based structure to a larger number of smaller tactical 
units so as to field corps-based joint task forces as some reformers 
have advocated?
    Answer. At this time, I have not formed any specific conclusions on 
this issue. I will entertain all ideas as we look for ways to increase 
the capability and capacity of our forces.

                     LOW DENSITY/HIGH DEMAND FORCES

    Question. In your professional judgment, how would you address the 
Army's problem with low-density units such as military police, civil 
affairs, and others, which are in extremely high demand in this new 
strategic environment?
    Answer. It takes years to build a new capability, particularly the 
soldiers and leaders with the appropriate skills. If we are confident 
that the new strategic environment will increase the demand for these 
units long-term, then we should move expeditiously to adjust our force 
structure to match the demand.
    Question. Are there functional changes among the active and Reserve 
components that you believe should be made?
    Answer. The role of the Army's Reserve components has already 
changed significantly. Today, what was once a ``force in Reserve'' has 
become a full partner in our daily operations providing critical 
specialized capabilities and augmentation. This is an enormous cultural 
change for our Army that must ensure that the duration and frequency of 
deployments is appropriate for citizen soldiers and properly manage the 
effort to ensure predictability.

      SPECIAL OPERATIONS FORCES--CONVENTIONAL FORCES RELATIONSHIP

    Question. Operations conducted in Afghanistan, Iraq, and elsewhere 
have demonstrated the effectiveness of Special Operation Forces in 
addressing threats posed by terrorists and other adversaries.
    What, in your professional judgment, is the appropriate 
relationship between Special Operations Forces and conventional forces?
    Answer. The Army will continue to need to take advantage of the 
synergy generated by blending the unique capabilities of SOF with the 
traditional warfighting capabilities of conventional forces. The nature 
and scope of this relationship will vary according to each mission 
situation. SOF is inherently joint and with the Army becoming 
increasingly joint in its perspective, I believe that the future will 
see much greater synergy achieved in this area.
    Question. How can transformation support the relationship between 
SOF and conventional Army forces so that SOF can continue to focus on 
unique missions, and develop specialized capabilities? What missions or 
equipment, if any, should conventional Army forces adopt from SOF?
    Answer. Army conventional forces are capable of assuming certain 
missions currently performed by Special Operations Forces in the areas 
of counter drug activities, humanitarian de-mining activities, and the 
training of foreign conventional forces. Furthermore, Special 
Operations Forces possess a number of attributes such as agility, 
versatility, and deployability that are being designed into the 
materiel and leader development capabilities of our future force as a 
whole. Together, these initiatives will allow Special Operations Forces 
to better focus on maintaining proficiency in their unique core 
competencies. Additionally, we must continue to migrate equipment, 
tactics, techniques, and procedures from SOF to the Army conventional 
forces when appropriate.
    Question. What role, if any, can the Special Operations Command's 
development and acquisition capability play in Army and DOD efforts to 
transform?
    Answer. The Special Operations Command is the sole unified command 
with internal responsibility for planning, programming, and budgeting 
of military forces as well as the authority for the development and 
acquisition of special operations-peculiar equipment, materials, 
supplies, and services. This has allowed the command's Directorate of 
Advanced Technology to concentrate on areas that show potential benefit 
to the SOF operator in the near to mid-term. We should look carefully 
at the techniques and processes they have used to determine if there 
are opportunities to make the Army process more effective and 
efficient. As I indicated above, we must continue to migrate equipment, 
tactics, techniques, and procedures from SOF to the Army conventional 
forces when appropriate.

 SPECIAL OPERATIONS FORCES--RELATIONSHIP BETWEEN ARMY AND SOF COMPONENT

    Question. What is your understanding of the relationship between 
the Chief of Staff of the Army, the U.S. Special Operations Command, 
and the U.S. Army Special Operations Command (USASOC)?
    Answer. USASOC is the Army component of the U.S. Special Operations 
Command and has the responsibility to train, equip, deploy, and sustain 
Army Special Operations Forces. The Chief of Staff of the Army is 
responsible for the organization, equipping, and training of forces for 
the conduct of prompt and sustained combat operations on land. In this 
capacity the Army is responsible for resourcing USASOC to the extent 
outlined in the Joint Strategic Capabilities Plan.
    Question. Do you believe that the Army currently provides the 
proper level of support to USASOC in equipment (airframes, etc.), 
facilities, personnel billets, and services? If not, what would you 
recommend, if confirmed, to increase the level of attention to USASOC 
requirements?
    Answer. Within current resource constraints and operational needs, 
I believe that the Army currently provides sufficient personnel assets, 
rotary wing aircraft and equipment to USASOC. I believe conventional 
Army forces can further assist Army Special Operations Forces by 
assuming or augmenting certain traditional SOF missions on a case-by-
case basis.

 SPECIAL OPERATIONS FORCES--CIVIL AFFAIRS AND PSYCHOLOGICAL OPERATIONS

    Question. Given the current operational and personnel tempo for 
civil affairs and psychological operations, do you believe that we have 
sufficient personnel for those mission?
    Answer. It is not clear to me that current levels can be sustained 
indefinitely. An increase in requirements beyond current levels may 
require 2-year involuntary mobilizations. If confirmed, I look forward 
to working with all of the combatant commanders to develop long-term, 
cohesive, and sustainable force levels.
    Question. Do you believe that the mix between active and Reserve 
components in those areas is adequate? If not, what remedies would you 
propose?
    Answer. I do not believe the psychological operations (PSYOP)/civil 
affairs force structure is appropriately balanced. For example, the 
active component civil affairs skill sets are focused on the tactical 
level and lack certain civilian-acquired functional specialties--such 
as Rule of Law, Public Health, Governance, Economics, and 
Infrastructure--that reside only in the Reserve component. The planned 
increase in active component civil affairs structure is encouraging, 
and if confirmed, I will devote special attention to ensuring the Army 
achieves the proper balance of PSYOP and civil affairs force structure.

                                COMANCHE

    Question. In the fiscal year 2004 budget request, the Army 
restructured the Comanche helicopter program and requested an 
additional $1.7 billion to cover increased research and development 
costs.
    Do you support the continued development of the Comanche helicopter 
effort as restructured? If so, why?
    Answer. The RAH-66 Comanche armed reconnaissance helicopter is a 
critical component of the Army's future force. The Army recently 
conducted a comprehensive system of systems review of this program both 
to restore full confidence in the program and to ensure that it is 
properly aligned with the future force. The restructured program is 
fully funded and incorporates an evolutionary acquisition strategy 
entailing a spiral development of capabilities in three blocks with a 
coherent testing program to support key decisions. If confirmed, I will 
conduct my own assessment and work hard to ensure that the Comanche 
program continues forward on a solid path.

                      ARMY SCIENCE AND TECHNOLOGY

    Question. The Army Science and Technology program has successfully 
transitioned a number of Future Combat Systems technologies to the 
System Development and Demonstration phase.
    What do you see as the role that Army Science and Technology 
programs will play in continuing to develop Objective Force systems?
    Answer. The primary focus of Army Science and Technology (S&T) will 
be to develop and demonstrate future force technologies. These 
technologies must increase speed of strategic deployments, enhance 
tactical agility once deployed, assure networked connectivity for 
joint, relevant situational awareness and increase precision for 
decisive results. Achieving these capabilities will require sufficient 
resourcing, disciplined management, synchronized development of 
warfighting concepts, and effective experimentation.

                  RESERVE DEPLOYMENT AND MOBILIZATION

    Question. Leaders of the United States Central Command have 
indicated that Reserve modernization policies and systems must be 
adapted to the more fluid force deployment and employment model 
expected to be used in the future. They have characterized current 
Reserve Force management policies and systems as ``inefficient and 
rigid,'' and indicated that critical combat support and service support 
forces were late in arriving in theater as a result of the current 
cumbersome mobilization and deployment system.
    What are your views about the optimal role for the Reserve 
component (RC) forces in meeting combat missions?
    Answer. If confirmed, this is an area that I want to assess. The 
Army National Guard and Army Reserve have been integrated into the 
planning and execution of all recent military operations and have been 
an essential element to success. RC forces have been very successful in 
meeting many of their assigned combat missions and they are regularly 
employed to meet long-term, predictable requirements such as 
peacekeeping missions. The Army is currently doing a thorough analysis 
of the appropriate mix of active and Reserve Forces in order to 
increase our agility and flexibility. I intend to monitor this analysis 
and assess its findings closely.
    Question. What is your opinion about the sufficiency of current 
Reserve Force management policies?
    Answer. We are at war, and the Reserve components are being called 
upon in ways and at levels not envisioned in the previous defense 
strategies that guided their resourcing and structure. I am also aware 
that the Secretary of Defense recently issued guidance to the Services 
to reduce the need for involuntarily mobilization, including the 
complete elimination of the need for involuntary mobilization during 
the first 15 days of a rapid response operation. I support the Army's 
examination of ways to streamline the mobilization process and believe 
that it warrants consideration of changes to mission profiles and 
structure as well as methods to provide Reserve components with greater 
peacetime training opportunities and increased levels of modernization.
    Question. Do you support assigning any support missions exclusively 
to the Reserve?
    Answer. There are some capabilities for support missions that 
should remain primarily in the Reserve components to prevent the 
inefficient use of resources. An example is mortuary affairs units, 
which are primarily needed during combat operations and do not need 
extensive training time to prepare for their wartime missions. The Army 
is currently studying proposals to improve the readiness of Reserve 
component units that fulfill support mission requirements to ensure 
they can meet combatant commander deployment requirements.

                          UNIT MANNING SYSTEM

    Question. The Army has undertaken a Unit Manning Initiative aimed 
at improving combat readiness and cohesion while setting conditions for 
improved soldier and family well-being. Previous attempts to achieve 
this goal have not succeeded, and the Army has instead relied on an 
individual replacement system.
    Do you support the implementation of the Unit Manning Initiative?
    Answer. I support any innovation that produces higher levels of 
readiness and combat effectiveness. The primary goal of the Unit 
Manning Initiative is to increase unit readiness and unit cohesion by 
synchronizing the unit and soldier lifecycles. My experience confirms 
the soundness of this approach.
    Question. If so, what factors do you believe will make this attempt 
at Unit Manning succeed where others have failed?
    Answer. Fundamentally, this effort will succeed because we are now 
an Army at war. This is not simply an effort to save money or cover a 
rotational presence. To meet our current and projected level of 
commitments, we must increase our collective combat readiness. The unit 
manning initiative would be a significant step in our effort to do 
this.

                    PREVENTION OF DOMESTIC VIOLENCE

    Question. The tragic murder-suicide deaths at Fort Bragg in June 
and July 2002 and a subsequent report identified several problems 
affecting the ability and willingness of soldiers and their families to 
seek assistance in coping with domestic problems. An important issue 
identified in the report was that soldiers and their spouses may be 
reluctant to seek assistance out of fear that it would adversely affect 
how they are regarded within their commands. The report indicated that 
mental health services are flawed because they inadvertently discourage 
soldiers and their families from seeking help when problems arise.
    If confirmed, what steps would you take as Chief of Staff of the 
Army to address the problems relating to domestic violence identified 
in the report related to the Fort Bragg tragedies?
    Answer. I believe that the Army must strive to eliminate domestic 
violence by creating a culture within the Army that focuses on 
supporting and encouraging prevention efforts. From personal 
experience, I know that the Army has long had a number of solid 
programs in the soldier and family support arena. I also know that the 
Army has recently improved those programs by providing additional 
trained professionals, making these services more accessible, and 
implementing innovative initiatives like the Deployment Cycle Support 
plan.

                        RECRUITING AND RETENTION

    Question. The ability of the Armed Forces to recruit highly 
qualified young men and women is influenced by many factors, and is 
critical to the success of the All Volunteer Force.
    What do you consider to be the most important elements of 
successful recruiting for the Army?
    Answer. Recruiting success is a function of the successful 
integration of the three recruiting drivers that we can influence: 
marketing, recruiting incentives, and the size of the recruiting force. 
With a stable, predictable, and effective advertising program, 
supported by critical recruiting incentives, the Army has been able to 
reduce the recruiting mission for active Army recruiters and return 
vital manpower to the force for other critical needs.
    Question. What are your views about direct recruiting for Special 
Forces duty of civilians with no prior active-duty military service?
    Answer. Thus far, the effort to recruit Special Forces soldiers 
from the general population is encouraging. The success rate for these 
new soldiers through basic combat training, infantry advanced 
individual training and specialized preparatory training is very high. 
Owing perhaps to a higher academic standard for candidates enlisted 
directly from civil society, these young soldiers complete the initial 
phases of Special Forces Assessment and Selection at a higher rate than 
recent in-service candidates. I participated in the Special Forces 
Qualification Course (SFQC) graduation ceremony for the first soldiers 
recruited in this manner and I was very impressed with them. Only time 
will tell how they will do on the operational detachments, but I'm 
optimistic. While these preliminary observations are encouraging, and 
the program is quite popular among Recruiting Command's target market, 
I would like to await further maturity of the preliminary data.
    Question. What initiatives, if any, do you support to improve the 
retention of highly experienced officers and noncommissioned officers?
    Answer. Enhanced pay raises, retention bonuses for selected 
specialties, and changes in the retirement system have led to increased 
levels of satisfaction and increased retention rates. I support these 
initiatives, and I encourage Congress to continue funding these 
critical programs.

                             DUTY IN KOREA

    Question. The Commander, United States Forces Korea, has noted that 
a DOD survey conducted in 2001 indicated that Korea was selected as the 
least desirable military assignment, and expressed concern about what 
have been described as some of the worst living and working conditions 
in the military.
    What are your views about the adequacy of the living and working 
conditions in Korea?
    Answer. If confirmed, I intend to assess the conditions in Korea 
first hand. Among some of the initiatives I would consider would be 
military construction programming levels, barracks upgrades, and the 
Land Partnership Plan.
    Question. Given the conditions experienced by soldiers stationed in 
Korea, do you consider the special pays and allowances associated with 
duty in Korea to be adequate?
    Answer. I have not made any specific conclusions regarding this 
issue. If confirmed, I would work to ensure that special pay and 
allowances associated with duty in Korea and other overseas locations 
are fair and adequate.
    Question. What measures do you think need to be taken to improve 
quality of life and conditions for troops stationed in Korea?
    Answer. I believe the Army should provide our soldiers adequate 
living and working conditions and good telecommunications 
infrastructure to maintain contact with their families. I understand 
that substantial funding has already been programmed to accomplish this 
task and if confirmed, I would reinforce this effort.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Chief of Staff, Army?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John Warner

                   ARMY'S STRATEGIC READINESS SYSTEM

    1. Senator Warner. General Schoomaker, today, more than ever, it is 
imperative that we closely monitor and assess the readiness of Army 
units to ensure their preparedness for current and future missions. I 
understand one of the tools that the Army uses to monitor unit 
readiness is the Strategic Readiness System (SRS). This system provides 
senior Army leadership with a strategically focused viewpoint from 
which to manage resources across the entire Army in an integrated top-
down way through the major commands and Headquarters, Department of the 
Army, staff. Please provide your views on the utility of SRS in 
assessing Army readiness.
    General Schoomaker. The Army has developed and is currently 
implementing SRS, which provides an overarching linkage between 
strategic objectives, initiatives, and resources that enhances our 
ability to make consistent, integrated, and proactive decisions within 
a strategic construct. Using performance measures as evaluation 
metrics, SRS works to establish links between costs (resources) and 
performance (readiness), while leveraging available technologies to 
more accurately forecast the readiness outcome of resourcing decisions.
    Until the development of the SRS, no single tool was available to 
the Army leadership to survey the multitude of Army databases and 
assess readiness indicators. SRS provides senior leadership with 
performance indicators representative of the entire force, to include 
the generating force, operating force, sustainment capability and 
infrastructure, that gives an accurate and holistic readiness picture 
using the balanced scorecard methodology. The balanced scorecard is the 
tool that links resources to readiness and translates strategy into 
measurable objectives.
    The Army scorecard methodology has been developed focusing on the 
four key themes: maintain the capability to support the combatant 
commanders' operational requirements (readiness); invest in soldiers 
and their families (people); transform the Army into the undefeatable 
future force (transformation); and adopt sound business practices. SRS 
can analyze classified and unclassified data and assess both leading 
and lagging indicators of readiness. SRS will also provide a set of 
predictive, interrelated impacts as a basis for informed decisions on 
force and funding requirements. SRS will further provide Army senior 
leadership with a crosscutting assessment tool with unique predictors 
capable of providing decisionmakers with the ability to proactively 
manage and resource readiness.

    2. Senator Warner. General Schoomaker, please comment on how you 
intend to use SRS in the Army's Planning, Programming, Budgeting, and 
Execution System.
    General Schoomaker. The Army is beginning to tie SRS together with 
its Army's Planning, Programming, Budgeting, and Execution (PPBE) 
process. Specifically, SRS provides the capability to assess the 
performance measures on which the Army's programs are based and then 
use that information in the resourcing processes.
    This is not an easy undertaking. It starts with a common framework 
that all of the reporting systems and resourcing systems can use. This 
includes not only Army systems, but all systems that we need to share 
information with, such as interfacing with Joint Capabilities, the 
ability to track and assess execution data, and the ability to 
communicate our programming and budget data to Congress.
    SRS captures the readiness of the Army, but by coupling it with our 
execution data and using it to store the performance measures, it will 
allow us to assess our programs. We will use these performance measures 
to assess the viability of our current programs, ensure we are actively 
supporting the global war on terrorism, and provide justification to 
Congress in support of requested resources.

    3. Senator Warner. General Schoomaker, in your opinion how does SRS 
compare with the Status of Resources and Training System (SORTS), 
especially given the tasks of refitting, reconstituting, and continuing 
to employ significant numbers of Army units in the global war on 
terrorism?
    General Schoomaker. The current readiness reporting system, the 
Unit Status Report (USR), uses lagging indicators as reported in ASORTS 
to capture the readiness status of operational units. This system, in 
effect since 1963, provides only the ability to retroactively assess 
the readiness of the operating forces and does not look at the 
generating forces such as the training base, installations, power 
projection platforms, and sustainment. It does not directly link 
readiness to resourcing decisions. An Army War College Study confirmed 
that the current readiness reporting system does not provide the Army 
senior leadership with adequate means to manage the strategic readiness 
of the total force. The study recommended that the Army re-engineer and 
expand the current system so that it is mission-focused, evaluates 
strategic readiness, leverages web-based automation, and focuses on the 
Army's future capability to perform its missions.
    SRS transforms the way the Army manages and measures readiness by 
focusing and aligning strategic goals and objectives across the entire 
force. SRS is a revolution in the way the Army does business. SRS takes 
into account the three quarters of the Army not currently measured by 
USR standards. SRS broadens the Army's definition of readiness to 
include installations, infrastructure, well-being, the industrial base, 
and sustainment. SRS enables senior Army leaders to monitor the ability 
of the Army to achieve its stated strategic objectives and core 
competencies. The SRS may use some of the data from ASORTS, but does 
not immediately replace it. SRS creates no new requirements for units 
below the division/separate brigade level. By linking resources to 
readiness, SRS will leverage available technologies to more accurately 
forecast the effects of resourcing decisions. This will be accomplished 
by identifying the strategic objectives of all elements of the Army 
above brigade level and evaluating progress toward those objectives 
with clearly articulated metrics.
                                 ______
                                 
             Questions Submitted by Senator James M. Inhofe

                              END STRENGTH

    4. Senator Inhofe. General Schoomaker, the Army has 21 of 33 active 
duty brigades deployed around the world. We have thousands of National 
Guard and Reserve soldiers on active duty and some are calling for 
increases in Special Operations Forces to fight the current war on 
terrorism. What is your assessment of the current end strength of the 
Army? Is it adequate?
    General Schoomaker. The Army is aggressively pursuing adoptions to 
make internal changes to mitigate the stress on the force to offset end 
strength growth. Increasing active end strength appears to be the 
solution; however, it is not cheap, easy or, or quick to do. Therefore, 
we must make every effort to maximize the efficient use of our current 
forces. Initiatives are underway to seek efficiencies by rebalancing 
the mix of active and Reserve capabilities, spreading the workload 
across all the services, and converting non-inherently military 
positions to civilian authorizations. If, in the end, we've done 
everything we can and still are short capabilities in the active 
component, then we will go to the Office of the Secretary of Defense 
with options, one of which may be increased end strength.

    5. Senator Inhofe. General Schoomaker, what kind of restructuring, 
if any, do you recommend?
    General Schoomaker. The Army shares the Defense Secretary's urgency 
in affecting changes to rebalance the force. Active and Reserve 
component transformation efforts are already targeting areas that 
enhance jointness, responsiveness, and relevance to emerging missions. 
These initiatives all serve to re-shape and re-balance the Army to 
better meet the National Defense Strategy. During Program Objective 
Memorandum 2004 (POM 04), the Army addressed high-demand force 
structure shortfalls by adjusting approximately 19,500 active and 
Reserve component spaces of force structure.
    Restructuring efforts will be done with the intent of reducing 
stress, promoting quality of life, enhancing readiness, and enabling 
the Army to comply with and support the OSD objectives.

                        NON-LINE OF SIGHT CANNON

    6. Senator Inhofe. General Schoomaker, as you know from our earlier 
discussions, I am very interested in the non-line of sight (NLOS) 
cannon and its development and fielding. When Crusader was cancelled, 
the Army sent to Congress reports that clearly articulated the need for 
a ``Crusader like'' capability by 2008. We worked with DOD and the Army 
and the NLOS cannon seemed to be the logical solution. As LTG Brown 
stated in his advance answers to questions for this committee, ``As the 
technology of our adversaries continues to increase, we must ensure 
ours is always better.'' Several countries make artillery pieces better 
than the Paladins our soldiers use today. Additionally, lessons that 
are emerging from Afghanistan and Iraq still point to the need for 
artillery 24 hours in all weather. It seems we have learned this 
lesson, over and over again. What are your thoughts about the NLOS 
cannon and the need for artillery in today's Army?
    General Schoomaker. As the Army continues to transform, we fully 
recognize that the need to provide timely and accurate fires on the 
battlefield will remain a necessity. Both now and for the foreseeable 
future, the Army's cannon, rocket, and missile fires will be called 
upon to supply overwhelming firepower in support of the global war on 
terror.
    The NLOS cannon is one of a host of systems currently under 
development to meet the Army's future indirect fire needs. The system's 
projected improvements in precision, range, mobility, and 
responsiveness will provide a significant enhancement to the lethality 
of our forces. The current fiscal year 2004 budget includes $353.2 
million earmarked specifically for the creation of this new indirect 
fire system. In August, we will hold our congressionally mandated 
system demonstration--a full month ahead of schedule. The program is on 
target to field a capability to the force by 2008. The NLOS cannon is 
an integral step in the development of the Army's Future Combat System 
(FCS) and will remain a vital component of our overall transformation 
process.

    7. Senator Inhofe. General Schoomaker, are you as committed as your 
predecessor to ensuring that our soldiers have the best equipment?
    General Schoomaker. The Army remains committed to providing our 
soldiers with the best equipment. The NLOS cannon is the primary 
indirect fire support system for our future forces. The Army is 
committed to the NLOS cannon as an integral piece of FCS, and we are 
pursuing NLOS cannon development as the lead system in the FCS Manned 
Ground Vehicle Family of Systems.
    One of the congressional mandates for the fiscal year 2003 
appropriation included building an NLOS-C demonstration vehicle as part 
of the NLOS-C Concept Technology Demonstration program. The NLOS cannon 
demonstrator was delivered on schedule in July and is now undergoing 
testing in support of the FCS program. The purpose of this demonstrator 
is to validate engineering design concepts, which include firing a 
large caliber weapon on a lightweight platform, automated ammunition 
handling processes, laser ignition, hybrid-electric drive, and band 
track mobility.
    By the end of fiscal year 2003, the demonstrator will have fired 
over 80 rounds to include rate-of-fire and stability testing. In fiscal 
year 2004, this same demonstrator will complete its mobility testing. 
Lessons learned will be used to develop the final NLOS cannon 
prototypes that are planned for testing in fiscal year 2006 as part of 
the FCS family of systems. It is this vision of the NLOS cannon 
operating within a network of direct, indirect, and joint fires that 
will allow the Army to defeat the threats associated with the future 
operating environment.

                       MAINTAINING CURRENT FORCES

    8. Senator Inhofe. General Schoomaker, many members have asked 
questions of the Army during the past several years about the balance 
of maintaining the current forces and investing in the future. The Army 
has invested tremendously in Future Combat Systems and some feel they 
have neglected some of the so-called legacy systems. What are your 
thoughts on this balance?
    General Schoomaker. There is a continuing need to balance programs 
and investments between the immediate readiness needs of today and the 
projected needs of tomorrow. This may periodically require rebalancing 
individual components in light of the strategic environment and 
operational experiences. Our future force will be the guarantor of 
tomorrow's security, and thus, warrants sufficient investment to make 
it a reality for the next generation. Prioritization of our precious 
national resources to field and support these elements of our Army is 
the responsibility of the Army's leadership in coordination with the 
Office of the Secretary of Defense and ultimately in deference to the 
decisions of Congress. The present balance in prioritization appears 
sound. That said, we have the processes in place to ensure that a 
serious reevaluation can periodically be made to determine adjustments 
required due to changing circumstances.

    9. Senator Inhofe. General Schoomaker, what are your plans for 
maintaining today's forces and investing in the future?
    General Schoomaker. We have a thoughtful and analytically sound 
balance between what we invest in for today's force and what we devote 
to future capabilities. The current force's readiness will always be a 
priority and receive adequate resources. This priority has always been, 
and will remain, the maintenance of adequate warfighting capabilities 
in the current force. There is always a continual challenge to ensure 
proper balance between meeting today's requirements and those of the 
future. The Army has maintained this balance in a very responsible way 
throughout the transformation process. The balance is never static; it 
is constantly evolving and frequently reevaluated to meet the demands 
of existing operational environments.

                      RETURN OF DEPLOYED SOLDIERS

    10. Senator Inhofe. General Schoomaker, many family members of 
Guard and Reserve Forces have contacted members of this committee with 
questions about when they will come home. They have done a tremendous 
job and we are all indebted to the service members and their families. 
We need to retain them and the support of their employers when they 
return. Here is a perfect opportunity to deliver a message to those 
service members, their families, and their employers. What can you tell 
them about rotations, sacrifice, et cetera?
    General Schoomaker. The war on terror has required, and will 
require, tremendous sacrifice on the part of all the Army's soldiers 
and their families. We are proud of the service and contributions of 
our citizen-soldiers in the Guard and Reserve, and we are immensely 
grateful for the sacrifices made by their families and their employers. 
The Army is working hard to ensure that those sacrifices are rightly 
acknowledged. We are closely examining several factors, including our 
force balance, mobilization procedures, and rotation policies to ensure 
they are structured in a manner that allows soldiers to know when they 
are most likely to deploy and for how long. By providing that form of 
predictability, and by managing expectations, we can avoid many undue 
hardships on the part of our soldiers, their families, and their 
employers.

                      COMBAT SUPPORT AND STRUCTURE

    11. Senator Inhofe. General Schoomaker, we always want to ensure 
that our forces are structured to maximize our combat, combat support, 
and combat service support structure and ensure that it is balanced 
properly between the active and Reserve components. As we came out of 
Operation Desert Storm in 1991, the Army Science Board determined we 
had too little field artillery and recommended a plus up to the non-
divisional field artillery structure, and the Army complied. Now, 
nearly 12 years later, I'm beginning to hear the Army may be 
considering cutting back on our non-divisional field artillery 
structure. I can fully appreciate the joint capabilities from other 
services, but I also know that in bad weather much of that joint 
capability is diminished just as it was shortly after Operation Iraqi 
Freedom was launched. The analysis I've examined does not support the 
cutting of our active component non-divisional field artillery 
structure in the Army. What analysis have you reviewed that suggests 
differently, and what are your thoughts on maintaining a robust non-
divisional field artillery structure in the active component to 
directly support our joint force, corps, division, and brigade 
commanders?
    General Schoomaker. The Army Staff, in conjunction with the Field 
Artillery Center, has recently completed an evaluation of field 
artillery force structure based upon an assessment of contingency 
requirements. The study focused on examining field artillery 
capabilities in the context of the systems approach vice a simple 
analysis of the number of individual weapons. The effort attempted to 
determine the optimal mix of cannon and rocket battalions that would 
result in increased lethality and survivability, as well as the best 
command and control structure for these systems.
    It is true that the emerging recommendations include a reduction of 
field artillery force structure. However, our studies indicate that the 
risk attributable to the reduction in numbers of weapons and 
headquarters is more than adequately offset by the fielding of advanced 
field artillery system enablers, such as Multiple Launch Rocket Systems 
(MLRS), High Mobility Rocket Systems (HIMARS), and advanced munitions 
for both rocket and cannon artillery. We intend to maintain a non-
divisional field artillery force structure fully capable of providing 
robust and responsive indirect fire support to the maneuver commander.

    12. Senator Inhofe. General Schoomaker, could you provide me with a 
briefing about this subject?
    General Schoomaker. I welcome the opportunity to brief you at your 
convenience.
                                 ______
                                 
             Question Submitted by Senator Daniel K. Akaka

                            STRYKER BRIGADES
 
   13. Senator Akaka. General Schoomaker, as you continue to assess 
the transformation of the Army, do you foresee supporting the 
continuation of funding for the last two Stryker Brigades?
    General Schoomaker. The Army is resourced for six Stryker Brigade 
Combat Teams to contribute to the ``1-4-2-1'' defense construct and 
national security requirements. As directed by the Office of the 
Secretary of Defense, the Army has provided a plan for potential 
enhancements for Stryker Brigades five and six.
    Pending Secretary of Defense approval, fielding for the fifth 
Stryker Brigade in Hawaii begins in October 2005 and will be complete 
in early 2007. Equipment fielding for the sixth Stryker Brigade in the 
Pennsylvania Army National Guard begins in January 2006 and will be 
complete in 2008.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton

                          NEW YORK FACILITIES

    14. Senator Clinton. General Schoomaker, New York has a number of 
important Army facilities that play an important role in our Army's 
future. There is, of course, Fort Drum in New York's North Country. 
Fort Drum is the home of the 10th Mountain Division, which is the most 
frequently deployed division in the Army. Troops from the 10th Mountain 
Division fought in Operation Enduring Freedom in Afghanistan and served 
in the recent war in Iraq. The Pentagon recently announced that troops 
from the 10th Mountain Division are once again being deployed to 
Afghanistan. As I mentioned during your visit to my office, I hope I 
have the opportunity to visit Fort Drum with you so you can see 
firsthand this impressive facility and the men and women who serve 
there.
    Another important Army facility in New York is the Watervliet 
Arsenal. As you may know, since 1813, Watervliet Arsenal has played a 
vital role in arming our military and supporting our Nation and is our 
Nation's only manufacturing facility for large caliber cannon in 
volume. Benet Labs, on the site of the Arsenal, performs scientific and 
engineering activities that range from basic research through design 
for production and engineering support for the production of its design 
items. No other Arsenal in the United States can boast of this type of 
resource. I believe that maintaining Watervliet's manufacturing ability 
is critical for our national security. A few months ago, I visited 
Watervliet Arsenal and Benet Labs and was greatly impressed by the 
leadership and the workforce that I met.
    One of New York's crown jewels is the U.S. Military Academy at West 
Point. I plan to visit West Point soon and am proud that the Army's 
service academy is in my state. Finally, Fort Hamilton in Brooklyn is 
an Army installation with an impressive history that played a critical 
role after the terrorist attacks after September 11.
    Can you describe your views on the role that each of these 
installations will play in the Army's future?
    General Schoomaker. I too applaud the impressive contributions each 
of these installations has made to our Nation. The Army is currently 
analyzing all of its installations under the guidance of BRAC 2005 
legislation to ensure that we align our bases in support of the defense 
strategy and Army transformation. The capabilities afforded by all 
installations, to include those located in New York and their 
respective surrounding areas, will be fully considered. As we look for 
opportunities for greater joint training and operations, and to cut 
excess, we will treat every installation fairly. This process will, in 
part, determine exactly what roles the installations in New York will 
have in the future.

                     STRAIN ON GUARD AND RESERVISTS

    15. Senator Clinton. General Schoomaker, on July 28, 2003, The 
Washington Post had a story about the strain that the current 
deployment in Iraq has had on a family from Maryland where the father 
is a military policeman serving in Iraq. Indeed, many of us are hearing 
about the strains being placed on National Guard members and Reservists 
by the deployments in both Afghanistan and Iraq. What are your thoughts 
about the balance between our Active-Duty Force and our National Guard 
and Reserve components?
    General Schoomaker. The Army acknowledges an imbalance of 
capabilities between our Active and Reserve components and shares the 
Secretary of Defense's urgency in effecting the necessary changes in 
support of fixing that balance. Our Reserve components are already 
undergoing a significant transformational process targeted to enhance 
jointness, responsiveness, and relevance to emerging missions. These 
initiatives will directly impact readiness, availability, and Reserve 
component roles and missions. We plan to accelerate the adjustments in 
the mix of forces and to undertake other initiatives to enhance our 
utilization of the Reserve components.
    The Army is preparing to move capabilities associated with critical 
early deployment requirements from the reserve to the Active Force to 
reduce involuntary mobilization of the Guard and Reserve for rapid 
response operations. The realignment includes an assessment of the 
current active-Reserve component mix required for ongoing operations, 
homeland defense, and critical post-hostilities operations with a focus 
on high-demand combat support and combat service support capabilities. 
Additionally, the Army has already implemented policy changes that 
leverage Reserve component capabilities to meet predictable, long lead-
time missions such as rotational overseas presence in Bosnia, Kosovo, 
the Sinai, and Guantanamo Bay.
    Finally, the Army will implement force readiness improvements 
through reengineering the mobilization and demobilization process and 
instituting greater utilization of reachback capabilities to ensure 
combatant commanders receive the skills and support they require in the 
most expeditious manner. We will reduce the mobilization burden by 
implementing innovative management techniques including policy changes 
that foster an increased reliance on volunteerism.
                                 ______
                                 
    [The nomination reference of Gen. Peter J. Schoomaker, USA 
(Ret.) follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 16, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment as the Chief of Staff, 
United States Army, and appointment to the grade indicated while 
assigned to a position of importance and responsibility under title 10, 
United States Code, sections 688, 601, and 3033:

                             To be General

    Gen. Peter J. Schoomaker (Retired), 0000.
                                 ______
                                 
    [The biographical sketch of Gen. Peter J. Schoomaker 
(Ret.), USA, which was transmitted to the committee at the time 
the nomination was referred, follows:]
    Resume of Career Service of Gen. Peter J. Schoomaker (Ret.), USA
Source of commissioned service: ROTC.

Military schools attended:
    Army Officer Basic Course
    United States Marine Corps Amphibious War School
    United States Army Command and General Staff College
    National War College

Educational degrees:
    University of Wyoming - BS Degree - Education Administration
    Central Michigan University - MA Degree - Management

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                Dates of appointment
------------------------------------------------------------------------
2LT.......................................  1 Jun 69
1LT ......................................  4 Jun 70
CPT.......................................  4 Jun 71
MAJ.......................................  13 Jul 79
LTC.......................................  1 Ju1 85
COL.......................................  1 Jun 90
BG........................................  1 Jan 93
MG........................................  1 Mar 96
LTG.......................................  28 Aug 96
GEN.......................................  31 Oct 97
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Jan 70..........................  Apr 71............  Reconnaissance
                                                       Platoon Leader,
                                                       Headquarters and
                                                       Headquarters
                                                       Company, 2d
                                                       Battalion, 4th
                                                       Infantry, Fort
                                                       Campbell,
                                                       Kentucky
Apr 71..........................  Jun 72............  Rifle Company
                                                       Commander, C
                                                       Company, 2d
                                                       Battalion, 4th
                                                       Infantry, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Jun 72..........................  Apr 73............  Assistant S-3
                                                       (Operations),
                                                       later S-4
                                                       (Logistics),
                                                       Headquarters
                                                       Troop, 1st
                                                       Squadron, 2d
                                                       Armored Cavalry
                                                       Regiment, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Apr 73..........................  Jun 74............  Commander, C
                                                       Troop, 1st
                                                       Squadron, 2d
                                                       Armored Cavalry
                                                       Regiment, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army,
                                                       Germany
Jun 74..........................  Nov 74............  Assistant
                                                       Inspector
                                                       General, 2d
                                                       Infantry
                                                       Division, Eighth
                                                       United States
                                                       Army, Korea
Nov 74..........................  Jul 75............  S-3 (Operations),
                                                       1st Battalion;
                                                       73d Armor, 2d
                                                       Infantry
                                                       Division, Eighth
                                                       United States
                                                       Army, Korea
Aug 75..........................  Jun 76............  Student, United
                                                       States Marine
                                                       Amphibious
                                                       Warfare Course,
                                                       United States
                                                       Marine Corps
                                                       Amphibious
                                                       Warfare School,
                                                       Quantico,
                                                       Virginia
Ju1 76..........................  Feb 78............  Assignment
                                                       Officer, Officer
                                                       Personnel
                                                       Management
                                                       Directorate,
                                                       United States
                                                       Army Military
                                                       Personnel Center,
                                                       Alexandria,
                                                       Virginia
Feb 78..........................  Aug 81............  Detachment
                                                       Commander, 1st
                                                       Special Forces
                                                       Operational
                                                       Detachment-D
                                                       (Airborne), Fort
                                                       Bragg, North
                                                       Carolina
Aug 81..........................  Jun 82............  Student, United
                                                       States Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth,
                                                       Kansas
Jun 82..........................  Aug 83............  Executive Officer,
                                                       2d Squadron, 2d
                                                       Armored Cavalry
                                                       Regiment, United
                                                       States Army
                                                       Europe and
                                                       Seventh Army;
                                                       Germany
Aug 83..........................  Oct 83............  Special Operations
                                                       Officer, J-3,
                                                       Joint Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, North
                                                       Carolina
Oct 83..........................  Feb 84............  Temporary duty on
                                                       the Department of
                                                       Defense
                                                       Commission on
                                                       United States
                                                       Marine Corps
                                                       Terrorist
                                                       Incident in
                                                       Beirut, Lebanon,
                                                       Beirut, Lebanon
Feb 84..........................  Aug 85............  Special Operations
                                                       Officer, J-3,
                                                       Joint Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, North
                                                       Carolina
Aug 85..........................  Aug 88............  Various Command
                                                       Positions, 1st
                                                       Special Forces
                                                       Operational
                                                       Detachment-D,
                                                       Fort Bragg, North
                                                       Carolina
Aug 88..........................  Jun 89............  Student, National
                                                       War College, Fort
                                                       McNair,
                                                       Washington, DC
Jun 89..........................  Jul 92............  Commander, 1st
                                                       Special Forces
                                                       Operational
                                                       Detachment-D,
                                                       Fort Bragg, North
                                                       Carolina
Jul 92..........................  Jul 93............  Assistant Division
                                                       Commander, 1st
                                                       Cavalry Division,
                                                       Fort Hood, Texas
Jul 93..........................  Jul 94............  Deputy Director of
                                                       Operations,
                                                       Readiness and
                                                       Mobilization,
                                                       Office of the
                                                       Deputy Chief of
                                                       Staff for
                                                       Operations and
                                                       Plans, United
                                                       States Army,
                                                       Washington, DC
Jul 94..........................  Aug 96............  Commanding
                                                       General, Joint
                                                       Special
                                                       Operations
                                                       Command, United
                                                       States Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, North
                                                       Carolina
Aug 96..........................  Oct 97............  Commanding
                                                       General, United
                                                       States Army
                                                       Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, North
                                                       Carolina
Nov 97..........................  Nov 00............  Commander in
                                                       Chief, United
                                                       States Special
                                                       Operations
                                                       Command, MacDill
                                                       Air Force Base,
                                                       Florida
------------------------------------------------------------------------


Summary of joint assignment:

------------------------------------------------------------------------
           Assignment                    Dates               Grade
------------------------------------------------------------------------
Army Special Operations Officer   Aug 83-Oct 83.....  Major
 J-3 (Operations), Joint Special
 Operations Command, Fort Bragg,
 North Carolina.
Temporary duty on the Department  Oct 83-Feb 84.....  Major
 of Defense Commission on United
 States Marine Corps Terrorist
 Incident in Beirut, Lebanon,
 Beirut, Lebanon (Long
 Commission) (No Joint Credit).
Army Special Operations Officer   Feb 84-Aug 85.....  Major/Lieutenant
 J-3 (Operations), Joint Special                       Colonel
 Operations Command, Fort Bragg,
 North Carolina.
Commanding General, Joint         Jul 94-Aug 96.....  Major General
 Special Operations Command,
 United States Special
 Operations Command, Fort Bragg,
 North Carolina.
Commander in Chief, United        Nov 97-Nov 00.....  General
 States Special Operations
 Command, MacDill Air Force
 Base, Florida.
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal
    Distinguished Service Medal (with Oak Leaf Cluster)
    Defense Superior Service Medal (with 3 Oak Leaf Clusters)
    Legion of Merit (with 2 Oak Leaf Clusters)
    Bronze Star Medal (with Oak Leaf Cluster)
    Defense Meritorious Service Medal (with Oak Leaf Cluster)
    Meritorious Service Medal (with 2 Oak Leaf Clusters)
    Joint Service Commendation Medal
    Joint Service Achievement Medal
    Master Parachutist Badge
    Combat Infantryman Badge
    Ranger Tab
    Special Forces Tab
                  Addendum to Resume of Service Career
Current occupation: President, Quiet Pros, Inc., Tampa, Florida, from 2 
        January 2001 until present time.

Nature, scope, and extent of responsibilities: Self-employed 
        consultant, mentor, and teacher. Sole owner of Florida 
        registered S-Corp.
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial and other 
information of the nominee. The form executed by Gen. Peter J. 
Schoomaker (Ret.), USA, in connection with his nomination 
follows:]

                                                     July 11, 2003.
Hon. John Warner, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of the Chief of Staff, Army. It supplements 
Standard Form 278, ``Public Financial Disclosure Report,'' which has 
already been provided to the committee and which summarizes my 
financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I, my spouse, nor my dependent 
children will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation except as indicated to my answer in part D, paragraph 
3, of the Committee On Armed Services form. To the best of my 
knowledge, there have never been any lawsuits filed against any agency 
of the Federal Government or corporate entity with which I have been 
associated reflecting adversely on the work I have done at such agency 
or corporation. I am aware of no incidents reflecting adversely upon my 
suitability to serve in the position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I trust that the foregoing information will be satisfactory to the 
committee.
            Sincerely, 
                                       Peter J. Schoomaker,
                             General (Retired), United States Army.

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Peter J. Schoomaker.

    2. Position to which nominated:
    Chief of Staff, Army.

    3. Date of nomination:
    June 16, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    December 2, 1946; Detroit, Michigan.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Cynthia Petrosky Schoomaker.

    7. Names and ages of children:
    Wendy (32); Lara (19); Andrew (17).

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    President, Quiet Pros, Inc.
    Defense Science Board.
    Institute for Defense Analyses (IDA) Independent Senior Advisory 
Groups (ISAG) on the Untied States Special Operations Command (U.S. 
SOCOM) and U.S. Army Future Combat System (FCS).

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    Affiliated Computer Services Defense, Inc. (Consulting Agreement, 
Quiet Pros. Inc.)
    Applied Research Associates (Consulting Agreement, DARPA FCS-ISAG, 
Quiet Pros. Inc.)
    Arete Associates (Consulting Agreement, Quiet Pros. Inc.)
    Avici Systems, Inc. (Consulting Agreement, Quiet Pros. Inc.)
    Advanced Vehicle Systems (Consulting Agreement, Quiet Pros. Inc.)
    Benchmark International (Consulting Agreement)
    Booz-Allen and Hamilton, Inc. (Consulting Agreement, Army Wargames)
    Camber Corporation (Advisory Board)
    Camber FSC-ISAG (Consulting Agreement, FCS-ISAG)
    Center for Strategic Leadership (Army War College Honorarium)
    Electronic Warfare Associates Government Systems, Inc. (Board of 
Directors Honorarium)
    First Command Financial Service (Advisory Board Retainer)
    IDA (FCS-ISAG, U.S. SOCOM-ISAG Consultant)
    IDA-Joint Commander Information and Knowledge ISAG (Subcontract)
    IDA-Leader Chairs (Subcontract Leader Development at the school of 
Advanced Military Studies, Fort Leavenworth)
    Joint Chiefs of Staff Seminar (Secretary of Defense Project-
Government Purchase Order)
    LaBelle Ranch, Inc. (Until July 2001)
    Massachusetts Institute of Technology-Lincoln Labs (Honorarium)
    OAO Corporation (Acquired by Lockheed Martin 7 Dec. 01) (United 
States Army Space Command Consulting)
    Science Applications International Corporation (European Army 
Chiefs' Conference, Heidelberg Consulting Agreement)
    Special Operations Warrior Foundation (Pro-bono)
    SYNTEK Tech, Inc. (Consulting Agreement never consummated)
    Titan Systems Corporation (Consulting Agreement and Advisory Board)
    TRW (Consulting Agreement, United States Joint Forces Command, 
Joint Warfighting Center, Capstone, United States Northern Command, 
United States Air Force Space Wargames)
    Special Operations Memorial Foundation (Pro-bono)

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Association of United States Army.
    Special Forces Association (Life).
    Ranger Regiment Association (Life).
    Veterans of Foreign Wars (Life).
    1st Cavalry Division Association (Life).
    Wyoming Alumni Association (Life).
    The National War College Alumni Association (Life).
    Omicron Delta Kappa Honorary Society.
    All Ranks Association (Life).
    Military Officers Association (Old TROA).
    Chairman, Special Operations Memorial Foundation.
    Director/Vice Chairman, Special Operations Warrior Foundation.

    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    Football Scholarship in College.
    Wyoming Athletic Hall of Fame.
    Army Fellow, National War College.
    Honorary Doctorate of Laws Degree, Hampden-Sydney College.
    Distinguished Alumni Award, University of Wyoming.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views. Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                               Peter J. Schoomaker.
    This 11th day of July, 2003.

    [The nomination of Gen. Peter J. Schoomaker (Ret.), USA, 
was reported to the Senate by Chairman Warner on July 30, 2003, 
with the recommendation that the nomination be confirmed. The 
nomination was confirmed by the Senate on July 31, 2003.]
                              ----------                              

    [Prepared questions submitted to LTG Bryan D. Brown, USA, 
by Chairman Warner prior to the hearing with answers supplied 
follow:]
                        Questions and Responses

                            DEFENSE REFORMS

    Question. More than 10 years have passed since the enactment of the 
Goldwater-Nichols Department of Defense Reorganization Act of 1986 and 
the Special Operations reforms. You have had an opportunity to observe 
the implementation and impact of those reforms, particularly in your 
assignments as Commanding General, Joint Special Operations Command, 
and Deputy Commander, United States Special Operations Command.
    The goals of Congress in enacting these defense reforms, as 
reflected in section 3 of the Goldwater-Nichols Department of Defense 
Reorganization Act, can be summarized as strengthening civilian control 
over the military; improving military advice; placing clear 
responsibility on the combatant commanders for the accomplishment of 
their missions; ensuring the authority of the combatant commanders is 
commensurate with their responsibility; increasing attention to the 
formulation of strategy and to contingency planning; providing for more 
efficient use of defense resources; enhancing the effectiveness of 
military operations; and improving the management and administration of 
the Department of Defense.
    Do you agree with these goals?
    Answer. Absolutely. The defense reforms enacted enhanced the 
authority and responsibility of military commanders, even as they 
appropriately strengthened civilian control over the military.
    Question. What do you consider to be the most important aspects of 
these defense reforms?
    Answer. The most important aspects of these defense reforms were 
clearly delineating the chain of command, firmly establishing the roles 
of the unified and specified combatant commands as warfighters, and 
requiring the Armed Forces to function as a joint force. Without these, 
the Services have made significant strides toward joint operations as 
was demonstrated so superbly in Operations Enduring Freedom and Iraqi 
Freedom (OEF/OIF) because of the Goldwater-Nichols Act.
    Question. Do you believe that legislative proposals to amend 
Goldwater-Nichols may be appropriate? If so, what areas do you believe 
it might be appropriate to address in these proposals?
    Answer. I believe Goldwater-Nichols is working very well, and know 
of no need to amend it at this time.
    Question. Do you believe that the role of the combatant commanders 
under the Goldwater-Nichols legislation is appropriate and the policies 
and processes in existence allow that role to be fulfilled?
    Answer. Yes.
    Question. From the perspective you have gained in your previous 
assignments, do you believe that the authority and responsibility of 
the combatant commanders, in general, and the Commander, United States 
Special Operations Command, in particular, are appropriate?
    Answer. Yes.

                             RELATIONSHIPS

    Question. Section 162(b) of title 10, United States Code, provides 
that the chain of command runs from the President to the Secretary of 
Defense and from the Secretary of Defense to the combatant commands. 
Other sections of law and traditional practice, however, establish 
important relationships outside the chain of command. Please describe 
your understanding of the relationship of the Commander, U.S. Special 
Operations Command, to the following offices:
    The Under Secretaries of Defense.
    Answer. The Under Secretaries of Defense were established to assist 
the Secretary of Defense in specific functional areas: Policy, 
Comptroller, Acquisition and Technology, Intelligence, and Personnel 
and Readiness. These under secretaries provide coordination and the 
exchange of information with Department of Defense components having 
collateral or related functions, which include the combatant 
commanders. Combatant commanders are expected to respond and 
reciprocate. I would anticipate frequent interaction with the under 
secretaries, particularly in the development of military policy and the 
acquisition process. The law requires that coordination activity be 
communicated through the Chairman of the Joint Chiefs of Staff.
    Question. The Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict.
    Answer. Title 10 U.S.C., section 138, establishes the duties of the 
Assistant Secretary of Defense for Special Operations and Low-Intensity 
Conflict. He is the principal civilian advisor to the Secretary of 
Defense on special operations and low intensity conflict matters as 
well as the senior management official within the Department for 
special operations and low intensity conflict. These responsibilities 
include the overall supervision (including oversight of policy and 
resources) of special operations and low intensity conflict activities 
of the Department. While U.S. SOCOM has the principal responsibility 
for the readiness and preparation of Special Operations Forces (SOF) in 
support of the geographic combatant commanders, U.S. SOCOM's ability to 
execute those missions would be greatly hindered without the sound 
policies and oversight, interagency coordination, and advocacy provided 
by the Assistant Secretary of Defense for Special Operations and Low-
Intensity Conflict. I believe that this civilian oversight enhances 
U.S. SOCOM's ability to carry out its missions. The relationship 
provides a key source of advice and information to both the Secretary 
of Defense and the Chairman of the Joint Chiefs of Staff.
    Question. The Assistant Secretary of Defense for Homeland Defense.
    Answer. With the stand up of U.S. Northern Command (NORTHCOM) and 
their principal mission of homeland defense, U.S. SOCOM's relationship 
with the Assistant Secretary of Defense for Homeland Defense will be 
linked, to a great degree, with U.S. SOCOM's relationship to the 
NORTHCOM commander. I anticipate close coordination and cooperation to 
determine the role of SOF in Homeland Defense and to determine military 
support necessary to protect the United States and its citizens during 
times of national emergency.
    Question. The Chairman of the Joint Chiefs of Staff.
    Answer. The Chairman of the Joint Chiefs of Staff's (CJCS) 
responsibilities are clearly delineated in title 10 U.S.C., section 
153. He serves as the principal military advisor to the President and 
Secretary of Defense. The CJCS serves as an advisor but is not in the 
direct chain of command that runs from the President and Secretary of 
Defense directly to the combatant commanders. However, there are 
provisions for the President to direct communications between him or 
the Secretary of Defense and the combatant commanders be transmitted 
through the CJCS. This ensures the chairman stays informed in order to 
execute his other responsibilities. I see it as a commander's duty to 
work with and through--but never around--the chairman in the execution 
of Presidential and Secretary of Defense-directed taskings.
    Question. The Vice Chairman of the Joint Chiefs of Staff (VCJCS).
    Answer. The functions of the Vice Chairman of the Joint Chiefs of 
Staff are prescribed under title 10 U.S.C., section 154. The vice 
chairman is a member of the Joint Chiefs of Staff, and when the 
chairman is absent, or disabled, the vice chairman acts in his stead. 
The Joint Requirements Oversight Council (JROC) responsibilities are 
delegated to the vice chairman. The VCJCS also regularly represents the 
Chairman on the Interagency Deputy's Committee, the Defense Acquisition 
Board, and other boards and councils as necessary. Thus, the VCJCS 
plays an essential role for the CJCS in fulfilling his principal 
military advisor obligations. Communication between a combatant 
commander and the VCJCS is as critical as it is with the CJCS.
    Question. The Secretaries of the Military Departments.
    Answer. The secretaries of the military departments are responsible 
for the administration and support of the forces they provide to the 
combatant commands. The responsibilities are outlined in title 10 
U.S.C., section 165, which notes that the secretaries are subject to 
the authority, direction, and control of the Secretary of Defense. The 
combatant commander's authority over service components including those 
forces assigned to him is clear, but requires close coordination with 
the secretaries to ensure no infringement on those lawful 
responsibilities the Service Secretary alone may discharge.
    Question. The Service Chiefs.
    Answer. While the Service Chiefs are no longer in the chain of 
command, they do have two significant roles. First, they are 
responsible for the organization, training, and equipping of their 
respective services. Without the full support and cooperation of the 
Service Chiefs, no combatant commander can hope to ensure the 
preparedness of his assigned forces for presidential directed missions. 
Second, as members of the Joint Chiefs of Staff, the Service Chiefs 
provide military advice to the President and Secretary of Defense. 
Individually and collectively, the Joint Chiefs are a source of 
experience and judgment that every combatant commander can call upon; 
it would be a privilege to work with them. If confirmed as Commander, 
U.S. SOCOM, I intend to continue a full dialogue with the Chiefs of all 
the Services.
    Question. The other combatant commanders.
    Answer. Today, more than ever, as U.S. SOCOM takes on the global 
war on terrorism, I look forward to close, mutual support and continued 
dialogue on key issues with the other combatant commanders, as well as 
frequent face-to-face contact. The combatant commanders define 
requirements for their respective areas of operational responsibility, 
an effort that assists U.S. SOCOM in defining its support requirements. 
In my relationship with combatant commanders, I will foster an 
atmosphere of teamwork and complete trust, which I believe is critical 
to executing U.S. national policy and meeting the commanders' theater 
requirements.

                             QUALIFICATIONS

    Question. If confirmed, you will be entering this important 
position at a critical time for the United States Special Operations 
Command.
    What background and experience do you have that you believe 
qualifies you for this position?
    Answer. I have over 36 years of military service in the United 
States Army, having entered as a private in 1967. My military 
background includes assignments in Army conventional and special 
operations units, and joint Special Operations units. I began my 
Special Operations career as a Green Beret Sergeant on a Special Forces 
A Team. Subsequently, I commanded at all levels to include three 
company commands, two battalion commands, and a brigade command--at the 
only Special Operations aviation brigade. Additionally, I served for 30 
months as the Directory for Strategy, Policy and Plans at Headquarters, 
U.S. Special Operations Command (U.S. SOCOM), and commanded the Joint 
Special Operations Command and U.S. Army Special Operations Command, 
both located at Ft. Bragg, North Carolina.
    My experience in special operations includes command of forces and 
management of resources. I have had the honor of command in combat and 
have directed requirements reviews, programming, planning and budgeting 
for all SOF. Because of my experience in the conventional Army, I also 
understand how special operations can support and be supported by 
general purpose forces.
    As the Deputy Commander, U.S. SOCOM, I am the principal advisor and 
assistant to the commander--responsible for preparing SOF to conduct 
special operations missions worldwide. On a daily basis, I am involved 
in the areas of: global war on terrorism; acquisition of special 
operations equipment; intelligence and information operations; 
operations, plans, and policy; and force structure, requirements, 
resources, and strategic assessments. My military experience to date 
uniquely qualifies me to lead the joint services of U.S. SOCOM.

                    MAJOR CHALLENGES/LESSONS LEARNED

    Question. In your view, what are the major challenges confronting 
the next Commander, U.S. Special Operations Command?
    Answer. U.S. SOCOM faces three significant challenges: planning and 
directing the global war on terrorism, preserving the readiness of our 
Special Operations Forces (SOF), and transforming to make our SOF more 
agile, adaptive, and responsive. The terrorist threats we face are 
pervasive, asymmetric, highly adaptive, and elusive. We must meet and 
defeat this global threat at a time and place of our choosing. 
Regarding readiness, our current OPTEMPO is the highest it has ever 
been in our history. This will continue to be a major challenge to 
readiness until the threat of terrorism is abated and the level of 
global security is improved. Finally, the challenge of transforming is 
ever-present and successful transformation will be key in defeating 
future threats to our national security. We must face these challenges 
head on.
    Question. What are the most important lessons you have learned 
during your tenure in senior leadership positions in the Special 
Operations community?
    Answer. People continue to be the key to success. Our ability in 
special operations to attract, recruit, assess, train, and retain the 
right people is crucial. People with the right mentality for ambiguous 
situations and out-of-the box thinking; people that can master hi-tech, 
and are still comfortable operating in a world where there is low-tech, 
such as the mountains of Afghanistan; people that are dedicated to the 
mission, and willing to endure incredible sacrifice. These are the keys 
to effective SOF.
    Additionally, there is no substitute for readiness--it is non-
negotiable. We must be ready to fight tonight with all the capabilities 
we bring to the battlefield. If confirmed, readiness for the global war 
on terrorism is my most important issue.
    Question. If confirmed, what plans do you have for addressing these 
challenges?
    Answer. Long-term success in the global war on terrorism depends 
largely upon our ability to quickly employ a sustainable mix of 
capabilities with little advance warning. To address this challenge, 
U.S. SOCOM has recently undergone a major reorganization to stand up a 
warfighting center to specifically focus on the war on terrorism and 
empowered to coordinate all elements of our national power against it. 
If confirmed, I will continue to focus on building teamwork and work 
closely with my fellow combatant commanders and other government 
agencies which have a significant role to play in the global war on 
terrorism. As mentioned previously, the combatant commanders define 
requirements for their respective areas of operational responsibility, 
an effort that assists U.S. SOCOM in defining its support requirements. 
In my relationship with combatant commanders, I will foster an 
atmosphere of teamwork and complete trust. Of equal importance, other 
government agencies bring the full complement of our national power to 
bear. I fully understand that U.S. SOCOM cannot prosecute this unique 
war by itself and that it is a fully collaborative effort. We must 
continue to apply consistent offensive pressure against terrorist 
organizations around the globe, keep the terrorists on the run, off 
balance, and well away from America's shores.
    Readiness of the SOF is a statutory responsibility that U.S. SOCOM 
has historically done well. To address the OPTEMPO challenge to our 
readiness, we must continue to closely prioritize what missions SOF 
take on, while at the same time emphasize our focus on the human 
element. Two of the command's guiding principles are that our people 
are more important than their hardware and that quality is more 
important than quantity. Selection, assessment, training, and retention 
of quality people will be keys to maintaining the readiness of our SOF.
    Regarding transformation, we must continue to fund critical 
acquisition and modernization programs while at the same time refine 
tactics, techniques, and procedures that enhance the capabilities of 
our precision forces. Additionally, we must ensure our equipment and 
procedures are interoperable with conventional and coalition forces so 
we can serve as a force multiplier in larger conflicts. The technology 
of our adversaries continues to increase, we must ensure ours is always 
better.

                         MOST SERIOUS PROBLEMS

    Question. What do you consider to be the most serious problems in 
the performance of the functions of Commander, U.S. Special Operations 
Command?
    Answer. In my opinion, the most serious problems for the Commander 
U.S. SOCOM are not problems, but issues of prioritization. U.S. SOCOM's 
traditional responsibilities to man, train, and equip SOF have not 
changed and will continue to be performed--to the standards validated 
by successes in OEF/OIF. Charged by the Secretary of Defense with the 
lead in the war on terrorism, U.S. SOCOM will now face the challenge of 
prioritizing a global warfighting function, commensurate with the war 
on terrorism, along with these traditional service-like functions.
    Question. What management actions and time lines would you 
establish to address these problems?
    Answer. To address U.S. SOCOM's warfighting function, the 
headquarters has stood up the Center for Special Operations (CSO) and 
is continuing the refinement of time sensitive planning which 
streamlines operational mission planning and senior leadership decision 
making and breaks down barriers between Department of Defense and other 
government agencies. The time line for this refinement and CSO's 
operational capability is ongoing.
    U.S. SOCOM will continue to manage OPTEMPO and prioritize special 
operations deployments as they relate to the global war on terrorism. 
U.S. SOCOM has already transitioned missions to conventional forces 
that were not special operations-unique in nature. Missions such as 
training foreign militaries in basic infantry tactics have largely been 
handed off to conventional forces, including the marines. U.S. SOCOM 
will have to continue to be highly selective in Special Operations 
employment taskings that could be drawn from the larger conventional 
force. For example, deployment orders currently written for SOF now 
must directly or indirectly support the global war on terrorism.
    U.S. SOCOM must continue to manage its resources, both the 
budgetary and human aspect. Management of our MFP-11 budget must be 
consistent with and support our new warfighting mission while helping 
us transform. The additional $1.7 billion proposed for fiscal year 2004 
is an essential step in building a more robust SOF capable of 
responding effectively to this mission, now and in the future. 
Additionally, the human resource challenges that could result from our 
current high OPTEMPO need to be managed closely. While it is difficult 
to put a suspense date on OPTEMPO management actions, with gradual and 
measurable successes in the global war on terrorism, prioritization of 
SOF deployments, and an improvement in the current level of global 
stability, OPTEMPO will gradually reduce.

                        OPERATION IRAQI FREEDOM

    Question. From your perspective as Deputy Commander, United States 
Special Operations Command, what are the main ``lessons learned'' from 
Operation Iraqi Freedom, including the ongoing stability operations?
    Answer. Some of the key lessons learned involved Special Operations 
training and doctrine, early employment of Special Operations, and 
joint force integration. Training and doctrine was validated on the 
battlefield. Special Operation's high selection standards were evident 
and relevant and their regional and cultural orientation greatly 
contributed to our successes. Early Special Operations engagement is 
imperative. Special Operations engaged in advance of combat operations 
proved successful and critical. This concept was a major contributing 
factor for successful operations in Northern Iraq. The integration of 
Special Operations with conventional forces was a major success. There 
are examples throughout Operation Iraqi Freedom of conventional units 
under the operational control (OPCON) of SOF commanders and SOF units 
OPCON to conventional commanders.
    Question. What are the operational, research and development, and 
procurement implications of those lessons?
    Answer. Special Operations' lessons-learned from both OEF/OIF 
validated the need, focus, and importance of U.S. SOCOM's Advanced 
Technology Program. The program quickly responded with technology 
enhancements for situational awareness, communications, individual 
equipment, and medical items for our Special Operations units. Specific 
technology successes included use of small unit unmanned aerial 
vehicles, improved operator protection with the Special Operations body 
armor systems, and dramatically improved communications capabilities. 
Additionally, the Advanced Technology Program has been refocused on the 
current and emerging SOF requirements for the global war on terrorism. 
Key elements of our recent program successes were Defense Emergency 
Response Funds that facilitated rapid acquisitions and the ability of 
our research, development, and procurement programs to transform those 
funds into operational capabilities, in some cases within days.
    Question. How would you assess the adequacy of Special Operations 
Forces provided to Central Command, both in terms of quantity and mix, 
to conduct Operation Iraqi Freedom?
    Answer. Based on the outstanding results of Special Operations 
missions throughout Iraq, but especially in the West and North, the 
quantity and mix of SOF proved to be about right. Without exception, 
U.S. SOCOM filled every request for forces (RFF) submitted by Central 
Command in support of Operation Iraqi Freedom. U.S. SOCOM also provided 
all SOF necessary to support two Combined Joint Special Operations Task 
Forces established by Special Operations Command--Central Command in 
the area of operations. This included 152 Special Operations-skilled 
reservists (individual augmentees) and, at its peak, 7,270 Special 
Operations personnel deployed in support of Operation Iraqi Freedom.

                             TRANSFORMATION

    Question. As a result of your role in Operation Iraqi Freedom and 
in Operations Desert Shield and Desert Storm, you are familiar with the 
requirements affecting U.S. Special Operations Command (SOCOM) both as 
a supporting and supported command.
    Do current transformation initiatives adequately support SOCOM's 
future requirements?
    Answer. U.S. SOCOM has identified means in the materiel, 
organization, and doctrine categories that will spark and support 
transformation within Special Operations that include: the CV-22 
Osprey, the Advanced Seal Delivery System (ASDS), the MX aircraft (to 
supplement our C-130 variants), Naval Special Warfare's 21st century 
realignment and Army Special Operations Aviation 21st century 
reorganization initiatives, and improved theatre Special Operations 
Command (SOC) capabilities. These initiatives, along with our 
headquarters reorganization and focus, and re-positioning of forces, 
posture U.S. SOCOM well to pursue its critical objectives and primary 
mission in the global war on terrorism. Transformation across the 
entire Department of Defense augurs an increasing integration of 
current conventional and Special Operational capabilities. Staying 
relevant in a dynamic future operating environment also demands we 
continue to implement enhancements in collaborative planning, 
information technologies and interoperability. The evolution of the 
threats facing our Nation and military demands that Special Operations 
Forces remain agile, flexible, dynamic, and inculcate innovation into 
the future as a core competency.
    Question. How will the Army's transformation impact SOCOM's current 
operations?
    Answer. Because of the relationship between the Army and U.S. SOCOM 
in the areas of organizing, training, and equipping the force, Army 
transformation efforts enhance U.S. SOCOM's operations, current and 
long-term. Army programs--aimed at organizing into a lighter, faster 
force--parallel Special Operation's doctrine, and SOF are directly 
involved in Army efforts. Special Operations personnel have been 
imbedded in the Stryker Brigades, and lessons learned from Operation 
Iraqi Freedom will show how conventional and SOF successfully worked 
together on the battlefield. Additionally, SOF are assisting in the 
development of training programs, such as close quarters combat, where 
we are more operationally experienced. U.S. SOCOM will benefit from 
these efforts as conventional Army and SOF become more proficient in 
supporting each other because of quality training. Finally, Services 
are responsible for fielding non-Special Operations unique equipment to 
SOF. As a result, any equipment enhancements realized in the Army will 
be immediately available to SOF. In some cases, Special Operations-
unique equipment has been provided to the Army for transformation test 
and evaluation. There are no negative impacts, and the transfer of 
lessons learned and equipment benefit both organizations.

                              AFGHANISTAN

    Question. Almost 2 years after securing a military victory against 
the Taliban and al Qaeda in Afghanistan, that nation remains a place 
with areas of unrest.
    What is your assessment of the current situation in Afghanistan?
    Answer. I have made numerous trips to that region over the past 18 
months, to include being there just 2 weeks ago. Significant progress 
has been made in the last 18 months. I have seen significant progress 
made in the last 18 months. Thanks to the efforts of the coalition, 
which included SOF, the Taliban no longer control the government or 
provinces. Moreover, al Qaeda has been denied freedom of operations 
within the country. Significant challenges remain. We continue to 
pursue Osama bin Laden, his key lieutenants, and other high value 
targets. I believe that effort critical. I am encouraged that the 
Islamic Transitional Government of Afghanistan is established in Kabul, 
provinces outside Kabul are beginning to rebuild efforts, and elections 
are scheduled for the summer of 2004. Civil affairs has been a crucial 
part of this reconstitution of the infrastructure and government. There 
remains much to be done, and SOF will be a critical component in the 
coalition's efforts. With continued emphasis on stability operations 
and reconstruction, and with the support of the international 
community, I am confident our Nation's long-term goals will be 
achieved.
    Question. In your view, what is the appropriate role of Special 
Operations Forces as Afghanistan transitions to a more stable, 
democratic, and economically viable nation?
    Answer. The role of SOF in pursuing bin Laden and other high value 
targets remains appropriate. In addition, Special Operations assist in 
rebuilding the Afghani infrastructure through continued civil affairs 
projects, which earn and maintain the trust of the Afghani people, and 
through information operations that support the message of freedom and 
support to these formerly repressed people. SOF continues to support 
Central Command's goals and objectives in the region.

                          COMBATING TERRORISM

    Question. If confirmed, you would play an integral role in the 
Department's combating terrorism mission.
    Which Department of Defense official provides the primary civilian 
oversight with regard to SOCOM's combating terrorism mission?
    Answer. Combating terrorism has two aspects; counterterrorism 
(offensive measures) and antiterrorism (defensive measures). The 
Assistant Secretary of Defense for Special Operations and Low Intensity 
Conflict, through the Department of Defense Antiterrorism Coordinating 
Committee, provides policy oversight and guidance to Department of 
Defense Components in support of respective antiterrorism and 
counterterrorism program efforts. With respect to the planning and 
execution of counterterrorism missions as a combatant commander, if 
confirmed, I would not hesitate to deal directly with the Secretary of 
Defense through, and in coordination with, the Chairman of the Joint 
Chiefs.
    Question. What other Department of Defense officials would be 
involved in oversight of SOCOM's combating terrorism mission?
    Answer. Again, as a combatant commander, coordination directly 
through the Chairman of the Joint Chiefs of Staff to the Secretary of 
Defense for any deployments of SOF supporting our warfighting mission 
would occur. As a functional combatant commander, U.S. SOCOM interacts 
directly with the Chairman, Joint Chiefs of Staff to coordinate any 
emergent, unforeseen requirements that MFP-11 or the Services could not 
fund. Through U.S. SOCOM's representative to the Department of Defense 
Antiterrorism Coordinating Committee, U.S. SOCOM would interact with 
various Departmental representatives from the Services, the under 
secretaries and assistant secretaries on a routine basis along with the 
defense support agencies.

                            FORCE PROTECTION

    Question. The bombing of Khobar Towers in 1996, U.S. embassies in 
Africa in 1998, U.S.S. Cole in 2000, and the recent suicide bombing at 
housing compounds in Saudi Arabia, illustrate the dangers our personnel 
deployed in the CENTCOM Area of Responsibility (AOR) and their families 
live with on a daily basis.
    If confirmed, what would your top priorities be in terms of force 
protection for SOCOM forces in the CENTCOM AOR?
    Answer. Thirty-six years of military service have ingrained in me 
the importance of taking care of our service members. I fully 
appreciate the awesome responsibility we have to do everything within 
our power to safeguard them. If confirmed, my task as Commander, U.S. 
SOCOM would be to emphasize the importance of force protection to the 
people of this command. Only through my emphasis will they realize the 
criticality of resourcing and executing force protection to the fullest 
extent possible. I will instill in all 46,000 assigned, not just those 
in the Central Command area of operations, that force protection is a 
mission essential task. I will work closely with the other combatant 
commanders to ensure our personnel are being protected and utilized in 
appropriate Special Operations roles. I would set standards for pre-
deployment training focused on SOF and field key force protection 
equipment that would enhance the security of SOF in all geographic 
combatant commanders' areas of operation. I would not hesitate to get 
involved with any combatant commander if I felt there was any reason to 
be concerned about the safety of Special Operations personnel. It is a 
SOF truth that ``humans are more important than hardware;'' without 
those men and women the hardware does matter.
    Question. What additional steps, if any, need to be taken to ensure 
that personnel being deployed on SOCOM missions are fully prepared for 
potential threats?
    Answer. Our current level of training and preparedness remains the 
same. We pride ourselves on the level of training and readiness that 
SOF receive. SOF are prepared to perform their assigned missions in all 
environments, throughout all regions.

                         INFORMATION OPERATIONS

    Question. Information operations and information warfare will 
likely play an increasing role in 21st century warfare.
    What role do you envision for U.S. SOCOM in overall U.S. 
information operations?
    Answer. Special Operations Forces are very aware of the significant 
role Information Operations (IO) plays in today's and in future 
conflicts. In fact, U.S. SOCOM made IO one of the command's core tasks 
in 1996. U.S. SOCOM units have successfully employed IO core 
capabilities in both OEF and OIF, and IO continues to be embedded 
throughout SOF operations. However, U.S. SOCOM continues to play a very 
significant role in PSYOP. U.S. SOCOM owns the preponderance of the 
Department's PSYOP forces and capabilities, including the EC-130 
Commando Solo radio and TV broadcast aircraft. Due to the high demand 
for PSYOP forces, U.S. SOCOM is in the process of growing its PSYOP 
force structure by adding two active duty regional companies and four 
Reserve component tactical companies. This year the command also 
proposed an Advanced Technologies Concept Demonstration (ACTD) aimed at 
improving PSYOP planning tools and long range dissemination into denied 
hostile areas. In addition, U.S. SOCOM is creating a 70 person Joint 
PSYOP Support Element, to provide dedicated joint PSYOP planning 
expertise to the geographic combatant commanders, Strategic Command, 
and the Secretary of Defense.
    Question. Under what circumstances would the Commander, U.S. SOCOM, 
conduct information operations as a supported combatant commander?
    Answer. U.S. SOCOM became the lead for the war on terrorism IO 
planning after September 11, 2001. In this new capacity, U.S. SOCOM 
leads collaborative planning, coordination, and when directed, 
execution of IO. U.S. SOCOM envisions IO supporting surgical, limited 
duration, counterterrorism missions, as well as, long range planning to 
develop coordinated, trans-regional strategies against terrorists and 
their supporters. Due to Strategic Command's new Unified Command Plan 
responsibilities in regard to global IO, U.S. SOCOM is working very 
closely with Strategic Command to insure mutual IO and PSYOP support 
and continuity.

                     SUPPORTED COMBATANT COMMANDER

    Question. Recently, Secretary of Defense Rumsfeld authorized an 
expanded role in the global war on terrorism for U.S. Special 
Operations Command, including authority to conduct operations as a 
supported combatant commander, in addition to continuing 
responsibilities as a supporting combatant commander.
    In your view, under what circumstances would U.S. SOCOM conduct 
operations as a supported combatant commander?
    Answer. The nexus of the Department's global war on terrorism 
effort is at U.S. SOCOM. As situations develop, we attempt to locate, 
acquire, and identify terrorist targets. Combat operations may follow. 
Some examples of Special Operations missions that might be conducted as 
a supported combatant command could include small, surgical, 
clandestine strike operations involving Special Operations Forces only, 
missions tasked when the geographic combatant commander that is totally 
involved in other operations, or missions that involve the use of 
special skills or where two or more geographic combatant commander 
boundaries merge.
    Question. What resource, organization, and force structure changes 
will be required in order for U.S. SOCOM to be able to conduct both 
supporting and supported combatant command responsibilities?
    Answer. U.S. SOCOM is rapidly transforming from its traditional 
role as a purely resourcing headquarters to its expanded role as both a 
resourcing headquarters and a supported command for the global war on 
terrorism. The headquarters has reorganized within current resources to 
establish a Special Operations Joint Interagency Collaboration Center 
(SOJICC) and a Command Special Operations Center to plan, coordinate 
and direct counter-terrorist operations on a global scale. The 
Department has recognized the increased requirements to meet the new 
missions while retaining the role of being a resourcing and supporting 
command, by providing an additional 5,100 authorizations command-wide 
between fiscal years 2004-2009. The added force structure supports the 
global war on terrorism, forward basing in Central Command, rotation 
forces to support regional forward basing, PSYOP and civil affairs (CA) 
to support regional requirements, rotary-wing and fixed-wing assets to 
meet added requirements, and support and training base personnel to 
support increased demand. Organizational change, as a result of these 
additions include an additional CA Battalion (Reserve), an additional 
CA company (active), one MH-47 Army Special Operations Aviation 
Regiment battalion (active), one PSYOP company (active), and two 
additional Navy SEAL teams. We are also evaluating our mix of Active 
and Reserve Forces to ensure they complement and support one another. 
As we gain experience in this campaign, I anticipate that additional 
shortfalls could emerge and, as always, we will continue to modernize 
and upgrade our fielded equipment to ensure our SOF personnel are 
capable of defeating known and likely threats.

                          BLUE FORCE TRACKING

    Question. General Tommy Franks, former Commander, U.S. CENTCOM, 
recently stated in testimony before this committee that multiple, non-
interoperable blue force tracking systems were a problem during 
Operation Iraqi Freedom, contributing to some confusion on the 
battlefield and complicating efforts to avoid friendly fire incidents. 
The U.S. Army has one such system. U.S. SOCOM uses different systems.
    In your view, was blue force tracking of Special Operations Forces 
effective during Operation Iraqi Freedom?
    Answer. The overall effectiveness of blue force tracking (BFT) in 
support of Special Operations was exceptional. While not all SOF were 
equipped with BFT devices, BFT systems facilitated coordinated events 
during combat operations, enhanced tactical resupply efforts, reduced 
recovery time for SOF extractions (both extremis and scheduled) and 
saved lives.
    BFT proved to be an outstanding control mechanism. Without a doubt, 
BFT reduced the potential for fratricide events during Operation Iraqi 
Freedom and was the first positive step toward eliminating fratricide 
altogether. As with most emerging technology, technical, and 
programmatic complications, such as inadequate joint procurement 
funding, limited fielding capability and command and control systems 
interoperability shortfalls have caused some reliability concerns that 
we are already working to resolve. It is important that all combatant 
commanders, as well as allied and coalition force commanders, recognize 
the value of BFT and are engaged in the further maturation and 
proliferation of this capability.
    Question. What steps would you recommend to ensure effective blue 
force tracking of all friendly forces on the battlefield--
unconventional, conventional, and coalition?
    Answer. All Services and the Department have seen the value of BFT 
and initiatives are underway to facilitate BFT interoperability, force-
wide BFT requirements should be collected and programmed for rapid, 
joint acquisition. BFT capability should be integrated into standard 
communication devices, such as manpack and hand-held radios. Combined 
BFT development initiatives should be undertaken to ensure allied and 
coalition BFT interoperability. Current and future BFT capability 
should drive the acceleration of combat identification (CID) 
development since the anti-fratricide ability of BFT is, by nature, 
limited and time-late. U.S. SOCOM will remain heavily engaged in the 
BFT and CID initiatives.

              TRANSFORMATION OF SPECIAL OPERATIONS FORCES

    Question. Much attention has been focused on the transformation of 
our Armed Forces, but most of that focus is on conventional forces.
    Do our Special Operations Forces need to be transformed?
    Answer. SOF have been transformational by nature. To be successful 
in the unconventional environment or working on the margins of 
conventional force capabilities, SOF must continue to transform. U.S. 
SOCOM has been given an expanded mission in the global war on terrorism 
which is, in itself, transformational. The only aspect of SOF that is 
not subject to change is our core values.
    Question. If so, what is your vision for such a transformation?
    Answer. In the future, SOF should be ready to deal equally with the 
demands of both peacetime and warfighting roles. Special Operations 
should be deliberate in its transformation to ensure that it continues 
to support critical national requirements. Given the range of missions, 
it is important to choose an evolutionary path that is supportive of, 
but not confined by, the future plans of conventional forces. Special 
Operations should possess capabilities that expand the range of options 
available to policy makers and military commanders. To that end, future 
missions may include operations for psychological effect, low-
visibility strike operations, advanced unconventional warfare, special 
forms of reconnaissance, and human and technical collections 
operations. SOF should achieve relatively low cost, high value force 
application as military and informational elements of national power 
integrate with political and economic elements to increase national 
security. Because the future is uncertain, SOF will pursue new 
combinations of concepts, skills, people, and organizations to create a 
force capable of conducting full spectrum engagement in a joint 
environment, any time, anywhere, against any adversary.
    Question. Are the Special Operations Command and the Department of 
Defense investing in the technologies to realize this vision?
    Answer. If confirmed, my vision will be to ensure U.S. SOCOM 
provides the most capable and relevant SOF in existence while upholding 
standards of personal and professional excellence.
    Yes, we are investing in those types of technologies. There are two 
integral parts to U.S. SOCOM's technology program, leveraging the 
services, defense agencies, and government laboratory efforts, while 
harvesting those technology efforts that can be rapidly transitioned 
into capabilities for the operator. U.S. SOCOM is significantly better 
off now than we were even 2 years ago in producing the kinds of 
capabilities we believe will be required to meet the challenges of the 
global war on terrorism. We will continue to pursue technological 
advances that address SOF unique requirements but which can also be 
integrated with the conventional forces, and to aggressively develop 
advance technologies that provide high-payoff capabilities against 
near- and long-term threats to SOF.

                        RECRUITING AND RETENTION

    Question. How successful has SOCOM been in recruiting and retaining 
the personnel it needs?
    Answer. World events significantly increased public awareness of 
SOF, consequently raising interest in joining Special Operations. SOF 
historically exceeds annual service reenlistment rates in the non-
commissioned officer corps (NCO). Accessions exceeded losses in each of 
the services SOF during fiscal year 2002. While certain specialties are 
critically manned, the retention rates in those fields exceed those of 
the large services (with few exceptions--Army 18D, Medical and Army 
18E, Communications NCO). SOF personnel are historically promoted at a 
higher rate than their respective service grades. Service initial 
accession bonuses, specific reenlistment incentives, and specific 
programs (for example, Critical Skills Retention Bonus, CSRB) that 
targeted the senior NCO experience base have positively influenced SOF 
recruiting and retention.
    Primarily, the unique and important SOF mission is the fundamental 
reason that influences assigned personnel to remain in SOF. SOF 
warriors are proud to be a part of the special team of ``Quiet 
Professionals.''
    Question. What are the biggest challenges to retention you see in 
the SOCOM community?
    Answer. Maintaining the experience base and the personnel we have 
in our inventory to meet current operations tempo is paramount to 
successful mission execution. The programs mentioned earlier have had a 
successful impact on our force and continue to pay huge dividends with 
a return on investment for the future. As a supported command, any U.S. 
SOCOM growth will impact an already limited pool of applicants. This 
concern is being addressed by reengineering our school houses without 
lowering standards. The current period is a new era where a policy of 
``one size fits all'' does not work for a transforming military. Our 
emphasis on personnel strategy and policy must also include a 
progressive and consistent strategy that compliments service policy yet 
flexible enough to meet the needs of the SOF community simultaneously.
    Question. Specifically, what is the status of the efforts to 
increase retention among the Navy SEAL officers?
    Answer. Naval Special Warfare (NSW) officer advancements, 
selections, and retention exceed Navy averages. The Special Warfare 
Officer Bonus has had a positive impact on reducing the number of mid-
grade officer resignations. Special Operations Force transformation 
dictates that ongoing retention and recruitment initiatives continue to 
receive priority attention to sustain present levels and to meet future 
missions in the global war on terrorism.
    Question. Special Operations Aviation units have some of the most 
highly trained and proficient pilots in our military.
    What impact is the demand for pilots by the airlines and the 
current high operational tempo or our military having on pilot 
retention within Special Operations Command?
    Answer. Because the airlines have not been hiring, pilot retention 
statistics have improved. The Air Force Special Operations Command is 
continuing to report pilot shortages equal to the overall shortages in 
the Air Force. When compared to the active component, Air Force SOF 
guard units are in relatively good shape. High deployment rates in 
support of OEF/OIF have slightly impacted training classes. This has 
resulted in limited numbers of aircraft and instructors available for 
schoolhouse training sorties.
    Although the overall warrant officer inventory remains healthy, the 
Army continues to experience minor shortages in their senior grade 
aviators. This is a concern because the senior grade aviators provide 
the aviation experience at the unit level. We also face the challenge 
of gaining and maintaining pilots as our force structure increases.
    Question. What, if any, recommendations do you have to increase the 
retention of these highly skilled pilots?
    Answer. The Army has participated in the Aviator Continuation Pay 
(ACP) bonus (contract) program for aviators. This bonus is paid between 
the 6th and 14th year of service. In fiscal year 2002, U.S. Army 
Special Operations Command received special permission to extend this 
bonus through 25 years of service for all aviators that agreed to 
remain in Special Operations.
    The Air Force has two successful programs for pilot/crew retention 
that we are monitoring. They are the ACP bonus program, and the 
Voluntary Return to Active Duty program which have helped offset 
retirements and separations.

                               SOCOM/USMC

    Question. In November 2001, the Commandant of the Marine Corps and 
Commander, U.S. SOCOM, signed a memorandum of agreement aimed at 
increasing Marine Corps support and cooperation with SOCOM.
    What do you believe should be the appropriate relationship between 
the Marine Corps and SOCOM?
    Answer. U.S. SOCOM is working closely with the Marine Corps to 
integrate with and complement each others' capabilities. I believe this 
is appropriate because SOF and the Marine Corps offer unique and 
distinct mission sets. The Marine Corps' expeditionary capabililty is a 
direct result of their embarked sea-based deployment concept. The 
potential for SOF leveraging some of the unique options this concept 
provides, both in capabilities and sustainment, bodes well in 
prosecuting the global war on terrorism. To fully assess the 
integration potential of marines and SOF, U.S. SOCOM and the Marines 
Corps re-established this formal relationship.

                      SPECIAL OPERATIONS MISSIONS

    Question. When announcing additional responsibilities for SOCOM, 
Secretary Rumsfeld indicated that SOCOM may divest itself of some 
traditional missions, such as foreign military training, that can be 
conducted by conventional forces.
    What current missions, if any, do you believe can and should be 
divested by SOCOM, and why?
    Answer. U.S. SOCOM executes its congressionally mandated title 10 
Special Operations activities in accordance with section 167. We 
continue to study and refine employment taskings to ensure we retain a 
Special Operations focus while helping to reduce the burden on our high 
demand/low density (HD/LD) forces. In this regard, there are some 
recent examples of transition or divestiture of missions to 
conventional forces in order to free up these HD/LD forces.
    U.S. SOCOM continues to work the issue of mission divestiture with 
the services, the Joint Staff, and the Secretary of Defense. As you are 
well aware, SOF are organized, trained, and equipped specifically to 
accomplish nine core tasks (counterterrorism, counterproliferation, 
foreign internal defense, special reconnaissance, direct action, PSYOP, 
CA operations, unconventional warfare, and information operations). 
Unlike our core tasks, Special Operations Forces also conduct other 
activities (coalition support, counternarcoterrorism, foreign 
humanitarian assistance, special activities, combat search and rescue, 
humanitarian mine activities, security assistance, and peace 
operations).
    The capabilities to perform these activities are derived from 
Special Operations' ability to execute its core tasks and, in the 
context of prioritization of employment taskings in the war on 
terrorism; Special Operations may continue to perform some or all of 
these types of activities. The key is mission analysis and employment 
prioritization.
    Question. Are there any additional missions that you believe SOCOM 
should assume, and, if so, what are they and why do you advocate adding 
them?
    Answer. No, there aren't any additional missions I believe U.S. 
SOCOM should assume. As previously stated, our war on terrorism mission 
has caused us to prioritize employment taskings. U.S. SOCOM will 
continue to study and refine our Special Operations responsibilities; 
but we must ensure we retain a Special Operations focus.

                   SIZE OF SPECIAL OPERATIONS FORCES

    Question. The recent successes of Special Operations Forces in 
Afghanistan and Iraq have led many to advocate increases in the size of 
Special Operations Forces.
    Do you believe that we should increase the number of Special 
Operations personnel?
    Answer. Yes. Additional personnel will enable U.S. SOCOM to more 
effectively prosecute the global war on terrorism. This capability is 
additive to accomplishing current title 10 missions. Even with 
prioritization of SOF deployments to directly or indirectly support the 
global war on terrorism, increased end strength will more fully 
maximize SOF's global scout capability by ensuring SOF are forward 
deployed in theater and in position to respond to contingencies or 
react to actionable intelligence.
    Question. In your view, can the size of Special Operations Forces 
be increased significantly if the rigorous recruiting standards for 
these organizations are to be maintained?
    Answer. Yes.

                          CIVIL AFFAIRS UNITS

    Question. The increased role of the United States military in 
numerous missions throughout the world has stressed the Special 
Operations Command, in particular the civil affairs units, most of 
which are in the Army Reserve.
    If the current high operational tempo continues, would it be 
advisable to increase the number of civil affairs units?
    Answer. Yes. Our CA force structure must increase. To that end, 
U.S. SOCOM has included CA in our force structure growth plan.
    Question. If so, should the increase be in the active Army or the 
Army Reserve and why?
    Answer. Prior to September 11, 2001, analysis of current and 
projected PERSTEMPO for Reserve CA forces identified future shortfalls 
in Reserve CA force structure to be able to support ongoing 
contingencies, i.e., Bosnia and Kosovo. As a result, the Department 
created two new Reserve CA battalions to be stood up in fiscal year 
2004 and fiscal year 2005 (one each year). After September 11, 2001, in 
support of the global war on terrorism, Bosnia, and Kosovo, analysis 
further identified shortfalls in the active civil affairs force 
structure. As a result, the Department created an additional two Active 
CA companies to be stood up in fiscal year 2004 and fiscal year 2005 
(one each year). Current analysis of CA force structure is that with 
the addition of these Active and Reserve units, CA is properly sized to 
meet the challenges of the global war on terrorism and future 
contingencies.
    Question. What impact has the high operational tempo had on 
recruiting and retention in Reserve civil affairs units?
    Answer. I understand U.S. Army Special Operations Command has 
achieved its U.S. Army Reserves recruiting goals for the last 5 years, 
and retention has remained within the goals during that time as well. I 
would expect these trends to continue.

               SCIENCE ADVISORS FOR COMBATANT COMMANDERS

    Question. Scientific advisors to combatant commanders have been 
effectively utilized as a means of assisting with technology transition 
and providing operators solutions to warfighter challenges.
    If confirmed, how would your command make use of the technical 
expertise available in the services, including their laboratories, to 
provide scientific and technical advice to the warfighters?
    Answer. Due to our relatively small technology budget, U.S. SOCOM 
relies heavily on the services' science and technology (S&T) knowledge 
base and laboratory infrastructure to support SOF. We have Memorandums 
of Agreement with the service's scientific communities that facilitate 
transfer of research, development, test, and evaluation related 
information and technology. We also have in-house Defense Advanced 
Research Projects Agency and Department of Energy liaison personnel who 
match their ongoing technology programs with SOF technology 
requirements. These associations allow U.S. SOCOM to leverage service 
S&T and other governmental agency programs as an economical and low-
risk source for acquisition program technology insertions to provide 
the Special Operations warfighter with innovative evolutionary and 
revolutionary capability enhancements. The Special Operations S&T 
requirements and desired capabilities are also publicized through the 
Department of Defense's centralized technology planning program.

                         READINESS AND OPTEMPO

    Question. To what extent has the pace of operations in recent years 
had an impact on U.S. SOCOM's readiness, retention, and resources?
    Answer. The OPTEMPO has increased significantly in the last 2 
years, but because of our training and education programs and the 
special care we pay to all our SOF families, it has been manageable. We 
are concerned about the amount of time our forces are deployed in 
support of the global war on terrorism and pay close attention to our 
recruitment and retention efforts. As of this hearing, our accession, 
retention and promotion rates are equal to or higher than the services. 
Additionally, our pilot retention statistics have been improving and 
our overall pilot inventory continues to improve in the MH-47, MH-6, 
and MH-60 communities. We are concerned about the OPTEMPO of our 
Reserve Component CA personnel and after September 11, 2001, shortfalls 
were identified. As a result, the Department created two new Reserve CA 
battalions to be stood up in fiscal year 2004 and fiscal year 2005. Air 
Force Reserve air crews are also a concern as many are approaching the 
end of their 2 year mobilization period. As we continue to prosecute 
the global war on terrorism, I anticipate that manpower and equipment 
shortfalls may emerge and, as always, we will continue to maintain, 
modernize, and upgrade our fielded equipment to ensure our SOF 
personnel are capable of defeating any threat.
    Question. What actions can be taken to reduce any negative impacts?
    Answer. U.S. SOCOM must continue to grow SOF. We must discover new 
sources of quality personnel and efficient training methodology to 
accelerate the development of SOF warriors. We must also seek more 
effective methods to mitigate the effects of the high operational 
tempo.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes.
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes.
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Commander, U.S. Special 
Operations Command?
    Answer. Yes.
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes.
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe

                       SPECIAL OPERATIONS FORCES

    1. Senator Inhofe. Lieutenant General Brown, in your answer to the 
advance questions you stated that you feel a need to increase the size 
of the Special Operations Forces (SOF). How much larger do we need to 
make them?
    General Brown. At this point, I cannot provide you ``a number'' 
with the degree of certainty that would make it meaningful. SOF are not 
sized based on desired force end strength, but by what capabilities are 
required and can be brought to the battlefield. The global war on 
terrorism is a different war that requires not only traditional SOF 
skills and capabilities, but unique and specialized skills that we are 
still identifying. We know we have shortfalls in some capabilities; we 
are studying others to determine the force size required to meet 
mission needs.
    In the area of command and control, I feel it is critical to have 
Theater Special Operation Commands (TSOCs) capable of fulfilling their 
role as standing Joint Special Operations Task Forces. During the most 
recent increase in SOF end strength, all TSOCs except for that of 
Southern Command were sized to enable them to conduct 24 hours-a-day, 7 
days a week operations. Based on constraints and priorities, Southern 
Command's TSOC was not provided this capability, although it is a 
critical requirement.
    Mobility is key to SOF's ability to conduct the global war on 
terrorism. Recent increases in both fixed-wing and rotary-wing force 
size have substantially enhanced our capabilities in this area. 
However, additional rotary-wing capabilities are required to provide a 
rotational base and forward-based forces. The new CV-22 tiltrotary wing 
force being fielded has manning requirements above those of the 
platforms it replaces?
    The current mix of Active and Reserve Forces may not be optimal. We 
may need to rebalance those forces that are largely in the Reserves. 
This includes civil affairs and psychological operations in the Army 
Reserve and Special Forces in the Army National Guard. We are examining 
the requirements for additional Active Forces in those areas. Two 
factors drive this analysis: can we bring the requisite force to bear 
in a timely manner against contingencies, and can we maintain that 
force for a prolonged period, for example with a rotational base.
    SOF has increased its operational capabilities in most functional 
areas. However, the centers and schools that train our SOF soldiers, 
sailors, and airmen must increase their throughput capability in two 
ways: first, to train the additional SOF structure gained; and second, 
to instruct in new courses focused on capabilities to fight the global 
war on terrorism.
    Recent increases in SOF have fixed a lot of capability shortfalls; 
some shortfalls remain. We anticipate the need for some growth to 
address those shortfalls. Any growth of SOF, however, has to be 
tempered with the ability to recruit, train, and retain only the 
highest quality individuals. 

    2. Senator Inhofe. Lieutenant General Brown, what kinds of 
capabilities do we need to add to enhance the SOF, and how do you plan 
to make those increases?
    General Brown. In addition to expanding the size of certain 
segments of the Special Operations community, the U.S. Special 
Operations Command (U.S. SOCOM) will pursue several means to expand and 
enhance SOF capabilities to meet the needs of the global war on 
terrorism and future operations. These capability increases will result 
from modernizing our equipment, upgrading our recruiting and training 
processes, and developing several tailored mission sets in response to 
Department of Defense directives.
    U.S. SOCOM's historic ability to guide and manage the unique 
equipping of SOF has paid significant dividends in the recent conflicts 
against terrorists and the states that support them. SOF will continue 
to modernize its major systems capabilities through procurements like 
the CV-22 Osprey tiltrotor aircraft and Advanced SEAL Delivery System, 
and modification programs like the MH-47G helicopter and A/MC-130 
common avionics architectures. We also plan enhanced small systems for 
SOF that contribute critical capability against terrorists. These 
enhancements include fielding the SOF Combat Assault Rifle and the 
advanced components required to upgrade SOF personal equipment and body 
armor. Finally, U.S. SOCOM will leverage new technologies and bring SOF 
specific capabilities in areas such as unmanned aerial vehicles, 
information operations, and intelligence and communications.
    Materiel improvements are not the only aspect to improve SOF 
capabilities. We'll continue close cooperation with the Marine Corps on 
the V-22, the Navy on SSGN, and with all the services to provide SOF 
warriors with service-common items in the fight against terrorism.
    While new equipment will boost SOF's capabilities, it's a SOF truth 
that humans are more important than hardware. Therefore, upgrades to 
SOF recruiting and training are the most effective means to enhance SOF 
capability. U.S. SOCOM will focus on recruiting innovations to bring in 
the most qualified and capable candidates and train them to the 
standards and skills SOF need to fight terrorism. SOF's foreign 
language capability will be strengthened and our language program 
reoriented towards those languages that best reflect the terrorist 
threat. U.S. SOCOM will also be a strong partner in the Defense 
Department's directed training transformation joint national training 
capability exercise program (not sure where to go here, but 11 
adjectives modifying a program may be a record!) that will help SOF 
perfect its joint interoperability capabilities. We'll leverage the 
latest technologies; strive toward common open architecture databases, 
non-proprietary simulator image generators and communication pipelines 
capable of moving the necessary data to provide the best live, virtual, 
and constructive training environment in the world. Key to this 
approach is the ability to recruit and retain the highest caliber of 
training personnel. Improved joint interoperability will enable SOF to 
better leverage conventional capabilities against terrorism.
    New tools and improved training will help, but we need to do more. 
To meet the demands of future conflicts with terrorists, SOF must 
develop some new capabilities. Among these are the capability to 
effectively globally command the global war on terrorism, the 
capability to operationally prepare the global war on terrorism 
battlespace and the capability to instantly respond to opportunities in 
previously un-emphasized regions of the world. To meet these new 
demands, U.S. SOCOM will initiate nuanced organizational changes and 
equip, train, and place the resulting organizations in positions most 
advantageous to our Nation's goals.
    These advances in organization, training and equipment will enhance 
SOF's readiness, responsiveness, mobility and flexibility to engage 
terrorism and terrorists throughout the world.
                                 ______
                                 
    [The nomination reference of LTG Bryan D. Brown, USA, 
follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                     June 18, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    The following named officer for appointment in the United States 
Army to the grade indicated while assigned to a position of importance 
and responsibility under title 10, United States Code, section 601:

                             To be General

    LTG Bryan D. Brown, 0000.
                                 ______
                                 
    [The biographical sketch of LTG Bryan D. Brown, USA, which 
was transmitted to the committee at the time the nomination was 
referred, follows:]
             Resume of Career Service of LTG Bryan D. Brown
Source of commissioned service: OCS.

Military schools attended:
    Field Artillery Officer Basic and Advanced Courses.
    United States Army Command and General Staff College.
    United States Army War College.

Educational degrees:
    Cameron University - BS Degree - Education Administration
    Webster University - MA Degree - Business

Foreign language(s): None recorded.

Promotions:

------------------------------------------------------------------------
                                                Dates of appointment
------------------------------------------------------------------------
2LT.......................................  1 May 70
1LT.......................................  1 May 71
CPT.......................................  1 May 74
MAJ.......................................  3 Apr 81
LTC.......................................  1 Sep 87
COL.......................................  1 Jun 92
BG........................................  1 Mar 96
MG........................................  1 Dec 98
LTG.......................................  11 Oct 00
------------------------------------------------------------------------


Major duty assignments:

------------------------------------------------------------------------
              From                        To              Assignment
------------------------------------------------------------------------
Mar 71..........................  Jul 71............  Platoon Leader, D
                                                       Company, 227th
                                                       Aviation
                                                       Battalion, 1st
                                                       Cavalry Division,
                                                       Fort Hood, Texas.
Sep 71..........................  Apr 72............  Rotary Wing
                                                       Aviator, 129th
                                                       Assault
                                                       Helicopter
                                                       Company, United
                                                       States Army,
                                                       Vietnam.
Apr 72..........................  Dec 72............  Rotary Wing
                                                       Aviator, 182d
                                                       Aviation Company
                                                       (Assault), 10th
                                                       Aviation Group,
                                                       Fort Bragg, North
                                                       Carolina.
Dec 72..........................  Sep 75............  Section Commander,
                                                       later Platoon
                                                       Commander, later
                                                       Operations
                                                       Officer, 129th
                                                       Aviation Company
                                                       (Assault), 269th
                                                       Aviation
                                                       Battalion, Fort
                                                       Bragg, North
                                                       Carolina.
Oct 75..........................  May 77............  Student, Field
                                                       ARtillery Officer
                                                       Advanced Course,
                                                       Fort Sill,
                                                       Oklahoma, later
                                                       Student, Cameron
                                                       University,
                                                       Lawton, Oklahoma.
Jun 77..........................  Jun 78............  Commander,
                                                       Headquaters and
                                                       headquarters
                                                       Battery, 2d
                                                       Battalion, 17th
                                                       Field Artiller,
                                                       2d Infantry
                                                       Division, Eighth
                                                       United States
                                                       Army, Korea.
Jun 78..........................  May 79............  Executive Officer,
                                                       B Company, 158th
                                                       Aviation
                                                       Battalion, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell,
                                                       Kentucky.
Apr 72..........................  Dec 72............  Rotary Wing
                                                       Aviator, 182d
                                                       Aviation Company
                                                       (Assault), 10th
                                                       Aviation Group,
                                                       Fort Bragg, North
                                                       Carolina.
Dec 72..........................  Sep 75............  Section Commander,
                                                       later Platoon
                                                       Commander, later
                                                       Operations
                                                       Officer, 129th
                                                       Aviation Company
                                                       (Assault), 269th
                                                       Aviation
                                                       Battalion, Fort
                                                       Bragg, North
                                                       Carolina.
Oct 75..........................  May 77............  Student, Field
                                                       Artillery Officer
                                                       Advanced Course,
                                                       Fort Sill,
                                                       Oklahoma, later
                                                       Student, Cameron
                                                       University,
                                                       Lawton, Oklahoma.
Jun 77..........................  Jun 78............  Commander,
                                                       Headquarters and
                                                       Headquarters
                                                       Battery, 2d
                                                       Battalion, 17th
                                                       Field Artillery,
                                                       2d Infantry
                                                       Division, Eighth
                                                       United States
                                                       Army, Korea.
Jun 78..........................  May 79............  Executive Officer,
                                                       B Company, 158th
                                                       Aviation
                                                       Battalion, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell,
                                                       Kentucky.
May 79..........................  Oct 79............  Flight Operations
                                                       Officer, 158th
                                                       Aviation
                                                       Battalion, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell,
                                                       Kentucky.
Nov 79..........................  May 81............  Commander, C
                                                       Company, 158th
                                                       Aviation
                                                       Battalion, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell,
                                                       Kentucky.
Jun 81..........................  Jul 84............  Air Operations
                                                       Officer,
                                                       Operations
                                                       Directorate (J-
                                                       3), Joint Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, North
                                                       Carolina.
Jul 84..........................  Jun 85............  Student, United
                                                       States Army
                                                       Command and
                                                       General Staff
                                                       College, Fort
                                                       Leavenworth,
                                                       Kansas.
Jun 85..........................  May 87............  Commander, C
                                                       Company, 101st
                                                       Aviation
                                                       Battalion, 1st
                                                       Special
                                                       Operations
                                                       Command, Fort
                                                       Campbell,
                                                       Kentucky (Task
                                                       Force 160).
May 87..........................  May 88............  S-3 (Operations),
                                                       160th Aviation
                                                       Group (Special
                                                       Operations), Fort
                                                       Campbell,
                                                       Kentucky.
Jun 88..........................  May 90............  Commander, 5th
                                                       Battalion, 101st
                                                       Aviation
                                                       Regiment, 101st
                                                       Airborne Division
                                                       (Air Assault),
                                                       Fort Campbell,
                                                       Kentucky.
Jun 90..........................  Ju1 91............  Commander, 1st
                                                       Battalion, 160th
                                                       Special Operation
                                                       Aviation
                                                       Regiment, Fort
                                                       Campbell,
                                                       Kentucky and
                                                       Operations Desert
                                                       Shield/Storm,
                                                       Saudi Arabia.
Aug 91..........................  Jul 92............  Student, United
                                                       States Army War
                                                       College, Carlisle
                                                       Barracks,
                                                       Pennsylvania.
Oct 92..........................  Nov 94............  Commander, 160th
                                                       Special Operation
                                                       Aviation
                                                       Regiment, Fort
                                                       Campbell,
                                                       Kentucky.
Nov 94..........................  Mar 96............  Assistant Division
                                                       Commander
                                                       (Maneuver), 1st
                                                       Infantry
                                                       Division, Fort
                                                       Riley, Kansas.
Mar 96..........................  Aug 98............  Director of Plans,
                                                       Policies and
                                                       Strategic
                                                       Assessments, J-5/
                                                       J-7, later
                                                       Director,
                                                       Requirements and
                                                       Strategic
                                                       Assessments,
                                                       United States
                                                       Special
                                                       Operations
                                                       Command, MacDill
                                                       Air Force Base,
                                                       Florida.
Aug 98..........................  Sep 00............  Commanding
                                                       General, Joint
                                                       Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, North
                                                       Carolina.
Sep 00..........................  Sep 02............  Commanding
                                                       General, United
                                                       States Army
                                                       Special
                                                       Operations
                                                       Command, Fort
                                                       Bragg, North
                                                       Carolina.
------------------------------------------------------------------------


Summary of joint assignment:

------------------------------------------------------------------------
          Assignment                     Dates               Grade
------------------------------------------------------------------------
Air Operations Officer,           Jun 81-Jul 84.....  Major
 Operations Directorate (J-3),
 Joint Special Operations
 Command, Fort Bragg, North
 Carolina.
Director of Plans, Policies and   Mar 96-Aug 98.....  Brigadier General
 Strategic Assessments, J-5/J-7,
 later Director of Requirements
 and Strategic Assessments,
 United States Special
 Operations Command, MacDill Air
 Force Base, Florida.
Commanding General, Joint         Aug 98-Sep 00.....  Major General
 Special Operations Command,
 Fort Bragg, North Carolina.
Deputy Commander, United States   Sep 02-Present....  Lieutenant General
 Special Operations, Command,
 MacDill Air Force Base, Florida.
------------------------------------------------------------------------


U.S. decorations and badges:
    Defense Distinguished Service Medal
    Distinguished Service Medal
    Defense Superior Service Medal
    Legion of Merit (with two Oak Leaf Clusters)
    Distinguished Flying Cross
    Bronze Star Medal
    Defense Meritorious Service Medal
    Meritorious Service Medal (with two Oak Leaf Clusters)
    Air Medal
    Air Medal with ``V'' device
    Joint Service Commendation Medal
    Army Commendation Medal
    Parachutist Badge
    Military Free Fall Parachutist Badge
    Air Assault Badge
    Master Army Aviator Badge
    Special Forces Tab
                                 ______
                                 
    [The Committee on Armed Services requires certain senior 
military officers nominated by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by LTG Bryan D. 
Brown, USA, in connection with his nomination follows:]

                        Department of the Army,    
                  Headquarters, United States Army,
                                Special Operations Command,
                          Fort Bragg, North Carolina, June 5, 2002.
Hon. Carl Levin, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of the Deputy Commander in Chief, United 
States Special Operations Command. It supplements Standard Form 278, 
``Public Financial Disclosure Report,'' which has already been provided 
to the committee and which summarizes my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I, my spouse, nor my dependent 
children will invest in any entity that would create a conflict of 
interest with my government duties. I do not have any present 
employment arrangements with any entity other than the Department of 
Defense and have no formal or informal understandings concerning any 
further employment with any entity.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I trust that the foregoing information will be satisfactory to the 
committee.
            Sincerely, 
                                    Bryan D. Brown,
                             Lieutenant General, U.S. Army,
                                                        Commanding.

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Bryan D. Brown.

    2. Position to which nominated:
    Commander, United States Special Operations Command.

    3. Date of nomination:
    June 18, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    20/10/48; Fort Meade, Maryland.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to the former Penny Whightsil.

    7. Names and ages of children:
    Tracey Leahy (27); Shannon McCoy (23).

    8. Government experience: List any advisory, consultative, 
honorary, or other part-time service or positions with Federal, State, 
or local governments, other than those listed in the service record 
extract provided to the committee by the executive branch.
    None.

    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational, or other institution.
    None.

    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Association of the United States Army (AUSA).
    Member-at-large, Army Aviation Association of America.
    Member, American Legion.
    Member, Vietnam Helicopter Pilots Society.

    14. Honors and awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognition for outstanding 
service or achievements other than those listed on the service record 
extract provided to the committee by the executive branch.
    2002 Ellis Island Medal of Honor Awardee.

    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?
    Yes.

    13. Personal views. Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, even if 
those views differ from the administration in power?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-E of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-E are contained in the committee's executive files.]
                                ------                                

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                    Bryan D. Brown.
    This 3rd day of June, 2002.

    [The nomination of LTG Bryan D. Brown, USA, was reported to 
the Senate by Chairman Warner on July 30, 2003, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on July 31, 2003.]


    NOMINATION OF HON. GORDON R. ENGLAND TO BE SECRETARY OF THE NAVY

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 11:08 a.m. in 
room SR-222, Russell Senate Office Building, Senator John 
Warner (chairman) presiding.
    Committee members present: Senators Warner, Talent, 
Chambliss, Dole, Levin, Reed, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director, and Gabriella Eisen, nominations clerk.
    Majority staff members present: Carolyn M. Hanna, 
professional staff member; Ambrose R. Hock, professional staff 
member; Gregory T. Kiley, professional staff member; Thomas L. 
MacKenzie, professional staff member; Ann M. Mittermeyer, 
counsel; Scott W. Stucky, general counsel; and Richard F. 
Walsh, counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Creighton Greene, professional staff member; Gerald J. 
Leeling, minority counsel; and Peter K. Levine, minority 
counsel.
    Staff assistant present: Michael N. Berger.
    Committee members assistants present: Cord Sterling, 
assistant to Senator Warner; John A. Bonsell, assistant to 
Senator Inhofe; James P. Dohoney, Jr., assistant to Senator 
Collins; James W. Irwin and Clyde A. Taylor IV, assistants to 
Senator Chambliss; Christine O. Hill, assistant to Senator 
Dole; Russell J. Thomasson, assistant to Senator Cornyn; and 
Andrew Shapiro, assistant to Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. Good morning, everyone.
    Before I refer to the purpose of this hearing, namely to 
have our distinguished colleague, Secretary England, in his 
advise and consent hearing, I want to make reference to the 
work done by Congresswoman Fowler and her commission regarding 
the Air Force Academy.
    Matters relating to this tragic chapter in the current 
military history of the Air Force really arose out of this 
committee. Our distinguished colleague on the committee, 
Senator Allard from Colorado, worked with me and other members 
to bring to our attention facts that had been related to him. 
The record is very clear about how this committee quickly 
became proactive, and eventually sponsored the legislation--our 
distinguished colleague, Senator McCain, was very active on 
it--which led to the creation by Congress of the Fowler Panel.
    They gave their report yesterday. While I and other members 
have not yet had the time to go through it in its entirety, my 
initial review of this report, together with a private meeting 
yesterday with Congresswoman Fowler, leads me to the 
conclusion, at this point in time, that that panel deserves 
great commendation by Congress and the American public. They 
have done, in a mere period of 90 days, a job which is very 
important, which is a very important step leading to the long 
overdue correction of problems at the Air Force Academy. So I 
wish to commend Congresswoman Fowler and all members of the 
panel. This committee will hold its hearing tomorrow on that 
panel's findings, and go into it with the great detail and care 
this report deserves.
    This morning, I was asked by the press, ``Does this report 
have a relationship to the nomination pending before the 
committee by the President and the Secretary of Defense of the 
current Secretary of the Air Force to become Secretary of the 
Army?'' My response is, yes, it does. After we review the 
material with Chairman Fowler--and all members of the panel 
will be present tomorrow--I'll have further comment on this.
    But, at this time, I'd like to release to the public record 
correspondence that I have had with President Bush's counsel, 
Judge Alberto Gonzalez, on the respective duties of the 
legislative branch and the executive branch with regard to the 
constitutional responsibilities of advice and consent. We have 
knowledge that certain actions are being investigated by the 
Inspector General regarding the Department of the Air Force. 
The Fowler Report further puts a recommendation in to the 
Inspector General to examine--and the actual words were ``a 
full accountability at all levels,'' beginning with the 
uppermost levels, civilian and uniform, of the Department of 
the Air Force. Consequently, it does have a correlation. I and 
other members of the committee will have to determine the 
extent to which we can continue to proceed, which I had hoped 
to do, on the Roche nomination.
    We'll have further to say about that tomorrow, but I'll 
release my letter to Judge Gonzalez, and the Inspector 
General's letter back to the committee with regard to what they 
are doing. That has to be read in context with the Fowler 
Report. We'll take up all of this tomorrow.
    But, for the moment, we're pleased to have you, Secretary 
England, before us again.
    Secretary England. Thank you.
    Chairman Warner. The President has selected you to go back 
to become the Secretary of the Navy, subject to confirmation by 
the Senate. Senator Levin is, by necessity, on the floor of the 
Senate. Otherwise, he would be here with me this morning. But 
he suggested I go forward with this.
    Upon learning of the President's selection of you to become 
the next Secretary of the Navy, I was pleased to call you up 
and reminisce about that famous chapter in history where 
Winston Churchill came back to positions of responsibility with 
regard to the Royal Navy and the fleet by a signal flag in 
those days, signaling that ``Winnie is back.'' So, Secretary 
England, subject to advice and consent, you'll be back, and we 
welcome you back.
    Secretary England. Thank you, sir.
    Chairman Warner. I'd like to also make reference to the 
Acting Secretary, the Assistant Secretary of the Navy for 
Installations and Environment, who I think has discharged the 
responsibility of secretary in a very commendable way in the 
acting position. It's not easy to be Acting Secretary of the 
Navy. As such, I wish to have the record this morning reflect 
the commendation, of myself and members of this committee, for 
the actions of Mr. Johnson during this interim period.
    Secretary England, you are not accompanied by your family 
today, but their support is there. You assured me of that in 
the anteroom.
    Secretary England. Absolutely, Senator.
    Chairman Warner. You're no stranger to the committee, 
having served as the 72nd Secretary of the Navy. You performed 
admirably as secretary during that period, particularly in your 
compassionate response to the families of those military and 
civilian personnel with the Department of the Navy who died in 
the Pentagon tragically on September 11, 2001. That was on your 
watch. In your steady, determined leadership in the aftermath 
of that attack, working with the very fine Secretary of 
Defense, Mr. Rumsfeld, I remember heroism of that Secretary of 
Defense as I was privileged to go over that day and join him 
for the afternoon of September 11 in the Department of Defense 
(DOD).
    Once again you came before this Senate for confirmation in 
January of this year in connection with your nomination to be 
Deputy Secretary of the Department of Homeland Security (DHS). 
I spoke on the Senate floor in support of that nomination at 
the time, underscoring the superb qualifications that you, Mr. 
England, possess by virtue of your impressive experience in the 
private sector and the Department of Defense to assist 
Secretary Ridge in the difficult task of organizing and 
coordinating the efforts of over 22 domestic agencies into one 
department to protect our Nation against threats to the 
homeland.
    Without objection, I'd like to put that in the record, 
because that summarizes what I would otherwise be saying now. 
No use having duplication.
    [The information referred to follows:]

                           [January 30, 2003]

    Mr. Warner. Mr. President, I rise today to commend the President 
for the selection of Gordon England for the post to which the Senate 
will confirm him soon in the newly created Department of Homeland 
Security.
    I have had the privilege of working with Mr. England for some time 
now. Since he assumed the duties of Secretary of the Navy, we 
immediately became friends--because we had known each other while he 
was in the private sector, but, of course, I having had the privilege 
of serving as Secretary of the Navy some many years before, we were 
sort of a band of brothers--those of us who are privileged to serve in 
the greatest Navy in the world, and particularly in the post as a 
civilian boss. We have worked together these many years.
    I want the record to reflect the extraordinary qualifications of 
this nominee. The Navy will miss him. But duty calls so often. It did 
in this instance because the President and Secretary Ridge wanted to 
draw on someone who had a proven record of management capabilities. 
Gordon England exhibited that record while he was Secretary of the 
Navy. He will exhibit it as the hands-on operator of the management 
decisions in assisting the distinguished Secretary, Mr. Ridge.
    I am very pleased with this nomination.
    I want to mention just a few things about the distinguished career 
of this fine person.
    He began his career with Honeywell Corporation working as an 
engineer on the Gemini space program before joining General Dynamics in 
1966 as an avionics design engineer in the Fort Worth aircraft 
division. He also worked as a program manager with Litton Industries on 
the Navy's E-2C Hawkeye aircraft.
    By coincidence, these are programs I worked on somewhat when I was 
Secretary, Under Secretary, and then, of course, while I have been here 
in the Senate serving now 25 years on the Senate Armed Services 
Committee.
    He served as executive vice president of General Dynamics 
Corporation from 1997 until 2001 and was responsible for two major 
sectors of the corporation--first, information systems, and 
international.
    Previously, he served as executive vice president of the Combat 
Systems Group, president of General Dynamics Fort Worth aircraft 
company. Before that, he served as president of General Dynamics land 
systems company producing land combat vehicles.
    He has had this management experience, particularly in high-tech 
areas. Much of the Homeland Defense Department function will be going 
to the private sector, encouraging that private sector to design state-
of-the-art and beyond--I stress ``beyond''--technology to meet the many 
unknowns with which our Nation and other nations are confronted in this 
battle against worldwide terrorism.
    Mr. England is a native of Baltimore. He graduated from the 
University of Maryland in 1961 with a bachelor's degree in electrical 
engineering. In 1975, he earned a master's degree in business 
administration from the M.J. Neeley School of Business at Texas 
Christian University. He served as a member of the Defense Science 
Board and was vice chairman of the National Research Council Committee 
on the Future of the U.S. Aerospace Industry.
    It is an extraordinary record.
    If I may say with the greatest respect to our President and to the 
new Secretary that his first Deputy, Gordon England, in the Department 
of Homeland Security, I think, can help avert what could come about as 
a tug of war between the Department of Homeland Security and the 
Department of Defense as it regards budget matters. Both have the 
highest priorities, properly accorded by our President, and indeed I 
think Congress. Homeland defense is just starting. As their cash flow 
and appropriations come in, I hope they will be adequate to meet the 
needs of this new Department. If they are not, I hope we can find other 
means by which to finance those requirements. They should be given top 
priority financially and support-wise because they will guard us here 
at home--augmenting what is in place already by way of the National 
Guard, the North Command and the other commands of the Department of 
Defense--many other things that are in place in bringing together the 
various and disparate agencies and departments and put them under this 
one head.
    I am going to be ever watchful--and I think my good friend, Gordon 
England, should act likewise--to advise the Secretary of Defense and to 
advise the Secretary of Homeland Security. We cannot ever witness a 
budget war between these two strong and powerful and vitally needed 
Departments. Gordon England is eminently qualified to see that doesn't 
happen. Homeland defense starts beyond our shores in the forward-
deployed positions of the men and women of the Armed Forces all over 
the world.
    For example, on the battlefields of Afghanistan, we have made great 
progress.
    I had the privilege just this morning of meeting with General 
Franks to talk about the progress he has made and the challenges that 
remain in Afghanistan. But he has, in large measure, achieved a goal of 
stemming the flow of terrorism from that troubled piece of land to 
other places in the world and will continue to fight that battle.
    That is the clearest example I can give right now of where we have 
to stop terrorism before it comes to our borders. Hopefully, it can be 
interdicted there and certainly interdicted before it gets into 
hometowns in America.
    Those two Departments must be adequately funded because they will 
work together to protect this great Nation.
    I wish my old friend good luck, fair winds, and flowing seas, as we 
say in the Navy. He is eminently qualified to take on this position.
    I thank the Chair.

    Chairman Warner. On Saturday, together with my colleague, 
George Allen, and the Governor of Virginia, we accompanied 
Governor Ridge on an inspection of the hurricane damage to 
areas of Virginia, at which time we engaged in conversations 
about your nomination. He feels that it is a decision the 
President made, and though he no longer will have the benefit 
of your wise counsel, he feels that this job is equally 
important to the one you held, and he wishes you well.
    He also raised a question, which you and I have discussed 
preliminarily, and I hope that you cover in your testimony. 
That is, since you have firsthand knowledge of his needs with 
regard to space in the current location, Ward Circle, and the 
pending decision within the administration, most specifically, 
the Department of Defense, of how possibly additional space 
could be allocated to Homeland Defense. It is his hope that you 
will give this a high priority, and I'll await for your comment 
on that.
    [The information referred to follows:]

               Department of Homeland Security Facilities

    The Department of the Navy has offered to relocate 10 Navy commands 
(1,147 personnel) from its Nebraska Avenue Complex (NAC) in Northwest 
Washington, DC, to provide space for the DHS. The NAC facilities 
provide 556,000 square feet of office space. This is a high priority 
for us, as we support the effort to consolidate all key aspects of DHS 
into a single location to streamline communications and create 
operational synergy for homeland security.
    Office space for the DHS Secretariat headquarters was made 
available on December 19, 2003. As of January 30, 2004, a total of 
212,000 square feet of space has been turned over to DHS, and 544 DHS 
employees now work at the NAC. The Navy plans to completely relocate 
from the NAC, except for one housing unit. As of January 30, 2004, 7 
Navy commands (469 personnel) have relocated, with half of all Navy 
personnel relocating by September 2004. The remainder will move by 
January 2005. Several of the Navy commands will relocate to government-
owned facilities, while others will relocate to leased spaces until we 
identify permanent government-owned facilities.
    The intent is for the Navy to transfer ownership of the complex to 
the General Services Administration (GSA), which will manage the 
facilities for DHS. In order to transfer ownership of the NAC to the 
GSA, we will require a legislative waiver from section 2909 of the 
Defense Base Closure and Realignment Act (BRAC), which specifies that 
bases may not be closed, except through the BRAC process. GSA is 
preparing the necessary legislative proposal that relieves the Navy of 
BRAC statutes.

    Chairman Warner. Of course, speaking somewhat from a 
parochial interest, it has always been my hope that the 
Department could have been located in the Commonwealth of 
Virginia so that the entire Department could be co-located 
together. I was told by Governor Ridge he still has that under 
consideration in the out years, but his immediate concerns are 
space availability here in the next few months. So perhaps you 
should address that question, because it will be before you.
    Now, the committee has asked Mr. England to answer a series 
of advance policy questions. He's responded to those questions, 
and, without objection, I'll make the questions and responses 
part of the record.
    I also have standard questions we ask of every nominee who 
appears before this committee. So, Secretary England, if you 
would respond to these questions, then we can move forward with 
the hearing.
    Secretary England. Yes, sir.
    Chairman Warner. Have you adhered to applicable laws and 
regulations governing conflict of interest?
    Secretary England. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which appear to presume the outcome of the 
confirmation process?
    Secretary England. No, sir.
    Chairman Warner. Will you ensure your staff complies with 
deadlines established for requested communications, including 
questions for the record, by the Congress of the United States?
    Secretary England. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefings in response to congressional requests?
    Secretary England. Yes, sir.
    Chairman Warner. Will you assure that the witnesses that 
come before the Congress of the United States will be protected 
from any reprisal for their testimony or briefings?
    Secretary England. Yes, sir.
    Chairman Warner. Do you agree, if confirmed, to appear and 
testify, upon request, before any duly constituted committee of 
the Congress of the United States?
    Secretary England. Yes, sir.
    Chairman Warner. Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, 
even though they may be inconsistent with those of the 
administration, will you so give that testimony freely?
    Secretary England. Yes, sir.
    Chairman Warner. I'd like to defer to my distinguished 
colleague, Mr. Chambliss, and also Mrs. Dole, in sequence. I 
think, Mr. Chambliss, you were the first to appear?
    Senator Chambliss. Senator Dole was, Mr. Chairman.
    Chairman Warner. Senator Dole.
    Senator Dole. I have several questions that I would like to 
raise. First of all, there are reports that Secretary Rumsfeld 
has questioned the role of the Coast Guard in military overseas 
operations and is expressing an interest in turning over the 
duties of naval force protection and port security to the Navy. 
I'm interested in how you view this situation, and also whether 
you feel that there is a trend to move more Coast Guard assets 
into joint operations, particularly with the Navy.
    [The information referred to follows:]

                         Navy/Coast Guard Roles

    The Department of the Navy's number one objective is to continue to 
support the global war on terrorism through naval combat forces that 
are capable and relevant to the mission assigned by the combatant 
commander. As such, the Coast Guard remains a frontline partner with 
the Navy in performing national defense and maritime security missions.
    The role of the Coast Guard in military operations overseas is 
clear. The Coast Guard's ability to perform general defense operations, 
maritime interception operations, port security and defense, peacetime 
military engagement, military environmental response, and coastal sea 
control operations is an integral part of our naval force presence. 
Even when not formally assigned to the Navy by the conditions set forth 
in title 14 of the U.S. Code, the Coast Guard supports military 
operations overseas as one of our Nation's Armed Forces. Their 
capabilities have been instrumental to our success in Iraq.
    Having said that, we remain aware that we are fighting a war 
against terrorists with global reach. The occurrence of a terrorism 
incident on our shores of significant magnitude could require all the 
current capabilities of the Coast Guard. When viewed in this respect, 
the Navy must be able and ready to fulfill those complementary missions 
abroad that traditionally might have been performed by the Coast Guard. 
The Navy has been reviewing its ability to perform those capabilities 
and assessing the risks and mitigating steps for such a situation. As a 
result, some Navy defense and maritime security mission capabilities 
that may resemble selected Coast Guard mission areas are meant to be 
complimentary to those of the Coast Guard against the global threat of 
terrorism. Port security and defense, and naval force protection 
operations are two such competencies.
    The role of naval combat forces in the global war on terrorism is 
part of the joint effort to engage potential adversaries and address 
threats to our security as far from the United States and our interests 
as possible and to ensure defense of the homeland. Joint and combined 
operations involving all our military forces, other Federal agencies, 
and coalition partners is core to the defeat of terrorism. 
Specifically, the partnership we enjoy with the Coast Guard is one we 
have long recognized.
    Operations involving force protection and port security are not 
solely Coast Guard or Navy competencies; in fact, these missions often 
involve the marines and sometimes the Army. While the Coast Guard is 
part of the new Department of Homeland Security, there are good reasons 
that demand we integrate our tradition-bound roles, missions, and 
platforms into a more holistic naval and maritime force. The reality is 
that we live in a joint world and are finding ways to jointly address 
traditional and emerging threats whether operating in a port within our 
borders or in some other locale.

    Chairman Warner. Senator Dole, I wonder if we could 
withhold questions. I thought perhaps you wanted to make some 
opening statements regarding the confirmation hearing, and then 
after he has given his statement to the committee, we will 
proceed with questions. So the question has been asked. I would 
ask that the answer be withheld until he's made his opening 
statement. Now that we're joined by Senator Levin, I'll defer 
to him.
    Senator Dole. All right.
    Chairman Warner. But I do wish to receive, on behalf of the 
committee, the views of my colleagues with regard to this 
nomination, then proceed to his opening statement.
    Senator Dole. Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, I apologize for being late, 
first of all. Let me join you in welcoming Gordon England, 
who's an old friend of ours, and well known to this committee. 
He has had an outstanding career of leadership and service to 
the Nation. We're grateful to you and to your family for the 
willingness that you've shown to continue that service to the 
United States, once again, as Secretary of the Navy.
    If you are confirmed by the full Senate, you are going to 
be well-positioned to carry on the critical programs that 
confront the Navy today. I'm not sure there is anyone, perhaps 
with the exception of our own chairman, who has had the benefit 
of as thorough a training course as you will bring to this job. 
The Navy has historically dealt with the day-to-day strains of 
deployment and high operating tempos. With everyone's concerns 
about supporting the readiness of our deployed and non-deployed 
forces, your efforts in managing improvements in the force and 
its supporting structure are going to be crucial.
    So I want to thank the chairman for the speed with which 
this hearing has been called. We look forward to supporting 
your nomination and working with you during your return 
engagement.
    Secretary England. Thank you, Senator.
    Chairman Warner. Thank you, Senator.
    Senator Dole, do you have any comments?
    Senator Dole. No.
    Chairman Warner. Senator Chambliss?
    Senator Chambliss. Mr. Chairman, I would just like to say 
that we're certainly glad to have Secretary England back with 
us. He did a great job in his tenure as Secretary of the Navy, 
where I got to know him well, and I'm very pleased that he has 
decided to come back to the Pentagon. He served us well in the 
Department of Homeland Security, and, Mr. Secretary, we're just 
glad to have you back.
    Thank you.
    Secretary England. Thank you very much, Senator.
    Chairman Warner. Senator Pryor.
    Senator Pryor. I don't have an opening statement, Mr. 
Chairman, thank you.
    Chairman Warner. Senator Reed, do you have any opening 
comments?
    Senator Reed. Thank you, Mr. Chairman. Let me just welcome 
Secretary England. He's an extraordinary, talented, and decent 
person, who will lead the Navy as he did before, and I'm just 
delighted he's returning.
    Thank you.
    Secretary England. Thank you, Senator.
    Chairman Warner. Thank you, Senator Reed. You have some 
very important installations such as the Naval War College in 
the State of Rhode Island.
    Secretary England, please give us your opening comments, 
and then we'll proceed to questions.

STATEMENT OF HON. GORDON R. ENGLAND TO BE SECRETARY OF THE NAVY

    Secretary England. Mr. Chairman, thank you.
    I do have some comments which I would like to put into the 
record, with your permission, sir, but just a few comments.
    First of all, it is a privilege and an honor to be here 
once again to seek confirmation as Secretary of the Navy. I 
appreciate the confidence and the trust of the President of the 
United States and Secretary Rumsfeld, and Secretary Ridge, that 
they've placed in me to return to this position of 
responsibility and importance to America.
    My earlier commitment to you, at my last confirmation, was 
to maintain the strongest and most combat-capable Navy and 
Marine Corps in the world, and that remains undiminished. I 
also, Mr. Chairman, would like to echo your remarks regarding 
H.T. Johnson, the Acting Secretary of the Navy, who did an 
absolutely admirable, very effective, and competent job as 
Acting Secretary. He is a very dear friend of mine. I thank him 
for his service during these past 9 months.
    Also, my thanks to this committee for your wonderful 
support of our military. Without the support of this committee, 
frankly, the military could not accomplish what they have 
accomplished here for our Nation this past couple of years. So, 
Mr. Chairman, members of this committee, I thank you for your 
wonderful support of our military.
    I also want to comment that it has been a privilege and an 
honor to serve with Secretary Tom Ridge as his Deputy in 
Homeland Security. I believe the people in that department have 
done just a marvelous job in securing America, and it has been 
a privilege for me to serve with him. I also thank him for the 
opportunity to serve with him and the President, in what is a 
very important and historic mission. It's a delight to be here 
again. I dearly love our men and women in uniform, and I am 
looking forward to returning as Secretary of the Navy, if 
confirmed by this committee.
    I await your questions, sir.
    [The prepared statement of Mr. England follows:]

                Prepared Statement by Gordon R. England

    Mr. Chairman and members of the committee, it is a privilege and an 
honor to appear before you to again seek confirmation as Secretary of 
the Navy. I am once again humbled by the level of trust and confidence 
that President Bush and Secretary Rumsfeld have placed in me, to return 
to my previous position of service to our sailors and marines and to 
our Nation. My earlier commitment to you to maintain the strongest and 
most combat-capable naval force in the world remains undiminished. My 
thanks to this committee for your continued strong support of the naval 
service and for all of our military. I also want to thank the Honorable 
H.T. Johnson for his leadership and personal commitment to naval 
excellence during his tenure as Acting Secretary of the Navy.
    It has been a unique privilege and an honor to serve Secretary Tom 
Ridge as his Deputy in the Department of Homeland Security. Under his 
leadership, our Nation daily grows stronger in securing our borders, 
protecting our travelers, enhancing our intelligence, protecting our 
critical infrastructure and responding to catastrophic events. The 
department has come a long way in a short time.
    I appreciate the opportunity provided to me by President Bush and 
Secretary Ridge to have been part of this important and historic 
mission.
    In May of 2001, I first appeared before you to address your 
questions related to my nomination as the 72nd Secretary of the Navy. 
Much has changed since that hearing. Today, we face a threat to the 
very foundations of our country--liberty and freedom--justice and law--
unlike any fight we have ever encountered. September 11 was the 
confirmation of these dramatic new threats to America. For the first 
time in the history of mankind, small numbers of people can wreak 
untold havoc in our cities and against our citizens . . . against our 
economy . . . and against freedom-loving people around the world. The 
past is no longer prologue to the future.
    In this new environment with new threats to America, Secretary 
Rumsfeld's commitment to transformation is ever more critical . . . and 
the naval services stand with him in this mission. This naval 
transformation is embedded in the four core initiatives that have 
underpinned the leadership focus for the past 2 years; namely, (1) 
improving combat capability, (2) achieving a quality workplace and 
enhanced quality of life for sailors and marines in order to create an 
environment of excellence, (3) improved application of technology and 
interoperability, and (4) more effective management techniques to 
systemically improve the efficiency of the Department of the Navy.
    Operation Enduring Freedom and Operation Iraqi Freedom have 
validated the importance of inter-service cooperation and fluidity of 
operations. The naval services are committed to continue to transform 
as part of a joint warfighting team. The United States has shown, 
through the global war on terrorism, that it has the will and the 
capability to protect America, even at the far corners of the earth. 
The recent operations in Afghanistan, Iraq, and Liberia highlight the 
naval services' ability to quickly respond to an international crisis 
while providing a strong stabilizing presence. All such operations have 
confirmed the Navy and Marine Corps' essential role to control the sea, 
project military power, and influence events well beyond the ocean. The 
country's ability to provide persistent naval warfighting capability as 
the cornerstone to sustain America's influence around the globe will 
continue. New initiatives like DD(X) and littoral combat ship (LCS) 
will carry this capability into the future against new threats. Coupled 
with other new initiatives, like the Fleet Response Plan, the Navy will 
continue to increase flexibility and surge capability.
    If confirmed, I will work with the Chief of Naval Operations, the 
Commandant of the Marine Corps, the Secretary of Defense and with this 
committee to ensure our future combat capability. As part of this 
effort, I fully support the Navy's and the Marine Corps' move to 
acquire flexible, multi-mission platforms to meet the demands of the 
global war on terrorism and to ensure that we remain poised to counter 
future threats.
    We are blessed as a Nation to have a 227-year legacy where 
magnificent men and women volunteer to protect and defend America. All 
Americans are proud and thankful for their service. In turn, America 
needs to provide them the tools and equipment to accomplish their 
mission and to provide for them and their families. Along with this 
support, we also need to evaluate continuously our military and 
civilian personnel policies. Our terrorist adversary has no large 
bureaucracy. Accordingly, we need to assure that our overall military 
capability is flexible, responsive and adaptable.
    Business practices are a force enabler. How we operate the naval 
enterprise, procure our goods and services, maintain our equipment, and 
the like, determines the efficiency and effectiveness of the force. By 
improving effectiveness, efficiencies are gained, thereby freeing 
funding for further effectiveness. This initiative was launched by the 
naval leadership team during my prior tenure and will continue, if 
confirmed, during my next tour of duty. Admiral Clark and General Hagee 
are committed with me to improve the effectiveness of everything we do. 
Transformation of business practices across the Navy and DOD are 
essential to meet Secretary Rumsfeld's goals, and we are committed with 
him in this undertaking.
    In recent history, technology has provided the decisive edge for 
our military forces. This emphasis is especially important in the 
global war on terrorism since a new spectrum of threats now face our 
military and citizen populations. Technology is more readily available 
to our adversaries. Globalization, the Information Age, lower cost--all 
accelerate technology dissemination around the globe, to friend and foe 
alike. This global technology transformation necessitates a focused, 
responsive technology program within the Department of the Navy to 
ensure that the naval services maintain a technological advantage in 
all encounters. I am committed to win this battle for continuous 
technical superiority.
    In closing, the enemies to freedom are organized, cunning and 
determined . . . but they are no match for the hardened resolve of 
nations and individual citizens who know the value of freedom and who 
will pay any cost to protect it . . . and leaders with the will, the 
vision, and the determination to win.
    Thank you for considering my nomination to be the 73rd Secretary of 
the Navy. If confirmed, I will serve our sailors, marines, and Nation 
to the best of my abilities.

    Chairman Warner. Thank you very much.
    Drawing on your experience at the Department of Homeland 
Security--there is a question about the United States Northern 
Command, that it should be given time to develop a coordination 
process between the Northern Command and the Department of 
Homeland Security. Presumably, you've focused some of your work 
at the department on that issue, and I'd like to ask how long 
do you think it will take to accomplish this coordination? What 
can we do to speed it up?
    I am a great supporter of the concept of homeland defense. 
The Department of Homeland Security is critical, I think, to 
the current and long-term survivability of this Nation. So I'm 
hopeful this problem can be resolved expeditiously.
    Secretary England. Mr. Chairman, that relationship is 
working well. Now, the Northern Command is relatively new, as 
is the Department of Homeland Security, but we have several of 
our people actually assigned to the Northern Command. One of 
our Coast Guard Federal Emergency Management Agency (FEMA) 
people is assigned at the Northern Command. So we work closely, 
we do exercises, joint exercises, with them. So we do have a 
close relationship. It is important that we continue to 
increase those bonds between us, because we each bring 
different types of capability as we protect and defend our 
Nation.
    But that is going well. There is a recognition on behalf of 
both of the organizations to continue to work those 
relationships, and I'm sure the department will continue to do 
that, Senator.
    So there are already ties at the management level, and at 
the operational level. I can tell you, as Secretary of the 
Navy, I will certainly encourage those ties from the Department 
of Defense point of view.
    Chairman Warner. Mr. Secretary, the question of the Guard 
and Reserve is now coming under close scrutiny. The President 
and Secretary of Defense, by necessity, had to call up major 
elements of our Guard and Reserve, and continue to do so. That 
will have an impact on the ability, in the out years, to 
maintain, in the case of the Navy and the Marine Corps, a 
strong Reserve. I would hope that you would focus on this issue 
as one of your top priorities, assuming your advice and consent 
by the Senate, because it's essential that we maintain a strong 
Guard and Reserve.
    You'll do it in collaboration with the other service 
secretaries in the department, but they have performed very 
commendably throughout the Afghanistan operation and the Iraq 
operation, and continue to do so. In their cases, the impact on 
the families is somewhat different than the Active Forces. 
There, an active member knows that he or she can be ordered, on 
a day's notice, to go abroad and assume responsibilities. In 
the case of the Reserve and Guard, it takes them a bit longer 
to sort out their obligations at home with the family and in 
their workplace before they undertake and accept their orders, 
which they have done willingly in this operation.
    Could you share with us your views on that, and hopefully 
commit to the committee that this will be one of your top 
priorities to examine?
    Secretary England. Well, Mr. Chairman, I can definitely 
commit to that. This is important for our Navy and for our 
Marine Corps. The Reserves are very important. We did activate 
reservists for both Operations Enduring Freedom and Iraqi 
Freedom.
    I will tell you, sir, that we are very sensitive to the 
service of our reservists, and we do try to have a fixed period 
of time on active duty for them. At this point, I know that a 
lot of our reservists are going home to their families. But we 
are very sensitive, and we are very appreciative of what our 
Reserves do for our Active Force, and their families. I will be 
very sensitive to this issue as we go forward, sir. We do 
sincerely appreciate their service.
    Chairman Warner. Good.
    The subject of the Littoral Combat Ship Program, it was 
initiated by you and the Chief of Naval Operations (CNO) before 
your departure from the department. I commend both of you on 
it. It is a vital program to the out years of the Navy.
    In your absence, the CNO stated that he envisioned that 
there will be about 65 of these ships built. The funding for 
the first ship in the class is projected in the research, 
development, test, and evaluation (RDT&E) funds in fiscal year 
2005. Because it is the focused mission modules that will 
enable these ships to perform their missions, do you believe 
that enough emphasis has been placed to date on the development 
of these modules?
    Secretary England. Mr. Chairman, I don't know everything 
that's happened since I left the office earlier in the year. 
But I do know that the plan was for the initial ships to use 
existing technology for the mission modules, and then to 
develop the mission modules in a whole new approach--that is, a 
modular design with new business practices--so that the LCS 
would indeed not only be a new class of ships, but would be a 
new way of buying ships. They would be modular in construction. 
We could do this, hopefully, much faster and cheaper than our 
other series of ships. This is a whole new approach, and I do 
believe, when I left, at least, the Navy had a very excellent 
plan to go forward with the mission modules, and I would 
expect, sir, that that's still in place.
    Chairman Warner. Our committee has heard competing 
estimates of cruise missile threats to the Navy. This goes back 
to when I was privileged to be in the Navy Secretariat. But 
it's becoming an increasing threat, given the proliferation of 
technology and the ability to construct these cruise missiles 
throughout the world. Some contend the threat is serious. 
Others contend the Navy is well prepared. I would ask that you 
put this among your top priorities, because our carrier task 
forces could be vulnerable to these instruments of war even 
being launched from shore and/or small vessels. To the extent 
you can talk about this subject here in open session, I'd like 
to, again, have your commitment to address this as a high 
priority and make such other observations as you feel free to 
do so.
    Secretary England. Well, I would say that this is certainly 
a threat to our Navy. The Navy has invested, I know, a lot of 
resources to defeat this threat. But I will, indeed, follow 
this issue closely, and we will, indeed, report back to this 
committee as our plans continue to unfold in that regard, Mr. 
Chairman.
    Chairman Warner. Good.
    My time has concluded. I say to my colleagues that I am 
going to go vote, so that I can return. It would be my hope, 
Mr. Talent, that you or others can continue this hearing until 
I come back.
    Thank you very much.
    Senator Levin, do you have questions?
    Senator Levin. Thank you, Mr. Chairman.
    On the end strength issue, there has been a request for the 
2004 fiscal year budget that there be a reduction in active 
duty end strength for the Navy of 1,900 sailors. A 1,900-sailor 
reduction is requested also in the end strength for the 
Reserve. I'm concerned about the efforts to cut the size of the 
active and Reserve Navy at a time when the operational tempo 
has never been higher. Our military personnel are serving 
extremely well during times of high stress, and I just don't 
see how we can cut end strength and continue with all of our 
military missions, and expect our service members to elect to 
enlist or reenlist in our already stretched military services.
    Can you give us your views on that end strength issue?
    Secretary England. Well, Senator, during my last tenure, we 
took a lot of steps, frankly, to make the Navy more effective 
and more efficient, including lower manning levels on our 
ships. Our new ships require less personnel, because they're 
more highly automated, with different technologies. So the plan 
at that time was, indeed, to reduce the manpower in the Navy 
and in our Reserves as a function of less manning on our ships 
and better technology. I will look at that when I return, sir, 
to make sure that that's still appropriate, and that we're on 
the right path, but that was the plan about a year ago, 
Senator.
    Senator Levin. Secretary England, the administration is 
planning on deploying a sea-based missile defense system in 
2004, despite the fact that it failed its most recent test. 
Will you support deployment of a sea-based missile defense 
prior to completion of a successful test program?
    Secretary England. Senator, I'm not familiar with the test 
program that's being conducted or how extensive or how long 
that test program is. Again, I know that we had some successes 
when I was Secretary of the Navy before. It was extremely 
promising. I think this is likely a question of risk and the 
immediacy, in terms of confidence in the design versus the 
risk. So I would expect this is a risk-management type of a 
decision. I'm not familiar exactly what those risks are at the 
moment, because, again, I have not been in that role now for 
some time. But, again, I'd be happy to get into that in more 
detail. But I do think it's a risk-based assessment that would 
be made.
    Senator Levin. Would you do a little research on that issue 
for the record, and give us a more complete answer for the 
record in the next day or so?
    Secretary England. Yes, sir, I will.
    [The information referred to follows:]

                       Sea-based Missile Defense

    Yes, I support the initial deployment of a sea-based ballistic 
missile defense system, in accordance with the commander in chief's 
goals stated in National Security Presidential Directive 23. The Navy 
and the Missile Defense Agency are executing their sea-based test 
program with great success, most recently Flight Mission Six (FM-6) in 
December of last year. In that test, a Navy cruiser fired an SM-3 that 
successfully intercepted a ballistic missile-like target, meeting all 
pre-test objectives.
    It is important to note that the initial deployment of our sea-
based capability would provide surveillance and tracking of long-range 
ballistic missiles, to support engagements by the Ground Based 
Midcourse system. Preparations and testing for a sea-based engagement 
capability will continue, with a flight test planned for early calendar 
year 2005. I will stay fully engaged with Congress on this issue, and 
will ensure you are fully briefed prior to a decision regarding future 
developments.

    Senator Levin. Would you also--if, in fact, you do support 
the deployment of that missile-defense system before completion 
of its test program successfully, would you, in your answer, 
also let us know if there are any other Navy systems that you'd 
recommend deploying prior to successful completion of 
operational tests?
    Secretary England. Yes, sir.
    [The information referred to follows:]

                       Ballistic Missile Defense

    There are currently no other systems I would recommend deploying 
prior to completion of operational tests. It would be premature to 
recommend deployment of a weapon system prior to the completion of 
adequate testing unless there is a dire national security concern, and 
then only with the proper risk controls in place.

    Senator Levin. Then there are just two other questions, 
given the time. One relates to the Harpoon Enhancement Program, 
which the Israeli Government has approached the Navy about, 
relative to a possibility of joint development and upgrading of 
the Harpoon anti-ship missile. Do you support pursuing a joint 
development program to improve the Harpoon missile?
    Secretary England. Well, I did when I was previously 
Secretary of the Navy. Now, again, sir, I don't know what has 
transpired since then, but, at the time when it was first 
discussed, it did sound like a reasonable approach. I don't 
know what the latest situation is in regard to that. That's 
another issue. Senator, with your permission, I'll get back 
with you.
    Senator Levin. That would be great if you would do that.
    [The information referred to follows:]

                            Harpoon Missile

    The Navy is overseeing an Israeli Technology Concept Development 
Study (CDS) which examines the operational and programmatic impacts of 
integrating Israeli proposed upgrades to the Harpoon Block II weapon 
system. The U.S. and Israeli Navy--with their industry counterparts--
conducted a second Technical Interchange Meeting on 11-15 January 2004, 
further refining the study's trade-space. The CDS should be completed 
by September 2004, at which time I will ensure your office is furnished 
with the results.

    Senator Levin. Finally, in your current position, since 
you'll be there for a few more hours, in any event, first, let 
me thank you for connecting me with Secretary Ridge so 
promptly. This occurred last week. Your offices worked very 
well on that, and I appreciate it.
    Secretary England. You're welcome.
    Senator Levin. Could you remind the Secretary, while you're 
still there, that he owes Senator Collins and I an answer--the 
Senate and the country, frankly--on the question of 
coordination between the Terrorist Threat Integration Center, 
the Counter-Terrorist Center, and the new Homeland Security 
Department's Information Analysis Infrastructure Protection 
Section? Because there could be confusion or uncertainty as to 
who has the primary responsibility for analyzing foreign 
intelligence unless that, and until that, is pinned down very 
clearly. Secretary Ridge knows he owes us that, but please 
remind him. It's very important that we not have a repeat of 
the situation before September 11 where the failure to clearly 
identify responsibility for that analysis, at least in the 
judgment of some of us, contributed to our lack of preparedness 
and being able to be ready for that kind of an attack and to 
know about it in advance. So if you could leave that in your 
final notes to your Secretary, we'd appreciate that a great 
deal.
    Secretary England. I'll do it.
    Senator Levin. Congratulations again. We look forward to 
your confirmation.
    Secretary England. Great, thank you very much. Thank you 
for your support, sir.
    Senator Talent [presiding]. I'm told that we actually have 
two votes. We're going to continue until we hear from the 
chairman about whether he's going to try to get back.
    Senator Chambliss is recognized.
    Senator Chambliss. Thank you, Mr. Chairman.
    Mr. Secretary, I have three outstanding Department of the 
Navy installations in my State, of which I am very proud. You 
and I have already discussed that we're going to make sure that 
you and I have an opportunity to visit those three during your 
tenure in office this time.
    Secretary England. Yes, sir.
    Senator Chambliss. You were kind enough to visit the Albany 
facility last time around, and now I look forward to getting 
you down on the coast, as well as to the Navy supply school at 
Athens.
    As we did discuss the other day in my office, I'm very 
concerned about what's happening with the Navy and Marine Corps 
Reserve aviation assets. I'm concerned that the Navy does not 
have a vision for using these Reserve Forces. I'm told that the 
active-duty Navy strongly opposed using Reserve F/A-18s from 
NAS, Fort Worth, in Operation Iraqi Freedom. However, they were 
used, and they performed magnificently on the U.S.S. Roosevelt. 
I'm told that between now and fiscal year 2006, the Navy is 
planning to decommission approximately 13 Reserve aviation 
squadrons, none of which are scheduled to receive new hardware. 
This approach, if followed, will result in a Reserve component 
with no equipment, only personnel. The Reserve, in this case, 
would have no assets to train with and no unit to deploy with. 
This has been tried before, and the impact on readiness, 
morale, and retention would be devastating.
    While I fully appreciate the need to recapitalize and take 
advantage of advances in technology, I am extremely concerned 
about the Navy's approach and the impact it will have on the 
readiness and capabilities of our Navy and our Nation.
    Now, I know, with you just coming back to the Pentagon in 
this position, you have a lot on your plate at this time. But 
if you would, I'd like for you to outline what your vision is 
for the Navy and Marine Corps Reserve, and how you plan to keep 
them engaged, contributing, and a full member of the Navy team.
    Secretary England. Well, Senator, just let me say, in 
general, that the Reserves are a very important part of our 
Navy and Marine Corps team. My understanding when I left was, 
we were starting studies, in terms of how we could most 
effectively utilize those Reserves. Sir, I'm not familiar with 
the output of those studies or where they are. So, with your 
permission, I would like to get back with you on this subject, 
Senator.
    Senator Chambliss. Sure.
    Secretary England. So I will return--if you'll give me just 
a short period of time, if confirmed, in reporting to my new 
office, I will make an appointment, and we'll discuss this 
issue, sir.
    Senator Chambliss. Okay. There is one other thing I'd like 
to comment on. I had the opportunity to visit with General 
Schoomaker this morning, and I mentioned to him that--the same 
issue that Senator Levin brought up with respect to force 
structure and where we're going. I am receiving numerous 
complaints, not necessarily from the members of the Reserve and 
the Guard, but more from their families, about the deployment 
of these folks on a continued basis. In some instances, and I 
don't know that the Navy is included in this, but we have 
instances where our Guard and Reserve folks have been called up 
over the last 4 years virtually every other year. If we 
continue to do that, recruiting and retention is going to 
become more and more difficult. So I think it's absolutely 
necessary that we start looking at the size of the force 
structure. Did we downsize too much? If we didn't, are we 
prioritizing where we need to put our folks? I say that as 
chairman of the Subcommittee on Personnel here on the Senate 
Armed Services Committee.
    I look forward to dialoguing with you on this over the next 
several months as we head into the 2005 fiscal year. We need to 
reevaluate this. I know the Navy has actually asked for a 
decrease in personnel, but the tempo of operations (OPTEMPO) is 
going up. So I think we need to continue this dialogue, let's 
make sure that we're all satisfied that we're on the right 
track.
    Again, I thank you for your service to our Nation. You're 
the kind of person that the United States really needs in 
public service. I think by virtue of the fact that--and we 
didn't want to hurt your feelings that not many people are 
here, but it is a sign of the fact that everybody on this 
committee has great respect for you, and we're sure glad to 
have you coming back as Secretary of the Navy. As with Senator 
Levin, I want to give you my congratulations in advance. So 
thank you, Mr. Secretary, and we look forward to continuing to 
work with you.
    Secretary England. Senator, thank you, and I look forward 
to working with you, sir. I look forward to accomplishing a lot 
for our Navy, our marines, and for our Nation. Thank you for 
your kind comments.
    Senator Chambliss. Knowing that one of your hobbies, as is 
mine, is fishing, there's great fishing at Kings Bay in places 
that ordinary folks can't go that I'm expecting you to get me 
into, so----[Laughter.]
    --we're going to make that happen. [Laughter.]
    Secretary England. Thank you, sir.
    Senator Talent. Maybe we should strike that last remark 
from the record. [Laughter.]
    Senator Warner, I understand, is on his way back. Secretary 
England and I have had a chance to visit in private about a 
whole lot of issues, and I don't have any questions for him. 
There is one vote pending, and they're holding it for Mr. 
Chambliss and myself, and then another after that. So what I'm 
going to do is just recess the hearing, if the Secretary would 
not mind, because the chairman is on his way back, and then he 
can decide whether he wants to continue, if he has further 
questions, or if he wants to adjourn the hearing.
    Secretary England. Great. Thank you very much, Senator.
    Senator Talent. The hearing is recessed until the chairman 
returns. [Recess.]
    Chairman Warner [presiding]. We will resume the hearing. I 
will ask staff to advise the chair if any other members are 
likely to come, and if anyone has knowledge of that we will 
continue. But I'll proceed with one or two questions here. If 
no members indicate that they desire to come to the hearing, 
then we'll conclude.
    As you're aware, Mr. Secretary, this committee established 
a goal for the Department of Defense. By 2010, one-third of 
U.S. military operational deep-strike aircraft will be 
unmanned, and by 2015 one-third of all U.S. military ground 
combat vehicles will be unmanned. What is your assessment of 
the Navy and the Marine Corps being able to meet this goal? Do 
you agree that it's a laudable goal? What views are you willing 
to share with us this morning on that point?
    Secretary England. Senator, I'm not sure we're going to 
meet those specific goals, but I can tell you that there's a 
large interest in the Department of the Navy in unmanned 
vehicles of all types--not just in the air, but underwater--and 
there is a significant interest on my own part. In fact, as 
Deputy Secretary of Homeland Security I participated in the 
Unmanned Vehicle Conference here on the east coast of Maryland 
just recently, to observe all the various types and the 
technology and what might be applicable. I know before I left, 
we actually put money in the budget to heighten and increase 
our effort in this area with unmanned vehicles. So I can tell 
you, this does have my personal attention and my personal 
interest. I do know that the Chief of Naval Operations and the 
Commandant of the Marine Corps are both personally interested 
in unmanned vehicles of all varieties--land, sea, and air.
    So this will be an area that we will continue to pursue, 
and we will give you a further assessment, Senator. We'll look 
at this and respond directly, in terms of, can those goals be 
achieved? They do sound aggressive, but those goals have put 
us, I believe, on the right path, in terms of unmanned vehicles 
for the future.
    Chairman Warner. With reference to manned aircraft, I think 
it was under your leadership that the CNO and the Commandant 
reached this arrangement by which there's just about an 
integration of naval and marine air forces, and particularly 
incorporating larger numbers of marines in the carrier task 
force operating off carriers. That is something that achieved a 
dollar savings, training savings, greater utilization of 
aircraft and personnel. I hope that you can continue that, and 
even improve on it, and find such other means to make the 
Marine Corps/Navy team more cohesive.
    Secretary England. Senator, absolutely. The key word is the 
Navy/Marine Corps ``team.'' I believe that team is the best 
it's perhaps ever been. A lot of that is due to the Chief of 
Naval Operations, Admiral Vernon Clark, and also the previous 
Commandant, General Jim Jones, and our current Commandant, 
General Mike Hagee. That's very important. That approach 
eventually saved the taxpayer tens and tens of billions of 
dollars; and, in our judgment, we ended up with a more 
effective force. So this team approach will continue, in terms 
of improving our effectiveness and also the efficiency of our 
force. You have my commitment, sir. That's very important to 
me, personally. I know it's important, again, to the CNO and 
the Commandant. We are a very close-knit leadership team, and 
we will definitely work this issue.
    Chairman Warner. I, together with Senator Levin and other 
members of the committee, made two trips this year to the 
region of Afghanistan and Iraq, and I actually had an 
opportunity to spend several days with the Marine Amphibious 
Ready Group (ARG)--that is the task force offshore Liberia. 
That task force had been in an operational status for a 
considerable period of time, and it was due for rotation when I 
was there, I was told--this was 10 days, almost 2 weeks now--
rotation October 1. But in visiting with all levels of troops, 
it was clear to me that you're working with the Secretary of 
Defense to maintain schedules of your forward-deployed units, 
schedules where not only the members in uniform, but their 
families, know, as best you can, of the period of those 
deployments and the return dates. If they have to be extended, 
then, as quickly as possible, inform the families, and there 
will be valid reasons for that extension given. But I cannot 
emphasize the importance of keeping the uniformed members and 
the family members on a timetable, on a schedule, so that they 
can fulfill their missions abroad, but, at the same time, 
fulfill their commitments to families at home. I hope that that 
will be one of your top priorities.
    Secretary England. It is. Again, we agree with you, 
Senator. The Navy and the marines, we are a deployed force, so 
our forces are always deployed. Our men and women look forward 
to those deployments. We do try to schedule them so that we 
have fixed time dates. Obviously, in time of war they change 
somewhat. But I need to tell you, Senator, our retention is at 
an all-time high, our recruitment is at an all-time high, and 
morale is very high. So I believe the CNO and the Commandant 
have just done a superb job, in terms of deploying our forces 
and bringing them home at the appropriate time. We're very 
sensitive to that, and we will continue to be so, sir.
    Chairman Warner. Well, I felt that the force that the 
President, I think, very wisely and properly ordered to be 
deployed off the coast of Liberia, performed its mission in a 
very commendable way that ARG is still there. It's due, I 
think, to rotate 1 October or thereabouts. What I would hope 
you would consider is due recognition for their services in 
that operation, because it was successful.
    Secretary England. Absolutely. Again, Senator, this Navy/
Marine Corps team, we deploy for a purpose, and being 
everywhere around the world is very important to our Nation, 
and that is our mission. We will continue to do that, and we 
appreciate these magnificent men and women who do that for our 
country, and we'll make sure they are recognized, sir.
    Chairman Warner. I share those views.
    One of the President's highest priorities is defending the 
Nation, its allies, and friends, and deployed forces from 
ballistic missile attack. While Navy-based ballistic missile 
defense efforts have achieved recent test successes, those 
efforts have also undergone significant change since the 
cancellation of the Navy Area Defense Program. How important is 
ballistic missile defense as a Navy mission? Should the next-
generation Navy surface combat ship be DD(X), and its radar be 
built to support the missile defense mission? What role do you 
believe the Navy should play in helping defend the U.S. 
coastline from shorter-range ballistic missiles that could be 
launched from other than naval vessels or barges or other 
craft?
    Secretary England. Senator, the Navy does have a unique 
capability in this regard, since our ships can deploy almost 
anywhere in the world. So we can position our ships for this 
mission. It is a mission uniquely suited to the United States 
Navy. We have had a number of successes in this area. I will 
follow up with you in the detail of exactly where we are in 
those development programs and deployments. But it is an 
important capability for our Navy/Marine Corps team, and it's 
also an important capability for the Nation. So hopefully we'll 
continue to have test success in that regard and deployment.
    Chairman Warner. All right.
    [The information referred to follows:]

                       Ballistic Missile Defense

    The President considers protecting the American people from these 
threats his highest priority. The Navy is uniquely positioned to 
provide some of this capability and we consider it to be among our top 
priorities. We do not envision DD(X) as being a ballistic missile 
defense asset. The Navy and the Missile Defense Agency will ultimately 
equip eighteen cruisers and destroyers for the Ballistic Missile 
Defense (BMD) mission, and Navy plans to build a BMD capability into 
the CG(X) class of ships. The Department of Defense has authorized the 
Navy and Missile Defense Agency to undertake a sea-based terminal 
defense experiment that should provide additional information on this 
type of coastal threat. The results of this test should be complete by 
the middle of calendar year 2005 at which time I will ensure these 
results are made available to your office.

    Chairman Warner. In 2001, the Commission to Assess the U.S. 
National Security Space Management Organization, also known as 
the Rumsfeld Commission, made a number of recommendations to 
improve DOD oversight of space programs. Do you believe that 
the current Department of Defense management structure for 
space programs sufficiently addresses Navy space equities? In 
your view, how actively should the Navy be engaged in the 
management of space programs?
    Secretary England. Well, Senator, my understanding is that 
we are a full partner in those programs. We do participate with 
the National Reconnaissance Office (NRO) directly, and we are a 
part of their team. But, with your permission, I will get back 
with you on that subject, sir, after I become more familiar 
with exactly where we are with those programs. During my last 
tenure we were a full partner. We were training and equipping 
people. But I would be pleased to respond to you, sir, in more 
detail on that question.
    [The information referred to follows:]

              National Security Space Management Structure

    The Rumsfeld Commission considered how to strengthen our national 
security space program given our growing dependence and vulnerability 
in this area. The commission presented a thorough, independent, and 
objective assessment of our national space program. Implementation of 
the 10 recommendations approved by Secretary Rumsfeld are transforming 
the Nation's space programs to a more comprehensive management and 
organizational approach--an approach that is necessary to assign clear 
responsibilities and accountability for particular space programs.
    The Department of the Navy is working as a partner with the Under 
Secretary of the Air Force/Director of the National Reconnaissance 
Office [the DOD Executive Agent for Space] in the overall space 
decisionmaking process. The current structure does sufficiently address 
Navy equities. Within the DOD, there is appropriate Navy leadership 
representation at National Security Space stakeholder meetings, Defense 
Space Acquisition Boards, and other decisionmaking fora. Specifically, 
the Navy is designated the executive agent for developing and fielding 
the next generation Ultra High Frequency Satellite Communications (UHF 
SATCOM) for which it has long been a leader. The Navy leads the Program 
Office for development, acquisition, and deployment of the Mobile User 
Objective System satellite communications system, which will be used by 
all DOD components for their future UHF communications needs.
    The Navy should be, and is, actively engaged throughout the 
spectrum of space requirements (including those for future space 
capabilities), acquisition and operational processes, and space science 
and technology/research and development (S&T/R&D). We have organized 
internally to ensure appropriate management of space programs, and are 
finalizing a revised Naval Space Policy to reflect the changes in the 
National Security Space environment. The Navy has also established a 
Space Cadre Advisor to assist in the development and assignment of its 
space cadre, as directed by Secretary Rumsfeld.

    Chairman Warner. The Department of the Navy is working with 
both the Marine Corps and the Army to develop a Lightweight 
155mm Howitzer. Are there other programs or areas that can 
beneficial to both the Marine Corps and the Army, which would 
lead to lower development costs and improved interoperability? 
Are you familiar with that program?
    Secretary England. I am familiar with the lightweight 155. 
It is a joint program. It is very successful. As I recall, we 
were going into production during the last budget, we were 
starting our initial production. So I expect that program is 
now in the production phase. But we do work closely with all 
the Services. Secretary Rumsfeld's approach is to have a very 
joint military, so we do work with all the Services, in terms 
of all of our programs, to make sure we have as much 
interoperability and commonality as we can, Mr. Chairman, and 
we will continue to do that. That is a major thrust of the 
Secretary of Defense, and we will certainly continue those 
initiatives.
    Chairman Warner. On my way to Liberia, I accompanied the 
Majority Leader to South Africa. It is my practice, when I 
visit nations, to call on the defense establishment. In that 
context, some remarkable achievements that South Africa has had 
in recent years were brought to my attention in the development 
of field artillery delivery systems and, most particularly, the 
shells they used. I was advised that the Army is now testing 
some of their shells, which, according to certain 
representations, outperform our current inventory of artillery 
shells by a margin of two to one. They've incorporated some 
high-technology innovative systems, and it's working.
    Would you have the Marine Corps take a look at those 
systems in the context of the question I've just asked?
    Secretary England. Absolutely.
    Chairman Warner. The Defense Science and Technology Program 
is recovering after years of declining budgets. However, the 
budget request for S&T still falls short of the Secretary of 
Defense's goal of dedicating 3 percent of the total Defense 
budget to science and technology. In particular, the Navy 
Science and Technology Program has declined significantly over 
the past 2 years. Subject to confirmation, how do you plan to 
address the shortfalls of the Navy Science and Technology 
Program and to try and meet the Secretary of Defense's goal?
    Secretary England. Mr. Chairman, it is hugely important to 
us, this whole science and technology investment. My only 
comment would be that we also do a lot of S&T work particularly 
in our very classified programs and at some of our R&D 
accounts. So I think if you look at the total S&T that we do 
across the Navy, we likely do about 3 percent. I believe the 
number is actually larger than it appears. But, also, along 
with the 3 percent is the effectiveness of the R&D and the 
efficiency of the S&T that we do. So I think there are multiple 
dimensions to this. It is important to our future. It is an 
issue that I will pay particular attention to. So this is an 
issue that does have my attention, Senator, and I will be 
pleased to periodically report back to you on how we're doing 
in this whole area of S&T.
    Chairman Warner. The record will remain open for further 
questions to be propounded to the nominee by members of this 
committee. We'll keep it open for 48 hours, subject to the 
inclusion of such questions as may be put in, and your 
responses. This hearing will be concluded this morning, subject 
to that exception.
    We wish you well, Mr. Secretary. We've had a good hearing. 
We have a series of votes on the floor which have detained a 
number of our members who otherwise would have been present 
this morning.
    The hearing is recessed.
    Secretary England. Mr. Chairman, I just want to say thank 
you for your personal support of my confirmation, and also, 
again, thank you for your great support of the United States 
military.
    Thank you very much, Senator.
    Chairman Warner. I thank you, Mr. Secretary.
    [Whereupon, at 12:06 p.m., the committee adjourned.]

    [Prepared questions submitted to Gordon R. England by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. You previously have answered the committee's advance 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act in connection with your nomination to be the 72nd Secretary of the 
Navy.
    Have your views on the importance, feasibility, and implementation 
of these reforms changed since you testified before the committee at 
your confirmation hearing on May 10, 2001?
    Answer. No, my views remain the same as when I testified before 
this committee in May 2001. I remain firmly committed to the complete 
and effective implementation of the reforms brought about by the 
Goldwater-Nichols Act.
    Question. Do you see the need for modifications of Goldwater-
Nichols provisions based on your experience as Secretary of the Navy 
and Deputy Secretary of the Department of Homeland Security? If so, 
what areas do you believe it might be appropriate to address in these 
modifications?
    Answer. I do not, at this time, see a need for modifications to 
Goldwater-Nichols. However, if confirmed, I will again closely examine 
Goldwater-Nichols and make recommendations for changes to the Secretary 
of Defense if I think they are needed.

                                 DUTIES

    Question. Based on your experience in the Department of Defense and 
the Department of Homeland Security, what recommendations, if any, do 
you have for changes in the duties and functions of the Secretary of 
the Navy, as set forth in section 5013 of title 10, United States Code, 
or in regulations of the Department of Defense pertaining to functions 
of the Secretary of the Navy?
    Answer. I do not foresee any changes in the duties and functions of 
the Secretary of the Navy as set forth in section 5013 of title 10, 
U.S. Code. However, I do recommend clarification of authority and 
responsibilities between the Service Secretaries and the executive 
offices within the Office of the Secretary of Defense.
    Question. Assuming you are confirmed, what duties do you expect 
that Secretary Rumsfeld will prescribe for you?
    Answer. Secretary Rumsfeld will certainly rely on me to provide 
effective leadership for the Navy-Marine Corps team. I also expect that 
the Secretary will seek my assistance to continue to transform the 
business practices within DOD. Additionally, with a background in both 
Homeland Security and with DOD, I am uniquely qualified to assist 
Secretary Rumsfeld in effectively implementing joint DHS and DOD 
activities. Lastly, I serve the President through Secretary Rumsfeld 
and will therefore perform whatever duties that fit my qualifications 
and experience.
    Question. What duties and responsibilities would you plan to assign 
to the Under Secretary of the Navy?
    Answer. This depends on the qualifications and experience of the 
person confirmed for this position. However, I would expect the Under 
Secretary to lead special project activities as well as to generally 
perform the following functions: oversight of Naval IG, Naval Audit 
Service, DON CIO, Naval Space, Financial Management Modernization, and 
Small and Disadvantaged Business Utilization.
    Question. Based on your earlier experience as Secretary of the 
Navy, if confirmed, how would you anticipate working with the Assistant 
Secretary of the Navy for Manpower and Reserve Affairs; the Assistant 
Secretary of the Navy for Installations, and Environment; the Assistant 
Secretary of the Navy for Financial Management and Comptroller of the 
Navy; the Assistant Secretary of the Navy for Research, Development, 
and Acquisition; and the General Counsel of the Navy?
    Answer. During my previous tenure as Secretary of the Navy we 
formed a close-knit leadership team between all the Assistant 
Secretaries, the Secretary of the Navy, the CNO, the Commandant, and 
their staffs. This team approach was highly effective in addressing 
issues and solving problems important for the Navy Department and for 
DOD. This team process will continue during my second tenure.
                     major challenges and problems
    Question. In your responses to previous advance policy questions 
submitted in May 2001, you identified the Department of the Navy's 
greatest challenges as improving combat capability, achieving a quality 
workplace, and enhanced quality of life for sailors and marines in 
order to create an environment of excellence, improved application of 
technology and interoperability, and more effective management 
techniques to systematically improve the efficiency of the Department 
of the Navy.
    What do you consider to be your most significant achievements in 
meeting these challenges during your previous service as Secretary of 
the Navy?
    Answer. During the summer 2001, the Department of the Navy was 
seeking a supplemental to provide the funding to continue to steam 
their ships and fly their airplanes. This shortage of basic capability 
was indicative of the general state of the Navy at that time. With the 
support of President Bush, this committee, and Congress, significant 
funding increases, along with key management decisions within the Navy, 
allowed the Navy to transform many aspects of the naval services.
    For example, in addition to added funding provided by Congress, the 
Navy has self-generated billions of dollars through better business 
practices, thereby freeing up additional funds for transformation of 
the naval fleet and air wings. Numerous prior programs were cancelled, 
like DD-21, and replaced with programs better designed for our future 
Navy, like DD(X) and LCS. Navy and Marine Corps Aviation were 
integrated, thereby providing a far more effective force at less cost 
to the taxpayers. Important programs were strengthened and many new 
initiatives started.
    Public/private ventures have been implemented across the Navy and 
the Marine Corps, providing greatly improved housing for our men and 
women in uniform and their families. Morale, measured by retention, is 
at an all-time high.
    A new vision for the naval team set the foundation for a whole 
series of new initiatives, including Sea Shield, Sea Strike, Sea 
Basing, Sea Warrior, Sea Enterprise, and Sea Trial. All these 
initiatives are underway within the naval services. Perhaps most 
importantly is recognition within the naval leadership that 
transformation is not a destination but a journey. The naval leadership 
has embraced change to continue to meet future threats to our Nation.
    Question. Have these challenges changed since your departure in 
January 2003, and what are your plans for addressing the challenges you 
now envision?
    Answer. Assuming confirmation, during my next tenure, the naval 
services will continue on the path of transformation to better tailor 
naval forces to meet new threats to America and to continue to 
emphasize combat capability, personnel, technology, and business 
practices.

                DEPARTMENT OF HOMELAND SECURITY AND DOD

    Question. From January 30, 2003, through the present, you have 
served as Deputy Secretary of the Department of Homeland Security 
(DHS).
    Describe your assessment of the level of cooperation that exists 
between DHS and DOD.
    Answer. DHS cooperation with DOD precedes the establishment of the 
Department, because of the longstanding relationships that many of its 
legacy components have had--the U.S. Coast Guard, for example. 
Secretary Ridge has set the tone of outreach to DOD for mutual 
cooperation. Just a few weeks ago he spoke to hundreds of senior 
government leaders at DOD's Worldwide Combating Terrorism Conference, 
identifying areas for DHS-DOD cooperation.
    DHS participated in DOD's recent Determined Promise 2003 exercise. 
DHS and DOD have been sharing research and development information; the 
Technical Support Working Group, for example, hosted the recent Broad 
Area Announcement that DHS issued to the private sector. DHS 
participated in and I personally attended the debriefing of the Defense 
Science Board's Summer Study on DOD Roles and Missions in Homeland 
Security. DHS Under Secretary Libutti (IAIP) and Under Secretary 
McQueary (S&T) will shortly be meeting in Norfolk with DOD Assistant 
Secretary McHale (Homeland Defense) and members of U.S. Northern 
Command (NORTHCOM) to increase cooperation in a number of areas.
    Question. What is your assessment of the effectiveness of NORTHCOM 
in interacting with DHS?
    Answer. As discussed in the previous answer, DHS is a new 
department; barely 6 months have elapsed since the constituent agencies 
and personnel reported to it on 1 March 2003. NORTHCOM is the newest 
combatant command, and not that much older than DHS. Collaboration 
between the two organizations is developing--for example, DHS 
participation in Exercise Determined Promise 2003 and future face-to-
face meetings between senior DHS and NORTHCOM personnel cited in the 
previous answer. Representatives from the Coast Guard and from our 
Emergency Preparedness and Response Directorate (FEMA) are already on 
the staff at NORTHCOM.
    Question. What recommendations would you make to Commander, 
NORTHCOM and to the Secretary of Defense for improving the performance 
of NORTHCOM in enhancing homeland security.
    Answer. I would simply encourage Secretary Rumsfeld and General 
Eberhart to continue--perhaps even accelerate--the efforts at sharing 
information and participating in joint exercises that have begun. I 
would also commend to them the thoughtful analysis and recommendations 
that the Defense Science Board has done on the issue of DOD roles and 
missions in homeland security.
    Question. What changes would you recommend to improve the 
coordination and effectiveness of both DOD and DHS in enhancing 
national defense and homeland security?
    Answer. At this point, because both DHS and NORTHCOM are such new 
organizations, I think it would be premature to recommend any changes 
to the coordination processes that are currently being developed by DOD 
and DHS. The organizations deserve an opportunity to work through that 
process and thoroughly test all of the coordination mechanisms before 
any assessment is done and changes recommended.
    Question. What role would you advocate for the National Guard in 
homeland security missions?
    Answer. The National Guard is a splendid nationwide organization 
that is potentially postured to be of enormous help to the Nation in 
performing homeland security tasks--whether under DOD control in time 
of national emergency (title 10) or under State Governor control in a 
more localized event (title 32). It is important that the National 
Guard be structured and trained for homeland security missions, and it 
is the understanding of DHS that this transformation is taking place.
    Question. Do you advocate any changes to . . . title 18 or title 10 
. . . or any other laws or regulations affecting the use of military 
forces for civilian law enforcement?
    Answer. I have no recommended changes.

                             PRIVATIZATION

    Question. The Department of Defense has been engaged in the 
privatization of many of its support functions. Among the most 
significant privatization efforts involve military family housing units 
and utility systems.
    What are your current views about the feasibility of housing and 
utility privatization initiatives?
    Answer. Housing privatization is an effective mechanism to improve 
the quality of life for our sailors, marines, and their families. By 
leveraging commercial partners in awarding ten military family housing 
privatization projects, the Department of the Navy will be able to 
provide quality housing for our sailors, marines, and their families.
    But most importantly, the result of these projects will be the 
renovation or replacement of over 8,400 inadequate family housing 
units, and the addition of over 2,600 new units in critical housing 
areas. Housing privatization will allow the Department of the Navy to 
eliminate inadequate military family housing by 2007.
    Thanks to congressional authorization for three pilot projects, the 
Department of the Navy is expanding this approach to improve barracks 
for our single sailors and marines. Planned projects are at Norfolk, 
VA; San Diego, CA; and Camp Pendleton, CA. From the business 
perspective, privatization of housing and utilities allows the 
Department of the Navy to focus on its core missions, and obtain 
quality support services from businesses who are focusing on their core 
missions.
    Question. What challenges do the Navy and Marine Corps face in 
implementing housing privatization?
    Answer. We have a good business model to implement housing 
privatization, and have experienced good results. With your support we 
will be able to provide quality housing for our families.

                         INVESTIGATIVE REPORTS

    Question. Service secretaries are regularly called on to make 
decisions regarding accountability of military and civilian personnel 
based on investigative reports of service Inspectors General and field 
commanders.
    What is your opinion about the quality and reliability of the 
investigative reports assessing accountability of individual members, 
including flag and general officers, based on the reports of the Navy 
and Marine Corps Inspectors General and of line commanders during your 
previous tenure as Secretary of the Navy?
    Answer. I have high confidence in the quality and reliability of 
investigative reports assessing accountability of individuals, 
including flag and general officers, conducted by the Navy and Marine 
Corps Inspectors General.
    From my previous tenure as Secretary of the Navy, I know that each 
of investigations of this type are conducted carefully and thoroughly 
by the staffs of the Inspectors General and then go through multiple 
layers of review within the chain of command. I am confident that the 
reports of the Inspectors General can be relied upon to uphold the 
standards of the Department of the Navy.
    Question. What steps do you believe that a Service Secretary should 
take in a case in which the Secretary has doubts about the quality and 
reliability of the legal and factual conclusions in an investigative 
report?
    Answer. In any case in which there is any doubt about the quality 
and reliability of the legal and factual conclusions in an 
investigative report, there are a number of options. I can return the 
report to the Inspector General for further investigation and analysis 
of the facts and applicable legal standard, pointing out areas of 
concern. In the alternative, I can obtain additional evidence, often by 
allowing additional comment from the individuals who may be in a 
position to clarify particular facts. In some cases, the solution may 
be to request review by the Inspector General of the Department of 
Defense, or the assistance of an Inspector General of another service.

                       DELIVERY OF LEGAL SERVICES

    Question. As Secretary of the Navy, you witnessed the working 
relationship between the General Counsel, the Judge Advocate General of 
the Navy and the Staff Judge Advocate to the Commandant of the Marine 
Corps in providing legal counsel and services within the Department.
    What are your views about the responsibility of the Judge Advocate 
General of the Navy and the Staff Judge Advocate to the Commandant to 
provide independent legal advice to the Chief of Naval Operations and 
the Commandant of the Marine Corps (CMC), particularly in the area of 
military justice?
    Answer. It is critical that I, the CNO and the CMC receive 
independent legal advice from the senior uniformed judge advocates. The 
uniformed military attorneys in the Navy and Marine Corps are an 
absolutely critical component of the Department's legal service 
infrastructure. Both the Judge Advocate General and the Staff Judge 
Advocate to the Commandant perform functions in their respective 
organizations that are essential to the proper operation of their 
service and the Department as a whole. The Judge Advocate General and 
Staff Judge Advocate to the Commandant work closely with the Navy 
General Counsel. Their unique expertise and independent judgment and 
advice complement that of the General Counsel and offer the necessary 
blend of legal advice to the civilian and military leadership.
    Question. What are your views about the responsibility of staff 
judge advocates within the Navy and Marine Corps to provide independent 
legal advice to military commanders in the fleet and throughout the 
naval establishment?
    Answer. Uniformed staff judge advocates, assigned worldwide and 
throughout the chain of command, are essential to the proper 
functioning of the operational and shore-based Navy and Marine Corps. 
In addition to the statutory responsibilities of Navy and Marine Corps 
judge advocates, which are significant, of equal importance is the 
reliance that commanders place on staff judge advocates for a wide 
variety of matters. Legal issues arise at all stages and locations of 
military operations and staff judge advocates are deployed optimally to 
provide timely, relevant and independent advice to commanders 
everywhere. Flexibility and mobility are hallmarks of the judge 
advocate communities of the Navy and Marine Corps, and assignment 
policies and career development are structured to ensure sufficient 
numbers of deployable and well-trained military lawyers are ready to 
respond to emergent requirements globally. Navy and Marine Corps 
commanders depend extensively on their staff judge advocates for their 
unique expertise that combines legal acumen with the well-schooled 
understanding of military operations and requirements.

                             TRANSFORMATION

    Question. Secretary Rumsfeld has established transformation of the 
Armed Forces to meet 21st century threats as one of the Department's 
highest priorities and has stated that only weapons systems that are 
truly transformational should be acquired.
    How would you assess the level of risk to our forces of foregoing 
or curtailing current acquisition programs in favor of future 
transformation?
    Answer. I would assess this level of risk as moderate. The greater 
risk is in failing to be transformational, and not developing the 
systems, infrastructure, and personnel training programs necessary to 
meet future threats.
    Question. Can we afford this risk considering the current level of 
global threats?
    Answer. Yes. We must achieve a balance of meeting our operational 
risk today while mitigating our future challenges with a long-term 
commitment to transform and recapitalize.
    Question. The Navy has expended a great deal of effort in 
developing transformation plans.
    Please describe your understanding and assessment of the Navy's 
transformation plans.
    Answer. The Navy is approaching transformation from many fronts. 
Navy is developing new acquisition programs such as DD(X), LCS, and the 
JSF. We are reconfiguring some platforms to meet future needs, 
specifically SSGNs and Cruiser Conversion. Sea Enterprise will improve 
the efficiency and responsiveness of our shore support organizations, 
while Sea Warrior will improve our personnel readiness. Navy is also 
reviewing Reserve programs to ensure their best employment. Previous 
strategies addressed regional challenges. Today, we must think more 
broadly. The combination of traditional and emerging dangers means 
increased risk to our Nation. To counter that risk, our Navy is 
expanding its striking power, achieving information dominance, and 
developing transformational ways of fulfilling our enduring missions of 
sea control, power projection, strategic deterrence, strategic sealift, 
and forward presence.
    Question. What is your vision for Navy and Marine Corps 
transformation?
    Answer. The emerging challenges of the 21st century demand a joint, 
netted, power projection force that offers modern and ever-evolving 
combat capability. Together, under the supporting services' visions of 
Seapower 21 and the Marine Corps Strategy 21, now called Naval Power 
21, are funded for a full array of transformational initiatives in our 
R&D, investment, and operational programs. As an example, the CVN-21 
program will provide transformational capabilities for Sea Strike and 
Sea Shield while Tactical Air Integration provides new capabilities and 
answers the American taxpayer's demand of doing the job smarter and 
more efficiently.

                     LOW DENSITY/HIGH DEMAND FORCES

    Question. If confirmed, how would you address the Department of the 
Navy's challenge in manning low density/high demand units, ratings, and 
occupational specialties?
    Answer. The challenge in manning low density/high demand units and 
occupational specialties is particularly important for the Navy and 
Marine Corps now, and will become even more so in the future as 
technology continues to increase in sophistication with the result that 
fewer, but more skilled and more multi-functional, sailors and marines 
are needed to make up our force.
    The issue is fundamentally one of transforming the way we look at 
manpower and training. It impacts whom we recruit, the way we train 
sailors and marines throughout their careers, the way we assign people, 
and the force structure of our Navy and Marine Corps.
    The Chief of Naval Operations and the Commandant of the Marine 
Corps have embarked on a number of transformational initiatives with 
the goal of increasing the flexibility of our forces to be able to 
bring the right mix of combat capability and skill to the fight at the 
right time as part of the global war on terrorism. The Sea Warrior 
component of the Navy's Sea Power 21 vision statement and leadership 
guidance is focused on this issue, and includes changes in the Navy's 
recruiting, ratings classification, training, manpower distribution, 
career development, retention, and mentoring programs. In the same way, 
the Navy is exploring different ways of structuring and deploying its 
forces.
    If confirmed, I will focus my attention on the on-going initiatives 
already underway in the Navy and Marine Corps to meet the need for high 
demand/low density forces. I will work with the Secretary of Defense 
and Congress to ensure we have those forces ready to fight where and 
when we need them, and that we do so in a way that does not wear out 
our people and equipment in the process.
    Question. What units, if any, do you believe that the Navy and 
Marine Corps need more of and what time line do you see in fielding 
such units?
    Answer. High demand/low density assets have been a continuing issue 
for several years in the Navy. I know various initiatives have been 
under taken by the CNO and CMC. If confirmed, I will review the 
situation and report back to Congress.

                          FLEET RESPONSE PLAN

    Question. The Chief of Naval Operations has directed that the Navy 
implement the Fleet Response Plan (FRP) in order to provide an enhanced 
surge capability for naval assets. The plan is predicated on increased 
efficiencies in both maintenance and training, with the aim of 
providing higher levels of readiness within existing resource levels.
    In your view, what are the most significant benefits and risks to 
successful implementation of the FRP?
    Answer. Implementation of the FRP is critical to ensuring the Navy 
is positioned to respond to the requirements of the Defense Guidance. 
In the past, adversaries have counted on our predictability, but FRP 
will change how we employ our forces allowing us to be much more 
flexible. This added flexibility is an important part of confronting 
the new threats posed as we prosecute the global war on terrorism. As 
for risk, the greatest one I see is failing to change the force in 
response to known changes in our external environment. Of course, 
change is often difficult, so from a practical viewpoint, one of the 
central challenges to implementing this plan will be in changing a Navy 
culture that has been accustomed to fairly fixed operating intervals. I 
am confident, however, that our Sailors and the Navy's uniformed 
leadership are up to the challenge.
    Question. If confirmed, what steps do you envision taking to help 
ensure that FRP is successful?
    Answer. If confirmed, I will continue to place great emphasis on 
the critical components that will allow us to effectively implement 
FRP: personnel, training, and maintenance. We must ensure that our 
sailors are employed effectively and fairly, that they are highly 
trained, and that the ships on which they serve are in the best 
possible material condition.

                         ACQUISITION WORKFORCE

    Question. The Defense Acquisition Workforce Improvement Act (DAWIA) 
established specific requirements for managing the Defense Acquisition 
Workforce and authorized a series of benefits for the workforce.
    Please give your assessment of the strengths and weaknesses of the 
Department of the Navy's implementation, to date, of DAWIA.
    Answer. The department has a strong and vibrant implementation of 
the DAWIA. We have in place the training, mentoring, and developmental 
programs to ensure that we have a quality workforce at all levels. Our 
senior acquisition leadership continues to show the innovation, 
business acumen, and strong management skills necessary to function 
well in the current and future acquisition environments.
    In the past year, the Department has implemented a number of 
changes in the structure of our Program Executive Officers and Systems 
Commands that has better aligned us to our core acquisition areas and 
have helped better focus the workforce on those key areas. Particular 
emphasis has been placed in better integrating combat systems, open 
systems, and command, control, communications, computers, intelligence, 
surveillance, and reconnaissance (C\4\ISR) across the Navy-Marine Corps 
team and in the joint environment. These changes also provide the 
acquisition leadership better tools and leverage when dealing with the 
defense industry as it continues to consolidate into a small number of 
large, cross functional companies.
    Question. In your judgment, does the Department of the Navy's 
current acquisition workforce have the quality and training to adapt to 
new acquisition reforms, as well as to the increased workload and 
responsibility for managing privatization efforts?
    Answer. I believe the Department of the Navy's current acquisition 
workforce does have the necessary quality and training to operate in 
the current and future acquisition environments. A key component of 
DAWIA is the strong emphasis on training and experience as personnel 
gain greater expertise in acquisition and achieve higher levels of 
certification. This well-defined process ensures that changes in 
acquisition policy and skills, as well as best practices, can be spread 
throughout the workforce. More importantly, the requirement for the 
workforce to achieve at least 40 hours of continuous learning each year 
ensures they remain knowledgeable on the most current business 
practices and policies.

                         READINESS DEFICIENCIES

    Question. In response to advance policy questions in connection 
with your previous confirmation hearing you indicated that the Navy was 
working to mitigate of combatant commands readiness deficiencies and 
that you would continue that effort if confirmed.
    How would you assess your accomplishments during your previous 
service as Secretary of the Navy in improving the readiness of the 
Department of the Navy and eliminating deficiencies?
    Answer. I am very pleased with the progress that was made not only 
during my tenure as Secretary but also in the aftermath. As you are 
aware, with congressional support we made an investment of roughly $6 
billion into the readiness accounts in recent years with these 
additional resources being used to fund the Flying Hour Program, Ship 
Depot Maintenance, Ship Operations, and Sustainment, Recapitalization 
and Modernization. These investments had a tangible impact in improving 
aviation material readiness, reducing the ship depot maintenance 
backlog, and improving our Force Protection. Of equal importance, we 
made very good progress in improving retention of our personnel, who 
are at the center of the readiness formula.
    Question. What do you view as the major readiness challenges that 
remain to be addressed and, if confirmed, how will you approach these 
issues?
    Answer. There are a number of challenges that the Navy must be 
prepared to address. We must, of course, not lose sight of the 
continuing need to invest in readiness so that we can build on the 
early successes I just mentioned. We must also transform our Navy to 
provide a more agile, surge-ready force capable of decisively 
confronting threats associated with the global war on terrorism. 
Finally, we must be careful to ensure that while confronting these 
threats we do not overlook the need of tomorrow's Navy. Adequate future 
readiness is only sustainable if we capitalize on technologies that 
permit us to deliver superior platforms and systems to our operational 
commanders and the fleet at large. If confirmed, I will lend my 
personal focus to these important areas of concern.

                         LAW OF THE SEA TREATY

    Question. The United States generally follows the provisions of the 
United Nations Convention on the Law of the Sea but has never ratified 
the treaty.
    What are your personal views about whether the United States should 
ratify the treaty? Please explain.
    Answer. Historically, Navy leadership has supported ratification of 
and accession to the Law of the Sea Convention. If confirmed, I will 
review this issue in more detail.

                  OUTSOURCING OF COMMERCIAL ACTIVITIES

    Question. Over the past several years the Department of Defense has 
increased its reliance upon the private sector to perform certain 
activities including equipment maintenance and facility operations.
    Do you believe that the naval services need to retain a core 
capability to perform certain activities, and what approach would you 
take to allocate workloads between the public and private sector?
    Answer. I am committed to ensuring the DON applies its resources in 
an effective and responsible way. Part of finding the right way to do 
that involves making sure we have the right functions performed by the 
right people. In some cases that should be our military and civilian 
employees; in others, the private sector possesses the best capability 
to provide support and services. There isn't a one-size-fits-all 
answer. We need to focus on those core competencies that we must do to 
accomplish our mission and then determine what the best source is to 
accomplish those functions that support those core competencies.
    Question. Do you believe that outsourcing can yield substantial 
savings for the Department of that Navy?
    Answer. Studies have shown we consistently produce savings when we 
make sourcing decisions in a competitive environment: whether the 
outcome is continued use of government employees or outsourcing. The 
process itself causes us to look closely at what needs to be done and 
find better ways to do it. Competition is healthy and fruitful to our 
Nation.

                     SCIENCE AND TECHNOLOGY PROGRAM

    Question. The DOD science and technology program is recovering 
after years of declining budgets. However, the budget request for 
defense S&T still falls short of the Secretary of Defense's goal of 
dedicating 3 percent of the total defense budget to science and 
technology.
    If confirmed, how do you plan to increase the Navy science and 
technology program to meet the Secretary's goal?
    Answer. The 3 percent for the S&T account is a worthy goal but may 
need to take into consideration other categories of investment in 
measuring compliance. For example, in some large naval programs there 
are large embedded S&T investments outside the S&T line item. 
Additionally, the efficiency and effectiveness of S&T are equally 
important measures. My approach will be to invest wisely in 
technologies important to the naval services with clearly stated 
objectives, measures of progress, and exit criteria.

                              DEVOLVEMENT

    Question. This year the Office of the Secretary of Defense (OSD) 
devolved (transferred) several programs to the Services. Many of these 
programs reside in OSD because of the inherent jointness of the 
program.
    If confirmed, how do you plan to maintain the integrity of those 
programs devolved to the Department of the Navy?
    Answer. The decision by OSD to transfer the execution of programs 
to the services is exactly the right decision. The services are 
responsible for the execution of OSD policy and programs and have the 
work force trained and experienced to do so. I view these programs no 
differently than many other ``Joint Programs'' for which the Navy has 
execution responsibility. The current philosophy of integrated product 
teams that include all key players, works well in many acquisition 
programs today and will work well for these ``devolved'' programs. My 
philosophy is to put the best qualified people, representing the key 
stakeholders in charge of execution, regardless of service or 
community. A prime example of this is the V-22 program, where we 
selected an Air Force Officer as the program manager.

               NAVY AND MARINE CORPS PERSONNEL RETENTION

    Question. The retention of quality sailors and marines, officer and 
enlisted, active-duty and Reserve, is vital to the Department of the 
Navy.
    How would you evaluate the status of the Navy and Marine Corps in 
successfully recruiting and retaining high caliber personnel?
    Answer. The Navy and Marine Corps have been very successful in 
recruiting for the past 2 years. The percentage of recruits with High 
School Diplomas, some college experience, and high entrance exam scores 
is the highest ever. The current retention rate for high caliber 
personnel is at a historic high. Over the past 4 years, the Navy has 
seen significant success in raising reenlistment rates and lowering 
attrition across all zones. The current retention is higher across the 
board when compared to that of a year ago, for example first term Zone 
A sailors is 64 percent which is 4 percent higher than during the same 
period in fiscal year 2002. On the Marine Corps side, we have 
consistently improved the quality of enlistees, and current year 
enlistments are no different. The Marines Corps has exceeded the DOD 
quality goals in both high school graduates and the upper mental group.
    Question. What initiatives would you take, if confirmed, to further 
improve the attractiveness of active and Reserve component service?
    Answer. I think there are a number of areas that deserve further 
study. These include performance-based compensation, promotion rates, 
pay grade growth, spouse employment portability, improvement of career 
development and choices, and closer integration of active and Reserve 
components. If confirmed, I will ensure these areas are studied and 
appropriate steps are taken to make changes where necessary to improve 
the attractiveness of service in the Navy.
    Question. What effects on recruiting and retention do you foresee 
as a result of the current tempo of operations?
    Answer. The full impact of the current operational tempo has yet to 
be realized, however, data to date indicates that recruiting and 
retention continue to be at an all time high.

                       NAVAL SURFACE FIRE SUPPORT

    Question. In your responses to the committee's advance policy 
questions submitted before your last confirmation hearing, you endorsed 
the need for the Navy to provide fire support from the sea for the 
Marine Corps, the Army, and other expeditionary forces.
    Do you continue to support this capability and its underlying 
requirement?
    Answer. Without question. Fulfilling this requirement is why we 
need to keep DD(X), and the development of gun systems similar to that 
selected for DD(X), on track.
    Question. What progress did you make during your earlier tenure as 
Secretary, and what initiatives would you now take, if confirmed, to 
improve on the naval gunfire support capability?
    Answer. We developed DD(X) to respond to this need and pressed 
forward with challenging but important research and development 
programs to enable delivery of this important capability. We will 
continue to examine and develop promising new options as well. If 
confirmed, I will continue to support DD(X) and deliver improved NSFS 
capabilities to the fleet as soon as possible--DD(X) and the 5 inch/62 
ERGM program are significant steps toward meeting the requirements in 
Surface Fire Support.

                     ORGANIZATION OF THE NAVY STAFF

    Question. Section 5038 of title 10, United States Code, establishes 
a requirement to maintain a position of Director of Expeditionary 
Warfare on the staff of the Chief of Naval Operations. This officer's 
duties, as described in that section, are to provide staff support for 
issues relating to ``amphibious lift, mine warfare, naval fire support, 
and other missions essential to supporting expeditionary warfare.'' 
Congress took this action after the 1991 Persian Gulf War in an effort 
to address critical shortfalls in these areas, particularly in the area 
of mine countermeasures capabilities. There have been recent press 
reports that the Department of the Navy intends to abolish this office.
    What is your understanding of the Department of the Navy's plans, 
if any, for changing the current status of the Director of 
Expeditionary Warfare and the functions the director is responsible 
for?
    Answer. Although I've not been briefed on this issue, I am aware 
that the CNO is continuing to examine how best to align the 
organization to support the concepts articulated in ``Seapower 21.'' I 
would expect to be briefed in full regarding any changes that might 
impact the role of the Director of Expeditionary Warfare.

                    MINE COUNTERMEASURES CAPABILITY

    Question. Congress has been particularly interested in the Navy's 
ability to respond to the asymmetric threat posed by mines. The Navy 
has had mixed results in providing for robust mine countermeasures 
capabilities.
    If confirmed, what steps would you take to ensure that the Navy 
maintains its focus on achieving robust mine countermeasures 
capabilities for the fleet?
    Answer. I am committed to delivering an Organic Mine 
Countermeasures capability in fiscal year 2005, and the Navy is on 
track to do that. If confirmed, I will continue to support the 
development and fielding of capabilities to meet this important 
mission. LCS is also a response to the littoral mine threat, and I 
fully support that program and its important mission--we need to begin 
construction of the first LCS in fiscal year 2005 so that we can 
respond to the changing littoral warfare environment.

                       BALLISTIC MISSILE DEFENSE

    Question. Do you regard ballistic missile defense a core mission of 
the Navy?
    Answer. Ballistic missile defense is an important capability for 
the Navy, and Navy systems and tests have shown great promise in recent 
years. I fully support the recent agreements between the Navy and the 
Missile Defense Agency (MDA) that committed an Aegis Cruiser full-time 
to MDA, along with the plan to modify other Aegis ships to conduct MDA 
missions when required.
    Question. Do you support the current division of responsibility in 
which the MDA is responsible for ballistic missile defense research and 
development and the services are responsible for procurement of 
ballistic missile defense systems?
    Answer. Regarding development and procurement funding, Navy and the 
MDA are working together to develop and field the systems that will 
deploy on board ships. I believe that both organizations are doing what 
they do best to support the delivery of a range of capabilities from 
terminal-phase to national missile defense.
    Question. In your view, should the Navy or the MDA be responsible 
for the research and development necessary for the spiral development 
of deployed ballistic missile defense systems?
    Answer. If confirmed, I will look further into this issue.

                         CRUISE MISSILE DEFENSE

    Question. In your view, how serious is the cruise missile threat to 
the Navy and are current Navy efforts to address this threat adequate?
    Answer. Without question, the cruise missile threat is serious and 
will continue to grow in the foreseeable future. We have the best air 
defense systems in the world today, but there are always new 
challenges. There are several countries committed to proliferation of 
this relatively cheap way to threaten naval forces at sea, and they are 
working hard to develop better and better ways to defeat our cruise 
missile defense capabilities. As a counter, we continue to improve our 
systems and countermeasures in every area, from signature control to 
soft kill to hard kill systems and weapons; the Navy's efforts support 
the implementation of Sea Shield under the global concept of operations 
plan, and should sufficiently protect the force.

                           NUCLEAR DETERRENCE

    Question. What is your view of the Navy's long-term role and 
mission in nuclear deterrence?
    Answer. Although the Cold War has ended, and the threat of global 
nuclear war has diminished, proliferation of nuclear weapons remains a 
great concern and the threat of nuclear attack still exists. As the 
most survivable leg of the Nation's strategic forces, the Navy's Ohio-
class ballistic missile submarines, or SSBNs, provide launch capability 
from around the globe using the Trident ballistic missile weapon 
system. Although recent changes in the world environment allowed us to 
decrease the number of SSBNs from Cold War levels, these platforms and 
their weapons will retain their mission and utility for the forseeable 
future.

                             MILITARY SPACE

    Question. Do you believe that the current Department of Defense 
management structure for space programs sufficiently protects Navy 
space equities?
    Answer. The Navy is a full partner in the Department of Defense 
management structure for space programs.
    Question. In your view, how actively should the Navy be engaged in 
the management of space programs?
    Answer. It is imperative that the Navy/Marine Corps team remain 
highly engaged to ensure the continued development of operational space 
requirements and capabilities for naval warfighting. We are committed 
to developing a cadre of space experts to achieve this objective.
    Question. In your view, is the Navy adequately involved in the 
requirements process for space programs?
    Answer. Yes. One of the guiding principles of the Commission to 
Assess United States National Security Space Management and 
Organization Report of January 2001, was to formalize an operationally 
and technically savvy space cadre, experts who could advocate Navy and 
Marine Corps requirements in the joint community and the joint program 
offices. We've identified those people, certified their expertise, and 
continue to strengthen their identification as a valuable group of 
professionals.
    Question. What is your view of the Navy's appropriate long-term 
role in space systems, other than as a user of space information and 
products?
    Answer. Space has long been and will remain critical to naval 
warfighting. The Navy has been in the forefront of operationalizing 
space, from the global positioning system, to early tactical satellite 
communications, to the Classic Wizard system, and to bringing real time 
targeting to the cockpit and in-flight weapons. The Navy and Marine 
Corps need space for increased situational awareness, speed, precision 
and lethality and thus want to operationalize space and bring it to 
every level of operations. The Navy's contribution to space has been 
reflected and continues to be reflected in such major programs as the 
Mobile User Objective System (MUOS), various DOD satellite terminal 
systems and innovative space-smart people.

                            DIRECTED ENERGY

    Question. In your view, how important are directed energy weapons 
to the future of the Navy?
    Answer. Directed energy weapons could be a primary weapon in the 
arsenal of the future Navy. The Navy has unique platforms to utilize 
this technology. Specifically, many Navy ships have large power 
generation capability and sufficient space and volume to ease design 
constraints. That said, directed energy weapons still require large R&D 
efforts to field effective weapons for the Navy.

                            JOINT OPERATIONS

    Question. If confirmed, what recommendations, if any, would you 
make to the Secretary of Defense to improve joint force integration?
    Answer. One of the primary tenets of joint force integration is 
commonality of sensors, weapons, and systems. A second is 
interoperability of sensors, weapons, and systems. I would recommend 
that commonality and interoperability across services receive high 
priority.

                NAVY AND MARINE RESERVE FORCE STRUCTURE

    Question. Suggestions have been made that the Navy and Marine Corps 
Reserves need to make significant changes and transform so as to be of 
maximum utility and relevance in future conflicts. Deactivating 
underutilized units and shifting their manpower to new military skills, 
putting units under the operational command of Active Forces, and 
focusing more on homeland defense missions are a few of the changes 
that have been proposed.
    What are your views regarding the current organization and assigned 
missions of the Navy and Marine Corps Reserve components?
    Answer. The Navy and Marine Corps Reserves are critical to the 
Department of the Navy's total force. We have learned many lessons 
about the mobilization and functioning of the Reserves in Operations 
Enduring Freedom and Iraqi Freedom. If confirmed, I will review those 
lessons learned and will support Navy leadership in making changes to 
transform the Reserves into a more relevant and useful resource for the 
changing world.
    Question. What changes in the composition, strength, and mission of 
the Navy and Marine Corps Reserves, if any, would you seek to implement 
if confirmed?
    Answer. It is my understanding that studies addressing these 
questions are being undertaken in the Department of the Navy. If 
confirmed, I will ensure that this scrutiny continues, that lessons 
learned are heeded, and that changes are made accordingly so that the 
Reserves are best positioned to maximize their contribution to the 
total force.

                           SHIPBUILDING PLAN

    Question. The Navy recently submitted its 30-year shipbuilding 
plan.
    What level of funding do you think the Navy will need to execute 
this plan, and considering competing priorities, do you believe this 
level of funding is realistic?
    Answer. The Navy's 30-year plan accurately documents the funding 
requirements and the Navy's budget submissions support the requirements 
with a balanced funding approach that meets the needs of the 
shipbuilding budget as well as the other funding challenges ahead. The 
Navy's fiscal year 2004 budget requested roughly $12 billion for 
shipbuilding, a significant commitment toward achieving our needs. The 
shipbuilding funding level must continue to grow, and the Navy's budget 
plans accurately reflect that need.
    Building a force of about 375 ships will take a major commitment of 
resources. The Navy's shipbuilding plan is realistic in stating an 
average of $14 billion will be required for an average build rate of 
approximately 11 ships per year. In addition to new construction, an 
average of $2 billion per year is required for conversion and 
overhauls.
    If confirmed, I will continue to devote significant effort toward 
building the right fleet with the right capabilities.

                          LITTORAL COMBAT SHIP

    Question. The Navy has selected three teams of contractors to 
develop concepts for the Littoral Combat Ship. There is much effort 
going into the development of the sea-frame for this ship.
    Do you believe that there is enough emphasis on the focused mission 
modules, both from a funding and technical maturity standpoints?
    Answer. Yes. Much of the work in mission modules is not new, 
whereas the platform work requires a great deal of initial design 
effort. The mission modules for Flight 0 LCS are being selected from 
technologies that can be deployed in the near-term. The LCS 
requirements team reviewed over a thousand mission module system 
candidates, and several sufficiently mature candidates emerged--those 
are the systems being developed for Flight 0 LCS.

                     TACTICAL AVIATION INTEGRATION

    Question. The Navy and the Marine Corps have presented a plan that 
would result in a greater integration of their respective tactical 
aviation components. This plan will result, however, in the 
disestablishment of a number of squadrons, including two Reserve 
squadrons, one Navy and one Marine Corps, in fiscal year 2004.
    What level of risk, if any, do you believe will result from this 
force structure reduction?
    Answer. The integration of Navy and Marine Air resulted in a force 
structure with equal or enhanced capability at lower cost. Therefore, 
in my judgment, this force structure will not result in any increased 
risk.

                           SURFACE COMBATANTS

    Question. With the early retirement of Spruance-class destroyers, 
the Navy surface combatant fleet is declining significantly below the 
levels recommended by the 2001 Quadrennial Defense Review. While 
Arleigh Burke destroyers are still being built, the current Future 
Years Defense Program has Arleigh Burke construction stopping well 
before any DD(X) destroyers are near completion.
    Do you think it is wise to end construction of one class of 
destroyers before the next class is further along in design and 
construction and what is the level of risk associated with such an 
approach?
    Answer. The budgets submitted by the Navy are reflective of the 
delicate balance between force structure, industrial base, and the 
relative maturity of follow-on designs, and I will continue to keep 
that balance as a central consideration in my future budgetary 
submissions. In this case, the end-year of the DDG production line 
corresponds with the start-year of production for both LCS and DD(X). 
We have an acceptable level of tactical and strategic risk at this 
point, and we need to move forward with the new platforms needed for 
the future.
    Without question, both Navy and industry are committed to the 
success of the DD(X) program. It is the centerpiece of our future Navy, 
and we cannot afford to wait to get these ships to sea. We decided to 
assume a manageable level of risk to achieve important capability gains 
in our future surface combatants. The Engineering Design Models for 
DD(X) are moving forward, LCS is moving forward as well, and I believe 
at this point that the risk associated with both the DD(X) and LCS 
programs are acceptable, and we will achieve our goals on time.

                        OFFICER PROMOTION SYSTEM

    Question. We consider promotions to general and flag officer ranks 
as identifying military officers for very senior positions that should 
be filled only by officers with the very highest values and 
qualifications. The technology and procedures that support this system 
must be of the highest caliber to ensure prompt forwarding of 
nominations and thorough evaluation of pertinent information, including 
adverse information. The Navy has had problems in the past with 
antiquated information systems supporting promotion selection boards 
and delays in forwarding reports of selection boards.
    What is your understanding of the adequacy of the information 
systems that support the Navy's promotion selection board processing?
    Answer. Through a number of system upgrades since 2000, the Navy 
has steadily improved the processing of board records. This has 
furthered our goal of assuring a fair, accurate, and unbiased process. 
Further upgrades to streamline the reporting process are under 
development. Navy is also addressing reporting requirements to ensure 
commanding officers make potentially adverse situations known before 
promotion. If confirmed, I will demand that constant improvement to the 
selection board process is continued in order to ensure only those 
officers with unquestionable integrity are selected.
    Question. If confirmed, what steps will you take to ensure that 
complete and accurate reports of selection boards are forwarded to the 
Senate in a timely manner?
    Answer. The Navy is presently reviewing the processing of selection 
board reports with the Department of Defense and other reviewing 
authorities to ensure timely submission to the Senate. I support this 
effort. I am confident that ongoing efforts address standardization and 
improved processing timelines. If confirmed, I will remain sensitive to 
this issue.

                      INVESTMENT IN INFRASTRUCTURE

    Question. Witnesses appearing before the committee in recent years 
have testified that the military services under-invest in their 
facilities compared to private industry standards. Decades of under-
investment in our installations have led to increasing backlogs of 
facility maintenance needs, created substandard living and working 
conditions, and made it harder to take advantage of new technologies 
that could increase productivity.
    Based on your private sector experience, do you believe the 
Department of the Navy is investing enough in its infrastructure?
    Answer. The funding situation has improved in recent years. The 
Department of the Navy continues to develop programs and budgets to 
achieve recapitalization and sustainment rates based on private sector 
best business models.

 IMPLEMENTATION OF SPECIAL COMPENSATION FOR COMBAT RELATED DISABILITY 
                                  PAY

    Question. What is your understanding of the Navy's progress in 
implementing a system for payment of combat related disability pay?
    Answer. My understanding is that the Navy is doing very well in the 
implementation of Combat Related Special Compensation (CRSC). In April 
of this year, the Naval Council of Personnel Boards was identified as 
the organization within the Department of the Navy to review all CRSC 
applications. The CRSC division stood up, and began reviewing 
applications on 1 June. Since that time, approximately 5,400 
applications have been received. It is my understanding that the 
division is currently capable of reviewing 1,000 applications per 
month.
    Question. How many applications has the Navy processed since 
implementation earlier this year, and how many will be processed before 
the end of 2003?
    Answer. The Navy has now received approximately 5,400 applications. 
The total number of applications that will be received is unknown. 
However, the Navy estimates that they will receive approximately 22,000 
applications during the first 2 years of the program.

                       NAVY MARINE CORPS INTRANET

    Question. It has been reported that the attack of the Welchia Worm 
on August 18, 2003, infected over 75 percent of the Navy Marine Corps 
Intranet (NMCI) workstations.
    Can you describe what has been done to secure the NMCI network 
since then?
    Answer. An automated tool was developed that eliminated the worm 
code, and patched the vulnerability it exploited. This fix occurs 
automatically when either workstations on the network are re-booted or 
when they are re-connected to the network. Additionally, the Navy has 
begun an inquiry to determine the sequence of events leading to the 
Welchia event, its root cause, and the full scope of operational 
impact, including the specific circumstances that made NMCI vulnerable 
to this particular problem. The lessons learned will be applied as 
appropriate changes to our operating processes and procedures to 
minimize similar future incidents.
    Question. What is the current status of the implementation of the 
NMCI program?
    Answer. Currently EDS manages over 273,000 Navy and Marine Corps 
workstations. Of these, over 106,000 are NMCI seats and the remainder 
are legacy systems awaiting cutover to NMCI.

                        NAVY TRAVEL CARD PROGRAM

    Question. The Navy has been criticized recently by the General 
Accounting Office (GAO) for its management of its purchase and travel 
card programs.
    What actions have been taken by the Department to implement GAO's 
recommendations and provide more effectively oversight of these 
programs?
    Answer. The Department of the Navy has taken aggressive steps to 
address both the delinquency and misuse issues associated with card 
programs identified by the GAO. Specifically, the Department has 
greatly reduced the number of outstanding cards by over 150,000, 
implemented mandatory split-disbursement of travel claims for military 
personnel, provided expanded training for unit program coordinators to 
better enable them to detect card misuse, and worked with the 
contractor bank to identify merchants engaging in deceptive practices 
intended to mask inappropriate use of the travel card. Additionally, 
Echelon II commanders that have delinquency reports in excess of the 
departmental goal of 4 percent are now required to report in person on 
a quarterly basis to the Assistant Secretary of the Navy (Financial 
Management & Comptroller) on their actions taken to improve 
performance. In short, the Department has focused increased command 
attention at all levels to address the problems identified by GAO. This 
increased attention is yielding results, but the effort must be 
sustained. Should I be confirmed, it is my intention to continue the 
practices that have led to the positive developments in these programs 
and pursue further improvements.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Secretary of the Navy?
    Answer. Yes
    Question. Do you agree to ensure that testimony, briefings and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Question Submitted by Senator Pat Roberts

                     THE NAVAL RESEARCH LABORATORY

    1. Senator Roberts. The Naval Research Laboratory (NRL) is the 
corporate research lab of the Navy Secretariat and the only 
installation not controlled by the Navy's uniformed officers. This 
dates back to the creation of the laboratory and reflects the intention 
of Thomas Edison when he urged the Navy to create the NRL. The Navy is 
currently undergoing a consolidation of naval facilities under a newly 
established Commander, Navy Installations (CNI). It has come to my 
attention that certain functions of the NRL will now be under the 
command of the CNI. If confirmed, is it your intention to cede any 
functions of the NRL to the CNI? If so, do you feel this conflicts in 
any manner with Public Law 588, which establishes the Office of Naval 
Research?
    Secretary England. It is not my intention to cede any functions 
considered essential to NRL's research and development mission. 
However, I feel the transfer of certain facility and base operation 
support (BOS) functions not essential to NRL's mission is appropriate, 
and does not conflict with the Public Law 588.
    Public Law 588 (10 U.S. Code, section 5022) allows the Secretary of 
the Navy judgment in respect to the research and development functions 
of the Office of Naval Research (ONR), together with any or all 
personnel, buildings, facilities, and other property used in the 
administration thereof. This authority includes the NRL. The Department 
of the Navy utilized this authority to transfer most of NRL's facility 
and BOS functions to the Naval District Washington and the Naval 
Facilities Engineering Command during the 1992 Public Works Center 
(PWC) regionalization and the 1997-1998 Installation Claimant 
Consolidation.
    On 1 October 2003, the Navy consolidated management oversight of 
all Navy shore installations into a single Navy Installations Command, 
as a further commitment to improving  management effectiveness and 
enterprise-wide alignment. This consolidation will achieve economies of 
scale, increased efficiencies, and a reduction of staff overhead. As 
part of this process, the CNI and NRL staffs worked together to 
identify additional functions or other economies and efficiencies not 
previously captured by earlier consolidations. The two staffs 
identified and transferred functions that provide for economies of 
effort, but that do not infringe on NRL responsibilities or 
authorities. Those functions identified as inseparably imbedded within 
NRL's research mission will remain under the laboratory's control.
    By consolidating the facility and BOS functions under CNI, we have 
provided for a consistent level of facility and BOS support for all 
naval installations, while removing NRL's administrative burden 
associated with managing functions not essential to their mission. This 
will allow the NRL staff and leadership to more effectively focus on 
their primary functions of research and development.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                           NAVY END STRENGTH

    2. Senator Chambliss. I noted with some concern the Navy's 
reduction of 1,900 Navy personnel in the fiscal year 2004 budget 
request. The President's fiscal year 2004 supplemental budget request, 
which Congress received last week, includes additional funds for Navy 
and Marine Corps personnel to pay for personnel maintained on active 
duty above current end strength levels and to pay personnel affected by 
stop-loss programs. The supplemental budget request contained 
additional funds for personnel in all of the Services, however only the 
Navy is asking for additional money and decreasing end strength at the 
same time. With missions growing and length of deployments increasing, 
how will the Navy maintain a sustainable OPTEMPO while reducing end 
strength?
    Secretary England. Navy's strength requirements continue to be 
refined through an ongoing process that factors current and future 
manning requirements of our ships, squadrons, units, and associated 
supporting functional areas, in the context of Global Force Presence 
requirements.
    Navy exceeded the fiscal year 2003-budgeted end strength of 375,700 
by approximately 7,000 as of 30 September 2004. Since Navy had not 
anticipated retaining these individuals into fiscal year 2004, funds 
necessary to pay the costs associated with them were not included in 
the fiscal year 2004 budget request. The Navy requested additional 
funding in the fiscal year 2004 supplemental to cover the costs 
associated with having those additional personnel on board in fiscal 
year 2004.

           SEXUAL HARASSMENT AND CLIMATE AT THE NAVAL ACADEMY

    3. Senator Chambliss. Yesterday former Congresswoman Tillie Fowler 
released her ``Report of the Panel to Review Sexual Misconduct 
Allegations at the Air Force Academy.'' Among their findings, the panel 
noted that the highest levels of Air Force leadership had known of 
serious sexual misconduct problems at the Academy since at least 1993 
but failed to take effective action. This is an issue that I and every 
member of this committee take extremely seriously. The Air Force is the 
only Service that has to deal with this issue publicly. However, I 
think all of us would agree that no Service Academy is immune to these 
problems and every academy has cultural and discipline issues that need 
to be addressed and monitored. As you have watched this story unfold, 
what have you learned about what can be done proactively to ensure 
these kinds of problems don't develop, and what is the proper role of 
leadership at your level in creating the proper climate and 
accountability within the Navy so that people below you get the right 
messages about the kind of behavior expected of our current and future 
military officers?
    Secretary England. We are taking action in three areas to prevent 
sexual harassment and sexual assault. First, I articulated my 
expectation that sexual harassment and sexual assault are not tolerated 
within the Department of the Navy. This is true in every Navy and 
Marine command as well as at the Naval Academy, and every commander 
must foster a command climate that meets this expectation. Early in my 
tenure, I met with the Chief of Naval Operations and the 
superintendent, and we began a review of Naval Academy policies in 
light of the Fowler Panel recommendations. Both the Chief of Naval 
Operations and the superintendent are keenly aware of the importance of 
this issue, and the superintendent personally emphasizes to the brigade 
of midshipmen the high standards of personal conduct that apply to Navy 
and Marine officers and midshipmen.
    Second, I will ensure that the Department's programs and policies 
allow problems to be addressed comprehensively and quickly if a problem 
occurs. The Naval Academy Sexual Assault Victim Intervention (SAVI) 
program is based on Department-wide policies but contains unique 
aspects tailored to the Naval Academy environment. We are reviewing the 
Naval Academy's SAVI program with the assistance of The Honorable 
Tillie Fowler, and will look closely at the policies, procedures, and 
processes involved. To the greatest extent possible we must ensure that 
victims feel free to report incidents of sexual assault, that they 
receive the necessary assistance, that these incidents are fully 
investigated, and that offenders are held accountable. The Fowler Panel 
Report notes that perhaps the most important challenge is to strike the 
right balance between providing the option of victim confidentiality 
and the need to fully investigate sexual assault incidents and hold 
offenders accountable.
    Third, I will ensure that senior leaders in the Department of the 
Navy remain aware of and engaged in issues affecting the Naval Academy. 
I concur with the Fowler Panel Report comments in this regard, and have 
decided to establish an Executive Steering Group to provide high-level 
awareness of issues facing the Academy and a forum for continually 
assessing the effectiveness of our policies and procedures.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                             DOD MANAGEMENT

    4. Senator Levin. At the beginning of the administration, the 
Secretary of Defense indicated that he intended to use the Service 
Secretaries to operate in a manner similar to a board of directors to 
manage the Pentagon. Does that characterization agree with how things 
operated while you served as Secretary of the Navy previously?
    Secretary England. Absolutely. While title 10 clearly states that 
the Secretary of Defense is ultimately responsible for all matters 
related to the Department of Defense (DOD), Secretary Rumsfeld went to 
great lengths to ensure departmental decisions were well informed. In 
order to do so, Secretary Rumsfeld established several organizations to 
ensure his board of directors--my fellow Service Secretaries and the 
Under Secretaries of Defense--were involved. Both the Senior Leadership 
Review Group (SLRG) and the Senior Executive Council (SEC) were 
utilized to provide oversight on those decisions. As part of its 
oversight function, the SLRG and SEC reviewed and discussed Department 
plans on numerous strategic issues. Our counsel and recommendations 
were often the basis on which strategy, plans, and resource allocation 
decisions were made.

    5. Senator Levin. What understanding do you have about the manner 
in which your talents will be utilized in managing the Department of 
Defense if you are confirmed as Secretary of the Navy?
    Secretary England. The President and Secretary Rumsfeld have asked 
me to serve as Secretary of the Navy based on my 30 years as a leader 
in the defense and technology industries. I see my role as 
incorporating current commercial business practices into the business 
of defense in order to improve the efficiency and effectiveness of the 
DOD and the Department of the Navy.
    I will work with the Secretary of Defense and the other Service 
Secretaries to support the sustained, iterative, and dynamic process of 
change within the Department. Specifically, we will work together to 
champion transformation--both from a warfighting and business 
perspective. After all, we cannot fully transform our warfighting 
capabilities without first improving our business practices.
    As Secretary of the Navy, I will play a large role in the Senior 
Executive Council (SEC) and the Senior Leadership Review Group (SLRG), 
which work much like a board of directors, to systematically implement 
improved management techniques such as activity-based costing, and 
comprehensive performance measures and metrics to improve processes 
that improve products. The initiatives developed from the SEC and SLRG 
will enable us to increase our combat capabilities with the expectation 
that we become more efficient, agile, flexible, and reliable at a 
reduced cost of doing business.
    Secretary Rumsfeld expects me, along with my fellow Service 
Secretaries, to energize efforts to transform DOD practices in order to 
free the resources necessary for improved combat capability. I will not 
let him down. I am committed to working with the Department of Defense 
leadership to improve the efficiency and effectiveness of the 
Department in order to increase combat capability, improve support to 
our people, accelerate the insertion of advanced technologies, and 
implement better business practices.

                    SCIENCE AND TECHNOLOGY WORKFORCE

    6. Senator Levin. The Director of Defense Research and Engineering 
recently expressed concerns over the effect that the proposed National 
Security Personnel System (NSPS) and Best Practices Initiatives would 
have on the Department's laboratory and test center workforce. He 
recommended that the NSPS proposal be modified to permit laboratory 
directors to retain the authorities they currently have under existing 
congressionally authorized personnel demonstrations. He also 
recommended that the proposed Best Practices Initiative Federal 
Register announcement be delayed until it can be revised to better 
support laboratory and test center missions. Similar concerns have been 
raised by the Director of the Naval Research Laboratory and directors 
of some of the Navy's technical centers, who are currently successfully 
managing existing personnel demonstration programs. What actions do you 
plan to take to support these directors in their attempts to retain 
control over the Navy's scientific and technical workforce?
    Secretary England. The statute authorizing the NSPS purposefully 
excluded the Office of Naval Research, the Naval Research Laboratory, 
the Naval Sea Systems Command Centers, and the other defense research 
centers. The law states that NSPS shall not apply to these laboratories 
before 1 October 2008, and shall apply on or after October 1, 2008, 
only to the extent that the Secretary of Defense determines that the 
flexibilities NSPS provides are greater than the flexibilities 
currently provided to the labs.
    The directors of the naval research and technical centers will 
retain current flexibilities available under their separate personnel 
demonstrations, as authorized by the Secretary of Defense. The current 
flexibilities exist because Congress provided the Secretary of Defense 
authority to conduct personnel demonstration projects in section 342 of 
the National Defense Authorization Act for 1995, as amended by section 
1114 of the National Defense Authorization Act of 2001. The authority 
allowed the Secretary of Defense to conduct experiments with new and 
different personnel management concepts to determine whether such 
changes in personnel policy or procedures would result in improved 
Federal personnel management.
    In March 2002, the DOD established a Human Resources Best Practices 
Task Force to review all demonstration projects, to include several 
outside of DOD, in order to compile best practices that show promise in 
terms of DOD's civilian human resources strategy. The best practices 
identified by the Task Force were reviewed, revised, and approved by a 
steering group of senior leaders, with the intention of broadly 
applying the results. These results were included in a Federal Register 
announcement in April 2003. The practices are intended to provide for a 
common architecture of personnel management within the Defense 
Department science and technology community. These have not yet been 
implemented.
    It is my intention to support the Secretary of Defense in pursuing 
the ultimate objectives of the NSPS and the National Defense 
Authorization Acts of 1995 and 2001; that being the identification and 
implementation of a civilian personnel management system that best 
recruits, manages, and maintains a healthy scientific and technical 
workforce.

    7. Senator Levin. Do you support a delay in the release of the 
final Lab Demo Best Practices Federal Register so that it can be 
modified to better meet the concerns of the Navy's labs and technical 
centers?
    Secretary England. Congress provided the Secretary of Defense 
authority to conduct personnel demonstration projects in section 342 of 
the National Defense Authorization Act for 1995, as amended by section 
1114 of the National Defense Authorization Act of 2001. These 
demonstrations are experimenting with new and different personnel 
management concepts to determine whether such changes in personnel 
policy or procedures would result in improved Federal personnel 
management. The experiments are occurring in the eight defense science 
and technology centers.
    The objective of these demonstrations is to examine the results and 
lessons to determine the best civilian personnel management policy. In 
March 2002, the DOD established a Human Resources Best Practices Task 
Force to review all demonstration projects, to include several outside 
of DOD, in order to compile best practices that show promise in terms 
of DOD's civilian human resources strategy. The best practices 
identified by the Task Force were reviewed, revised, and approved by a 
steering group of senior leaders, with the intention of broadly 
applying the results. These results were included in a Federal Register 
announcement in April 2003. The practices are intended to provide for a 
common architecture of personnel management within the Defense 
Department science and technology community. These have not yet been 
implemented.
    It is my intention to support the Secretary of Defense in pursuing 
the objectives of the National Defense Authorization Acts of 1995 and 
2001; that being the identification and implementation of a civilian 
personnel management system that best recruits, manages, and maintains 
a healthy scientific and technical workforce. The concerns of the naval 
research and technical centers are being addressed in this process.

    8. Senator Levin. Do you support an aggressive implementation of 
existing congressional authorities, possibly to include the 
establishment of a separate personnel system for laboratories and 
technical centers?
    Secretary England. Congress provided the Secretary of Defense 
authority to conduct personnel demonstration projects in section 342 of 
the National Defense Authorization Act for 1995, as amended by section 
1114 of the National Defense Authorization Act of 2001. The authority 
allows the Secretary to experiment with new and different personnel 
management concepts to determine if such changes in personnel policy or 
procedures would result in improved Federal personnel management across 
the DOD.
    In March 2002, DOD established a Human Resources Best Practices 
Task Force to review all demonstration projects, to include several 
outside of DOD, in order to compile best practices that show promise in 
terms of DOD's civilian human resources strategy. The best practices 
identified by the Task Force were reviewed, revised, and approved by a 
steering group of senior leaders, with the intention of broadly 
applying the results. These practices are intended to provide for a 
common architecture of personnel management within DOD's science and 
technology community. They have not yet been implemented.
    Congress recently authorized DOD to implement the NSPS; also aimed 
at determining a new civilian personnel management system for DOD. This 
statute purposefully excluded the naval science and technology centers 
until 1 October 2008, and only applies the NSPS to the extent that the 
Secretary of Defense determines the flexibilities NSPS provides are 
greater than the flexibilities currently provided to the labs.
    The Department will consider both initiatives in establishing an 
appropriate personnel management system. It is my intention to support 
the Secretary of Defense in pursuing the ultimate objective of the NSPS 
and the National Defense Authorization Acts of 1995 and 2001; that 
being the identification and implementation of a civilian personnel 
management system that best recruits, manages, and maintains a healthy 
scientific and technical workforce.
                                 ______
                                 
    [The nomination reference of Gordon R. England follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 3, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Gordon England, of Texas, to be Secretary of the Navy. 
(Reappointment)
                                 ______
                                 
    [The biographical sketch of Gordon R. England, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]
             Biographical Sketch of Hon. Gordon R. England
    Gordon England was confirmed as the first Deputy Secretary in the 
U.S. Department of Homeland Security on January 30, 2003. The 
Department of Homeland Security was established on January 24, 2003, to 
integrate 22 different agencies with a common mission to protect the 
American people.
    Previously, Secretary England served as the 72nd Secretary of the 
Navy from May 24, 2001, until confirmation as Deputy Secretary. As 
Secretary of the Navy, Mr. England was responsible for an annual budget 
in excess of $110 billion and over 800,000 personnel.
    Mr. England served as executive vice president of General Dynamics 
Corporation from 1997 until 2001 and was responsible for two major 
sectors of the corporation: Information Systems and International. 
Previously, he served as executive vice president of the Combat Systems 
Group, president of General Dynamics Forth Worth aircraft company 
(later Lockheed), president of General Dynamics Land Systems Company 
and as the principal of a mergers and acquisition consulting company.
    A native of Baltimore, Mr. England graduated from the University of 
Maryland in 1961 with a bachelor's degree in electrical engineering. In 
1975 he earned a master's degree in business administration from the 
M.J. Neeley School of Business at Texas Christian University and is a 
member of various honorary societies: Beta Gamma Sigma (business), 
Omicron Delta Kappa (leadership) and Eta Kappa Nu (engineering).
    Mr. England has been actively involved in a variety of civic, 
charitable, and government organizations, including serving as a city 
councilman; Vice Chair, Board of Goodwill, International; the USO's 
Board of Governors; the Defense Science Board; the Board of Visitors at 
Texas Christian University; and many others.
    He has been recognized for numerous professional and service 
contributions from multiple organizations such as Distinguished Alumnus 
Award from the University of Maryland; the Department of Defense 
Distinguished Public Service Award; the Silver Beaver Award from the 
Boy Scouts of America; the Silver Knight of Management Award from the 
National Management Association; the Henry M. Jackson Award and the 
IEEE Centennial Award.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Gordon R. 
England in connection with his nomination follows:]

                                                 September 5, 2003.
Hon. John Warner, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Secretary of the Navy. It supplements 
Standard Form 278, ``Executive Personnel Financial Disclosure Report,'' 
which has already been provided to the committee and which summarizes 
my financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any organization identified as a DOD contractor 
or any other entity that would create a conflict of interest with my 
government duties.
    I do not have any present employment arrangements with any entity 
other than the Department of Defense and have no formal or informal 
understandings concerning any further employment with any entity. If 
confirmed, I am committed to serve in this position at the pleasure of 
the President throughout his term of office.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I am a member of certain organizations and professional societies, 
which are either listed below or have been previously provided to the 
committee. None of these should pose any conflict of interest with 
regard to my governmental responsibilities. I trust that the foregoing 
information will be satisfactory to the committee.
            Sincerely,
                                                 Gordon R. England.

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Gordon Richard England.

    2. Position to which nominated:
    Secretary of the Navy.

    3. Date of nomination:
    September 3, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 15, 1937; Baltimore, Maryland.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Dorothy Marie Hennlein.

    7. Names and ages of children:
    Gordon England, Jr.; age 40.
    Margaret Kristen Rankin; age 38.
    Marisa Claire Walpert; age 31.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    Graduate, Mount St. Joseph's High School, Baltimore, Maryland, June 
1955.
    Graduate, Univ. of Maryland, College Park, Maryland, BSEE, June 
1961.
    Graduate, Texas Christian University, Fort Worth, Texas, MBA, May 
1975.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    President and General Manager, General Dynamics Fort Worth Company, 
Fort Worth, Texas, July 1991 to March 1993.
    President and General Management, Lockheed Fort Worth Company (GDFW 
prior to sale to Lockheed), March 1993 to march 1995.
    Self employed President, GRE Consultants, Inc., Fort Worth, Texas, 
March 1994 to March 1997.
    Executive Vice President, General Dynamics Corporation, Falls 
Church, Virginia, March 1997 to May 2001.
    Secretary of the Navy, Department of the Navy, Washington, DC, May 
2001 to January 2003.
    Deputy Secretary, Department of Homeland Security, Washington, DC, 
January 2003 to present.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    Benbrook Texas City Council and mayor pro tem, 1982-1986, no party 
affiliation.
    Member of the Defense Science Board from 1991 to 1996.
    Member of the Defense Science Board Acquisition Subpanel from 1997 
to 1998.
    Member of the Defense Science Board Task Force on Globalization and 
Security from 1998 to 1999.
    National Research Council, Vice Chairman of Study on the Future of 
U.S. Aerospace Infrastructure, 2000-2001.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    Member, Omicron Delta Kappa (leadership).
    Member, Beta Gamma Sigma (business).
    Member, Eta Kappa Nu (engineering).
    Lifetime member, Navy League of the United States (Mr. and Mrs. 
England).

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    GD PAC contributions (withheld from paycheck)
      1998 - $2,600.
      1999 - $2,600.
      2000 - $1,000.

    Personal Contributions
      2003 - Kay Granger Re-election - $2,000.
      2002 - Good Government Fund (Senator Kay Bailey Hutchinson, 
sponsor) - $5,000.
      2002 - Congressman Joe Barton Committee - $2,000
      2001 - Kay Granger Re-Election Campaign Event, April 11, 2001 - 
$1,000
      2000 - Johnson for Congress 2000 - $1,000
      2000 - Texas Freedom Fund - $1,000
      2000 - Friends of Max Cleland - $1,000
      2000 - Tiahrt for Congress - $1,000
      2000 - Re-Election Campaign of Cong. Chet Edwards - $1,000
      2000 - Common Sense, Common Solutions PAC - $500
      2000 - Lazio 2000 - $2,000
      2000 - RNC Victory 2000 - $2,000
      2000 - Texas Freedom Fund PAC, Inc. - $1,000
      2000 - Kay Granger Campaign Fund - $1,000
      2000 - Kay Granger Campaign Fund - $1,000 (by Dorothy H. England)
      1999 - George Bush for President Exploratory Committee - $1,000
      1999 - Feinstein 2000 - $1,000
      1999 - Texas Freedom PAC - $1,000
      1999 - Murtha for Congress - $1,000
      1999 - Kay Granger for Congress - $1,000
      1999 - Joe Barton for Congress - $1,000
      1999 - Kay Granger Campaign Fund - $1,000
      1999 - Re-Election Campaign of Cong. Todd Tiahrt - $1,000
      1998 - Snowe for U.S. Senate - $1,000
      1998 - Leahy for U.S. Senate - $1,000
      1998 - Governor Bush Committee - $500
      1998 - Murtha for Congress - $500
      1998 - 6th District Republican Association - $1,000
      1998 - National Republican Congressional Committee Operation 
Breakout - $10,000

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals, and any other special 
recognitions for outstanding service or achievements.
    Department of Defense Medal for Distinguished Public Service
    Department of the Air Force Exceptional Public Service Award
    Department of the Army Exceptional Public Service Award
    University of Maryland 2002 Distinguished Graduate Award
    Henry Jackson Award for Public Service
    Silver Knight of Management Award National Management Association
    Silver Award National Defense Industrial Association
    Selected to Aviation Heritage Hall of Fame
    Institute of Electrical and Electronics Engineering Centennial 
awardee

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    Boston Herald - U.S.S. Constitution a reminder of our heroes, July 
4, 2002
    Washington Times - Chief Executive Transformed - September 10, 2002
    Naval Institute Proceedings - One Team - One Fight - November/
December 2002
    Sea Power Magazine - Our Mission is Clear - December 2001

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    Two copies each of representative speehes attached.

    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify before any duly constituted 
committee of the Senate?
    Yes.
                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                 Gordon R. England.
    This 5th day of September, 2003.

    [The nomination of Gordon R. England was reported to the 
Senate by Chairman Warner on September 25, 2003, with the 
recommendation that the nomination be confirmed. The nomination 
was confirmed by the Senate on September 26, 2003.]


  NOMINATION OF MICHAEL W. WYNNE TO BE UNDER SECRETARY OF DEFENSE FOR 
                 ACQUISITION, TECHNOLOGY, AND LOGISTICS

                              ----------                              


                       TUESDAY, NOVEMBER 18, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:12 p.m. in room 
SR-222, Russell Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Sessions, Chambliss, Levin, Akaka, and Clinton.
    Committee staff members present: Judith A. Ansley, staff 
director, and Gabriella Eisen, nominations clerk.
    Majority staff members present: Brian R. Green, 
professional staff member; William C. Greenwalt, professional 
staff member; Carolyn M. Hanna, professional staff member; 
Ambrose R. Hock, professional staff member; Gregory T. Kiley, 
professional staff member; Patricia L. Lewis, professional 
staff member; and Thomas L. MacKenzie, professional staff 
member.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Madelyn R. Creedon, minority 
counsel; Creighton Greene, professional staff member; Peter K. 
Levine, minority counsel; and Arun A. Seraphin, professional 
staff member.
    Staff assistant present: Michael N. Berger.
    Committee members assistants present: Christopher J. Paul, 
assistant to Senator McCain; John A. Bonsell, assistant to 
Senator Inhofe; Jayson Roehl, assistant to Senator Allard; Arch 
Galloway II, assistant to Senator Sessions; Clyde A. Taylor IV, 
assistant to Senator Chambliss; Christine O. Hill, assistant to 
Senator Dole; Mieke Y. Eoyang, assistant to Senator Kennedy; 
Davelyn Noelani Kalipi, assistant to Senator Akaka; William K. 
Sutey, assistant to Senator Bill Nelson; Rashid Hallaway, 
assistant to Senator Bayh; and Andrew Shapiro, assistant to 
Senator Clinton.

       OPENING STATEMENT OF SENATOR JOHN WARNER, CHAIRMAN

    Chairman Warner. The committee will now come to order.
    We're very pleased to have before the committee this 
afternoon Michael W. Wynne, nominee to be the Under Secretary 
of Defense for Acquisitions.
    Mr. Wynne has been serving as the acting Under Secretary of 
Defense for Acquisition, Technology, and Logistics since May of 
this year following the departure of Mr. Aldridge, and we 
commend him for his service to our country.
    How many times have you been up here, Secretary Wynne?
    Mr. Wynne. Sir, I've been here about four times.
    Chairman Warner. I mean Pete Aldridge, he was----
    Mr. Wynne. He was confirmed four times.
    Chairman Warner. Four times.
    Mr. Wynne. Yes, sir.
    Chairman Warner. Remarkable career.
    Mr. Wynne. What a remarkable career.
    Chairman Warner. This position, for which the President has 
nominated you, is one of the most important in your 
department--you know that well. It was established by Congress 
to implement a recommendation of the 1986 David Packard 
Commission, to place a senior official in charge of defense 
acquisition to improve the effectiveness and efficiency of 
acquisition management.
    I had the privilege of serving in the department as Navy 
Secretary under David Packard. He was a remarkable man. Did you 
get to know him?
    Mr. Wynne. Sir, I met Mr. Packard a couple of times, and he 
is very impressive.
    Chairman Warner. He was an impressive man.
    As the senior acquisition official of the Department of 
Defense (DOD), the Under Secretary is responsible for making 
critical decisions on major defense acquisition programs, such 
as the Joint Strike Fighter, the F-22, the Virginia-class 
submarine and the future combat system.
    This is not an easy job; it's a very challenging one. Every 
sailor, soldier, airman, and marine depends upon your service 
and your decisionmaking to ensure that their equipment is the 
best that can be obtained by the American taxpayers.
    I trust, Mr. Wynne, that if confirmed, you will be a hard 
worker to meet this important objective. You certainly have 
been one in the years that you've been in the department here 
recently.
    We welcome you and your family and thank you for the 
willingness to serve again. Would you kindly introduce your 
family at this time?
    Mr. Wynne. Thank you very much, Senator, I certainly will.
    This is my wife, Barbara, sitting to my right, and my 
brother, Peter, who has traveled here from Texas to see what 
goes on here in the Senate----
    Chairman Warner. We'll not disappoint him.
    The family support, as I said, over the many years I've 
been privileged to be here, it's absolutely essential to the 
discharge of the functions of this office and the other senior 
offices, and indeed, throughout the Department of Defense. So 
we thank your family for joining you in this challenging 
assignment.
    Your previous confirmation hearing took place on June 22, 
2001. You were sworn in your current job on July 12 of that 
year.
    Mr. Wynne is a graduate of the United States Military 
Academy at West Point and served for 7 years on active duty in 
the Air Force. He has an impressive record of achievement in 
industry, retiring as a senior vice president from General 
Dynamics, with responsibility for international development and 
strategy.
    During the course of his career at General Dynamics he was 
instrumental in the development of various complex and vital 
programs, including the F-16, the Abrams battle tank, and 
space-launched vehicles, including the Atlas and the Centaur.
    He has a wealth of experience and accomplishment, both in 
government and the private sector.
    You're eminently qualified for this position, and I commend 
the President for elevating you to this important post.
    Senator Levin will give his statement as soon as he comes, 
but, in the meantime, the committee has asked our witness to 
answer a series of advance policy questions; he's responded to 
those questions and, without objection, I'll make the questions 
and the responses part of today's record.
    There are also standard questions that the chair of this 
committee, throughout the many years, has asked every nominee 
who's appeared before this committee, and I will now do that.
    Have you adhered to applicable laws and regulations 
governing conflicts of interest?
    Mr. Wynne. Yes, sir.
    Chairman Warner. Have you assumed any duties or undertaken 
any actions which would appear to presume the outcome of the 
confirmation process?
    Mr. Wynne. No, Senator.
    Chairman Warner. Will you ensure that your staff complies 
with deadlines established for requested communications, 
including questions for the record in all of our hearings?
    Mr. Wynne. Yes, sir.
    Chairman Warner. Will you cooperate in providing witnesses 
and briefers in response to congressional requests?
    Mr. Wynne. Yes, sir.
    Chairman Warner. Will those witnesses be protected from any 
reprisal for their testimony or briefings?
    Mr. Wynne. Yes, sir. Absolutely.
    Chairman Warner. Do you agree, when asked before any duly 
constituted committee of Congress, to give your personal views, 
even if those views are somewhat different from the 
administration under which you serve?
    Mr. Wynne. Yes, sir.
    Chairman Warner. Do you have any remarks that you wish to 
make?
    Mr. Wynne. Yes.
    Chairman Warner. Unless my colleague, the Senator from 
Hawaii--do you wish to make any comments on behalf of Senator 
Levin before we get started?
    Senator Akaka. Yes, Mr. Chairman, thank you very much.
    I would just like to add my welcome to Mr. Wynne and 
Barbara and also Peter. It's good to have the family support 
here.
    Thank you very much.
    Chairman Warner. Thank you very much.
    Colleagues, it is my intention to have our witness address 
the committee unless anyone desires to have an opening remark 
or two.
    Fine.
    Mr. Secretary?

STATEMENT OF MICHAEL W. WYNNE TO BE UNDER SECRETARY OF DEFENSE 
           FOR ACQUISITION, TECHNOLOGY, AND LOGISTICS

    Mr. Wynne. Thank you, Mr. Chairman.
    Mr. Chairman and members of this committee, I am honored to 
appear before you today as the President's nominee for the 
position of Under Secretary of Defense for Acquisition, 
Technology, and Logistics.
    I'd like to thank President Bush and Secretary of Defense 
Rumsfeld for their confidence in me and for this nomination 
that you are considering.
    If confirmed, I look forward to leading a crucial part of 
the Department of Defense team and to working with Congress, 
and especially this committee, on the many challenges facing us 
all. I look forward to applying the skills that I have learned 
in many differing assignments in the military and career 
positions within the defense industry and, of course, during my 
last 2 years in the Department of Defense.
    I believe that serving on behalf of the American people, in 
particular our brave military men and women and the civilians 
who support them, is a noble calling, particularly when our men 
and women in uniform are in harm's way.
    I thank you for acknowledging the presence of my wife, 
Barbara, who has stood by me throughout all these assignments, 
in addition to raising our wonderful children. I also want to 
thank my brother, Peter, who has traveled from his job in Texas 
to be with us today; and I also thank my colleagues from the 
Department of Defense for being here in support.
    While we can point to many successes, both in our recent 
combat operations around the world and in the transformation of 
our defense establishment, we have urgent work remaining. In 
that regard, I applaud this committee for the effort involved 
in the recent authorization bill and thank you for your 
leadership in providing both authority and guidance to continue 
our transformation to the future force.
    Mr. Chairman, I thank you for the opportunity to appear 
here today and to reintroduce myself and provide you insight 
into my approach in the challenging post that I have been 
nominated for. If I am confirmed, I look forward to working 
with Congress, and especially with this committee.
    I'll be happy to answer any questions that you might have.
    Chairman Warner. There is a matter on the floor. I wanted 
to ascertain whether or not we're going to have voice or 
recorded votes so the committee can be aware of this.
    I don't know whether I'm going to be able to resolve it, so 
I'll start in on my inquiry. We'll each take 6 minutes.
    The consolidation of the defense industry, Mr. Secretary, 
has been a matter of some concern to many of us throughout the 
1990s. It raises a question of the adequacy of competition. You 
stated in your responses to the committee's advance policy 
questions that in several defense markets it has become more 
challenging to obtain that level of competition that is 
necessary to get the best cost and the best products.
    What do you propose to do, in your present position, to try 
and maximize the benefits of competition in light of this 
lessening number.
    Mr. Wynne. Senator, this is an excellent question because 
the consolidation of the industrial base is something that we 
worry about every day.
    Every year, we survey the defense industry to determine 
whether or not we have sufficient health in that industry to 
conduct our affairs. Unfortunately, our marketplace has been 
going down over the years.
    I can recall from my days in college when we had many 
prototypes and many companies in play across the Nation, to 
perform our products. That has been steadily dwindling down to 
where we currently have, if you will, a top 5 and perhaps a top 
10, of second-tier vendors.
    That having been said, each time that we want to conduct a 
competition we find that it is, in fact--adequate if you look 
across the broader scope of the world--that we have adequate 
competition for the vast majority of our products. In a few 
cases, they are limited. What I am doing to try to expand that 
is to work with the Small Business Administration to get non-
traditional suppliers to come to the game.
    We have been relatively successful at doing that. With your 
permission, we will get authorization to use commercial-style 
practices and Federal Acquisition Regulations (FAR) Part 12. We 
have some very innovative small businesses coming to our 
marketplace. That's the way I think we need to address our 
future.
    Sometimes our future is not really anymore in major 
platforms, which are often associated with the industrial base, 
but rather an information technology and communications 
technology, and then in our power to fuse sensor data.
    Chairman Warner. By coincidence, I just had a visit in my 
office earlier this afternoon, by a gentleman, Rich Carroll, 
whom I've known for many years. He established a very 
successful company which, coincidentally, was just sold to 
General Dynamics. He's been a strong advocate of the Small 
Business Innovative Research program, and I hope that you know 
that program.
    Mr. Wynne. Yes, I know that program----
    Chairman Warner. We talked a little bit about that program 
and hopefully how you'll even strengthen it.
    Mr. Wynne. Small Business Innovative Research is a 
tremendous area where I have personally taken an interest in 
making sure that we can fund these small companies that come to 
us with an idea. I am a big supporter of the Small Business 
Innovative Research Program.
    Chairman Warner. Well, I encourage you to do that, because 
he's proven, with his company, that it can be quite successful.
    Mr. Wynne. Yes, sir, it can.
    Chairman Warner. All the ideas don't reside in the big 
companies, even though you're proud of your past in the big 
ones.
    Mr. Wynne. Yes, sir. I have personally been involved in 
several small businesses and recognize the talent that lies 
there.
    Chairman Warner. Let's turn to the subject of Buy America. 
The committees of the House and the Senate have just recently 
concluded their rather lengthy conference with that key item.
    I'm not here to discuss the pros and cons and exactly what 
occurred in that conference. The final result is soon to be a 
matter of public law as soon as the President signs it.
    But, there was quite a debate over Buy America legislation, 
and a number of nations abroad paid close attention to it. I 
wonder if you might first comment on how you're going to 
implement this new legislation. Then, on what you can do to 
reassure the world that we're going to follow, strictly, the 
President's philosophy of trying to encourage as free a trade 
as we possibly can.
    Mr. Wynne. Sir, I greatly appreciate the opportunity to 
respond to that because my background--I'm a little bit 
biased--I've been working in international programs for many 
years, and I will tell you that our international trade has 
always been to the benefit of the United States.
    I think it's almost 3:1, at this point, where we do $75 
billion in exports and I believe we only do about $25 billion 
in imports, from the international community.
    That having been said, many of the people that I just met 
at a North Atlantic Treaty Organization (NATO) meeting 
recently, were very concerned. I applaud the leadership in this 
committee for taking the route that you did and standing firm 
on the area of free trade. I do think that it is not 
necessarily a good time to tell our coalition partners that we 
are not interested in doing trade with them.
    Chairman Warner. I concur in what you say, and I certainly 
want to commend the administration. They gave to Congress some 
very helpful guidance on that point.
    Quickly, on the Joint Strike Fighter Program, there had 
been some delays associated with weight problems. I go back to 
the days of the TFX and the A-12. You know about those 
programs.
    Mr. Wynne. Yes.
    Chairman Warner. I don't believe that, in any way, this 
program is likely to follow in that path, but I think it's 
important that you give your reassurances now, to the committee 
and those following this hearing.
    Mr. Wynne. The Joint Strike Fighter Program--I was just 
down to the program manager's review to all of our partner 
nations, which was an extraordinary meeting. The 9 partner 
nations were all there, plus the 2 Services, which may, in some 
views, be 11 partner nations.
    But, the fact is that that program is going very well. I 
was down there to witness the first light of the engine.
    They do have, at this stage of the design period, some 
concerns with weight. It appears that the short take-off and 
landing variant is having the hardest time to control because 
of the structural requirements inside the skin of the airplane.
    I think, though, that they have a pathway forward. It 
appears that the products all work and they fly very well, and 
it's an extraordinary airplane. The partners are all looking 
forward to participating, and they're all looking forward to a 
long, stable program.
    Chairman Warner. Well, this committee has had a very active 
role, really, in the origination of that program, and its 
oversight, so I ask you to kindly keep us informed. We'd prefer 
to hear from you rather than reading in the paper either good 
news or bad news.
    All right?
    Mr. Wynne. Yes, sir.
    Chairman Warner. Quickly, to the F-22 Raptor program, what 
can you give us in the way of a short report on that?
    Mr. Wynne. The F-22 program is coming along slowly but 
surely, especially in the software area. We put another tiger 
team together to go take a very strong look at how they were 
developing the software.
    Frankly, we found discipline problems in the way they were 
doing that. If confirmed, I intend to continue to nurture that 
program and make it a success. I do believe in what started in 
the 1980s as a three-pronged program of stealth and speed and 
precision.
    Chairman Warner. Lastly, the V-22, the Marine Corps 
program--bring us up to date on that one.
    Mr. Wynne. The V-22 program is also a program that is 
coming back strong. Frankly, the test discipline has been 
reinstalled, the program manager is on top of it, and this 
program is coming back. I cannot give you a full assurance, 
because I do believe if lightning strikes that airplane, it's 
going to be, ``The troubled V-22 crashes.'' On page 50, it's 
going to say, ``The cause was allegedly lightning.''
    When a troubled program is in trouble, sir--but I think 
it's really going----
    Chairman Warner. Right now, you have a very positive 
feeling about it?
    Mr. Wynne. I really do.
    Chairman Warner. All right. Thank you.
    I'll have further questions later.
    Senator Levin, do you wish to make some opening remarks?
    Senator Levin. I just have a very brief opening statement. 
Should I either go right into questions as well?
    Chairman Warner. Whatever your pleasure.
    Senator Levin. Thank you.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Mr. Chairman, let me join in welcoming our 
nominee and his family to the committee. We're well acquainted 
with him, and he's well-qualified for the position to which he 
has been nominated.
    The Under Secretary remains the Department's point man on a 
wide range of very difficult management issues, including: the 
effective management of the Department's major weapons 
programs; the revitalization of defense, science, and 
technology; the continuation of acquisition reform and 
logistics modernization; and the even-handed management of the 
public-private competition.
    I've been disappointed that this administration appears to 
have begun a process of dismantling the position in one area by 
stripping the Under Secretary of much of his responsibility for 
the acquisition of space systems and missile defense systems, 
but nonetheless, it obviously remains an extremely important 
position, even with those lesser responsibilities.
    The questions that I have for you, Mr. Wynne, are in three 
or four areas.
    First, relative to contracting in Iraq. This has been a 
very major issue for a lot of us and concerns have been raised 
for some months now about the lack of competition and the 
excessive rates that have been charged on some contracts for 
Iraqi reconstruction.
    There have been a number of concerns raised--and I've been 
part of the group that has raised the concerns--about a sole-
source contract for reconstruction of the Iraqi oil industry 
that the department awarded to Halliburton--a so-called 
temporary bridge contract.
    Now, that temporary bridge contract probably had to be 
entered into in order to move very quickly. But the problem is 
that temporary has become forever. Time and time again, the 
department has pushed back its schedule for replacing this 
contract, and it has continued to grow in size by about $100 
million for every month of delay.
    We were assured that it would be replaced by competitive 
contracts many months ago, then 1 month ago, and this month. 
Recently, we've been told that none of those assurances have 
panned out, by the way. Recently, we've been told that the 
Department plans to replace the Halliburton contract with two 
separate follow-on contracts, one covering Southern Iraq and 
one covering Northern Iraq.
    Can you tell us how long it will be before we have fully 
competitive contracts in place to replace the Halliburton 
bridge contract?
    Mr. Wynne. Well, sir, there are two aspects to the 
Halliburton contract. First it's the repair of the oil fields, 
as you've talked about. That has been competed. The award is in 
preparation. I have been assured of that because I did inquire 
that it should be by the end of the year that that is replaced. 
You were correct. It will be replaced by a north oil company 
and a south oil company repair business.
    The second part of it is the fuel delivery. They are 
actually asking the Defense Energy Service Center of the 
Defense Logistics Agency (DLA) to take over three out of four. 
The fourth should be replaced by early next spring.
    Senator Levin. Now why did the Department decide to have 
two contractors with exclusive territories rather than 
requiring them to compete against each other?
    Mr. Wynne. What we had, Senator, was two contractors with 
common capabilities so that we could compete them for follow-on 
tasks within their scope of record. What we wanted to have is 
one that was generally associated with the north oil company 
and one that was generally associated with the south oil 
company to build the infrastructure and to bring forward teams 
of capability such that we could compete in other areas of that 
pipeline.
    Senator Levin. What steps will you be taking to ensure that 
the contracts awarded with money made available under the 
recently enacted Iraq Supplemental Appropriation Act are 
entered into on a basis of full and open competition?
    Mr. Wynne. Sir, we intend to comply with the law as 
written. I realize there is a concern on the follow-on. But in 
fact, I have detailed my own director of contracts and 
services, have augmented her staff to write the proper scopes 
to do a proper competition on all of that money that has been 
authorized.
    Senator Levin. In the missile defense area--following the 
President's decision to deploy a national missile defense in 
September of next year, the Pentagon revealed that it had 
canceled 9 of the 20 national missile defense intercept tests 
planned from 2003 to 2007. As a result, there are only two 
intercept tests now planned between now and the deployment 
date. The targets used in these tests are not going to be 
realistic. The radar needed for the system will not be properly 
tested at all.
    In the fiscal year 2004 Defense Authorization Bill, there 
is $100 million to conduct an additional intercept test and for 
other risk reduction activities. I understand there is already 
a test planned, the so-called IFT 16A, which currently is not 
an intercept test, but which could easily be converted into an 
intercept test with this extra funding. Will you use that 
funding for an additional intercept test to ensure that we have 
as much testing as possible prior to deployment?
    Mr. Wynne. Sir, I have a two-part answer to that. First, we 
are trying to involve the Director of Operational Test and 
Evaluation in a maximum sense to assure ourselves that we're 
going forward, both on a sub-system basis and on a system basis 
prior to our assessment of capabilities and deployment.
    I don't know how the $100 million is planned to be 
assessed. But I will say that I know that there is great 
concern that we make sure that we have the kind of system that 
the American taxpayers paid for. I meet with the missile 
defense officials biweekly to ensure that.
    Senator Levin. So, you will be ensuring that the Department 
of Operational Test and Evaluation has a strong and clear role 
in the missile defense programs during the development?
    Mr. Wynne. They have over 100 people involved today, sir. 
We will ensure that they will have a strong presence 
throughout.
    Senator Levin. Thank you. My time is up. Thank you so much. 
Again, congratulations to you.
    Chairman Warner. Senator McCain.
    Senator McCain. Mr. Wynne, you are aware of the 
authorization bill signed by the President last Friday?
    Mr. Wynne. Yes, sir.
    Senator McCain. Do you intend to implement the 
authorization bill's section 135, which concerns Boeing 
aircraft under one contract or two?
    Mr. Wynne. Sir, I read your letter and the colloquy that 
was associated with it. I want to again thank this committee 
for coming to a compromise. I read it very carefully. It seems 
to me it's going to be very hard to implement under one 
contract. But I know the Department is currently reviewing it, 
and there are some smarter people than me that may bring some 
innovative approach forward.
    Senator McCain. When do you expect to reach a decision?
    Mr. Wynne. I would say, sir, that the balancing of 
resources against the needs--but by the end of the year, I 
think we will be close to a decision on that.
    Senator McCain. Will you renegotiate the purchase price of 
$131 million per tanker?
    Mr. Wynne. I cannot assure you that that will be 
renegotiated, but what I can say is it's certainly going to be 
reevaluated because of the probable change in some of the 
scheduling.
    Senator McCain. Will you pay on delivery or at the time of 
order?
    Mr. Wynne. At the incremental funding release that was 
allowed, sir, I believe it requires payment on time of order.
    Senator McCain. Do you intend to structure the finance and 
acquisition or construction of tankers around a special purpose 
entity?
    Mr. Wynne. I think the first 20 airplanes will probably 
continue to be a special purpose entity in the sense that they 
will continue to be leased as to the terms of the original 
contract.
    Senator McCain. You testified before this committee on the 
Boeing tanker deal on September 4. At the time, we discussed a 
June 23, 2003, e-mail. In this e-mail, a Boeing executive named 
Tom Soins described a meeting he had with Air Force Secretary 
Roche where Secretary Roche apparently expressed serious 
concern about a letter from the Director of Program Analysis 
and Evaluation (PA&E) at the Office of the Secretary of Defense 
(OSD), Ken Krieg. I have a copy of that if you'd like for me to 
revisit it.
    It basically says, ``Our analysis shows--fails to meet the 
requirement of Office of Management and Budget (OMB) circular 
A-11 because of a lease less than 90 percent of the--our 
calculations show that lease payments are more than 93 percent, 
exceeding the requirements of the definition and that was 
arguing against it.''
    Their director, Krieg, as I say, concluded that the 
original Boeing proposal failed two OMB accounting rules and, 
therefore, violated authorizing legislation. According to the 
e-mail, Secretary Roche--and I quote the e-mail, asks, ``Boeing 
to put pressure on you to convince PA&E to write a new letter 
essentially undoing the first letter.''
    The e-mail also indicated that he was not going to answer: 
``We'd get in trouble no matter how he answered. Secretary 
Roche was going to talk to Wolfowitz tomorrow.'' Did you 
interact with Boeing in any way regarding PA&E being a problem?
    Mr. Wynne. No, sir. There was no pressure put on me, 
especially by Boeing.
    Senator McCain. Did you interact with Boeing in any way 
regarding PA&E being a problem?
    Mr. Wynne. No, sir.
    Senator McCain. What concerns about PA&E did Secretary 
Roche convey to you at this time?
    Mr. Wynne. Secretary Roche only called to tell me that Ken 
Krieg had issued the letter, and that he was purportedly 
unhappy.
    Senator McCain. That who was unhappy?
    Mr. Wynne. Secretary Roche.
    Senator McCain. He told you that they had issued the letter 
and Secretary Roche was unhappy?
    Mr. Wynne. Right.
    Senator McCain. But he asked you to take no----
    Mr. Wynne. He did not ask me to take an action, sir.
    Senator McCain. No, but according to his e-mail, he asked 
Boeing to put pressure on you. That's according to the e-mail. 
That's not according to me.
    Mr. Wynne. Very interesting.
    Senator McCain. Do you recall anyone ever putting any kind 
of pressure on you?
    Mr. Wynne. No, sir.
    Senator McCain. Well, another e-mail, which we didn't 
describe last time, indicates that Secretary Roche suggests to 
Boeing that it direct its efforts to OSD in order to undercut 
PA&E. A December 17, 2002, e-mail from Boeing executive Andy 
Ellis to Rudy DeLeon describe, ``some quick notes from Jim 
Albaugh's meetings today.'' It instructs, ``Please don't 
redistribute this e-mail.''
    Under an entry labeled, ``Meeting with Secretary Roche,'' 
the e-mail described, ``PA&E now a problem on tankers. 
Arguments include price, 767 footprint, and prospects for used 
767s. Boeing needs to do more on behalf of tankers in OSD. PA&E 
working to convince Aldridge to delay reengine while doing an 
analysis of alternatives.''
    ``We should vector Hill support for tankers at Aldridge. 
Said he's very comfortable with the price Air Force has on 
tankers and very comfortable with the overall deal. It's the 
right time to do this deal. He's waiting until early January to 
push on OMB. Wants to deal with the next Congress, not the 
current. Boeing needed to work White House and especially 
OSD.''
    Do you know anything about that?
    Mr. Wynne. No, sir. This is all new news to me.
    Senator McCain. All right. You are going to conduct an 
analysis of alternatives (AOA)?
    Mr. Wynne. Sir, I believe an analysis of alternatives----
    Senator McCain. That's according to the language of the 
authorization.
    Mr. Wynne. Yes, it's underway.
    Senator McCain. How long will that take?
    Mr. Wynne. I understand that it's also scheduled for mid to 
late December.
    Senator McCain. You are going to do a corrosion study?
    Mr. Wynne. That one I will say that----
    Senator McCain. That's required by the law, too.
    Mr. Wynne. I believe it is required by the law.
    Senator McCain. Well, there are a lot of other things that 
are so unsavory about this tanker deal. But just a vignette, 
Mr. Chairman, that you and the ranking member are aware of. Our 
staff went down to Tinker Air Force Base, and Tinker gave a 
briefing. The staff asked for the briefing documents. They 
couldn't find them. They said Mr. Winslow's on temporary duty. 
We are unable to track him down. The colonel who briefed is 
also off base on an appointment.
    Well, anyway, to make a long story short, after going back 
and forth and back and forth, they received these documents, 
and they were doctored. They were doctored documents from those 
that were briefed. They added information at the top that was 
not in the briefing for the staff, and they deleted information 
at the bottom, which indicated that there was not a corrosion 
problem at Tinker Air Force Base. How do you justify this kind 
of behavior, Mr. Wynne?
    Mr. Wynne. Well, sir, I cannot justify that kind of 
behavior.
    Senator McCain. These are facts. I'll be glad to have our 
staff testify.
    Mr. Wynne. The facts were shared with your staff, sir. I 
have no understanding of why they would be doctored en route to 
delivery.
    Senator McCain. I mean, I could show you--well, I guess I 
don't want to take up the committee's time.
    I asked you for documents related to the tanker deal e-
mails, et cetera. I received an answer from Mr. Wolfowitz that 
those would not be forthcoming. Is that the case?
    Mr. Wynne. I very much appreciate the opportunity to 
respond to that question. You know the leadership that's been 
provided by this committee has been fabulous in concluding the 
tanker compromise. I am pleased the debate was robust and fact-
driven. The Department provided access to over 200 documents as 
well as provided testimony to fulfill the need for information 
regarding the Department's decision to procure tankers. The 
compromise forged by this committee stands as a testament to 
them.
    There is no doubt that you desire information, and I want 
to be responsive to your need. That having been said, the 
position of the Department, as expressed by Secretary 
Wolfowitz, is to preserve in the Department the pre-decisional 
debate so vital to informed decisionmaking while still 
providing a full and open account of the Department's decision 
to take action. I really hope that this committee will allow 
that debate, so vital to informed decisionmaking, to continue.
    Senator McCain. Well, my time has expired, Mr. Chairman.
    Chairman Warner. Take another minute or 2.
    Senator McCain. When we got these e-mails from Boeing, Mr. 
Wynne, which reflect the most incestuous, unsavory relationship 
that I have ever seen--people called by their first name saying 
you have to pressure this guy, you have to do this, we can't do 
an AOA. All of that I got from Boeing.
    It peaks one's curiosity about what went on in OSD given 
the incestuousness of the relationship between Boeing and OSD. 
For me to be told that we have been given all information 
that's relevant simply strains credulity to a degree that I 
can't accept.
    I thank you, Mr. Chairman.
    Chairman Warner. The committee will continue to examine the 
basis on which the Department feels it cannot provide these 
documents. I judge from your testimony that that 
decisionmaking, understandably, is--as we say, above your pay 
grade with the Secretary and the Deputy Secretary, but Senator 
McCain has raised a very legitimate question. You recall when I 
asked you the standard questions, including ``Will you provide 
witnesses and briefers in response to congressional requests?'' 
That incorporates by reference documents. You acknowledged yes.
    The same questions were put to Secretary Wolfowitz, and the 
committee put the same questions to Secretary Rumsfeld. I 
happened to be chairman at the time of his confirmation. So I 
find that the proffer of this testimony, while it's the best 
this witness understands, it is inconsistent with the way we 
conduct the business of this committee. We will continue.
    I might add that you said that you examined the colloquy, 
in the singular. There were two colloquies by my able colleague 
here, one between myself and Senator McCain and another between 
the Senator from Illinois is my recollection.
    Senator McCain. Mr. Chairman, the Budget Committee.
    Senator Levin. I believe it was Senator Nickles.
    Chairman Warner. We feel very strongly on this matter. I 
commend Senator McCain. You said twice, the ``robust debate.'' 
This is the Senator that got the ``robust debate'' started. 
Some of us may have had a role as it has gone along. But the 
outcome, we feel, is clearly embraced in the conference report 
which will become statutory law in the very near future.
    This committee intends to have very frequent and close 
oversight of this contract--this acquisition process by 
whatever means. As you indicate, that decision hasn't been made 
yet, but it seems to me the statute is clear on that.
    Senator McCain. Mr. Chairman, could I interrupt just for a 
second?
    Chairman Warner. Yes.
    Senator McCain. The reason why I bring up this issue of 
doctored documents is the only way that this committee can make 
informed decisions is through accurate information. We 
dispatched the staff. Actually, you and Senator Levin 
dispatched the staff to check on the corrosion problems at 
Tinker Air Force Base. They were given certain information. 
That information was surprising to them, because it showed very 
little problems with corrosion.
    So after repeated requests, doctored information was sent 
back with information on the top which gave a different version 
and information deleted at the bottom that indicated that the 
corrosion problem was not serious.
    Mr. Chairman, if we're going to get doctored information 
from the United States Air Force, how in the world can we make 
informed decisions? I think there ought to be an investigation 
as to why this committee was given doctored documents which 
differed radically from the information that they received in a 
briefing which was requested. I don't see how we can do 
business if we have a branch of our service that doctors 
information and then provides it to us.
    Chairman Warner. I indicated earlier that this matter is 
going to be fully examined by the committee in due course.
    I thank the Senator.
    Senator Levin. Would the chairman yield on that for just 
one point?
    Chairman Warner. Yes.
    Senator Levin. I am someone who very much favored the 
compromise which was reached. I applauded the chairman for his 
efforts and supported those efforts. I applauded Senator McCain 
for the position that he's taken here, which is a position that 
is heartfelt and felt very strongly by Senator McCain.
    This question of vacuums, however, is related, but it's an 
issue which we have to deal with regardless of what one's 
opinion is on the tanker deal. I mean, we cannot be in a 
position where the Defense Department is telling us that there 
is some internal document which is not available to this 
committee.
    Unless the Department is asserting a privilege, the Senate 
has a right to those documents. I don't know what is in those 
documents. I'm talking about the principle here. So I would 
suggest, Mr. Chairman--and I know you've expressed some real 
sensitivity about this in pursuing it, that you're determined 
to continue the inquiry here.
    But I will support the chairman in any effort made to get 
any document that we are entitled to. We're entitled to those 
documents. We're also entitled to an explanation on the changes 
in the documents which were submitted to us that Senator McCain 
mentioned. But I will support any effort to get any documents 
that we're entitled to in the absence of a claim of executive 
privilege.
    The way you read that explanation there, it didn't sound 
like there was a claim of executive privilege. It just sounded 
like, well, we want to keep our discussions confidential. 
That's all well and good as a desire, but that is not an 
acceptable answer to the United States Senate. Maybe it should 
be. Maybe we ought to create a new executive privilege for 
conversations that occur inside the executive branch.
    But there is no such executive privilege. No Senators worth 
their salt will ever accept such an executive privilege unless 
there is a basis such a privilege. Unless someone wants to 
assert it, I think we're entitled to it. I will support any 
effort made to obtain those documents, as well as to get an 
explanation of the changes that apparently have been made in 
those graphs or charts or exhibits that were presented to our 
staff.
    Chairman Warner. The chair notes the presence in the 
hearing room of the Assistant Secretary of Defense for 
Legislative Affairs. We will take it up with him in due course.
    Thank you very much, Senator McCain.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman. I would 
like to continue on the issue of corrosion. The National 
Defense Authorization Act for Fiscal Year 2003 included a 
provision, as mentioned by Senator McCain, requiring the 
Secretary of Defense to designate a senior official or 
organization to coordinate and oversee DOD's efforts to prevent 
and mitigate corrosion. In your position as Deputy Under 
Secretary, you were designated as the senior official 
responsible for corrosion.
    So, what are your views on efforts to prevent and mitigate 
the corrosion of military equipment and facilities?
    Mr. Wynne. First of all, I'd like to compliment the 
creative nature of your introduction of that into your bill. In 
conversation with your staff, especially as the entire issue 
that welled up, if you will, concerned corrosion. With your 
leadership, I was designated the corrosion official. We have 
made tremendous strides in coordinating and centralizing the 
information flow and the wherewithal as to how we, not only 
stop corrosion, but stop its, if you will, silent tax on the 
taxpayers of this country.
    Senator Akaka. Apparently there are problems. What do you 
see as the most serious obstacles to effective prevention and 
mitigation of corrosion across the Department?
    Mr. Wynne. One of the biggest problems that we have, I 
think, is enforcement of standard, commercial specifications, 
if you will, which would inhibit corrosion and highlighting to 
the program managers and the contracting officers that they 
have to be installed. As a result of your designation and my 
ascension to the role of the corrosion official, I have 
included it in the Defense Acquisition Board reviews to make 
sure that corrosion is not only highlighted, but is on 
everybody's mind.
    Senator Akaka. The Department's long-term strategy to 
address corrosion as required by last year's bill was due to 
Congress last week. When do you expect this strategy to be 
delivered?
    Mr. Wynne. Sir, I have signed it forward recommending the 
signing and delivery. It should be out literally within days. 
We have a corrosion conference coming up in December. In fact, 
this Thursday I'm going to go down and basically lay out for 
them what that long-term strategy is. I think there are over 
6,000 people signed up, so we have made an impact.
    Senator Akaka. The Department of Defense is heavily reliant 
on contractors, not only for the reconstruction of Iraq, but 
also to provide much of the basic infrastructure and services 
needed by American forces in that country. Over the last 
several months, a number of contractor employees have been 
killed or wounded in Iraq. There have also been reports of 
contractor employees who have refused to go to Iraq or who have 
decided to leave Iraq without performing assigned tasks because 
of the concern for their personal safety and security.
    What, in your view, are the implications of the security 
problems facing contractor employees for the reconstruction of 
Iraq and the future use of contractors on the battlefield?
    Mr. Wynne. First let me salute the contractors who do 
support our Armed Forces around the world. They are as 
patriotic as can be, and many times have stood the test of 
bravery and courage. That having been said, contractors on the 
battlefield is an issue we face today. Their support has been 
tremendous.
    Senator Akaka. Mr. Wynne, do you know how much of a premium 
we are paying, if any, to attract contractors and their 
employees to perform services in Iraq, to provide security to 
the employees, and to accommodate the lost productivity due to 
increased security needs? If not, would you have the Department 
prepare an estimate for the committee?
    Mr. Wynne. Yes, sir. I will take that for the record.
    [The information referred to follows:]

    This estimating of security costs is an inexact science at best 
until the construction is complete and the costs are paid. No matter 
what number anyone picks it could be wrong. We are working hard to 
control all costs, but the environment dictates the level and 
corresponding costs for security. It will change over time, and the 
costs (percentages) could go up, stay the same, or go down. Predicting 
costs, even based on past data from other sources, may be very 
misleading. This information is not ``knowable'' in advance like the 
cost of cement or pipe.
    The Program Management Office (PMO) expects to award a contract in 
May 2004 that will provide the security services necessary to protect 
life by deterring terrorist attacks against PMO employees. The contract 
also will provide for the coordination of security planning and 
execution of the 10 prime contractors and their subcontractors for 
design/build construction as they deploy, occupy work sites, and 
perform reconstruction activities throughout four regions in Iraq. As 
part of this effort, the contract will provide for planning, 
mobilization, and start-up for a comprehensive security management 
development team. This team will provide close personal protection, 
movement/escort security, antiterrorism support and analyses, and 
security program management. The security management development team 
will take the lead in implementing a much-anticipated Security 
Operations Center.

    Senator Akaka. Over the last several months, Congress has 
passed a number of laws addressing the manner in which the 
Department of Defense conducts public and private competitions. 
If confirmed as Under Secretary of Defense for Acquisition, 
Technology, and Logistics, you will be in charge of and charged 
with administering these new laws. Section 334 of the National 
Defense Authorization Act for Fiscal Year 2004 prohibits the 
Department of Defense from implementing arbitrary deadlines for 
conducting public, private competitions.
    The Department is required to extend any otherwise 
applicable deadline if the official responsible for managing 
the competition determines that sufficient personnel, training, 
and technical resources are not available to meet the deadline. 
Will you ensure that this requirement is implemented throughout 
the Department of Defense?
    Mr. Wynne. Yes, sir.
    Senator Akaka. Section 235 of the same bill prohibits the 
Department from implementing any changes to OMB Circular A-76 
until 45 days after the Department submits a report describing, 
among other things, the Department's plans to ensure 
appropriate phasing of the new rules to provide training to 
employees in the implementation of new rules and to collect 
data on the impact of new rules.
    Will you ensure that this requirement is implemented and 
that the Department has appropriate plans and procedures in 
place to ensure that the new rules can be implemented in a fair 
and even-handed manner?
    Mr. Wynne. We intend to follow the law, sir.
    Senator Akaka. Thank you for your responses.
    My time has expired, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for the time that you gave me in 
looking into these different issues. I was thinking about it 
during the questions that were asked of you. I asked my staff 
to check back and see when it was. I remember we had a hearing. 
I understand it was in February 2001, where they talked about 
the extended service life. It was the extended service life 
study of KC-135s.
    Mr. Wynne. Right.
    Senator Inhofe. At that time, I believe, there were two of 
them that had to be--something had to be done by 2030, but the 
service life would be extended on to 2040. Now they're talking 
about fatigue life. My question is, would this not have 
naturally included corrosion at that time?
    Mr. Wynne. It certainly should have. I will tell you that 
they based it on some of the experiences that Tinker had at the 
time. My compliments to the Tinker workforce. The productivity 
that has been shown there has been dramatic. There are some 
areas of the airplane that were not normally, if you will, 
refurbished, because they were so close to basic structure. I 
think some of the concern that has been expressed by the Air 
Force really concerns that area where it's not normally 
penetrated by a refurbishment or a rehab.
    Senator Inhofe. There is another thing I have not received 
an answer for yet--and we've asked for it several times. So I 
would like to have you just answer for the record, because 
sometime I want to get to the bottom of it. During the contract 
discussion, they talked about the amount of money annually it 
would take to maintain the new 767s. It was about twice that 
which it takes to maintain the aging KC-135s. So, for the 
record I'm going to keep asking the question until I find out 
what the answer is. It might be something very complimentary to 
Tinker Air Force Base.
    Mr. Wynne. I do know, sir, that if implemented, Boeing 
intends to continue their partnership with Tinker Air Force 
Base, but I have to ask that question myself. There could be 
some setups going on there, but non-recurring. I don't know.
    [The information referred to follows:]

    Sir, the KC-767A would not cost twice as much to maintain as the 
KC-135. Comparing the costs based on actual flying hours planned, the 
KC-767 is much more cost effective. The Air Force estimates the support 
cost-per-flying-hour (CY02$) for the KC-767 to be $10,800 per hour. The 
support cost-per-flying-hour for the KC-135E is $27,000 and $17,700 for 
the KC-135R. These are the estimated costs for operations in 2012 
(expressed in CY02$) when 100 KC-767s could reasonably be projected to 
be in the inventory.

    Senator Inhofe. Now, in your new position, of course, you 
have oversight of the entire military depot structure. 
Recently, we've started putting some money back into the 
depots, but we went for years--and I'm sure you are familiar 
with the condition of many of them right now. I guess I just 
would ask you to evaluate their current condition, primarily 
the air logistics centers.
    Mr. Wynne. Sir, I certainly will. My compliments to this 
committee, by the way, for its support of public, private 
partnership which, I think, has been a mechanism to infuse both 
management technology and production technology into the depots 
and has proven to be a real benefit to both public and private 
interests.
    Senator Inhofe. I know that's the case for Tinker, because 
the partnering has been very successful there. We've done some 
things--and Secretary Roche initially went out there when he 
was first confirmed, and expressed his thoughts and achieved a 
lot of those accomplishments. I think they should be a model.
    When Secretary Wolfowitz was here, he testified that, as we 
change the depot structure, we need to keep core competencies 
in the public sector. Yet, to this day I'm still looking for a 
definition of core competencies. Do you have a definition you'd 
like to share with us?
    Mr. Wynne. My own personal definition is close to military 
value. In the case of a depot, though, it has to do with all 
the skills necessary, if you will, to bring that together, 
because together they form a military value, not separately 
evaluated.
    Senator Inhofe. Together.
    Mr. Wynne. So my view of core still looks to military 
value, but military value as you might express it in the 
combination of personnel to give service.
    Senator Inhofe. I appreciate that answer. I look forward to 
working with you on these issues as time goes by. Thank you 
very much.
    Mr. Wynne. Thank you, sir.
    Chairman Warner. Thank you very much.
    Senator Clinton.
    Senator Clinton. Thank you very much, Mr. Chairman.
    Thank you, Mr. Wynne. I appreciated the opportunity we had 
to meet in my office recently. I look forward to working with 
you, particularly in the technology area because of my concern 
about the DOD technology programs and their particular 
importance at the Air Force Research Lab in Rome, New York.
    I want to renew my invitation for you to visit that 
facility, because I think it's a prime example of the jointness 
that has become a hallmark of the efforts by DOD to really 
maximize the military competence and the outcomes in all of the 
installations. So I hope we'll be able to arrange that at an 
early date.
    I want to follow-up on Senator McCain's comments, because I 
know how closely he has followed this issue. I listened with 
great concern to his description of these e-mails and the 
apparent changes that were made.
    I think we want to underscore what the chairman and the 
ranking member said in following up on Senator McCain's 
comments that, given everything that's going on now with the 
Department of Defense, all of the challenges, all of the 
changes, all of the stresses, it's imperative that this 
committee have accurate information to conduct its required 
legislative oversight.
    It is troubling to hear the continuing reports out of, not 
only this Senate committee, but other places, about the 
difficulty of getting information. I was somewhat concerned 
with some of the recent comments coming out of, not only DOD 
but, the White House and other places that Members of Congress 
will not be given information if it were requested.
    So I think it's important that in the position you will be 
fulfilling that you help us to get whatever information we need 
across the board with respect to these important issues.
    To that end, within the answers to your questions, which I 
appreciated, I would like some additional specifics that 
follow-up on Senator Akaka's questions. On page 24, you 
specifically say, ``There's no doubt we face challenges by 
relying on commercial resources to provide logistic support in 
theater in Afghanistan and Iraq. We need to explore the use of 
force projections for commercial contractors, define that core 
mission, et cetera.''
    I think that this is one of the critical questions which 
you raise--to reassess or rely on subcontractors for basic 
functions. As you move forward in this area, that will be one 
that I have a great deal of personal interest in because I 
think we're paying more than we need to pay.
    It's not only on no-bid fuel delivery contracts, but it may 
be embedded in the current system that we have created, which 
is a kind of gerrymander, that I think is not necessarily the 
most cost effective or, frankly, the safest way to provide the 
services that are required.
    With respect to the personnel system and the efforts that 
will be undertaken following the passage of the authorization 
bill which gives to the Secretary rather far-reaching powers to 
rearrange and change the makeup of the personnel in the 
Department of Defense, I notice on page 43 a specific question 
related to the Director of Defense Research and Engineering 
about what would happen to the laboratory and test center 
workforce.
    I've heard of others in management positions within the 
Department of Defense who have expressed similar concerns about 
what this is going to mean. I have to say that, as one who 
supported the resolution on Iraq, and as one who is just amazed 
and appalled at the lack of planning in the follow-up months 
that we are still seeing, I am somewhat concerned about both 
the management style and the decisions made by the Secretary. 
It will be clear that the Secretary is going to be driving this 
process.
    It would be heartbreaking and, I think, counterproductive 
to wake up in a year or 2 and find that we've decimated a 
workforce of very accomplished and competent people in the 
civilian workforce across the board. Again, I'm going to be 
looking for a lot of information about how this proceeds. I 
would hope that this committee would be given that information 
in a very direct way. I will look to you with respect to your 
areas of responsibility to provide that.
    Mr. Wynne. Yes, ma'am. Senator, we have been implementing 
personnel changes the acquisition depots, which is largely a 
piece part of the National Security Personnel System. I will be 
free and feel very comfortable coming and seeing you about how 
it's being implemented in the laboratories. They have specific 
areas of concern. The best practices have just been released in 
the Federal regulation, and we intend to use them throughout 
their transition into the National Security Personnel System. 
So you'll have a real basis of comparison.
    Senator Clinton. Thank you.
    Chairman Warner. Thank you very much, Senator.
    Senator Chambliss.
    Senator Chambliss. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your previous service to our 
country. We look forward to working with you in this capacity. 
This tanker lease issue just seems to get more and more murky 
the more we talk about it. I have a question, number one, about 
how you're going to pay for it. There is language in the bill 
referencing the fact that you can't pay for it out of existing 
programs. Is it the intention to find money to pay for it 
without dipping into existing programs that are authorized and 
appropriated?
    Mr. Wynne. Senator, one of the things that I really am 
trying to stand for is stability of programs, so that if their 
neighbor erupts with a high cost impact, I intend to try to 
look within the program to avoid, if you will, the contentious 
nature of having one program knock out another.
    In this particular instance, it's going to be a careful 
balancing of the needs and resources that's going to go on with 
this program. But this is a large appropriation.
    Senator Chambliss. What about the maintenance of that 
aircraft? Is the maintenance of it included in the lease price?
    Mr. Wynne. Maintenance is not, per se, included in the 
lease price, although there's a warranty for defects. I think 
at this point what I can recall is there was an affiliated 
maintenance contract, and I'm not sure how the law particularly 
reads on that right now. I think we have to take another look 
at it.
    Senator Chambliss. Well, my understanding originally was 
that the maintenance would be competed. This is not parochial 
to me because most of the work's been done at Tinker over the 
years on our leases. But I am concerned about the precedent we 
have set with respect to these leases.
    If we're going to build in the cost of maintenance, then 
you're pretty soon going to dry up all the new weapon systems 
coming into the depot. That seems to be a direction in which 
we've been heading over the last several years. I would tell 
you that gives me great cause for concern. Do you have a 
thought about new weapons systems going into the depot on 
either contract or competitive contract or public, private 
partnerships?
    Mr. Wynne. No, sir. I'm fairly open to all methods. I like 
public, private partnerships because I think it keeps a fairly 
vital resource healthy. It seems to be a win, win situation for 
both public and private concerns.
    Senator Chambliss. Well, it does work. We are in the early 
stages, of course, on the C-17. We've done a public, private 
arrangement between Boeing and Robins Air Force Base. It is 
working well. I wish we'd get more aggressive with it. I think 
it saves money for the taxpayer. So I hope we do get a little 
more aggressive.
    There was a study recently--well, I say recently. It's been 
several months ago now since it was requested by Secretary 
Roche. The study has been completed regarding the long-term 
strategy of depots. The report concluded that there is a long-
term three-depot strategy for the United States Air Force. 
Could you give me your thoughts as we move into the next round 
of base closures relative to how depots are going to be treated 
with respect to that study and where we're going in base 
realignment and closure (BRAC)?
    Mr. Wynne. Well, where we're going in BRAC is easier 
perhaps than some of the other responses. Where we're going in 
the BRAC process is to have the criteria published by the end 
of this year. Then, I believe, it's November 2004 when the 
selection criteria is presented to the commission or the 
selections are presented to the commission. Then February 2005 
is when the commission decides.
    That study is one of the scenarios that's being presented 
to both the integrated steering group and the joint cross-
service groups that have studied the supply system as well as 
the Defense industrial complex. I would say that the depots are 
going to get a very fair hearing. I think they bring a value, 
and they should be evaluated on that value.
    Senator Chambliss. I will be curious and look forward with 
Senator Inhofe to following up on this definition of core and 
core competency. Because I've been asking for a definition for 
9 years. That's been the most moving target I've ever seen.
    There's nothing in Iraq that moves faster than the 
definition of core.
    So I hope that under your leadership we'll give that issue 
some real serious consideration. As we move forward through 
BRAC, we simply have to have that issue better settled than 
what it is right now. It has to be costing the Air Force a lot 
of money. If it's costing the Air Force, I know it's costing 
every other service, too.
    So I hope we'll try to figure out a clear definition of 
core, as well as core competency, as we move forward.
    Mr. Wynne. Thank you, sir.
    Senator Chambliss. Thank you very much.
    Chairman Warner. Thank you, Senator.
    We're going to another round of questions. Five minutes for 
each Senator.
    As you heard, several years ago this committee established 
a goal that by 2010, one-third of U.S. military operational 
deep strike aircraft will be unmanned. I understand your office 
has recently established the Joint Unmanned Combat Aerial 
Systems Office, and I applaud you for that initiative.
    Is it your assessment that the Department will, hopefully, 
within reason, reach these goals?
    Mr. Wynne. It is my hope that we can do an operational 
assessment and evaluation of these unmanned combat air 
vehicles. I don't know that we can state for the record how 
many of our combat fighters will be replaced with those 
vehicles because it's so long in the process of taking over.
    I think the plan will be very much in place. That having 
been said, I just recently signed an order asking for 185 
Ravens, small unmanned air vehicles, to support our troops in 
Iraq, that met their requirements. We're also trying to get 
more Shadows and more Hunters. My emphasis has been on getting 
tactical information down to the warfighter, who needs to know 
not what's over the next ocean, but what's over the next hill.
    Chairman Warner. Can you shed some light on an issue which 
is very troubling to people all across this country, and that 
is that during the course of the military campaign in Iraq, 
there suddenly was a shortage of the proper protective devices 
that the men and women of the Armed Forces were wearing. Do you 
know how that occurred?
    Mr. Wynne. Sir, the why of it is I think a misstatement of 
requirements and a misexpectation of what the violence would 
be. But the resolution of it, I can fairly report, has been a 
stepped-up response by our supplier base, and by December 4 of 
this year it is targeted that all of American forces in Iraq 
will, in fact, have plates and a full Kevlar vest.
    Chairman Warner. Now, this committee will be examining the 
Department of the Army tomorrow, and the question will be more 
fully explored.
    Contractor ethics--there have been several recent cases of 
contractor ethics violations, which have resulted in a number 
of large contractors being precluded from receiving further DOD 
contracts. These contractors, however, have received waivers to 
either compete for new contracts or being awarded additional 
work. This has led some observers to question whether there are 
separate ethical standards being enforced for the Department of 
Defense for small and large contractors.
    Can you elaborate on this, and what do you intend to do 
with this very important subject?
    Mr. Wynne. I cannot but express my outrage at any ethics 
violation that occurs at any level and can't tolerate it if 
we're to have acquisition integrity, which is one of the 
hallmark goals not only of myself, but also of my predecessor.
    That having been said, when operations are in violation of 
ethics, many times they are about to perform a very sensitive 
national act which will help defend the soldiers, sailors, and 
airmen. It's a delicate balance as to whether this is a reward 
or whether it would be worse for our country to forego the 
service that has been contracted.
    I realize that in recent times that has been, in fact, 
waived and launches have been done. I believe this is 
concerning the Evolved Expendable Launch Vehicle (EELV) 
contract.
    I can't talk very much about that because I was actually an 
employee of Lockheed Martin in Denver, not during the actual 
time of any wrongdoing being found. But it turns out during the 
time that the wrongdoing was being performed. So I will tell 
you that I feel very strongly about ethics in contracting----
    Chairman Warner. In other words, you're going to 
judiciously enforce those standards?
    Mr. Wynne. Yes, sir.
    Chairman Warner. All right.
    Senator McCain.
    Senator McCain. Mr. Wynne, I have the thing that I've been 
looking at for hundreds of nominees for 17 years now as a 
member of this committee, and it's the standard questions. We 
come and we leaf through them. They change from time to time, 
but they've been fundamentally the same.
    The last question is: Do you agree to ensure that 
testimony, briefings, and other--this is your answers to 
advanced policy questions--do you agree to ensure that 
testimony, briefings and other communications of information 
are provided to this committee and its staff and other 
appropriate committees? Your answer is yes.
    Do you want to amend that answer yes and have it say, 
``with the exception of communications of information and 
briefings concerning the Boeing lease deal?''
    Mr. Wynne. Sir, the question that you've asked is a very 
good one. It goes to protection of proprietary information. I 
will tell you that we have provided, I think, sufficient access 
to allow very----
    Senator McCain.--communication of information?
    Mr. Wynne. Sir, I must respectfully respond with the fact 
that Dr. Wolfowitz in his memo tried to preserve for the 
Department the integrity of internal debate, and I don't know 
where else to go.
    Senator McCain. So we lay it off on Dr. Wolfowitz that you 
won't provide communications of information concerning the 
Boeing deal.
    Mr. Chairman, I can't accept that. I don't think the 
committee can accept that kind of caveat when we're talking 
about a $20 billion deal which the Congressional Budget Office 
alleged, at least in its original form, would cost the 
taxpayers an additional $5.7 billion.
    Mr. Wynne, I strongly suggest that you amend your answer to 
question #4 under the advance policy question on Congressional 
Oversight, because no rational interpretation of that question 
could say the answer is yes. It would have to be, ``Yes, except 
information concerning Boeing aircraft,'' because we asked for 
briefings and other communications of information regarding the 
Boeing deal.
    Mr. Wynne. Sir, I intend to be as cooperative and open as I 
possibly can with this committee.
    Senator McCain. I won't comment on that response.
    Finally, Mr. Wynne, I have in front of me the air refueling 
program, or operational requirements document (ORD) level 
review, and it has a Navy input. It says, ``Critical the 
aircraft must have the capability to refuel two receivers 
simultaneously. The rationale is that you should maintain the 
current dual refueling capability of the KC-10 and the KC-135 
aircraft for probe-equipped aircraft.''
    Does the 767 have a provision for two receivers?
    Mr. Wynne. Not that I'm aware of. I believe it has a center 
boom.
    Senator McCain. So the Navy's requirement here was either 
deleted or ignored again in this deal for the 767.
    I have no further questions, Mr. Chairman. Thank you.
    Chairman Warner. Mr. Secretary, we've had a very thorough 
hearing here, and we will examine your responses. This 
committee will meet upon the call of the chair to review your 
responses and such other material as is pertinent to this 
confirmation process.
    I cannot at this time give you any schedule, but you have 
my assurance that I'll try and move, as requested by the 
Secretary of Defense, as expeditiously as possible.
    Mr. Wynne. Mr. Chairman, thank you very much.
    Chairman Warner. I thank you and your family.
    I urge the Assistant Secretary for Legislative Affairs to 
work with the staff of this committee to see if we can resolve 
some of these questions raised by Senator McCain, myself, and 
Senator Levin, because in many respects I think you're 
following the instructions of your superior, the Deputy 
Secretary of Defense.
    The hearing is concluded. Thank you very much.
    [Whereupon, at 5:23 p.m., the committee adjourned.]

    [Prepared questions submitted to Hon. Michael W. Wynne by 
Chairman Warner prior to the hearing with answers supplied 
follow:]

                        Questions and Responses

                            DEFENSE REFORMS

    Question. You previously have answered the committee's advance 
policy questions on the reforms brought about by the Goldwater-Nichols 
Act in connection with your nomination to be Deputy Under Secretary of 
Defense for Acquisition and Technology.
    Have your views of the importance, feasibility, and implementation 
of these reforms changed since you testified before the committee at 
your confirmation hearing on June 22, 2001?
    Answer. My views have not changed. The reforms, resulting from the 
implementation of the Goldwater-Nichols Act over the past 15 years, 
have become entrenched in our daily business. From an acquisition 
perspective--those changes, particularly the placement of the 
acquisition function under the control of civilian leadership within 
the military departments, have been an important factor in enabling the 
acquisition community to more efficiently and effectively deliver the 
capabilities that the joint warfighters need to meet the challenges of 
the 21st century.
    Question. Do you see the need for modifications of Goldwater-
Nichols provisions based on your experience to date as Deputy Under 
Secretary of Defense? If so, what areas do you believe it might be 
appropriate to address in these modifications?
    Answer. Although I believe that the implementation of Goldwater-
Nichols has been successful and consistent with congressional intent, I 
also believe it is important to continue to look at how well our 
current processes and structures meet the demands of a dynamic 
environment such as the one with which we are faced with today. There 
are several initiatives and studies currently addressing these kinds of 
issues; however the results are not yet finalized.

                                 DUTIES

    Question. Section 133 of title 10, United States Code, describes 
the duties of the Under Secretary of Defense for Acquisition, 
Technology, and Logistics (USD(AT&L)).
    Assuming you are confirmed, what duties do you expect that 
Secretary Rumsfeld will prescribe for you?
    Answer. As Under Secretary of Defense for Acquisition, Technology, 
and Logistics, I will perform for the Secretary of Defense and the 
Department the statutory functions of establishing policies on 
acquisition matters for all elements of the Department of Defense, I 
will also exercise supervision on behalf of the Secretary and Deputy 
Secretary of Defense over the military departments' acquisition systems 
and processes. These statutory functions and duties are promulgated in 
the Department of Defense Directive 5134.1, the charter of the ``Under 
Secretary of Defense (Acquisition, Technology, and Logistics),'' on 
April 24, 2000; and Department of Defense Directive 5000.1, ``Defense 
Acquisition'' on May 12, 2003.
    I would serve the Secretary as the Defense Acquisition Executive 
with responsibility for supervising the performance of the Department 
of Defense Acquisition System; establish policy for acquisition plans 
and strategies, validate program acquisition requirements, and develop 
acquisition program guidance; set policy for acquisition matters, 
including contracting, research and development, production, logistics, 
developmental testing, procurement, and training and career development 
of acquisition personnel; serve as the Defense Logistics Executive with 
Responsibility for integrating the global supply chain; set policy for 
administrative oversight of defense contractors; serve as the 
Department of Defense Procurement Executive; serve as the National 
Armaments Director and Secretary of Defense representative to the semi-
annual NATO Five Power conference and Conference of National Armaments 
Directors; establish policies for, and oversee developmental testing 
and evaluation, and coordinate with the Director, Operational Test and 
Evaluation (DOT&E) on the Test and Evaluation Master Plan for 
Acquisition Category (ACAT) 1 programs, oversee the Joint Test and 
Evaluation Program with the DOT&E, and manage the Foreign Comparative 
Test Program; develop international memoranda of agreement and 
memoranda of understanding relating to acquisition matters; supervise 
the Defense Science Board; and chair the Nuclear Weapons Council 
assisted by a structure of overarching integrated product teams that 
relate to the acquisition process.
    Question. Do you recommend any changes to the provisions of section 
133 of title 10, United States Code, with respect to the duties of the 
USD(AT&L)?
    Answer. No.
    Question. If confirmed, what duties and responsibilities would you 
plan to assign to the Deputy Under Secretary of Defense for Acquisition 
and Technology and the Deputy Under Secretary of Defense for Logistics?
    Answer. I would assign the Deputy Under Secretary of Defense for 
Acquisition and Technology as my principal assistant, and empower him/
her to act in my stead. He/she will also serve as my Principal Deputy 
Under Secretary of Defense for Acquisition, Technology, and Logistics. 
He/she would advise and assist me across the full range of my 
responsibilities in providing staff advice and assistance to the 
Secretary and Deputy Secretary of Defense, particularly with regard to 
overseeing policies and procedures governing the DOD Acquisition System 
and overseeing the development, implementation, and management of the 
Defense Procurement program.
    I would assign the Deputy Under Secretary of Defense for Logistics 
and Materiel Readiness (DUSD (L&MR)) as my principal advisor on 
logistics and materiel readiness, and as the principal logistics 
official within the senior management of the DOD. He/she would advise 
and assist me across the full range of my responsibilities in providing 
staff advice and assistance to the Secretary and Deputy Secretary of 
Defense. In this capacity, the DUSD (L&MR) would monitor and review all 
logistics, maintenance, materiel readiness, strategic mobility, and 
sustainment support programs.

                     MAJOR CHALLENGES AND PROBLEMS

    Question. In your view, what are the major challenges that will 
confront the USD(AT&L)?
    Answer. Those most important include, not only reaching my seven 
goals mentioned below, but also the following:

        <bullet> Providing the necessary supplies and force protection 
        equipment to our men and women in Iraq and around the world;
        <bullet> Matching limited resources with DOD's Joint Vision 
        (increasing acquisition program requirements and decreasing 
        financial resources);
        <bullet> Implementing a capability-based acquisition process;
        <bullet> Reducing acquisition cycle time;
        <bullet> Maintaining international cooperation;
        <bullet> Preparing for the upcoming BRAC;
        <bullet> Developing and accurately costing software and 
        integrating it into weapon systems;
        <bullet> Fielding missile defense;
        <bullet> Preserving intellectual capital (strategic workforce 
        planning coupled with knowledge transfer from our aging 
        workforce); and
        <bullet> Improving the logistics and business process with 
        commercial style productivity improvements.

    I am sure there will be others, but I am confident that the 
Department--working with Congress--will meet any and all future 
challenges to our national security.
    Question. Assuming you are confirmed, what plans do you have for 
addressing these challenges?
    Answer. I have developed a set of seven goals to address my major 
challenges and they are as follows:

        1. Acquisition Excellence with Integrity
        2. Logistics Integration and Efficiency
        3. Systems Integration and Engineering for Mission Success
        4. Technology Dominance
        5. Resources Rationalized
        6. Industrial Base Strengthened
        7. Motivated, Agile Workforce

              ACQUISITION, TECHNOLOGY, AND LOGISTICS GOALS

    Question. Secretary Aldridge established five goals to improve 
defense acquisition: (1) achieve credibility and effectiveness in the 
acquisition and logistics support process; (2) revitalize the quality 
and morale of the DOD AT&L workforce; (3) improve the health of the 
defense industrial base; (4) rationalize the weapon systems and 
infrastructure with defense strategy; and (5) initiate high leverage 
technologies to create the warfighting capabilities, systems, and 
strategies of the future.
    What progress has been made toward achieving these goals?
    Answer. The Department has made significant progress towards 
achieving the five goals set by Secretary Aldridge.
    Goal 1: To achieve credibility and effectiveness in the acquisition 
and logistics support process, we have made several significant 
changes. We have revitalized the Defense Acquisition Board, replacing 
the assistant secretaries for acquisition from each military department 
with the secretaries themselves. This change better reflects the 
breadth of issues we face in acquisition matters. It has brought some 
welcome stability to many programs, while reducing the decision time. 
It brings to bear all the resources of each military department. We 
have mandated evolutionary acquisition as DOD's preferred strategy for 
acquiring weapons and information systems. This is enabling us to field 
capable equipment more rapidly and at lower cost and less risk. We are 
also demanding that all of our major weapon system programs be properly 
priced and fully funded. These programs are being budgeted to realistic 
cost estimates as developed--in most cases--by the DOD Cost Analysis 
Improvement Group (CAIG). Consequently, while many of the Goal #1 
acquisition metrics (e.g., ``Annual Rate of Acquisition Cost Growth'' 
and ``Development Acquisition Cycle Time'') have not yet shown 
favorable trends, they are expected to in the near future. These 
revised program costs and schedules will provide a more realistic 
baseline from which future changes will be measured. Realistic funding 
and scheduling will reduce the persistent cost and schedule growths of 
the past and improve DOD's overall credibility.
    We also continue to make progress in the transformation of defense 
logistics. Working with the Services, the United States Transportation 
Command, the United States Joint Forces Command, and the Defense 
Logistics Agency, we have been developing a Logistic Enterprise 
Architecture that will provide knowledge-enabled logistics. As a part 
of this work, we have completed a comprehensive review of all logistics 
enterprise systems and ensured compliance of the logistics domain with 
the Business Modernization Enterprise Architecture (BMEA) effort. We 
also made changes in the following key areas. In the enterprise 
integration area, we have eliminated over 400 legacy systems. In the 
weapon system area, we implemented performance-based agreements on 60 
weapons programs including the C-17 and the M1A1. In the maintenance 
area, we have forged over 100 Government/industry partnerships at our 
principal depot maintenance facilities in order to combine Government 
strengths in maintenance and tactical operations with industry's 
strengths in engineering and supply chain management. In the 
distribution business area, we implemented dramatic revisions to the 
material management and distribution regulations to exploit best 
business practices in our end-to-end services for the warfighter.
    Goal 2: To revitalize the quality and morale of the DOD AT&L 
workforce, we have taken several initiatives. We have continued the 
Civilian Acquisition Personnel Demonstration Project (AcqDemo) and have 
consolidated and dramatically improved our acquisition education. Since 
it was first implemented in January 1999, the AcqDemo has grown to 
approximately 8,000 participants. It remains the only active 
demonstration project that crosses component lines and the authority 
for the project was extended by last years National Defense 
Authorization Act to run through September 2012. Both this and our 
efforts in education are vital if we are to exercise the innovative and 
progressive management of our own technology and systems development 
efforts.
    Additionally, we are attempting to broaden the quality and 
expertise of the workforce by recruiting from a much larger pool of 
people. We are exploring and pursuing various employment avenues to 
bring the experience, expertise, and best practices that personnel from 
private industry, colleges, laboratories, and other sources may bring 
to the defense acquisition workplace. Casting the net both inside and 
outside the Federal Government will help bring into the Defense 
Acquisition Workplace the new experiences and best practices that 
personnel from private industry and elsewhere have to offer. With these 
efforts and others, we have measured our progress by looking at five 
metrics. We achieved progress on all five measures--morale, as measured 
by a survey of the workforce, has remained above 75 percent in two 
perspectives, current job satisfaction and anticipation of future job 
satisfaction. The quality of our existing workforce continues to exceed 
our goal, with 86 percent of our personnel being certified at or above 
the level required for their position.
    Goal 3: To improve the health of the defense industrial base, we 
have taken several important steps. We are monitoring the financial 
viability of the aerospace-defense industry, encouraging and monitoring 
technology investments, enhancing competition, and encouraging 
increased efficiency. We are encouraging major defense firms to invest 
at least 2.7 percent of sales in Independent Research and Development 
(IR&D) by the end of 2005. IR&D spending as a percentage of sales 
dropped during 2002 from 1.89 percent to 1.77 percent--a negative trend 
that should reverse as the projected DOD budget increases materialize. 
To increase innovation and competition, the Department is encouraging 
non-traditional suppliers to enter the defense marketplace. The 
Department's goal was to increase the entry of new corporate segments 
doing business with DOD by 5 percent in fiscal year 2001 and 10 percent 
in fiscal year 2002. In fiscal year 2001, the actual increase was 8.6 
percent; in fiscal year 2002 it was 12.0 percent. Also to increase 
competition, the Department seeks to enhance the ability of U.S. 
defense firms to compete in the international marketplace by improving 
DOD's export license review times. Through March 2003, the Department 
had improved its average review time to about 19 days. To encourage 
increased efficiency, the Department added a new cost efficiency factor 
to its profit policy to reward contractors for reducing costs. Initial 
data collection to measure the effectiveness of this policy change will 
be complete by the end of the year. These efforts, along with increased 
defense budgets, and in spite of a stagnant overall U.S. economy, 
appear to be paying off. The aerospace-defense sector generally is 
either outperforming or keeping pace with the S&P 500 index firms as 
measured by several key indicators: stock price, return on invested 
capital, debt service capacity, and price-to-earnings ratio.
    Goal 4: In rationalizing the weapon systems and infrastructure with 
defense strategy, we have made significant progress. We have rewritten 
and streamlined the DOD 5000 series, the Directives guiding the Defense 
Acquisition System, and coupled it with the Joint Capabilities 
Integration and Development System (JCIDS). This process union between 
the acquisition community and the Joint Staff is a huge step forward in 
the Department's effort to transform. This coupling should make 
capabilities-based acquisition much more efficient and consistent with 
our Defense Strategy. We have also put the decisionmaking structure for 
the next BRAC in place to make the hard infrastructure choices inherent 
in that difficult, but important process. The Department's 
transformation effort clearly focuses on this rationalization. With it 
and with the writing of the next Defense Planning Guidance, we will 
continue to converge towards this important goal.
    Goal 5: To initiate high leverage technologies to create the 
warfighting capabilities, systems and strategies of the future, we have 
taken several significant actions. Most noteworthy has been the 
Department's increased investment in science and technology (S&T). The 
Secretary set the goal of having S&T comprise 3 percent of the DOD 
budget. While the Department has not yet reached the 3 percent goal, 
the overall DOD S&T investment has increased by approximately 30 
percent over the last 2 years.
    Over the same time period, the Defense Advanced Research Projects 
Agency (DARPA) budget request for S&T increased by approximately 50 
percent and our request for the Advanced Concept Technology 
Demonstration (ACTD) program increased by almost 80 percent. The 
majority of high-risk, high-payoff DOD S&T activity is conducted by 
DARPA. To support achieving Goal #5, DARPA has been directed to 
continue focusing on high risk/high pay-off technologies; that are by 
their very nature high leverage transformational technologies. 
Approximately 90 percent of DARPA's $2.9 billion fiscal year 2004 
President's budget request is oriented toward these high leverage 
technologies.
    We have also implemented ``Technology Readiness Assessments'' to 
ensure that a program has achieved an appropriate level of technical 
maturity prior to initiation. We are exploiting the enormous potential 
of ACTDs. The ACTD program works with the warfighter to help transition 
these technologies through the development of advanced operational 
concepts and determining the military utility of the technology options 
via expanded prototyping and demonstrations.
    Question. What goals would you pursue for improving the defense 
acquisition system, if you are confirmed?
    Answer. Shortly after becoming the acting Under Secretary of 
Defense (ATL), I held an offsite with the staff to update the goals and 
align them with the President's Management Agenda and Secretary 
Rumsfeld's most recent guidance and initiatives. We thoughtfully 
considered the goals, objectives and initiatives of our senior 
leadership and as a result, recast the previous five into seven. These 
seven goals are specifically targeted to drive performance outcomes 
that will directly contribute to our joint warfighting strategy and the 
transformation of our DOD business processes. They are:

        1. Acquisition Excellence with Integrity
        2. Logistics Integrated and Efficiency
        3. Systems Integration and Engineering for Mission Success
        4. Technology Dominance
        5. Resources Rationalized
        6. Industrial Base Strengthened
        7. Motivated, Agile Workforce

    I see these goals continuing the progress we have made so far under 
this administration. If confirmed, I intend to continue with these 
goals and fully establish the objectives and metrics to measure future 
success.
    Question. Describe the approach and progress made by this 
administration in reducing cycle time for major acquisition programs.
    Answer. DOD has made considerable progress in implementing policy 
that will reduce cycle time and allow us to field capability rapidly 
and efficiently. Our new policies are streamlined and flexible, and 
based on an evolutionary or phased acquisition approach. That approach 
emphasizes maturing technology before we commit to major investment 
decisions, but also allows us to field some capability earlier. As a 
result, we are able to reduce program technical risk substantially, 
program technical risk can otherwise be a major contributor to lengthy 
cycle times. The new policies are in effect and we anticipate seeing 
the cycle time benefits in the next few years.
    Question. What specific steps has the Department of Defense taken 
to adapt incremental and phased acquisition approaches, such as spiral 
development?
    Answer. On May 12, 2003, Deputy Secretary of Defense Paul Wolfowitz 
issued new policies that identify evolutionary acquisition as the 
preferred strategy for satisfying operational needs; spiral development 
is the preferred process for executing such strategies. Our objective 
is to balance needs and available capability with resources. We must 
put capability into the hands of the warfighter as quickly as possible, 
while pursuing an acquisition strategy that will permit growth in 
capabilities over time.
    Question. How will the requirements process, budget process, and 
testing regime change to accommodate spiral development?
    Answer. The new policies were tailored to facilitate evolutionary 
acquisition. An evolutionary approach delivers capability in 
increments, recognizing, up front, the need for future capability 
improvements. Each increment supports time-phased capability needs that 
are matched with available technology and resources to facilitate rapid 
development. Each increment will be fully funded before development is 
initiated and will have a test and evaluation plan designed to evaluate 
the capabilities associated with that increment.
    Question. Would DOD's major acquisition programs be more successful 
if the Department were to follow the commercial model and mature its 
technologies with research and development funds before these 
technologies are incorporated into product development?
    Answer. The new DOD acquisition policies are very consistent with 
successful commercial models because they require technologies to be 
demonstrated in a relevant environment before a program is initiated. 
The new policies require formal assessments of technology readiness 
and, where there are indications that technology is not sufficiently 
mature, specify that alternative mature technologies be employed that 
achieve the required capability. This approach is consistent with the 
most successful commercial business practices, supports an evolutionary 
strategy, and facilitates less costly and time consuming systems 
development.
    Question. What steps would you take, if confirmed, to ensure that 
the key components and technologies to be incorporated into major 
acquisition programs meet the Department's technological maturity 
goals?
    Answer. DOD acquisition policy requires demonstration of key 
technologies in a relevant, and preferably, in an operational 
environment before a program is initiated. If confirmed, I will enforce 
and emphasize that policy because I believe it is fundamental to 
reducing technological risk and shortening cycle time.
    Question. The Department has established a separate set of 
regulations for the acquisition of space systems. These regulations do 
not appear to place the same emphasis on technological maturity as the 
regulations applicable to other programs.
    In your view, is the technological maturity of major technologies 
and components less important for space systems than for other major 
defense acquisition programs?
    Answer. No, in fact our recently approved Space Acquisition Policy 
requires an independent technology assessment sooner in the weapon 
system's life cycle than the model contained in the DOD 5000, which is 
used to guide the acquisition of non-space major defense acquisition 
programs. As stated in the Space Commission Report (to assess U.S. 
National Security Space Management and Organization pursuant to Fiscal 
Year 2000 National Defense Authorization Act), advancement of U.S. 
technological leadership in space is a fundamental tenet of our 
National security. Therefore, as you mention, the Department has taken 
several measures, including the formulation of a separate set of 
regulations to guide space acquisition programs. This policy 
acknowledges the importance of technology by mandating risk reduction 
planning and establishing technology readiness assessments at each 
milestone.
    Question. What steps do you believe that the Department should take 
to ensure that the development and production of space systems are not 
undermined by efforts to prematurely deploy technologies that are not 
yet ready?
    Answer. The Department's dependence on technology development, the 
pace at which this technology is increasing, and its vital role in our 
Nation's defense warrant a robust process to ensure we don't 
prematurely deploy technologies. In addition to the establishment of 
independent technology assessments, the new space acquisition policy 
implements an exhaustive ``peer review'' approach to support milestone 
decisions. These peer reviews provide in-depth scrutiny of program 
management techniques, including an assessment of the realism of 
program costs and program risks. Also, it is important to note that 
these are independent reviews, conducted by teams of individuals with 
recent acquisition, cost, or operational experience in space programs. 
We believe this approach will provide an early understanding of 
critical technologies and its associated maturity necessary to meet the 
critical communications and intelligence needs our space systems must 
deliver on-time with cutting edge technologies.
    Question. What role do you expect to play, if confirmed, in the 
oversight of the acquisition of space systems?
    Answer. In the Department's response to section 911 of the Bob 
Stump National Defense Authorization Act for Fiscal Year 2003 (Public 
Law 107-314) that requested the Secretary of Defense provide a detailed 
plan on how the Office of the Secretary of Defense shall provide 
oversight of acquisition for defense space programs, the need for a 
strong oversight role was highlighted since space represents a 
significant military capability given its criticality to maintain and 
improve the surveillance, communications, and situation awareness 
needed to support U.S. military forces. In my role as USD(AT&L), if 
confirmed, I will ensure a robust acquisition program oversight process 
remains in place to proactively identify and resolve execution 
problems. This will be accomplished by the oversight and analysis of 
funding, cost, schedule, performance, and other program status 
information to assess the program's progress toward achieving 
objectives set forth in their milestone reviews. This results-oriented 
management approach establishes effective controls by initially 
establishing program objectives at the milestone review and then 
monitoring progress toward achieving these objectives through review 
and analysis of oversight reporting information. It should also be 
noted that the OSD and Joint Staff oversight responsibilities 
prescribed by law, and further defined in DOD guidance, have not been 
changed by the Department's alignment of space responsibilities 
following the Space Commission Report highlighted earlier.
    Question. In recent years, Congress has enacted a number of 
legislative provisions designed to improve oversight of missile defense 
programs.
    What are your views of this legislation?
    Answer. The legislation passed as part of the fiscal year 2002 and 
2003 National Defense Authorization Acts gave the Department much 
greater flexibility in how we administer, manage, and fund the 
Ballistic Missile Defense System program and its component elements. 
The increased funding levels and ability to use fiscal year 2004 RDT&E 
funds for items that are not traditionally RDT&E-funded are allowing us 
to develop and test elements of the Ballistic Missile Defense System at 
a faster pace than under the standard approach. I would note, however, 
that the legislation designed to improve congressional oversight of 
missile defense programs has also increased substantially the quantity 
of reporting to Congress, which requires resources we believe would be 
better spent dedicated to fielding our initial ballistic missile 
defense capabilities. If confirmed, I plan to work with Congress to 
ensure we meet your oversight requirements while maintaining our 
increased pace in developing the Ballistic Missile Defense System and 
deployment of missile defense capabilities.
    Question. What role do you expect to play, if confirmed, in the 
oversight of the acquisition of missile defense systems?
    Answer. In January 2002, the Secretary of Defense approved a non-
standard approach to acquisition of ballistic missile defenses in order 
to speed development, while improving senior level oversight of that 
effort. Under that approach, the Missile Defense Agency has sole 
responsibility and authority for development; the Services have the 
bulk of the responsibility for procurement; and both are subject to 
acquisition oversight by the Under Secretary of Defense (Acquisition, 
Technology, and Logistics). I plan to use the Missile Defense Support 
Group to assist in that oversight. In December 2002, the President 
decided to begin deployment of missile defense capabilities. Since the 
President's decision, the Department of Defense has been preparing for 
that step, and we have identified areas where the non-standard approach 
to acquisition might be improved. If confirmed, I plan to revisit our 
current approach to acquiring ballistic missile defenses to ensure it 
effectively meets the Secretary's guidance and the President's 
direction.
    Question. Problems with computer software have caused significant 
delays and cost overruns in a number of major defense programs. Last 
year's National Defense Authorization Act required the secretary of 
each military service to establish a program to improve software 
acquisition processes. It also required the Under Secretary of Defense 
for Acquisition, Technology, and Logistics to prescribe uniform 
guidance for the services to use to establish these programs.
    What is the status of this effort and, if confirmed, how would you 
ensure that you know the status of the software components of major 
weapon systems in order to avoid additional problems in this area in 
the future?
    Answer. We have begun implementation of the Fiscal Year 2003 
National Defense Authorization Act section 804 legislation through 
policy, uniform guidance, and an oversight mechanism to track status. 
The revised Department of Defense Instruction 5000.1, states 
``Acquisitions of software intensive systems shall use process 
improvement and performance measures. Selection of sources shall 
include consideration of product maturity and past performance.'' In 
March 2003, the Department published a policy memorandum specifically 
related to section 804 that directs the military departments and 
selected defense agencies to establish software acquisition process 
improvement programs. This memorandum expanded the scope of section 804 
to provide added emphasis on a number of related acquisition processes 
and provided specific uniform guidance. It established improvement of 
the Department's capability to acquire all types of software-intensive 
systems as a Department-wide objective, and required the affected 
components to brief the Department's Software-Intensive Systems 
Steering Group, which reports to me, on the status of those programs. 
Each of the military departments and agencies has established their 
programs, and the Software-Intensive Systems Steering Group has 
overseen their progress. We have measured progress against the guidance 
provided and have created a forum for issue discussion, support, and 
resolution. This forms the mechanism by which we will ensure compliance 
with the legislation.
    Question. Do you believe that the Air Force realignment is 
consistent with the intent of Goldwater-Nichols acquisition realignment 
legislation?
    Answer. I believe the intent of the Air Force realignment that 
places three Program Executive Officers (PEOs) for product development 
closer to the programs they manage and provides them a greater span of 
control over the resources is consistent with Goldwater-Nichols and the 
Packard Commission recommendations. I have approved a waiver from the 
5000 requirements and asked for a report on the pros and cons. I am 
concerned about the span that these commanders (Aeronautical Systems 
Center, Electronic Systems Center, and Air Armament Center) will have, 
though I was also concerned that the best senior acquisition talent was 
not being employed in Acquisition Programs where the Air Force could 
use them. It will place Air Force PEOs closer to the programs they 
manage and ensure their skills are immediately available to the 
programs they supervise. I believe the change adds emphasis to our 
intent to have management in the place where it can be most effective 
and reinforces our commitment to short, clear command channels.
    Question. What steps would you take, if confirmed, to ensure that 
the Air Force's realignment of the acquisition structure does not 
result in returning to the problems that the Goldwater-Nichols changes 
were intended to address?
    Answer. The Air Force realignment will not undermine the intent of 
Goldwater-Nichols and I expect it will improve our ability to manage 
our acquisition programs. However, I intend to assess the results of 
the realignment and have directed the Air Force Service Acquisition 
Executive to provide a report to me in 2 years that specifically 
addresses PEO responsibilities. I believe the Goldwater-Nichols and 
Packard Commission recommendations were very helpful, but want to 
continue to explore how to best implement their intent.
    Question. Section 805 of the National Defense Authorization Act for 
Fiscal Year 2003 established performance goals for procuring services 
pursuant to multiple award contracts. What steps is the Department now 
taking to achieve these goals? In your view, are there any additional 
steps that the Department should be taking?
    Answer. We have issued guidance to the military departments and 
defense agencies concerning the use of performance-based requirements 
and competition when placing order under multiple award contracts. The 
Federal Acquisition Regulations have also been modified to reflect 
these requirements. We are also doing a spend analysis of all service 
requirements and have instituted a review process for all services. We 
will monitor the effects of these changes to ensure that they result in 
the established goals being met.
    Question. The Air Force recently announced a revamping of its 
contractor award fee system. Can you describe the status of this effort 
and whether Department-wide changes are necessary in this area?
    Answer. The Air Force's study on revising the contractor award fee 
process is not yet complete. Therefore, it would be premature at this 
time to make any conclusions about what impact their study may have on 
the policies of the Department. However, in this same general area, I 
have recently asked various organizations within AT&L to commence a 
study on industry profitability and to conduct a review of our profit 
policy.
    Question. What is the status of the Department's efforts to 
implement a management structure in compliance with the requirements of 
section 801?
    Answer. The Department has issued several policy directives to 
implement sections 801 (a) and (d). On May 31, 2002, the Under 
Secretary of Defense (Acquisition, Technology, and Logistics) issued a 
policy memorandum that set up a review structure and process for the 
acquisition of services. Each of the three military departments has 
developed a ``Management and Oversight of Acquisition of Services 
Process'' to provide a review structure for service acquisitions, as 
required by the memorandum. The military departments are implementing 
this infrastructure, which includes approval levels for services 
acquired through another agency's contract.
    The Department recently issued an interim rule to the Defense 
Federal Acquisition Regulation Supplement (DFARS) on October 1, 2003, 
establishing approval requirements for contracts and task orders for 
services. The interim rule requires certain approval to acquire 
services through the use of a DOD contract or task order that is not 
performance-based, or through any contract or task order that is 
awarded by an agency other than DOD. With respect to service 
acquisitions through a contract or task order awarded by an agency 
other than DOD on behalf of DOD, the rule requires approval in 
accordance with department or agency procedures. The results of these 
two policy directives have created stronger oversight and control over 
our acquisition of services.
    Question. When do you expect the implementation to be completed?
    Answer. The policies developed in response to section 801 were 
issued in May 2002. The military departments are implementing the 
infrastructure to support their approved management and oversight 
processes which include approval levels, etc. We will continue to 
strive for improvements in the acquisition of services increasing our 
efficiency and effectiveness.
    Question. What is the Department doing to better manage its 
services contracts?
    Answer. The Department is improving the management of our 
acquisition of services through the implementation of additional 
oversight, approval, and control measures as well as the development of 
enhanced spend analysis and strategic sourcing efforts. The policy 
directive in May 2002 and the interim DFARS rule published in October 
2003 established a management structure and process for the review and 
approval of these acquisitions. We continue our efforts to assess the 
viability of strategic sourcing initiatives for various service sectors 
and will implement changes as appropriate.
    Question. Does the Department plan to conduct a ``spend'' analysis, 
as recommended by GAO?
    Answer. The Department initiated a spend analysis covering the 
acquisition of services in February 2003. During the first phase we 
utilized available data from our acquisition databases to conduct a 
review of all DOD acquisition of services. The first phase was 
completed in September 2003, and we developed a listing of the top 
twenty commodity categories that we believe may offer potential 
efficiency increases. We are currently establishing commodity teams to 
further analyze in greater detail these commodity areas and develop 
strategic acquisition plans where possible. We expect to identify 
approximately five commodity areas where we will develop Department-
wide acquisition strategies during fiscal year 2004. We are also 
developing methods to enhance our data visibility and accuracy in order 
to facilitate this process for future analyses. We have followed 
commercial best practices as much as possible and will continue to 
monitor commercial trends in the conduct of strategic sourcing efforts. 
Additionally, we have regularly briefed GAO on the progress of our 
spend analysis.
    Question. Can you describe the status of DOD's review of the 
Defense Federal Acquisition Regulation Supplement?
    Answer. DFARS transformation has two important components: (1) 
reducing the regulation and making value-added changes; and (2) 
improving DOD's rulemaking process using technology to enhance 
efficiency and transparency.
    Effort on the first component was completed on May 2, 2003. We 
reviewed the DFARS to verify currency, accuracy, clarity, and value of 
all text, identified opportunities for improvement and reduction to 
DFARS requirements, and solicited ideas from Government, industry, and 
the general public through memoranda, press articles, and a DFARS 
transformation website. We developed 86 significant change proposals 
and over 700 other recommended DFARS changes.
    The Defense Acquisition Regulations Council opened 77 new DFARS 
cases to implement recommendations for improvements and reductions to 
DFARS text.
    Twenty-seven joint committees are drafting proposed DFARS changes 
for public comment. Four rules have been published, and publication of 
additional proposed changes is expected to begin in November 2003. The 
remaining proposals may result in up to 50 additional FAR and DFARS 
cases and several proposed legislative changes for fiscal year 2005.
    With respect to the second component, our technology plans involve 
issuing a request for proposals (RFP) for the Defense Acquisition 
Regulation Integrated System. We are seeking an integrated commercial 
off-the-shelf capability to eliminate paper processes, enhance world-
wide communication, deliberation, collaboration, and archiving within 
DOD's acquisition rulemaking system. Our plans include issuing the RFP 
in early calendar year 2004 and demonstrating an alternative solution 
by June 2004.

                          TEST AND EVALUATION

    Question. The Department has, on occasion, been criticized for 
failing to adequately test its major weapon systems before these 
systems are put into production.
    What are your views about the degree of independence needed by the 
Director of Operational Test and Evaluation in ensuring the success of 
the Department's acquisition programs?
    Answer. I believe that there is a very valid need for an 
independent assessment of the test and evaluation process as part of 
defense acquisition. Both of our offices would prefer that test 
problems be identified as early in the process as practicable. 
Therefore we are pushing to emphasize Developmental Test and Evaluation 
and measuring test readiness at decision points. I fully support the 
test communities' effort to shift their focus to providing as much 
information as possible (as early as possible) in order to identify 
operational deficiencies early in the developmental process. This new 
view of testing should enhance the effectiveness of the DOT&E.
    Question. What initiatives in this regard would you take, if 
confirmed?
    Answer. I would continue to work with the DOT&E to achieve 
continuous information gathering and decisionmaking processes in which 
operational testing and evaluation plays an even more critical role in 
forming good acquisition decisions. The T&E process must become as much 
a tool for early learning as a test for operational effectiveness and 
suitability--particularly as we continue to implement evolutionary and 
capability-based acquisition approaches.
    Question. The National Defense Authorization Act (NDAA) for Fiscal 
Year 2003 included several provisions to improve the management of DOD 
test and evaluation facilities.
    Can you outline what has been done to implement these provisions?
    Answer. My office is in the process of standing up DOD Test 
Resources Management Center (TRMC). A charter has been written and is 
in the final stages of coordination, and an interim staff is already in 
place. The DOD TRMC is being implemented with a permanent staffing 
level of approximately 25 Government personnel.
    Section 231 requires the TRMC to produce a biennial strategic plan 
that reflects the needs of DOD with respect to T&E facilities and 
resources. An initial plan has been prepared by the TRMC with the 
active participation of the DOT&E, military departments, defense 
agencies with T&E responsibilities, and other cognizant DOD offices. 
This first plan is in the final stages of review and will be submitted 
to Congress within the month. The plan provides a baseline for future 
TRMC strategic planning efforts. It outlines both an approach for 
developing future strategic plans and the scope of T&E infrastructure 
to be addressed. Overarching goals and objectives for TRMC oversight of 
DOD T&E facilities and resources are provided, and an initial set of 
modernization requirements is outlined.
    Question. Section 232 of the NDAA for Fiscal Year 2003 establishes 
the objective of ensuring that, by fiscal year 2006: (1) the 
institutional and overhead costs of the Major Range and Test Facility 
Base (MRTFB) are fully funded; and (2) the institutional customers of 
the MRTFB are charged only the direct costs of their testing 
activities.
    What steps has the Department taken to achieve these objectives?
    Answer. We have established a group with representatives from the 
components and the OSD staff, including the OSD accounting policy and 
budget experts, to determine the most appropriate definitions to use in 
establishing direction for the components to use in charging no more 
than direct costs for users at the MRTFB as directed by Congress. The 
group is expected to complete their work in early December and their 
definitions will be used by the Services to fully fund their MRTFB 
facilities for the fiscal year 2006 program to be submitted to OSD next 
summer.
    Question. Do you anticipate that the Department will fully meet the 
objectives by fiscal year 2006?
    Answer. Yes.
    Question. What steps do you believe the Department should take to 
ensure that milestone decision authorities do not field systems before 
system performance has been adequately demonstrated?
    Answer. DOD acquisition policy requires a system to be demonstrated 
in its intended environment before proceeding to low-rate production. 
Our policy is to limit low rate production to those articles necessary 
to assess the effectiveness and suitability of the system via 
operational test and evaluation. The specified Low-Rate Initial 
Production (LRIP) quantities are approved by the milestone decision 
authority (MDA) at the beginning of System Development and 
Demonstration and reported to Congress in the Selected Acquisition 
Report. Changes to the quantities would have to be justified by program 
conditions and, via internal DOD reporting procedures, brought to my 
attention when the proposed quantities exceed the MDA approved 
quantities. Consequently, I believe we have sufficient policy and 
procedural controls in place to prevent ``fielding'' of a capability 
prior to adequate demonstration.
    That having been said, we have been pressed to fulfill combatant 
commanders requests for rapid technology insertion, and have responded 
to those requests repeatedly in Operations Enduring Freedom and Iraqi 
Freedom. In the case of rapid technology insertion, we continue testing 
and accept user feedback. We find this process has caused greater 
interaction between developers and users that has resulted in shorter 
cycle times and more focused response. I see this as a disciplined 
application of the 5000 policy, but with the benefit of actual usage, 
prior to a larger fielding and service acceptance.
    Question. Do you support congressionally-mandated cuts to the 
acquisition workforce, and do you think further cuts are necessary?
    Answer. Reductions in the Defense Acquisition Workforce that are 
not driven by the Department's strategic planning and efficiency 
improvements have the potential for exposing the Department to 
significant risk. We are using our human capital strategic planning 
process to define the workforce we will need in the future and the 
actions that we need to take to get there. We have made a number of 
process improvements that allowed us to increase our productivity, and 
we are continuing to pursue acquisition excellence which will allow us 
to make further productivity gains. We will pursue with Congress 
additional actions to reduce reporting, promote personnel flexibility, 
and close unneeded bases, all of which will allow us to make further 
workforce reductions. But I do not in any way support legislated 
reductions that are not carefully synchronized with DOD's management 
streamlining efforts and are not supported by our human capital 
strategic planning.
    Question. Please give your assessment of the strengths and 
weaknesses of DOD's implementation to date of DAWIA.
    Answer. Overall, DAWIA has been good for the Department of Defense, 
and today we have one of the most professional workforces in the 
Federal Government. We have methods for credentialing our personnel and 
molding a professional workforce. In fact, we receive many requests for 
program information from other Government agencies wishing to pattern 
their programs on our success. However, given the passage of time and 
the current statutory structure for the defense acquisition, 
technology, and logistics workforce, changes are necessary. Some 
portions of the original act have limited the Department's flexibility 
in achieving the act's purpose. Also, the extreme detail in the act, 
necessary at the time of enactment, no longer is needed. The Department 
needs authority to structure the acquisition, technology, and logistics 
workforce program by regulation so the Secretary could change 
structural details as needed to continue to meet the policy objectives 
(e.g., adding career fields, adjusting certification qualifications, 
changing the way training is delivered, etc.) without needing future 
legislation. I appreciate the support the Senate has given in 
supporting DAWIA restructuring in S-1050.
    Question. Does DOD's acquisition workforce possess the quality and 
training needed to adapt to new acquisition reforms, as well as to the 
increased workload and responsibility for managing privatization 
efforts?
    Answer. This is an area of special concern for me and one that I am 
also working very hard. In the dynamic defense acquisition environment, 
our people are challenged with managing an increased workload with a 
reduced workforce. Consequently, it is very important that the current 
acquisition workforce have the necessary training and experience to 
implement new acquisition policies, as well as manage the Department's 
privatization efforts.
    Through the Defense Acquisition University (DAU) and its 
Performance Learning Model (PLM), the workforce has convenient and 
economical access to learning products 24 hours a day, 7 days a week--
the concept of anytime, anywhere learning. Whether through distributed 
learning with web-based courses and continuous learning modules, rapid 
deployment training on the latest acquisition initiatives and best 
practices, or access to acquisition resources with the new AT&L 
Knowledge Sharing System, DAU is providing the DOD AT&L workforce with 
a more flexible, responsive, and agile learning environment.
    In addition to formal training on privatization that DAU already 
provides, I have tasked DAU to develop a web-based privatization 
resource center. DAU has also fielded continuous learning modules that 
teach the workforce market research and performance work statement 
development skills. DAU's communities of practice provide interactive 
discussion areas so that field practitioners can share lessons learned. 
I believe that these learning assets will allow DOD personnel to better 
understand the latest guidance and techniques so they can do a more 
effective job of implementing and managing privatization efforts.
    If confirmed, I will continue expanding our rapid deployment 
training for these acquisition initiatives. I will also continue to 
enhance our web-based program for continuous learning and emphasize the 
deployment of best available workplace learning practices to accelerate 
acquisition and logistics excellence and enable more cross functional 
training.
    Question. What are your views regarding assertions that the 
acquisition workforce is losing its technical and management expertise 
and is beginning to rely too much on support contractors, FFRDCs, and, 
in some cases, prime contractors for this expertise?
    Answer. The DOD AT&L workforce is a critical resource which 
requires unique education, training, and experience in order to perform 
acquisition functions. Acquisition personnel perform highly technical 
and specialized work in areas such as engineering, contracting, and 
logistics--skills highly sought after in the private sector. However, a 
decade of downsizing has left DOD with a workforce that is not properly 
shaped for the future. We have reacted to workforce skill gaps in the 
past by contracting for support in order to minimize impact to our 
mission, while maintaining in-house expertise. In response to the 
pending retirement wave, we have begun to more aggressively manage the 
AT&L workforce through human capital strategic planning (to identify 
future skill gaps) and a marketing and recruiting campaign targeted at 
securing those skills.
    Question. What are your views on the current role and 
responsibilities of the lead system integrator?
    Answer. It is important to remember that a lead system integrator 
is no more, and certainly no less, than a prime contractor. The LSI is 
still charged with the responsibility of managing all aspects of the 
contract--technical, financial, subcontractors, etc. The use of the LSI 
term serves to emphasize the increasingly complex integration of prime 
and subcontractor efforts required to meet requirements, but should not 
be taken as a diminution of the other responsibilities of a prime 
contractor. It is important to remember that these responsibilities are 
for the execution of contacts awarded for execution of a program. 
Overall responsibility and accountability for the entire program 
remains with the Government Program Manager.
    Question. How would you define the line between those acquisition 
responsibilities that are inherently governmental and those that may be 
performed by contractors?
    Answer. The primary responsibilities required of the prime 
contractor have to do, for the most part, with performance of the 
contract. This includes such things as design decisions, resource 
allocation, and subcontractor selections. Once the prime contractor is 
named, the Government's ongoing formal responsibilities focus on 
adherence to requirements, and appropriate flow-down to design, funding 
oversight performance, and issues that may require contract 
modifications--requirement changes, schedule adjustments, etc.
    However, the roles of the prime contractor and Government are 
really quite intertwined in execution. Through the use of Integrated 
Product Teams (IPTs) and sharing of real time contractor information, 
performance decisions are open to wide discussion before they are put 
in place.
    An example of this is subcontractor selection. The prime has the 
right to choose the vendors necessary to execute the contract, since 
the prime has overall responsibility for meeting the requirement. But, 
on occasion the Government gets more involved in the selection process, 
and it may reserve the right to grant final approval for the prime's 
selections.
    Question. If confirmed, what steps would you take to ensure that 
contracting mechanisms which maintain adequate safeguards are in place 
to ensure that lead system integrator access to sensitive and 
proprietary information is not compromised?
    Answer. As mentioned, an LSI is a prime contractor, subject to the 
same contracting mechanisms governing access to sensitive and 
proprietary information as any other Government contractor.
    Question. What specific steps have--or will--the Department take to 
monitor the progress of the key technologies for the Future Combat 
Systems?
    Answer. The Department is engaged with Army leadership in the 
identification of key technologies critical to the success of the 
Future Combat Systems (FCS). The Army identified thirty-one critical 
technologies as part of the FCS Increment One definition; they were 
corroborated by an Army-sponsored independent technical review team and 
discussed with the Department during the Defense Acquisition Board 
reviews prior to the FCS Milestone B decision.
    In addition to the Army's review, I chartered an independent review 
of the command, control, communications, computers, intelligence, 
surveillance, and reconnaissance (C\4\ISR) element of FCS, including 
the key technologies associated with the network. My staff led the 
review. It involved participation by other OSD staff offices, the 
military departments, and selected defense agencies. The review looked 
at FCS in the context of the FCS Family of Systems, the Army's future 
force structure, and the joint force, as well as how the program fits 
within the scope of the Global Information Grid. This multi-service/OSD 
participation on departmental issues impacting the FCS network provided 
a level of insight that would not have been otherwise possible. The 
review identified a number of findings associated with the network 
which, when resolved and implemented, will significantly improve FCS's 
ability to provide a joint capability. The Army and OSD are making 
significant progress resolving and implementing the findings. The 
results of the review were taken into consideration as part of the 
Defense Acquisition Board Milestone B decision.
    The Acquisition Decision Memorandum (ADM) requires the Army to 
establish a Critical Technology Risk Mitigation Working-level 
Integrated Product Team (WIPT) within 90 days of the Milestone B 
decision. The WIPT is online with functional representatives from the 
Department fully integrated.
    The ADM required the Army to submit updated Critical Technology 
Risk Mitigation Plans within 120 days of the Milestone decision. Since 
May 2003, the Department has worked aggressively with the Army and 
developed Risk Mitigation plans for each critical technology.
    The Army is in the process of establishing Technology Transition 
Agreements (TTA) between the FCS Program Manager and the DOD S&T 
community. The Army has provided ``Draft'' TTAs to the Department for 
review and is expected to provide final TTAs for Department approval by 
November 15, 2003.
    Question. What policies are in place to ensure that the lead 
systems integrators do not misuse sensitive and proprietary information 
owned by other contractors and do not unnecessarily limit competition 
in a manner that would disadvantage the Government?
    Answer. The use and protection of subcontractor information is 
governed by both the contract itself and the subcontract arrangements 
between the prime and the vendor. In this way, the Government can 
intervene through the contract terms if necessary, and the vendor can 
act on its own behalf, if necessary, to protect its rights.
    Question. Based on operations in Afghanistan and Iraq, what 
changes, if any, need to be made to the Defense Logistics Agency's use 
of prime vendor agreements, virtual prime vendor agreements, and direct 
vendor delivery in order to streamline the Department's logistics 
systems for commercial items such as medical supplies, clothing and 
subsistence, and common hardware items?
    Answer. This issue has been studied and independently addressed--
for example, the Combat Support Agency Review Team (CSART) report done 
by the Logistics Management Institute showed that the commercial base 
of suppliers for medical materiel responded superbly. However, there 
are some ``disconnects'' in the process. For example, transportation 
and ``in transit visibility'' remain challenges beyond the theater 
distribution center ``last tactical mile''--but perhaps the most 
important single finding--and this applies across all commodities--is 
that advance requirements planning from the customers of the process 
has to be much better. DLA can move materiel from employment to 
deployment in a matter of days--but if the requirements development and 
planning process is flawed, the challenge becomes exponentially 
greater. Overall, though, the commercial logistics support has been 
exceptional and one of the success stories of the entire theater of 
operations.
    Based on some of the lessons we've learned:

        <bullet> We are developing prime vendor type contract(s) to 
        provide maintenance, repair and operations (MRO) supplies to 
        support facilities maintenance requirements for South West 
        Asia.
        <bullet> DLA is working an extensive effort to review the 
        Agency's Direct Vendor Delivery (DVD) contracts for compliance 
        with Uniform Materiel Movement and Issue Priority System 
        (UMMIPS)/Time-Definite Delivery (TDD) standards.
        <bullet> DLA has directed actions to ensure DVD outside 
        continental U.S. shipments meet requirements of the Defense 
        Transportation System (DTS) when those commercial shipments 
        have to be diverted through DTS entry points.
        <bullet> DLA is also working to improve requisition visibility 
        to its customers by implementing Total Asset Visibility (TAV) 
        across the enterprise. In-transit visibility is part of TAV, 
        provides information needed to respond more readily and 
        accurately to customer demands, and is an essential ingredient 
        to increasing the efficiency and effectiveness of 
        transportation resources. The Agency's policy is that DVD 
        arrangements will fully support asset visibility objectives and 
        initiatives.

                <bullet> DLA is implementing the Distribution Planning 
                and Management System (DPMS) to simplify vendor 
                compliance with this requirement.
                <bullet> DLA is requiring vendors to adhere to military 
                standard documentation and marking in accordance with 
                MIL-STD-129, to include, but not limited to military 
                shipping labels and barcoding, and has issued 
                procedures for providing line-item shipment data via 
                radio frequency identification tags, electronic 
                transmission, or telephone calls to support visibility 
                requirements into the United States Central Command 
                area of responsibility.

    Question. Should the Department continue to rely on commercial 
practices that rely increasingly on the private sector to meet the 
Department's logistics needs, or are there risks inherent in this 
approach that need to be mitigated?
    Answer. There are risks in all supply chains, whether 100 percent 
organic or increasingly sourced from the private sector. As we continue 
to evolve to increased reliance on the private sector, the Department 
is addressing issues such as backup supply sources, alternative methods 
of transportation, propositioned stocks, and safety levels.
    The Department remains committed to adopting best practices in 
order to provide flexible, reliable, rapid, and effective logistics 
support to the warfighter. These best practices may be found in the 
commercial sector, the Government sector, or they may leverage the best 
of both.
    For example, in support of OIF, we deployed the most sophisticated 
Radio Frequency Identification (RFID) system in the world. This system 
made extensive use of commercial technology applied to a military 
environment. Whether or not RFID is a ``commercial practice'' or a 
``defense practice,'' it is a best practice. Commercial off-the-shelf 
(COTS) software is another area where DOD can continue to modernize by 
adopting best practice and proven technology in the supply chain. There 
is no need to reinvent the wheel. We can adopt commercial practice and 
commercial technology and refine it to meet our needs. All components 
are aggressively pursuing initiatives that incorporate COTS technology 
in the military logistics space.
    Performance Based Logistics has also leveraged commercial 
capabilities to deliver superior support to our Warfighters. The F18E/F 
Super Hornet delivered better than 92 percent operational availability 
during the combat phase of OIF. JSTARS had a 100 percent MC rate during 
Operation Enduring Freedom. These are but two examples that show how 
weapons systems performance can be improved through the integration of 
best practice into our logistics function, and how commercial 
capabilities make a difference. We know that commercial ports and 
freight carriers are doing a superb job moving material to the theater, 
and there are notable successes in the theater, including warehousing 
and transportation. At the same time, we must be cognizant of the 
challenges and risks associated with the fundamental transformation we 
are making within the Department, and we must use this knowledge to 
improve . . . to enhance . . . to create the world-class logistics 
necessary to meet today's threats in the war against terrorism.
    There is no doubt that we face challenges by relying on commercial 
resources to provide logistics support in-theater, in Afghanistan, and 
in Iraq. We need to explore the issue of force protection for 
commercial contractors in the battlespace, and make adjustments as 
required. We must define our core missions in logistics, and ensure 
that we have a plan to fulfill them. We must assess our reliance on 
contractors for basic functions like transport and storage in support 
of the battlespace, for these private sector resources may not be 
available whenever and wherever we may have to fight. Clearly there are 
risks to be managed, but we must not forget the greatest risk of all. 
We must not create risk by failing to transform, by failing to learn 
how to deliver 21st century warfighting capability. We must apply best 
practice, whatever the source. Our greatest risk occurs not when we 
apply best practices, but when we fail to properly apply best 
practices.

                               LOGISTICS

    Question. In your view, how successful has the Future Logistics 
Enterprise (FLE) been in streamlining DOD's logistics policies and 
practices, and on what criteria do you make this assessment?
    Answer. The success of FLE in streamlining DOD's logistics policies 
and practices has been evident in the logistics support provided during 
the Operation Iraqi Freedom. Criteria supporting this assessment are 
many: the Department moved a ground force farther and faster than 
anyone had ever done in history--300 miles in 22 days. DOD moved 15 
million square feet of cargo in 60 days, using 100,000 containers that 
would stretch 379 miles. The effort involved more than 6,000 railcars, 
157 vessels, 108,000 truck shipments, and the third largest airlift in 
history. Even today, we have 2,500 trucks on the road every day between 
Kuwait and Iraq, carrying--among other things--1.5 million liters of 
water and more than 300,000 Meals Ready-to-Eat a day.
    Question. What additional steps, if any, remain to be taken to 
improve logistics support to the warfighters, and how will the Office 
of Force Transformation's work on logistics inform your policy 
decisions on logistics matters?
    Answer. The second phase or implementation phase of FLE is called 
Force-centric Logistics Enterprise. We've accelerated efforts to bring 
on additional capability. Additional steps include:

        <bullet> Improved weapon system support through performance-
        based logistics and collaboration with industry;
        <bullet> Examination of mission capability improvements, and 
        working with TRANSCOM, to look at end-to-end distribution 
        performance; and
        <bullet> Evaluation of how information--knowledge gained from 
        new integrated systems and tools--provides better situational 
        awareness.

    The FLE has leveraged ``network centric'' and ``knowledge-enabled'' 
logistics to support the global war on terrorism (GWOT). The GWOT 
requires fundamentally different supporting structures built on tightly 
knit collaboration and real-time information--i.e. those that are 
``network centric''. One aspect that we are looking at closely is 
``sense and respond logistics''. In logistics, ``network centric'' 
means using information technology to ensure efficiency, stability, and 
predictability. Knowledge-enabled logistics make it possible to get the 
right item, in the right place, at the right time.
    Additionally, in September the Secretary of Defense established a 
Defense Logistics Executive (DLE). This will be an additional 
responsibility of the Under Secretary for AT&L. The DLE will have 
overall responsibility for integrating the global supply chain. The 
consolidation of authority under one process owner is aimed at 
realizing logistics efficiencies by:

        <bullet> Eliminating existing seams between current 
        distribution processes and standardize the policies, vision and 
        performance goals in DOD's supply chain.
        <bullet> Driving interoperable information technology solutions 
        and enhance total asset visibility to distribution customers.
        <bullet> Institutionalizing sustainment planning into our 
        contingency processes.
        <bullet> Streamlining distribution accountability under a 
        single combatant commander (provide one single accountable 
        person for the combatant commander to contact for their 
        distribution needs).

                          COMPETITIVE SOURCING

    Question. Over the past several years, DOD has increased its 
reliance on the private sector to perform certain activities, including 
equipment maintenance and facility operations. Some have supported this 
effort while others have expressed concern that core activities are 
being jeopardized by reducing our reliance on military personnel and 
civilian employees of the Federal Government.
    Answer. The Department utilizes the process of competitive sourcing 
only when it makes military and economic sense to do so. Competition is 
a driving force within the American economy, causing organizations to 
improve quality, reduce cost, and provide rapid delivery of better 
products and services. It is essential that we continue to utilize the 
process to obtain work that is clearly identified as a commercial 
function, so that we may improve support to the warfighter and increase 
readiness efficiently.
    Question. Do you believe that public-private competition results in 
significant savings to the Department? If so, please explain how.
    Answer. Yes, competition has produced significant savings for DOD. 
A review of the DOD Commercial Activities Management Information System 
indicates that our competitions, from fiscal year 1995 to the present, 
will produce an estimated savings of nearly $8 billion through the 
period of performance, regardless of whether the Government workforce 
or a source in the private sector won the competition. Other 
independent evaluators, including RAND, GAO, and the Center for Naval 
Analysis, have consistently found that public-private competitions 
generate real and substantial savings no matter which source prevails.
    Question. What impact will the recent changes to OMB Circular A-76 
have on the Department's plan for public-private competitions?
    Answer. The recent changes to the OMB Circular A-76 will provide a 
fresh start for all participants in the competitive process, including 
the Department, employees and Federal labor unions, and the commercial 
sector. The new process incorporates provisions of the Federal 
Acquisition Regulation (FAR), and provides for robust and fair public-
private competitions. With the transition to the new process, the 
Department is taking measured steps to ensure that all planners and 
decisionmakers involved are adequately trained to carry out their new 
duties involving significant changes from the old process.
    Question. Are there other effective alternatives that would achieve 
the benefits of public-private competition?
    Answer. The Department continues to consider alternatives, 
including privatization, divestiture, and public-private partnerships. 
Although such alternatives are capable of achieving savings, I believe 
that in order for the taxpayers to receive the best value for their 
investments, the alternative methods should promote competition.
    Question. The GAO Commercial Activities Panel recommended allowing 
comparable appeal rights to both parties in public-private competition.
    Do you agree that the public and private sectors should receive 
comparable treatment in the bid protest process?
    Answer. I agree. I believe that the procedures in the revised 
circular provide sufficient recourse to Federal agencies for all 
parties affected by performance decisions. The GAO's jurisdiction, 
under the Competition in Contracting Act, to review bid protests by 
Federal employees, is a matter for the GAO to determine.

                      INFORMATION TECHNOLOGY (IT)

    Question. There appears to be potential overlap between the 
responsibilities of the USD(AT&L) and the DOD Chief Information Officer 
(CIO) (currently the Assistant Secretary of Defense for Networks and 
Information Integration (ASD(NII)) with regard to information 
technology acquisition, particularly with embedded information 
technologies in weapon systems.
    If confirmed, how do you anticipate sharing responsibilities with 
the DOD CIO to ensure effective acquisition of information technology?
    Answer. The ASD(NII) and the USD(AT&L) work very closely on 
information technology acquisition matters, and I would expect that 
relationship to continue. For example, the DOD CIO is a member of the 
Defense Acquisition Board (DAB), which I will chair if confirmed. In 
addition, his Principal Director for Command, Control, Communications, 
Intelligence, Surveillance, and Reconnaissance (C\3\ISR); Space; and 
Information Technology Programs leads an Overarching Integrated Product 
Team that makes recommendations to the USD(AT&L) before such 
information technology acquisition programs are reviewed by the DAB. 
Our offices collaborate on a number of other important initiatives, 
including the implementation of the Department's Software Acquisition 
Process Improvement Program and the Implementation of Management 
Initiative Directive 905 on Net-Centric Business Transformation and E-
Government. We have also worked as a team to streamline and rationalize 
the Clinger-Cohen certification process, which is reflected in the 
recently streamlined 5000 Defense Acquisition System series.
    Question. What is your assessment of the Department's ability to 
rapidly assimilate commercial information technologies?
    Answer. The Department has improved greatly in its ability to 
assimilate commercial information technologies. Many of the largest 
programs in our business domains are implementing or considering the 
use of COTS Enterprise Solutions. To make sure such solutions are 
successful, we are working with the Office of the DOD CIO on a 
streamlined process for acquiring COTS Enterprise Solutions based on 
industry best practices. For example, a COTS IT and National Security 
System (NSS) Software Action Plan, signed by the ASD(NII), provides a 
set of initiatives designed to increase the use of COTS across the 
Department. We are working with the Office of the ASD(NII) on this 
effort. The Enterprise Software Initiative (ESI) Program, started in 
1998 under the DOD CIO, offers today a suite of commercial software, 
hardware, and service products under enterprise licenses, providing 
major discounts to its customers for a total cost avoidance of $1.3 
billion.
    Question. Is DOD's growing dependence on commercial information 
technologies a positive or negative development, in your judgment?
    Answer. Using commercial hardware and software reduces the costs 
and risks of building our own hardware and software for both the 
manager and the warfighter. Commercial products enable us to more 
rapidly deliver needed capabilities to our users and exploit commercial 
best practices. But we recognize and are addressing vigorously the 
inherent challenges of embedded malicious or foreign code and 
information assurance.
    Question. ``Buy America'' issues have been the source of 
considerable controversy in recent years. What benefits does the 
Department obtain from international participation in the defense 
industrial base and under what conditions, if any, would you consider 
it necessary to impose domestic source restrictions for a particular 
product?
    Answer. International sales, purchases, and licensed production are 
common forms of international defense cooperation. These transactions 
are important in that they contribute to operational interoperability 
and promote cost savings, two of the key goals of the armaments 
cooperation programs. These transactions are heavily regulated by most 
nations and are often politically sensitive because they involve both 
national security and public funding.
    Although most DOD equipment is from domestic sources, the DOD makes 
use of a worldwide supplier base. The DOD is somewhat constrained by 
laws and regulations that limit acquisition of certain non-U.S. 
products, such as the Buy American Act and annual Appropriations Act 
provisions that restrict certain procurements to U.S. sources. The DOD 
has agreements with many allies to facilitate defense trade. The aim of 
those agreements is rationalization of the defense equipment supplier 
base so as to achieve the greatest efficiency in equipping our 
collective forces. The agreements establish reciprocity in the 
treatment of vendors from the other country.
    Congress has encouraged acquisition of defense equipment from U.S. 
allies to avoid duplication of research and development effort. For 
example, the Foreign Comparative Testing program is funded by Congress 
and facilitates testing and acquisition of foreign-developed products 
when those non-developmental products can meet DOD requirements. This 
program has resulted in substantial cost-savings through avoidance of 
development programs.
    Foreign-developed products acquired by the DOD are often produced 
in the U.S. under license. Examples of such products are the 
Rhinemetall 120mm tank gun used on the M1A1 Main Battle Tank, the 
Beretta 9mm pistol, the AV-8B Harrier aircraft, the Mark 92 naval fire 
control radar, and the Oto Melara 76mm naval gun.
    In general, I believe that domestic source restrictions are 
counterproductive. However, in certain limited instances involving 
national security and the preservation of a key defense technology or 
production capability, domestic source restrictions may be necessary. I 
would encourage allied and friendly nations to impose national source 
restrictions only in similar limited circumstances.
    Question. There have been recent indications that the Department of 
Defense is backing away from decades of opposition to legislated 
domestic source restrictions. What is the rationale behind this 
apparent shift in DOD's policy?
    Answer. There is no change in DOD policy. Earlier this year we 
sought changes to such provisions to clarify and simplify their 
application. The House Defense Authorization Bill for Fiscal Year 2004 
contained a number of new domestic source restrictions. DOD opposes 
these provisions.
    Question. Given the outcry from our allies about ``Buy America'' 
protections, how will the Department manage the potential damage to 
defense cooperation with our allies, including such cooperative 
programs as the Joint Strike Fighter, as well as DOD's longstanding 
policy of encouraging allied interoperability?
    Answer. I support greater defense industrial cooperation. More 
cooperative endeavors such as teaming, joint ventures, and even mergers 
and acquisitions can produce beneficial synergies, efficient use of 
limited resources and healthy competition, so long as it occurs in a 
positive and constructive manner. One way to encourage more defense 
industrial cooperation is to ensure that the programs we pursue receive 
full support and are well-managed programs to the marketplace. The 
Joint Strike Fighter (JSF) is a prime example of this type of program. 
Some of the provisions of the original H.R. 1588 directly endangered 
the JSF program, but we do not expect these provisions to become law. 
``Buy America'' protections will lessen the desire of our allied and 
friendly foreign partners to cooperate in defense projects. This would 
adversely affect allied interoperability in the long-term, while 
driving up acquisition costs to the DOD and driving out competition.
    Question. If DOD were to support more protectionist policies, do 
you anticipate ``trade retaliation'' by our allies, including the 
possibility of our allies going elsewhere for their defense 
acquisitions?
    Answer. I do not support protectionist policies. To the extent that 
Congress enacts protectionist legislation, our allies' reaction will be 
uniformly negative. Many close allies have expressed concern to U.S. 
Government officials on the possibility of new legislation in this 
area. However, the extent of the impact on U.S. defense trade is 
unknown. While retaliation is certainly a possibility, we will do all 
that we can to encourage allies to make source selection decisions 
based on best value, including interoperability with U.S. Armed Forces. 
If protectionist legislation is enacted as it is currently written, the 
Department of Defense will sponsor a study to examine the impact of 
such legislation on U.S. defense trade.
    Question. Could such a development jeopardize our $30-50 billion 
annual trade surplus in aerospace products?
    Answer. If other countries are denied access to the DOD market, it 
is inevitable that they will not continue to grant U.S. companies 
unfettered access to their defense markets. This retaliation will occur 
across all product lines but is likely to be most pronounced in the 
aerospace sector because of our significant trade surplus in that 
sector.
    Question. If the U.S. were to lose this trade surplus, would DOD 
weapon systems costs rise?
    Answer. I would expect costs for both current and future U.S. 
programs would rise. For example, reduced foreign sales of JSF aircraft 
would raise the unit cost of the aircraft bought by the U.S., since we 
would lose the benefit of buying in larger numbers. Perhaps more 
importantly, our ability to enter into future cooperative defense 
relationships will likely be severely undermined.
    Question. We understand that the Department is considering an 
approach under which significant domestic source restrictions would be 
placed in legislation, subject to a case-by-case waiver by the 
Secretary of Defense. Has the Department estimated how many waivers 
would be necessary if such legislation were enacted? What burdens would 
such a case-by-case waiver approach place on the Department of Defense?
    Answer. I expect that an important aspect of the language regarding 
domestic preference will be a 2-year study to evaluate what items 
should be subject to further restriction. Once this study is complete, 
we will be better able to evaluate the workload associated with the 
waiver provisions.
    Question. Do you believe it is premature for Congress to enact 
additional domestic source restrictions without first thoroughly 
analyzing and studying the impact these restrictions could have on our 
trade and defense cooperative relationships and the U.S. defense 
industrial base? Specifically, should a Blue Ribbon Commission be 
formed to study these issues before Congress enacts any additional 
legislation in this area?
    Answer. While the Department of Defense would prefer no new 
protectionist legislation, a waiver provision would allow mitigation of 
the most direct consequences for DOD. However, the impact on trade and 
defense cooperative relationships may be indirect or subtle. The extent 
of the impact is currently unknown. If protectionist legislation is 
enacted as it is currently written, the Department of Defense will 
sponsor a study to examine the impact of such legislation on the U.S. 
defense trade. Given the uncertainty concerning the legislation impact 
on cost of defense industrial requirements, and international 
cooperation, a commission like study seems appropriate.

                      THE DEFENSE INDUSTRIAL BASE

    Question. What is your view of the current state of the U.S. 
defense industry?
    Answer. Generally the U.S. manufacturing sector that supports 
defense is healthy, innovative, and responsive. The financial health of 
the defense industrial base has improved; the aerospace-defense 
industry sector is generally either outperforming or keeping pace with 
the S&P 500 index firms as measured by key financial indicators. 
Increased defense funding associated with the protracted war against 
terrorism will likely negate any residual effects of the recession/
stagnation felt in other sectors of the economy. Additionally, the 
Department has been successful in efforts to encourage innovative, non-
traditional suppliers to compete for defense business.
    As the defense environment changes, we will continue to monitor 
challenges and trends within the defense industrial base and are 
prepared to take appropriate action to sustain industrial capabilities 
essential to defense, when required.
    Question. What impact, in your view, have offset requirements 
imposed by other countries had on the U.S. defense industry?
    Answer. I believe that offsets are economically inefficient and 
market distorting. However, I am aware of no instances in which offsets 
have negatively impacted our ability to meet national defense 
commitments.
    The Department of Commerce has been charged by Congress to evaluate 
annually the impact of offsets on defense preparedness, industrial 
competitiveness, and trade. In its latest report, dated July 31, 2003, 
the Department of Commerce noted almost all non-U.S. purchasers of U.S. 
defense systems require offsets as a condition of the sale; and that 
offsets have both a positive and negative impact on defense 
preparedness. Exports and the revenue generated by export sales are 
crucial to producers of U.S. defense systems and, by extension, U.S. 
foreign policy and economic interests. On the other hand, U.S. 
subcontractors can be displaced by foreign suppliers. On the whole, the 
latest Department of Commerce report indicates that jobs generated by 
export sales between 1993 and 2000, significantly exceed jobs lost 
through offsets (almost 42,000 workyears annually versus less than 
9,700 workyears annually). The net is very favorable.
    Question. What steps, if any, do you believe the Department should 
take to address any such impact?
    Answer. I believe that the United States should not act 
unilaterally or bilaterally on this issue. Using an interagency 
approach, the U.S. Government should encourage multilateral discussions 
with our trading partners to reduce or eliminate offsets. We need to be 
careful in our approach as the U.S. has been a net beneficiary in 
programs with offset requirements. The Department of Defense should 
have a prominent role in such discussions.
    Question. Over the last decade, numerous mergers and other business 
consolidations have substantially reduced the number of major defense 
contractors.
    Do you believe that consolidation in the defense sector has had an 
adverse impact on competition for defense contracts? If so, what steps 
should be taken to mitigate those effects?
    Answer. The number of active competitors in several defense markets 
has declined and, consequently, it has become more challenging to 
ensure effective competition in these sectors. Nevertheless, I believe 
that our active participation in merger and acquisition reviews with 
the anti-trust agencies has ensured that we continue to have sufficient 
competition in important defense areas.
    When required, we have taken steps to mitigate certain adverse 
effects of otherwise acceptable mergers and acquisitions, including 
requiring behavioral or structural remedies to preserve competition. 
For example, we permitted Northrop Grumman to buy TRW only after 
ensuring competitors a level playing field. When acting as a system 
prime contractor, Northrop Grumman must not favor in-house payloads 
over better value payloads from outside suppliers. Additionally, 
Northrop Grumman must offer its own payloads on a competitive basis to 
rival system prime contractors. Finally, we have worked with the anti-
trust agencies to block transactions when necessary to preserve 
competition.
    Question. Do you support further consolidation of the defense 
industry?
    Answer. I have no blanket policy of encouraging or discouraging 
further consolidation or divestiture. Each proposed transaction must be 
evaluated on a case-by-case basis in the context of the individual 
market, the changing dynamics of that market, and the need to preserve 
competition. Considerations include the need to promote innovation for 
technological advancement; to preserve price competition within mature 
industries; and to secure adequate supply sources.
    A consolidation from five suppliers to four in a product market 
raises fewer complex issues than a change from three to two. 
Accordingly, mergers in some market segments may raise competitive 
issues while mergers in other segments may not. Therefore, while our 
standards remain constant, prime contractor level mergers in a 
concentrated industry are more likely to raise competitive concerns 
than would be the case in an industry that is not so concentrated.
    Question. What is your position on foreign investment in the U.S. 
defense sector?
    Answer. In general, I favor foreign investment in the United 
States, whether for defense industries or non-defense industries, so 
long as the investment does not pose a threat to national security. 
Since foreign acquisitions of U.S. defense firms could directly affect 
both the reliability of suppliers and the transfer of technology under 
development in the Department, we need to oversee and continue to 
monitor developments in this area in order to protect our National 
security interests. The Department of Defense participates in an 
interagency review organization, the Committee on Foreign Investment in 
the United States, chaired by the Department of the Treasury, which is 
charged to identify and address concerns when foreign acquisition of 
U.S. firms poses credible threats to national security. Fortunately, 
when foreign acquisitions raise national security issues, we can apply 
several risk mitigation measures, such as requiring Outside Directors, 
Technology Control Plans, physical and organizational firewalls, 
visitation reporting policies, and partial divestitures. Thus we rarely 
have to recommend to the President that an acquisition be blocked in 
order to protect national security.
    Question. Do you believe that there should be greater cooperation, 
and perhaps even integration, between defense industries in Europe and 
the United States? If so, how can such cooperation be facilitated?
    Answer. International armaments cooperation, in its many forms, 
enhances interoperability, improves coalition warfighting, stretches 
tight U.S. defense budgets, and promotes competition across national 
markets. Accordingly, I favor industrial teaming, joint ventures, and 
international mergers and acquisitions with partner nation firms that 
are pro-competitive and do not compromise national security. I also 
support judicious use of Government-to-Government agreements to foster 
closer industrial linkages. Accordingly, we are entering into bilateral 
Declaration of Principles agreements with allies and friendly nations 
such as the U.K., Australia, the Netherlands, Spain, Italy, Norway, and 
Sweden. These agreements foster cooperation in key interest areas such 
as harmonization of military requirements, research and development, 
security of supply, sales and export procedures, security of 
information, ownership and corporate governance, technical information, 
and promoting defense trade. Finally, we also can encourage 
transatlantic cooperation by using Government-to-Government agreements 
to bring efficient, well-managed international programs to the 
marketplace. The Joint Strike Fighter is a good example of such a 
program.
    Question. What is your view of the adequacy of the tools and 
authorities available to DOD to ensure that its contractors are 
responsible and have a satisfactory record of integrity and business 
ethics?
    Answer. An offeror must be judged to be responsible before it may 
receive a Government contract. Having a satisfactory record of 
integrity and business ethics is one of the seven criteria that must be 
met before a contractor may be determined to be responsible. We have 
adequate tools necessary to ensure we deal with responsible entities in 
the defense industry.
    Throughout the contract period, the government will record how well 
the contractor performed and consider this information when awarding 
future contracts. We have made prohibited behavior clear to all 
involved. For example, the regulations explain how to evaluate 
violations of the Procurement Integrity Act, improper gratuities, 
kickbacks, and any activity that unfairly restricts competition. A 
range of corrective actions are permitted for differing circumstances. 
Our contractors understand what is expected of them, and we rely 
heavily on competition and corporate self-governance to ensure that all 
offerors observe acceptable standards of behavior.
    When ethics programs are not effective, violations, regardless of 
the size of the entity, may be resolved by criminal and civil penalties 
authorized in law, adjustment or cancellation of contracts, or 
suspension or debarment proceedings. We are permitted to consider which 
course of action best furthers the Government's interests and ensures 
that the needs of the Government are met.
    Regarding the issue of suspension and debarment, it must be 
stressed that these actions are not intended to punish contractors for 
wrongdoing. Punishment is the responsibility of the Department of 
Justice. DOD must protect its business interests to ensure it is 
dealing only with entities that are responsible and conduct themselves 
with integrity. We also feel it is in our interests to work with those 
entities that appear to be straying from expected practices generally 
by entering into administrative agreements in lieu of suspension or 
debarment and provide them with an opportunity to effect positive 
change. This will allow these contractors to conduct business in a 
transparent fashion and provide the goods and services needed to 
support the warfighter.

                             LEASING POLICY

    Question. Advocates of leasing capital equipment have argued that 
leases enable the Department to obtain new equipment without requiring 
significant upfront funding. Opponents of such leases have argued that 
this approach, without adequate justification, shifts to future 
leaders, today's budget problems.
    Question. What criteria would you use, if confirmed, in determining 
whether to support a major lease of capital equipment by the Department 
of Defense?
    Answer. In order to determine whether or not to support a major 
lease of capital equipment by the Department of Defense, I would put 
each lease proposal through a thorough review process conducted by the 
Leasing Review Panel. The Under Secretary of Defense (Acquisition, 
Technology, and Logistics) and the Under Secretary of Defense 
(Comptroller) serve as co-chairs of the panel, which includes 
representatives from Program Analysis and Evaluation (PA&E), the Office 
of General Counsel, and the Joint Chiefs of Staff, among others. The 
Leasing Review Panel will also consult with the Office of Management 
and Budget on each proposed lease. Each proposed lease would have to be 
considered on a case-by-case basis and all aspects of the lease 
agreement would be scrutinized, including the urgency of the need to 
the Department and the warfighter.
    Question. For the last two decades, the Department of Defense has 
been subject to statutory goals for contracting with small businesses 
and minority small businesses.
    Do you believe that these goals serve a valid and useful purpose in 
the Department of Defense contracting system?
    Answer. Yes, the overall small business goals serve a worthwhile 
purpose by focusing top DOD leadership attention on small business 
matters and serve as a stimulus for continuous improvement to the DOD 
Small Business Program. To achieve these goals, DOD fosters an 
acquisition environment that provides the maximum opportunity for small 
business to participate, both as prime contractors and as 
subcontractors. Small business participation in defense acquisition is 
vital to the Department of Defense. To maintain our worldwide military 
superiority, we must take full advantage of the talent and technology 
that resides within American Small Business.
    Question. DOD has a number of programs to improve small business 
participation in defense contracts. These include among others the so-
called ``rule of two'', which provides that if two or more small 
businesses are capable of performing a contract, competition will be 
limited to small business, the Section 8(a) program, and the DOD 
mentor-protege program.
    Question. In your judgment, how could the overall DOD small 
business program be improved to ensure that it is providing the right 
results for the Department in meeting its acquisition needs, and also 
by developing dynamic, entrepreneurial, small businesses that can 
compete in the global marketplace?
    Answer. One opportunity to improve the overall DOD small business 
program is to strengthen the mentor-protege program. DOD recently made 
advances toward improving this program by transitioning the execution 
of the program to the military services and defense agencies. This 
streamlines the process, resulting in an increase in agreements and the 
number of small businesses (proteges) receiving technical and business 
infrastructure training from DOD prime contractors (mentors). We are 
strengthening oversight of the mentor-protege program through the use 
of performance metrics that track cost, schedule, and performance.
    Another opportunity is to similarly strengthen the Small Business 
Innovation Research and Small Business Technology Transfer Programs. 
Under these programs, small entrepreneurial companies with the 
capability to fill a DOD technology need are awarded contracts. We are 
strengthening these programs to emphasize the future commercial 
application of their products. We have also upgraded the application 
process and we will continue to improve program oversight.
    In addition to strengthening these programs, we are refocusing our 
analysis capabilities to identify those industry categories where small 
businesses could be more successful. More importantly, we are 
attempting to identify those categories where small businesses might 
add value to the Department's future needs. With this capability we 
will be better equipped to assist small businesses with developing 
their future capabilities and with targeting their marketing efforts.
    Question. What is your view of contract ``bundling''?
    Answer. I remain concerned about contract ``bundling'' and 
specifically the effects that such a practice may have on the small 
businesses that have continuously supported the Department of Defense 
in meeting our mission requirements. The small business community has 
consistently provided high quality products and services in a timely 
manner that supports our military men and women; and they do so at fair 
and reasonable prices, which is also good for the taxpayer. These small 
businesses are a well-spring of innovation, flexibility, and 
competition that the Department can ill-afford to take for granted.
    I think it is important to note that the Department of Defense has 
issued five Department policy memorandums in regard to ``contract 
bundling''. The purpose of the memorandums is to sensitize our 
contracting community of the importance that small business brings to 
the Department of Defense. The memoranda challenge program executives, 
managers, and contracting personnel to continuously understand how 
``contract bundling'' impacts small businesses. If any requirements are 
``bundled,'' they must meet the statutory requirement that the bundle 
offers measurably substantial benefits to the Government and proves to 
be necessary and justified. It is our policy that when a ``bundled'' 
requirement is necessary and justified, the contracting office shall 
mitigate the effects on small business to the maximum extent 
practicable.
    Question. Do you believe that there is a value to having small 
businesses contract directly with the Federal Government, rather than 
being relegated to the role of subcontractors?
    Answer. I believe there is great value that small businesses have 
the opportunity to contract directly with the Federal Government. I 
also believe it is critical to the Department that we continue to 
support small business subcontracting opportunities. Small businesses 
bring innovation, flexibility, and necessary competition to our 
procurement process. Small businesses produce more patents and 
innovations per employee than large business. They are part of the 
solution in maintaining and expanding the defense industrial base and 
are key to meeting our future needs. The Department continues to build 
on the talents, capabilities, and capacities that the small business 
community brings to both our prime contracting and subcontracting 
tables.
    One of the reasons that I believe in maximizing small business 
subcontracting opportunities is that most of the small business prime 
contractors are introduced to the Department through the subcontracting 
program. It is noted that subcontracting remains the small business 
standard path to prime contracting opportunities.
    Question. What is your view of the appropriate degree of 
competition for contracts for the reconstruction of Iraq?
    Answer. I believe that we need to push for competition wherever 
possible on contracts for the reconstruction of Iraq. There are many 
U.S. firms that can perform the work and they need to be given the 
opportunity to contribute to the rebuilding of Iraq while affording the 
best value for the American public and the Iraqi people.
    Question. Do you believe that the Department should take steps to 
expedite the award of competitive contracts and minimize the use of 
sole-source contracts now in place?
    Answer. We are taking steps to expedite the award of competitive 
contracts. At the same time, we are working to use the existing sole 
source contracts for immediate needs only, and not for larger, longer 
term efforts.

                      CONTRACTOR LOGISTIC SUPPORT

    Question. More and more of the Department's maintenance and support 
functions are outsourced. These contractor logistics support agreements 
have resulted in the increased reliance on civilian contractors in 
combat areas.
    What are your views regarding contractors on the battlefield?
    Answer. The benefits and risks of contractor support are considered 
on a case-by-case basis. The challenge for commanders at the 
operational level is how to make the most effective use of contractors 
and to balance the increased capabilities brought by contractors with 
the added challenges. Commanders evaluate each function, define the 
acceptable level of risk, and balance the mix of military and 
contractor support accordingly. When using contractors, commanders do 
not necessarily face more risks, but they do face different risks. 
These benefits and risks must be placed in perspective, properly 
assessed, and dealt with. For example, use of contractors may actually 
reduce operational risk because the contractors represent capabilities, 
or increments thereof, that otherwise may not be available to 
commanders.
    Question. Has the Department, in your judgment, gone too far in 
outsourcing maintenance and support functions?
    Answer. No. Maintenance and support functions include such things 
as facilities and equipment maintenance, and other functions readily 
identifiable as commercial and available within the private sector. 
These are logical candidates for a ``Competitive Sourcing'' study to 
determine who is able to best provide the services in support of our 
mission. The Department only does this when it makes military and 
economic sense. With respect to depot-level maintenance, the Department 
retains core functions and contracts for performance only as permitted 
by title 10 of the United States Code.
    Question. What changes to current policy would you recommend 
regarding the outsourcing of maintenance and support functions?
    Answer. With the record of success the Department has enjoyed in 
conducting ``Competitive Sourcing'' studies on maintenance and support 
functions, I believe the current policy is adequate.
    Question. Recent work done by the GAO for this committee 
highlighted several challenges related to contractor support of 
deployed forces, including ineffective implementation of existing 
policy guidance.
    Do you believe that the Department's existing regulations are 
adequate to address these challenges?
    If confirmed, what steps would you take to ensure compliance with 
existing regulations and policies?
    Answer. DOD and the military departments have several policy 
documents that describe how to design long-term contractual support 
vehicles that consider the operational risks associated with 
outsourcing and how to plan for specific contingencies. They do a good 
job of addressing the risks associated with using contractors on the 
battlefield. Theater planning by combatant commanders also addresses 
risk and many of the issues that arise when using civilian contractors 
to better prepare the Joint Task Force commander and mitigate the risks 
in advance. Although risk assessment approaches vary among DOD 
components, all approaches call for effective risk assessment on the 
use of contractors on the battlefield and none does anything that 
jeopardizes our warfighting capability.
    In light of the increasing use of contractors on the battlefield, 
the DOD has been working with the RAND Arroyo Center to further examine 
our decisionmaking and risk assessment processes affecting use of 
contractors and to recommend improvements. Interim findings from the 
RAND effort indicate that recent Army doctrine has effectively captured 
the conceptual risks relevant to using contractors and choosing between 
contract and organic sources and that Army doctrine on risk assessment 
provides a reliable framework for improving Army sourcing decisions. 
RAND further adds that the challenge now is to transform this doctrine 
into practice by training our personnel in the subtleties of risk 
analysis relevant to sourcing decisions.
    The challenge for commanders at the operational level is to make 
the most effective use of contractors and to balance the increased 
capabilities brought by contractors with the added challenges. 
Commanders evaluate each function, define the acceptable level of risk, 
and balance the mix of military and contractor support accordingly. 
When using civilian contractors, commanders don't necessarily face more 
risks, but they do face different risks. These benefits and risks must 
be placed in perspective, properly assessed, and dealt with. For 
example, use of contractors may actually reduce operational risk 
because the contractors represent capabilities, or increments thereof, 
that otherwise may not be available to commanders.
    Question. In many cases, the original equipment manufacturer ends 
up with a significant role in contractor logistics support (CLS) 
contracts.
    What procedures are in place to ensure that CLS contracts are not 
awarded to the original equipment manufacturer for the life of the CLS 
without appropriate competition among qualified vendors?
    Answer. Competition is the law of the land. Under the Competition 
in Contracting Act, we must conduct competitive procurements unless a 
statutory exemption applies, such as when only one source of supply is 
available.
    Ideally, we define our procurements in terms that are flexible 
enough that many suppliers are capable of meeting the Government's 
need. Supportability of equipment is something that we consider when we 
design a system. We instruct our program managers through the 
acquisition regulations to ensure that a flexible, performance-oriented 
strategy to sustain systems is developed and executed. This usually 
increases the opportunities for more firms to support fielded equipment 
than would be the case when we procure specific models of a particular 
equipment manufacturer.
    In addition, we have a network of Competition Advocates throughout 
the Department who are charged with seeking ways to increase 
competitive opportunities for particular procurements. For example, 
they challenge requirements that are not stated in terms of functions 
to be performed, performance required, or essential physical 
characteristics. They can be most effective when industry expresses an 
interest in competing for an item or service that we believed to be 
available from a single source. So I would encourage any firm that 
believes it can be an effective provider of logistics support to make 
the local Competition Advocate aware of its capabilities and areas of 
interest.

      ROLE OF THE USD(AT&L) IN THE SCIENCE AND TECHNOLOGY PROGRAM

    Question. If confirmed, what role would you play in the oversight 
of the Services' and DARPA's science and technology programs?
    Answer. If I am confirmed, the oversight role will remain as 
currently in place. The Director of Defense Research and Engineering 
(DDR&E) reports to the USD(AT&L) and is responsible for the direction 
and content of the Department's science and technology program. The 
Services and agencies coordinate their programs through the Project 
Reliance chaired by DDR&E.
    Question. What is the relationship between the USD(AT&L), the 
DDR&E, and the Director of DARPA in developing and executing DARPA's 
research and technology development programs?
    Answer. I will continue with the same reporting structure, with the 
Director of DARPA reporting to USD(AT&L) through the DDR&E. The DDR&E 
will continue to exercise authority, direction, and control over DARPA. 
The DDR&E will be charged to ensure that DARPA's portfolio is balanced, 
supports the warfighter, and continues cutting edge research. In short, 
DARPA executes; DDR&E sets priorities and objectives and provides 
oversight.

                     SCIENCE AND TECHNOLOGY PROGRAM

    Question. The defense science and technology program is recovering 
after years of declining budgets. However, the budget request for 
defense S&T still falls short of the Secretary of Defense's goal of 
dedicating 3 percent of the total defense budget to science and 
technology.
    If confirmed, how would you plan to increase the Department's 
science and technology program to meet the Secretary's goal?
    Answer. The Department's goal, established in the Quadrennial 
Defense Review (QDR), is to grow the S&T investment to be 3 percent of 
the total defense budget. While the fiscal year 2004 President's budget 
request (PBR) and future years defense program (FYDP) do not achieve 
this goal, they do increase S&T funding from the fiscal year 2003 PBR 
and exceed 0 percent real growth in fiscal year 2004 and throughout the 
FYDP. We did not make the 3 percent goal because of the topline growth. 
The table below shows the fiscal year 2004 PBR and FYDP for S&T 
funding, and shows that the buying power of Department's S&T investment 
is increasing across the FYDP. If confirmed, I will continually support 
increasing the buying power for our S&T investment and believe it is 
essential that the Department fund S&T at a level adequate to ensure 
the technological superiority of our Armed Forces.

                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                            Fiscal Year
              DOD S&T Funding (TY)               ---------------------------------------------------------------
                                                    2003      2004     2005     2006     2007     2008     2009
----------------------------------------------------------------------------------------------------------------
Fiscal year 2004 President's budget request.....  10,000 \   10,232   10,541   10,790   11,193   11,541   12,134
                                                        1\
0 percent Real Growth from fiscal year 2003 PBR.             10,186   10,384   10,592   10,805   11,018   11,231
Delta over 0 percent Real Growth................                +46     +157     +198     +388     +523     +903
  Percent of DOD Top Line.......................      2.64     2.69     2.63     2.57     2.54     2.50    2.51
----------------------------------------------------------------------------------------------------------------
\1\ $10,000B was the fiscal year 2003 PBR (includes DERF and NPR). $10.773B was appropriated in fiscal year
  2003.

                    SCIENCE AND TECHNOLOGY WORKFORCE

    Question. The Director of Defense Research and Engineering recently 
wrote to you expressing concerns over the effect that the proposed 
National Security Personnel System (NSPS) and Best Practices 
Initiatives would have on the Department's laboratory and test center 
workforce. He recommended that the NSPS proposal be modified to permit 
laboratory directors to retain the authorities they currently have 
under existing congressionally authorized personnel demonstrations. He 
also recommended that the proposed Best Practices Initiative Federal 
Register announcement be delayed until it can be revised to better 
support laboratory and test center missions.
    Do you support the laboratory directors and the DDR&E in their 
attempts to retain control over DOD's scientific and technical 
workforce?
    Answer. In some ways, the laboratory directors and the DDR&E do in 
fact exercise control over DOD's scientific and technical workforce. 
Neither the laboratory directors nor the DDR&E have, however, taken the 
position that they desired ``control'' over the human resources system 
under which our scientists and engineers work. They clearly have had, 
and retain, an interest in shaping that system in ways which they felt 
would enhance the technical quality of our laboratories. The fact is 
that the laboratories and the DDR&E, in collaboration with P&R, have 
been extremely successful in achieving this goal. As a result of much 
hard work and effective collaboration by all of the interest groups, we 
are now in final convergence on a ``Best Practices'' design that we 
believe will truly serve the needs of the laboratory directors, the 
DDR&E, and the human resources community. That we've obtained this 
convergence has been a notable achievement for DOD. So the true story 
here is not where we started; rather, it's where we are ending. This is 
a success story.
    Question. Do you support a delay in the release of the final Lab 
Demo Best Practices Federal Register so that it can be modified to 
better meet the concerns of the laboratory community and DDR&E?
    Answer. I do not support a delay in the ``release'' of the final 
Lab Demo Best Practices Federal Register Notice. Further, the Director 
of Defense Research and Engineering has never petitioned for such a 
delay. For clarification, let me point out that some in the laboratory 
community favored a delay in its implementation until the NSPS design 
was finalized. Their issue was simply that of avoiding multiple near-
term conversions of personnel practices. This I believe was a totally 
rational concern.
    I support the immediate release of the Best Practices Federal 
Register Notice when the final design tradeoffs are completed. This 
does not say that I believe that we've got it perfectly right this 
first time. What's important here is that we begin transforming the 
entire DOD S&T personnel system, and that we have a way of adjusting 
and refining this system as mission needs evolve. I don't see these 
adjustments and refinements as having the form of ``exceptions for 
individual laboratories.'' Rather, I think what could be necessary is 
some fine tuning of the overall umbrella system.

                    DEVOLVEMENT OF RESEARCH PROGRAMS

    Question. This year the Office of the Secretary of Defense devolved 
(transferred) several programs to the Services. Many of these devolved 
programs resided in OSD because of the inherent jointness of the 
program.
    If confirmed, how would you plan to maintain the joint nature of 
those programs devolved to the Services?
    Answer. Senior review groups with members from the Office of the 
Secretary of Defense will remain in place to ensure particular military 
departments meet the ``core/joint service'' objectives and metrics of 
the programs. The senior review groups have already reviewed execution 
plans of these programs and have recommended withholding funds from 
selected programs until joint issues have been resolved. These same 
review groups will review execution plans and metrics again at mid-year 
and make recommendations concerning future funding allocations. This 
process has been effective in the past and we would expect to continue 
it.
    For example, the Armed Services Biomedical Research Evaluation and 
Management Committee, has oversight of the Department's investment 
resources. This committee recommended withholding research funds from 
Army and Navy programs that were formerly a part of OSD pending 
clarification of program goals and objectives.

               JOINT UNMANNED COMBAT AIR SYSTEM (J-UCAS)

    Question. As you are aware, this committee established a goal for 
the Department of Defense that by 2010 one-third of U.S. military 
operational deep strike aircraft would be unmanned and by 2015 one-
third of all U.S. military ground combat vehicles would be unmanned.
    What is your assessment of the Department's ability to meet this 
goal? In particular, please provide the committee with the role that 
USD(AT&L) will play in the oversight of this effort.
    Answer. The Department recognizes the inherent advantages of 
unmanned systems in military operations. I am encouraged by the 
continuing advancement of technology maturation for unmanned systems. 
Technology advancements are in computational capabilities, sensor 
integration, and onboard intelligence. Critical to the continued 
evolution and expansion of unmanned system capabilities is the 
continuing development of a robust, industry standard architecture. I 
might add that in the Army's design for the Future Combat System's Unit 
of Action, well over 33 percent of the Increment 1 combat vehicle force 
consists of unmanned ground vehicles.
    Additionally, I believe my oversight role in the development and 
deployment of unmanned systems is critical. I currently have OSD 
oversight for the Army's Future Combat Systems (FCS) program and for 
the Joint Unmanned Combat Air System (J-UCAS).
    The future of FCS is heavily predicated on the success of unmanned 
systems in the next decade. With this in mind, I have tasked additional 
members of my staff to focus their oversight role specifically on the 
unmanned systems portion of FCS. This oversight will be accomplished by 
the same staff that has coordinated the Joint Robotics Program (JRP), a 
congressionally-directed program since 1990, that was consolidated at 
OSD level and takes much of the credit for our advancement in the 
unmanned ground systems area. The Joint Robotics Program was not 
devolved to one of the Services in fiscal year 2004, as were other 
programs, because of what I believe is the critical nature of its 
mission to foster the joint development and fielding of this important 
operational and technology area across the Services.
    In my oversight role, I have also directed DARPA to lead the J-UCAS 
program. DARPA has a rich history of leading and producing state-of-
the-art technology efforts that have resulted in revolutionary 
advances. Just two examples are the F-117 Stealth Fighter and the 
internet. DARPA has also developed the two most successful UAV programs 
in the history of the DOD: Predator and Global Hawk. I firmly believe 
that J-UCAS will be no different. To date, three different airframes 
have flown over 12 hours in 17 flights. To keep this program on track, 
I have chaired one executive committee meeting and have another 
scheduled for December 2003. Multiple lower level meetings have 
occurred in preparation for these executive committee meetings. The 
fiscal year 2005 budget is still being built, but the current 
demonstration program is building to meet the stated Air Force and Navy 
requirements.

                        CONGRESSIONAL OVERSIGHT

    Question. In order to exercise its legislative and oversight 
responsibilities, it is important that this committee and other 
appropriate committees of Congress are able to receive testimony, 
briefings, and other communications of information.
    Do you agree, if confirmed for this high position, to appear before 
this committee and other appropriate committees of Congress?
    Answer. Yes
    Question. Do you agree, when asked, to give your personal views, 
even if those views differ from the administration in power?
    Answer. Yes
    Question. Do you agree, if confirmed, to appear before this 
committee, or designated members of this committee, and provide 
information, subject to appropriate and necessary security protection, 
with respect to your responsibilities as the Under Secretary of Defense 
for Acquisition, Technology, and Logistics?
    Answer. Yes
    Question. Do you agree to ensure that testimony, briefings, and 
other communications of information are provided to this committee and 
its staff and other appropriate committees?
    Answer. Yes
                                 ______
                                 
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator John McCain

                        LEAD SYSTEMS INTEGRATOR

    1. Senator McCain. Mr. Wynne, DOD has shifted significant control 
of acquisition programs to defense industry through the utilization of 
a Lead Systems Integrator (LSI) for major programs. This construct 
provides the LSI unprecedented control in hiring subcontractors in 
support of a program. In this setup a parent company receives 
proprietary information from all competitors bidding on a subcontract 
for a program, and then may well have its own subsidiary bidding for 
the contract. I believe this system is ripe for abuse. Currently Boeing 
Corporation is the LSI for the Future Combat System (FCS). FCS is 
arguably the largest and most complicated acquisition program ever 
attempted by DOD, yet this program is being managed by a company that 
has been repeatedly cited for an array of misconduct and alleged 
misconduct. The Project On Government Oversight says that since 1990, 
Boeing has been accused of some 50 instances of misconduct or alleged 
misconduct and has been assessed fines, settlements, and penalties 
totaling more than $348 million. This does not even include Boeing's 
suspension from space launch contracts over the use of a competitors' 
proprietary information to garner the majority of launches awarded 
through the Evolved Expendable Launch Vehicle program that resulted in 
the programming of over a billion dollars. How can you assure Congress 
and the taxpayer that an LSI is not exploiting proprietary information 
for its own benefit, and that the requirements are being driven by what 
the warfighter needs, rather than what industry is willing to provide?
    Mr. Wynne. Much has been made of the increasing use of the term 
Lead Systems Integrator, but it is important to remember that an LSI is 
a prime contractor. The LSI designation emphasizes the increasingly 
complex integration of prime and subcontractor efforts, but the LSI 
must also perform all the other responsibilities of a prime 
contractor--technical, financial, etc. Of note is the fact that prime 
contractors have always had broad authority in the selection and 
management of subcontractors. The LSI designation does not change this 
situation. Indeed, programs employing LSIs are generally executed with 
traditional contractual instruments, either Federal Acquisition 
Regulation (FAR) contracts or other transactions.
    These contract instruments, as well as the subcontract terms and 
civil and criminal law, provide protections against the LSI from 
exploiting their position in favor of their own company. Moreover, the 
Government, through the use of Integrated Product Teams (IPTs) 
maintains a high level of insight into the LSI's selection of 
subcontractors. Another alternative is to require Government approval 
or consent to certain subcontracts to ensure that a subcontractor 
proposed by a prime contractor does represent the best value.
    The LSI, or prime contractor, has responsibility for the execution 
of the contract, including the determination of technical requirements. 
The Government, however, always retains responsibility for the 
execution of the program as a whole. This includes control over the 
performance requirements of the contract, which are established to meet 
the needs of the warfighter. The LSI is charged with finding the best 
technical solutions to meet those requirements.

                         JOINT WEAPONS PROGRAMS

    2. Senator McCain. Mr. Wynne, joint programs like AIM-9X and 
Advanced Medium-Range Air-to-Air Missile (AMRAAM) are obvious success 
stories. What are your thoughts on the overall usefulness of joint 
versus single service weapons programs?
    Mr. Wynne. As we consider the requirements and acquisition strategy 
for all of our programs, we carefully review the required capabilities 
and evaluate the joint development potential. Where feasible, we pursue 
the joint approach because of the likely operational benefits, and the 
overall economic advantage for the military departments, the Department 
of Defense, and the taxpayer. In fact, recently, we have been 
encouraging the military departments to consider either joint program 
development or leveraging off of ongoing development.

    3. Senator McCain. Mr. Wynne, given the sizeable investment--often 
hundreds of millions of dollars--in the development of joint weapons 
programs such as Joint Standoff Weapon (JSOW) and Joint Air-to-Surface 
Standoff Missile (JASSM), how does DOD plan to leap ahead to 
transformational programs without losing the investment in current 
weapon systems?
    Mr. Wynne. We plan to continue to produce current weapons systems 
as warfighter needs would dictate while moving forward with 
transformational programs. Our performance to date in joint weapons 
programs, such as Joint Direct Attack Munition (JDAM) and JSOW, has 
been extremely fruitful given their performance in Iraq and 
Afghanistan. While these programs are still in production, we must look 
ahead to the future recognizing technological advancements and the 
changing needs of the warfighter. JASSM represents a technology 
advancement that we began several years ago and the Department is just 
starting to field JASSM.
    With respect to leap ahead capabilities, the Small Diameter Bomb 
(SDB) is a truly transformational weapon. SDB's small size and greater 
accuracy will allow the warfighter to carry more munitions making 
multiple kills per sortie a reality. When coupled with greater 
accuracy, it will result in significant reductions in collateral 
damage. Finally, the SDB will provide a growth path that will allow for 
future variants to take on additional roles, such as precision against 
moving targets. These kinds of capabilities would not have been 
possible without the groundwork and lessons learned from previous 
investments.
    It is important to note that transformation in the DOD is not only 
about developing new weapons systems but also how we employ current 
weapon systems. The development of new tactics, doctrine, training, 
organization, and concepts of operations is an integral and ongoing 
part of our transformation plan. 

    4. Senator McCain. Mr. Wynne, the U.S. Air Force and U.S. Navy 
apparently are about to pursue different weapons--Wind Corrected 
Munitions Dispenser (WCMD-ER) and JSOW--to fill the same requirement. 
Why would DOD consider departing from this joint capability, and isn't 
this new tack going to increase the cost to the taxpayer for the same 
capability?
    Mr. Wynne. The JSOW B is an anti-armor variant, but production has 
been deferred by both Servces in the fiscal year 2004 budget because of 
weapon cost and the Department's decision to accept risk in anti-armor 
capability. The Air Force began WCMD-ER in fiscal year 2003 as a wing-
kit upgrade to their inventory of area attack dispensers (CBU-103, 105) 
to provide standoff capability. The weans or modification are only 
available in the Air Force inventory. Since this is a modification 
program, the projected unit cost is expected to be lower than a full 
weapon. 

    5. Senator McCain. Mr. Wynne, the U.S. Air Force investment in 
stealth and low observable standoff weapons is very substantial. What 
are DOD's plans to make maximum use of the hundreds of millions 
invested to date in JSOW?
    Mr. Wynne. Although we deferred JSOW B production in fiscal year 
2004, the Department is reviewing JSOW, along with other weapons, while 
preparing the fiscal year 2005 budget. We are committed to discuss the 
requirement and avoid introducing any critical mission capability gaps 
for standoff weapons. JSOW provides a unique combination of cost-
effectiveness, proven combat effectiveness, standoff, lethality, and 
survivability, and we will review these very carefully.

    6. Senator McCain. Mr. Wynne, I understand the USAF may be 
reconsidering its participation in such successful joint programs as 
JSOW, AIM-9X, and AMRAAM, and have not joined in the Joint Common 
Missile. These have been supported by the United States Congress. In 
the case of JSOW, it was recently used successfully in Operation Iraqi 
Freedom and was funded in the supplemental. What will you do to protect 
the taxpayers' investment in these key programs?
    Mr. Wynne. Wherever possible, the Department supports joint weapons 
since they provide savings to the payer, ensure interoperability, and 
allow for asset sharing among the Services. Capability-based reviews of 
programs serving in a particular functional area will be used to 
balance the joint warfighting capability across the Department.

                          TANKER LEASE PROGRAM

    7. Senator McCain. Mr. Wynne, the price of the initial 20 tankers 
will likely absorb some modest start-up (NRE, R&D) costs. However, any 
such costs in the first 20 tankers would be reflected as a savings for 
the next 80. What are those savings?
    Mr. Wynne. The Air Force is currently working out the contractual 
mechanics necessary to comply with the National Defense Authorization 
Act for 2004. Although negotiations are not complete, the Department 
will share copies of the draft contract for the lease of tanker 
aircraft, and will brief the armed services committees of the House and 
Senate, before executing the contract. The Department will do the same 
with regard to the contract to purchase aircraft. 

    8. Senator McCain. Mr. Wynne, if the USAF ultimately orders more 
than 100 tankers, there should be a further savings reflected in the 
overall price for all the planes. What are those savings?
    Mr. Wynne. The Air Force could expect savings for orders beyond the 
first 100 tankers. It is premature to speculate on what the savings 
would be in subsequent orders for these planes. On the one hand, we 
would expect a reduction in the unit price because nonrecurring coasts 
are fully amortized in the first 100 planes. On the other hand, price 
is a function of such things as labor rates, price of raw materials and 
components, user requirements, production quantity, production rate, 
technical specifications and market demand amongst other factors. Until 
a follow-on procurement is more fully articulated and negotiated, it 
would be only a guess as to the potential savings.

    9. Senator McCain. Mr. Wynne, will financing of the acquisition and 
construction of the tankers be structured around a ``special purpose 
entity'' (SPE)? If so, please describe.
    Mr. Wynne. For the leased tankers, the financing of the acquisition 
and construction is expected to be accomplished by way of an SPE. The 
SPE will be involved in both the construction financing of the planes 
(i.e., to provide money to Boeing to construct the planes) and the 
permanent financing of the planes (i.e., to purchase the planes from 
Boeing and to lease them to the Air Force). The SPE will function as a 
lessor for the KC-767A Tanker Lease and will be established as a 
Delaware Business Trust entitled ``KC-767A USAF Tanker Statutory Trust 
No. 2003-1.'' The SPE will be managed by the Wilmington Trust Company, 
which is a leading trust company in the equipment leasing business. The 
SPE will have one independent director (not from Boeing or the Air 
Force) to oversee its activities. The SPE will purchase the aircraft 
from Boeing and lease them to the Air Force. The SPE will borrow funds 
to make periodic payments during construction towards the manufacture 
of the aircraft as well as permanent financing for the lease of the 
aircraft. The SPE will terminate upon the final sale of all aircraft 
and the repayment of all of the debt. 

    10. Senator McCain. Mr. Wynne, will there be a full and open 
competition to raise the financings for the acquisition or construction 
of the tankers to ensure that the fundraising is done at the lowest 
possible cost to taxpayers? If so, please describe how this competition 
will be conducted.
    Mr. Wynne. We currently do not envision another competition to 
select a company that will assist in raising the financing for the 
acquisition of the tankers. As part of their proposal to provide KC-767 
Tankers, Boeing competitively selected Citigroup to act as its agent to 
arrange bond financing. Citigroup is a world leader in bond financing 
and will be responsible for working with the special purpose entity 
(SPE), a non-profit statutory trust. The Wilmington Trust Company, a 
leading trust company in the equipment leasing business, will manage 
this SPE. To purchase the aircraft from Boeing, the SPE raises capital 
from institutional market investors to pay Boeing and then in turn 
lease the planes to the Air Force. In order to raise this capital, the 
SPE will competitively offer tranches of debt to institutional 
investors. The structure of the tranches (e.g., debt issues secured at 
varying levels of risk) is a proprietary structure developed by Boeing 
and Citigroup to ensure that the overall interest rates on the bond 
issue will be optimal--given a specific point in time and anticipated 
lease payments, lease duration, contractual terms and conditions, and 
the aircraft fair market value at the end of the lease. Air Force 
commercial financing experts have reviewed the proposed structure of 
the financing and agree that it is entirely consistent with practices 
for commercial financing and provides the necessary framework for the 
Air Force to receive optimal rates. 

    11. Senator McCain. Mr. Wynne, will the USAF allow the SPE to have 
any dealings with Boeing or its affiliates or subcontractors suppliers 
other than the contract for the 767 itself?
    Mr. Wynne. No, the Special Purchase Entity (SPE) will not have 
dealings with Boeing or its vendors outside of the requirements for 
this contract. The SPE will only perform the limited functions 
specifically authorized in the KC-767A Tanker Contract and it will 
terminate upon the final sale of all aircraft and the repayment of all 
of the debt.

    12. Senator McCain. Mr. Wynne, to what extent are the costs of the 
SPE included in the price of the tankers?
    Mr. Wynne. As part of the negotiated agreement between Boeing and 
the Air Force, all administrative costs with respect to the SPE are 
borne by Boeing, as stated in contract clause C-221. These costs are 
not separately itemized and, as such, we have no insight into those 
costs. Boeing has the economic incentive to minimize these costs. This 
is a common way of handling these type of costs in a commercial lease 
transaction.

    13. Senator McCain. Mr. Wynne, Boeing will be launching a new 7E7 
as a commercial upgrade and replacement for the 767. One of the 
hallmarks of the 7E7 will be a much more modern and efficient aircraft 
than the 767. The 7E7 might be available in the 2008 time frame, just 2 
years later than the scheduled first acceptance of the 767 under the 
tanker lease program. Why would the U.S. Government and the USAF not 
want to buy the most modern aircraft in its size instead of buying the 
last of an older and almost obsolete commercial aircraft?
    Mr. Wynne. The Air Force did not want to wait for this ``concept 
airplane'' to become a reality and then delay recapitalization of the 
tanker fleet for the additional period necessary to develop and produce 
a tanker variant. Boeing has launched the 767 Global Tanker Transport 
Aircraft (GTTA) and has two firm customers: Japan and Italy.

    14. Senator McCain. Mr. Wynne, where the 7E7 will be so much 
cheaper to manufacture, own, and operate than the 767, why would it not 
make sense for the U.S. Government to buy this aircraft and get the 
benefits of being a launch customer? Then, the USAF would have a truly 
modern tanker fleet instead of buying an aircraft with 1970s 
technology. Why must the USAF always be buying the oldest aircraft 
model out there? First 707s, then KC-10s, and now 767s which are now 
obsolete as commercial aircraft? Why can't the USAF plan to buy modern 
planes for the KC/RC/EC/E series aircraft?
    Mr. Wynne. The Air Force did not want to wait for this ``concept 
airplane'' to become a reality and then delay recapitalization of the 
tanker fleet for the additional period necessary to develop and produce 
a tanker variant. The Government would assume much more risk from 
becoming a launch customer as compared to a customer on a mature 
product--including performance, schedule, and cost risks.
                                 ______
                                 
              Question Submitted by Senator Jeff Sessions

           JOINT SURVEILLANCE AND TARGET ATTACK RADAR SYSTEM

    15. Senator Sessions. Mr. Wynne, Congress has expressed deep 
interest in the Joint Surveillance and Target Attack Radar System 
(JSTARS) re-engine program and did so as early as the Fiscal Year 2000 
DOD Authorization bill. In this year's DOD Authorization Conference 
Report the Department is required to report to Congress by early 
spring.
    I will be very interested in the report, the options provided by 
DOD, and the plan offered to keep these planes flying with the most 
efficient and best engines available. The JSTARS is a proven combat 
multiplier and we cannot afford for it to be grounded due to 
shortsighted funding in the Future Years Defense Program.
    Mr. Wynne. In accordance with the conference report regarding the 
National Defense Authorization Act for Fiscal Year 2004, the Department 
will provide a report to the congressional defense committees of an 
economic analysis comparing the maintenance of the current engines in 
JSTARS aircraft, the purchase of new engines, and the lease of new 
engines. The report will identify the Department's preferred option as 
reflected in the fiscal year 2005 President's budget, and the 
Department's plans to implement that option. The Department will submit 
the report early next year. 
                                 ______
                                 
             Question Submitted by Senator Susan M. Collins

                         SHIPBUILDING PROGRAMS

    16. Senator Collins. Mr. Wynne, this committee raised in the Fiscal 
Year 2004 Authorization Report continued concerns over the adequacy of 
the Department's plan for the transition between DDG-51 and DD(X) 
shipbuilding programs. We directed the Navy to review the projected 
workloads of our two surface combatant shipbuilders, report on their 
viability, and describe actions the Navy was taking to ensure 
preservation of critical technical and production skills at both 
surface combatant shipbuilding yards. My colleagues and I look forward 
to receiving that Navy report early next year as we prepare to act on 
the administration's fiscal year 2005 defense budget request.
    It has been almost 20 years since the Navy and this industrial base 
faced the last significant transition between major surface combatant 
shipbuilding programs--at that time with the planned completion of the 
CG-47 AEGIS Cruiser Class and the initial procurement of the Arleigh 
Burke Class AEGIS Destroyer Class. One fundamental contrast between 
then and now is that the Navy procured 11CG-47 Cruisers after gaining 
funding in fiscal year 1985 for the first DDG-51 Destroyer. The fact 
that the Navy overlapped procurement of CGs and DDGs helped ensure that 
major surface combatant force levels were sustained, and the surface 
combatant shipbuilding industrial base remained healthy and actively 
employed despite the inherent unknowns of moving to a new ship class 
involving new technologies and production methods.
    In contrast, under the fiscal year 2004 budget plan and the future 
years defense program, no DDG-51s would be procured after fiscal year 
2005, yet DD(X) procurement would start up at a low rate of no more 
than one or two ships per year until fiscal year 2009. For these and 
other reasons, the Congressional Research Service in a recent report on 
surface combatant acquisition programs, raised a concern as to whether 
planned surface combatant procurements from fiscal years 2004-2009 
would put our two surface combatant shipbuilders--Bath Iron Works and 
Ingalls--and their workers, through a roller coaster effect of 
decreasing production and employment for several years only to be 
followed by the requirement to then sharply increase employment and 
production. What steps will you take to ensure that the transition from 
the production of DDG destroyers to DD(X) destroyers does not lead to 
the decline of our major surface combatant structure, or the loss of 
our Nation's specialized defense industrial base sector?
    Mr. Wynne. Ship construction schedules, quantities, and procurement 
profiles greatly influence a shipyard's projected workload, and 
therefore, the impact to shipyard workload is an important 
consideration in each decision made by the Department. The Department 
continually reviews and monitors the workload for all key shipyards, 
both public and private, and considers this information in 
deliberations regarding surface combatant procurement. This included 
extensive evaluation of the impact of DDG wind-down and DD(X) startup 
on both Bath Iron Works and Ingalls, and the conclusion that, in spite 
of the reduced quantity of ships being procured, the additional design 
and production man-hours associated with startup of the new DD(X) ship 
program at both yards will result in relatively minor workload 
fluctuations that will not jeopardize their viability, cause 
significant employment declines, nor add significant additional 
overhead costs to Navy programs. We will closely monitor the progress 
of the DD(X) program as it proceeds toward production to determine if 
additional action is needed to provide a smooth transition from DDG-51 
to DD(X) destroyer production. We will also ensure that industrial base 
implications are factored in to the DD(X) acquisition strategy that is 
being finalized by the Navy at this time. The concerns you raised will 
also be considered at the DD(X) program review planned for early 2004.
    As requested in the Fiscal Year 2004 Authorization Report, the 
Secretary of the Navy is completing a report on the surface combatant 
shipbuilding industrial base and will submit it to the committees. This 
report will include a workload projection for the surface combatant 
shipyards, an assessment of the financial viability of those shipyards, 
and a plan for sustaining the unique technical and production skills 
within that industrial base. The workload projections associated with 
the fiscal year 2004 President's budget as well as those associated 
with the shipbuilding profile under consideration as part of the 
ongoing development of the fiscal year 2005 President's budget will be 
assessed as part of this report.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss

                      PUBLIC-PRIVATE PARTNERSHIPS

    17. Senator Chambliss. Mr. Wynne, I believe that public-private 
partnerships between depots and private industry can, and do, provide 
viable alternatives to ensuring two strong industrial bases, using the 
best of the private and public sectors while preserving the title 10 
capability of our depots, and also providing unique solutions to the 
challenging sustainment issues faced by the services today. While there 
are documented successes in this area, a recent GAO report indicated 
that the use of public-private partnerships were only a small part of 
the overall depot program. We currently have pubic-private partnerships 
at the Warner-Robins Air Logistics Center at Robins Air Force Base for 
the C-130J and C-17 programs. While these partnering relationships have 
room to grow, I believe they set the example for how depot operations 
should be conducted in the future. Can you give me your opinion 
regarding how public-private partnerships should work and how you 
intend to foster public-private partnerships in our DOD depots?
    Mr. Wynne. Depot maintenance public-private partnering is directed 
towards improving the output and performance of organic depots. Our 
partnering program includes full exploitation of existing legislative 
authority for Centers of Industrial and Technical Excellence, 
development of necessary guidance to enhance successful partnering, 
evolution of contracts and partnering agreements that encourage 
industrial investment, exploitation of commercial industrial 
capabilities to enhance product performance and reliability or to 
improve processes and support, and development of potential industry/
government training and certification programs. We are fostering depot 
maintenance public-private partnerships through aggressive advocacy in 
our policies and by making partnerships a key component of our 
transformational initiative to improve support for weapon systems 
through performance based logistics support.

                             CIRCULAR A-76

    18. Senator Chambliss. Mr. Wynne, during my tenure in the House of 
Representatives and the Senate I have watched closely how DOD 
implements its competitive sourcing studies through Circular A-76. 
While no one believes in or understands the value of competition more 
than I do, I continue to be concerned about the competitive sourcing 
process and how these studies are conducted. In this year's Defense 
Appropriations bill, I supported an amendment which required DOD to 
show 10 percent or $10 million savings before outsourcing work, and 
allow DOD civilians to always be allowed to establish a Most Efficient 
Organization bid to compete against a contractor's bid on their work 
effort. I believe, and I believe the administration ultimately agreed, 
that these were constructive changes to the new Circular A-76. 
Nevertheless, I continue to be concerned that in the revised Circular 
DOD workers are required to compete for their jobs every 3-5 years, 
even after they have won a competition the first time. While Government 
employees should absolutely be held to the same performance standards 
as contractors and be subject to repeat competitions if their 
performance is not up to standard, I think the requirement to re-
compete every 3-5 years until the work is outsourced is a waste of 
taxpayers' money and has an extremely negative impact on our civilian 
workforce. Can you share your thoughts on how DOD will implement the 
revised Circular A-76, and whether you support eliminating the 
requirement that work previously competed and won by the Government bid 
be re-competed?
    Mr. Wynne. The Department is still shaping its procedures to 
implement the revised circular. A smooth transition is essential 
because DOD believes the credibility of the new process depends on 
successful execution of the initial competitions. As DOD starts 
competitions using the new procedures, the Department will ensure 
responsible officials are properly trained for new, expanded duties. 
For the American people to receive maximum value for their tax dollars, 
commercial activities should be subject to the forces of competition.
    Our contracted commercial activities are subject to the forces of 
the competitive market on a continuous basis (as required by the 
Federal Acquisition Regulations). It is essential DOD also ensure a 
most efficient organization (MEO) in-place as a result of public-
private competition continues to be efficient and cost effective. In 
this manner contractors and Government MEOs are held to the same 
standard. Additionally, the Departments' requirements are not static; 
re-competition should be a consideration for all commercial activities 
whether they are performed by the MEO or private sector.

                      AERIAL COMMON SENSOR PROGRAM

    19. Senator Chambliss. Mr. Wynne, it is encouraging to note a 
promising Joint Service Initiative currently ongoing between the Army 
and Navy on the Aerial Common Sensor (ACS) and EP-3 replacement 
program. Given that the ACS will likely be the C\4\ISR platform for the 
Navy and Army for the next 30 years, what role do you visualize you and 
your office playing in the acquisition process for this future legacy 
system?
    Mr. Wynne. My office will retain acquisition oversight and 
milestone decision authority for this major defense acquisition 
program. With increasing reliance on ``smart'' weapons and weapon 
systems, DOD no longer has the luxury to design, develop, and acquire 
``ultimate technology'' over a 15-20 year acquisition cycle, in which a 
majority of the technology is outdated by the time the system is 
fielded. Evolutionary acquisition is the preferred DOD strategy for 
rapid acquisition as it delivers capability in increments, recognizing, 
up front, the need for future capability improvements.

    20. Senator Chambliss. Mr. Wynne, what are your views on threshold 
versus objective requirements in planning and executing a new program 
like ACS?
    Mr. Wynne. I agree with the Joint Staff definition that a threshold 
requirement is the minimum acceptable operational value below which the 
utility of the system becomes questionable. An objective is the desired 
operational goal associated with a performance attribute, beyond which 
any gain in utility does not warrant additional expenditure. The 
objective value is an operationally significant increment above the 
threshold. This distinction between threshold and objective enables DOD 
program managers to have the flexibility to work with both industry, 
the DOD requirements process and the test community to meet a program's 
performance, budget and schedule requirements. The evolutionary 
acquisition process enables us to define objective values for key 
capabilities from one spiral or increment as threshold values for the 
next.

    21. Senator Chambliss. Mr. Wynne, what are your views on whether 
objective requirements are a goal or a requirement to be met?
    Mr. Wynne. In using the term objective without context, it is a 
goal that by definition is not a requirement to be met. However, in 
many instances, acquisition programs such as ACS that involve 
evolutionary acquisition approaches, objective requirements evolve to 
threshold requirements for future increments. For example the ACS 
reliability requirement for increment 1 is 36 hours Mean Time Between 
System Abort (MTBSA). The objective requirement for increment 1 is 76 
hours MTBSA. This objective for increment 1 becomes the threshold for 
increment 2 and the objective increases to 263 MTBSA. In general we 
also look for acquisition programs that require competing industry 
teams to show how they will meet ORD stated Key Performance Parameters, 
threshold requirements, and also migrate to objective requirements. 
During source selection the competing industry teams will be evaluated 
on the ability or potential to meet objective requirements or 
incrementally modernize to satisfy objective requirements from a total 
system perspective including both the platform and the sensor. 

    22. Senator Chambliss. Mr. Wynne, how important is it to DOD that 
ACS truly represent a Joint Service effort? Given my role as a Member 
of this committee and the Senate Select Committee on Intelligence, I 
would appreciate your keeping me advised of any significant actions 
affecting this program as we move forward.
    Mr. Wynne. In any fiscally constrained environment, it is 
imperative that the Department look at all programs from a joint 
perspective and seek out synergy in our acquisition efforts. The 
partnership of the Army and the Navy on the Aerial Common Sensor 
program is an excellent example of combining efforts to satisfy service 
unique requirements while also satisfying those of the joint 
warfighter. 
                                 ______
                                 
               Question Submitted by Senator John Cornyn

                  BUDGETING FOR THE 20-80 TANKER PLAN

    23. Senator Cornyn. Mr. Wynne, the Department of Defense proposal 
to lease 100 KC-767A tanker aircraft was a major issue in this year's 
DOD authorization bill. The plan was revised in conference to authorize 
the lease of only 20 aircraft with language allowing DOD to propose 
buying an additional 80 tanker aircraft in the out-years. Deputy 
Secretary Wolfowitz sent a letter to Chairman Warner on November 5 
which has been widely interpreted as committing the administration to 
adding sufficient sums to the top-line DOD out-year budget in years 
2008-2012 to pay for the unbudgeted costs of these aircraft. There have 
been some comments by DOD officials hinting that other fully programmed 
Air Force and Navy aircraft programs like the F/A-22, JSF, C-130J, F/A-
18 E/F, and V-22 might be cut back in order to pay for these tankers. 
Can you explain how you intend to fund the tanker program, and do you 
plan to reduce funding for other vital military aircraft programs?
    Mr. Wynne. Without additional funding from Congress, the Department 
will have to fund the KC-767 program from currently funded programs or 
where savings can be identified within existing activities. The 
Department will have to make careful decision to balance costs, risks, 
and requirements. It would premature to identify sources until the 
lease 20/buy 80 profile is finalized and the delivery schedule 
identified, and we have contacts ready for signature.
                                 ______
                                 
               Questions Submitted by Senator Carl Levin

                        HYBRID ELECTRIC VEHICLES

    24. Senator Levin. Mr. Wynne, your office recently (August 2003) 
completed a report on hybrid electric vehicles. The report discussed 
the potential advantages of fielding hybrid vehicles--including the 
capability for silent vehicle operation and the ability to generate 
much-needed electrical power on the battlefield. The report also listed 
milestones that need to be achieved, including formulating DOD's goals 
for hybrid vehicles, designing optimal hybrid electric propulsion 
systems for military vehicles, and demonstrating hybrid vehicles that 
satisfy DOD's goals. What are your plans for achieving these 
milestones?
    Mr. Wynne. The Future Tactical Truck System (FTTS) Advanced-Concept 
Technology Demonstration (ACTD) is the flagship Department of Defense 
(DOD) program to demonstrate the benefits of hybrid electric 
technologies for tactical vehicles. This program will conduct a 
military utility assessment of hybrid propulsion technologies in fiscal 
year 2006. DOD, the Army, and industry are working together to produce 
a hybrid system that minimizes vehicle weight and delivers maximum fuel 
efficiency at affordable costs. This program will allow DOD to 
establish hybrid electric vehicle goals and establish optimal design 
specifications for future acquisition programs. 

    25. Senator Levin. Mr. Wynne, what role will the Tank-automotive 
and Armaments Command (TACOM) play in the establishment of goals and 
future hybrid vehicle programs?
    Mr. Wynne. The Army's Tank-Automotive and Armaments Command (TACOM) 
has a critical role in the hybrid electric vehicle programs of the 
Department of Defense. The Army Materiel Command, through TACOM and 
Army Research, Development, and Engineering Command (RDECOM) efforts, 
is responsible for the effective development, integration, procurement, 
and support of DOD hybrid electric vehicles.

    26. Senator Levin. Mr. Wynne, how will you leverage advances made 
in the commercial sector to get DOD the best hybrid technology most 
efficiently?
    Mr. Wynne. Leveraging advances made in the commercial sector in the 
area of hybrid electric propulsion is critical to DOD's success in 
hybrid electric technology for our military vehicles. The Future 
Tactical Truck System Advanced Concept Technology Demonstration is the 
flagship effort in DOD to promote commercial sector interest in hybrid 
electric propulsion and is managed by the National Automotive Center. 
The National Automotive Center, located in Warren, Michigan, serves as 
a catalyst linking industry, academia, and Government agencies in the 
development and exchange of automotive technologies. These efforts 
range from supporting Small Business Innovation Research programs to 
fully integrated hybrid technology demonstration programs which design, 
build, test and evaluate combat and tactical vehicles having hybrid 
electric propulsion systems.

    27. Senator Levin. Mr. Wynne, will the Commercially Based Tactical 
Truck (COMBATT) program provide DOD with hybrid electric vehicles that 
can be used in non-military applications? Is there a plan underway for 
DOD to procure COMBATT?
    Mr. Wynne. The COMBATT program is an effort by the National 
Automotive Center to demonstrate hybrid electric capabilities in light 
vehicles. The COMBATT demonstration effort will feed Department of 
Defense requirements and specification development for future light 
tactical vehicles. Commercial hybrid electric vehicles similar to those 
developed under this program will be available starting in 2005. 
However, there is no military procurement currently planned.

                       SPACE ACQUISITION PROGRAMS

    28. Senator Levin. Mr. Wynne, your predecessor, Under Secretary 
Aldridge, delegated substantial responsibility for acquisition of space 
systems to the Under Secretary of the Air Force. Do you plan to keep 
the delegation in place as written, or do you intend to make any 
changes to it? If changes are made what would you change?
    Mr. Wynne. The delegation of space acquisition authorities 
currently is in place consistent with the recommendations from the 
Space Commission. The Under Secretary of the Air Force has substantial 
responsibilities as the Executive Agent for Space, while OSD retains 
their oversight responsibilities. I believe we should defer from making 
any significant changes until we've gained sufficient experience 
operating under Air Force's recently approved (October 2003) National 
Security Space Acquisition Policy 03-01 to give us an adequate baseline 
for making potential changes.

    29. Senator Levin. Mr. Wynne, most of the space acquisition 
programs have major problems. Many of these problems can be traced to a 
lack of oversight on the part of either National Reconnaissance Office 
or the Air Force. Will you have a direct oversight role? For instance, 
will you play any oversight role in or review any programmatic 
milestones or cost estimates?
    Mr. Wynne. I retain all of my oversight responsibilities for space 
acquisition programs. Section 911 of the Bob Stump National Defense 
Authorization Act for Fiscal Year 2003 (Public Law 107-314) requested 
that the Secretary of Defense provide a detailed plan on how the Office 
of the Secretary of Defense (OSD) will provide oversight of acquisition 
for defense space programs. As outlined in our response, OSD will 
maintain a strong oversight role since space represents a significant 
military capability and is critical in both maintaining and improving 
surveillance, communications and situation awareness in support of our 
military forces. In my role as USD(AT&L), if confirmed, I will ensure a 
robust acquisition program oversight process remains in place to pro 
actively identify and resolve execution problems. This activity will be 
accomplished by proactive oversight and analysis of funding, cost, 
schedule, performance, and other program status information to assess 
the program's progress toward achieving objectives set forth in their 
milestone reviews. This results-oriented management approach 
establishes effective controls by initially establishing program 
objectives at the milestone review and then monitoring progress toward 
achieving these objectives through review and analysis of oversight 
reporting information. It should also be noted that OSD and Joint Staff 
oversight responsibilities prescribed by law and further defined in DOD 
guidance have not been changed by the Department's alignment space 
responsibilities following the implementation of the Space Commission 
Report recommendations highlighted earlier. Space programs are reviewed 
quarterly by the USD(AT&L) and the OSD staff via the Defense 
Acquisition Executive Summary (DAES) process. In addition, under the 
provisions of the new National Security Space Acquisition Policy 03-01 
signed out by the Under Secretary of the Air Force this October, my 
staff and I will continue to support and advise the DOD Space Milestone 
Decision Authority throughout the acquisition process by participating 
in both the Independent Program Assessment for space programs 
approaching Key Decision Points and attending the Defense Space 
Acquisition Board.

    30. Senator Levin. Mr. Wynne, in your view what is the Government's 
role and what is the contractor's role in the development of 
requirements, concept of operations, and system specifications for a 
new space program?
    Mr. Wynne. The Government and contractor's roles for new space 
programs are the same roles they have for any new DOD program. The 
Government is responsible for the development of requirements and for 
the concept of operations. The process that is in place for this is the 
new Chairman of the Joint Chiefs of Staff Instruction 3170.01c. The 
Government does work closely with our industry partners during this 
process. Contractors interact with the Government in assessing new 
technologies and new applications of technology. The Government and 
contractor's roles in developing the system specifications varies 
widely depending upon the program. While the requirements development 
and CONOPs are clearly the purview of the Government, system 
specifications may be developed unilaterally by the Government, the 
contractor or in a collaborative manner. The Government retains 
responsibility for ensuring that the system specification does in fact 
meet the requirements.

                       NSA ACQUISITION MANAGEMENT

    31. Senator Levin. Mr. Wynne, section 924 of the National Defense 
Authorization Act for Fiscal Year 2004 mandates a transfer of 
management of acquisition programs at the National Security Agency 
(NSA), including milestone decision authority, from NSA to the Under 
Secretary of Defense for Acquisition, Technology, and Logistics 
(USD(AT&L)). This action reflected long-standing concern that 
acquisition processes at NSA were not in conformance with acquisition 
reform processes required by the Goldwater-Nichols Act within the rest 
of the Department. If you are confirmed, what steps would you take to 
ensure that NSA acquisition procedures are reformed and the NSA 
modernization takes full advantage of acquisition procedures 
implemented throughout the military departments?
    Mr. Wynne. NSA has made progress in several areas with regard to 
improving acquisition practices. However, both NSA and I recognize that 
they still have work ahead to fully implement effective acquisition 
practices comparable to those used throughout the Department. We are 
developing an oversight framework that emphasizes improvements to NSA 
practices and outlines our oversight of their acquisition programs. 
Within that framework, I will be the milestone decision authority for 
NSA modernization programs until we are able to certify their 
acquisition process as effective and return Milestone Decision 
Authority (MDA) to them. In keeping with our management philosophy 
embodied in DODI 5000.2, we will tailor our program review process to 
ensure effective systems are developed to meet intelligence needs. We 
intend to implement a collaborative acquisition decision process that 
requires NSA to exercise its role in acquisition, while ensuring the 
appropriate level of OSD involvement.
    I will work closely with the Director of the National Security 
Agency (DIRNSA) and his Senior Acquisition Executive to mature NSA 
acquisition processes. Additionally, we are working closely with the 
Under Secretary of Defense for Intelligence and the Community 
Management Staff in this effort.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy

                       PUBLIC-PRIVATE COMPETITION

    32. Senator Kennedy. Mr. Wynne, at a hearing in March, the Office 
of Management and Budget (OMB) senior procurement official reported to 
the Senate Armed Services Committee Subcommittee on Readiness and 
Management Support that she had removed obstacles to allowing Federal 
employees to compete for work currently done by contractors and new 
work. Will the Department of Defense implement such competitions and, 
if so, would you please outline the Department plans for subjecting 
work performed by contractors and new work (performed by neither 
workforce at present) to public-private competition?
    Mr. Wynne. Consistent with the previous circular and the more 
recent revised circular, the Department's policy has not precluded 
competition of contracted commercial activities. Four competitions have 
been performed on our contracted commercial activities. However, 
subjecting new work to public-private competition on a regular basis 
would significantly increase the number of public-private competitions 
with little benefit to the taxpayer. Private sector competition under 
the Federal Acquisition Regulations (FAR) adequately provides best 
value for the taxpayer and contracts awarded under the FAR are re-
competed on a regular basis. Private sector bidders would incur 
additional bid and proposal costs for the longer periods of time 
necessary to pursue public-private competitions, providing a 
disincentive for private sector participation. This, in turn, would 
limit DOD access to the innovation and new technology available in the 
commercial marketplace.

                             CIRCULAR A-76

    33. Senator Kennedy. Mr. Wynne, at that same hearing, Mr. Aldridge 
indicated that the Department would be using the OMB Circular A-76 and 
``Alternatives to A-76'' to fulfill competitive sourcing targets. What 
are these alternatives? To what extent, if any, would these 
``Alternatives to A-76'' involve contracting out work currently 
performed by Federal employees without using A-76 or any other form of 
public-private competition (that does not include the most efficient 
organization plan and minimum cost differential, as required by Section 
8014 of the Fiscal Year 2004 Defense Appropriations bill for all 
functions performed by in-house staff that involve more than 10 
employees)?
    Mr. Wynne. The Department continues to conduct A-76 competitions; 
however, DOD believes the Department and taxpayers are best served by 
employing a wide range of business tools designed to make our 
operations more efficient. Rather than pursuing narrowly defined A-76 
targets, DOD will not confine its approach to only A-76. The Department 
will look for the best instrument available whether through competitive 
souring, reengineering, divestiture, privatization, public-private 
partnering, etc.--to determine the most efficient and effective way to 
do Government business better. Any alternatives that move work from the 
private to the public sector must adhere to appropriate legislative 
requirements.

    34. Senator Kennedy. Mr. Wynne, also at that subcommittee hearing, 
Mr. Aldridge reported that, ``OMB identified for DOD a long-term 
competition goal for 226,000 positions (50 percent of the fiscal year 
2000 FAIR inventory of 452,000).'' Since then, OMB has ostensibly 
repudiated its policy of establishing competition quotas for all 
agencies. Please identify, numerically, the Department new ``long-term 
competition goal'' and explain how, if at all, the Department 
competitive sourcing agenda has been changed as a result of OMB's 
declaration that agencies would no longer be held to competition 
quotas.
    Mr. Wynne. The Department's Business Initiative Council decided to 
take a two phase approach to address the President's Management Agenda 
on competitive sourcing. First, the Senior Executive Council tasked the 
military departments and defense agencies to conduct a core competency 
review to identify functions falling outside of the Department's core 
competencies that should be considered for divestiture or performance 
by the private sector. Second, the Department refined its inventory 
guidance, which it uses to improve consistency in the identification of 
inherently governmental and commercial activities across the 
Department. Taking into consideration this phased approach, the 
military departments and other DOD components will identify their 
competitive sourcing plans in the fiscal year 2005 budget submission. 
Those plans will comprise the Department's competitive sourcing plan. 
Further, DOD will track the plans and maintain oversight of these 
commitments in the budget to ensure that the Department's competitive 
sourcing plan is realized. 

    35. Senator Kennedy. Mr. Wynne, the Inspector General (in D-2003-
056) raised serious doubts about the controversial 12 percent overhead 
rate imposed on all in-house bids in the A-76 process. The IG 
recommended to the Department of Defense that it either come up with a 
more supportable rate or develop a methodology that would allow 
overhead to be calculated for each in-house bid. What steps is DOD 
taking to respond to the IG's recommendation?
    Mr. Wynne. The 12-percent overhead factor represents a compromise 
to level the playing field in A-76 cost comparisons precisely because 
of the inability of Government accounting systems to measure all 
activity based costs. This 12-percent factor is prescribed by OMB 
Circular A-76 which allows individual Federal agencies to request 
deviations if supported by factual data. No such supporting data 
currently exists, but the Department has contracted with the Center for 
Naval Analyses (CNA) to study this issue and provide a report in April 
2004. This report should provide the factual basis for determining 
whether pursuit of deviating from the 12-percent overhead rate is 
warranted.

                      BASE REALIGNMENT AND CLOSURE

    36. Senator Kennedy. Mr. Wynne, we had an opportunity to talk about 
the past Base Realignment and Closure (BRAC) criteria for scientific 
and technical facilities. DOD has done a poor job in the past of 
evaluating the specialized needs of these facilities. Are you 
developing new criteria for the upcoming BRAC round to adequately 
account for their specialized equipment, personnel, and missions?
    Mr. Wynne. Yes, the Department is developing selection criteria for 
BRAC round 2005. The Defense Base Closure and Realignment Act of 1990 
(P.L. 101-510), as amended, requires the closure and realignment 
recommendations to be based on published selection criteria that make 
military value the primary consideration. In accordance with this 
statue, the Department will publish these draft selection criteria in 
the Federal Register by December 31, 2003, for a 30-day public comment 
period. I can assure you that the Department will consider the special 
needs of technical facilities in the development and implementation of 
the selection criteria. 

                   NATIONAL SECURITY PERSONNEL SYSTEM

    37. Senator Kennedy. Mr. Wynne, certain labs, including Natick, 
have been excluded from the National Security Personnel System (NSPS). 
What are you plans for continuing and expanding the personnel demo 
programs at these facilities to help us retain and recruit the finest 
possible technical workforce?
    Mr. Wynne. All defense laboratories that are not moving to the NSPS 
will move to the Best Practices Initiative. Best Practices represents 
an improvement over the current demonstration projects in terms of 
cost-effectiveness and flexibility since none of the laboratories 
enjoys all of the following features:

        <bullet> Pay Banding
        <bullet> Simplified Classification Process
        <bullet> Pay for Performance, including contribution-based pay
        <bullet> Simplified Hiring Process
        <bullet> Modified Reduction-in-Force Procedures
        <bullet> Extended Probationary Periods
        <bullet> Distinguished Scholastic Achievement Appointments
        <bullet> Modified Term Appointments
        <bullet> Voluntary Emeritus Corps
        <bullet> Enhanced Training and Development
        <bullet> Sabbaticals

    Over the past 18 months, the Department has been working hard on 
its Best Practices Initiative. Best Practices represents a 
collaborative human resources solution for the Department to take 
advantage of all the good work that has been done in testing civilian 
human resources policies in a variety of laboratory environments. As a 
respected best of breed in civilian human resources design, this change 
will reduce infrastructure costs, allow for intelligent dialogue on the 
similarities and differences between labs and their respective civilian 
human resources issues, and allow for all labs to benefit from all the 
lessons learned at all demos. We applaud the work that has gone into 
existing lab demos and look at this next step in moving to Best 
Practices as a generational improvement.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman

                      SEMICONDUCTOR MANUFACTURING

    38. Senator Lieberman. Mr. Wynne, many experts in the defense and 
intelligence communities are seriously concerned about the loss to the 
U.S. economy of the high-end semiconductor chip-manufacturing sector to 
East Asian countries, the likely subsequent loss of the semiconductor 
research and design sectors, and the grave national security 
implications that this would entail. The composition of the global 
semiconductor industry has changed dramatically in recent years. 
National trade and industrial policies of East Asian countries which 
have capitalized on these changes are driving a migration of 
semiconductor manufacturing to that region, in particular to China, 
through a large array of direct and indirect subsidies to their 
domestic semiconductor industry. This migration is occurring at a time 
when these components are becoming a crucial defense technology 
advantage to the U.S., due to the present and future needs of advanced 
processors in the defense and intelligence communities. Informed 
elements of the military and intelligence sectors have made clear that 
relying on semiconductor integrated circuits fabricated outside the 
U.S. (e.g. in China, Taiwan, and Singapore) is not an acceptable 
national security option. When will a report outlining the potential 
long-term solutions of this problem be available?
    Mr. Wynne. We plan to provide a report to the committee by 
September 30, 2004, as requested in Senate Report 108-46, the Fiscal 
Year 2004 Authorization Act report. This report will detail the 
Department's plans regarding semiconductor chip manufacturing 
capabilities as well as research and design capabilities. This report 
will naturally follow from the effort we had already initiated under 
the Defense Trusted Integrated Circuit Strategy (See details in 
question #39).
    We have also initiated a Defense Science Board Task Force on High 
Performance Microchip Supply that will be publishing their results 
around that same time. This Task Force will be looking into some of the 
issues you have described and the Department's ability to obtain high 
performance microchips given that environment. The Task Force has been 
asked to make policy and investment recommendations as well as 
addressing some specific technical questions. 

    39. Senator Lieberman. Mr. Wynne, we understand that a foundry to 
ensure DOD access to a short- and mid-term supply of cutting edge 
integrated circuits may address immediate national security concerns. 
What kinds of long-term strategies are being considered to ensure DOD 
first and assured access to critical advanced components from trusted 
domestic sources? What programs currently exist that are addressing 
this issue?
    Mr. Wynne. On October 10, 2003, the Deputy Secretary of Defense 
signed the Defense Trusted Integrated Circuit Strategy. This strategy 
has five components with the goal to ensure that our defense industrial 
base includes leading edge, trusted commercial suppliers for critical 
integrated circuits used in sensitive defense weapons, intelligence, 
and communication systems. The five components of the strategy are:

    (1) Identification of the facilities that could qualify as trusted 
sources based on a certification or clearance process.
    (2) Identification of the products required by the Department and 
which of the above facilities can produce those products.
    (3) Identification of acquisition strategies or adjustments to them 
to maximize competitive opportunities while preserving domestic 
capabilities.
    (4) Identification of research initiatives to assure security 
concerns are met and support the next generation of integrated circuits 
for specialized defense applications.
    (5) Support policies that provide a level playing field 
internationally for the procurement of commercial products since the 
Department's integrated circuit supplier community depends on the 
health of the commercial integrated circuit industrial base.

    The results of the Defense Science Board Task Force on High 
Performance Microchip Supply will inform the implementation of this 
strategy.

    40. Senator Lieberman. Mr. Wynne, does the Department have plans to 
maintain the critical semiconductor equipment industry (i.e. 
lithography, photomasks) in the U.S., either through a Government-
industry consortium or through more direct intervention?
    Mr. Wynne. In the past, the Department has invested heavily in 
research and development directly supporting new technology in the 
semiconductor equipment industry. We continue to invest in new 
alternative technology for semiconductor manufacturing. We do not and 
cannot, however, compete with nor influence the enormous sums of 
commercial investment in existing semiconductor equipment technology.
    In the past, the Department has directly intervened under the 
authority granted the President in section 721 of the Defense 
Production Act (also known as the Exon-Florio amendment) to ensure 
national security threats are resolved. In particular, the Government 
acted to ensure that domestic lithography manufacturing and research 
and development capabilities were retained at Silicon Valley Group 
facilities when it was acquired by the Dutch firm, ASM Lithography. The 
Department would not hesitate to use these tools again if national 
security threats could not be resolved through other provisions of law.

    41. Senator Lieberman. Mr. Wynne, will Congress have the 
opportunity to discuss the proposed solutions as they evolve?
    Mr. Wynne. As we implement the Defense Trusted Integrated Circuit 
Strategy, we will share our decisions with you. 

    NATIONAL SECURITY PERSONNEL SYSTEM AND BEST PRACTICES PERSONNEL 
                               INITIATIVE

    42. Senator Lieberman. Mr. Wynne, Members of Congress have 
previously written to the Department asking that it not take any 
administrative action on the implementation of the Best Practices 
Personnel Initiative with respect to the Defense Demonstration 
Laboratories, which DOD has published for public comment in the Federal 
Register. Section 1101 of the recently passed National Defense 
Authorization Act for Fiscal Year 2004, chapter 99, section 9902(c) 
requires the exclusion of specific defense laboratories from the NSPS. 
Are there currently administrative actions being taken that would place 
the defense laboratories within a Best Practices Personnel Initiative, 
essentially circumventing the provisions and undercutting the intent of 
the statute?
    Mr. Wynne. The Secretary of Defense has authority to establish 
personnel demonstrations in the science and technology laboratories 
under authority previously granted by Congress. We have tested various 
personnel flexibilities in these labs for a number of years and are 
ready to move to the next step after 18 months of evaluation and 
review. Over the past 18 months, the Department has been working hard 
on its Best Practices Initiative. Best Practices represents a 
collaborative human resources solution for the Department to take 
advantage of all the good work that has been done in testing civilian 
human resources policies in a variety of laboratory environments. As a 
respected best of breed in civilian human resources design, this change 
will, reduce infrastructure costs, allow for intelligent dialogue on 
the similarities and differences between labs and their respective 
civilian human resources issues, and allow for all labs to benefit from 
all the lessons learned at all demos.
    The Department's intent to improve existing demonstration projects 
was clearly announced in the Federal Register of April 2, 2003, which 
stated the Department's intent to move the laboratories into Best 
Practices. Also, on May 12, 2003, the Dr. David S.C. Chu, Under 
Secretary of Defense for Personnel and Readiness testified before the 
Senate Governmental Affairs Subcommittee on Oversight of Government 
Management, the Federal Workforce and the District of Columbia that 
``(w)e can apply this blueprint (Best Practices) to about 150,000 of 
Defense civilians who are covered by demonstration project and 
alternative personnel system authority.'' We applaud the work that has 
gone into existing lab demos and look at this next step in moving to 
Best Practices as a generational improvement.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

               TECHNOLOGY AND PRIVACY ADVISORY COMMITTEE

    43. Senator Reed. Mr. Wynne, your predecessor, Mr. Aldridge, 
established the Technology and Privacy Advisory Committee (TAPAC), and 
charged it with advising the Secretary of Defense concerning the legal 
and policy considerations implicated by the application of data mining 
technology to counter-terrorism and counter-intelligence missions. Is 
the TAPAC looking at programs from all of DOD and the intelligence 
community, or just the Defense Advanced Research Projects Agency 
(DARPA)?
    Mr. Wynne. The TAPAC is concentrating on DARPA, but is also 
inquiring about other DOD programs, as well as those in other Federal 
agencies. The TAPAC has heard presentations about technology and 
privacy from the Department of Homeland Security, the Federal Bureau of 
Investigation, the Terrorist Threat Integration Center, and the Central 
Intelligence Agency, in addition to programs in the DOD.

    44. Senator Reed. Mr. Wynne, what is the status of the TAPAC's 
efforts?
    Mr. Wynne. The TAPAC has held five full committee meetings and 
numerous subcommittee meetings and teleconferences; heard from over 80 
witnesses from Government, private industry, academia, and advocacy 
groups; and, consulted hundreds of documents. The committee has had 
access to a wide range of information, both classified and 
unclassified. The committee welcomed participation by the public and 
all interested parties, and sought to inform and motivate that 
participation through a Web site (www.sainc.com/tapac) containing 
information from its meetings and related background materials. The 
committee's report is due in March 2004.

    45. Senator Reed. Mr. Wynne, do you plan for this to be a standing 
committee that can monitor these technologies as they develop and are 
deployed?
    Mr. Wynne. Since the TAPAC's final report has not yet been 
released, I do not know what the committee will recommend in the 
report. However, in the end, it will be up to Secretary Rumsfeld 
whether or not a standing committee will continue its work.

                          DARPA PROGRAM REVIEW

    46. Senator Reed. Mr. Wynne, the recently passed Authorization 
Conference Report included some language that directed the Secretary of 
Defense to establish some means of reviewing DARPA's plans and programs 
more closely. I understand that you recently commissioned a review of 
DARPA's programs by the Defense Science Board, in order to ``confirm 
that DARPA has advanced research projects based on sound, proven 
scientific and technological foundations, practices and methods, and 
are of high value to DOD's operational missions.'' What were the 
results of that review?
    Mr. Wynne. At the request of the acting Under Secretary of Defense 
(Acquisition, Technology, and Logistics) and the Director of DARPA, the 
Defense Science Board (DSB) conducted an independent, one-time 
evaluation of DARPA's current technology portfolio to confirm that 
DARPA had advanced research projects based on sound, proven scientific 
and technological foundations, practices and methods, that were of high 
value to DOD's operational missions. The DSB Task Force did not look at 
DAPRA's strategic plan in its review of their technology programs.
    The DSB review results are documented in a November 14, 2003, 
Letter Report by the DSB Task Force Chairman. The letter report stated: 
``After a summary review of the current DARPA technology portfolio, the 
task force found no programs that appeared to have obvious ethical 
issues, that had insurmountable technical impediments, or that could 
not be of high value to DOD.'' Minor issues identified included: 
technical objectives that seemed overly ambitious, program titles that 
did not accurately reflect the research performed, or program 
documentation that needed to be better cast for a general audience. The 
Letter Report suggested two areas that require continued attention from 
DARPA management: (1) establish a process to ensure that human and 
animal testing protocols are followed by DARPA agents; and (2) remain 
sensitive to the potential impact of DARPA research efforts on the 
environment.
    DARPA has taken action on both recommendations:
    (1) DARPA does not own any research facilities and uses the 
Services' technical agents to oversee the implementation of DARPA 
research projects, to include projects that involve human and animal 
testing. These technical agents ensure program performers working in 
support of DARPA-funded programs follow established testing protocols. 
DARPA also uses a DOD veterinarian to review and monitor DARPA projects 
that involve animal testing. To strengthen oversight, the DARPA 
director will hire outside experts to conduct scheduled and random 
inspection visits of selected Service agents, beginning in January 
2004, for the purpose of verifying compliance with testing 
responsibilities and procedures. DARPA will immediately end projects if 
there is any doubt as to compliance with established protocols.
    (2) DARPA is closely examining research projects for environmental 
issues, and will end any project where the technology appears to have 
an adverse impact on the environment without adequate mitigation. DARPA 
will ensure compliance with all environmental law requirements.

    47. Senator Reed. Mr. Wynne, will you make the findings of the 
Board's review available to Congress?
    Mr. Wynne. The completed Letter Report is forwarded for your 
review. 
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    48. Senator Reed. Mr. Wynne, do you plan for more of these types of 
reviews for DARPA or other organizations in DOD?
    Mr. Wynne. At this time, I do not have any planned reviews 
scheduled. However, the Director of Defense Research and Engineering 
(DDR&E) is conducting a detailed review of DARPA's portfolio for both 
technical content and consistency of program. The DDR&E has already 
reviewed one office and will be conducting the rest of the reviews 
through February 2004.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                       PUBLIC-PRIVATE COMPETITION

    49. Senator Akaka. Mr. Wynne, the administration has been 
criticized for imposing arbitrary quotas for the number of public 
sector jobs that each agency is supposed to subject to public-private 
competition. Recently, OMB announced that it will no longer impose 
arbitrary goals, but will allow each agency to develop its own 
outsourcing plan, based on research and analysis of the work in the 
agency that is appropriate for public-private competition. Will you 
ensure that the outsourcing plans of the military services and defense 
agencies are based on considered research and sound analysis, rather 
than arbitrary quotas or goals?
    Mr. Wynne. The Department's Business Initiative Council decided to 
take a two-phased approach to address the President's Management Agenda 
on competitive sourcing. First, the Senior Executive Council tasked the 
military departments and defense agencies to conduct a core competency 
review to identify functions falling outside of the Department's core 
competencies that should be considered for divestiture or performance 
by the private sector. Second, the Department refined its inventory 
guidance, which it uses to improve consistency in the identification of 
inherently governmental and commercial activities across the 
Department. Taking into consideration this phased approach, the 
military departments and other DOD components will identify their 
competitive sourcing plans in the fiscal year 2005 budget submission. 
Those plans will comprise the Department's competitive sourcing plan. 
Further, DOD will track the plans and maintain oversight of these 
commitments in the budget to ensure that the Department's competitive 
sourcing plan is realized. 

                 DEFENSE LOGISTICS EXECUTIVE AND AGENCY

    50. Senator Akaka. Mr. Wynne, in September, Secretary Rumsfeld 
determined that the Under Secretary of Defense (AT&L) would become 
DOD's Defense Logistics Executive, with the authority to make any 
changes required to integrate the global supply chain. What changes do 
you envision as being the most necessary, in both the short and the 
longer term?
    Mr. Wynne. Thank you for this question. As further background, 
Secretary Rumsfeld officially designated the Under Secretary (AT&L) as 
the Defense Logistics Executive (DLE) in a memorandum issued in 
September. In the same memorandum, the Secretary called for the 
establishment of a Defense Logistics Board (DLB), an advisory board to 
the DLE. In addition, the Secretary designated the Commander, U.S. 
Transportation Command (TRANSCOM) as the DOD Distribution Process Owner 
(DPO). I believe the framework we are establishing in response to the 
Secretary's memorandum provides the DLE with the tools to fully 
exercise the authority granted him. In this regard, I held the first 
DLB meeting on December 5. While this meeting was primarily an 
informational meeting, we did agree on several issues that directly 
address your question. In the near term, we need to develop meaningful 
and actionable metrics and targets for our logistics processes. In this 
regard, I have tasked the Joint Logistics Board to develop proposed 
targets for DLB review within 60 days. I believe these targets will 
provide us with the tools to better assess where our processes are 
working well and where we need to concentrate our future efforts and 
resources. Recognizing that successful integration of the supply chain 
will depend upon a DOD team effort, the Board underscored the 
requirement for continued and close coordination of effort amongst the 
newly designated DPO, the Joint Deployment Process Owner, the military 
departments and defense agencies, and the combatant commanders. The 
Department is continuing its efforts to institutionalize what I will 
call supply chain enablers, such as Radio Frequency Identification 
(RFID) and Unique Item Identification (UID). In the long-term, UID 
coupled with emerging technologies in RFID will allow the Department to 
efficiently track and account for our materiel assets literally from 
factory to foxhole. The Department will need to position its logistics 
processes and systems to take best advantage of these technologies and 
others as they emerge.

    51. Senator Akaka. Mr. Wynne, what are your views on the 
appropriate relationship between TRANSCOM and the Defense Logistics 
Agency (DLA)? Do you think TRANSCOM will be able to effectively execute 
its new responsibilities as the distribution process owner without 
direct authority over DLA?
    Mr. Wynne. I have given TRANSCOM the authority they need as the 
Distribution Process Owner to transform and improve the overall 
efficiency and interoperability of the distribution process. TRANSCOM 
does not need to have command authority over DLA to accomplish this 
mission. In fact, simply combining DLA into TRANSCOM does not create a 
unified DOD supply chain or materiel distribution system since the 
military departments and geographic combatant commands also have 
significant responsibilities with respect to the distribution process. 
TRANSCOM will coordinate with DLA, the military services, the combatant 
commands, the Joint Staff, and the Office of the Secretary of Defense 
in order to effect the transformation and integration of the 
distribution process that our warfighters require.

                         EQUIPMENT MAINTENANCE

    52. Senator Akaka. Mr. Wynne, one of the most significant 
challenges our forces will face as they begin rotating out of Iraq is 
returning their equipment to ready status after facing intense use 
under difficult conditions. Do you believe that any changes are 
necessary either to the law, regulation, or DOD policies, to ensure 
that maintenance is performed in a timely, efficient manner?
    Mr. Wynne. We have not identified the need for any changes to the 
law. We are still assessing how we can reset the systems used in the 
Afghan and Iraq wars. There are significant challenges involved in 
meeting warfighter timeframe requirements. We will revise our policies 
as necessary or ask for changes in the law, if needed, to provide any 
necessary flexibility.

                    ARSENALS AND AMMUNITIONS PLANTS

    53. Senator Akaka. Mr. Wynne, earlier this year, RAND issued a 
report recommending significant changes in how DOD manages its arsenals 
and ammunition plants. Specifically, the report suggests that DOD 
divest itself of the responsibility of manufacturing ammunition, and 
instead pursue either privatization or the establishment of a Federal 
Government corporation. What are your views on what actions DOD should 
take to change its management of the arsenals and ammunition plants?
    Mr. Wynne. The Department has embarked on a comprehensive review of 
our defense and security needs toward transforming the force. Part of 
this transformation includes a review of our arsenals and ammunition 
plants. The review includes an Infrastructure Steering Group, which 
USD(AT&L) chairs, composed of the Vice Chairman of the Joint Chiefs of 
Staff, the Military Department Assistant Secretaries for installations 
and environment, the Service Vice Chiefs, and the Deputy Under 
Secretary of Defense (Installations & Environment) to oversee joint 
cross-service analyses of common business oriented functions. With 
Congress' authorization of a base realignment and closure (BRAC) in 
2005, we have an opportunity to explore alternatives that provide an 
innovative, responsive, and reliable ammunition production industrial 
base.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson

                              SHIP REPAIR

    54. Senator Bill Nelson. Mr. Wynne, the Navy uses the ``cost plus'' 
Multi-Ship, Multi-Option (MSMO) approach to repair its ships on the 
west coast. The Navy is proposing the same approach for the east coast, 
which is currently using ``fixed price'' bids and competing the work on 
an individual ship basis to achieve the lowest cost. As a result, the 
data suggest that ship repair costs incurred by the Navy on the west 
coast on DDG 51 (the first class of ships on the east coast that the 
Navy proposes to use the MSMO approach) are two to three times greater 
for similar repairs than the costs experienced by the Navy on the east 
coast. What oversight of this contracting and workloading approach have 
you exercised from OSD--Acquisition, Technology, and Logistics?
    Mr. Wynne. I have not been directly involved with the Navy's 
acquisition approach for satisfying ship repair requirements on the 
east coast because it is below the threshold of acquisition programs 
that are normally brought to our attention. Nevertheless, the Navy's 
Service Acquisition Executive, has held numerous meetings on the Navy's 
internal review process to ensure the proper oversight of the DDG 51 
MSMO contract strategy. This oversight helped ensure that the contract 
strategy, works hare identification, small business utilization, and 
award fee structure are fair from a small business perspective and in 
alignment with the Navy's desire to be most efficient and effective in 
executing DDG 51 maintenance and modernization strategy. Also, with 
regard to the assertion that the west coast MSMO contracting approach 
costs two to three times greater than similar east coast ship repair 
contracts, the Navy has conducted a thorough analysis of maintenance 
expenditure data from both coasts. The Navy's analysis, when 
considering a similar scope and underlying assumptions, indicates that 
the spend rate on the west coast is similar to what is currently seen 
on the east coast.

    55. Senator Bill Nelson. Mr. Wynne, what is your assessment of the 
impact of this contracting method on the ship repair industrial base, 
especially for the mid-sized to smaller yards or contractors in ship 
homeports?
    Mr. Wynne. Our assessment, based on prior ship repair contracts on 
the west coast, is that this contracting method, which include the 
requirement to utilize small business in 40 percent of the production 
work and have a minimum of two small businesses participate, will help 
ensure that an efficient and effective small business industrial base 
is available to the Navy for the foreseeable future. The solicitation 
is structured to prevent one repair shipyard from winning the entire 
award, allowing the mid-size to smaller shipyards to remain competitive 
with large repair shipyards.

    56. Senator Bill Nelson. Mr. Wynne, what are the risks to the 
industrial base and how are you helping the Navy to anticipate and 
mitigate these risks?
    Mr. Wynne. The Navy does not anticipate that this methodology will 
have an adverse impact on the industrial base. However, the Navy is 
very sensitive to any potential impact on the small business industrial 
base that might occur by utilizing the DDG 51 MSMO strategy. In order 
to both identify and mitigate any risks, the semi-annual award fee 
evaluation board will evaluate the contractors' performance and 
evaluate the prime contractor's use of small business in executing the 
contract. Each of the ship repair projects in the contract will be 
negotiated separately as options and the entire contract will be 
awarded as a base year contract with option years which can be 
evaluated on an annual basis. This approach will allow the Government 
to better evaluate the effect of the DDG 51 MSMO in relation to the 
entire east coast small business repair industry and allow adjustments 
if deemed necessary.

    57. Senator Bill Nelson. Mr. Wynne, is DOD committed to fully fund 
this potentially more expensive ship depot maintenance plan?
    Mr. Wynne. As I indicated in my response to question #54, the Navy 
does not envision that this contracting strategy will result in a more 
expensive ship depot maintenance plan. The Department is fully 
supportive of the Navy's effort to both streamline and make more 
efficient surface ship maintenance and modernization. The DDG 51 MSMO 
is one of several strategies to help ensure the surface fleet can 
respond quickly and effectively in support of the Fleet's Readiness 
Plan. If executed as envisioned, the DDG 51 MSMO will provide a more 
efficient and effective maintenance methodology in supporting a surge 
capability for the U.S. Navy.
                                 ______
                                 
    [The nomination reference of Michael W. Wynne follows:]
                    Nomination Reference and Report
                           As In Executive Session,
                               Senate of the United States,
                                                 September 3, 2003.
    Ordered, That the following nomination be referred to the Committee 
on Armed Services:
    Michael W. Wynne, of Florida, to be Under Secretary of Defense for 
Acquisition, Technology, and Logistics, vice Edward C. Aldridge, 
resigned.
                                 ______
                                 
    [The biographical sketch of Michael W. Wynne, which was 
transmitted to the committee at the time the nomination was 
referred, follows:]

                Biographical Sketch of Michael W. Wynne 

    Michael W. Wynne is the Principal Deputy Under Secretary Of Defense 
for Acquisition, Technology and Logistics. The Senate confirmed him to 
this position on July 12, 2001.
    Prior to joining defense, he was involved in venture capital 
nurturing small technology companies through their start-up phase as a 
member of the NextGenFund Executive Committee and serving in executive 
positions within two companies.
    In 1999, Mr. Wynne retired as Senior Vice President from General 
Dynamics (GD), where his role was in International Development and 
Strategy. He spent 23 years with General Dynamics in various senior 
positions with the Aircraft (F-16s), Main Battle Tanks (M1A2), and 
Space Launch Vehicles (Atlas and Centaur).
    In between working with GD, he spent 3 years with Lockheed Martin 
(LMT), having sold the Space Systems division to then Martin Marietta. 
He successfully integrated the division into the Astronautics Company 
and became the General Manager of the Space Launch Systems segment, 
combining the Titan with the Atlas launch vehicles.
    Prior to joining industry, Mr. Wynne served in the Air Force for 7 
years, ending as a Captain and Assistant Professor of Astronautics at 
the U.S. Air Force Academy teaching Control Theory and Fire Control 
Techniques. Mr. Wynne graduated from the United States Military Academy 
and also holds a Masters in Electrical Engineering from the Air Force 
Institute of Technology and a Masters in Business from the University 
of Colorado. He has attended short courses at Northwestern University 
(Business) and Harvard Business School (PMD-42). He is a Fellow in the 
National Contracts Management Association, and has been a past 
President of the Association of the United States Army, Detroit Chapter 
and the Michigan Chapter of the American Defense Preparedness 
Association. He has published numerous professional journal articles 
relating to engineering, cost estimating, and contracting.
                                 ______
                                 
    [The Committee on Armed Services requires all individuals 
nominated from civilian life by the President to positions 
requiring the advice and consent of the Senate to complete a 
form that details the biographical, financial, and other 
information of the nominee. The form executed by Michael W. 
Wynne in connection with his nomination follows:]

       Principal Deputy Under Secretary of Defense,
                                    3015 Defense Pentagon, 
                                Washington, DC, September 15, 2003.
Hon. John Warner, Chairman,
Committee on Armed Services,
United States Senate,
Washington, DC.
    Dear Mr. Chairman: This letter provides information on my financial 
and other interests for your consideration in connection with my 
nomination for the position of Under Secretary of Defense for 
Acquisition, Technology, and Logistics. It supplements Standard Form 
278, ``Executive Personnel Financial Disclosure Report,'' which has 
already been provided to the committee and which summarizes my 
financial interests.
    To the best of my knowledge, none of the financial interests listed 
on my Standard Form 278 will create any conflict of interest in the 
execution of my new governmental responsibilities. Additionally, I have 
no other interests or liabilities in any amount with any firm or 
organization that is a Department of Defense contractor.
    During my term of office, neither I nor any member of my immediate 
family will invest in any organization identified as a DOD contractor 
or any other entity that would create a conflict of interest with my 
Government duties.
    I do not have any present employment arrangements with any entity 
other than the Department of Defense and have no formal or informal 
understandings concerning any further employment with any entity. If 
confirmed, I am committed to serve in this position at the pleasure of 
the President throughout his term of office.
    I have never been arrested or charged with any criminal offenses 
other than minor traffic violations. I have never been party to any 
civil litigation. To the best of my knowledge, there have never been 
any lawsuits filed against any agency of the Federal Government or 
corporate entity with which I have been associated reflecting adversely 
on the work I have done at such agency or corporation. I am aware of no 
incidents reflecting adversely upon my suitability to serve in the 
position for which I have been nominated.
    To the best of my knowledge, I am not presently the subject of any 
governmental inquiry or investigation.
    I am a member of certain organizations and professional societies, 
which are either listed below or have been previously provided to the 
committee. None of these should pose any conflict of interest with 
regard to my governmental responsibilities. I trust that the foregoing 
information will be satisfactory to the committee.
            Sincerely,
                                                  Michael W. Wynne.

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)
    Michael Walter Wynne.

    2. Position to which nominated:
    Under Secretary of Defense (Acquisition, Technology, and 
Logistics).

    3. Date of nomination:
    September 3, 2003.

    4. Address: (List current place of residence and office addresses.)
    [Nominee responded and the information is contained in the 
committee's executive files.]

    5. Date and place of birth:
    September 4, 1944; Clearwater, Florida.

    6. Marital Status: (Include maiden name of wife or husband's name.)
    Married to Barbara H. Wynne (Maiden Name - Hill).

    7. Names and ages of children:
    Lisa W. Henkhaus, 36.
    Collene W. Finn, 35.
    Karen W. Murphy, 32.
    Laura W. Killette, 27.

    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.
    7/1962-6/1966, United States Military Academy, West Point, NY, 
BSGE.
    7/1968-6/1970, Air Force Institute of Technology, WPAFB, OH, MSEE.
    9/1973-6/1975, University of Colorado, C. Springs, CO, MBA.

    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.
    6/2001-Present, Deputy Under Secretary of Defense (AT&L), 3015 
Defense Pentagon, Rm 3E1006, Washington, DC.
    12/2000-6/2001, Chairman/CEO, IXATA Group, 8989 Rio San Diego 
Drive, San Diego, CA.
    7/1997-10/1999, Senior Vice President, General Dynamics, 3190 
Fairview Park Drive, Falls Church, VA.
    5/1994-3/1997, GM, Space Launch System, Lockheed Martin 
Astronautics, Deer Creek Canyon Drive, Denver, CO.
    3/1991-5/1994, President, Space Systems, 5001 Kearney Villa Road, 
San Diego, CA.

    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.
    6/1966-6/1973, Officer in the USAF--Captain.
    6/1973-9/1975, Reserve Officer--Captain.

    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational, or other institution.
    None.

    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations.
    None.

    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.
    None.
    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.
    None.
    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.
    Republican National Committee, approximately $4,000.
    Republican Senatorial Inner Circle, less than $1,000.
    Democratic National Committee, less than $500.
    Senator Feinstein, approximately $750.
    Senator Allen, less than $500.
    Congressman Hunter, less than $500.
    Bush Campaign, less than $500.
    Texas Republican Party, less than $200.
    Virginia Republican Party, less than $500.
    Congressman Cunningham, less than $500.
    Senator Snowe, approximately $750.
    Lazio Campaign, less than $300.

    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.
    National Contract Management Association Fellow.
    Military Medals: Unit Excellence (AC130 Gunship Development).

    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.
    1970, Multiple reentry vehicles, AIAA/IEE proceedings.
    1972, Optimal Control; Sightline Autopilot, AIAA proceedings.
    1978, Impact of Labor Strike on Learning Curves for Manufacturing 
Society for Parametric Estimating.
    1985, RD&A Magazine, Benefits of the M1A1 Multi-year for the Army.

    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.
    (See attached).

    18. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to respond to requests to appear and testify before any 
duly constituted committee of the Senate?
    Yes.

                                 ______
                                 
    [The nominee responded to the questions in Parts B-F of the 
committee questionnaire. The text of the questionnaire is set 
forth in the appendix to this volume. The nominee's answers to 
Parts B-F are contained in the committee's executive files.]
                                ------                                

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.
                                                  Michael W. Wynne.
    This 15th day of September, 2003.

    [The nomination of Michael W. Wynne was returned to the 
President on December 8, 2004.]

                                APPENDIX

Committee on Armed Services Questionnaire on Biographical and Financial 
               Information Requested of Civilian Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                             (202) 224-3871
                    COMMITTEE ON ARMED SERVICES FORM
      BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Complete all requested information. If 
more space is needed use an additional sheet and cite the part of the 
form and the question number (i.e. A-9, B-4) to which the continuation 
of your answer applies.
                    Part A--Biographical Information
    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearing and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses.)


    5. Date and place of birth:


    6. Marital Status: (Include maiden name of wife or husband's name.)


    7. Names and ages of children:


    8. Education: List secondary and higher education institutions, 
dates attended, degree received, and date degree granted.


    9. Employment record: List all jobs held since college or in the 
last 10 years, whichever is less, including the title or description of 
job, name of employer, location of work, and dates of employment.


    10. Government experience: List any advisory, consultative, 
honorary or other part-time service or positions with Federal, State, 
or local governments, other than those listed above.


    11. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, company, firm, partnership, or other 
business enterprise, educational or other institution.


    12. Memberships: List all memberships and offices currently held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    13. Political affiliations and activities:
    (a) List all offices with a political party which you have held or 
any public office for which you have been a candidate.

    (b) List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 5 
years.

    (c) Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $100 or more for the past 5 years.


    14. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, military medals and any other special recognitions 
for outstanding service or achievements.


    15. Published writings: List the titles, publishers, and dates of 
books, articles, reports, or other published materials which you have 
written.


    16. Speeches: Provide the committee with two copies of any formal 
speeches you have delivered during the last 5 years which you have 
copies of and are on topics relevant to the position for which you have 
been nominated.


    17. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES
    Instructions to the Nominee: Information furnished in Parts B 
through F will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships
    1. Will you sever all business connections with your present 
employers, business firms, business associations or business 
organizations if you are confirmed by the Senate?


    2. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, explain.


    3. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or 
organization?


    4. Has anybody made a commitment to employ your services in any 
capacity after you leave government service?


    5. Is your spouse employed and, if so, where?


    6. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable?


                Part C--Potential Conflicts of Interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.


    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    6. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Attorney General's office concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


                         Part D--Legal Matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or civil litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations
    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.


                         Part F--Financial Data
    All information requested under this heading must be provided for 
yourself, your spouse, and your dependents.

    1. Describe the terms of any beneficial trust or blind trust of 
which you, your spouse, or your dependents may be a beneficiary. In the 
case of a blind trust, provide the name of the trustee(s) and a copy of 
the trust agreement.


    2. Provide a description of any fiduciary responsibility or power 
of attorney which you hold for or on behalf of any other person.


    3. List sources, amounts and dates of all anticipated receipts from 
deferred income arrangements, stock options, executory contracts and 
other future benefits which you expect to derive from current or 
previous business relationships, professional services and firm 
memberships, employers, clients and customers.


    4. Have you filed a Federal income tax return for each of the past 
10 years? If not, please explain.


    5. Have your taxes always been paid on time?


    6. Were all your taxes, Federal, State, and local, current (filed 
and paid) as of the date of your nomination?


    7. Has the Internal Revenue Service ever audited your Federal tax 
return? If so, what resulted from the audit?


    8. Have any tax liens, either Federal, State, or local, been filed 
against you or against any real property or personal property which you 
own either individually, jointly, or in partnership?


    (The committee may require that copies of your Federal income tax 
returns be provided to the committee. These documents will be made 
available only to Senators and the staff designated by the Chairman. 
They will not be available for public inspection.)

                           Signature and Date
    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.
                                 ______
                                 

Committee on Armed Services Questionnaire on Biographical and Financial 
       Information Requested of Certain Senior Military Nominees

                                ------                                

                          UNITED STATES SENATE
                      COMMITTEE ON ARMED SERVICES
                              Room SR-228
                       Washington, DC 20510-6050
                    COMMITTEE ON ARMED SERVICES FORM
   BIOGRAPHICAL AND FINANCIAL INFORMATION REQUESTED OF NOMINEES FOR 
                   CERTAIN SENIOR MILITARY POSITIONS

                      Instructions to the Nominee:
    Complete all requested information. If more space is needed use an 
additional sheet and cite the part of the form and the question number 
(i.e. A-9, B-4) to which the continuation of your answer applies.
    If you have completed this form in connection with a prior military 
nomination, you may use the following procedure in lieu of submitting a 
new form. In your letter to the Chairman, add the following paragraph 
to the end:

    ``I hereby incorporate by reference the information and commitments 
        contained in the Senate Armed Services Committee form 
        `Biographical and Financial Information Requested of Nominees 
        for Certain Senior Military Positions,' submitted to the 
        Committee on [insert date or your prior form]. I agree that all 
        such commitments apply to the position to which I have been 
        nominated and that all such information is current except as 
        follows: . . . .'' [If any information on your prior form needs 
        to be updated, please cite the part of the form and the 
        question number and set forth the updated information in your 
        letter to the Chairman.]

                    Part A--Biographical Information

    Instructions to the Nominee: Biographical information furnished in 
this part of the form will be made available in committee offices for 
public inspection prior to the hearings and will also be published in 
any hearing record as well as made available to the public.

    1. Name: (Include any former names used.)


    2. Position to which nominated:


    3. Date of nomination:


    4. Address: (List current place of residence and office addresses. 
Also include your office telephone number.)


    5. Date and place of birth:


    6. Marital Status: (Include name of husband or wife, including 
wife's maiden name.)


    7. Names and ages of children:


    8. Government experience: List any advisory, consultative, honorary 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed in the service record extract 
provided to the Committee by the Executive Branch.


    9. Business relationships: List all positions currently held as an 
officer, director, trustee, partner, proprietor, agent, representative, 
or consultant of any corporation, firm, partnership, or other business 
enterprise, educational or other institution.


    10. Memberships: List all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable and 
other organizations.


    11. Honors and Awards: List all scholarships, fellowships, honorary 
society memberships, and any other special recognitions for outstanding 
service or achievements other than those listed on the service record 
extract provided to the Committee by the Executive Branch.


    12. Commitment to testify before Senate committees: Do you agree, 
if confirmed, to appear and testify upon request before any duly 
constituted committee of the Senate?


    13. Personal views: Do you agree, when asked before any duly 
constituted committee of the Congress, to give your personal views, 
even if those views differ from the Administration in power?


                    COMMITTEE ON ARMED SERVICES FORM
         FINANCIAL AND OTHER INFORMATION REQUESTED OF NOMINEES

    Instructions to the Nominee: Information furnished in Parts B 
through E will be retained in the committee's executive files and will 
not be made available to the public unless specifically directed by the 
committee.

    Name:

                Part B--Future Employment Relationships

    1. Do you have any plans, commitments or agreements to pursue 
outside employment, with or without compensation, during your military 
service. If so, explain.


    2. Has anybody made a commitment to employ your services in any 
capacity after you leave military service?


                Part C--Potential Conflicts of Interest

    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients or customers.


    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.


    3. Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.


    4. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Please provide a copy of any trust or other agreements.)


    5. Do you agree to provide to the committee any written opinions 
provided by the General Counsel of the agency to which you are 
nominated and by the Office of Government Ethics concerning potential 
conflicts of interest or any legal impediments to your serving in this 
position?


    6. Is your spouse employed and, if so, where?


                         Part D--Legal Matters

    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional association, 
disciplinary committee, or other professional group? If so, provide 
details.


    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
Federal, State, county or municipal law, regulation or ordinance, other 
than a minor traffic offense? If so, provide details.


    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in any administrative agency 
proceeding or litigation? If so, provide details.


    4. Have you ever been convicted (including a plea of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense?


    5. Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.


                      Part E--Foreign Affiliations

    1. Have you or your spouse ever represented in any capacity (e.g., 
employee, attorney, business, or political adviser or consultant), with 
or without compensation, a foreign government or an entity controlled 
by a foreign government? If so, please fully describe such 
relationship.


    2. If you or your spouse has ever been formally associated with a 
law, accounting, public relations firm or other service organization, 
have any of your or your spouse's associates represented, in any 
capacity, with or without compensation, a foreign government or an 
entity controlled by a foreign government? If so, please fully describe 
such relationship.


    3. During the past 10 years have you or your spouse received any 
compensation from, or been involved in any financial or business 
transactions with, a foreign government or an entity controlled by a 
foreign government? If so, please furnish details.


    4. Have you or your spouse ever registered under the Foreign Agents 
Registration Act? If so, please furnish details.
      

                           Signature and Date

    I hereby state that I have read and signed the foregoing Statement 
on Biographical and Financial Information and that the information 
provided therein is, to the best of my knowledge, current, accurate, 
and complete.

                                ----------------------------------.

    This ---------- day of --------------------------, 20------.

                                 <all>
      

</pre></body></html>
